<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 108TH CONGRESS</title>
<body><pre>[Senate Hearing 108-856]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 108-856
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, 
                     SECOND SESSION, 108TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

  FRANCIS J. HARVEY; LAWRENCE T. DI RITA; WILLIAM A. CHATFIELD; TINA 
   WESTBY JONAS; DIONEL M. AVILES; JERALD S. PAUL; MARK FALCOFF; GEN 
GEORGE W. CASEY, JR., USA; ADM VERNON E. CLARK, USN; LT. GEN. JAMES E. 
CARTWRIGHT, USMC; VADM TIMOTHY J. KEATING, USN; LTG BANTZ J. CRADDOCK, 
  USA; PETER CYRIL WYCHE FLORY; VALERIE LYNN BALDWIN; DR. FRANCIS J. 
  HARVY; RICHARD GRECO, JR.; GEN. GREGORY S. MARTIN, USAF; JOSEPH F. 
   BADER; R. BRUCE MATTHEWS; OTIS W. BRAWLEY; AND VINICIO E. MADRIGAL

                               __________

JANUARY 28; FEBRUARY 4; APRIL 27; MAY 11; JUNE 24; JULY 8, 21; OCTOBER 
                          6; NOVEMBER 17, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

23-082 PDF                      WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)














                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            January 28, 2004

Nominations of Francis J. Harvey to be Assistant Secretary of 
  Defense for Networks and Information Integration; Lawrence T. 
  Di Rita to be Assistant Secretary of Defense for Public 
  Affairs; and William A. Chatfield to be Director of Selective 
  Service........................................................     1

Statements of:

Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.     2
Di Rita, Lawrence T., to be Assistant Secretary of Defense for 
  Public Affairs.................................................     5
Harvey, Francis J., Ph.D., to be Assistant Secretary of Defense 
  for Networks and Information Integration.......................     6
Chatfield, William A., to be Director of Selective Service.......     7

                            February 4, 2004

To Consider the Nominations of Francis J. Harvey to be Assistant 
  Secretary of Defense for Networks and Information Integration; 
  Lawrence T. Di Rita to be Assistant Secretary of Defense for 
  Public Affairs; and Certain Other Pending Military Nominations.    55

                             April 27, 2004

Nominations of Tina Westby Jonas to be Under Secretary of Defense 
  (Comptroller); Dionel M. Aviles to be Under Secretary of the 
  Navy; and Jerald S. Paul to be Principal Deputy Administrator, 
  National Nuclear Security Administration.......................    59

Statements of:

Jonas, Tina Westby, to be Under Secretary of Defense 
  (Comptroller)..................................................    67
Aviles, Dionel M., to be Under Secretary of the Navy.............    67
Paul, Jerald S., to be Principal Deputy Administrator, National 
  Nuclear Security Administration................................    68

                              May 11, 2004

Nominations of Tina Westby Jonas to be Under Secretary of Defense 
  (Comptroller); Dionel M. Aviles, to be Under Secretary of the 
  Navy; Jerald S. Paul to be Principal Deputy Administrator of 
  the National Nuclear Security Administration; William A. 
  Chatfield to be Director of the Selective Service; and Mark 
  Falcoff, to be a Member of the National Security Education 
  Board..........................................................   123

                             June 24, 2004

Nomination of GEN George W. Casey, Jr., USA, for Reappointment to 
  the Grade of General and to be Commander, Multi-National Force-
  Iraq...........................................................   127

                                 (iii)

Statements of:

Casey, GEN George W., Jr., USA, for Reappointment to the Grade of 
  General and to be Commander, Multi-National Force-Iraq.........   132

                              July 8, 2004

Nominations of ADM Vernon E. Clark, USN, for Reappointment to the 
  Grade of Admiral and to be Chief of Naval Operations; and Lt. 
  Gen. James E. Cartwright, USMC, for Appointment to the Grade of 
  General and to be Commander, United States Strategic Command...   177

Statements of:

Clark, ADM Vernon E., USN, for Reappointment to the Grade of 
  Admiral and to be Chief of Naval Operations....................   183
Cartwright, Lt. Gen. James E., USMC, for Appointment to the Grade 
  of General and to be Commander, United States Strategic Command   184

                             July 21, 2004

Nominations of VADM Timothy J. Keating, USN, for the Appointment 
  to the Grade of Admiral and to be Commander, United States 
  Northern Command/Commander, North American Aerospace Defense 
  Command; LTG Bantz J. Craddock, USA, for the Appointment to the 
  Grade of General and to be Commander, United States Southern 
  Command; Peter Cyril Wyche Flory to be Assistant Secretary of 
  Defense for International Security Policy; and Valerie Lynn 
  Baldwin to be Assistant Secretary of the Army for Financial 
  Management and Comptroller.....................................   245

Statements of:

Keating, VADM Timothy J., USN, for the Appointment to the Grade 
  of Admiral and to be Commander, United States Northern Command/
  Commander, North American Aerospace Defense Command............   251
Craddock, LTG Bantz J., USA, for the Appointment to the Grade of 
  General and to be Commander, United States Southern Command....   251
Lewis, Hon. Jerry, U.S. Representative from the State of 
  California.....................................................   263
Hobson, Hon. David, U.S. Representative from the State of Ohio...   264
Flory, Peter Cyril Wyche, to be Assistant Secretary of Defense 
  for International Security Policy..............................   267
Baldwin, Valerie Lynn, to be Assistant Secretary of the Army for 
  Financial Management and Comptroller...........................   268

                            October 6, 2004

Nominations of Dr. Francis J. Harvey to be Secretary of the Army; 
  Richard Greco, Jr., to be Assistant Secretary of the Navy for 
  Financial Management; and Gen. Gregory S. Martin, USAF, for 
  Reappointment to the Grade of General and to be Commander, 
  United States Pacific Command..................................   333

Statements of:

Brownback, Hon. Sam, U.S. Senator from the State of Kansas.......   335
Harvey, Dr. Francis J., to be Secretary of the Army..............   344
Martin, Gen. Gregory S., USAF, for Reappointment to the Grade of 
  General and to be Commander, United States Pacific Command.....   344
Greco, Richard, Jr., to be Assistant Secretary of the Navy for 
  Financial Management...........................................   345

                           November 17, 2004

To Consider the Nominations of Joseph F. Bader and R. Bruce 
  Matthews to be Members of the Defense Nuclear Facilities Safety 
  Board; Otis W. Brawley and Vinicio E. Madrigal to be Members of 
  the Board of Regents of the Uniformed Services University of 
  the Health Sciences; and to Vote on Certain Military 
  Nominations....................................................   407

APPENDIX.........................................................   411


 NOMINATIONS OF FRANCIS J. HARVEY TO BE ASSISTANT SECRETARY OF DEFENSE 
  FOR NETWORKS AND INFORMATION INTEGRATION; LAWRENCE T. DI RITA TO BE 
   ASSISTANT SECRETARY OF DEFENSE FOR PUBLIC AFFAIRS; AND WILLIAM A. 
             CHATFIELD TO BE DIRECTOR OF SELECTIVE SERVICE

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:08 p.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, E. Benjamin 
Nelson, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Gregory T. Kiley, professional staff 
member; Scott W. Stucky, general counsel; and Richard F. Walsh, 
counsel.
    Minority staff members present: Creighton Greene, 
professional staff member; Gerald J. Leeling, minority counsel; 
and Peter K. Levine, minority counsel.
    Staff assistant present: Leah C. Brewer.
    Committee members' assistants present: Derek J. Maurer, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Eric Pierce, assistant to Senator Ben 
Nelson; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will come to order. First I 
extend apologies to all with regard to the start again, stop 
again nature of this hearing. Due to the forecasted bad 
weather, we had no solid information that the hearing could go 
ahead this morning, because we were not sure that the 
Government was coming in or the Sergeant at Arms was going to 
convene the staff to support the Senate. So here we are and on 
short notice, but we have pulled it all together, and we are 
all here.
    With that, Senator, I would like to invite you to make your 
statement and then following that I will give my statement.
    Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman. I 
join you, I know, today in welcoming Mr. Di Rita, Dr. Harvey, 
Mr. Chatfield, and their families to the committee. I want to 
thank all of you, particularly the family members, for the 
sacrifices we all know that you will be asked to make. None of 
the nominees would be able to serve in these positions without 
the support of their families, and we thank you in advance for 
those hardships.
    Mr. Di Rita is well known to the committee from his 
previous service as Special Assistant to the Secretary of 
Defense, a job in which he has become intimately involved in 
the decisionmaking process for the entire Department. This 
experience should serve him well should he be confirmed as 
assistant Secretary of Defense for Public Affairs. I thank you, 
Mr. Di Rita, for the opportunity to have gone over a number of 
issues the other day.
    Dr. Harvey brings the accumulated knowledge of a 28-year 
career in the defense industry with the Westinghouse 
Corporation. Over the course of this lengthy and very 
illustrious career, Dr. Harvey has been involved in more than 
20 major systems development and production programs across a 
spectrum of platforms, including surface ships, submarines, 
aircraft, tanks, and missiles. This background will serve Dr. 
Harvey well should he be confirmed as Assistant Secretary of 
Defense for Networks and Information Integration.
    Mr. Chatfield, whom I have known for a number of years, the 
nominee to serve as Director of the Selective Service, has 
served in a variety of government positions over the last 25 
years. The Director of Selective Service oversees the 
registration of young men and women of draft age in the United 
States.
    I look forward to hearing from all of the nominees today. 
Mr. Chairman, I thank you for the opportunity to make these 
introductions.
    Chairman Warner. Thank you very much.
    I would like to invite our colleague Senator Hutchison to 
make her statement now and then I will have a few comments and 
perhaps Senator Pryor will as well. But I am sure you have a 
full schedule and you are anxious to keep moving.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you so much, Senator Warner. Mr. 
Chairman, Senator Nelson, Senator Pryor: I am very pleased to 
be here.
    There are two very important people that I have known for a 
long time who are before you today and I appreciate your 
rescheduling quickly, because they both need to hit the ground 
running and get on to their new important jobs.
    I want to start with Larry Di Rita because Larry was my 
chief of staff, so I know him so well. I cannot think of a 
better person to be Assistant Secretary of Defense. Certainly 
in his job for public affairs he will be excellent. He has even 
a much bigger role, I think, because he has been the Special 
Assistant to the Secretary. The Secretary has confidence in 
him, and I think that is important.
    But he is also so well versed in not only military issues, 
but military history. I found him as my chief of staff to be 
the smartest, funniest, nicest person that we have ever had in 
the Senate. He is really extraordinary. He is a Naval Academy 
graduate and has a master's degree from Johns Hopkins. I found 
that his judgment was always on target, and he had a 
perspective that comes from being very well read as well as 
knowing the issues of the moment.
    So I think he is a perfect choice for this position, and I 
hope he can be confirmed very quickly. I want to say that he is 
going to introduce his wife in a moment. His wife, Therese, and 
Larry and I have been really good friends from the very moment 
that I met him, and his length of experience will make him a 
superb candidate for this position.
    Bill Chatfield is from Texas and I am happy to also 
introduce him to be the Director of Selective Service. He has 
had several positions in administrations of the past. He served 
in Reagan's administration, where he was in the Office of 
Presidential Personnel. He was there when it was President-
elect Reagan, and he was staff for the Deputy Under Secretary 
for Policy at the Department of Defense. He has been on a 
Congressman's staff, Congressman Tom Kindness from Ohio, and 
has since then been in government relations and public affairs. 
He has been on active duty service in the U.S. Marines and was 
an intelligence analyst. He lives in Irving, Texas, and is 
active in the Marine Corps Reserve. He graduated from American 
University.
    I forgot to mention about Larry Di Rita that he also served 
in Operation Desert Storm, so he is a veteran of Operation 
Desert Storm before he left the service in 1994 to join the 
Heritage Foundation.
    So both of these gentlemen have wonderful records, and I 
recommend them to you for confirmation.
    Chairman Warner. Senator, for several years you were a 
member of this committee. You know it well. Your professional 
judgment of these two nominees carries great weight.
    Senator Hutchison. I thank you, Mr. Chairman. I have to say 
I wish I were still on the committee. It was the best committee 
I ever had. Thank you.
    Chairman Warner. You made a great personal contribution 
with us, I know.
    We thank you very much. I am sure you are about ready to 
move on to another challenge before this day is ended.
    Senator Hutchison. Thank you very much.
    Chairman Warner. First I would like to ask my colleague Mr. 
Pryor, do you have some comments?
    Senator Pryor. I do not, Mr. Chairman. Thank you.
    Chairman Warner. I am going to put into the record the 
statement usually made by the chairman in this connection.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    I am pleased that we have before the committee this morning three 
distinguished individuals who have been nominated for positions of 
significant responsibility and importance within the administration.
    Dr. Francis J. Harvey has been nominated to be the Assistant 
Secretary of Defense for Networks and Information Integration, a new 
position. Lawrence T. Di Rita has been nominated to be the Assistant 
Secretary of Defense for Public Affairs, and William A. Chatfield has 
been nominated to be the Director of the Selective Service System.
    We welcome the nominees and their families.
    Family support is critical to the success of individuals in senior 
positions in our Government. We thank you all for your role in 
contributing to the impressive careers of public service of our 
nominees.
    Dr. Francis J. Harvey comes well qualified for the position of 
Assistant Secretary of Defense for Networks and Information 
Integration. He brings over three decades of senior corporate 
management experience to this position, and has private sector 
experience in areas such as technology development, domestic and 
international banking, and academic governance, having served on the 
Board of Regents at Santa Clara University since 1999. Dr. Harvey was a 
White House Fellow in the Department of Defense in the late 1970s and 
served on the Army Science Board. Thank you for your willingness to 
serve in this new capacity.
    As noted in Senator Hutchison's introduction, Lawrence Di Rita is 
likewise well qualified for the position of Assistant Secretary of 
Defense for Public Affairs. A 1980 graduate of the Naval Academy with 
active-duty service as a surface warfare officer, Mr. Di Rita was Chief 
of Staff for our colleague and former member of this committee in the 
late 1990s. Mr. Di Rita went to work as a Special Assistant to 
Secretary Rumsfeld in early 2001, and has been a key advisor and 
spokesman for the Secretary since that time.
    William Chatfield has been nominated to head the Selective Service 
System. He is a Marine Corps Reserve Chief Warrant Officer with over 33 
years of officer and enlisted service. He had extensive and varied 
government service during President Reagan's administration, serving on 
the staff of the Deputy Under Secretary of Defense for Policy and in 
key staff advisory roles with the Civil Aeronautics Board, the Office 
of Personnel Management, the Department of the Interior, and the 
Interstate Commerce Commission.
    Our nominees have a wealth of experience, and I believe each of 
them will excel in the positions to which they have been nominated. We 
look forward to their comments and responses today.

    Chairman Warner. Senator Hutchison has covered two of the 
nominees. I would like to say a word about Dr. Harvey. You are 
here all by yourself, are you not?
    Dr. Harvey. Yes, sir.
    Chairman Warner. Well then, allow me to introduce you, 
because I had a very pleasant visit with you. You are a most 
impressive individual.
    Dr. Harvey. Thank you.
    Chairman Warner. The citizens of this country are fortunate 
that you are taking this very significant challenge and, at 
long last, coming into public service in this important 
position. You are well qualified for the position of Assistant 
Secretary of Defense for Networks and Information Integration. 
You bring over 3 decades of senior corporate management 
experience to this position and have private sector experience 
in areas such as technology development, domestic and 
international banking, and academic governance, having served 
on the Board of Regents at Santa Clara University since 1999.
    Dr. Harvey was a White House fellow in the Department of 
Defense in the late 1970s. What years were they?
    Dr. Harvey. 1978 and 1979, sir.
    Chairman Warner. 1978 and 1979, and served on the Army 
Science Board.
    Again, thank you for your willingness and that of your 
family to join us.
    Dr. Harvey. Thank you, Senator.
    Chairman Warner. Mr. Di Rita, you and I know each other 
very well, and I likewise think you are eminently qualified. I 
will prejudge that.
    Mr. Chatfield, we are getting to know you pretty fast, but 
I must say thank you very much for stepping up to what some 
might think is a challenge unlikely to occur. I was in the 
Department of Defense at the time the Secretary and others 
decided to end the draft, but I have strongly supported the 
legislation through my several years here in the Senate to have 
standby authority and other things in place should the occasion 
ever arise for that. I think it is important for the young men 
of this country to be conscious of an obligation that goes 
along with service.
    Would you kindly introduce your family, Mr. Di Rita?
    Mr. Di Rita. Mr. Chairman, I will Senator Nelson, Senator 
Pryor. I would like to introduce my wife Therese Shaheen.
    Ms. Shaheen. How do you do.
    Chairman Warner. Thank you very much.
    Mr. Di Rita. Thank you very much for having her join us 
today, sir. It was very nice of you to include her. She has 
been a great source of support for me, and she is currently 
serving as the Chairman of the American Institute of Taiwan 
over at the State Department.
    Chairman Warner. Very interesting.
    I have been known in this position over many years to say 
to the families it requires an enormous contribution to enable 
you to serve in the Department of Defense because of the hours 
involved in that Department. But you need not have that little 
observation from me, because you are well experienced in the 
time that Mr. Di Rita has been in office so far. So enough 
said.
    Dr. Harvey, you do not have anyone with you today. Mr. 
Chatfield, do you have family here?
    Mr. Chatfield. No, sir.
    Chairman Warner. No family members?
    Are any others deserving, Powell Moore, Assistant Secretary 
of Defense for Legislative Affairs, of introduction, other than 
yourself? [Laughter.]
    Mr. Moore. I think you covered it, Mr. Chairman.
    Chairman Warner. Well, thank you very much.
    Do any of my colleagues have anything further before we 
just hear briefly from the nominees? [No response.]
    We will start with you, Mr. Di Rita.

STATEMENT OF LAWRENCE T. DI RITA, TO BE ASSISTANT SECRETARY OF 
                   DEFENSE FOR PUBLIC AFFAIRS

    Mr. Di Rita. Thank you, Mr. Chairman, Senators. It is an 
honor to be here today and to be considered for this position 
of the Assistant Secretary of Defense for Public Affairs. I 
first want to thank Senator Hutchison for her kind words. She 
was a terrific boss. I worked for her for 5 years. She is a 
tremendous leader, as you certainly know, Mr. Chairman and 
Senators, a great Senator and first and foremost--and I think 
she would appreciate this--a great Texan. So I am very grateful 
that she was willing to do this today for me.
    Chairman Warner. Well spoken. She is a Senator with 
unlimited energy and vision.
    Mr. Di Rita. She is indeed.
    I also wish to thank President Bush for the confidence he 
has shown in me in nominating me to this position. I certainly 
thank Secretary Rumsfeld for his leadership and stewardship of 
the Department of Defense. It has been my great pleasure to 
work closely with him for 3 very interesting years.
    Chairman Warner. Well, you are very fortunate, as I can say 
with personal experience. I served in that building for a 
number of years, and served under three secretaries, and each 
of them left a very profound mark on my life. I have had the 
privilege, as you have had, to work with Secretary Rumsfeld. I 
think he is an absolutely outstanding Secretary of Defense and 
has put together a great team.
    So, consider yourself a lucky person.
    Mr. Di Rita. I do indeed. Thank you, Mr. Chairman.
    If I may say briefly, sir, of the many communications 
responsibilities that we do have in the Department of Defense, 
I believe it is vital that we never lose sight of our most 
important audience, and that is the military forces themselves 
and their families. We ask much of them, and we owe it to them 
to provide timely, accurate information in a time when that is 
challenging because of nearly instant and continuous 
communications media.
    Our public affairs office at the Department also has a 
wonderful opportunity to tell the story about our Armed Forces 
to the public, here at home and abroad. There are many media 
and methods of doing so, and the Department must use them all 
to get their magnificent story out.
    If confirmed, I would accept with pleasure the 
responsibility to work with this committee and with others in 
Congress to do what is right by and for the men and women who 
wear our Nation's uniform.
    I do thank you for your time today, Mr. Chairman, Senator 
Nelson, Senator Pryor.
    Chairman Warner. Tell us a bit about your own distinguished 
service in the United States Navy.
    Mr. Di Rita. I served for 13 years on active duty, sir. I 
was a surface warfare officer. I served on a variety of ships 
and one or two shore assignments, including on the Joint Staff 
for a couple of years. I served on both coasts and also abroad. 
I was stationed in Yokosuka, Japan, for 4 years.
    Chairman Warner. Well, given that the persons in uniform 
are your principal audience, you know them, and you understand 
them, and the importance of the families to be kept informed. I 
think it is very fortunate that we have a person that has had 
that active duty to take on this responsibility.
    Now, Dr. Harvey.

    STATEMENT OF FRANCIS J. HARVEY, Ph.D., TO BE ASSISTANT 
 SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION INTEGRATION

    Dr. Harvey. Thank you, Mr. Chairman, Senator Nelson, 
Senator Pryor. I am honored to appear before you this afternoon 
as the President's nominee to serve as the Assistant Secretary 
of Defense for Networks and Information Integration and the 
Chief Information Officer of the Department of Defense.
    I would first like to thank the President and Secretary 
Rumsfeld for their support and confidence by selecting me for 
this position. If I am confirmed, I look forward to the 
opportunity to serve my country at a time when our national 
security environment is markedly different and perhaps more 
complex than at any other time in our Nation's history.
    Under Secretary Rumsfeld's leadership, the Department has 
developed and is implementing a defense strategy to address the 
challenges of this 21st century security environment. One of 
the key elements of this strategy is defense transformation, 
which is focused on effecting significant changes in the way 
our military fights and the way the Department does business.
    From my perspective, the success of this transformation is 
critically dependent on the development, deployment, and 
integration of a Department-wide information infrastructure and 
supporting network that is global, interoperable, secure, real-
time, and user-driven, thereby establishing the foundation for 
network-centric operations.
    The position for which I have been nominated has primary 
responsibility for leadership, management oversight, and 
governance of all information activities across the Department 
and consequently has a major impact on the success of this 
transformation effort. If confirmed, I plan to intensely and 
energetically focus myself and the team that I lead on 
achieving this success.
    Let me close by stating that, if I am confirmed, I look 
forward to working with you, Mr. Chairman, and the rest of the 
members of the committee, as well as the dedicated men and 
women of the Department of Defense, to meet the challenges of 
this dangerous and uncertain world in which we live.
    Thank you, Mr. Chairman.
    Chairman Warner. An excellent statement. Thank you very 
much.
    Mr. Chatfield.

STATEMENT OF WILLIAM A. CHATFIELD, TO BE DIRECTOR OF SELECTIVE 
                            SERVICE

    Mr. Chatfield. Mr. Chairman, Senator Nelson, Senator Pryor: 
I also want to start by expressing my gratitude to the senior 
Senator from Texas. I have had the pleasure of knowing her for 
the last 20 years, and I agree with Mr. Di Rita, it is quite an 
honor that she would be here and give of her time.
    I am indeed further honored and humbled by the fact that 
President Bush has expressed his confidence in me to become the 
11th Director of Selective Service. Pending Senate 
confirmation, I do look forward to serving my country in this 
new position.
    At one time or another, I think most of us have dreamt of 
being placed in charge of an organization where we can make a 
difference. If I am confirmed as Director, you will be placing 
me in a fortunate situation. As someone who is very interested 
in national security and our Armed Forces, I believe I am 
highly qualified to preserve the best aspects of a proud agency 
that has a distinguished 63-year history, while making 
improvements to operational efficiency, motivating employees 
and volunteers, and boosting morale.
    The Selective Service System is an important Federal 
agency, with dedicated people doing terrific work. But there is 
always room for improvement. I know about people. I have 
studied how the Selective Service System operates. I understand 
its importance to national defense readiness as America's only 
proven defense manpower insurance for our Nation's all-
volunteer military.
    I stand ready to make the needed improvements to the 
agency's structure and defend its budget and necessary 
existence as a key component of national defense readiness. 
Because of personal experience with the military and our 
wonderful veterans, I also understand and believe in the role 
that every young man must play with regard to Selective 
Service. I will encourage the 2 million men reaching age 18 
every year in the United States that they must live up to their 
patriotic, legal, and civic obligations to help provide for the 
common defense by registering with Selective Service.
    With your support, I stand ready to take up the challenges 
of this important assignment, and I thank you for considering 
me.
    Chairman Warner. Thank you very much.
    The committee asked our witnesses, colleagues, to answer a 
series of advance policy questions. Each of the nominees has so 
responded and, without objection, I will make the questions and 
responses part of the record.
    As chairman, it has been the tradition of this committee to 
ask of all presidential nominees the following standard 
questions, which I will propound and receive an individual 
response from each of you. First, have you adhered to 
applicable laws and regulations governing conflicts of 
interest? Dr. Harvey?
    Dr. Harvey. Yes.
    Mr. Di Rita. Yes, I have.
    Mr. Chatfield. Yes.
    Chairman Warner. Thank you.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    Dr. Harvey. No.
    Mr. Di Rita. No, sir.
    Mr. Chatfield. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with the deadlines established for requested communications by 
the committees of Congress, including questions for the record 
in hearings?
    Dr. Harvey. Yes, sir.
    Mr. Di Rita. Yes.
    Mr. Chatfield. Yes, Mr. Chairman.
    Chairman Warner. Will you cooperate in providing briefers 
and witnesses in response to the committees of Congress?
    Dr. Harvey. Yes.
    Mr. Di Rita. Yes, sir.
    Mr. Chatfield. Yes.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or briefings?
    Dr. Harvey. Yes, sir.
    Mr. Di Rita. Yes, sir.
    Mr. Chatfield. Yes.
    Chairman Warner. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views 
even if those views differ from the administration that 
appointed you?
    Dr. Harvey. Yes, sir.
    Mr. Di Rita. Yes.
    Mr. Chatfield. Yes.
    Chairman Warner. Thank you.
    We will now call on our witnesses. You have already stated 
your opening statements, but we will open the floor for 
questions. Senator Nelson, why don't you lead off, and I will 
follow with wrap-up questions.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Harvey, in your answers to the pre-hearing policy 
questions you mentioned that the Deputy Secretary of Defense 
had transferred the space policy oversight from the Office of 
the Assistant Secretary of Defense for Networks and Information 
Integration to the Under Secretary for Policy. If you are 
confirmed, how do you see your role developing in the policy 
oversight of those space programs that will be critical to 
achieving the Department's goals for improving communications 
capability?
    Dr. Harvey. Thank you, Senator. I see my role as a 
supporting role in regards to policy, but my understanding, my 
initial understanding, is that in regards to space 
communication programs, that we still have program oversight 
responsibility in my role as the Assistant Secretary.
    So the policy component is transferred over to the Under 
Secretary of Policy, but the program oversight responsibility 
stays with this office. So we have the duty to ensure that the 
cost, schedule, and technical objectives of these programs are 
met. It is a complementary and supporting role, but an 
important role, I think.
    Senator Ben Nelson. Do you see a conflict developing 
between policy and the integration of processes?
    Dr. Harvey. No, I see it as an iterative process. It is 
like a lot of other things that go on in the Department, where 
you start with a position, or a point, and then there are 
inputs to the policy and there are changes, modifications to 
the policy. Once that process goes on, and the decisions are 
made by the Deputy Secretary and the Secretary, then we execute 
on that policy.
    But I see a collaborative, iterative process leading up to 
that.
    Senator Ben Nelson. One of your primary tasks will involve 
the policy oversight of the programs supporting the 
communications upgrades inherent in defense transformation. In 
essence, these programs are intended to provide much better 
situational awareness throughout the defense establishment. 
Some have raised concerns about whether this DOD effort will 
adequately consider requirements for supporting existing and 
future intelligence systems operated by the combat support 
agencies.
    If you are confirmed, what would be your intent in ensuring 
that DOD communications improvement plans are harmonized 
throughout DOD in the Intelligence Community? What are the 
biggest concerns that have been raised with respect to 
intelligence and other operations?
    Dr. Harvey. My initial understanding and, believe me, I do 
not quite know the details yet, but my initial understanding is 
that the Chief Information Officer (CIO) and the Assistant 
Secretary has responsibility for reviewing programs, including 
all information technology (IT) programs across the Department, 
all the components, the service agencies, the combat support 
agencies, assessing the performance of those programs, and, as 
the principal staff adviser to the Secretary, to make 
recommendations on those programs in regards to their 
performance, resources, improvements, whether they should be 
continued or terminated, and so forth.
    My current understanding is I have programmatic oversight 
responsibilities across the Department and my plan, and 
certainly my management style, would be to ensure that those 
programs meet their stated cost, schedule, and technical 
objectives and are integrated with other associated programs.
    Senator Ben Nelson. At the end of some day, the question 
would be will the different groups within the military be able 
to talk with one another through the technological wonders that 
we all share today? We understand at the present time that is 
not the case.
    Dr. Harvey. Excellent point, Senator. Interoperability is 
one of the objectives. My current understanding of the future 
state of this communications network, the so-called Global 
Information Grid, that in the development of that, in the 
architecture of that, that interoperability is--without that, 
nothing, a sine qua non capability. Believe me, I will be 
dedicated to ensure that happens.
    I think the plans are in place to do that. The architecture 
downstream is to do that. We clearly do not have that today, 
but I can tell you, as I said in my opening statement, I will 
energetically and enthusiastically pursue that, because it does 
not do us any good not to have that capability at the end of 
the day. It would be a waste of money and at the end of the day 
we certainly want our warfighting forces to be more militarily 
effective and be in a position to be interoperable, and from my 
point of view, I think that will save lives.
    So it is all a plus-plus, and I will be dedicated to ensure 
that happens.
    Senator Ben Nelson. Well, it seems to me that you share the 
view that IT is about tools, not toys.
    Dr. Harvey. That is exactly right.
    Chairman Warner. Let us let our colleague Mr. Pryor ask 
some questions, and we will come back to another round.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Mr. Di Rita, I have a question based on your answer to the 
written questions submitted beforehand. It talks about 
responsibilities, and it asks about your principal 
responsibilities. You said: ``My principal responsibilities, if 
confirmed, would be to assure the Secretary that the Department 
is doing all it can to tell the story of the men and women 
serving all of us by defending our country.''
    Could you elaborate on that answer a little bit?
    Mr. Di Rita. Yes, Senator. What I mean when I say that is I 
do view the responsibilities of the Office of the Assistant 
Secretary for Public Affairs in sort of a two-track way, that 
we have a very important responsibility to communicate inside 
the Department. This is a Department of over 2 million people 
when you include the reservists and civilians. It is an 
enormously large and complex organization.
    Particularly at a time when there is an awful lot of change 
and we are engaged in a global war, the importance of 
communicating inside the Department cannot be overstated. When 
you look at all of the instantaneous global communications and 
the opportunities that people inside the Department have to get 
news and information from a variety of sources, being able to 
convey important messages to the troops in particular, and, 
particularly, deployed forces, it is very important, and we 
have learned that in the course of the mobilization and the 
deployments with respect to Iraq and Afghanistan. So that is 
one element.
    The other element that I think we have a very important 
responsibility to do is to quickly, in a timely way, and 
accurately, get news and information out to the public. That is 
something that we work hard at. We are structured and organized 
to do that and we have a variety of ways that we do do it.
    Senator Pryor. I guess your answer, your written answer, 
sort of implies those things, but it just did not spell it out. 
I notice in my notes a Defense Directive that talks about 
ensuring the free flow of information and news to the news 
media, etcetera.
    Mr. Di Rita. Yes, sir.
    Senator Pryor. So I understand this directive is both 
internal and external, and I just wanted to hear a little 
elaboration on that.
    Second, in a related vein, we all know, there has been a 
lot of news coming out of the Department of Defense in the last 
couple years, and more so with our activities in Iraq, 
Afghanistan, and other places around the globe. How would you 
rate the job that the Department of Defense has done in the 
last couple years in providing information, both internally and 
externally?
    Mr. Di Rita. I think it has been uneven. We learn as we go 
along. One of the experiences that we have had--and I mentioned 
it in the previous question--is that we are dealing at the 
current time with--take the internal communications challenge. 
We are dealing at the current time with some significant number 
of National Guard and Reserve components mobilized. They are 
scattered. They do not live in the same geographical area. It 
is important to get information to them that is timely, that 
affects their lives and their families' lives. We have 
developed better tools as we have gone along in the process to 
do that in a more sophisticated way. But it is something that 
we work very hard to try and do well all the time.
    In terms of news to the general public, I think what I 
would point to first and foremost is the frequency with which 
senior officials at the Department communicate. The Secretary 
sets the example, but we have a lot of senior officials who 
have spent an awful lot of time doing this. This year alone we 
have probably conducted--we have something that we call 
Operation Tribute to Freedom where we essentially hold town 
hall meetings around the country. We have made officials of the 
Department, and returning deploying forces and others available 
to members of Congress who would like to include them in town 
hall meetings. We probably have 500 events scheduled this year, 
community outreach type activities.
    We did the embedding process during Operation Iraqi 
Freedom, which gave, I think, the general public a very 
important insight into the mission and the capabilities of our 
Armed Forces in a way that, I believe, is probably 
unprecedented.
    So there are a lot of tools, and we do always look for ways 
to get better.
    Senator Pryor. You mentioned at the beginning of that 
answer that it has been uneven. Do you have specific plans to 
even that out and avoid those valleys?
    Mr. Di Rita. If I am confirmed, one of my principal 
objectives would be to even it out. I do not have any unique 
proposals to offer other than, as I said, we learn as we go 
forward, and we have seen things work. For example, the 
embedding program. We think that it's a program that still has 
a lot of merit in Iraq. It is a difficult place in Iraq; it is 
a difficult environment for reporters to report, and we have 
offered reporters the opportunity to be embedded with units in 
Iraq. It is more difficult to persuade reporters in an 
environment where they are not tied to a specific unit, but 
there are advantages to doing that.
    So it is something that we will keep trying to encourage. 
But that is just one example.
    Senator Pryor. Mr. Chairman, that is all I have. Thank you.
    Chairman Warner. You go ahead, Senator Nelson.
    Senator Ben Nelson. Mr. Di Rita, in early 2002, the 
Pentagon's new Office of Strategic Influence was abandoned 
after public concerns were raised that the office might provide 
false news stories to journalists in an effort to influence 
policymakers and the public in friendly countries overseas. A 
year later, similar concerns were expressed when the New York 
Times reported that the Department was planning to revise a key 
directive on information operations to authorize operations 
directed at influencing public opinion and policymakers in 
friendly and neutral countries. Last month, the New York Times 
reported that the Pentagon had awarded a $300,000 contract to 
Science Applications International Corporation (SAIC) to study 
how the Department could design an effective strategic 
influence campaign around the world.
    In your view, what is the appropriate role of the 
Department of Defense, as opposed to the Department of State, 
in trying to influence policymakers in friendly and neutral 
countries around the world? As a secondary question, under what 
circumstances, if any, do you believe that it would be 
appropriate for the Department of Defense officials, any 
Department of Defense officials, to intentionally provide false 
or misleading news stories to journalists in the United States 
or friendly countries?
    Mr. Di Rita. If I could expand a little bit on the premise.
    Senator Ben Nelson. By all means.
    Mr. Di Rita. The question of how the United States 
communicates in the world is a most important one. I would say 
that in the world we live in now, the Government of the United 
States is not particularly well organized to do that. It is 
something that during the Cold War we had established a variety 
of mechanisms that seemed to fit the times. We had various 
government agencies that were committed to public diplomacy and 
to communicating the principles of America and the objectives 
of our foreign policy. A lot of those organizations were 
disbanded or somehow consolidated after the Cold War for a 
variety of reasons that were probably appropriate at the time.
    But it is a difficult challenge that we face, in a world 
where--and this is not my term, but others have said--in some 
sense our very ideas, ideals and principles are at stake, are 
being challenged by others who do not feel as constrained as we 
do to tell the truth. So it is a very important thing that we 
have to set ourselves about doing, and that is developing 
mechanisms that we can influence. ``Influence'' can take on 
overtones that it need not. We certainly want to try and 
influence others to understand what American principles are and 
what objectives we have in our foreign policy. At the moment, 
our objectives in foreign policy have to do with, in large 
part, discrediting the notion of terrorism as an instrument of 
power.
    So you asked, what is the role, the proper role of the 
Department of Defense and the Department of State? To be very 
specific, the Department of State has public diplomacy 
functions. They perform those functions well, with people who 
are well intended. The Department of Defense has information 
operations that are more targeted at military operations, 
influencing the battlefield. It was used to some significant, 
and I would say effective, measure in Operation Iraqi Freedom 
as well as Operation Enduring Freedom in Afghanistan. The 
combatant commanders use various tools at their disposal to try 
and influence the battlefield through public information 
campaigns, and I think those are entirely appropriate, and 
those too are areas where we continue to try and learn and get 
better.
    Senator Ben Nelson. You would agree, though, that there is 
a difference between a strategic effort to influence and 
providing public information? Obviously, public information can 
influence, depending on what the facts are. But there is a 
difference between trying to lay out facts for people to draw 
their own conclusions and another thing altogether to try to 
influence their conclusions in a certain direction.
    Mr. Di Rita. It is a fair point, Senator. I think, again, 
the term ``influence'' can have connotations when you are 
trying to educate elite opinion in foreign countries.
    Senator Ben Nelson. Or inform.
    Mr. Di Rita. Educate or inform opinion in other countries. 
Some may see that as trying to shape influence in those 
countries. I am not sure it has to be seen in any way other 
than what it is intended, which is to try and convey to 
particularly elite opinionmakers the principles of American 
foreign policy and American security policy.
    So it is something that, again, I would just zoom out a 
little bit. It is an important priority for this government and 
one that I think Congress has some opportunity to provide 
oversight and leadership over, because it is one in which, I 
would just say, my observation is, we are not particularly well 
organized for the period ahead.
    Senator Ben Nelson. Thank you.
    Mr. Di Rita. Yes, sir.
    Chairman Warner. Senator Pryor, do you have any more 
questions?
    Senator Pryor. No, thank you.
    Chairman Warner. Mr. Di Rita, I would have to tell you that 
I have known, through many years of association with the 
Department, a lot of your predecessors. I would rank your 
immediate predecessor, Torie Clarke, as among the most able 
persons that ever occupied that position. Did you have an 
opportunity to work directly with her?
    Mr. Di Rita. I did. I would, first of all, agree with you. 
I did not probably know as many predecessors as you did, Mr. 
Chairman, but I can say that Torie is a gifted communicator, 
and she was a communicator first and foremost. I worked closely 
with her. I learned an awful lot from her, probably not enough, 
and it is a dual challenge to take this job and also to take 
this job behind Torie Clarke. But, if confirmed, I will 
certainly work hard to measure up to the many standards that 
she set.
    Chairman Warner. I also feel that the Secretary and the 
Deputy handle their press appearances quite well. He sort of 
arrives with a smile on his face, and he leaves with a smile on 
his face.
    Mr. Di Rita. They do indeed. I agree with you, Mr. 
Chairman.
    Chairman Warner. I will never forget, on September 11, I 
called the Secretary up and just chatted with him a little bit 
because I had known him for a long time. He invited me over. I, 
in turn, called Senator Levin, and Senator Levin and I both 
went over.
    We went into the press room, and it was magnificent, the 
way he handled himself together with the chairman. That sort of 
cemented in my mind that he can really handle that job. So I am 
wondering why he really needs you? [Laughter.]
    Mr. Di Rita. I have asked the same question myself.
    Chairman Warner. Well, I was just kind of suggesting you 
leave well enough alone, and do what you can to defend him 
against the barbs.
    Mr. Di Rita. The ``do no harm responsibility.''
    Chairman Warner. Now, I wish I could say that about the 
Legislative Affairs Department. Therein we have a fairly good 
working relationship, but, fortunately, with the long 
friendship that you and I have had, Secretary Moore, we manage.
    One of the issues that was before Ms. Clarke, and now is 
still before you, is that question about handling of the 
distressing reports connected with casualties, be it loss of 
life or loss of limb. My colleagues around the table here from 
time to time have expressed some concern about it, and as a 
consequence we put in the fiscal year 2004 legislation a 
provision that requires the Department, not later than May, to 
prescribe a policy regarding public release of the names and 
other identifying information about military members who, 
regrettably, become casualties.
    I would hope that you could stay on track with regard to 
the date and come up with something that would be workable.
    Mr. Di Rita. I will, Mr. Chairman, and I will look at that 
in particular. I am aware of the legislation. I have not made a 
study of it or of the policy in general, although I do know 
that, again in this time of instantaneous communications, it is 
always a challenge to ensure the proper notification and the 
proper sequencing. As I understand the current policy, we do 
try and give the families as much advance notice as possible.
    Chairman Warner. The emphasis you place, or how you 
prioritize, for lack of a better word, between those who have 
lost their lives and those who have been injured, is important. 
I mean, stop to think. All of us who have visited Walter Reed, 
and I am sure you have, have seen firsthand the tragic wounding 
of individuals and the burden it has put on their families for 
an indefinite period of time in many instances. So I am glad 
that you are going to do this.
    Now, Mr. Chatfield, this committee, all through the many 
years I have been here has been concerned about how the high 
schools treat recruiters. That will not be in your direct area, 
but a first cousin of that is the registrars that you have to 
send out. Have you looked into that, what problems there may 
be? It may be too early to ask you, but I will ask you, but you 
do not have to answer today: would you give some thought to 
legislation that would help you?
    Mr. Chatfield. Well, Mr. Chairman, to this point I have 
been briefed that the registrars--there are about 25,000 post-
secondary schools participating in that program. I think it is 
about 82 percent. If I am confirmed, we are going to try to, of 
course, enhance that figure.
    At this point in time, initially the Selective Service 
staff has shared with me, that it is going along quite well, 
and further legislation might be possibly conceived or 
misconceived as big brother trying to horn in. Mr. Chairman, if 
I am confirmed in the position, I will certainly take a look at 
that and inform this committee as to what I would feel if we 
might need some legislative help.
    Chairman Warner. My next question is to you, Dr. Harvey. 
The background, and I want to make it very clear the question 
is not asked in any way to express any criticism to what we 
call affectionately ``the other body,'' the House of 
Representatives. But in the last round of conference with the 
House, we had quite a difference on the issue of Buy America. 
Putting aside for the moment how that finally was resolved--and 
I think it was resolved, from our perspective, and I hope my 
good friend the chairman in the House feels the same, in a 
proper way at this point in time.
    But this issue of Buy America is going to be examined by 
this Congress in a broader context than in the Department of 
Defense. Every day we hear about a loss of jobs, the exporting 
of those jobs overseas. So it is likely to be addressed again 
in this bill.
    But your area is one which you and I shared some thoughts, 
and I have some familiarity with it in the modest training I 
had many years ago. Information technology, comprising both 
computer and telecommunications equipment, is critical to our 
weapons systems. This technology in many cases is commercially 
developed and dependent on global suppliers for component parts 
and research and development (R&D). Indeed, many contractors 
are now relying on overseas participation. Also, there should 
be I think, the maximum amount of exchange achievable between 
other nations and their counterparts to yourself.
    Suddenly, if we see another Buy America coming along, I 
would hope that you would guard at the gate on this. I am not 
so sure that if we move out into a Buy America legislative 
pattern that those areas in which you have responsibility are 
well protected to give you the maximum freedom to deal with 
sources abroad or wherever you think you can get the best 
equipment to do the job you can.
    Have I sufficiently framed the problem?
    Dr. Harvey. Yes, your words are right on the mark. It is a 
very difficult issue. I have had past experience with this in 
the defense industry. We had certain Buy American provisions, 
and certainly the positive--there are positives and negatives 
involved here. I think, in theory, you are trying to accomplish 
from an economic point of view, and from a U.S. point of view, 
an ideal situation, where you are driving down the cost of a 
product. You are improving its performance, and at the same 
time that means that you are increasing your markets. You are 
increasing your market share, and therefore you are hiring 
people to do other functions if you are outsourcing certain 
components to foreign markets.
    Now, my experience is that it is very difficult to 
administer Buy American provisions. I just had the opportunity 
to buy a Dell computer last summer, state of the art, and I 
noticed when it came to me the monitor was made in China. Some 
of the software, the operating system part of it, was made in 
India, and the disk drive was made in Thailand. I think it was 
assembled in the United States, but they did not tell me.
    So that begs the question of what does ``Buy America'' 
mean? Are we going to define 51 percent American labor, 
American components, and so forth?
    Chairman Warner. Let me give you a little bit of advice. 
Why do you not just think about it? This is in the record right 
now.
    Dr. Harvey. Okay.
    Chairman Warner. But I just want to bring this to your 
attention, and you have to focus on it.
    Dr. Harvey. Yes, and it is important.
    Chairman Warner. I want you to learn more about this area, 
because some colleagues might have a view different than yours, 
and we might have to bring you back up here and really go after 
you.
    Dr. Harvey. Okay.
    Chairman Warner. Do we understand each other?
    Dr. Harvey. Thank you, Mr. Chairman. I will think about it, 
and I have thought about it.
    Chairman Warner. All right. Do other colleagues have any 
questions? Ben, do you want to ask one?
    Senator Ben Nelson. I do, for Mr. Chatfield.
    I probably ought to give you the same advice and counsel 
that the chairman just gave the good doctor there a minute ago 
before I ask you the question. The new All-Volunteer Force 
obviously has served the Nation well. It has provided us with 
the best military in our history in the world. The quality of 
our service personnel has never been better. Everyone seems to 
agree with that, and the military leaders do not want to go 
back to a conscripted military.
    Based on that, is there any reason that you can give us to 
continue the registration requirement for 18-year-old males 
living in the United States? If we are not looking to return to 
that system, and nobody is pursuing that system, the question I 
ask is the obvious one: Why do we perpetuate the system?
    Mr. Chatfield. Senator Nelson, this to my awareness has 
become----
    Senator Ben Nelson. I bet you thought I was going to ask 
you if we go back to the draft, whether we should draft men and 
women. But I am not going to ask you that.
    Mr. Chatfield. Senator Nelson, I am so glad you did not ask 
me that. [Laughter.]
    But the question you did ask, sir, has been asked and 
addressed by this body ever since 1980, many times, by 
administrations as well. The bottom line at this moment, I have 
been told, is that it is still certainly purposeful as an 
insurance policy, if you will, an accurate insurance policy, a 
database that, were I to be confirmed, I would ensure the 
accuracy of that database. If called upon, and if our friends 
at the Department of Defense do ever task through congressional 
mandate, of course, that there be a call-up of some kind, the 
Selective Service must be ready to act upon that with that 
accurate database.
    The feeling at the agency is that it provides that 
capability and therefore in fact has a raison d'etre, because 
it is there to provide for the common defense in a way that, if 
needed, it would be ready to go.
    Senator Ben Nelson. But you might agree with this, that the 
very fact that we are considering your nomination today will 
cause some people to say, given all the stories that are being 
written about a potential erosion in the Reserve and Guard 
units because of the overutilization of those units, and 
because of the lengthy commitments and deployments that many of 
the Active-Duty Forces will have, that this is more than a belt 
and suspenders, it is just a prelude to going back, to a 
request to consider going back to a conscripted force.
    Mr. Chatfield. Well, sir, again I analogize the scenario 
somewhat like preventive medicine: An ounce of prevention is 
worth a pound of cure. I am fortunate, or if I am confirmed I 
would be fortunate, with the agency to be a service 
organization, not a policymaker. That of course once again lies 
in the hands of this body, this particular committee, and the 
President of the United States, and any decision to be made to 
change the system as far as reinstating the draft or what have 
you, were I to be in that job, I would be very proud of being 
ready to administer that which is legislated and be ready to 
go, to do it in a timely, fair, and equitable fashion.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, Mr. Chatfield. I have no further questions.
    Chairman Warner. I would like to make an observation or 
two, again drawing on my experience through many years, going 
back to World War II. I was not drafted. I volunteered. But I 
served with a lot of draftees during that period, and I suppose 
that was my introduction to a very important distinction, and 
that is I was there because I volunteered and wanted to be 
there and a lot of other folks were there because they were 
drafted and they did not want to be there.
    I saw the friction in the gearbox between those two 
approaches to service, and I witnessed it again during the 
conflict in Korea, and certainly I witnessed it when I was in 
the Department during Vietnam.
    I certainly support what you are doing, and I think we 
should continue it, but people should stop to think that this 
All-Volunteer Force is extraordinary, and every single 
individual is there because they want to be there. This Nation 
has to think very carefully of the consequences if we were to 
move towards a draft.
    In the first place, any draft would have to be predicated 
on fairness. The first issue we would have to face is whether 
or not women would be subjected to the draft as well as the men 
if we had to bring it about. That is step number one. Step 
number two is that the total number of recruits--I just asked 
my assistant--the total pool of eligible 18-year-olds far 
exceeds what the projected needs are for the Armed Forces, 
which means that if you started a draft you would have to go 
down and pick out just a few compared to all those that would 
be eligible by virtue of being 18 and, presumably, in sound 
mind and sound health.
    So that is the first cut where there is some measure of 
discrimination or luck by what system you pick one and not pick 
the other. Then you get into the question of deferments, and I 
saw that very dramatically during the war in Korea, because I 
remember I trooped off and came back to law school and a lot of 
folks who had never seen World War II service were still there, 
had gotten all the deferments, went on out and graduated and 
still had never served. I always felt that was a somewhat 
inequitable situation.
    Lastly, since you cannot use the whole pool and those you 
do use would have to put their life on the line, in fairness 
you would have to utilize those that are not taken in the 
military as a civilian corps of workers. You are talking about 
significant costs and investments. You try and set up some type 
of civilian corps of workers to do perhaps wonderful jobs to 
help this country in many respects, but the cost is tremendous.
    Then do those civilian workers get a GI Bill, just like the 
folks who go into uniform? Therein is another big cost. Then 
you start thinking the military person gets what we believe is 
the best of health care. Are the folks in the civilian corps 
entitled to the best of health care? Then suddenly you are 
looking at major dollars.
    Some day, sit down and think that through and look at the 
record of my observations here and see whether you agree or 
disagree. Perhaps you will think of other aspects of that, 
because we actually have a bill that is in the House now to 
reinstate the draft, put in by a man that I admire a great 
deal. As a matter of fact, he is a gentleman that served in 
Korea with distinction in the United States Army in a combat 
position. He is a man that understands military life. So that 
bill may come over here, and we may have to address that issue, 
and you would be among the first people I would call up and get 
a little advice from.
    Mr. Chatfield. I would be honored, sir.
    Chairman Warner. Good.
    Now, Dr. Harvey, the Navy-Marine Corps Intranet, are you 
familiar with that?
    Dr. Harvey. Just in a very general sense.
    Chairman Warner. This committee played a major role in 
getting it established, and it is close to $7 billion. An awful 
lot of wonderful things can come from this, but if there is a 
weak link in it I am concerned that the whole thing might not 
function. I am going to ask you to commit to this committee 
that you are going to spend a good deal of time on that program 
and that you will come to this committee if you are concerned 
that there is a risk it is not going to work the way Congress 
intended and the Department of Defense is trying to implement. 
All right?
    Dr. Harvey. I am committed, and I will apply my normal 
programmatic background to ensure that it is either on 
schedule, on cost, or it is not and what we are going to do to 
fix it.
    Chairman Warner. Lastly, Mr. Di Rita, again ``Stars and 
Stripes.'' I have a great affection for that periodical, and I 
am a strong supporter of it. I would hope that you would find 
the time to really see what you can do to help it become even a 
better means of communication to the men and women of the 
military, because it is read all over the world.
    Mr. Di Rita. I will spend time on it. It is in Iraq. It is 
being published in Baghdad.
    Chairman Warner. Absolutely.
    Mr. Di Rita. It is a very important tool for 
communications.
    Chairman Warner. The troops like to stick it under their 
arm and read it whenever they get a few spare moments.
    Mr. Di Rita. Yes, sir.
    Chairman Warner. Good.
    Well, colleague, I think we have seen some excellent 
individuals nominated by our President and with the Secretary 
of Defense's endorsement. Now it is left up to us to evaluate 
them. This committee will take into consideration the record 
that my colleague and I have established today. I thank you for 
joining me today, Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I concur that 
we have an excellent slate of nominees and I look forward to 
sharing that information with the rest of our colleagues.
    Chairman Warner. Good.
    I wish you and your families well, with the expectation 
that each of you will be confirmed in due course. Thank you for 
your offer of public service.
    The hearing is concluded.
    [Whereupon, at 5:07 p.m., the committee adjourned.]

    [Prepared questions submitted to Francis J. Harvey by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I wholeheartedly support full implementation of the 
Goldwater-Nichols and Special Operations reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am not yet fully familiar with the Department's efforts 
to implement these reforms. However, if confirmed, I will review the 
extent to which these reforms have been implemented and assess 
appropriate actions I can take to promote further implementation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. It is my understanding that these reforms have 
significantly improved the organization of the Department of Defense, 
focused our joint warfighting capabilities, enhanced the military 
advice received by the Secretary of Defense and provided for more 
efficient and effective use of defense resources to national security.
    Question. The goals of Congress in enacting these defense reforms 
can be summarized as strengthening civilian control over the military; 
improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; enhancing the effectiveness of military operations; and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I agree with these goals.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. My understanding is that the Department is continuing to 
examine ways to better support the goals of the reform in light of our 
ever changing environment. If confirmed, I will fully support the 
intent of the reforms and advocate legislative proposals and policies 
that will enhance the Department's ability to respond to the National 
security challenges of the 21st century.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Networks and Information 
Integration ASD(NII)?
    Answer. If confirmed, my understanding is that I will have two 
major duties. The first is to advise the Secretary of Defense on 
information integration, information resource management, networks, 
network-centric operations and command and control (C2) and 
communications matters across the Department. The second is to provide 
leadership, management, policy and governance to the development, 
deployment, support and integration of DOD-wide information 
infrastructure and supporting networks and C2 and communication 
capabilities in support of the Defense Mission.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that I have three basic qualifications for the 
position of ASD(NII). First, I know how to lead and manage large 
organizations, particularly program based organizations involved in the 
development and deployment of technology and systems. In the management 
area, I have had a great deal of experience in project management as 
well as success in streamlining organizational structures and improving 
business processes that have transformed organizations into much more 
efficient and effective operations.
    Second, I have a broad base of experience that has been multi-
dimensional in terms of functions, industries, and markets and has 
included both the commercial and government sectors. My industrial 
experience has been centered on the defense industry and also includes 
energy, environmental and infrastructure, electronics, communications 
and information systems. In the defense area, I have been involved in 
various phases of over 20 programs that span the entire spectrum from 
under seas to outer space including submarines, surface ships, 
aircraft, missiles, and satellites.
    Finally, I have a hands-on management approach that I believe would 
be effective and supportive of Defense Transformation, which is one of 
the key elements of the Secretary's Defense Strategy. This approach can 
be characterized as both results and continuous improvement driven.
    In the area of education, I have a BS from the University of Notre 
Dame and a PhD from the University of Pennsylvania in metallurgical and 
materials science.
    I believe that the combination of successfully leading and managing 
large, technology-based organizations, the broad base of industrial 
experience centered on the defense industry, and education have 
prepared me for the ASD(NII) position.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASD(NII)?
    Answer. I believe that I am fully capable of performing the duties 
of the ASD(NII).
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. Assuming I am confirmed, I expect that the duties and 
functions that the Secretary would prescribe for me would be similar to 
those discussed above plus additional ones that he deemed necessary in 
my area of responsibility.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. If confirmed, I will function as DOD Chief Information 
Officer (CIO) and as the principal staff assistant and advisor to the 
Secretary of Defense for all matters pertaining to information 
integration, networks, and network-centric operations and DOD-wide 
command and control (C2) and communication matters.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, my relationship with the Deputy Secretary of 
Defense will be the same as that described above in relation to the 
Secretary of Defense.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I will work very closely with the Under 
Secretaries of Defense for Intelligence to ensure that intelligence 
systems are fully integrated with the Department's current and future 
communication and information systems.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. With respect to acquisition of IT, other than Major 
Information Automation Systems (MAIS), if confirmed, I expect to work 
closely with the Under Secretary of Defense for Acquisition, 
Technology, and Logistics so that we can both carry out our statutory 
obligations.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. If confirmed, my relationship with the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict will be 
similar to that in relation to the other Assistant Secretaries of 
Defense.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. If confirmed, my relationship with the Assistant Secretary 
of Defense for Homeland Defense will be similar to that in relation to 
the other Assistant Secretaries of Defense, with particular emphasis on 
improving the integration and flow of information to and among 
participating agencies in support of homeland defense.
    Question. The General Counsel of the Department of Defense.
    Answer. If confirmed, my relationship with the General Counsel will 
be based on my role as principal staff assistant in the areas of 
information integration, networks, and network-centric operations, and 
command and control (C2), and communications matters and as the DOD CIO 
and his role as the chief legal officer of the Department of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will continue to coordinate and exchange 
information with the Chairman of the Joint Chiefs of Staff on 
information integration, networks, and network-centric operations and 
command and control (C2) and communication matters to ensure all policy 
and guidance issues under my cognizance are supportive of the combatant 
commanders and military services.
    Question. The regional combatant commanders.
    Answer. If confirmed, my relationship with the regional combatant 
commanders will be based on my role as principal staff assistant to the 
Secretary of Defense for networks and information integration, net-
centric operations, and command and control (C2) and communication 
functions and as CIO, and I will coordinate and exchange information 
with them on matters of mutual interest to ensure management policy and 
guidance for network-centric operations are supportive of their 
warfighter roles and missions.
    Question. The Director of the Defense Intelligence Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
DIA's programs follow DOD guidance in the areas of information 
architecture, interoperability, and acquisition.
    Question. The Director of the National Imagery and Mapping Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
National Geospatial-Intelligence Agency's (NGA) (formerly NIMA) 
programs follow DOD guidance in the areas of information architecture, 
interoperability, and acquisition.
    Question. The Director of the National Security Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
NSA's programs follow DOD guidance in the areas of information 
architecture, interoperability, and acquisition and directly with the 
Director, NSA on matters pertaining to information assurance.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the ASD(NII)?
    Answer. I believe there are four major challenges that will 
confront the ASD(NII). The first challenge is the successful execution 
of the major communication and information systems programs which, as a 
whole, are intended to build the foundation of network-centric 
operations. Building this foundation is key to the Secretary's 
strategic initiative to fundamentally transform the way our forces 
fight and how the DOD does business.
    The second challenge, which is closely related to the first, is the 
successful integration of the programs that are being developed and 
deployed to produce network-centric capabilities to support network-
centric operations.
    The third challenge is the smooth and seamless transition of legacy 
systems to the future, or ``to be,'' network-centric GIG.
    The final challenge is to promote and support dramatic improvements 
in the efficiency and effectiveness of DOD business processes. My 
understanding is that the Under Secretary of Defense (Comptroller) is 
leading the improvement initiatives and, if confirmed, I plan to work 
very closely with him to ensure that this effort is highly successful.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Assuming that I am confirmed, my approach to addressing the 
first two challenges would be threefold. First, I would conduct 
periodic and in-depth reviews of all key programs to ensure that cost, 
schedule, and technical objectives are met and, if not, that recovery 
plans are developed and implemented. Second, I would establish a strong 
systems engineering function in the OASD(NII) to ensure that systems 
and services being developed fully meet the objective operational 
capabilities. Thirdly, I would establish robust governance processes to 
ensure that the evolving elements of the information infrastructure are 
consistent with the principles of network-centric warfare operations.
    To meet the third challenge of transitioning of current to future 
systems I would direct the development of comprehensive and high 
confidence execution plans for each element of the information 
infrastructure roadmaps.
    Finally, in regards to business process improvement, my 
understanding is that the USD (Comptroller) has established a broad 
based initiative to improve the efficiency and effectiveness of 
business process across the Department. If I am confirmed, I would work 
very closely with the USD (Comptroller) to ensure that the goals and 
objectives of this initiative are met, and preferably, exceeded.
    Question. What do you assume will be the most serious problems in 
the performance of the functions of the ASD(NII)?
    Answer. At the present time, I do not believe that I am 
sufficiently informed on the relevant details to be knowledgeable of 
specific problems. However, I do know from past experience that 
problems occur in the management of highly technical programs like the 
ones for which the ASD(NII) has oversight responsibility. These are 
related to the timely development of supporting technologies, meeting 
cost and schedule objectives and successfully integrating the elements 
of a system into the operational environment. If I am confirmed, I 
would ensure that I become fully aware of and directly involved in 
solving problems.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will use the comprehensive program review 
process discussed above to discover and solve problems. Early 
recognition of problems through frequent program reviews is a very 
effective way to ensure success.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(NII)?
    Answer. If confirmed, my priorities would be in direct support of 
the Secretary of Defense's transformational objectives and closely 
related to the challenges that I outlined above. Therefore, at a 
minimum, these would be in the following areas: program execution; 
program, systems and systems-to-systems integration; transition of 
legacy to future systems and DOD business process improvement.
                               c3i to nii
    Question. The National Defense Authorization Act for Fiscal Year 
2003 authorized the position of Under Secretary of Defense for 
Intelligence (USD(I)). The establishment of this position in early 2003 
resulted in significant changes to the organization of the Assistant 
Secretary of Defense for Command, Control, Communications, and 
Intelligence, that has now been designated as the ASD(NII).
    In your view, how has the establishment of the USD(I) affected the 
mission, organization and vision of the ASD(NII) organization?
    Answer. Prior to the establishment of the USD(I), the mission of 
ASD(C3I) was to enable the information age transformation of the 
Department of Defense by building the foundation for network-centric 
operations. In the creation of the USD(I) certain personnel responsible 
for policy, requirements review and acquisition oversight of 
intelligence programs were transferred from the ASD(C3I) to the USD(I). 
However, in my view, the vision and mission of the ASD(NII) have not 
changed substantially from those of the ASD(C3I).
    Question. How would you assess the evolution, to date, in the 
establishment of these two organizations, the separation of 
responsibilities, and the understanding of employees and consumers of 
the new areas of responsibility?
    Answer. At this point I am not sufficiently informed to offer an 
opinion. If I am confirmed, I would be happy to discuss this topic with 
the committee at a later date.
    Question. What remaining challenges do you foresee in fully 
implementing the responsibilities of these two organizations--USD(I) 
and ASD(NII)?
    Answer. At this time, I am not sufficiently informed to comment on 
this issue. However, if I am confirmed, I can assure you that I would 
continue to foster a close and cooperative relationship with the 
USD(I).
    Question. What do you see as the appropriate relationship between 
ASD(NII) and USD(I) in performing CIO responsibilities regarding the 
Combat Support Agencies which have intelligence support missions?
    Answer. It is my understanding that the ASD(NII), as the DOD CIO in 
conjunction with the DCI CIO, is responsible for information 
architectures, interoperability and acquisition relative to his CIO 
responsibilities regarding IT and national security systems of the 
Combat Support Agencies of the Department of Defense which have 
intelligence support missions.
                        information superiority
    Question. Many have described the major responsibility of the 
ASD(NII) as ``information superiority.''
    Describe your vision of information superiority for DOD, including 
any major impediments to information superiority facing the Department.
    Answer. In the general area of information superiority, a major 
responsibility of the ASD(NII) is to enable the Information Age 
Transformation of the DOD by building the foundation for network-
centric operations which primarily involves the development and 
deployment of the future, or ``to be'', Global Information Grid.
    On this basis, I envision a Department of Defense that is second to 
none in its ability to leverage Information Age concepts and 
technologies, creating an organization that has superior situational 
awareness, the ability to collaborate as well as to self coordinate and 
is both interoperable and agile enough to meet the challenges of an 
uncertain future. Providing each and every individual with access to 
the information he needs, ensuring that he has access to the 
individuals and organizations with whom he needs to interact, and 
facilitating and supporting these interactions with a rich 
collaborative environment will enable our warfighters to employ new 
concepts of operation and command and control approaches that are and 
will continue to emerge to meet the challenges of that uncertain 
future.
    At this time I believe the major impediments to progress are: (1) 
our inability to quickly field emerging information related 
capabilities; and (2) cultural barriers to information sharing, 
collaboration, and experimentation that impede facilitation of these 
essential conditions. If confirmed, I will devote my energies and focus 
the ASD(NII)'s efforts to make each and every individual throughout DOD 
fully network-enabled, make information accessible, and foster 
collaboration while simultaneously ensuring that our information and 
information processes and systems are adequately protected and assured.
                         information operations
    Question. Joint Vision 2020 describes ``information superiority'' 
as a critical element of success in 21st Century conflict. Disrupting 
the information systems of adversaries, while protecting our own 
systems from disruption (i.e., information operations) will be a major 
element of warfare in the future.
    Describe your vision for the role of information operations in the 
conduct of military operations.
    Answer. As discussed in the previous question, information 
superiority requires robustly networked forces that share global, 
secure, reliable, real-time information. Obviously, any disruption to 
the network or the ability to share information would significantly 
decrease or neutralize a position of information superiority relative 
to an adversary. Likewise, adversely affecting an enemy's 
communications and information systems will improve our relative 
position and, therefore, enhance our capability to efficiently and 
effectively conduct network-centric operations.
    On this basis, my vision is that information operations plays a 
critical role in the effective and efficient conduct of network-centric 
operations and that a major emphasis should be placed on developing a 
first class capability to conduct these types of operations.
    Question. What is your assessment of the unity of the efforts 
across the Department, the Defense Agencies, and the respective 
military services in this area?
    Answer. I am unable to answer that question because I am not 
familiar with the details at this time.
    Question. What lessons have been learned regarding information 
operations in Operations Iraqi Freedom and Enduring Freedom?
    Answer. I am not familiar enough with the details at this time to 
respond to this question.
    Question. How will these lessons learned affect your vision for 
information operations?
    Answer. I am unable to answer this question at this time. However, 
I would be happy to discuss this topic with the committee if I am 
confirmed and I have had an opportunity to become familiar with the 
details.
                         information assurance
    Question. The protection of the Department of Defense's critical 
information infrastructure has become a high priority. Training and 
retention of personnel in this developing profession of computer 
security and infrastructure protection has been challenging.
    Are you satisfied with the Department's current level of effort to 
protect critical DOD information infrastructures? Have sufficient 
resources been allocated for this task?
    Answer. While I am not yet fully familiar with the details, like 
other organizations in which I have been involved in the past, DOD 
appears to be constantly in a race to stay up with technology and to 
balance growing IT demands with the required security. From my outside 
perspective, the Department appears to have made significant progress 
over the years in improving its ability to protect information and 
defend the network, DOD must continue to evolve and strengthen its 
ability to defend its networks, computer and information systems. If 
confirmed, I will assess our progress to date and determine what 
additional actions and resources may be required.
    Question. What are your views on the professional development and 
retention of the highly skilled personnel required to ensure the 
security of our Department of Defense information systems?
    Answer. While I am not yet fully familiar with the details, in DOD, 
as in most organizations, development and retention of skilled people 
is critical and one of our most challenging tasks. It is my 
understanding that DOD has made strides in identifying and improving 
the management of these critical personnel. For example, I understand 
that DOD is making progress with its widely successful IA Scholarship 
Program, the implementation of Centers of Academic Excellence, and the 
introduction of a much more security relevant curriculum in DOD 
professional military education.
    Question. Given DOD's growing dependence on commercial networks and 
systems, what role, if any should DOD play in ensuring that the private 
sector sufficiently addresses information security issues?
    Answer. By leveraging its important position in the information 
security market place, DOD needs to make security a priority mandate 
via its procurement policies and its configuration control 
requirements.
               conversion to internet protocol version 6
    Question. The Department has mandated a transition of DOD networks 
to technologies based on Internet Protocol version 6 (IPv6). However, 
there are concerns that conversion of systems from either IPv4 or 
asynchronous transfer mode (ATM)-based systems could result in 
additional costs to critical service programs (such as the Army's 
Future Combat Systems) and potentially reduce the performance of 
critical networks, by limiting encryption speeds and reducing network 
quality of service.
    If confirmed, what role do you expect to play in ensuring that cost 
and performance considerations are appropriately considered by DOD 
during the transition to IPv6 systems?
    Answer. It is my understanding that in order to accomplish the 
Information Age Transformation of DOD, a transition to IPv6 technology 
is necessary. As the DOD CIO, I would ensure that this transition is 
necessary and fully justified as well as recommend to the Secretary 
efficient and effective investments to achieve that transition. If 
confirmed, I plan to stay closely involved in the planning and 
implementation of the transition process.
                          open source software
    Question. What are the current challenges facing DOD as it develops 
strategies for the development and use of open source software?
    Answer. My understanding is that the challenges facing DOD with 
respect to Open Source Software (OSS) are similar to those facing any 
government organization or industry. The principal challenge is to 
maintain robust security.
                        global information grid
    Question. If confirmed, what would your plans be to ensure adequate 
test and evaluation of components of the Global Information Grid (GIG)?
    Answer. It is my understanding that the ASD(NII) development 
approach to test and evaluation of the GIG involves an end-to-end 
testing capability. If confirmed, my plan would be to ensure that this 
approach becomes a reality.
    Question. If confirmed, how would you assess the current and 
potential future threats to military forces dependent on the GIG?
    Answer. If confirmed, I will work in partnership with the Joint 
Staff, the relevant combatant commanders, the Intelligence Community, 
and the information security community to protect the GIG by 
implementing a risk management-based approach. This approach would 
address current and potential threats to network-centric forces and 
develop measures to effectively deal with those threats.
             asd(nii) roles in space programs and policies
    Question. The 2001 report of the Commission to Assess United States 
National Security Space Management and Organization (also known as the 
Space Commission) stated that space interests had to be ``recognized as 
a top national security priority'' but argued that ``the only way they 
will receive this priority is through specific guidance and direction 
from the very highest government levels.'' ASD (NII) is responsible for 
space policy formulation and coordination within the Office of the 
Secretary Defense.
    If confirmed, what role do you expect to play in the formulation of 
space policy?
    Answer. I am informed that the Deputy Secretary of Defense recently 
decided to transfer space policy from the ASD(NII) to USD(Policy). My 
plan, if confirmed, would be to work with USD(P) to define a supporting 
role for ASD(NII) in matters where space policy and ASD(NII) 
responsibilities intersect.
    Question. Do you believe that responsibility for the Department's 
space policy is appropriately assigned, in light of the Space 
Commission's recommendations?
    Answer. I am not sufficiently familiar with the details of the 
transfer to comment at this time. However, I would reiterate that if 
confirmed, I would work closely with the USD(Policy) to define 
(ASD)NII's role.
    Question. If confirmed, what role do you expect to play in the 
oversight of space programs?
    Answer. With the very recent transition of space policy to 
USD(Policy), I do not believe there has been time to fully address the 
details of oversight responsibility. If confirmed, I would work with 
the USD(P) and the USD(Intelligence) to establish relative roles and 
responsibilities that will ensure that these types of programs are 
executed in the most efficient and effective manner. I plan to continue 
to actively pursue the oversight of space programs that involve the 
development of information and communications systems as well as space 
support programs such as assured access, space control, position, 
navigation and timing, environmental sensing, and satellite operations 
programs as delegated by USD(AT&L) and in coordination with USD(I) and 
USAF.
                         information management
    Question. The Clinger-Cohen Act of 1996 introduced requirements 
emphasizing the need for the Department of Defense to significantly 
improve management processes, including how it selects and manages IT 
resources. For instance, a key goal of the Clinger-Cohen Act is that 
the Department of Defense should have institutionalized processes and 
information in place to ensure that IT projects are being implemented 
at acceptable costs, within reasonable time frames, and are 
contributing to tangible, observable improvements in mission 
performance.
    What is the status of the Department's efforts to implement the 
Clinger-Cohen Act?
    Answer. At the present time, I am not sufficiently informed to know 
the details of the Department's efforts to implement the Clinger-Cohen 
Act. However, in my past experience I have extensively used a portfolio 
review approach to manage a closer grouping of programs. I believe this 
approach would be extremely beneficial in managing interrelated 
information technology programs under my purview.
    Question. What role do you expect to play, if confirmed, in the 
implementation of the Clinger-Cohen Act with regard to IT that is 
embedded in major weapon systems?
    Answer. If confirmed, I expect to perform the statutory and 
regulatory role envisioned for the CIO with regard to IT embedded in 
major weapons systems. I will make recommendations to the Secretary of 
Defense on whether to continue, modify or terminate IT investments, 
including those in major weapons systems.
    Question. What do you see as the appropriate relationship between 
the ASD(NII) and the service acquisition executives in this effort?
    Answer. As I responded in the duties portion, if I am confirmed one 
of my major duties will be to provide leadership, management, policy 
and governance to the development, deployment, support and integration 
of DOD-wide information infrastructure and supporting networks and C2 
and communication matters in support of the Defense Mission. On that 
basis, I would expect that the Service Acquisition Executives would 
follow the Department's policies and governance in the acquisition of 
IT, C2 and communications systems.
       commercial vs military requirements for frequency spectrum
    Question. In recent years, growing demands for the use of the 
frequency spectrum for defense and civilian communication needs have 
increased the competition for this finite resource.
    If confirmed, what would your role be in spectrum management issues 
within the Department of Defense?
    Answer. If confirmed as ASD(NII), I would be the Secretary's chief 
advisor on spectrum matters. In that capacity, I will have the lead for 
spectrum policy formulation and for providing guidance to the various 
Department spectrum management entities.
    Question. If confirmed, would you represent the Department of 
Defense in interagency and international negotiations regarding 
spectrum management issues?
    Answer. Yes. If confirmed, I will be responsible for representing 
the Department in national and international forums.
    Question. What steps, if any, would you recommend the Department of 
Defense take to improve its spectrum management policies?
    Answer. In order to properly answer this question, I will need the 
additional information and data available to me as the ASD(NII). There 
are several factors to be considered such as organization, technology 
and strategic plans in the improvement of spectrum management policies. 
The emphasis and approach used on these key aspects will be determined 
once I have received additional information and background data, in the 
event of my confirmation.
    Question. If confirmed, what actions would you take to review the 
Department's total spectrum requirements and ensure that new systems 
are designed to ensure efficient spectrum utilization by the Department 
of Defense?
    Answer. While I am not yet fully familiar with the details, to the 
best of my knowledge, there has been more attention focused on spectrum 
in recent years--this is crucial to the Department of Defense. If 
confirmed, I plan to continue to focus on accurately projecting future 
requirements for spectrum use to enable efficient operation.
    Question. What do you see as the proper balance between defense and 
other uses of the frequency spectrum, and what is your view of the 
current process by which those needs are balanced?
    Answer. In balancing spectrum uses I believe that national security 
as well as financial considerations must be fully taken into account in 
making any changes to spectrum allocations. It is my understanding that 
there are two organizations in the Federal Government that have overall 
responsibilities for frequency spectrum management. The Department of 
Commerce is responsible for integrating government requirements, and 
the Federal Communications Commission resolves commercial and 
government requirements. At this time, I believe that the process is 
adequate.
                 asd(nii) as chief information officer
    Question. DOD Directive 5137.1 stipulated that the ASD(C3I) would: 
``Serve as the Chief Information Officer (CIO) of the Department of 
Defense (DOD). This responsibility includes providing direction and 
oversight for Information Management (IM) and Information Technology 
(IT)--including a Departmental IM strategic plan integrated with the 
Planning, Programming & Budgeting System and the institutionalization 
of performance- and results-based management.''
    Has that role changed under the newly-formed ASD(NII) office?
    Answer. No. To the best of my knowledge, this role has not changed 
under the newly formed ASD(NII).
                    coordination between cio and cfo
    Question. Title 40, Chapter 25 of the United States Code (40 U.S.C. 
Sec. 1426) establishes accountability within each executive agency for 
accounting, financial, and asset management systems, and for ensuring 
financial and related program performance data are provided on a 
reliable, consistent, and timely manner. The law directs the head of 
each executive branch to consult with both the CIO and the CFO in 
establishing appropriate policies and procedures.
    If confirmed, how do you see your role as CIO with respect to the 
CFO?
    Answer. I am unfamiliar with the details at this time, but it is my 
understanding that there have been significant improvements in 
collaboration between the CIO and the CFO, resulting in a better and 
more integrated process. To the extent possible, if confirmed, I intend 
to advance that process for even closer cooperation.
    Question. What mechanisms do you believe are needed to ensure 
proper coordination between the CIO and CFO?
    Answer. While I am not yet fully familiar with the details, it is 
my understanding that as a part of the CFO's initiative to improve the 
efficiency of business processes across the Department, he has 
implemented a portfolio management approach, which I believe to be a 
very sound approach. The idea of domain leaders seems to be a good 
integrating step, and I will support and expand upon that approach if I 
am confirmed.
    Question. Given the long history of difficulties with financial and 
accounting systems at the Department of Defense, if confirmed, what 
specific plans would you have as the CIO to ensure progress is made in 
providing accurate and timely financial and performance data?
    Answer. Based upon my response to XVII A. above, I believe the 
validity of financial statements is the CFO's job, while the CIO's 
responsibility is to support the CFO's important responsibility in the 
area by ensuring that efficient and effective information systems are 
developed that will provide accurate and timely performance and 
financial data.
    Question. What role do you expect to play in the implementation of 
such plans?
    Answer. If confirmed, I believe my responsibility will be to 
provide oversight authority for all implementation; however, I will not 
be the implementer.
                     chief information officer role
    Question. The Chief Information Officer position is required by law 
to report directly to the Secretary of Defense.
    Is the ASD(NII) placement in the OSD hierarchy conducive to meeting 
this legislative requirement and, if confirmed, how do you anticipate 
fulfilling the DOD CIO role?
    Answer. If confirmed, I will report directly to the Secretary and 
Deputy Secretary of Defense. I anticipate forming strong partnerships 
with the Under Secretaries, Assistant Secretaries, the Chairman of the 
Joint Chiefs of Staff, and the DOD CIO community. I believe these 
alliances will be key to the DOD CIO in providing leadership, direction 
and oversight, and successfully executing the CIO's statutory and 
regulatory responsibilities.
                             disa oversight
    Question. The ASD(NII) has oversight over the Defense Information 
Systems Agency (DISA).
    If confirmed, how do you plan to exercise your oversight authority 
to ensure that DISA provides the most effective support in the most 
efficient manner?
    Answer. If I am confirmed, I would exercise my oversight authority 
by using the same approach I have used in the past to provide 
management oversight of large organizations such as DISA. I would 
ensure that the Agency has established a set of long-term goals and 
annual operating objectives with supported action plans that are both 
measurable and relevant. Relevancy is established by ensuring that 
these goals and objectives are closely aligned with DOD's network-
centric vision, mission, strategies and goals. Quantitative measures 
would be established for each goal and mission. The Agency's top-level 
objectives would be cascaded down to all levels of the organization to 
assure total alignment.
    Question. In your view, what are the major challenges and problems 
that DISA currently faces in meeting its mission?
    Answer. At this time, I do not believe I am sufficiently informed 
to know specific problems and challenges. If confirmed, I would plan as 
part of the goals and objectives setting process to solicit the input 
from my colleagues on DISA performance and how to improve it, and 
structure the goals and objectives accordingly. However, in general, I 
believe that at least some of the major challenges that DISA faces are 
similar to those previously discussed in the question on (ASD)NII's 
major challenges--delivering quality products and services on time at 
affordable cost.
                       joint command and control
    Question. Initial reporting from recent military operations 
indicates joint command and control capabilities have greatly improved 
in recent years.
    What is your assessment of the performance of the Department's 
global and theater C2 systems?
    Answer. I am not sufficiently informed at this time to answer this 
question, but if confirmed I will carry out in depth reviews and make 
recommendations for improvements to performance.
    Question. What interoperability challenges remain between service 
to service and service to joint C2 systems?
    Answer. I do not have the details at this time, but it is clear to 
me that achieving interoperability is key to network-centric 
operations.
    Question. What role should ASD(NII) play in ensuring the 
development of reliable, interoperable, and agile command and control 
systems?
    Answer. It is my view that the role of the ASD(NII) is to provide 
leadership, management, policy and governance to the DOD wide 
information infrastructure and supporting network as well as C2 and 
communication matters in support of the Defense Mission.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Networks and Information Integration?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Saxby Chambliss
              global information grid bandwidth expansion
    1. Senator Chambliss. Dr. Harvey, Secretary Rumsfeld assured the 
leadership of the House and Senate Armed Services Committees that end-
to-end testing would be conducted on DOD's Global Information Grid-
Bandwidth Expansion (GIG-BE) solution. Based on his assurances, we 
dropped language in our conference report that had been adopted in our 
markup. The Naval Research Lab has already determined that $15-$18 
million will be required to carry out the required tests, but only $3 
million has been made available by DOD for that purpose. If you are 
confirmed, can you assure this committee that this funding shortfall 
will be eliminated to ensure completion of the entire testing regime?
    Dr. Harvey. DOD is conducting end-to-end testing of the GIG-BE in 
accordance with a Test and Evaluation Master Plan (TEMP) approved by 
Director, Operational Test and Evaluation (DOT&E). In accordance with 
acquisition policy, and approved program documentation, the first tests 
focus on GIG-BE operational suitability and effectiveness at 
operational test locations, and certification of interoperability with 
existing legacy systems. GIG-BE testing has started and will continue 
in phases culminating in interoperability testing by the Joint 
Interoperability Test Command (JITC). GIG-BE testing is fully funded at 
$22 million.\1\
---------------------------------------------------------------------------
    \1\ In a previous response to a similar congressional inquiry, the 
figure $29 million was erroneously used to indicate the amount of 
funding allocated for GIG-BE testing--the correct amount is $22 
million.
---------------------------------------------------------------------------
    In addition to, yet distinct from the compliance, interoperability, 
operational, and other required testing being conducted on the GIG-BE 
acquisition program, the Department plans to conduct integrated, end-
to-end evaluations of the Department's transformational communications 
components, including the GIG-BE, using the newly established Global 
Information Grid (GIG) End-to-End Evaluation Facilities (GIG-EF) 
located and run by the Naval Research Laboratory (NRL). The Evaluation 
Facilities program is intended to facilitate early interaction between 
transformational and existing communications programs and identify 
issues or gaps in the areas of standards, protocols, and operating 
procedures before these programs reach full operating capability. The 
task assigned to NRL encompasses the GIG as a whole and addresses end-
to-end issues such IPv6 transition, efficient routing, information 
assurance, quality-of-service, performance and scalability, and test 
and measurement. The evaluation facilities provide an instrumented 
inter-networked test environment for experts to understand and validate 
transformational operational solutions for the warfighter. It does not 
supplant the need for each program within the GIG environment, such as 
the GIG-BE, to conduct its own testing.
    The $12-18 million referenced in your question was a figure 
prepared by NRL and was used as an input to deliberations by senior 
management for the fiscal year 2005 President's budget request as well 
as to identify mechanisms for initiating this capability in fiscal year 
2004. Based on rigorous analysis by both the Joint Staff and the Office 
of the Secretary of Defense, we determined the fiscal year 2005-2009 
budget request for the GIG-EF of $35 million will meet our projected 
test facility requirements. The $3 million available in fiscal year 
2004 is core funding to initiate the overall effort. This initial 
funding for the effort led by NRL will be used to: stand up the 
evaluation/test team, install and configure components purchased in 
fiscal year 2003, prepare for and support evaluation requirements, and 
develop and field test measurement systems.

    2. Senator Chambliss. Dr. Harvey, DOD has embraced the concept of 
network transformation with a view toward getting real time (e.g. 
video) mission information to commanders and troops. In fact, the 
notion of transformation is the basis for upgrading the Global 
Information Grid. Given this is the case, why is the Defense 
Information Systems Agency (DISA) implementing certain technologies 
that are older, far less reliable, and far less accurate than that 
which they are planning to replace?
    Dr. Harvey. The technology basis for the Department's Information 
Age transformation is based on the commonly used communication 
protocol, Internet Protocol (IP)--a networking technology developed 
originally by DARPA but adopted globally, by both the commercial and 
public sectors. Business, industry, and the DOD have found IP to be not 
only reliable and accurate, but also to be the only viable technology 
for networking computers and enabling network centric operations. The 
technologies that the overall GIG architecture and in particular, the 
GIG-BE, are replacing are based on circuit-based communications 
approaches that do not support network centric warfare.
    There are several programs that are key to the Department's 
Information Age transformation. They are part of the larger GIG 
environment and include: GIG-BE--the terrestrial communications 
backbone, the Joint Tactical Radio System (JTRS)--the wireless portion 
of this transformation, Transformational Satellites (TSAT)--the space 
portion, and Net-Centric Enterprise Services (NCES)--core services 
critical to operate in an IP-based transformational network centric 
environment. These transformational programs will work together to 
provide a global interoperable, reliable, and secure network centric 
GIG, which is vastly superior to the current patchwork of independent 
networks. The GIG environment must be fundamentally dynamic to manage 
the constantly changing information flows between any and all users at 
whatever bandwidth is required. This is the essence of net centricity. 
The Internet Protocol (IP) is the only commercially available 
technology that can enable this network centricity.
    A fundamental aspect of the design of the GIG-BE is to buy the 
latest, state of the art technology. The competitive telecommunication 
industry dictates that its technology be robust, reliable, and result 
in a highly capable trusted network. As a verification of the GIG-BE 
design, last year the then Assistant Secretary of Defense for Networks 
and Information Integration (ASD (NII)) invited industry leaders from 
AT&T, Lucent, Telcordia, and Verizon to do an independent assessment of 
our design, test plan and procurement strategy. This review confirmed 
that the GIG-BE IP-based design and implementation was appropriate and 
``consistent with industry direction.''

    3. Senator Chambliss. Dr. Harvey, why is DISA rolling out networks 
that will require them to maintain a separate network infrastructure 
for mission critical applications?
    Dr. Harvey. The Department's vision, as described previously, is to 
implement a common, integrated IP-based network architecture, 
implemented through the GIG-BE, JTRS, TSAT, and other transformational 
communications initiatives. It is essential that we transform to a 
network-centric operational environment if defense transformation is to 
be achieved. DISA is not rolling out a separate network. However, there 
will be, by necessity, a period of transition or change from where we 
are today to where we are going in the future. This will require us to 
maintain, and provide interfaces to, legacy networks and communications 
services.
    The IP protocol has long supported many of the DOD's mission 
critical applications including the global transportation network 
(GTN), global command and control system (GCCS), global broadcast 
system (GBS), global combat support system (GCSS), Predator video, 
defense message system (DMS), etc. Convergence of all of our 
applications and information onto a single network is essential to 
achieving net centricity. IP is the only commercially available 
technology that supports this convergence.

    4. Senator Chambliss. Dr. Harvey, why is DISA rolling out a ``next 
generation'' network that is unable to encrypt at high speeds? Do you 
know that DISA's current network is capable of encryption at speeds 2.5 
Gbps and, very soon, could be at 10 Gbps?
    Dr. Harvey. The ``next-generation network,'' i.e., IP-based GIG-BE, 
will be able to encrypt data at high speeds of up to 10 Gbps. The GIG-
BE architecture allows us to leverage emerging commercial encryption 
architectures while allowing the use of U.S. Government algorithms to 
provide the protection needed for critical DOD applications. This 
architecture allows enhanced interoperability, allows the degree of 
protection to be tailored to the application, and can be integrated 
with host computer information assurance (IA) functions. More 
importantly, it enables the many-to-many interactions that will happen 
in a network centric environment.
    The National Security Agency (NSA) is developing a family of IP 
encryption products, as part of our overall development of the larger 
GIG, under a program known as high assurance IP encryption (HAIPE). 
HAIPE is unique in the history of NSA encryption developments in that 
the government is only paying for a portion of the development costs. 
Major technology companies such as L3, General Dynamics, and ViaSat are 
investing half of the capital required to develop HAIPE devices because 
they believe there is a significant market for this technology. This 
encryption market is not new, over the past 15 years the DOD and 
Intelligence Community (IC) have purchased and fielded over 40,000 IP 
encryption devices.
    The existing 2.5 Gbps encryption capability you mention is based on 
legacy ATM technology. The current planned 10 Gbps HAIPE devices will 
be available by 2006. NRL is working closely with NSA to develop 40 
Gbps IP encryption technology applicable to GIG-BE, and is working 
toward a goal of creating Tbps encryption technology. While current ATM 
encryption is faster than IP encryption available today, ATM networking 
technology is not integrated with major computer operating systems, 
routers or applications, thereby limiting the usefulness of ATM 
encryption devices. More importantly for the DOD, an all ATM solution 
is not commercially viable for network centric warfare. Further, GIG-BE 
has been designed to support users requiring encrypted native ATM 
services or other legacy circuit based communications through direct 
bandwidth provisioning.

    5. Senator Chambliss. Dr. Harvey, one of the stated goals of GIG-BE 
is to have unified network architecture. Why is DISA rolling out a 
``next generation'' network where provisioning bandwidth is far more 
difficult, time consuming, and expensive, e.g. separate outboard costly 
network management systems for Optical, SONET (15 year old technology), 
and router bands?
    Dr. Harvey. In reality, implementation of the GIG-BE will make 
bandwidth provisioning simpler and be more responsive to the warfighter 
and other customers' communications requirements. Bandwidth 
provisioning is a concept based on the legacy circuit switched designs, 
where bandwidth has to be allocated based on projected needs and 
requirements. This notion of provisioning bandwidth is obsolete. The 
DOD mission requires a very dynamic network, where bandwidth is made 
available automatically as the demands of the warfighter changes. Our 
vision is a mesh network where bandwidth is not a constraint to be 
managed by operators. In this environment, dynamically changing any-to-
any communications are supported without having to provision circuits. 
The exception is where we must support legacy applications that rely on 
ATM or SONET based point-to-point circuits.
    A guiding principle in implementing the GIG is to base it on 
commercial information technologies (IT), standards and protocols where 
flexibility and ease of provisioning is automated in a very dynamic 
networking environment. The Multi-Standard Provisioning Platform 
integrates both IP and legacy circuit switching into a single device 
that is managed from a single network management system. Thus, 
management of GIG-BE is highly automated and much less labor intensive 
than the current networks.

    6. Senator Chambliss. Dr. Harvey, why is the U.S. Intelligence 
Community walking away from the GIG-BE to build their own network 
infrastructure?
    Dr. Harvey. The Intelligence Community (IC) is not walking away 
from the GIG-BE to build its own network infrastructure. The IC and DOD 
have made great strides in working communications infrastructure 
sharing initiatives in the past few years. This is the direct result of 
the efforts of the IC Chief Information Officer and the ASD(NII)/
Department of Defense Chief Information Officer working jointly to 
develop the communications and information technology infrastructure 
necessary to allow for a more robust information sharing technical 
architecture.
    Over 70 percent of the sites to be serviced by the GIG-BE serve IC 
interests as well as DOD needs. While we do not envision full-scale 
migration of all Intelligence customers to the GIG-BE, the IC will 
consider the GIG-BE in any future communications needs. Furthermore, 
the Defense Intelligence Agency and National Geospatial-Intelligence 
Agency leadership have fully embraced the program.

    7. Senator Chambliss. Dr. Harvey, why has the GIG-BE solution not 
been thoroughly tested beforehand? The DOD has stated that they intend 
to do this testing; however, the GIG end-to-end test bed has not been 
funded to do the testing.
    Dr. Harvey. Thorough operational testing to verify the performance 
of GIG-BE terrestrial IP-based network with legacy systems has been 
funded and synchronized to support incremental program decision points 
that are tied to purchases of GIG-BE components, which prevents major 
investments of unproven capabilities. The GIG End-to-End Evaluation 
Facilities (GIG-EF) was not established to do Developmental Test/
Operational Testing (DT/OT) of the GIG-BE program or any other 
individual acquisition program. When fully implemented, the GIG-EF 
coordinated by NRL, will be used to evaluate the technical and 
operational characteristics between and among the GIG- component 
programs--including GIG-BE, JTRS, and TSAT. The GIG-EF is expected to 
work for community members yet remain independent, allowing for 
unbiased, objective evaluation/testing required for the successful 
convergence of communications and applications. The objective of the 
end-to-end testing is to bring programs together before critical 
milestones so that designs can be stressed and issues can be 
identified/addressed.

    8. Senator Chambliss. Dr. Harvey, DISA elected to have a systems 
integrator determine the appropriate technologies and procure the GIG-
BE on its behalf. The systems integrator stated that GIG-BE was not an 
agent for DISA. However, DISA materially participated in the 
procurement. For example, DISA participated in the: (1) oral 
presentations; (2) testing; and (3) determination as to which 
contractors would be awarded GIG-BE contracts. Given DISA's role in 
this procurement, how can the Department assert that DISA is not 
required to adhere to Federal Acquisition Regulations (FAR)?
    Dr. Harvey. The GIG-BE program used an innovative approach for 
identifying, evaluating, testing, and acquiring hardware for deployment 
that is consistent with the FAR. This approach involved using DISA 
existing, competitively awarded, network integration contract (DISN 
Global Solutions or DGS) with SAIC to identify and test a best value 
hardware solution to meet the GIG-BE functional requirements. This task 
was judged to be fully within scope of the DGS contract and this 
approach was documented in the GIG-BE Acquisition Strategy, endorsed by 
the Office of the Secretary of Defense Chaired Overarching Integrated 
Process Team (OIPT), and approved by the GIG-BE milestone decision 
authority (MDA).
    In this approach, DISA documented the function requirements for the 
GIG-BE and tasked SAIC to identify a best value hardware solution to 
meet these requirements. In order to maximize competition, SAIC 
requested proposals based on the GIG-BE functional requirements in a 
full and open competition for hardware. SAIC received 57 responses to 
this solicitation. Those responses meeting the most critical of the 
GIG-BE requirements were requested to give oral presentations to SAIC. 
Senior government engineers observed, but did not materially 
participate in, these presentations to ensure SAIC's process was both 
open and sound. Based on these presentations, SAIC recommended a small 
number of vendors be further evaluated. The government accepted SAIC's 
recommendation, and these vendors were allowed to demonstrate their 
equipments in a series of laboratory tests known as ``bake offs.'' Once 
again, the government observed, but did not materially participate in, 
the bake offs to ensure SAIC's process was fair. Based on the results 
of bake off and additional best value analysis, SAIC recommended a 
single vendor for each equipment type as it is further evaluated. The 
government decided to accept SAIC's recommendation, and these vendors 
shipped large amounts of hardware to AT&T Labs in Middletown, NJ, 
(SAIC's subcontractor), for equipment integration evaluation testing. 
This testing validated that the equipment satisfied the GIG-BE's 
critical technical parameters (CTPs) as documented in the GIG-BE Test 
and Evaluation Master Plan (TEMP). Once again, the government observed 
but did not materially participate in this testing. As a result of the 
equipments meeting the government's CTPs, SAIC made a final 
recommendation to the government to use equipments from four vendors 
(Juniper, Ciena, Qwest/Cisco, and Sprint/Sycamore) for the GIG-BE. The 
government decided to accept SAIC's recommendation and these vendors 
were added as subcontractors to the DGS contract.
                                 ______
                                 
    [The nomination referenced of Francis J. Harvey follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  November 6, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Francis J. Harvey, of California, to be an Assistant Secretary of 
Defense, vice John P. Stenbit.
                                 ______
                                 
    [The biographical sketch of Francis J. Harvey, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Francis J. Harvey
    Dr. Fran Harvey is a proven business executive who has extensive 
experience in leading and managing large organizations, particularly 
program based organizations involved in the development and deployment 
of technology and systems. As part of his results oriented management 
approach, Dr. Harvey places major emphasis on organizational 
transformation especially through the application of information 
technology.
    His broad base of experience has been multi-dimensional in terms of 
industries, functions, and markets. His industrial experience is very 
diverse and includes aerospace and defense, environmental and 
infrastructure, energy, government facilities management, electronics, 
information systems, and the Internet. In the defense sector, Dr. 
Harvey has been involved in over 20 major systems development and 
production programs across a spectrum of platforms including surface 
ships, submarines, aircraft, tanks, and missiles.
    Over the course of his 28-year career with Westinghouse (1969-
1997), Dr. Harvey had direct responsibility for the research and 
development, engineering, manufacturing, planning, and project 
management functions with major emphasis in the defense and energy 
areas. In addition, he has extensive experience in acquisitions, 
divestitures and joint ventures as well as international experience, 
particularly in Western Europe, Japan, and China. Dr. Harvey also 
served in the Department of Defense as a White House Fellow for 1 year.
    In his last position with Westinghouse, Dr. Harvey was the Chief 
Operating Officer of the Corporation's $5 billion Industries and 
Technology Group, which consisted of six global businesses (Power 
Generation, Energy Systems, Government and Environmental Services, 
Process Control, Communications and Information Systems and Thermo 
King) operating in 67 countries with 40,000 people. Under his 
leadership, a comprehensive change and improvement program to transform 
the organization was initiated and resulted in significant operational 
improvements.
    Prior to becoming Chief Operating Officer, he served as President 
of the Corporation's $3 billion Defense and Electronics business, which 
was acquired by Northrop Grumman. This business consisted of six 
segments: Combat Systems; Battle Space Management; Command, Control and 
Communications; Information Systems; Naval and Security Systems. He 
also served as President of the Corporation's Government and 
Environmental Services Co. which consisted of three business units-
Department of Energy Facilities Management, U.S. Navy Nuclear Reactor 
Development and Procurement, and Environmental Services. As the Vice 
President of Science and Technology, he directed a 1,000 person center 
which developed and applied technology in 8 major areas: advanced 
materials, microelectronics, advanced energy systems, power 
electronics, materials engineering, information and decision making, 
advanced electromechanical systems and environmental.
    Since leaving Westinghouse in 1997, Dr. Harvey has served on 12 
different corporate and non-profit boards, 3 of which are portfolio 
companies of the Carlyle Group. In 2000 and 2001, he was the interim 
COO of two high-tech start-ups. Most recently, he was Vice Chairman and 
served as acting CEO of the IT Group, Inc. and currently is the Vice 
Chairman of Duratek.
    Dr. Harvey began his career in 1969 as a senior engineer at the 
Westinghouse Science and Technology Center, where he published over 50 
scientific papers and reports and was awarded 12 patents.
    Dr. Harvey obtained his BS degree from Notre Dame and his PhD from 
the University of Pennsylvania in Metallurgy and Materials Science.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Francis J. 
Harvey in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Francis Joseph Harvey II.

    2. Position to which nominated:
    Assistant Secretary of Defense for Network and Information 
Integration and Chief Information Officer.

    3. Date of nomination:
    November 6, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 8, 1943; Latrobe, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Louise Dziak Harvey.

    7. Names and ages of children:
    Francis Joseph Harvey III (36 years old).
    Jonathan Charles Harvey (33 years old).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Latrobe High School (1957-1961) Diploma.
    University of Notre Dame (1961-1965) BS--1965.
    University of Pennsylvania (1965-1969) Ph.D.--1969.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Self Employed--Los Gatos, CA, 1997-Present.
          Duratek, Inc.--Vice Chairman.
          IT Group, Inc.--Vice Chairman and Acting CEO.
          Corporate Director--Ten Companies.

    Westinghouse Electric Corporation
          Chief Operating Officer, Industries and Technology Group, 
        Pittsburgh, PA, 1996-1997.
          President, Electronic Systems, Linthicum, MD, 1995-1996.
          President, Government and Environmental Services Co., 
        Pittsburgh, PA, 1994-1995.
          Vice President, Science and Technology Center, Pittsburgh, 
        PA, 1993-1994.
          General Manager, Marine Division, Sunnyvale, CA, 1986-1993.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    White House Fellow (1978-1979).
    Army Science Board (1998-2000).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Duratek, Inc. (1999 to Present), Director, Vice Chairman.
    IT Group, Inc. (1999 to Present), Director.
    Santa Clara University (1999 to Present), Regent.
    Kuhlman Electric Corp. (2000 to Present), Director.
    Bridge Bank (2001 to Present), Director.
    Gardner Technologies, Inc. (2002 to Present), Director.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Duquesne Club.
    The Metallurgy Society.
    Astronomical Society of the Pacific.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Lifetime member of the Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2003 Republican National Committee, $360.
    2002 Republican National Committee, $475.
    2001 Republican National Committee, $975.
    2000 Republican National Committee, $150.
    Tom Campbell Campaign, $1,000.
    Campbell Victory Committee $2,500.
    Jim Cuneen Campaign, $450.
    Victory 2000 California, $1,000.
    1999 Republican National Committee, $150.
    George W. Bush Campaign, $1,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Tau Beta Pi.
    Alpha Sigma Mu.
    NSF Fellowship.
    Outstanding Young Men Of America.
    Westinghouse Patent Awards.
    White House Fellowship.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    1. ``A Steady-State electrochemical Study of the Kinetics of the 
Reaction of Water Vapor with Liquid Pb-Te Alloys'' with G.R. Belton, 
Heterogeneous Kinetics at Elevated Temperatures, Plenum Press, 1970.
    2. ``The Rate of Vaporization of Tungsten in Argon'', Met. Trans., 
3:1972 (1972).
    3. ``The High Temperature Oxidation of Tungsten in O<INF>2</INF>-
Argon Mixtures'' Met. Trans. 4:1513 (1973).
    4. ``The High Temperature Oxidation of Tungsten in CO<INF>2</INF>-
Argon Mixtures'' Met. Trans. 5:35 (1974).
    5. ``Gas Transport Controlled Oxidation of Tungsten,'' Gordon 
Research Conference, 1973.
    6. ``The Co-Ti-C System at 1100 C, with R. Kossowsky, Met. Trans., 
5:790 (1974).
    7. ``Failure of Incandescent Tungsten Filaments by hot Spot 
Growth'', J. Illuminating Eng. Soc., 3:295 (1974).
    8. ``The High Temperature Oxidation of Tungsten in H<INF>2</INF>O-
Argon Mixtures'', Met. Trans., 5:1189 (1974).
    9. ``The Kinetics of Texture Development and Sulfur Removal in 
Oriented Silicon Iron, with W.M. Swift and K. Foster, Met. Trans. B, 
6B:377 (1975).
    10. ``The Role of Plasma Heating Devices in the Electric Energy 
Economy'' with M.G. Fey, Met. Eng, Quarterly, 16(2):27 (1976).
    11. ``A Model of Particle Heat Transfer in Arc Heated Gas Streams'' 
with T.N. Meyer, R.E. Kothmann and M.G. Fey, Proceeding of Int'l Round 
Table on the Study and Application of Transport Phenomena in Thermal 
Plasmas, Odeillo, France, September 1975.
    12. ``Mass Transfer Model of Halogen Doped Incandescent with 
Application to the W-O-Br Systems, Met. Trans. A, 7 A:1167 (1976).
    13.``A Model of Heat and Mass Transfer from Liquid metal Droplets 
in Arc Heated Gas Streams,'' with T.N. Meyer, Gordon Conference on 
Plasma Chemistry (1976).
    14. ``Magnetite Spheriodization Using an AC Arc Heater, with M.G. 
Fey and C.W. Wolfe, I&EC Process Design and Development. 16:108 (1977).
    15. ``The Use of Complex Equilibria Calculations in the Design of 
High Temperature Processes,'' presented at the 1977 Fall Meeting of the 
Metallurgical Society, Chicago, October 1977.
    16. ``A Model of Liquid Metal Droplet Vaporization in Arc Heater 
Gas Streams'' with T.N. Meyer, Met. Trans. B 9B:615 (1978).
    17. ``Development of a Process fro High capacity Arc heater 
Production of Silicon for Solar Arrays,'' with M.G Fey, TY.N. Meyer, 
R.H. Read and F.G. Arcella, presented at the 13th Photo Voltaic 
Specialists Conference of the IEEE, June 1978.
    18. ``Thermodynamic Aspects of Gas-Metal Heat Treating Reactions,'' 
Met. Trans. A, 9A:1507 (1978).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Francis J. Harvey.
    This 12th day of November, 2003.

    [The nomination of Francis J. Harvey was reported to the 
Senate by Chairman Warner on February 4, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was withdrawn by the President on September 15, 2004.]
                              ----------                              

    [Prepared questions submitted to Lawrence T. Di Rita by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Goldwater-Nichols is the law of the land and applies across 
a wide range of Department activities. My impression is that 
implementation is extensive, ongoing, and under continued review and 
assessment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The following paragraph summarizes the most important 
aspects, as I understand the act.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I have not given the matter much consideration. It is 
important to regularly assess the manner in which the department is 
organized. During the period in which I have served this administration 
thus far, when organizational proposals have surfaced, there has been 
significant consultation with Congress. That certainly would be the 
case with any future proposals.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense?
    Answer. Daily interaction in order to remain abreast of the 
Secretary's insights, priorities, and decisions, and to offer my advice 
to him across the range of issues facing the Department. Will assist 
the Secretary manage the Department's communications requirements to 
the Congress, the general public, and--most importantly--within the 
Department to civilian and military personnel.
    Question. The Deputy Secretary of Defense?
    Answer. If confirmed, my relationship with the Deputy Secretary 
would be much the same as my relationship with the Secretary of 
Defense.
    Question. The Under Secretaries of Defense?
    Answer. Regular interaction to assist them communicate matters for 
which their components are responsible.
    Question. The Assistant Secretary of Defense for Legislative 
Affairs?
    Answer. Critical daily interaction. I view communications with 
Congress as an important priority to ensure Congress is kept informed 
of important national security and defense-related matters.
    Question. The DOD General Counsel?
    Answer. Regular interaction to ensure that our communications 
activities are consistent with regulation and statute. Also, the global 
war on terror imposes a responsibility upon us to communicate to 
Congress and the broader public the many unique legal aspects of this 
conflict.
    Question. The Service Secretaries?
    Answer. The Service Secretaries have a most important role in the 
Department's internal communication responsibilities. They also 
interact regularly with Members of Congress and their staffs. If 
confirmed, I would work closely with them, and in close consultation 
with their public affairs chiefs, to help them discharge this 
responsibility and to help ensure consistency and proper frequency of 
message.
    Question. The Joint Chiefs of Staff?
    Answer. As with the Service Secretaries, if confirmed I would 
expect to work with the chiefs to help communicate with our forces. In 
addition, I would look forward to working with the Chiefs to assist 
them in communicating the Department's messages to Congress and the 
public, as appropriate.
    Question. Senior Uniformed Officers Responsible for Public Affairs, 
including the Army's Chief of Public Affairs, Navy's Chief of Naval 
Information; Marine Corps' Director of Public Affairs; and Air Force's 
Director of Public Affairs?
    Answer. Please see my responses to the previous two questions. If 
confirmed, I would expect to be working closely and on a regular basis 
with the service public affairs chiefs.
                                 duties
    Question. DOD Directive 5122.5 describes the responsibilities and 
functions of the Assistant Secretary of Defense for Public Affairs (ASD 
(PA)).
    What is your understanding of the duties and functions of the ASD 
(PA)?
    Answer. I understand the responsibilities of the position as 
outlined in the directive. In this position, if confirmed, I would 
serve as the principal staff assistant and advisor to the Secretary and 
Deputy Secretary of Defense for DOD news media relations, public 
information, internal information, community relations, public affairs 
and visual information training, and audiovisual matters.
    Question. Assuming you are confirmed, what changes, if any, in the 
duties and functions of ASD (PA) do you expect that the Secretary of 
Defense would prescribe for you?
    Answer. I do not anticipate changes in the duties and functions of 
the position as described in the directive.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My years as a military officer give me a deep understanding 
of just how important it is that senior leaders of the department 
communicate well and regularly with our Armed Forces.
    Several years serving as a staff member in the United States Senate 
taught me the importance of regular executive branch communications 
with the legislative branch.
    While serving as a senior staff assistant to a United States 
Senator, I also developed sensitivity to the importance of regular 
interaction with the media.
    Finally, my service in the Department for the past nearly 3 years 
has given me a breadth and depth of exposure to the Department that 
should help in my responsibilities to communicate the Department's 
priorities credibly, in a timely fashion, and accurately.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next ASD (PA)?
    Answer. We must continue to communicate internally, to Congress, 
and to the public the President's priorities in the global war on 
terror, to ensure the lessons of September 11 remain front and center. 
We also face the challenge of communicating the U.S. goals, objectives, 
and activities in Afghanistan and Iraq, as those newly liberated 
countries continue their transition to sovereignty and self-rule.
    The significant U.S. military presence in both countries rightly 
focuses attention on U.S. and coalition activities, and the Department 
has the responsibility, together with other departments and agencies of 
government, to properly communicate those activities.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I expect to build upon the work being done to 
communicate across the range of issues described above. The Department 
conducts an aggressive program of communication and public outreach, 
and that must continue and evolve to match our changing circumstances.
    I also intend, if confirmed, to place particular emphasis upon 
internal communications. I view our forces, their families, and the 
career civil servants who support them as our first, most important 
audience.
                            responsibilities
    Question. If confirmed as the ASD (PA), what would you view as your 
principal responsibilities to the Secretary of Defense?
    Answer. My principal responsibilities if confirmed would be to 
assure the Secretary that the Department is doing all it can to tell 
the story of the men and women serving all of us by defending our 
country.
    Question. Department of Defense Directive 5122.5 provides that the 
Assistant Secretary of Defense for Public Affairs shall ``ensure a free 
flow of news and information to the news media, the general public, the 
internal audiences of the Department of Defense, and the other 
applicable fora, limited only by national security constraints . . . 
and valid statutory mandates or exemptions.''
    What guidelines would you use, if confirmed, to determine what 
information can and cannot be released to the news media and the 
public?
    Answer. The Department publishes Principles of Information, which 
are included as an enclosure to DOD Directive 5122.5. If confirmed, I 
would work to ensure that judgments we make regarding the dissemination 
of information are based upon the principles outlined.
    Question. The ASD (PA) has responsibility for the security review 
of Department of Defense materials for publication and release, 
including testimony before congressional committees.
    If confirmed, what policy would you intend to follow in carrying 
out these responsibilities?
    Answer. Coordination of congressional testimony is in the purview 
of the Assistant Secretary for Legislative Affairs and the Department's 
Security Review Office. If confirmed, I would of course coordinate when 
necessary to ensure the communications aspects of such materials are 
properly considered prior to release.
    Again, consistent with the principles of information and 
appropriate security/sensitivity/classification considerations, if 
confirmed I would work to help ensure that we provide such information 
in a timely and accurate fashion.
    Question. Aside from restrictions related to classified and 
sensitive-source materials, if confirmed, what restrictions, if any, 
would you apply in approving material prepared for release by DOD 
officials?
    Answer. As a general matter, the first principle of information is 
that it is ``DOD policy to make available timely and accurate 
information so that the public, Congress, and the news media may assess 
and understand the facts about national security and defense 
strategy.''
    There will be times when judgment is applied to a particular piece 
or class of information that warrants additional consideration on the 
basis of source, sensitivity of ongoing operations, the need to verify 
facts, and other factors. Judgments of this nature must be applied all 
the time, but the principle remains the same: accurate and fast.
    Question. What steps would you take, if confirmed, to ensure that 
required security reviews do not result in late submission of written 
testimony?
    Answer. Although the ASD (PA) does not hold particular 
responsibility for this matter, it is important that required security 
reviews be accomplished. I believe this responsibility can be 
discharged without undue delay in the submission of testimony and other 
information.
    If confirmed, I would work with department officials to help ensure 
that they provide written testimony and follow-up information for the 
record in a timely and accurate fashion. This is a principal 
responsibility of the Assistant Secretary for Legislative Affairs, but 
I would work with that official and others to assist as needed in this 
matter.
 posting of information by the department of defense inspector general 
                                (dodig)
    Question. On December 5, 2003, the DODIG issued a memorandum 
discussing IG data which would be posted on the DODIG Web site. The 
memorandum stated that ``information of questionable value to the 
general public,'' ``information not specifically approved for public 
release,'' and ``information for which worldwide dissemination poses an 
unacceptable risk to national security or threatens the safety and 
privacy of the men and women of the Armed Forces'' would not be posted 
on the IG's Web site. The policy contained in this memo has been 
criticized as creating new categories of protected information that do 
not exist in law and announcing, in effect, a new policy of non-
disclosure.
    What role, if any, did you as Acting ASD (PA) have in the 
formulation of the categories of information cited by the DODIG in his 
memo of December 5?
    Answer. To the best of my knowledge and recollection, I had no role 
in the formulation of the DODIG memo.
    Question. How do you interpret these categories of information vis-
a-vis existing requirements for release under the Freedom on 
Information Act (FOIA) and the principles of information set forth in 
DOD Directive 5122.5?
    Answer. As I read the DODIG memo, and I have not discussed the 
intent of the memo with the IG, he is attempting to provide policy with 
respect to information on the DODIG Web site during the period in which 
the applicable DODIG instruction undergoes a review and update as 
necessary. I do not view it as an intent or desire to create a new 
class or new classes of restricted information.
    Regardless of the intent, though, it is important that matters with 
respect to information policy within the department be coordinated with 
the Office of the Assistant Secretary for Public Affairs. It is 
possible that the IG staff coordinated with the staff in the Office of 
ASD (PA), but I am unaware if that is the case.
    Question. If confirmed, what responsibility, if any, would you have 
under the DODIG's policy for determining what information falls under 
the categories for nondisclosure cited in the memorandum?
    Answer. If confirmed, my responsibility with respect to 
communications policy of the Department is spelled out in DOD Directive 
5122.5, and I would expect to discharge my responsibilities 
accordingly. I do not believe the DODIG memo supersedes the principles 
of information established in DOD Directive 5122.5, nor do I believe 
that is the intent of the IG in promulgating his memo. If confirmed, I 
would work with the IG and other component heads to ensure compliance 
with the principles of information cited in the directive.
                news analysis and news clipping service
    Question. The ASD (PA) has responsibility for overseeing the 
provision of news analysis and the news clipping services (including 
the Early Bird, the Supplement, and the Radio-TV Dialog) for the Office 
of the Secretary of Defense, the Joint Staff, and the headquarters of 
the military departments.
    What policy would you follow, if confirmed, in providing news 
analysis and in determining which news media reports should be 
disseminated throughout the Pentagon?
    Answer. These services are first and foremost management tools to 
assist the senior leadership of the Department discharge their 
responsibilities. If confirmed, I expect to emphasize the importance 
that these tools focus on timely, fact-based information. I would also 
look to ensure that such information that is not otherwise widely 
available be included in the various clipping services.
    There are broad guidelines established to ensure that these 
products include timely, accurate information, but judgment is applied 
at various levels within the Office of the ASD (PA) to ensure the 
products are useful to senior decisionmakers in the Department.
                   european-pacific stars and stripes
    Question. Stars and Stripes is an independent news organization, 
but it is also authorized and funded in part by DOD. Representatives of 
the Society of Professional Journalists recently have asserted that OSD 
and the American Forces Information Service (AFIS) have attempted to 
improperly use command influence in shaping the editorial content of 
the Stars and Stripes newspapers and Web site.
    In your opinion, what is the appropriate journalistic role of the 
Stars and Stripes newspapers and internet-based outlets?
    Answer. The Stars and Stripes is an important vehicle to help 
provide broad-based news and information to our forces. I believe the 
paper has a particular responsibility to focus on forward-deployed 
forces that do not have good access to other sources of news and 
information.
    I am unaware of any attempts in OSD to shape the editorial content 
of the Stars and Stripes.
    Question. What is your understanding of the role and 
responsibilities of the ASD (PA) and the Director of AFIS with regard 
to the operation of and reporting in the Stars and Stripes newspapers?
    Answer. The Director of AFIS has certain management oversight 
responsibility for Stars and Stripes, and the ASD (PA) exercises 
authority, direction, and control over the Director of AFIS. If 
confirmed, I would help ensure that the paper operates within its 
budget and provides quality news and information to our forces, with 
principal focus on those forces forward deployed who do not have access 
to a wide variety of other news and information sources.
    Question. Based on your experience in OSD, are the Stars and 
Stripes newspapers and internet reporting editorially independent? If 
so, what are your views about the appropriate level, if any, of OSD and 
AFIS oversight over the content of Stars and Stripes newspapers?
    Answer. DOD Directive 5122.11 outlines the editorial operations of 
Stars and Stripes. In accordance with the DOD Directive, ``as a 
Government organization, the Stars and Stripes news staff may not take 
an independent editorial position.'' When publishing editorials and 
other opinion pieces, I understand the editors attempt to provide a 
broadly representative range of views over time.
    The DOD Directive does allow the Star and Stripes editor to 
``establish a standard code of personal and professional ethics and 
general editorial principles.'' My impression based on casual 
observation and reporting is that the paper is independent, and is 
perceived as such by military commanders.
    Question. In October 2003, Stars and Stripes newspapers featured a 
story titled ``Ground Truth: Conditions, Contrasts and Morale in 
Iraq.'' This story included the results of a survey of individual 
soldiers on such topics as personal and unit morale, concern of chain 
of command about living conditions, adequacy of training, and 
understanding of soldiers' mission.
    What is your opinion of the content of the foregoing articles and, 
in particular, the survey that was reported on in the October 15, 2003, 
edition of Stars and Stripes?
    Answer. It is my understanding that Stars and Stripes editors and 
reporters periodically develop questionnaires such as the one reported 
in the October 15, 2003, edition. The morale, living conditions, and 
training of U.S. forces is a responsibility that the entire chain of 
command within the Department of Defense takes seriously. The senior 
uniformed and civilian leaders of the Department have taken a number of 
steps to address these issues and ensure we treat our people right.
    It is helpful to receive information on these matters from a wide 
variety of sources, including such surveys as the one used by the Stars 
and Stripes.
    Finally, I understand that the Stars and Stripes Ombudsman, in a 
letter to the publisher, gave the Department's leadership high marks 
for its approach to this series.
    Question. The function and responsibilities of the Stars and 
Stripes' Ombudsman have been the subject of discussion within the AFIS 
and among journalists outside the Department of Defense.
    Do you support an independent Ombudsman for Stars and Stripes?
    Answer. I do. I have met with the Ombudsman and corresponded in 
writing with him on occasion. I have found his insights quite helpful.
    Question. What guidance would you provide, if confirmed, with 
regard to the role, responsibilities and functions of the Stars and 
Stripes Ombudsman?
    Answer. If confirmed, I expect to continue working with the Stars 
and Strips Ombudsman. I would expect to depend upon him to provide 
advice and counsel on the proper functioning of the paper as we seek to 
ensure it fulfill its role as a provider of news and information to our 
forces, particularly those forward deployed with less access to other 
sources of news and information.
             stars and stripes transformation working group
    Question. The mission of the Stars and Stripes Transformation 
Working Group was to evaluate the current operations of Stars and 
Stripes and to develop recommendations on how the newspaper would best 
fulfill its mission in serving the U.S. military of the 21st century 
that will be increasingly mobile, deployed at fewer large-scale 
overseas bases, and likely situated in new locations around the world.
    What were the findings and recommendations of the Stars and Stripes 
Transformation Working Group?
    Answer. The working group made a number of recommendations 
regarding the budget, business operations, and organization of the 
newspaper. I found the recommendations thought provoking and asked that 
the working group leader brief relevant congressional committee staff 
and the Stars and Stripes management board.
    Question. In your opinion, what efficiencies, if any, regarding 
business operations, operating expenses, sources of income, and DOD 
funding, etc., need to be implemented to achieve more effective and 
efficient operations?
    Answer. I have not made a detailed study of the matter. The 
transformation working group made several recommendations in these 
areas that may be helpful. There are a number of areas in which 
efficiencies can be explored, including the use of technology to reduce 
production and distribution costs, potential distribution partnerships 
with other distributors, increased advertising opportunities, reduced 
operating expenses by ceasing unnecessary or marginal operations, 
revenue generation through printing and production services, and other 
possible and appropriate business opportunities.
    In my view, the management of the paper should aggressively seek 
every possible efficiency and revenue source prior to contemplating an 
increase in appropriated funds.
    Question. In the Chairman's Preface to the Transformation Working 
Group Final Report, it was stated that the newspaper's editorial 
philosophy needed review and that throughout the course of the Group's 
study ``military leaders in the combatant commands with whom the 
Working Group has met have consistently raised concerns about accuracy, 
balance and investigative reporting in Stars and Stripes.''
    What are your views about the accuracy, balance, and investigative 
reporting of Stars and Stripes?
    Answer. I have not read the paper in my present capacity closely 
enough to form a view. As a former overseas-stationed naval officer, I 
read it regularly and found that it presented a wide range of views, 
news, and information. The relevant DOD Instruction calls for the paper 
to provide a balanced source of news, information, and editorial 
content and my impression is that the managers of the paper attempt to 
do so in a professional manner.
    Question. How did the Department address these concerns?
    Answer. The discussion on editorial philosophy as described in the 
Chairman's Preface represents the views of the chairman alone, and he 
is entitled to them. To the best of my recollection, the Chairman's 
Preface was not briefed to the paper's management or oversight 
officials, or to the relevant congressional committee staff.
    The other recommendations of the working group have been made 
widely available, as described above. I should note that the Stars and 
Stripes Ombudsman received the briefing and had ample opportunity to 
comment. In fact, I found his comments quite helpful. To my knowledge, 
we have not taken any specific action with regard to any of the 
recommendations as yet.
    Question. In your view, what are the most appropriate means to 
address the concerns raised by the Chairman of the Transformation 
Working Group?
    Answer. I preface by stating my sense that the Chairman performed a 
useful service to the Department by leading the Transformation Working 
Group. It is my understanding that he was asked to perform this service 
by senior OSD officials, and he volunteered his service.
    Subsequent to the conclusion of his report, we provided venues for 
him to brief the findings of the working group as described above. The 
management of the paper and the appropriate oversight officials in the 
department will consider these findings as they seek to ensure the 
efficient and effective operation of Stars and Stripes going forward.
    Question. The governing directive for Stars and Stripes newspapers 
and business operations is DOD Directive 5122.11, dated October 5, 
1993, with changes through September 3, 1996.
    What aspects of DOD Directive 5122.11, if any, require changes?
    Answer. If confirmed, I will undertake to review the directive to 
determine if any changes are required. It is my understanding that the 
operations of the Stars and Stripes as envisioned in the directive, to 
be managed as two papers under the European and the Pacific Command 
Commanders, have been combined into a single paper under the Office of 
the ASD (PA). That reorganization is not reflected in the current DOD 
Directive, which pre-dates the reorganization.
    There may be other areas requiring review and possible updating of 
the DOD directive. For example, we may seek methods to allow Stars and 
Stripes to deliver content worldwide. The current directive limits the 
focus to personnel overseas. Stars and Stripes often contains important 
military information and it is worth considering whether there is a way 
to expand the service to forces stationed within the United States.
    I am mindful of the potential sensitivities of this notion, but 
those sensitivities should be balanced against the objective of 
communicating to our forces and their families as broadly and 
effectively as possible, and also the prospects for increased 
efficiencies and reduced operating costs for the paper.
    We might also consider how the paper is funded, especially in 
contingency locations. The directive puts the responsibility of 
supplying the paper on the combatant commands. This may or may not be 
the optimal solution but it bears some review to ensure that we have 
chosen the best approach to ensure the broadest distribution of the 
paper to forward deployed forces.
                  press coverage of combat operations
    Question. In the past 10 years, press coverage of combat operations 
has increased. This increased coverage culminated during Operation 
Iraqi Freedom in authorization by the Department of ``embedded'' 
reporters.
    What is your assessment of the practice of ``embedding'' reporters 
in Operation Iraqi Freedom?
    Answer. My impression is that the embedding process was a 
worthwhile program. It provided the opportunity for the public to 
receive much better insight into the skill, courage, and 
professionalism of our forces than may otherwise have been possible had 
the embedding program not existed. It also gave a large number of 
journalists a much better understanding of the same thing, and that can 
only help ensure more accurate defense-related journalism in the 
future.
    Question. What were the most significant ``lessons learned'' from 
this practice?
    Answer. I have not conducted any analysis of the program 
sufficiently to draw broad lessons. My observation, bolstered by a 
large number of anecdotal reports, leads me to believe that the program 
was effective. The department continues to encourage embedding for 
journalists covering the post-major conflict period in Iraq.
    One area needing analysis is the question of whether it was more 
difficult for our forces to manage interactions with non-embedded 
journalists during the conflict. I have heard anecdotal reports on this 
issue but no systematic study has been done that I am aware of.
    Question. What steps would you take, if confirmed, to ensure that 
the next of kin of combat casualties are informed of death or injuries 
by Service representatives prior to release of identifying information 
by either the Department or reporters?
    Answer. This is an important priority always, and it takes constant 
oversight to help ensure we do it right. As always, our first and most 
important communications audience is our forces and their families and, 
if confirmed, that will be one of my operating precepts.
                       freedom of information act
    Question. If confirmed, what would your role and responsibilities 
be with regard to the Freedom of Information Act?
    Answer. If confirmed, I would do my part to ensure that information 
sought under the act be released--as appropriate based upon 
classification or other factors contemplated in the act--as 
expeditiously and completely as possible.
    Question. If confirmed, what responsibilities would you have under 
the Privacy Act and how would you fulfill those responsibilities?
    Answer. Public officials across government have an obligation to 
respect and protect the privacy of individuals. The need to provide 
information to the public quickly and accurately in accordance with the 
principles of information must always take into account with the 
importance we must attach to not invading the privacy of individuals as 
a result of disclosing that information.
    If confirmed, I will work to ensure that the department's 
communications and public affairs personnel understand their 
obligations and that training is available to ensure that.
                  american forces information service
    Question. What long term goals should the Department support for 
AFIS?
    Answer. As noted earlier in my responses, internal communications 
is the most important communication priority we have. The American 
Forces Information Services is the means by which we manage most of our 
internal communications responsibilities. If confirmed, I will seek 
every media avenue the department has to ensure we are speaking 
clearly, timely, and accurately with our forces--including our Reserve 
component forces--and the families that support them.
    There are also opportunities to use technology, including distant 
learning capabilities, to improve and expand the Public Affairs 
training we conduct in the department. If confirmed, I will work with 
the management of AFIS on this and other important training priorities.
    Question. If confirmed, would you support expanding or increasing 
AFIS services under the fiscal year 2005 future years defense plan?
    Answer. If confirmed, I will examine all of the capabilities we 
have to provide news and information to our military at home and 
overseas and, balancing that against other priorities within my area of 
responsibility, do what I can to ensure we are doing the best we can in 
this important area of internal communications.
    One area of emphasis must be to improve the timeliness and accuracy 
of information provided to the Reserve component and their families. 
There is much we can do with improved technology to expand services to 
meet this challenge
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Public Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Lawrence T. Di Rita follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 21, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Lawrence T. Di Rita, of Michigan, to be an Assistant Secretary of 
Defense, vice Victoria Clarke.
                                 ______
                                 
    [The biographical sketch of Lawrence T. Di Rita, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Lawrence T. Di Rita
    Lawrence T. Di Rita is the Special Assistant to the Secretary of 
Defense. He joined the Department after serving as Legislative 
Director, the Chief of Staff, for Senator Hutchison from 1996-2001. 
Prior to that, he served as Policy Director to the 1996 presidential 
campaign of Senator Gramm.
    A former Navy surface warfare officer and Operation Desert Shield/
Desert Storm veteran, Mr. Di Rita served in several ships and short 
assignments before leaving the service in 1994. His final tour was on 
the Joint Staff under General Colin Powell.
    While on active duty, Mr. Di Rita served in U.S.S. Kirk (FF 1087), 
U.S. Midway (CV 41), U.S.S. Leyte Gulf (CG 55) and on the Joint Staff 
in J-5's International Negotiations Policy Branch.
    Upon leaving the Navy, Mr. Di Rita joined the Washington-based 
Heritage Foundation in 1994 as Deputy Director of Foreign Policy and 
Defense Studies. He has published frequently on issues pertaining to 
the U.S. armed services and national security policy.
    A 1980 graduate of the United States Naval Academy, he has his 
master's degree from the Johns Hopkins University School of Advanced 
International Studies (SAIS) in Washington, DC. Originally from 
Detroit, Michigan, Mr. Di Rita now lives with his wife, Therese, and 
daughter in Potomac, Maryland.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lawrence T. Di 
Rita in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lawrence Thomas Di Rita.

    2. Position to which nominated:
    Assistant Secretary of Defense (Public Affairs).

    3. Date of nomination:
    November 21, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    12 March 1958; Detroit, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Shaheen, Therese Marie.

    7. Names and ages of children:
    Isabelle Dolores Di Rita (5).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    M.A., 1987, Johns Hopkins University School of Advanced 
International Studies.
    B.S., 1980, United States Naval Academy.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1993-1995, Deputy Director, Foreign Policy/Defense, The Heritage 
Foundation.
    1995-1996, Issues Director, Phil Gramm for President.
    1996-2001, Legislative Director/Chief of Staff, Senator Kay Bailey 
Hutchison.
    2001-Present, Special Assistant to the Secretary of Defense.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1976-1980, Midshipman, United States Naval Academy.
    1980-1993, United States Navy.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, United States Naval Institute.
    Member, Friends of Navy Squash.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    N/A
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $1,000, Bush/Cheney 2000.
    $500, Jeb Hensarling for Congress.
    $500, Jeb Hensarling for Congress.

    Perhaps so, will provide separately if so. [No further information 
provided.]

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Joint Service Commendation Medal.
    Navy Commendation Medal (2).
    Navy Achievement Medal.
    Various Navy campaign medals.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See attached list.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A

    18. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Lawrence T. Di Rita.
    This 9th day of January, 2004.

    [The nomination of Lawrence T. Di Rita was reported to the 
Senate by Chairman Warner on February 4, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was withdrawn by the President on November 16, 2004.]
                              ----------                              

    [Prepared questions submitted to William A. Chatfield by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. If confirmed as the Director of Selective Service what 
would you view as your principal responsibilities and duties?
    Answer. The principal responsibilities of the Director are noted in 
the Military Selective Service Act: to be ready to provide both trained 
and untrained manpower to the Armed Forces in the numbers and 
timeframes requested by the Department of Defense, and to be prepared 
to manage an Alternative Service Program for those men classified as 
conscientious objectors. This charter implies that Selective Service be 
organized, staffed, and trained to perform these tasks.
                             relationships
    Question. The mission of the Selective Service System is to provide 
manpower to the Armed Forces in time of national emergency and to 
manage an Alternative Service Program for men classified as 
conscientious objectors during a draft.
    If confirmed, what would your relationship be to the Secretary of 
Defense and the Under Secretary of Defense for Personnel and Readiness?
    Answer. It is clear that the chief customer of Selective Service is 
the Secretary of Defense. Today, Selective Service receives its 
guidance on the number of conscripts that may be required in a crisis, 
as well as the desired timeframes from the manpower planners in his 
Department. The Agency's primary contact within DOD is the Office of 
the Under Secretary for Personnel and Readiness. We also work very 
closely with the Military Entrance Processing Command which also comes 
under this structure. As necessary, there is also direct liaison with 
the Office of the Secretary of Defense regarding SSS policy issues. 
Over many years, these relationships have worked well and I will ensure 
that they continue.
    Question. If confirmed, what would your relationship be to the 
Assistant Secretaries for Manpower in the military services; the 
uniformed personnel chiefs of the military services; the Director of 
the National Guard Bureau; the Reserve component chiefs; and the 
manpower officials in the Joint Staff?
    Answer. As an independent civilian agency, Selective Service's 
principal interface with DOD is the Office of the Secretary of Defense. 
Joint and Service manpower officials express their needs up their chain 
to OSD. This said, Selective Service has historically responded to the 
Services on Service-unique issues. For example, the SSS has been 
assisting individual Service recruiting efforts by including a 
recruiting brochure for the active and Reserve components in our 
registration acknowledgment envelope mailed to more than 40,000 men 
each week. As Director, I will meet with the Service Secretaries as 
necessary. The Chief of the Bureau and the Reserve chiefs support the 
agency by placing 400 National Guard and Reserve officers in Selective 
Service assignments and assisting with the registration of young men.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Director of the Selective Service System?
    Answer. There are four: getting the registration message out to the 
public given budget limitations, maintaining the registration 
compliance rate above the 90 percent range, assuring the public that if 
a draft is reinstated it will be fair and equitable, and defending the 
System against challenges to its survival from those who believe that 
our Nation no longer needs the Agency.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. To heighten awareness of the registration requirement among 
men 18 through 26 years old I would focus more mass mailings to 
targeted shortfall areas, augmented with public service advertising. 
This would expand the reach and frequency of the registration message. 
In support of this approach, I would add momentum and sustainability by 
encouraging more States to link driver's permits and licenses to the 
Federal registration requirement. Finally, I would ensure a top to 
bottom review of all mobilization programs to determine the exact costs 
for readiness and whether the proper level of readiness has been 
achieved. Selective Service needs only to be as ready and capable as is 
necessary to fulfill its responsibilities. With the foregoing 
accomplished, justification for survival of the Agency and its missions 
would be self-evident.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Selective Service System?
    Answer. I believe they are two: eroding public awareness of the 
Federal registration requirement and an essentially no-growth budget. I 
am sensitive to the fact that the public awareness task is never 
completed because another 5,000 young men turn 18 years old every day 
in the U.S.
    Question. What plans do you have for addressing these challenges?
    Answer. One of my first actions would be to spend about 60 days 
assessing the structure and organization of the System. Given the 
sizeable Agency investment in information technology over several 
years, Selective Service need not operate as it did coming out of deep 
standby in 1980. Through a smarter realignment of programs and people, 
and capitalizing upon automation already in place, the resources should 
be available for reprogramming in sync with priorities that I will 
identify, especially awareness of the registration requirement.
          military personnel and the selective service system
    Question. The Selective Service System relies on military members, 
from both the active and Reserve components, to accomplish its mission. 
For example, about 450 National Guardsmen and reservists fulfill their 
military training obligations with the Selective Service System.
    Please describe the current military manpower requirements of the 
Selective Service System and any initiatives taken by the Department of 
Defense and each of the Services to lower the number of uniformed 
military personnel who support the Selective Service System.
    Answer. Over the years, OSD and the military services have been 
most cooperative in satisfying the Agency's military requirements, and 
working with them, Selective Service has reduced its uniform assets. 
Since the mid-1990s, SSS has continuously realigned and updated those 
requirements. So the Agency now has assigned only two full-time active 
duty officers vice the previous 19; 400 part-time National Guard and 
Reserve officers instead of 750; and a cut in field grade positions of 
about 22 percent.
    Question. To your knowledge, have there been proposals to 
substitute civilian positions for active duty or Reserve component 
personnel and what are your views about such an initiative?
    Answer. Yes, SSS has proposed replacing higher cost active duty 
positions with civilians. Although there has been a reduction in active 
duty officers, there has not been a one-for-one replacement with 
civilians. Further, the Agency has never sought replacements for its 
declining number of part-time Reserve component personnel. Declining 
military personnel have been compensated for by applying more 
automation, changing policies, reshaping the organization, and through 
staff training. These approaches have worked and the Agency is doing 
more with less, so there is no need to add more employees.
    Question. What are your personal views about the requirement for 
military personnel to operate and manage the Selective Service System?
    Answer. While there is a benefit from military representation in 
the Agency, and we have this with our part-time National Guard and 
Reserve officers, Congress created Selective Service to be the 
independent, civilian buffer between the end user of conscripts, the 
DOD, and American society. This approach has been working for over 63 
years. But I do not believe that it is appropriate for military 
personnel to occupy decisionmaking positions; these ought to be 
civilian.
                  coordination with secondary schools
    Question. Former Director Alfred Rascon stated that the Selective 
Service System had to overcome two major hurdles when reaching out to 
young men: ``ignorance of the law and apathy toward responsibility.'' 
The Selective Service System has cultivated ties with organizations 
representing secondary school principals and counselors and community 
organizations in an effort to ensure knowledge of the requirements of 
law and voluntary compliance.
    If confirmed, what actions would you take to overcome the obstacles 
identified by Mr. Rascon?
    Answer. My background is communications and building partnerships 
with various audiences. I believe that an aggressive public awareness 
program, coupled with outreach to those groups which influence and 
touch young men--both educational and others, is the way to dispell 
ignorance and address youthful apathy.
    Question. What Selective Service programs exist to inform and 
influence parents, teachers, and other organizations regarding the 
requirement to register with the Selective Service System, and how 
widespread are these programs?
    Answer. SSS is already outreaching to influencers, schools, young 
men themselves, and other groups. Some are national in scope, such as 
radio Public Service Announcements to all the major media markets, high 
school kits to volunteer Selective Service registrars in 25,000 
schools, and professional associations which deal with youth: National 
Association of Secondary School Principals, National School Boards 
Association, American Association of Collegiate Registrars and 
Admissions Officers, and the National Association of Financial Aid 
Administrators. Examples of national influencer groups include: The 
League of United Latin American Citizens, National Urban League, 
Organization of Chinese Americans, and the National Congress of 
American Indians. Additionally, several programs focus on local or 
regional communities, such as YMCAs, local ethnic media, immigration 
services organizations, and others. These local efforts are targeted in 
areas of low registration compliance. Finally Selective Service has an 
extensive network of 10,000 civilian Board Members who are ambassadors 
for our programs in virtually every county across America.
    Question. What is your understanding of the level of voluntary 
participation by secondary schools in assisting the Selective Service 
in achieving compliance by male students?
    Answer. The Nation's secondary schools are supportive. The 
Selective Service registrars in 25,000 high schools are volunteer staff 
or faculty members who distribute SSS awareness materials, approach the 
young man directly to register, and send him to the library to register 
on the Internet at www.sss.gov. Today, SSS has 86 percent of the 
Nation's high schools participating with registrars.
    Question. If confirmed, would you recommend imposing legal 
obligations on school systems that received Federal funding to assist 
in overcoming ignorance of the law and apathy toward compliance?
    Answer. There is no doubt that this legal mandate would foster 
greater registrations, however, it might be perceived as ``Big 
Brother'' being too heavy handed. I believe that the programs already 
in place at SSS are working; the registration compliance rate is moving 
upward and at the end of calendar year 2002 it was 91 percent. This 
number can only be improved upon as more and more States adopt driver's 
license legislation supporting the Federal registration law. But 
registration awareness remains a challenge and has to be worked daily. 
This is one of my priorities.
                   assistance to military recruiting
    Question. The Selective Service System has assisted in military 
recruiting by placing rotational recruiting messages for the active and 
Reserve components on registration acknowledgment cards mailed to more 
than 38,000 men each week.
    How effective has the Selective Service System's recruiting effort 
been?
    Answer. The Department of Defense is pleased with this Selective 
Service partnership which provides information about military 
opportunities available in all the active and Reserve components. One 
very big selling point is the fact that SSS names and addresses are the 
most accurate to be found anywhere because they are recently submitted 
by the men themselves. Therefore, there is no wasted postage to contact 
them. The satisfaction of DOD is expressed by its replacement of the 
joint program previously handled by OSD with the SSS mailing.
    Question. What are your views and recommendations about additional 
methods the Selective Service System might use in assisting in 
recruiting efforts?
    Answer. Conceptually, there are additional ways that SSS might aid 
in this area. For example, if reenlistment rates or enlistments 
themselves fall in the Reserve components as a result of many 
protracted deployments, SSS might draft exclusively for them. A 
variation of this could be a National Guard and Reserve draft, in which 
the military person completes his basic and advanced training on active 
duty, then performs a full-time homeland security mission in the U.S. 
for a period of time, followed by a part-time assignment in a Guard or 
Reserve unit. Finally, a special skills draft might be necessary for 
the Armed Forces if volunteers prove too few. I am sure that there are 
other ways for SSS to contribute in support of our all-volunteer 
military.
    Question. What are your views and recommendations about initiatives 
the Department of Defense might implement to assist the Selective 
Service System in achieving higher compliance rates?
    Answer. I cannot think of anything additional that DOD might do for 
us to achieve higher registration compliance. The Department already 
provides us its commercially-developed recruiting list. We bounce it 
against our registration database and if a name isn't there, SSS 
contacts the man to solicit his registration. Additionally, each 
Service ensures a new recruit is registered with Selective Service as 
he processes into the military. So Defense is helping us out currently.
                       state by state compliance
    Question. For several years, the Selective Service System has 
issued ``report cards'' by State measuring the percentage of eligible 
men turning 20 who have registered in accordance with the law.
    What programs and requirements used by States have proven most 
influential in achieving above average compliance rates?
    Answer. The two most successful programs at the State level which 
foster registration compliance are State driver's license legislation 
and laws which parallel the Federal Solomon and Thurmond amendments. 
Driver's license legislation links a driver's permit, license, license 
renewal, and State ID card to registering by means of the license 
application or submitting one's Selective Service number. We now have 
32 States, two territories, and the District of Columbia participating. 
This is a wonderful source of registrations because every young man 
wants a license as soon as he can get it. The other great source of 
registrations is a State law which links a man's eligibility for State-
funded higher education benefits and State jobs to the Federal 
registration requirement. To date, 36 States and territories have 
enacted these laws.
    Question. What recommendations for legislation, if any, or for new 
programs at both the Federal and State level do you have for increasing 
compliance levels nationwide?
    Answer. At the Federal level, there really isn't a need for new or 
additional legislation. However, we hope that at the State level 
driver's license legislation might eventually include all 50 States and 
every U.S. territory.
    Question. In your view, is the current budget of the Selective 
Service System sufficient to prevent declines in compliance rates?
    Answer. I think that SSS has proven that its current initiatives 
are improving the challenges to compliance. However, what I am 
concerned about is an essentially straight-lined budget which precludes 
applying those public awareness initiatives, technology, and staffing 
changes necessary to conduct business smarter and more effectively.
                incentives to individuals for compliance
    Question. Selective Service registration currently is a requirement 
for a number of opportunities, including Federal student loans, job 
training, employment, and U.S. citizenship.
    Are there any additional incentives that you consider appropriate 
to encourage more young men to register in a timely manner?
    Answer. Thanks to Congress and most State legislatures, I believe 
that SSS has the bases covered. From its point of view, the one that 
needs to be expanded, the one that is the most productive source of 
registrations, is driver's license legislation. But this is totally 
dependent upon the wishes of States that have not yet enacted such 
legislation.
              performance of the selective service system
    Question. In his responses to questions submitted by the committee 
in May 2001, former Director Rascon indicated that the accuracy of the 
address information of Selective Service registrants is good because of 
measures for voluntary submission of changes and through reliance on 
the U.S. Postal Service's National Change of Address system.
    What is your estimate of the current accuracy of the address 
information of Selective Service registrants in the prime induction 
group?
    Answer. It is highly accurate because Selective Service employs the 
same program as the U.S. Postal Service--the National Change of Address 
System. In addition, this program is supplemented with changes provided 
by the registrant himself from our acknowledgment mailing to him at his 
residence, through changes a registrant mails using a card at any Post 
Office, from changes he provides by telephone, and with address updates 
he supplies on the Internet. Actual mailings average over a 98.5 
percent successful contact rate, so our procedures are working.
    Question. What additional steps is the Selective Service System 
taking to ensure the accuracy of address information?
    Answer. SSS is continuing the successful Postal Service system, has 
printed on the outside of all its cards and envelopes the postal 
endorsement for address corrections to ensure notification to the 
agency, and practices internal controls to guarantee that address 
changes from a registrant are posted to his file immediately and 
accurately.
                         military conscription
    Question. The demands placed on our military forces fighting the 
war on terror have led to calls by some to reinstate the draft. 
Legislative proposals have been introduced in the Senate and the House 
of Representatives that would require all young men and women in the 
United States to perform a period of military service or a period of 
civilian service in furtherance of the national defense and homeland 
security.
    What are your views on reinstating the draft to support the war on 
terror?
    Answer. I see Selective Service as a service organization and, as 
such, it does not make policy; it responds to and implements policy. 
Policymaking is the realm of this committee and the administration. It 
would be my job to lead the agency in conducting a timely, fair, and 
equitable draft if Congress and the President so direct. It would not 
be within my purview to determine when and if such a draft is 
necessary.
    Question. In your opinion, should women be subject to the draft if 
it is reinstated?
    Answer. Since the founding of the Nation, the U.S. has never 
drafted women. To do so would require congressional and presidential 
policy and lawmaking decisions. Personally, I see no pressing need to 
do so. The primary customer, the DOD, has taken the position that there 
is no ``military necessity'' to register, let alone, draft females, 
especially since a general draft would be intended to replace combat 
casualties. As a matter of longstanding policy, the Nation continues to 
exclude women from front-line, ground combat assignments.
    Question. Are there any circumstances under which you would 
recommend reinstating the draft? If so, what are these circumstances?
    Answer. It would be my job to lead the agency in conducting a 
timely, fair, and equitable draft if Congress and the President so 
direct. It would not be within my purview to determine when and if such 
a draft is necessary. But I can speculate that the Nation's 
policymakers might consider a draft if confronted with very serious 
threats from a hostile adversary or group of adversaries, or if a 
conflict was to be protracted over several years and volunteers were 
too few, or if there appeared to be no other solution to filling 
critical skills vacancies in the Armed Forces.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Absolutely. I see it as a matter of integrity and principle 
that the Agency Head be the facilitator between Selective Service and 
the Congress in an ongoing dialogue. I've mentioned public awareness of 
the registration requirement, but the other type of awareness is Agency 
awareness by the oversight committees. This can only be achieved if I 
am responsive; I intend to be responsive.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. If the committee desires the personal views of Bill 
Chatfield, it just has to ask.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director, Selective 
Service System?
    Answer. If confirmed, I envision my job as director to be the lead 
in the exchange of information between the committee and the Selective 
Service System. Selective Service is a public agency doing the public's 
business. It can only retain its program credibility if what it does is 
open to public view and this means Congress.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I assure you that, if confirmed, I and Selective Service 
will continue to be forthright and responsive in any communications to 
or from a committee.
                                 ______
                                 
    [The nomination reference of William A. Chatfield follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 3, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William A. Chatfield, of Texas, to be Director of Selective 
Service, vice Alfred Rascon, resigned.
                                 ______
                                 
    [The biographical sketch of William A. Chatfield, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of William A. Chatfield
    Mr. Chatfield, of Texas, has more than 25 years of experience 
working with the executive and legislative branches of the Federal 
Government.
    He commenced public service with the doorkeeper of the U.S. House 
of Representatives from 1978 through 1979, and performed in several 
appointed positions of increasing responsibility from 1980 through 1987 
in the Reagan administration. He served on the staff of the Deputy 
Under Secretary for Policy at the Department of Defense; as Regional 
Director of the Civil Aeronautics Board; Special Assistant to the 
Director, Office of Personnel Management; Assistant to the Chairman of 
the Consumer Product Safety Commission; Special Assistant for 
Congressional Liaison in the Department of the Interior; and, Staff 
Advisor to the Commissioner at the Interstate Commerce Commission.
    Since 1987, he has engaged in governmental affairs consulting. In 
1989, he and former Congressman Tom Kindness established Kindness & 
Chatfield Associates, a government relations and public affairs 
consulting firm.
    He attended Union College, majoring in political science and 
criminal justice, and continued studies at American University. During 
his active duty with the U.S. Marine Corps, he was an intelligence 
analyst. Currently, he is an officer in the U.S. Marine Corps Reserve.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William A. 
Chatfield in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William Austin Chatfield.

    2. Position to which nominated:
    Director, Selective Service System.

    3. Date of nomination:
    September 3, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 14, 1951; Catskill, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cynthia Lynn Garza Chatfield.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Union College, Cranford, NJ; 1973-1975.
    American University, Washington, DC; 1979-1980.
    No degree received.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Kindness & Chatfield Associates; Partner; government relations 
consulting; Washington, DC; 1989-present.
    SKC & Associates; Associate; government relations consulting; 
Washington, DC; 1987-1989.
    Reagan administration: Politically Appointive Positions:

          Department of Defense, staff of the Deputy Under Secretary 
        for Policy, Washington, DC, 1981-1982.
          Civil Aeronautics Board, Regional Director, Dallas/Fort 
        Worth, TX, 1982-1984.
          Reagan-Bush 1984 Campaign, Regional Field Director, Rocky 
        Mountain Region, Phoenix, AZ, 1984.
          Office of Personnel Management, Special Assistant to the 
        Director, Washington, DC, 1985.
          Consumer Product Safety Commission, Assistant to the 
        Director, Washington, DC, 1985-1986.
          Department of the Interior, Special Assistant for 
        Congressional Liaison, Washington, DC, 1986.
          Interstate Commerce Commission, Staff Advisor to the 
        Commissioner, Washington, DC, 1986-1987.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None other than those above.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Consultant to:
      Department of Defense, Office of the Assistant Secretary of 
Defense for Reserve Affairs, Employer Support of the Guard and Reserve.
      NVE, Inc., Andover, NJ; nutritional supplement manufacturer.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Capitol Hill Club, Washington, DC; membership only.
    The Army & Navy Club, Washington, DC; membership only.
    The Reserve Officers Association, Washington, DC; membership only.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                          William Austin Chatfield.
    This 26th day of September, 2003.

    [The nomination of William A. Chatfield was reported to the 
Senate by Chairman Warner on May 12, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 21, 2004.]


   TO CONSIDER THE NOMINATIONS OF FRANCIS J. HARVEY TO BE ASSISTANT 
SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION INTEGRATION; LAWRENCE 
T. DI RITA TO BE ASSISTANT SECRETARY OF DEFENSE FOR PUBLIC AFFAIRS; AND 
               CERTAIN OTHER PENDING MILITARY NOMINATIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to recess, in executive session 
at 10:27 a.m. in room HR-2118, Rayburn House Office Building, 
Senator John Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Sessions, Collins, Ensign, Talent, Chambliss, Graham, 
Dole, Cornyn, Levin, Kennedy, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Marie Fabrizio Dickinson, chief clerk; Cindy Pearson, 
assistant chief clerk and security manager; and Leah Brewer, 
nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Brian R. Green, professional 
staff member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Elaine A. McCusker, professional staff member; 
Lucian L. Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Joseph T. Sixeas, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Gabriella 
Eisen, research assistant; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Jeremy L. Hekhuis, 
professional staff member; Maren R. Leed, professional staff 
member; Gerald J. Leeling, minority counsel; Peter K. Levine, 
minority counsel; and Bridget M. Whalan, special assistant.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Sara R. Mareno.
    Committee members' assistants present: Christopher J. Paul 
and Pablo Corello, assistants to Senator McCain; Arch Galloway 
II, assistant to Senator Sessions; James P. Dohoney, Jr. and 
Derek Maurer, assistants to Senator Collins; Pam Thiessen, 
assistant to Senator Ensign; Lindsey R. Neas, assistant to 
Senator Talent; Clyde Taylor IV, assistant to Senator 
Chambliss; Aleix Jarvis and Meredith Moseley, assistants to 
Senator Graham; Christine O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Sharon L. 
Waxman and Mieke Y. Eoyang, assistants to Senator Kennedy; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi, assistant to Senator Akaka; William K. Sutey, assistant 
to Senator Bill Nelson; Eric Pierce, assistant to Senator E. 
Benjamin Nelson; Todd Rosenblum, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.
    Chairman Warner. First, I move that the committee favorably 
report out the nomination of Dr. Francis Harvey to be Assistant 
Secretary of Defense for Networks and Information Integration. 
Is there a second?
    Senator Levin. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Opposed? [No response.]
    The ayes have it.
    Next I move that the committee favorably report out the 
nomination of Lawrence Di Rita to be Assistant Secretary of 
Defense for Public Affairs. Is there a second?
    Senator Levin. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Opposed? [A single nay.]
    I note one Senator indicated his opposition. The ayes have 
it.
    Finally, I move the committee favorably report out 438 
military nominations. These nominations have been in committee 
for the requisite period of time, involve no adverse 
information, and are appropriate for consideration by the 
committee.
    Is there a second?
    Senator Levin. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Those opposed? [No response.]
    The ayes have it.
    I thank my colleagues.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
  Which Are Proposed for the Committee's Consideration on February 4, 
                                 2004.

    1. In the Army there are three appointments to the grade of 
major general (list begins with Brigadier General Lloyd J. 
Austin III, USA) (Reference N. 626).
    2. In the Army there are 79 appointments to the grade of 
major and below (list begins with Constance A. Bell) (Reference 
No. 1181).
    3. Colonel George T. Lynn, ANG to be brigadier general 
(Reference No. 1221).
    4. In the Army Reserve there are two appointments to the 
grade of major general and below (list begins with BGEN Conrad 
W. Ponder, Jr., USAR) (Reference No. 1222).
    5. Rear Admiral (Selectee) Albert M. Calland III, USN to be 
vice admiral and for assignment as Associate Director of 
Central Intelligence for Military Support, CIA (Reference No. 
1224).
    6. Rear Admiral James D. McArthur, Jr., USN to be vice 
admiral and for assignment as Commander, Naval Network Warfare 
Center (Reference No. 1225).
    7. In the Army there is one appointment to the grade of 
colonel (Margot Krauss) (Reference No. 1226).
    8. In the Army there are 20 appointments to the grade of 
colonel (list begins with Mark S. Ackerman) (Reference No. 
1227).
    9. In the Army there is one appointment to the grade of 
lieutenant colonel (Timothy G. Wright) (Reference No. 1228).
    10. In the Army there are six appointments to the grade of 
lieutenant colonel (list begins with Ida F. Agamy) (Reference 
No. 1229).
    11. In the Army there is one appointment to the grade of 
major (David J. King, Jr.) (Reference No. 1230).
    12. In the Army there are two appointments to the grade of 
major (list begins with Michael G. Gray) (Reference No. 1231).
    13. In the Army there are two appointments to the grade of 
major (list begins with Terry R. Moren) (Reference No. 1232).
    14. In the Navy there is one appointment to the grade of 
commander (Todd E. Bailey) (Reference No. 1234).
    15. In the Navy there are four appointments to the grade of 
commander (list begins with Jennifer R. Flather) (Reference No. 
1235).
    16. In the Navy there are 31 appointments to the grade of 
commander and below (list begins with Wing Leong) (Reference 
No. 1236).
    17. In the Air Force Reserve there is one appointment to 
the grade of colonel (Vincent T. Jones) (Reference No. 1240)
    18. In the Air Force Reserve there is one appointment to 
the grade of colonel (Richard H. Villa) (Reference No. 1241).
    19. In the Air Force Reserve there are seven appointments 
to the grade of colonel (list begins with Robert J. Bernard) 
(Reference No. 1242).
    20. In the Air Force Reserve there is one appointment to 
the grade of colonel (Harris H. Brooks) (Reference No. 1243).
    21. In the Air Force Reserve there are seven appointments 
to the grade of colonel (list begins with Paula C. Gould) 
(Reference No. 1244).
    22. In the Air Force Reserve there are 203 appointments to 
the grade of colonel (list begins with Jeffrey S. Alderfer) 
(Reference No. 1245).
    23. In the Air Force Reserve there are 21 appointments to 
the grade of major general and below (list begins with BGEN 
Richard W. Ash, ANG) (Reference No. 1246).
    24. In the Air Force Reserve there are 20 appointments to 
the grade of major general and below (list begins with BGEN 
Robert E. Duignan, USAFR) (Reference No. 1247).
    25. In the Army there is one appointment to the grade of 
major (Amy E. Preen) (Reference No. 1255).
    26. In the Navy there are 20 appointments to the grade of 
lieutenant commander (list begins with Jonathan Q. Adams) 
(Reference No. 1258).

    Total: 438.
                                ------                                

    [The nomination reference of Francis J. Harvey follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Francis J. Harvey of California, to be Secretary of the Army, vice 
Thomas E. White, resigned.
                                 ______
                                 
    [The nomination reference of Lawrence T. Di Rita follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                 November 21, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Lawrence T. Di Rita of Michigan, to be an Assistant Secretary of 
Defense, vice Victoria Clarke.

    [Whereupon, at 10:29 a.m., the executive session was 
adjourned and the committee proceeded to other business.]


   NOMINATIONS OF TINA WESTBY JONAS TO BE UNDER SECRETARY OF DEFENSE 
(COMPTROLLER); DIONEL M. AVILES TO BE UNDER SECRETARY OF THE NAVY; AND 
 JERALD S. PAUL TO BE PRINCIPAL DEPUTY ADMINISTRATOR, NATIONAL NUCLEAR 
                        SECURITY ADMINISTRATION

                              ----------                              


                        TUESDAY, APRIL 27, 2004

                                        U.S.Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The comittee met, pursuant to notice, at 9:32 a.m., in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Allard, 
Levin, Akaka, Bill Nelson, and Pryor.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Brian 
R. Green, professional staff member; William C. Greenwalt, 
professional staff member; Gregory T. Kiley, professional staff 
member; Thomas L. MacKenzie, professional staff member; Lynn F. 
Rusten, professional staff member; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority Staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, professional 
staff member; Creighton Greene, professional staff member; 
Gerald J. Leeling, professional staff member; Peter K. Levine, 
minority counsel; and Michael J. McCord, professional staff 
member.
    Staff assistant present: Nicholas W. West
    Committee members' assistants present: Lance Landry, 
assistant to Senator Allard; Davelyn Noelani Kalipi, assistant 
to Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will get underway. I will soon 
be joined by Senator Levin but this is a big day for all of you 
and in a way it is an interesting day for me. I am going to 
have to leave early to go over with former Senator Bob Dole and 
four other current Senators to the new World War II Memorial. 
There are five of us here in the Senate who served in World War 
II and we are going to have our picture taken, five survivors 
at the opening of the new memorial which will officially be 
dedicated on Memorial Day, but we are going over today. So I am 
going to get underway with my statement.
    We are very pleased on the committee, to have each of you 
here today and your families. Ms. Jonas has been nominated to 
be the Under Secretary of Defense, Comptroller; Mr. Aviles has 
been nominated to be the Under Secretary of the Navy; and Mr. 
Paul has been nominated to be the Principal Deputy 
Administrator of the National Nuclear Security Administration 
(NNSA).
    It is very important that the families have joined us this 
morning. I have tucked away in my memorabilia records of when I 
was before this committee in February 1969, during the war in 
Vietnam, seeking at that time the post of Under Secretary of 
the Navy. So, I take a special interest in that post. I 
remember that I had my family in the room at that time and 
three little squirming children. We have a couple of children 
here this morning, but they are very quiet. Family support is 
critical to the success and the ability of each of you to 
perform your tasks. So we thank you for bringing them this 
morning so they can witness a very significant day in your 
life. Senator Nelson will soon be joining us, and he will be 
introducing Mr. Paul.
    Now, Ms. Jonas comes highly qualified for the position of 
Under Secretary of Defense, Comptroller. She is presently the 
Chief Financial Officer and Assistant Director of the Finance 
Division for the Federal Bureau of Investigation (FBI), where 
she has served since August 2002. Prior to her FBI service she 
worked in the Department of Defense (DOD) as the Deputy Under 
Secretary of Defense for Financial Management. In that capacity 
she was a principal advisor to Dr. Zakheim and other senior DOD 
officials in matters relating to accounting, financial reform, 
and fiscal matters. Ms. Jonas also has significant experience 
in Congress, having served from 1995 to 2001 as a staff member 
for the Subcommittee on Defense for the House Committee on 
Appropriations. We welcome you and your husband this morning.
    Ms. Jonas. Thank you.
    Chairman Warner. Mr. Aviles has been nominated to be the 
Under Secretary of the Navy; he is currently the Assistant 
Secretary of the Navy for Financial Management and Comptroller. 
As the committee noted at its earlier confirmation hearing, Mr. 
Aviles brought legislative executive branch experience to this 
position. He served from 1991 to 1995 with the Office of 
Management and Budget (OMB) as a budget examiner, with 
responsibility over Navy procurement and research and 
development programs, and from 1995 to 2001 as a professional 
staff member on the House Armed Services Committee. He is a 
graduate of the United States Naval Academy and a qualified 
surface warfare officer, holding the rank of Commander of the 
United States Naval Reserve. We congratulate you on your 
nomination.
    Mr. Paul has been nominated for the position of Principal 
Deputy Administrator of the National Nuclear Security 
Administration (NNSA). This is a position created by Congress, 
and largely it was crafted here in this very room which you are 
sitting in today. We put it together to assist the 
Administrator in coordinating and overseeing day-to-day 
operations and management. Mr. Paul is currently in his third 
term as a member of the Florida House of Representatives where 
he serves on the Committee on Appropriations, Energy, Natural 
Resources, and Business Regulations and chairs the Subcommittee 
on Environmental Regulation.
    He was appointed by Secretary Abraham to serve on the 
Nuclear Energy Research Advisory Committee, an independent 
panel that provides the Department of Energy (DOE) with advice 
on the direction of the nuclear program. He is a graduate of 
the Maine Maritime Academy and upon graduation, accepted a 
commission in the Naval Reserve as a special engineering 
officer where he served until his honorable discharge in 1997.
    Our nominees have a wealth of experience and each of them 
will excel in the position for which they have been nominated. 
We thank them for their willingness to serve and their families 
for their support.
    I'd like to have you first introduce your family members. 
Ms. Jonas if you'd introduce your husband.
    Ms. Jonas. Mr. Chairman, I have with me today my husband, 
David, who retired from the Marine Corps in 2001, and my 
brother Todd and his son, Morgan.
    Chairman Warner. We welcome all of you. Thank you. Mr. 
Aviles.
    Mr. Aviles. Thank you, Mr. Chairman. I'd like to introduce 
my wife Kimberly, my son Thomas, and my mother-in-law Arlene 
Chandler.
    Chairman Warner. Welcome. Thank you. Mr. Paul.
    Mr. Paul. Thank you, Mr. Chairman. With me this morning is 
my father, Tom Paul, and my mother, Pat Paul, to my right. 
Immediately behind me to my left is my sister, Linda; my wife 
Kristina, my sister Sharon, and my brother, Mike, and his wife 
Pam with the second of the two young ones you mentioned 
earlier, newly born, Josiah.
    Chairman Warner. Did I miss one? Where is he? Could he 
stand to be recognized? [Laughter.]
    Senator Levin. First baby I've seen you miss, Mr. Chairman.
    Chairman Warner. Is it Josiah? We're going to count on him 
to make a little bit of noise here this morning.
    Mr. Paul. Why not?
    Chairman Warner. Are you sure there is somebody in that 
carrier? Oh, look, there he is.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming our witnesses and their families to the Armed 
Services Committee. We all know that senior government 
officials work long and hard hours often for less pay than they 
can get in the private sector. We also know that none of our 
nominees will be able to serve in these positions without the 
support of their families. We thank their families, in advance, 
for the support that they will provide to our nominees.
    Our three nominees have already shown their dedication to 
public service. They are well-qualified for these positions. 
Ms. Jonas has worked in the executive and legislative branches 
of the Federal Government for almost 20 years, most recently as 
the Chief Financial Officer of the FBI and the Deputy Under 
Secretary of Defense for Financial Management.
    Mr. Aviles has served the Federal Government as a military 
officer and as a civilian since his graduation from the United 
States Naval Academy in 1983. Most recently, Mr. Aviles has 
served as the Assistant Secretary of the Navy for Financial 
Management.
    Both Ms. Jonas and Mr. Aviles served on the House staff 
from 1995 until 2001, I believe. Ms. Jonas with the House 
Appropriations Committee and Mr. Aviles with the House Armed 
Services Committee. That should not disqualify them. Just don't 
tell our House colleagues--we want them to worry a little bit 
about this.
    Finally, Mr. Paul has been member of the Florida House of 
Representatives for the last 2 years and serves as a member of 
Secretary Abraham's Nuclear Energy Research Advisory Committee.
    We look forward to their testimony and their responses to 
our questions. I believe that Senator Nelson is on his way here 
to introduce one of our nominees.
    Chairman Warner. That is correct.
    Senator Levin. Also, Mr. Chairman, Senator Akaka has to 
leave fairly shortly. If we could take him out of order at the 
appropriate time so he can ask his questions. I would 
appreciate it.
    Chairman Warner. We certainly will. Senator Inhofe, do you 
have an opening statement?
    Senator Inhofe. No, thank you.
    Chairman Warner. Senator Pryor, would you like to say a few 
words?
    Senator Pryor. No, thank you.
    Chairman Warner. First, I would like to ask some standard 
questions. Each of the witnesses has been asked the standard 
questions propounded by this committe for some years, although, 
in consultation with Mr. Levin, I think we quite properly 
modified one of the questions, so we are going to change that 
question, I wish to advise my colleagues. So I am going to ask 
these questions, and if you will, acknowledge the answers. I 
want them formally put in the record.
    Have each of you adhered to the applicable laws and 
regulations governing conflicts of interest?
    Ms. Jonas. Yes.
    Mr. Aviles. Yes, sir.
    Mr. Paul. Yes, sir.
    Chairman Warner. Good. Thank you. Have you assumed any 
duties or undertaken any actions which would appear to presume 
the outcome of the confirmation process?
    Ms. Jonas. No.
    Mr. Aviles. No, sir.
    Mr. Paul. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with the deadlines established for requested communications, 
including questions for the record in hearings?
    Ms. Jonas. Yes, sir.
    Mr. Aviles. Yes, sir.
    Mr. Paul. Yes, sir.
    Chairman Warner. Will you cooperate and provide any 
witnesses and briefers in response to congressional requests?
    Ms. Jonas. Yes, sir.
    Mr. Aviles. Yes, sir.
    Mr. Paul. Yes, sir.
    Chairman Warner. Will those witnesses that you provide for 
this committee be protected from reprisal for their testimony 
before Congress?
    Ms. Jonas. Yes, sir.
    Mr. Aviles. Yes, sir.
    Mr. Paul. Yes, sir.
    Chairman Warner. Thank you. Do you agree, when asked before 
any duly constituted committee of Congress, to give your 
personal views even if those views were different from the 
administration in power?
    Ms. Jonas. Yes, sir.
    Mr. Aviles. Yes, sir. I would need to modify that slightly. 
As an administration official, to the extent that my personal 
views would differ from those of the President, I do not 
believe that it would be appropriate for me to continue to 
serve in that administration.
    Chairman Warner. Well then, you would make that known prior 
to coming before Congress?
    Mr. Aviles. Yes, sir. I understand that this is a standard 
question for military officers, and the only appropriate 
response from a military officer is yes. But as an 
administration official, my personal views should be consistent 
with the administration, or I should resign my position in the 
administration.
    Senator Levin. That's a pretty high standard you are 
setting for yourself.
    Chairman Warner. Very high, yes.
    Senator Levin. Everybody has personal views from time to 
time and may differ on some----
    Mr. Aviles. Yes, sir. I guess, Senator Levin, where I'm 
going with that is that we have a longstanding tradition of a 
military officer providing his personal views, his personal 
professional opinion when solicited by the committee. There are 
times in any administration when you would be expected to 
represent the administration position above your own personal 
views.
    Chairman Warner. Well I see your point, and we will reflect 
on it. Senator Levin and I have been here on this committee now 
for 25 years and this is the first time----
    Senator Levin. Can I ask the chairman to yield just on that 
point?
    Chairman Warner. Yes.
    Senator Levin. That has been an issue which the chairman 
and I have discussed as to whether this question indeed should 
be asked of political appointees of the administration. I 
admire you, Mr. Aviles, for your response, and I would think we 
should continue our dialogue as to whether this particular 
question is an appropriate one for political appointees. I 
think you've dramatized and symbolized why that discussion 
between the chairman and myself should continue. It does create 
a problem for political appointees, I think we should take his 
answer with respect.
    Senator Inhofe. Can you ask the question one more time?
    Chairman Warner. No, I think we've got it pretty well in 
mind.
    Senator Inhofe. No, I mean ask the question that they are 
responding to if you don't mind.
    Chairman Warner. Well I think each of them have responded 
to it. I think the record is clear.
    Senator Inhofe. No, that's not my point, Mr. Chairman.
    Chairman Warner. What is your point? Kindly speak into the 
mike.
    Senator Inhofe. For my benefit, would you re-ask the 
questions they are responding to?
    Chairman Warner. All right.
    Senator Inhofe. Never mind. Here it is. Okay.
    Chairman Warner. Do you agree when asked before any duly 
constituted committee of Congress to give your personal views 
even if those views differ from the administration in power? 
Your response, Mr. Aviles, was duly noted. In my judgment, I do 
not think it will impair in any way the review of the committee 
of your qualifications to the office to which you've been 
designated by the President. We will reflect on it further.
    Mr. Aviles. Thank you, Mr. Chairman.
    Chairman Warner. I have one more question. We also have 
added, Mr. Inhofe, this question. You might want to read it. I 
wrote it last night. We have to review these situations on an 
ad hoc basis. The final question is as follows: Do you agree to 
provide documents, including copies of electronic forms of 
communications, in a timely manner when requested by a duly 
constituted committee of Congress, or to consult with the 
committee regarding the basis for any good faith issues that 
arise in providing such document?
    Now we have before us the Supreme Court case which is going 
to look into some matters regarding executive privilege. This 
is a subject that is being discussed widely here in Congress. 
Our committee has several requests from the Department of 
Defense. Senator Levin and I have been working on those 
requests. I think at this point in time I will repeat the 
question so that each of you understands it, and then hopefully 
you can acknowledge that you will do as the question requests.
    Do you agree to provide documents, including copies of 
electronic forms of communication in a timely manner when 
requested by a duly constituted committee of Congress or to 
consult with the committee regarding the basis for any good 
faith issues that arise in providing such documents?
    Ms. Jonas. Senator, I would certainly do what I could to 
cooperate fully with the committee.
    Chairman Warner. Correct.
    Ms. Jonas. Yes.
    Mr. Aviles. Yes, sir, to the best of my ability.
    Chairman Warner. Fine.
    Mr. Paul. Yes, sir.
    Chairman Warner. Good.
    Senator Levin. Let me commend the chairman if I could for 
the drafting of the question. It's an important issue in terms 
of legislative/executive relations. There's a provision here 
for good faith problems that exist. There's an executive 
privilege that the President may want to assert, and that's his 
right. But subject to that kind of an exception, I think any 
committee of Congress would expect the documents that are 
requested would be provided.
    We appreciate their three answers, and I also appreciate 
the chairman's taking on this task of phrasing a question in 
this way, trying to protect the rights of the legislative 
branch but in a way which also protects the executive privilege 
assertion if the President seeks to make it.
    Chairman Warner. All right. Thank you very much. We will 
now receive any opening statements that the witnesses wish to 
make. Ms. Jonas?
    Ms. Jonas. Mr. Chairman, Senator Levin, members of the 
committee.
    Chairman Warner. Oh, excuse me. I beg your pardon. Senator 
Nelson, you wish to make an introduction, and also I think 
Senator Akaka desires to ask a question or two because he has 
to depart.
    Senator Akaka. Thank you very much, Mr. Chairman, and thank 
you, Senator Levin, for giving me this opportunity. I want to 
add my welcome to the witnesses, also to the families and 
friends of our witnesses who are here today, and it's good to 
have young members of the families here with us this morning.
    I have one question for Ms. Jonas. I want to thank you very 
much for visiting with me and also Mr. Aviles. I'm wondering 
Ms. Jonas about some of the technical aspects of the budgeting 
process. Specifically, can you tell me what the impact is of 
having a program or initiative in operation and maintenance 
accounts that does not have a specific program element or other 
funding mechanisms?
    As I understand it, if funding for a particular program or 
initiative is instead embedded in the Services own budgets, it 
becomes extremely difficult to track. It's hard to tell how 
much money is actually allocated for that initiative, what has 
been spent, and what is programmed to be spent in the future. 
My question to you is, is that the case as you understand it?
    Ms. Jonas. Well, Senator, I've been away from the 
Department almost a couple of years, so I'm not sure what their 
current practice is. But I would certainly, should I be 
confirmed, make sure there is transparency and clarity with the 
purpose for which funds have been provided by Congress.
    Senator Akaka. I thank you very much for your response. I 
have for a number of years tried to get the Department to focus 
on the critical issue of corrosion prevention and the need to 
centralize corrosion policy oversight and information sharing 
among all the many elements of the services that address pieces 
of this issue.
    In the National Defense Authorization Act for Fiscal Year 
2003, we created an office responsible for this oversight, and 
the new Office of Corrosion Policy has since been established. 
As I understand it, however, the Office of the Comptroller has 
resisted the Office's attempts to become institutionalized and 
has rejected efforts to establish a clear consistent out-year 
funding stream. I think this is inconsistent with the intent of 
the law and the wrong message to send. It has been well 
demonstrated that corrosion prevention can result not only in 
significant cost avoidance, but also increase revenues and 
lessen maintenance work for our service men and women.
    I want to express my disappointment with the comptroller's 
position on this issue. I intend to take action--in this year's 
authorization act to ensure the DOD is fully compliant with the 
letter and intent of our 2003 legislation. I want to ask you, 
Ms. Jonas, to look into this issue specifically when you return 
to the Office of the Secretary of Defense (OSD). I wish you 
well, and you certainly have my support. Thank you very much.
    Thank you very much, Mr. Chairman.
    Ms. Jonas. Thank you, Senator. I will look into it.
    Senator Bill Nelson. Mr. Chairman?
    Chairman Warner. Senator Nelson.
    Senator Bill Nelson. Thank you for the courtesy of letting 
me introduce a fellow Floridian, Jerry Paul.
    Chairman Warner. Who has a very impressive record of 
accomplishment, I note.
    Senator Bill Nelson. Indeed. I will chronicle that in just 
a moment. He clearly has the technical experience and the 
background to make him well qualified for this position of 
Principal Deputy Administrator, National Nuclear Security 
Administration at DOE.
    He has a very diverse background both in and outside of the 
Navy, and that is a combination that suits this particular 
position. Right now he serves in the Florida House of 
Representatives, and he is well regarded as thoughtful and 
capable. He is the only member of the Florida House right now 
who simultaneously chairs two subcommittees. Because of his 
naval and his nuclear background, Jerry is recognized for his 
expertise in the Florida House of Representatives on public 
security, focusing on those kind of policy issues having to do 
with what the State looks at in critical infrastructure on 
nuclear power plants, pipelines, electric grid systems, and 
seaports, which is something that we have talked about quite a 
bit in this committee, and you've heard it from me ad nauseam 
because of Florida having 14 deep water seaports.
    Well, it's my understanding that you have already 
introduced the family; his wife Kristy, his mother and father, 
Tom and Patricia, his sisters from Ohio and Texas, and his 
brother from Ohio. So, Mr. Chairman it's been a pleasure for me 
to come and bring to you a fellow Floridian. I think he's going 
to be an outstanding public servant as Principal Deputy 
Administrator. Thank you.
    Chairman Warner. Thank you, Senator. I had the privilege of 
meeting the nominee yesterday and, this morning, his lovely 
wife. I must say as a citizen of the country, I am very 
grateful to him and his family for giving up all they have in 
Florida to come up here and to serve. So we take note of that.
    Mr. Paul. Thank you, Mr. Chairman.
    Chairman Warner. Thank you for joining us this morning, 
Senator Nelson. You bring to this committee a number of wide 
dimensions of thought and experience yourself, and your 
humility most of the time conceals it, but not all the time.
    Now, Ms. Jonas.

   STATEMENT OF TINA WESTBY JONAS, TO BE UNDER SECRETARY OF 
                     DEFENSE (COMPTROLLER)

    Ms. Jonas. Mr. Chairman, Senator Levin, members of the 
committee, it is an honor to come before you as President 
Bush's nominee to become Under Secretary of Defense, 
Comptroller, and Chief Financial Officer of the Department of 
Defense. I thank President Bush and Secretary Rumsfeld for 
their confidence in me. I also appreciate the opportunity to 
present myself to the Committee and to address your questions 
and concerns.
    I do have a little bit more of a statement, I'd like to 
submit that for the record, if you don't mind.
    Chairman Warner. We will put it into the record.
    Ms. Jonas. I have already had the pleasure of introducing 
my family, so I just want to thank the committee for the 
opportunity to appear this morning.
    [The prepared statement of Ms. Jonas follows:]
                    Prepared Statement by Tina Jonas
    Mr. Chairman, Senator Levin, members of the committee, it is an 
honor to come before you as President Bush's nominee to become Under 
Secretary of Defense (Comptroller) and Chief Financial Officer of the 
Department of Defense (DOD). I thank President Bush and Secretary 
Rumsfeld for their confidence in me. I also appreciate this opportunity 
to present myself before the committee and to address your questions 
and concerns.
    I am very aware of the importance of the responsibilities that I am 
nominated to undertake. Fulfilling these budget and financial 
management responsibilities requires a strong leadership team and 
staff. I am honored to be nominated to head the Comptroller and Chief 
Financial Officer staffs, and to lead them at this critical time for 
America's defense establishment.
    If confirmed as the Comptroller of the Department of Defense, I 
will do everything possible to get our military men and women the 
resources they need to fulfill the difficult missions assigned to them. 
This requires rigorous priority-setting among competing military 
requirements. The Department must sustain a strong process to identify 
the requirements most needed for its military strategy and to develop 
programs to meet those requirements. We must articulate and justify 
these military requirements to Congress and cooperate fully to make the 
wisest possible allocation of limited budget dollars.
    Regarding Chief Financial Officer responsibilities, if confirmed I 
will work hard to improve DOD financial management and keep the 
Department on track to achieve a clean audit opinion on its financial 
statements. I also will work to meet the goals of the DOD business 
management overhaul that Secretary Rumsfeld has launched. I agree with 
the Secretary that comprehensive reform is needed to overcome the 
Department's decades-old legacy of stove-piped, incompatible business 
management systems.
    In closing, I again want to thank President Bush and Secretary 
Rumsfeld for this honor. If confirmed I will do my utmost to fulfill 
the trust and confidence placed in me.
    I especially want to thank my husband, David, who is with me today. 
David served honorably in the United States Marine Corps and retired in 
2001. I am deeply grateful for his love and support.
    This is a critical time for the Department of Defense and our 
Nation. I hope I will have the opportunity to work with the 
Department's leadership team and Congress in our common goal of 
securing America's future and supporting the men and women of our Armed 
Forces. Thank you.

    Chairman Warner. Thank you. Mr. Aviles.

  STATEMENT OF DIONEL M. AVILES, TO BE UNDER SECRETARY OF THE 
                              NAVY

    Mr. Aviles. Mr. Chairman, Senator Levin, members of the 
committee, I'd also like to state what a personal privilege it 
is to appear before you today as the President's nominee for 
the position of Under Secretary of the Navy. I have a brief 
opening statement, that, with your permission, I'd like to 
submit for the record and then just make some short remarks.
    Chairman Warner. Without objection.
    Mr. Aviles. Thank you, Mr. Chairman. In addition to 
thanking the President for his confidence in me, I'd like to 
thank Secretary of Defense Rumsfeld and Secretary of the Navy 
England for their recommendation of me to the President for 
this position. I would also like to thank my family, who were 
introduced earlier, without whose understanding and support I 
would not have been able to occupy the position I've had for 
most of the last 3 years and appear before you today for 
consideration for this position. I'd like to thank you for your 
consideration and conclude my remarks there and stand ready to 
answer any questions you may have.
    [The prepared statement of Mr. Aviles follows:]
                 Prepared Statement by Dionel M. Aviles
    Good morning, Mr. Chairman, I am greatly honored to appear before 
you as President Bush's nominee to be the next Under Secretary of the 
Navy. I am grateful to the President, Secretary Rumsfeld and Secretary 
England for the confidence that they have shown in me by nominating and 
recommending me for this important position. If confirmed, I look 
forward to working closely with the members of the committee and your 
respective staffs to carry out the duties and responsibilities of the 
Under Secretary of the Navy.
    For most of the last 3 years it has been my privilege to serve with 
Secretary England as the Assistant Secretary for Financial Management 
and Comptroller. Under his leadership the Department of the Navy has 
begun a transformation to become a more effective and efficient 
enterprise. This transformation is all encompassing in breadth, 
substantial in detail and critical to addressing the evolving threat 
environment. This change is not confined to our combat forces. In 
addition to fielding new and transformational capabilities and 
operational concepts, we have begun to change how we conduct our 
business operations. Secretary England, Admiral Clarke, and General 
Hagee have fostered a culture that encourages people to challenge long 
held assumptions about all aspects of our organization with the goal of 
becoming more effective and driving out unnecessary costs with the goal 
of reinvesting savings in enhancing combat capability.
    Over the last 3 years as Assistant Secretary of the Navy for 
Financial Management and Comptroller I have worked with this committee 
and other committees of Congress to properly resource the finest Navy 
and Marine Corps the world has ever known. The tragic events of 
September 11 and the subsequent global war on terrorism have focused 
our efforts to ensure that our sailors and marines have what they need 
to succeed in their mission. The successes they have had in this effort 
would not have been possible without the support of Congress. Should I 
be confirmed, I look forward to continuing to work with Congress to 
further support our marines and sailors. I thank you for your 
consideration and ask for your support.

    Chairman Warner. Thank you.
    Mr. Paul.

      STATEMENT OF JERALD S. PAUL, TO BE PRINCIPAL DEPUTY 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. Paul. Thank you. Good morning Mr. Chairman, Senator 
Levin, members of the committee, I want to first thank you for 
providing this opportunity to earn your advice and consent and 
extend a sincere personal thank you, Senator Nelson, for that 
very warm introduction.
    It is an honor to be nominated by the President to serve as 
the Principal Deputy Administrator of the National Nuclear 
Security Administration. As the chairman alluded to earlier, 
and as this committee knows well, the NNSA was created by 
Congress as a semi-autonomous agency within the Department of 
Energy with the primary mission of strengthening the United 
States' security through the military application of nuclear 
energy and by the reduction of the threat of terrorism globally 
and the spread and proliferation of weapons of mass 
destruction. If confirmed, I commit that I will dedicate a 
tireless work ethic toward carrying out this key mission.
    I fully recognize and accept the tremendous 
responsibilities associated with the number two post over our 
nuclear weapons complex, our Navy nuclear reactor program, and 
our global nuclear nonproliferation programs. As a nuclear 
engineer, an elected policymaker, an attorney, and a father, I 
find no station in life where I can more passionately serve our 
country than to help employ our understanding of the atom to 
the safety and security of free people. As this committee knows 
well, in these unique times, there is no task more critical to 
future generations than nuclear security itself. I truly do 
look at the programs of NNSA through the eyes of my children.
    Finally, as a legislator let me state for the record that I 
truly do understand your oversight role and the importance of 
it to the very structure of a republic as well as the 
accountability that comes with it that is its natural object. I 
not only accept it and respect it, I welcome it, I embrace it, 
and I look forward to working with you and your staff in a long 
relationship that I believe will be marked by candor, openness, 
and mutual respect.
    It would truly be a great honor to earn your confidence and 
support today. Thank you for your confidence and I look forward 
to your questions.
    Chairman Warner. Thank you very much. I will proceed on the 
first round of questions. I will lead off with Ms. Jonas. We 
discussed yesterday the background and particularly your duties 
in the Department of Defense Comptroller's office beforehand, 
and I asked questions of you in the context of the possible 
supplemental to be forwarded to Congress this year. It has been 
the subject of a good deal of discussion. It would presumably, 
and I say presumably, be up to the administration to put it 
together, but presumably would cover the ongoing cost of the 
level of activities that are taking place in both Afghanistan 
and Iraq today, which require a higher tempo of operations 
(OPTEMPO).
    In the case of Iraq, it required the retention of certain 
forces, approximately 20,000, which had heretofore been 
scheduled to return, having completed their stipulated period 
of time in Iraq. Understandably, you were very forthcoming in 
saying to me that your previous responsibilities in that office 
did not deal specifically with the supplements. Am I not 
correct on that?
    Ms. Jonas. That is correct, sir.
    Chairman Warner. So at this point in time I would presume 
you do not possess any particular knowledge with regard to the 
status of the contemplated supplemental and whether it will be 
forthcoming possibly some time this year or maybe even next 
year.
    Ms. Jonas. Yes, sir.
    Chairman Warner. Am I correct in that?
    Ms. Jonas. That is correct, sir.
    Chairman Warner. I just wanted to make that clear for the 
record, and I accept those responses. I think that you just 
have not had that experience, but you will soon learn about it.
    Ms. Jonas. I've seen the public discussion on it, sir.
    Chairman Warner. Because it's critically important to the 
effort. It's extremely difficult in the budgeting process to 
look forward, sometimes as far as 18 months, as to the OPTEMPO 
of forward deployed forces particularly those engaged in actual 
combat. You just can't anticipate with the certainty that is 
necessary to put down in a normal presidential budget request 
what is needed. So assuming you could do it and put out a 
figure, then Congress would be highly critical of you if you 
put the figure way up here and then the actual expenditures 
were far less. So I support the process as it is today, and I 
think we are going to continue it, and you will be very much 
involved in the forthcoming supplemental.
    Turning now to another subject, this committee has spent a 
great deal of time on the question of leasing, particularly in 
one instance, of aircraft. You would, if confirmed, serve as 
the co-chair for the leasing review panel, a panel that reviews 
significant lease proposals such as the one that was, but no 
longer is, the 767 tanker lease proposal.
    Could you expand on your prepared answers on this subject? 
For example, describe what shortcomings you see in the leasing 
review panel and explain how you would go about trying to 
correct them in order to avoid problems that we have incurred, 
say with the 767.
    Ms. Jonas. Well, Senator, I'm aware of the issues. I'm not 
familiar specifically with the operation of the leasing panel, 
however, I believe that obviously it merits review, and I would 
particularly pay attention to the issues of cost, balancing the 
cost, doing the analysis on cost, and ensuring that whatever 
proposals were put forward complied with all laws and 
regulations.
    Chairman Warner. I stress that because this has not been 
one of the finer chapters in the history of the military 
department. I am not here to pronounce judgment on the final 
review of this 767 tanker situation, but we had testimony right 
from the seat in which you currently occupy from the Inspector 
General (IG) of the Department and his staff which was 
extremely critical of how the leasing, and particularly the 
review panel, handled this situation. I hope that you would not 
in any way be reluctant to change the manner in which the 
review panel does its business today to avoid such situations. 
Would I be correct in that?
    Ms. Jonas. Yes, sir. I would have to look at that, sir.
    Chairman Warner. Thank you. Now, for Mr. Aviles, the fleet 
response program is developed to allow the flexibility to surge 
greater numbers of ships in time of crisis, and the central 
theme being that the Navy would provide, ``presence and a 
purpose,'' instead of the routine deployment cycles in the 
past.
    One of the advantages of the past system was that shipyards 
and aircraft depots had a predictable deployment schedule from 
which they could plan maintenance and availabilities. How will 
this plan affect the ability of shipyards and aircraft depots 
to anticipate such requirements and effectively accomplish 
their mission?
    Mr. Aviles. Mr. Chairman, under the fleet response plan it 
is intended to provide a greater utilization of the assets that 
we have particularly in times of crisis. The intent here would 
be to build a new paradigm, if you will. Particularly carrier 
battle groups followed a very set deployment pattern that was 
very predictable over long periods of time. I can recall a time 
when a serious discussion took place at this committee centered 
around the inter-deployment training cycle, the so called 
``readiness bathtub'' that returning forces would undergo. This 
period of severely degraded readiness after which it took a lot 
of time and money and training to get those forces back up on 
the step to where they were ready to deploy again.
    The intent of the fleet response plan is to mitigate that 
readiness degradation, if you will, and we are paying very 
close attention to the requirements for maintenance in this. In 
some cases it's going to require more maintenance for certain 
types of platforms that support this program. At least that's 
what we anticipate. I know that the senior leadership of the 
Navy is committed to work with the maintenance depots and 
shipyards to ensure that we properly plan for the workload. 
That is always a consideration with us in terms of work load 
planning and management for those facilities in order to make 
sure that they are operating efficiently. So, I'm confident 
that we----
    Chairman Warner. I'm encouraged by your response to that 
question, because I know from considerable experience that 
these yards have difficulty maintaining a constant skill level 
of skilled employees in their yards because of the perturbation 
in the schedules. So, to the extent that you can strike an even 
balance there, I think it is going to be the better for the 
Navy as well as the private sector.
    I am quite interested in the Navy's new concept which has 
been utilized in years past with the submarines. We had the 
blue and gold crews, and now you're looking at surface vessels. 
To what extent can you tell us about that program and it's 
success?
    Mr. Aviles. Yes, sir. For the last couple of years the Navy 
has been engaged in the Sea Swap program which forward-deploys 
a ship into the theater where you would intend to operate it 
and then rotates crews between that ship in order to avoid the 
long transit times that are sometimes involved in moving forces 
to and from their home ports to their operating areas.
    In some cases, that transit time can be as long as 1 month 
going each way. To the extent that we try to limit deployments, 
except in special circumstances, to a 6-month period of time, 
that results in effectively one-third of the time the ship is 
not available for on-station deployment.
    So the intent of these experiments was to find out if you 
could do something innovative like this and still preserve the 
readiness and material condition of the ship, and determine if 
it would not degrade precipitously or suffer by that type of an 
approach. It's one of the innovative concepts that Admiral 
Clark is taking a look at in order to try and see if this makes 
better sense and gets better utilization out of these assets.
    Attendant with that is obviously you'd have to have more 
crews per ship to support that effort.
    Chairman Warner. Good. Well, I commend the Secretary and in 
particular the Chief of Naval Operations (CNO) on this, and I 
hope it works because I think it has the potential for savings 
of dollars and savings of time on station with individuals. I 
intend to be very supportive as you move forward in this 
program.
    Mr. Aviles. Yes, sir.
    Chairman Warner. Now, Mr. Paul, this question relates to a 
subject that I've been working with for a very long time, and 
that's the science-based Stockpile Stewardship and Management 
Program, designed to use scientific tools to maintain the 
existing nuclear weapons stockpile as reliable, safe, and 
secure without the need to return to actual underground live 
tests. You are quite familiar with the concept?
    Mr. Paul. Yes, sir.
    Chairman Warner. I'm just going to ask the question, and I 
caution you, unless you have a specific answer, that you wait, 
until confirmed, getting into this. But I wanted to express my 
concerns about it.
    Congress has put an awful lot of money, taxpayers' money, 
into this program. From time to time, it is rather 
substantially questioned as to whether it is going to work. To 
what extent have you had any opportunity to study this subject?
    Mr. Paul. Mr. Chairman, I am familiar with the Stockpile 
Stewardship Program and its ongoing need as we certify the 
reliability, safety, and security of that stockpile.
    Chairman Warner. I think it's a laudable goal. I am not 
suggesting that this Nation should not, for various reasons 
relating to the international treaties, engage in the live 
testing. I am not here pronouncing that that's not a wise thing 
to do because the credibility of this stockpile is essential; 
the safety of it is essential. People should pause to think 
that these weapons are actually located in some instances in 
their towns, villages, and cities, or in their proximity. We 
have to know about safety, and particularly those who have 
stepped forward and are willing to handle the weapons.
    This Stockpile Stewardship Program is not complete yet. It 
hasn't gotten to the point where it can do its job but I have 
heard some disturbing reports of late about whether or not it 
is going to be viable and so forth. I just ask you to say one 
thing: You will look at this first thing if confirmed and if 
you go to the Department. Is that correct?
    Mr. Paul. Yes, sir.
    Chairman Warner. Early on, I would appreciate it if you 
would offer yourself to come up to the committee when ready and 
give us your own views on this.
    Mr. Paul. I would welcome that opportunity.
    Chairman Warner. I thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Ms. Jonas, when 
your predecessor, Dr. Zakheim's nomination, was before this 
committee, he testified that, ``ad hoc supplementals 
traditionally were employed to meet necessary but unforeseen 
costs.'' He went on, ``It would be best to restrict 
supplementals to this traditional model and provide funding for 
ongoing operations, as much as possible, within the regular 
budgeting process.''
    Do you agree or disagree with Dr. Zakheim's statement about 
that issue?
    Ms. Jonas. Senator, I think that providing funds in an 
annual budget to the extent that it's possible to predict, I 
think that's a good thing.
    Senator Levin. Now, the Senate budget resolution added $30 
billion for the extra costs of Iraq and Afghanistan for fiscal 
year 2005. The House budget resolution adopted a larger number, 
because they covered the whole year and our budget resolution 
actually covered the additional costs for roughly the first 6 
months.
    We've had estimates from our military officers that the 
approximate cost is $4 billion a month extra above the fiscal 
year 2005 budget request. Do you personally support the Senate 
budget resolution number for those extra costs? Do you know 
what the administration position is on it?
    Ms. Jonas. Sir, I'm not familiar with the administration's 
position or the considerations that they might be taking into 
account or the requirements that are being developed now by the 
military. I would say that should I be confirmed, I would 
obviously work very closely with Congress and with the military 
to get them the resources they need when they need them.
    Senator Levin. Okay. Mr. Chairman, I wonder if we can 
request the DOD to give us the answer to that question 
promptly? I don't think we have the answer from the DOD yet on 
this issue about whether or not they support the Senate add-on 
in our fiscal year 2005 budget resolution of $30 billion for 
the extra costs for Iraq and Afghanistan. This is not a 
question for Ms. Jonas, but this is a question for the DOD. Can 
we ask them for what their position is?
    Senator Allard [presiding]. I'll have to check with the 
chairman to be sure, but I don't see any problem with that.
    Senator Levin. I didn't realize that he had to leave. I 
would have asked him. Okay. Ms. Jonas, if the appropriation for 
the extra costs of operations in Iraq and Afghanistan is 
delayed until several months into fiscal year 2005, the 
Services are going to have to absorb, or what we call cash 
flow, those expenses, which are currently running, as I 
mentioned, at over $4 billion per month. In similar situations 
in the past, the Services often have borrowed against their 
fourth quarter or even their third quarter budgets, assuming 
that a supplemental would pass at some point to make their 
budgets whole again.
    Now, the Army has to absorb most of these expenses in the 
current situation, but this is also a problem for organizations 
with smaller budgets and less room to absorb such costs--such 
as the Marine Corps and the Special Operations Command. What 
impact do you believe that cash flowing this level of 
unbudgeted expenses would have on the Services' ability to 
effectively manage their other worldwide responsibilities?
    Ms. Jonas. Senator, I think it would require that I sit 
down with the military Services to understand the impact. They 
know best the impact. I can understand that they would have 
concerns. I would have concerns. I think the only thing I can 
say at this point is I'd be happy to, should I be confirmed, 
sit down with them to understand the impact of this type of 
budgeting.
    Senator Levin. Do you have an opinion as to whether or not 
this is the way we should be doing business?
    Ms. Jonas. Sir, I think it would preferable to have 
sufficient funds available for them. I could understand that 
that would cause us some hardship, but I don't have any 
additional details, so I'd be reluctant to provide a formal 
opinion on that right now. I'd be happy to provide it at some 
later point.
    Senator Levin. In your response to a pre-hearing policy 
question, you stated that the first increment of the 
Department's business system enterprise architecture would be 
ready by the fall of 2004. The DOD originally promised to 
deliver a completed enterprise architecture by no later than 
the spring of 2003, and I believe you were at the Department 
and participated in the formulation of that goal and its 
initial implementation. Are you able to explain why it has 
taken so much longer to develop that enterprise architecture 
than the Department originally expected?
    Ms. Jonas. Senator, I have been gone from the Department 
for a couple of years now. I don't know precisely the 
implementation that they are pursuing, but I'd be certainly 
very glad to look into that and that would be one of the first 
orders of business I do.
    Senator Levin. Okay. Thank you. This committee has 
consistently taken the position, supported by the General 
Accounting Office (GAO), that the only appropriate way for the 
Department to get a clean audit is to fix the business systems 
that generate the underlying data, and any effort to address 
the problem by simply adding audit resources without fixing the 
underlying problems will, one, be extremely expensive; two, 
lead to one-time results that can't be sustained on a long-term 
basis; and three, even if it were by some chance to provide a 
clean audit opinion, would not provide timely business 
information that is needed for management purposes.
    Now, you responded to our pre-hearing questions as follows: 
That modernizing the Department's business systems is the only 
long-term sustainable solution to its financial reporting 
inadequacies, and that you, ``support the current complementary 
measures that the Department is taking to obtain acceptable 
financial statements by the year 2007.''
    If new business systems are not available on time to meet 
that 2007 goal and the only way that the Department can obtain 
acceptable financial statements by that date is to spend a lot 
of money throwing an army of auditors at the problem, what 
then? What would you then do?
    Ms. Jonas. Well, I tend to agree with the statement that 
the business systems are really critical and key to getting to 
clean audits. It is a very important goal, and it would be high 
on my priority list. There may be some difficulty, as you 
mention, with, ``throwing an army of auditors at it.'' I'd have 
to look carefully at what Dr. Zakheim has proposed over the 
last 2 years, and should I be confirmed, I would do that and 
look at all practical means to get to a clean audit. I don't 
agree with necessarily throwing a lot of money at the problem 
if it's not the right way to go.
    Senator Levin. My time is up. Thank you, Mr. Chairman.
    Senator Allard. Thank you. I'm next, then we'll call on 
Senator Pryor.
    One of the things that I think is vitally important while 
our men and women are actually being deployed is to not have 
problems with their paycheck. There is a report that came out 
in November of last year on National Guardsmen in which they 
looked at 481 National Guardsmen and 450 had problems 
associated with their pay. This hits home, particularly in 
Colorado, because out of 62 members of the National Guard in 
Colorado, all but one had problems with pay while they were 
deployed.
    So I'd like to have some assurance, Ms. Jonas, that you'll 
get on top of this problem. It's a GAO report that pointed it 
out, and see if we can't get these type of pay problems 
corrected. If you have any ideas in how these can be corrected 
currently, I'd like to hear them.
    Ms. Jonas. Senator, I'm not familiar with all the details 
of the problems at this point. I'd be very happy to look into 
that. There's nothing more important than a paycheck for our 
men and women in uniform.
    Particularly with the Guard issues. I understand that there 
are concerns, so I would very much be looking into that.
    Senator Allard. Yes, I hope you take a close look at that 
GAO report.
    Ms. Jonas. Absolutely, sir.
    Senator Allard. Maybe use some recommendations that they 
had in there, and let's see if we can't get that problem 
corrected. While we're discussing concerns, you might also 
recall that we visited a little bit about credit card fraud. We 
talked about this in some of our private conversations, but I 
would just like to have you affirm here, in a public meeting, 
just exactly what it is that you would like to do as far as 
trying to deal with credit card fraud. If you have any ideas, 
I'd like to hear them.
    Ms. Jonas. Of course fraud of any type is unacceptable. I 
know there were certain measures that were taken by the 
Department to try to address that. I would work closely with 
the IG's office and with our financial community including the 
assistant secretaries for financial management in the Services, 
to address these issues promptly.
    Senator Allard. Thank you. Mr. Aviles, I have been a strong 
proponent of missile defense systems and I do think the Navy 
plays a key role in our missile defenses, specifically in 
regard to the Aegis ships. Now, I also understand that the Navy 
has the authority for experiments relating to missile defense 
with the Standard Missile 2 and Block IV. I'm just curious to 
know how the Navy is funding this requirement and if you could, 
please elaborate on the testing of the SM-2 Block IV.
    Mr. Aviles. Thank you, Senator. I cannot elaborate on the 
testing for the SM-2 Block IV. With your permission I would 
like to take that for the record.
    Senator Allard. Okay.
    [The information referred to follows:]

    The Navy is planning to test a modified SM-2 Block IV missile 
against an endo-atmospheric, ballistic missile-like target. The test 
will attempt to determine if a SM-2 Block IV missile fired from an 
Aegis equipped cruiser having a modified software program can provide a 
limited terminal defense against short-range ballistic missiles.

    Mr. Aviles. With respect to the funding issue, sir, 
typically, based on the agreement between the Missile Defense 
Agency (MDA) and Navy, the expectation would be that some of 
the developmental costs would be borne by the MDA and some of 
the actual component acquisition cost then would principally be 
borne by the Services. Not knowing the specifics of the SM-2 
Block IV question with respect to what that looks like, I'll 
commit to you, Senator, that I'll go back and take a look at 
that, and with your permission would like to give you that 
answer for the record. But my understanding of the arrangement 
between MDA and Navy is that that's the way the cost sharing 
normally works.
    [The information referred to follows:]

    The Navy is funding the SM-2 Block IV test. The Missile Defense 
Agency is providing no funding for the test but is providing a target.

    Senator Allard. One of the other areas that concerns me is 
the safety of the ships and cruise missile defenses for our 
ships and personnel ashore. Admiral Fargo, before this 
committee, recently stressed the importance of cruise missile 
defenses. Are we aggressive enough in pursuing a technological 
response to this threat to Navy ships and personnel?
    Mr. Aviles. Senator, I share your concerns about anti-ship 
cruise missile threats. As a former surface warfare officer, I 
know it's something you live with every day when you're out 
aboard a ship in a threat environment. The proliferation of 
advanced anti-ship cruise missile technology is troubling, and 
the threat is growing.
    It is a priority for the Department of the Navy, and you 
will see improvements that we have programmed for, improvements 
to the standard missile program to evolve that missile to 
handle the more capable threats and to the Enhanced Sea Sparrow 
Missile System, which will be outfitted for a closer-in 
defensive system for our ships, as well as NULKA anti-ship 
cruise missile decoys. A priority of Secretary England's is to 
focus on the defensive aspects of this. We have a very good and 
capable precision strike capability, as most people are aware 
of, and we are also taking a hard look to make sure that we 
balance our capability across both offensive capabilities and 
defensive capabilities.
    Senator Allard. Mr. Paul, I had an opportunity to visit all 
our laboratories, I think it was last year or maybe the year 
before that, and one of the things that struck me is that the 
workforce is maturing and getting ready for retirement. I don't 
see a lot of young people coming in with nuclear physicist 
degrees and what not to sustain some of the programs like the 
Stewardship Program that Senator Warner talked about and some 
of our other nuclear technologies. It would be a shame to lose 
that workforce without some sort of pass on. So I'm concerned 
about losing some of the brain power and practical experience 
that we have there.
    Do you have any ideas about how we can bring in new talent 
as far as our nuclear program is concerned?
    Mr. Paul. It's an excellent point, Mr. Chairman. Succession 
is an issue that I intend to focus on if confirmed. The average 
age of our skilled workers within our nuclear weapons complex 
now is at 48, 61 percent of whom are eligible for retirement by 
2010. I think that the efficacy of any management team can, in 
part, be measured by how well it deals with succession. This is 
one of the issues that I've spoken about individually with each 
of our site office managers and asked them where do they see 
the next generation of skilled workers coming from for our 
complex. It is an issue that is very important to me.
    I think we're going to need to increase the resources that 
we put into reaching out to academia and industry. We also need 
a more focused accountable effort with respect to our managing 
contractors to ensure that they are thinking about this and 
thinking about where the next generation of skilled workers 
within their side will come from as well.
    Senator Allard. We just now talked about the personnel side 
of it, and then there is also an aging issue as far as our 
facilities and equipment is concerned. Can you share with the 
committee your views on what we need to do to recapitalize our 
nuclear weapons infrastructure?
    Mr. Paul. Again, that's an issue that I'm going to focus 
very heavily on, the Facilities and Infrastructure 
Recapitalization Program (FIRP) and reducing our backlog of 
preventive maintenance. More than half of our entire complex is 
over a half century old, and I think there was a recognition by 
this committee that the backlog of maintenance was too great. I 
think we are approaching by the end of fiscal year 2005 with 
the administration's proposed budget to zero out that backlog. 
It's going to be an issue that I'm going to have to focus on, 
and I'm going to spend a lot of time asking each of our site 
managers what their specific plan is for revitalizing and 
recapitalizing the infrastructure and holding them accountable.
    Senator Allard. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I'd like to follow-
up on the chairman's comment a few moments ago, Ms. Jonas, and 
talk about this GAO report. It's GAO-04-89. It came out last 
November, and it's on military pay. This is something that is 
important to me personally because so many members of the 
Arkansas National Guard are now activated. In fact, we've had 
five killed in the last 3 or 4 days in and around Tajik and 
Baghdad. I went down to Fort Hood, Texas, and Fort Polk, 
Louisiana, and talked to our men and women in uniform. Some of 
the things I came back with are very consistent with this 
report. Let me just read a paragraph or so for you.
    It says, ``The existing processes and controls used to 
provide basic and special active-duty pays to mobilized Army 
Guard personnel are so cumbersome and complex that the Army, 
the Defense Finance and Accounting Service, and most 
importantly, the mobilized Army Guard soldiers cannot be 
reasonably assured of timely and accurate payroll payments. 
Weaknesses in the current processes and controls resulted in a 
substantial number of over and under payments and late active-
duty payments to mobilized Army Guard personnel in our case 
study units.''
    ``For example,'' and Senator Allard pointed this out: 
``Four hundred and fifty of the 481 soldiers from our 6 case 
study units had at least one pay problem associated with their 
mobilization, so 450 out of 481 had at least one pay problem. 
These pay problems severely constrain the Army's and the 
Department of Defense's ability to provide a most basic service 
to these personnel many of whom were risking their lives in 
combat. In addition, resulting inaccurate, late, and/or missing 
pays and associated erroneous debts also had a profound 
financial impact on the individual soldiers and their families. 
Soldiers and their families were required to spend considerable 
time, sometimes while the soldiers were deployed in remote 
combat environments overseas, continually addressing concerns 
over their pay and allowances.''
    I could go on and on with this, but I think we all agree 
that this is a real problem. It's a real life problem for our 
Guard and Reserve soldiers. As we know we're relying on them 
very heavily right now. So I hope that as you go into the DOD 
that you will not just address the problem and be aware of it, 
but really try to be a problem solver. I think when you have a 
large agency like this, you have a very complex problem. I 
think this is something that's evolved over time, but I'm sure 
there's a lot of inertia.
    So I want to encourage you to be a problem solver with it, 
and get in there and really try to get to the bottom of this 
and make it right. Unfortunately, for our guys in the Guard in 
Arkansas, the 39th Infantry Brigade that is already over there, 
they've kind of gone through a lot of these hiccups and had 
problems and issues, but let's try to get it right for future 
soldiers.
    Ms. Jonas. Absolutely, Senator. I would be happy to look 
into that. Should I be confirmed, that will be a first priority 
for me.
    Senator Pryor. Thank you. Mr. Chairman, that is all I have.
    Senator Allard. Okay. We will start another round of 
questioning then. I'll start that off and then we'll go to 
Senator Levin. I want to get back to the DOE. Mr. Paul, the 
DOE's Environmental Management Office (EM) is going to go out 
of business. That's the plan, and I'm concerned that NNSA does 
not have sufficient budget resources in the future for the 
clean-up of it's facilities. If confirmed, can you assure me 
that you will work to ensure sufficient resources are allocated 
for the clean-up of NNSA facilities?
    Mr. Paul. Yes, Senator, I'm generally familiar with the 
transfer from EM to NNSA of some of that activity, both as to 
the ongoing and then later discussions with EM, regarding the 
legacy waste. That is an issue that I assure you I will focus 
on.
    Senator Allard. One other question on the DOE is the 
National Ignition Facility. It's one of the things that has 
been somewhat controversial. In your view, is the National 
Ignition Facility that important to the Stockpile Stewardship 
Program?
    Mr. Paul. I believe that it is, Senator Allard. I know of 
no other technical mechanism that can be employed to 
approximate the temperature, pressure, and radiological fields 
that exist both at the center of a star and at the center of an 
implosion. I believe that the ultimately built-out 192-beam 
facility will create the environment that is necessary to the 
Stockpile Stewardship Program.
    Senator Allard. Now the fissile material disposition 
program aims to dispose of surplus weapons grade fissile 
material both in the United States and Russia. There have been 
delays because of some inability to reach an agreement with the 
Russians on liability to the U.S. contractors. What is the 
prospect for a near term resolution of the liability issue? If 
it's not resolved this year, what will be the impact on this 
program?
    Mr. Paul. Let me break that down into a couple of sub-parts 
if I may, Senator Allard, with your indulgence.
    Senator Allard. Yes, if you would.
    Mr. Paul. First, the prospect of resolving the liability 
issue. As I understand it, there are ongoing discussions at the 
highest level at the Department of State to try to resolve the 
liability concerns with our Russian counterparts. I believe we 
are making good progress, and I don't think it would be 
appropriate for me to comment further on a specific resolution 
on that, but I think there is progress.
    The next question, what is the impact on the fissile 
disposition program? There is a commitment to dispose of the 34 
metric tons of plutonium both here and the 34 metric tons in 
Russia. Of course, the disposal of the 34 metric tons here is 
indeed an incentive, a driver, for the disposition of the 34 
metric tons in Russia. I do believe, however, that there is a 
commitment to remove the 34 metric tons from the existing site.
    Senator Allard. Mr. Paul, there is a whole maze of nuclear 
programs. We've tapped on a few of them here in our questioning 
both from Senator Warner and myself. We need to make sure that 
we ensure the reliability, safety, and security of our nuclear 
weapons stockpile. Now, I'm just curious, what experience do 
you bring to the position of Principal Deputy Administrator 
that has prepared you to help manage such a complex program?
    Mr. Paul. Senator Allard, we have not engaged, in this 
country, in testing since September 23, 1992. So, we have as a 
backdrop for ensuring our safety, security, and reliability, a 
science-based judgment system, an extrapolation, if you will, 
using complex diagnostic tools most of which are inherent 
within the nuclear science field, which is my background as a 
nuclear engineer both in academia and in practice. As a reactor 
engineer in nuclear power plants and as somebody who has 
handled programs and managed programs relating to spent nuclear 
fuel and the same type of isotopes in the actinide series that 
we deal with at each of our facilities within the nuclear 
weapons complex, the physics is the same. Of course, within our 
complex, we have available some diagnostic tools that the 
civilian nuclear side does not necessarily have, but there is a 
significant amount of interface.
    Senator Allard. This question is for Mr. Aviles. In your 
answers to advance questions, you stated that the CNO has said 
that the requirement of 375 ships is not a precise number, and 
you also state that you support the Seapower 21 Vision. Now, 
the 375 ship requirement was a derivative from the 37 
independent strike groups briefed to committee members, and 
this was just over 16 months ago. My question is, how has the 
Seapower 21 Vision changed so as to alter the number of ships? 
How many ships are envisioned by the current budget request in 
future year defense programs?
    Mr. Aviles. Senator, the 375 number that has been used is a 
goal, and it is consistent with the 37 independent strike 
groups as you've indicated. Where I'm focusing is on the 
precision of that number as we look at different ship classes 
and capabilities of ships and other things that we are 
studying, such as, the joint forcible entry study and seabasing 
concepts. That number may go up; it may go down. The intent of 
my comment was just to suggest that that is not a static, fixed 
target that will forever be written in stone at 375 ships. In 
addition to the joint forcible entry study, there is going to 
be an undersea warfare study that's been undertaken by the 
Joint Staff as part of our programming and budgeting process as 
we go forward.
    So my simple point there was that there's no bumper sticker 
number that's appropriate. To the extent that Seapower 21 still 
envisions 37 independent strike groups, I believe that number 
is about right, but I can't say with absolute certitude that 
it's precisely 375 ships.
    Senator Allard. Okay. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Ms. Jonas there has 
been a lot of attention in the press in the last few days to 
the question of whether or not the administration kept Congress 
informed, as required, about the use of emergency funding 
provided after the September 11, 2001, attack. I think you've 
indicated that what you know comes from your reading of the 
press.
    Immediately after that attack, we appropriated the first 
$20 billion. The first $10 billion of those required the 
President to consult with the chairman and ranking members of 
the Appropriations Committees. Senator Byrd and Representative 
Obey, who were at the time the chairman and the ranking member 
of the Senate and the House Appropriation Committees' 
respectively, wrote the President yesterday saying that they 
were unaware of any such consultations.
    There were also, as part of that same emergency 
appropriation, requirements that the second $10 billion be 
provided 15 days after notification to the Appropriations 
Committees as to how the funds would be used. There is another 
provision in the law which requires quarterly reports relative 
to the expenditure of those funds.
    Now I'm wondering whether you have any comment about this 
matter other than the fact that you've read about it in the 
paper? I mean are you familiar, for instance, with the law?
    Ms. Jonas. Senator, what I would say is that I think it's 
important, and I understand having worked in Congress, and 
worked with the Appropriations and Authorization Committees, 
that it's very important that they receive clear documentation 
and understand clearly what the requirements are and how the 
Department would intend to use those funds. So I appreciate the 
concerns of Congress in this matter. I don't have any details 
with respect to the particular expenditure of those funds, but 
I'm very keenly aware and believe in following the intent of 
the law that's passed by Congress.
    Senator Levin. Well, thank you for that, and I don't know 
if there's a DOD representative here. But I would think this 
committee, in addition to the request that went out from 
Senator Byrd and Mr. Obey on this matter, since it is the 
expenditure of defense funds we're talking about here, should 
be notified as to whether or not the law that required 
consultation notification, and quarterly reports, depending on 
which part of the $20 billion we're talking about, that this 
committee also be informed as to whether or not those 
requirements of that law were complied with. Is there a 
representative of the DOD here today, by the way?
    Mr. Moore. Yes, sir.
    Senator Levin. Okay, good. I didn't see you sitting back 
there. Perhaps you could pass that along then.
    Mr. Moore. Yes, sir, I will.
    Senator Levin. Thanks. Ms. Jonas on the incremental funding 
issue, I believe the chairman had talked to you about this 
issue briefly, and I'm wondering whether you have any general 
feelings about the use of incremental funding. We have a board 
that I think you will chair that looks at proposals to deviate 
from the usual assumption against incremental funding. Do you 
have any particular feelings about the use of incremental 
funding?
    Ms. Jonas. Well, Senator, I think the regulation and the 
practice of the Department is to try to hold to the discipline 
of full funding, I understand that there are times when other 
considerations could be taken into account. I'd have to look 
into that a little bit further with respect to some of the 
programs that I know that Congress is interested in proposing 
with respect to incremental funding.
    Senator Levin. Do you share the assumption that we should 
avoid incremental funding where we can?
    Ms. Jonas. I think, sir, it's a good practice in general.
    Senator Levin. Okay. Mr. Aviles, the littoral combat ship 
is the subject of my question here. In the pre-hearing 
question, the committee asked you about the Navy analysis that 
led to the decision to buy the littoral combat ship, the LCS. 
You said in your response, ``That analysis was performed to 
evaluate material and non-material approaches to closing the 
capability gaps.'' It's clear that the Navy has spent a lot of 
effort analyzing how well an LCS might perform some of these 
missions. However, neither the committee nor the Congressional 
Research Service has been able to find any evidence that the 
Navy fairly evaluated other alternatives before deciding to 
proceed with LCS development.
    Can you describe for us the ``material and non-material 
alternatives,'' that you believe the Navy analyzed in coming to 
the conclusion that the LCS is the best modernization effort to 
implement the Navy's vision of future maritime operations?
    Mr. Aviles. Sir, with reference to the term ``material and 
non-material capabilities gaps,'' the expression there is 
whether or not you needed to focus on a hardware solution or an 
operational, perhaps a procedural, solution to address issues 
such as shallow water mine warfare, shallow water antisubmarine 
warfare (ASW) challenges that confront the force. With your 
permission, sir, I'd like to get back to you on the specifics 
with respect to analysis, because I can't speak to the 
specifics in that analysis.
    [The information referred to follows:]

    The LCS program completed a tailored analysis of alternatives (AoA) 
approved by the Office of the Secretary of Defense. The tailored AoA 
evaluated material and non-material solutions to mitigate the gaps in 
the littorals. Non-material solutions included an analysis of the 
capabilities of existing force structure including space-based sensors, 
aviation platforms, surface combatants, submarines, and combinations of 
the stated platforms. Other non-material options examined were changes 
in Doctrine, Organization, Training, Management, Leadership and 
Education, Personnel and Facilities (DOTMLPF).
    Material alternatives evaluated included non-surface combatant 
solutions with an emphasis on Maritime Patrol Aircraft (MPA) in ASW, a 
non-surface combatant solution with emphasis on submarines in ASW, a 
DDG hull with three mission packages (MIW, ASW, and SUW), and LCS. Each 
alternative was evaluated for desired capability, affordability, 
technology risk, and supportability.
    The Littoral Combat Ship, tailored for MIW, SUW, and ASW missions, 
was determined to be the best approach for closing the capability gaps.

    Senator Levin. Okay. Thank you. My time is up. Should I 
just finish? I have one other question.
    Senator Allard. Okay. You just have one or two questions?
    Senator Levin. Yes.
    Senator Allard. Why don't you finish up. I have one 
question and we can adjourn the committee.
    Senator Levin. Either way.
    Senator Allard. No, go ahead and finish up that one 
question and then we'll wrap it up.
    Senator Levin. Mr. Paul, the position for which you're 
nominated is a new position, created at the request of the 
NNSA. At the time it was created, the NNSA Administrator wanted 
the principal deputy to serve as a chief operating officer. 
Currently there is a position of chief operating officer in the 
NNSA. So how do you see the respective roles of the chief 
operating officer and the principal deputy administrator?
    Mr. Paul. Senator, my role as principal deputy would be to 
work directly with the Administrator and in his stead when he 
is not able to act. I will primarily work directly out in the 
field as the front line supervisor for each one of our site 
office managers as well as the front line supervisor for each 
of the managers within the headquarters. The chief operating 
officer will support me in those duties.
    Senator Levin. Okay. Just one additional question on 
project management. The DOE and NNSA have a history of 
difficulty managing complex construction projects. As a result, 
most projects have been over budget and behind schedule. 
Several years ago the DOE and NNSA created project management 
offices, but both are understaffed and underfunded. A committee 
of the National Research Council branch of the National Academy 
of Science has recently completed the third in a series of 
three annual reports on DOE and NNSA project management. While 
there is a series of findings and recommendations there are two 
that I just want to highlight for you.
    The first deals with people, and the second deals with 
management attention. First, the report states that the DOE has 
expended considerable effort developing a project management 
career development program, but the report also says that, 
``Whether the program will be funded and fully implemented 
remains uncertain and in spite of the expense and complexity of 
its projects, DOE invests little in human resource development 
for project management compared with the efforts of other 
Federal agencies or private corporations.''
    So my first question is whether or not you would work to 
ensure that the NNSA invests in project managers?
    Mr. Paul. Yes, Senator, I will. I appreciate you raising my 
attention to that issue. I will review the reports.
    Senator Levin. Then the reports says that the committee can 
offer little assistance that the improvements will be permanent 
and goes on to find that, ``the advances in DOE project 
management are fragile, and that the legacy DOE culture is 
strong. Senior management attention and actions are essential 
if past improvements are to be made permanent and ingrained in 
the organization.''
    If confirmed, Mr. Paul, would you provide strong and 
consistent attention to project management, and would you 
report back to us in 3 months on the progress that you made in 
improving project management and developing project managers?
    Mr. Paul. I will, sir.
    Senator Levin. Thank you. I think that's it. Thank you, Mr. 
Chairman.
    Senator Allard. Thank you, Senator Levin. I have just a 
couple of questions, and one has to do with sexual assault. The 
policy of this committee is zero tolerance as far as sexual 
assault is concerned. We have continually, aggressively pushed 
oversight on this particular issue as it applies to the 
Secretaries of each one of the branches as well as the 
Secretary of Defense. Mr. Aviles, please state for this 
committee your intent with respect to reviewing and taking 
action upon each reported instance of sexual assault in the 
Navy and the Marine Corps.
    Mr. Aviles. Senator, the Navy and Marine Corps have a zero 
tolerance policy with respect to sexual assault. It is 
intolerable that such activity goes on in a military 
organization. However, the Navy and Marine Corps have both 
taken aggressive actions with both the sexual assault victims 
intervention program for the Navy and the victims advocacy 
program for the Marine Corps to provide a reporting mechanism 
for victims to ensure that victims are not subsequently harmed 
either professionally or personally and to ensure that we 
aggressively go after cases of alleged sexual assault.
    The Naval Criminal Investigative Service (NCIS) is the 
principal investigative body for all reported incidents of that 
activity in the Department. The NCIS reports directly to the 
senior leadership of the Secretary on all matters, and 
obviously has the very close personal attention of the 
Secretary. I would expect, should I be confirmed, that I would 
play an active role in supervising the disposition of cases.
    Senator Allard. And you support that policy?
    Mr. Aviles. Absolutely, sir. I believe it needs the highest 
attention within the Department. Having said that, I don't want 
to give the impression that the Secretary would in any way try 
to influence unfairly any sort of criminal proceedings that 
might be brought against----
    Senator Allard. Well, I don't think anybody expects that. 
We just want to make sure that due process applies.
    Mr. Aviles. Due process must be respected, but by the same 
token this is something that the Secretary sent the message out 
loud and clear that he will not tolerate and that is the only 
appropriate response.
    Senator Allard. Very good. That wraps up questions for me, 
and I think that takes care as far as the committee is 
concerned. I have always been a strong proponent of the idea of 
the Government Results and Progress Act (GRPA), and where we 
evaluate it. I just would hope that each one of you would do 
your best to make sure that those provisions are implemented 
under your supervision. I think that's key. I think we're only 
about 60 percent there as far as meeting the requirements of 
that particular act, and it's something that I continually 
push. It's a personal thing with me, but I think it's important 
for accountability. I think the President needs it. I think 
this committee needs it. I think appropriators and budget 
committee all need to have this report that comes out of the 
GRPA.
    So I just would like to have all of you commit to this 
committee that you're going to do what you can to move that 
issue forward, and I think that's important.
    Ms. Jonas. Yes, sir.
    Mr. Aviles. Yes, sir.
    Mr. Paul. Yes.
    Senator Allard. Okay. Thank you. That completes all our 
questions. I want to thank all of you for taking the time to be 
here today. We want to thank you personally for your service 
and willingness to step forward in these new positions, and we 
look forward to working with you. Thank you very much. I 
declare the committee adjourned.
    [Whereupon, at 10:55 a.m., the committee adjourned.]

    [Prepared questions submitted to Tina Westby Jonas by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense (DOD).
    Do you support full implementation of these defense reforms?
    Answer. Yes. Establishing the combatant commands, specifying 
responsibilities, and focusing on ``jointness'' have enhanced the 
readiness and warfighting capabilities of U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have strengthened the role of the Chairman of 
the Joint Chiefs of Staff and the combatant commanders, and have made 
joint operations the norm. They have helped to improve the interaction 
among the services in conducting military operations. These reforms 
have significantly improved the ability of the Department to protect 
America's security and further its vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted above to be an 
important aspect of these defense reforms. Probably the most important 
outcome of these reforms has been a more intense focus on joint 
operations and joint requirements. If confirmed, I would work to help 
Secretary Rumsfeld increase the emphasis on joint requirements during 
the Department of Defense's new 2-year internal budget cycle.
                             relationships
    Question. What do you see as the relationship between the Under 
Secretary of Defense (Comptroller) and each of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary and Deputy Secretary 
of Defense on fiscal and budgetary matters. The Under Secretary 
(Comptroller) also performs such other duties as the Secretary or 
Deputy Secretary may prescribe.
    Question. The Deputy Secretary of Defense.
    Answer. Please see the answer to A above.
    Question. The other Under Secretaries of Defense.
    Answer. My relationship with all other senior officials of the 
Department will, for the most part, be based on the role described 
above. If confirmed, I will work closely with the other Under 
Secretaries to carry out the policies and guidance of the Secretary and 
Deputy Secretary.
    Question. The Assistant Secretaries of Defense.
    Answer. My relationship with the Assistant Secretaries of Defense 
and other senior officials of the Office of the Secretary of Defense 
would be similar to that described above in relation to the other Under 
Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I intend to work closely with 
the Chairman and Joint Staff on resource and financial management 
issues.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments carry out the 
policies of the President and the Secretary of Defense in their 
respective Military Departments and formulate recommendations to the 
Secretary and to the Congress relating to their Military Departments 
and the Department of Defense. If confirmed, I intend to work closely 
with the Secretaries of the Military Departments, and specifically, 
their Assistant Secretaries for Financial Management. I will ensure 
that they are aware of the President's and the Secretary of Defense's 
policies and priorities and assist them in contributing to the 
successful development and implementation of effective DOD policies and 
programs.
    Question. The heads of the defense agencies.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, work closely with the heads of the 
defense agencies, and specifically, with our financial management 
counterparts in those agencies. I will ensure that they are aware of 
the President's and the Secretary of Defense's policies and priorities 
and assist them in contributing to the successful development and 
implementation of effective DOD policies and programs.
    Question. The Assistant Secretaries for Financial Management of the 
Services.
    Answer. In the role of Comptroller and Chief Financial Officer for 
the Department, I will, if confirmed, work closely with the Assistant 
Secretaries of the Military Departments for Financial Management in the 
development and execution of the budgetary and fiscal policies and 
initiatives of the President and the Secretary of Defense.
    Question. The General Counsel.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, rely on the General Counsel, who is the 
Chief Legal Officer of the Department of Defense, on all legal matters, 
and will consult and coordinate with the General Counsel on all matters 
relating to programs, projects, and activities of Department of 
Defense, as well as matters relating to financial management, 
accounting policy and systems, management control systems, and contract 
audit administration, that may have legal implications.
    Question. The Inspector General.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, consider it my responsibility to support 
the Department of Defense Inspector General (DODIG) in carrying out his 
or her duties as set forth in the Inspector General Act.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, consider it my responsibility to support 
the Director of the Office of Program Analysis and Evaluation (PA&E) in 
fulfilling his or her role of providing independent assessments for 
acquisition systems. I will also work with the Director of PA&E to 
ensure the success of the combined program/budget review.
                       duties of the comptroller
    Question. The duties of the Comptroller of the Department of 
Defense are set forth in section 135 of title 10, United States Code, 
and in DOD Directive 5118.3. Among the duties prescribed in statute are 
advising and assisting the Secretary of Defense in supervising and 
directing the preparation of budget estimates of the Department of 
Defense, establishing and supervising Department of Defense accounting 
policies, and supervising the expenditure of Department of Defense 
funds.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. I expect that he will charge me with duties that are 
consistent with the statute.
    This would include developing budget estimates that properly 
support our military forces.
    In addition, I believe that he will expect the Comptroller's office 
to closely monitor the execution of funds to ensure that they are used 
effectively, efficiently and in a manner consistent with legislative 
requirements.
    With respect to financial management, he will want me to continue 
the progress the Department has made toward meeting its business 
management modernization goals and ensure compliance with the 
provisions of the Chief Information Officers Act and other relevant 
legislative requirements.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Comptroller?
    Answer. My previous assignments in the Department of Defense, on 
the House Appropriations Committee, in the Office of Management and 
Budget (OMB), and most recently as Chief Financial Officer for the FBI 
have required daily and extensive involvement in budget and financial 
management issues.
    I have led and managed offices with responsibilities similar to 
those in the Comptroller organization.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. Through my previous assignments I have had extensive 
experience with a wide range of the Department's budgeting and 
financial management activities, which will enable me to successfully 
carry out my duties as the Comptroller, if confirmed.
    Question. Do you expect Secretary Rumsfeld to make any changes in 
the duties of the Comptroller as set out in DOD Directive 5118.3?
    Answer. I have not had the opportunity to discuss such matters with 
Secretary Rumsfeld. Therefore, it would be premature to offer any 
thoughts on the question at this time.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense (Comptroller)/Chief Financial 
Officer?
    Answer. I believe that there are two primary challenges confronting 
the next Comptroller:

        <bullet> First, the Comptroller must prepare and manage a 
        budget that supports the welfare and morale of our men and 
        women in uniform; finances the operational requirements 
        necessary to fight and win the global war on terrorism; and 
        supports the continued transformation of the Department's 
        forces and weapons systems.
        <bullet> Second, the Comptroller must continue the progress 
        made to modernize our business systems and meet the goals set 
        by the Secretary of Defense, particularly to reform the 
        Department's financial management systems.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with the Joint Staff, the 
Services, and senior members of the Department, OMB, and Congress to 
address the resource requirements of the military. Also, if confirmed, 
I will move aggressively to meet the goals for the modernization of our 
business systems.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S. Code, is necessary before funds for operations 
and maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense?
    Answer. I understand that it has been the Department's practice to 
work with all the oversight committees to resolve these matters. If 
confirmed, I will respect the prerogatives of the Department's 
oversight committees and will work closely with the committees to 
achieve a consensus necessary to meet our defense needs.
              supplemental funding for military operations
    Question. At what point, if any, do you believe it will be 
appropriate to include funding for military operations in Afghanistan 
and Iraq in the Department's annual budget requests?
    Answer. There are many factors that need to be considered in such a 
decision, including the views of Congress. If confirmed, I will 
carefully consider all these factors as we develop budgets to meet our 
defense requirements.
    Question. In your view, will the Services have sufficient funding 
to cover current operations in Iraq and Afghanistan through the current 
calendar year?
    Answer. I do not know the precise status of funds and therefore 
cannot make a judgment at this time. If confirmed, I will work closely 
with the Services to assist in providing sufficient funding to meet the 
operational requirements in Iraq and Afghanistan through the remainder 
of the calendar year.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
(Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                        chief financial officer
    Question. DOD Directive 5118.3 designates the Comptroller as the 
Chief Financial Officer of the Department of Defense.
    Does Secretary Rumsfeld intend to continue to designate you, if 
confirmed as the Comptroller, as the Chief Financial Officer of the 
Department of Defense?
    Answer. Yes.
    Question. If so, what would be your major responsibilities as Chief 
Financial Officer?
    Answer. If confirmed as the Chief Financial Officer for DOD, I 
would have the duties established in the Chief Financial Officers Act, 
which include the responsibility to:

        <bullet> oversee all financial management activities relating 
        to the programs and operations of DOD;
        <bullet> develop and maintain integrated agency accounting and 
        financial management systems;
        <bullet> direct, manage, and provide policy guidance and 
        oversight of DOD's financial management personnel, activities, 
        and operations;
        <bullet> prepare audited financial statements; and
        <bullet> monitor the financial execution of budgets.
               business management modernization program
    Question. For the past 3 years, the administration has pursued a 
Business Management Modernization Program (BMMP) aimed, in part, at 
correcting deficiencies in the Department's financial management and 
ability to receive an unqualified ``clean'' audit. Two years ago, 
Secretary Zakheim testified before the Readiness Subcommittee that 
DOD's financial management modernization would be complete by 2007. At 
that time, he stated, DOD would be able to provide a full, repeatable 
accounting of resources and funding.
    Do you expect DOD to meet that 2007 time line for financial 
modernization?
    Answer. I have not been involved in the efforts ongoing at the 
Department, but will certainly support the efforts to achieve the goal 
of a clean audit opinion on the Department's 2007 financial statements. 
I will reserve judgment on how long full financial management 
modernization will take until I have had the opportunity to assess the 
Department's plans and progress.
    Question. If not, do you support continuing the BMMP?
    Answer. I support the goals and objectives of the BMMP. If 
confirmed, I plan to review its progress toward the achievement of the 
2007 time line.
    Question. The BMMP advocates top-down leadership in establishing an 
enterprise architecture for business systems modernization. The 
Services, however, appear to be taking the lead in establishing their 
own pilot programs for modernizing business systems, despite the risk 
that a Service-led approach could produce numerous incompatible 
systems.
    Do you advocate an OSD-led approach to business modernization?
    Answer. Yes. I believe it is critical that we have top management 
lead this effort.
    Question. If so, what controls are in place to ensure such an 
approach takes place?
    Answer. My understanding is that the Department has in place an 
extensive governance process to ensure strong OSD leadership of DOD 
business modernization.
    If confirmed, I will work to ensure that OSD governance and 
controls are sufficient to ensure consistency with BMMP across the 
entire department. I will review the program to determine whether or 
not additional controls are needed.
    Question. A critical requirement of the BMMP is an ``enterprise 
architecture'' that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    Why is establishing an effective enterprise architecture so 
important?
    Answer. An effective enterprise architecture will provide the road 
map to ensure that future IT investments contribute to achieving an 
integrated DOD network of business systems.
    It will enable the Department to consolidate the essential business 
rules with which all business IT systems must comply to ensure 
efficient and effective processing of the Department's business 
transactions.
    In addition, it will allow the Department, for the first time, to 
evaluate the impact of business decisions made in one functional area 
on the other functional areas within the Department.
    Question. When can Congress expect to see a fully developed 
enterprise architecture?
    Answer. I do not have all the details of the current plan. However, 
I understand that because the Department of Defense is so large, an 
incremental approach is the only practical option to develop the 
architecture. I understand that the first increment of the architecture 
will be ready by fall 2004 and will support an unqualified audit 
opinion on the Department's consolidated fiscal year 2007 financial 
statements. If confirmed, I will keep Congress informed of the 
Department's progress to fully develop an enterprise structure.
    Question. One of the key facets of the BMMP is the establishment of 
functional domains.
    Please describe the purpose of functional domains.
    Answer. As I understand it, ``domain'' is the term the Department 
uses for its major business functional areas, which are Logistics, 
Acquisition, Installations and Environment, Human Resources Management, 
Accounting and Financial Management, Strategic Planning and Budgeting, 
and Technical Infrastructure.
    The goal is to overhaul business systems in each of these areas.
    Question. Are you supportive of the current construct, or do you 
plan to revise these functional domains?
    Answer. I am unable to make a judgment at this time without 
additional detail. If I am confirmed, I will review the current 
construct, the progress made to date, plans for moving the Department 
forward and recommendations for improving the process.
                required review of systems improvements
    Question. Section 1004(d) of the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003 required the Department to 
review all financial systems improvements to ensure they comply with 
the newly defined enterprise architecture.
    If confirmed, how would you comply with the requirements set forth 
in section 1004(d)?
    Answer. If confirmed, I would review the actions already underway 
to fulfill this legal requirement, and work to make whatever changes or 
additions that are needed to achieve full compliance.
                     gao recommendations for reform
    Question. In recent testimony before the Readiness and Management 
Support Subcommittee, the Comptroller General of the United States, 
David M. Walker, offered two suggestions for legislative consideration 
which, in his words, are intended ``to improve the likelihood of 
meaningful, broad-based financial management and related business 
reform at DOD.'' These included establishing a senior management 
position in the Department to spearhead DOD-wide business 
transformation efforts, and giving the leaders of DOD's functional 
areas, or ``domains,'' control of systems investments.
    What is your view of these suggestions?
    Answer. I would need to carefully review the recommendations before 
making a judgment. However, if confirmed, I would be happy to review 
the suggestions in light of the Department's progress and plans for 
future financial management reforms and provide those views to the 
committee.
    Question. Do you have any recommendations to ensure that reforms 
currently underway continue for the foreseeable future?
    Answer. I agree that sustained high-level leadership is critical to 
success. If I am confirmed, I will work toward maintaining and 
sustaining high-level support for these reforms.
    Question. In his written testimony, Mr. Walker asserted that the 
Services continue to make ``their own parochial decisions'' regarding 
investments, without receiving the scrutiny of the DOD Comptroller. The 
GAO suggestion that DOD's functional areas, or domains, receive and 
control the Services' funding for systems investments is designed to 
counter those parochial tendencies.
    In your judgment, is the establishment of such controls within OSD 
feasible? If so, should such controls be exercised within the 
Comptroller's office?
    Answer. I think these controls are important for success. If 
confirmed I will work to ensure that the department will comply with 
public law on business system investment decisions.
    Question. Mr. Walker has also testified that the Department of 
Defense should fix its financial management systems before it tries to 
develop auditable financial statements. According to Mr. Walker, 
``Given the size, complexity, and deeply ingrained nature of the 
financial management problems facing DOD, heroic end-of-the-year 
efforts relied on by some agencies to develop auditable financial 
statement balances are not feasible at DOD. Instead, a sustained focus 
on the underlying problems impeding the development of reliable 
financial data throughout the Department will be necessary and is the 
best course of action.''
    Do you agree with this statement?
    Answer. I agree that modernizing the Department's business systems 
is the only long-term, sustainable solution to its financial reporting 
inadequacies. In general, I support the current complementary measures 
the department is taking to obtain acceptable financial statements by 
2007. If confirmed, I will carefully review the Department's 
initiatives in this area and make changes if necessary.
coordination with the networks and information integration (nii) office
    Question. The Office of the Assistant Secretary of Defense for NII 
plans to establish a systems engineering oversight board to ensure that 
development and implementation of new systems adhere to the established 
enterprise architecture.
    What is your understanding of the progress to date in establishing 
this board?
    Answer. Successful transformation of the Department's business 
practices depends in large part on how well people work together inside 
the Pentagon. I need to learn more about the systems engineering 
oversight board you referenced. However, if confirmed, I will 
coordinate all business transformation efforts with the Assistant 
Secretary of Defense for NII.
    Question. What is your understanding of whether the office of the 
Assistant Secretary for NII will coordinate with the DOD Comptroller to 
prevent duplication of effort?
    Answer. It is my understanding that the BMMP is co-chaired by the 
DOD Comptroller and the Assistant Secretary of Defense for NII. If 
confirmed, I would continue my predecessor's efforts to coordinate 
Business Enterprise Architecture (BEA) initiatives and BMMP related 
policies and directives with NII to avoid duplication.
            improper use of first and business class travel
    Question. The GAO recently reported that breakdowns in internal 
controls resulted in improper first and business class travel by DOD 
employees, and increased costs to taxpayers.
    What actions has DOD taken in response to this report?
    Answer. I am not current on all the measures that DOD has taken in 
this regard. If confirmed, I will ensure that the Department implements 
policies and controls to correct problems in internal controls 
identified by GAO, and to analyze data from the travel card program to 
monitor compliance.
                  travel and government purchase cards
    Question. The increased use of government travel and purchase cards 
were significant financial and acquisition reform initiatives of the 
past decade. Concerns, however, have been raised in the past several 
years about the controls put in place for both the travel and purchase 
cards.
    What is the status of DOD efforts to ensure proper controls are in 
place that will not jeopardize the benefits accrued from the proper use 
of these cards?
    Answer. I know from my previous experience at the Department that a 
number of actions were taken to strengthen controls for both the travel 
and purchase cards. If confirmed, I will work with the Services to 
ensure that policies and controls are in place to identify problems and 
to monitor the future performance of these programs.
                 reserve component military pay systems
    Question. The GAO recently completed a report that identified 
extensive problems with the National Guard's pay system. Modernizing 
the military payroll system is part of the longer term Business 
Management Modernization Program, however, it is essential that 
corrections be made immediately in this system to minimize personal 
hardships on deployed guardsmen, reservists, and their families.
    What will you do to address these pay problems in both the short 
and long term?
    Answer. I believe it is of the utmost importance that all service 
members are paid correctly and on time. If confirmed, I will review and 
analyze current operations to ensure that we have implemented viable 
processes and systems to ensure that all service members are paid 
properly.
                          inventory management
    Question. Do you believe DOD has adequate information about and 
controls over its inventory?
    Answer. I understand that the Department has had problems relating 
to control over its inventories and audit of its financial statements. 
Material weaknesses preclude DOD from providing reasonable assurance 
that its assets are being adequately protected and that inventory is 
not misstated on its financial statements.
    Question. If not, what steps would you take, if confirmed, to 
improve inventory management?
    Answer. If confirmed, I will work with the Under Secretary of 
Defense (Acquisition, Technology, and Logistics) to ensure that proper 
physical controls, as well as acceptable valuations, of the 
Department's inventory are incorporated into the new business processes 
and systems. As the Department transforms its business processes and 
transitions to new systems, these weaknesses should be resolved.
                 government performance and results act
    Question. If confirmed as Comptroller, what would your 
responsibilities be with respect to DOD implementation of the 
requirements of the Government Performance and Results Act (GPRA) to 
set specific performance goals and measure progress toward meeting 
them?
    Answer. I would collaborate with the Director, Program Analysis & 
Evaluation, to ensure that the Annual Defense Report includes realistic 
annual performance goals and corresponding performance measures and 
indicators. These executive-level goals and metrics should represent 
the leading performance trends that the Secretary must monitor to 
manage risk across the Department, and to maintain progress toward 
accomplishing the long-term outcomes of the defense strategy.
    Question. What additional steps can the Department take to fulfill 
the goal of the GPRA to link budget inputs to measurable performance 
outputs?
    Answer. If confirmed, I would work with the Director, Program 
Analysis and Evaluation to encourage the Components to make sure that 
the performance goals (and associated measures of performance) of their 
individual strategic plans support the overall outcome goals of the 
defense strategy.
    Question. Do you believe the Department should not be required to 
pay for environmental damage it causes?
    Answer. I believe that the Department should mitigate environmental 
damage caused by its actions, as required by law.
                     collection of contractor taxes
    Question. The Comptroller General has reported that the 27,100 DOD 
contractors owe more than $3.0 billion in back taxes, and that the 
Department of Defense has not fulfilled its duty under the Debt 
Collection Improvement Act of 1996 to help recoup these back taxes.
    What steps will you take, if confirmed, to improve the Department's 
performance in this area?
    Answer. I am committed to doing what is necessary to help the 
Department of Defense fulfill its duty under the Debt Collection 
Improvement Act of 1996--to include the collection of all monies owed 
to the Federal Government from any contractor with whom we are doing 
business. If confirmed, I will take the steps necessary to ensure the 
Department has processes and systems in place to be fully compliant 
with the Debt Collection Improvement Act of 1996. I look forward to 
working with other government agencies to improve the tax collection 
process.
    Question. Do you believe that the Department needs additional 
statutory authority to be effective in identifying and recovering back 
taxes from contractors?
    Answer. If confirmed, I will explore this issue with other 
agencies, specifically the IRS and the Treasury, after which I can 
better address the need for legislation.
                      leasing major weapon systems
    Question. The recent DODIG report on the Air Force 767 tanker lease 
proposal raises significant concerns over leasing versus purchasing 
major military equipment. The Department created a ``Leasing Review 
Panel,'' co-chaired by the Comptroller, to review all major leasing 
agreements, but that panel did not discover the problems with the 
tanker lease that the DODIG has identified.
    What is your opinion of leasing versus buying major capital 
equipment?
    Answer. The potential benefits of leasing need to be carefully 
balanced against total ownership costs. Leasing may have potential 
benefits to the Department and to the Military Services such as greater 
flexibility in dealing with transformation and changing requirements. 
In some cases therefore, it may make sense to pursue leasing as an 
acquisition alternative.
    Question. Do you anticipate making significant changes to the 
Leasing Review Panel to ensure that it is prepared to effectively 
review future leasing proposals?
    Answer. I am not familiar with the workings of the Leasing Review 
Panel. However, if confirmed, I will review the operating guidelines of 
the Leasing Review Panel to ensure that proposed leasing arrangements 
are reasonable from a budgetary perspective, display good financial 
stewardship, comply with all laws and regulations and obtain needed 
defense capabilities in the most cost-effective manner possible.
    Question. The DODIG report concludes that the proposed tanker lease 
failed to meet three of the six criteria for an operating lease as 
described in OMB Circular A-11. What is your view of this issue?
    Answer. I am not familiar with specific details of the DODIG 
Report. If confirmed, I intend to review the DODIG Report and the 
specific recommendations of the Inspector General.
                          base closure savings
    Question. The Department has asserted that additional base closures 
are needed to bring the Department's base structure in line with its 
force structure.
    In your view, have the previous base closure rounds resulted in 
significant reductions in DOD costs?
    Answer. Yes. I understand that independent studies conducted by the 
General Accounting Office and the Congressional Budget Office have 
consistently supported the view that realigning and closing unneeded 
military installations produces savings.
    Question. If similar savings result from future base closures or 
realignments, do you believe there are unfunded needs within the 
Department that could benefit by redirecting resources away from excess 
infrastructure?
    Answer. Yes, savings that may result from future base realignments 
and closures would help transform the Department of Defense. Funds no 
longer required to operate, sustain, and recapitalize eliminated excess 
physical capacity could be used, among other things, to recruit quality 
people, modernize equipment and infrastructure, and develop 
capabilities needed to meet 21st century threats.
         long-term environmental liability of the armed forces
    Question. GAO has noted that DOD continues to lack a complete 
inventory of contaminated real property sites, which affects DOD's 
ability to assess potential environmental impact and to effectively 
plan, estimate costs, and fund cleanup activities.
    In determining the long-term budget for the Department of Defense, 
what is the current estimated total cost of environmental restoration, 
compliance, and conservation, and any other environmental costs, 
including pollution prevention and technology R&D?
    Answer. I understand that the Department's financial statements for 
fiscal year 2003, show that total environmental liability for fiscal 
year 2003 is approximately $61 billion.
    Question. What is the Department's plan to refine this estimate to 
meet GAO's concerns?
    Answer. I have not been involved in the Department's discussions on 
how it plans to refine the estimate. If confirmed as the Comptroller, I 
will work with the Services to improve their estimating processes and 
to maintain an up-to-date inventory of sites requiring environmental 
cleanup.
                                 ______
                                 
    [The nomination reference of Tina Westby Jonas follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 11, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Tina Westby Jonas, of Virginia, to be Under Secretary of Defense 
(Comptroller), vice Dov S. Zakheim, resigning.
                                 ______
                                 
    [The biographical sketch of Tina Westby Jonas, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                   Biological Sketch of Tina W. Jonas

    Ms. Jonas entered government service in 1986 and has served 
in both the executive and congressional branches of government. 
Her work includes over a decade of professional budget 
experience in the national security field. From 1995 to 2001, 
she served as a professional staff member for the United States 
House of Representatives on the House Committee on 
Appropriations, Defense Subcommittee. Other outstanding 
assignments include serving as a senior budget examiner in the 
Intelligence Branch of the National Security Division at the 
Office of Management and Budget (1991-1995), Congressional 
Affairs Specialist with the Arms Control and Disarmament Agency 
(1990-1991), associate staff member with the Select Committee 
to Investigate Covert Arms Transactions with Iran (1987-1988), 
and a legislative aid for Representative Bill McCollum (1986-
1990).
    On April 30, 2001, Ms. Jonas was sworn in as the Deputy 
Under Secretary of Defense for Financial Management at the 
Department of Defense. In that capacity, Ms. Jonas was the 
principal adviser to the Department of Defense Chief Financial 
Officer and other senior Department of Defense officials for 
accounting, financial reform, and fiscal matters. Evaluating 
over 1,100 financial and feeder systems, Ms. Jonas served as 
the focal point for automated and process reform within the 
Department of Defense, providing the financial and analytical 
services necessary for effective and efficient use of the 
Department of Defense's resources.
    In August 2002, Ms. Jonas joined the Federal Burea of 
Investigation (FBI). In her current position, she serves as the 
FBI's Chief Financial Officer and Assistant Director of the 
Finance Division.
    Ms. Jonas earned a Bachelor of Arts degree in Political 
Science from Arizona State University in 1982 and a Master in 
Arts in Liberal Studies with a concentration in International 
Affairs from Georgetown University in 1995.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Tina Westby 
Jonas in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Tina Westby Jonas.
    Tina Westby (Maiden name).

    2. Position to which nominated:
    Under Secretary of Defense (Comptroller).

    3. Date of nomination:
    March 11, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 4, 1960; Oak Park, Illinois.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to David Sall Jonas.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Arizona State University, 1978 to 1982, Bachelor of Arts, Political 
Science, 1982.
    Georgetown University, 1992 to 1995 Master of Arts, Liberal 
Studies, 1995.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Chief Financial Officer and Assistant Director (Finance Division), 
Federal Bureau of Investigation, FBI Headquarters, Washington, DC, 
August 2002 to Present.
    Deputy Under Secretary of Defense, Department of Defense (Financial 
Management), The Pentagon, Washington, DC, April 2001 to August 2002.
    Professional Staff, U.S. House of Representatives, Committee on 
Appropriations, Defense Subcommittee, The Capitol, Washington, DC, 
April 1995 to April 2001.
    Budget Examiner, Office of Management of Budget, New Executive 
Office Building, January 1991 to April 1995.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    International Association of Chiefs of Police (IACP), Member.
    Army and Navy Club, Member.
    Philmont Country Club, Family Membership.
    Republican National Committee, Contributor/Donor.
    Meridian International Center, Contributor/Donor.
    Holocaust Museum, Contributor/Donor.
    Mount Vernon, Contributor/Donor.
    St. Mary's Parish, Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Arizona State University, College Republicans, 1982.
    Intern, Sellers for U.S. Senate, 1982.
    Volunteer, George Bush for President, 1988.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican National Committee, Contributor/Donor (see below).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    I have attached a listing of contributions that represent a good 
faith review of my financial records. If I find at a later date that I 
have omitted any contributions, I will report them to the committee at 
that time.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Medal for Distinguished Public Service, 2002.
    Office of Management and Budget, Professional Achievement Award, 
1992; Division Award, 1994.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I provided some informal opening remarks at the Department of 
Defense Professional Development Institute in 2002. I do not have a 
copy of the remarks. However, my memory is that I emphasized the 
importance of the Department's financial workforce in improving 
financial management. In addition, during my tenure I did testify 
before the House Government Reform Committee on the status of the 
Department's financial improvement efforts.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Tina Westby Jonas.
    This 15th day of March, 2004.

    [The nomination of Tina Westby Jonas was reported to the 
Senate by Chairman Warner on May 12, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 22, 2004.]
                              ----------                              

    [Prepared questions submitted to Dionel M. Aviles by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination to be the Assistant Secretary of 
the Navy (Financial Management and Comptroller).
    Have your views on the importance, feasibility, and implementation 
of these reforms changed since you testified before the committee at 
your confirmation hearing on June 27, 2001?
    Answer. No, my views have not changed. As I stated at the time of 
my first confirmation hearing, I truly believe that our military is now 
stronger and more effective as a result of Goldwater-Nichols.
    Question. Do you see the need for modifications of Goldwater-
Nichols Act provisions based on your experience as Assistant Secretary 
of the Navy? If so, what areas do you believe it might be appropriate 
to address in these modifications?
    Answer. I am not aware of the need for any specific modifications 
to Goldwater-Nichols. However, if confirmed, I am committed to working 
with Secretary England to continue to evaluate this law and make what 
recommendations I believe to be warranted.
                                 duties
    Question. Section 5015 of title 10, United States Code, states the 
Under Secretary of the Navy shall perform such duties and exercise such 
powers as the Secretary of the Navy may prescribe.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned to you?
    Answer. If confirmed, I expect that Secretary England will rely on 
me to support him in providing effective leadership for the Navy-Marine 
Corps team. Based upon his earlier testimony, I also expect that the 
Secretary will seek my assistance to focus on strategic business and 
management areas within the department as well as traditional 
leadership roles in areas such as personnel assignments and special 
program oversight.
    Question. Secretary England has expressed the view that 
clarification of authority and responsibilities between the Service 
Secretaries and the executive offices within the Office of the 
Secretary of Defense is needed.
    Do you agree with Secretary England's view, and, if so, please 
state specifically what changes you recommend?
    Answer. Yes, I agree with Secretary England's view. This area is 
not clear in law and responsibilities between Service Secretaries and 
the executive offices within the Office of the Secretary of Defense 
vary depending on the individuals in these positions. Secretary England 
seeks clarification of roles and responsibilities between OSD and the 
Services. I support that recommendation.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of the Navy,
    The Chief of Naval Operations,
    The Assistant Secretaries of the Navy,
    The General Counsel of the Navy,
    The Vice Chief of Naval Operations, and
    The Judge Advocate General of the Navy.
    Answer. During my tenure as Assistant Secretary of the Navy 
(Financial Management and Comptroller) I worked very closely with each 
of these individuals as part of Secretary England's leadership team. 
This team approach is highly effective in addressing issues and solving 
problems important for the Department of the Navy and for the 
Department of Defense. I would expect to continue to be a part of this 
close knit team and would expect to take a larger role in orchestrating 
the team process.
    Question. If confirmed, what changes, if any, would you recommend 
regarding the duties and functions of the Assistant Secretary of the 
Navy for Financial Management and Comptroller, as set forth in sections 
5016 and 5025 of title 10, United States Code, or in regulations of the 
Department of Defense or Department of the Navy?
    Answer. I would not recommend any changes.
                     major challenges and problems
    Question. In your June 2001 responses to previous advance policy 
questions from this committee in connection with your nomination to 
serve as the Assistant Secretary of the Navy for Financial Management 
and Comptroller, you indicated your belief that providing adequate 
resources for the Navy's warfighting priorities and ensuring the 
availability of accurate, reliable and timely financial management 
information would be your most significant challenges.
    What do you consider to be your most significant achievements in 
meeting these challenges during your service as Assistant Secretary of 
the Navy?
    Answer. The most significant achievement has been the improvement 
of our current readiness account. Since 2001 the Department of the Navy 
has been able to resource current readiness accounts in order to 
provide combat ready forces whenever required. For fiscal year 2004 
funding for core readiness accounts have increased approximately $8 
billion (nearly 22 percent), over the amount available for these 
purposes in fiscal year 2001. While these increases supported current 
readiness and warfighting capability, the Department was also able to 
increase modernization funding by $9 billion (nearly 19 percent), over 
the same period. This was possible not only because of the significant 
amount additional resources provided by the Congress, but also because 
of the commitment by senior leadership in the Department of the Navy to 
change the way we do business. The Secretary of the Navy, the Chief of 
Naval Operations (CNO), and the Commandant of the Marine Corps (CMC) 
have fostered a culture of change where long held and cherished 
assumptions are challenged and every opportunity to drive out cost is 
explored in order to free up capital to invest in equipment 
modernization and transformation.
    An additional significant achievement comes in the area of 
financial management. The Department of the Navy has developed a 
financial management improvement plan consistent with the larger 
Department of Defense goal of achieving an unqualified opinion on the 
fiscal year 2007 financial statements. This effort requires a 
significant commitment throughout Navy and Marine Corps commands in 
order to realize the goal. A near term result of this overarching 
effort has been the reduction in the time required to provide quarterly 
financial statements to approximately 21 days from the close of the 
reporting period. The Department of Defense did not previously provide 
quarterly statements and the normal standard of performance was to 
provide financial statements 4 months after the close of the fiscal 
year. While the overall effort to improve financial reporting is 
extremely important, it has not and will not come easily. It will 
require the sustained attention and commitment of the senior leadership 
of the Department and the support of Congress to succeed.
    Question. How would you assess your accomplishments during your 
service as Assistant Secretary of the Navy in improving the readiness 
of the Department of the Navy and eliminating deficiencies?
    Answer. I cannot claim any specific credit or individual 
accomplishment related to the improved readiness of the Department of 
the Navy. The improvements made in this area are principally a result 
of the changed culture brought about by the leadership of the Secretary 
of the Navy, the CNO and the CMC. Their unflagging drive to ensure that 
critical readiness functions were funded without sacrificing 
modernization priorities is what has properly motivated the leadership 
team to achieve the positive results we have enjoyed.
    Question. What do you view as the major readiness challenges that 
remain to be addressed and, if confirmed, how would you approach these 
issues?
    Answer. First, I would like to note the tremendous emphasis on 
readiness that has characterized the last 3 years. This commitment by 
Congress and the administration enabled the Navy and Marine Corps to 
respond so quickly and perform so well to Operation Enduring Freedom 
and Operation Iraqi Freedom. The challenges that remain will be in 
resetting our forces upon return from operations in Afghanistan and 
Iraq and support for future global war on terrorism activities. 
Combined with your strong support, and our pursuit of effectiveness and 
efficiency, we have been able to meet readiness challenges. If 
confirmed, I would expect to continue to play a significant role in 
addressing future readiness challenges.
    Question. In your view, what are the major challenges that will 
face the Under Secretary of the Navy?
    Answer. The major challenge that will face the Under Secretary of 
the Navy will be the continued modernization and transformation of the 
finest Navy and Marine Corps in the world while assisting the Secretary 
of the Navy in addressing complex day-to-day issues associated with the 
follow-on phases of Operation Enduring Freedom, Operation Iraqi 
Freedom, and the over-arching global war on terrorism.
                              end strength
    Question. The Navy's proposed budget for fiscal year 2005 includes 
reductions of 7,500 personnel in the active duty ranks and 2,500 in the 
Naval Reserve. The Chief of Naval Operations has publicly stated that 
his goal is to reduce the Navy's Active-Duty Force to 350,000 sailors 
from the current authorized level of 373,800.
    What is your understanding of the justification for these 
significant reductions in active duty and Naval Reserve Forces?
    Answer. The Navy's end strength goals represent a long-term policy 
to right size the manning levels on our ships as new technology and 
streamlined processes and procedures are introduced to the Fleet. The 
Navy also plans to reduce the number of sailors serving on shore duty 
and replace them, where needed, with civilian employees or contracted 
services from the private sector.
    Question. How will the Navy achieve the reductions in active duty 
and Reserve Forces proposed for fiscal year 2005 and when will the end 
strength of 350,000 be realized?
    Answer. To achieve the end strength reduction needed to match the 
Navy's manpower requirements, it will be necessary to use a number of 
different force shaping tools. Currently, there are a number of tools 
available to the Navy, such as the Perform to Serve Program and 
Assignment Incentive Pay. Historically, involuntary methods of force 
shaping have had a negative effect upon morale or retention. As such, 
we continue to explore voluntary methods that would allow us to 
effectively, and more precisely, shape the force without perturbing 
continued success in recruiting, retention, and the quality of service.
                             transformation
    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of the Department's 
highest priorities and has stated that only weapons systems that are 
truly transformational should be acquired. Secretary England has stated 
that the naval services will continue on the path of transformation to 
better tailor naval forces to meet new threats to America and to 
continue to emphasize combat capability, personnel, and technology and 
business practices.
    Please describe your understanding and assessment of the Navy's 
transformation plans.
    Answer. The Secretary of the Navy's transformational roadmap for 
this department unequivocally shares the same high priority and desired 
end-state that the Secretary of Defense envisions for all of Defense. 
Navy's transformation plans though demanding and far-reaching, are 
already beginning to create the Navy of the future. Our 
transformational roadmap challenges the practices and assumptions of 
the past and seeks changes in concepts, processes, and capabilities to 
achieve not just more jointness, but true integration and 
interoperability. The Global Concept of Operations and Fleet Response 
Plan are just two examples of how new thinking can improve the 
geographic dispersion of naval power and time of response during 
crises, respectively. These concepts take advantage of focused manpower 
and our recent readiness investments, but do not involve buying `new 
things.' New acquisition programs, however, such as CVN-21, DD(X), LCS, 
and the JSF as well as reconfigured platforms such as SSGN and DDG-51 
improvements, all electronically netted together, incorporate the 
advanced technologies and intelligent industry initiatives that 
dramatically improve capabilities and reduce operating risk of joint 
forces.
    Question. What is your vision for Navy and Marine Corps 
Transformation?
    Answer. I believe Sea Power 21, the Navy--Marine Corps team's 
transformation vision, encompasses and integrates powerful extensions 
to current joint capabilities, as well as a range of innovative new 
capabilities. Seabasing is the overarching expression of this vision, 
incorporating the initiatives that will allow the joint force to fully 
exploit our Nation's command of the sea and unfettered access to the 
far corners of the globe, to project (Sea Strike), to protect (Sea 
Shield), and to sustain integrated warfighting capabilities (FORCEnet). 
The emerging challenges of the 21st century demand we have a Joint, 
netted, power projection force that offers flexible and persistent 
combat capability. I believe the Naval Transformation Roadmap briefly 
outlined above helps take us there.
    Question. In your view, what will be the role of the Naval Reserve 
in the transformed Navy?
    Answer. The role of the Naval Reserve is and will be to provide 
ready, relevant forces to augment or reinforce the active component. 
The Fleet Forces Command is reviewing all Reserve programs to ensure 
the optimum integration of Active and Reserve Forces in the future. 
Naval Reserves must be seamlessly integrated with the active Force 
whenever and wherever needed.
                     low density/high demand forces
    Question. If confirmed, how would you address the Department of the 
Navy's challenge in manning low density/high demand units, ratings, and 
occupational specialties?
    Answer. As Secretary England noted in his confirmation testimony 
last year, the challenge in manning low density/high demand units and 
occupational specialties will become greater in the future as 
technology becomes more sophisticated and fewer, but more skilled and 
more multi-functional sailors and marines are needed. Moreover, the 
challenge in this personnel area today is particularly important for 
the Navy and Marine Corps since the unique skills and specialties 
possessed by our people in some of these units are critical to our 
capability to prosecute the global war on terrorism. Therefore, 
sustaining the right quality and quantity of personnel is essential to 
maintaining optimum capability.
    The Chief of Naval Operations and the Commandant of the Marine 
Corps have a number of transformational initiatives underway in this 
arena, commonly referred to as the ``war for people.'' If confirmed I 
would assist the Secretary and his senior military leadership in 
fostering these ongoing programs and initiatives.
                  morale, welfare, and recreation cuts
    Question. The Navy's budget for fiscal year 2005 reduces 
appropriated funding for morale, welfare, and recreation programs from 
$397 million in 2004 to $342 million in 2005.
    What is the rationale for cuts of this magnitude and how will they 
be distributed throughout the Navy?
    Answer. In keeping with the Department of Defense's strategy of 
transformation in the 21st century, Navy is engaged in an aggressive 
search for efficiencies in all facets of shore installation management, 
including MWR programs. The effort is linked to the CNO's Sea Power 21 
initiative to identify shore installation management savings that can 
be realigned to recapitalize the Navy's combat platforms.
    While the overall MWR budget request is down for fiscal year 2005, 
we intend to support fully core MWR programs.
    Question. What impact will these reductions have on sailors and 
their families and on specific programs supporting Navy dependents such 
as community centers and child care centers?
    Answer. The Navy is currently engaged in a complete review of 
fiscal year 2005 MWR funding and the potential impacts of reductions. 
The Navy intends to ensure that the outside of the continental United 
States and afloat programs are funded to meet the unique requirements 
of those populations. Additionally, the Navy does not intend to 
discontinue any MWR programs within the continental United States that 
are well supported by patrons, to include childcare centers.
                   national security personnel system
    Question. Secretary England has indicated that the Navy will be the 
first Service to implement the provisions of the National Security 
Personnel System (NSPS), which was adopted last year as part of the 
National Defense Authorization Act for Fiscal Year 2004. The NSPS 
authorities are intended to increase the flexibility of Departmental 
leaders in managing the civilian workforce. As many as 300,000 
positions within the Department of Defense are scheduled to be 
converted to the NSPS by October 1, 2004.
    If confirmed, what role will you play in implementation of the NSPS 
for civilian personnel in the Navy?
    Answer. The Department of Defense (DOD) has recently reviewed its 
process to design and implement NSPS and is adopting a comprehensive, 
collaborative approach that will take the time necessary to design it 
right and not be driven by a pre-determined implementation date. Thus 
the October 1, 2004, date no longer applies. If confirmed, I will 
assist Secretary England in the design and implementation of NSPS. 
Currently, the primary responsibility for implementation of NSPS within 
the Department of the Navy is the Assistant Secretary for Manpower and 
Reserve Affairs. It is my understanding that these responsibilities 
will not change if I am confirmed.
    Question. What are the fundamental principles that you will apply 
in managing personnel reform of this magnitude?
    Answer. Secretary England has identified a number of fundamental 
principles that, if confirmed, I would apply. These include 
comprehensive communications, personnel training, and a phased process 
to ensure that we can capture lessons learned and correct problems 
early.
    Question. How will you involve unions and the Office of Personnel 
Management (OPM) in the implementation of the NSPS within the Navy?
    Answer. Both Secretary England and Dr. Chu, Under Secretary of 
Defense (Personnel and Readiness) have emphasized the need for a 
collaborative approach with all NSPS stakeholders, including OPM and 
our union representatives. The solicitation of union input on the 
design of the system and regular communication during deployment are 
important for NSPS's success.
    Question. What steps will you take to fully inform civilian 
employees of the changes which are being planned?
    Answer. The Department is developing a comprehensive communications 
plan to ensure effective communication with employees. I expect that we 
will use a variety of tools including e-mails, web sites, town hall 
meetings and articles in DOD papers to reach all of our employees.
               navy and marine corps personnel retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, active-duty and Reserve, is vital to the Department of the 
Navy.
    What initiatives would you take, if confirmed, to further improve 
the attractiveness of active and Reserve component service?
    Answer. Our retention rates remain high. However, in order to 
continue this success, it is essential to rely upon existing tools as 
well as new, innovative approaches. Secretary England has previously 
identified a number of innovative techniques that should be studied 
further. These techniques include, performance based compensation, 
employment portability for spouses, and better integration of active 
and Reserve personnel. If confirmed, I will assist Secretary England in 
the further evaluation, and if appropriate, utilization of these 
techniques.
                       navy expeditionary warfare
    Question. Section 5038 of title 10, United States Code, establishes 
a requirement to maintain a position of Director of Expeditionary 
Warfare on the staff of the Chief of Naval Operations. This officer's 
duties, as described in that section, are to provide staff support for 
issues relating to ``amphibious lift, mine warfare, naval fire support, 
and other missions essential to supporting expeditionary warfare.'' 
Congress established this requirement after the 1991 Persian Gulf War 
in an effort to address critical shortfalls in these areas, 
particularly in the area of mine countermeasures capabilities. There 
have been recent press reports that the Department of the Navy intends 
to abolish this office.
    What is your understanding of the Department of the Navy's plans, 
if any, for changing the current status of the Director of 
Expeditionary Warfare and the functions for which the Director is 
responsible?
    Answer. It is my understanding that the Department has no plans at 
this time to either change the status of the Director of Expeditionary 
Warfare (N75) or his responsible functions. Last fall several 
initiatives for reorganizing portions of the Office of the CNO staff 
were explored to include potential impacts on N75. The final 
reorganization plan, however, did not impact the status of N75 under 
section 5038, title 10, United States Code.
    Question. Do you believe that a change to the legislation would be 
required to implement such a change?
    Answer. Yes, and I would expect that Congress would be briefed 
before any proposed change was advanced.
                       ballistic missile defense
    Question. Do you regard ballistic missile defense as a core mission 
of the Navy?
    Answer. Ballistic Missile Defense is an important capability for 
the Nation. Navy systems and tests have shown great promise in recent 
years. I fully support the recent agreement between Navy and the 
Missile Defense Agency (MDA) that provides full time commitment of an 
Aegis equipped cruiser to MDA, as well as a plan to modify other Aegis 
equipped ships to conduct MDA missions when required.
    Question. Do you support the current division of responsibility in 
which the MDA is responsible for ballistic missile defense research and 
development and the services are responsible for procurement of 
ballistic missile defense systems?
    Answer. Navy and MDA are working together to develop and field the 
systems that will deploy on board ships. I believe that both 
organizations are doing what they do best to support the delivery of a 
range of capabilities over the entire ballistic missile defense system. 
In the future, as MDA continues to improve the ballistic missile 
defense system through spiral development, a collaborative process is 
being refined to ensure that shipboard systems are upgraded 
accordingly.
    Question. What steps do you believe the Navy needs to take to 
ensure that Aegis ships are available to provide radar coverage against 
potential missile attacks?
    Answer. The Navy will have an important role in the ballistic 
missile defense mission. We have worked collaboratively with MDA, as 
well as with the combatant commanders, to deliver the Navy component of 
an integrated defense system. The ships that will initially perform the 
ballistic missile defense mission are modified and MDA is currently 
producing the computer programs that they will require to perform the 
mission. The operational chain of command continues to develop the 
tactics, techniques, and procedures that will be used when initial 
defensive operations commence this fall. Detailed training for our 
sailors has been underway for over a year now.
                         cruise missile defense
    Question. In your view, how serious is the cruise missile threat to 
the Navy?
    Answer. The emerging generation of advanced cruise missiles is one 
of the primary threats to Navy ships. Cruise missiles are widely 
proliferated and the Office of Naval Intelligence estimates that over 
75 countries will be capable of deploying cruise missiles. The vast 
majority are older sub-sonic missiles such as Styx, Exocet BLK I and 
Harpoon. However, several nations including Russia, China, India as 
well as western nations are expected to field, in the near term, more 
capable cruise missiles. The attributes of anti-ship missiles that 
challenge US Navy air defenses include higher speed, greater 
maneuverability, and reduced signature.
    Question. If confirmed, what actions would you take to ensure that 
the Navy is adequately addressing this threat?
    Answer. There are a number of programs currently being developed to 
address the anti-ship cruise missile threat. For example, the Navy is 
introducing sensor and combat systems improvements that enhance 
detection particularly in challenging littoral environments. To counter 
faster, more maneuverable threats, the Navy is developing improvements 
to Standard Missile variants, introducing the Evolved Sea Sparrow 
Missile and making upgrades to the Rolling Airframe Missile. Decoys and 
electronic countermeasures like NULKA and the Shipboard Electronic 
Warfare Improvement Program are also being fielded. If confirmed, I 
will assist the Secretary of the Navy in the continuation of these 
projects, as well as in any other programs he identifies that may 
better address the anti-ship cruise missile threat.
  nuclear-powered cruise missile attack submarine (ssgn) missile tubes
    Question. What steps, if any, do you believe the Navy needs to take 
to ensure that non-nuclear launches from SSGN missile tubes are not 
mistaken for nuclear launches?
    Answer. No additional steps need to be taken. SSGNs will carry non-
nuclear Tomahawk cruise missiles. A non-nuclear cruise missile launch 
cannot be easily mistaken for a nuclear submarine launched ballistic 
missile due to differences in launch, trajectory, and flight 
characteristics.
                          navy force structure
    Question. The Chief of Naval Operations has publicly stated that 
the Navy has a requirement for 375 ships.
    Do you agree with this requirement?
    Answer. The Chief of Naval Operations has stated that 375 is not an 
precise number, but one that is about the right number to analyze the 
types of scenarios and the kind of forward presence commitments that 
this nation needs. I concur with the assessment that there is not a 
precise number. I concur with the Secretary of the Navy's Department of 
the Navy (DON) Objectives for 2004, which require the transformation of 
our naval military capabilities to achieve the objectives of Sea Power 
21 and Marine Corps Strategy 21. Implementation of Sea Power 21 will 
require a strategy that will provide our Nation with widely dispersed 
combat power from platforms possessing unprecedented warfighting 
capabilities. The Navy's Global Concept of Operations was created to 
meet the requirements demanded of the global environment. This naval 
defense strategy calls for a fleet with the ability to respond swiftly 
to a broad range of scenarios and defend the vital interests of the 
United States.
    Question. How will the Navy meet that goal?
    Answer. As the Secretary of the Navy has stated in his DON 
Objectives for 2004 it is vital the Navy and Marine Corps fully 
understand and work toward developing, in concert with DOD and 
Congress, a financing strategy for shipbuilding.
    The Navy's 30-year plan accurately documents the funding 
requirements and the Navy's budget submissions support the requirements 
with a balanced funding approach that meets the needs of the 
shipbuilding budget as well as the other funding challenges ahead. The 
Navy's fiscal year 2004 budget requested approximately $12 billion for 
seven new ships, and fiscal year 2005 requests funding for $10 billion 
for construction of nine new ships, a significant commitment toward 
achieving our needs. Over the long term, the shipbuilding funding level 
must continue to grow, and the Navy's budget plans accurately reflect 
that need. The Navy's shipbuilding plan is realistic in stating an 
average of $14 billion will be required for an average build rate of 
approximately 11 ships per year. In addition to new construction, an 
average of $2 billion per year is required for conversion and 
overhauls.
    Question. In your view, what is the required number of ships for 
the Navy?
    Answer. Per the Defense Planning Guidance, the required number of 
ships must be able to support an operationally agile fleet that is 
dispersed, netted, and part of the joint force, that will deliver the 
combat power needed to sustain homeland defense, provide forward 
deterrence in four theaters, swiftly defeat two aggressors at the same 
time, and deliver decisive victory in one of those conflicts. Currently 
the Navy's Global Concept of Operations will have the capability to 
increase striking power, enhance flexibility, and improve 
responsiveness. I support the Navy's objective force of about 375 ships 
using current crewing concepts and force rotational requirements. This 
number is subject to change based upon the types of ships that comprise 
the fleet and the evolution of the National security challenges facing 
the Nation.
    Question. How will the Navy meet that goal?
    Answer. In addition to a healthy and robust ship building funding 
profile, the Navy intends to use a combination of investments in new 
technologies, changes in crewing concepts, a surgeable fleet response 
plan and modernization of certain critical legacy systems and platforms 
to facilitate the fleet transition to the numbers, type and mix of 
ships required to execute the range of missions anticipated in the 21st 
century.
                  science and technology (s&t) program
    Question. The fiscal year 2005 budget request for defense S&T still 
falls short of the Secretary of Defense's goal of dedicating 3 percent 
of the total defense budget to science and technology. In particular, 
the Navy science and technology program, especially the investment in 
long-term, innovative work which has been so successful in confronting 
emerging threats, has declined significantly over the last 3 years.
    If confirmed, how do you plan to address the shortfalls in the Navy 
science and technology program?
    Answer. Dedicating 3 percent of the overall defense budget for the 
S&T account is a worthy goal, but it may need additional structure to 
take into consideration other measures of S&T output. We are currently 
participating in an effort led by the Office of the Secretary of 
Defense in determining meaningful S&T efficiency and effectiveness 
output metrics. If confirmed, my recommendations to the Secretary of 
the Navy and the leadership team would be to invest wisely in 
technologies important to the Naval Services with clearly stated 
objectives, measurable milestones or progress advances and defined exit 
criteria.
                             military space
    Question. Do you believe that the current Department of Defense 
management structure for space programs sufficiently protects Navy 
space equities?
    Answer. Yes, the Department of the Navy (DON) is a full partner in 
the Department of Defense management structure for space programs and 
is actively engaged with national and joint space organizations on 
matters pertaining to space capabilities, development, space science 
and technology, research and development, acquisition, operations, and 
assessments.
    Question. In your view, how actively should the Navy be engaged in 
the management of space programs?
    Answer. The DON must remain heavily engaged in the management of 
space programs because of our critical dependencies on national and 
joint space systems. Our cadre of naval space experts play a critical 
role in ensuring space systems, such as transformational 
communications, are appropriately prioritized and realized within 
larger national and joint capabilities.
    Question. In your view, is the Navy adequately involved in the 
requirements process for space programs?
    Answer. Yes, the DON is actively involved in the space system 
capabilities development process. Our space experts are involved in the 
Joint Capabilities Integration and Development System (JCIDS) and the 
National Security Space acquisition process.
    Question. What is the Navy's appropriate long-term role in space 
systems, other than as a user of space information and products?
    Answer. Space has long been and will remain critical to naval 
warfighting. DON has been in and will remain in the forefront of 
operationalizing space, and currently leads the next generation 
narrowband system acquisition, Mobile User Objective System. DON also 
contributes with joint space S&T/research and development (R&D) 
initiatives, Naval Observatory enabling efforts as the provider of 
precise time and positional data to global positioning system (GPS) and 
other space assets, and direct participation in the National 
Reconnaissance Office.
                            joint operations
    Question. If confirmed, what recommendations, if any, would you 
have for improving joint force integration?
    Answer. Joint force integration remains a challenge, but steps have 
been taken to improve the process. If confirmed, I would advance 
continuing the initiative started with the JCIDS and Enhanced Planning 
Process. These approaches will help ensure that from inception, future 
systems take into account joint integration needs. Additionally, as if 
confirmed as Undersecretary, I would support the Secretary of the 
Navy's call for a high priority to be placed upon commonality and 
interoperability across all Services.
                          littoral combat ship
    Question. The Navy has selected three teams of contractors to 
develop concepts for the Littoral Combat Ship. There is much effort 
going into the development of the sea-frame for this ship.
    Do you believe that there is enough emphasis on the focused mission 
modules, both from a funding and technical maturity standpoints?
    Answer. Yes. The mission packages comprised of mission modules for 
the Flight 0 ships have been clearly defined and adequately funded. The 
Flight 0 mission modules are being selected from mature technologies 
that can be deployed in the near term. We have an extensive 
experimentation plan and fielding plan to ensure we balance technology 
risk with the ability to deliver capability.
    Question. The Congressional Research Service (CRS), among others, 
says that the Navy's requirements derivation process for the Littoral 
Combat Ship was flawed and that as a result, the Littoral Combat Ship 
may not be the best approach to meet the needs identified by the Navy.
    What is your view of this issue?
    Answer. The Littoral Combat Ship (LCS) is derived from a solid 
foundation of analysis. The National Security Strategy and the 
Strategic Planning Guidance established the framework for addressing 
the gaps in the littorals. LCS was derived through analysis and 
experimentation to address mine warfare, anti-submarine warfare, and 
small surface boat threats in the littoral region. Analysis was 
performed to evaluate material and non-material approaches to close the 
capabilities gaps. The results of this analysis showed a relatively 
small, shallow draft, and high-speed ship (i.e., the LCS) was the best 
alternative. Industry proposals are being reviewed in a down-select 
process for the sea frame with award in May 2004.
    My view of the issue is that the U.S. must address the gaps in 
littoral warfare capabilities today, not tomorrow. Analysis validates 
that LCS is the right solution to close those gaps and industry is 
ready to deliver those capabilities in new and innovative ways.
    Question. If confirmed, what steps, if any, would you take to 
address the concerns raised by CRS?
    Answer. If confirmed, I will continue to work with the senior 
leadership of the Department of the Navy to address these concerns.
                           surface combatants
    Question. With the early retirement of Spruance class destroyers, 
the Navy surface combatant fleet is declining significantly below the 
levels recommended by the 2001 Quadrennial Defense Review. While 
Arleigh Burke destroyers are still being built, the current Future 
Years Defense Program has Arleigh Burke construction stopping well 
before any DD(X)-class destroyers are near completion.
    Do you believe it is wise to end construction of one class of 
destroyers before the next class is further along in design and 
construction? If so, why? What is the level of risk associated with 
such an approach?
    Answer. The President's budget submission reflects the balance 
between force structure, industrial base, and the relative maturity of 
follow-on designs. If confirmed, I will support the Secretary of the 
Navy to keep that balance as a central consideration in future 
budgetary submissions. In this case, the end-year of the DDG-class 
production line corresponds with the start-year of procurement for both 
LCS and DD(X). We have an acceptable level of tactical and strategic 
risk at this point, but we now need to move forward with the new 
platforms required for the future.
    Without question, both Navy and industry are committed to the 
success of the DD(X) program. It is the centerpiece of our future Navy, 
and we cannot afford to wait to get these ships to sea. We decided to 
assume a manageable level of risk to achieve important capability gains 
in our future surface combatants. The Engineering Development Modules 
for DD(X) are moving forward, LCS is moving forward as well, and at 
this point that the risk associated with both the DD(X) and LCS 
programs are acceptable.
                        officer promotion system
    Question. The Navy has had problems in the past with antiquated 
information systems supporting promotion selection boards and lengthy 
delays in forwarding reports of selection boards consistent with the 
requirements stated in the Senate report accompanying S. 2060 (S. Rept. 
105-189).
    What is your understanding of the adequacy of the information 
systems at Navy Personnel Command that support the Navy's promotion 
selection board processing?
    Answer. Through a number of system upgrades since 2000, the Navy 
has steadily improved the processing of board records. This has 
furthered our goal of ensuring a fair, accurate, and unbiased process. 
Further information system upgrades to streamline the reporting process 
are under development. Navy has addressed reporting requirements to 
ensure commanding officers make potentially adverse information about 
an officer selected for promotion known before promotion takes place. 
If confirmed, I will assist Secretary England in his ongoing efforts to 
improve the selection board process.
    Question. If confirmed, what steps will you take to ensure that 
complete and accurate reports of selection boards are forwarded to the 
Senate in a timely manner?
    Answer. Secretary England reported earlier that Navy has undergone 
an exhaustive review of the processing of selection board reports 
within the Department of Defense and other reviewing authorities to 
ensure timely submission to the Senate. Problems previously experienced 
by the Navy in processing reports of selection boards were attributed 
to delays in the receipt of adverse information on officers selected 
for promotion. Efforts by Secretary England and uniformed leadership 
have greatly improved the receipt of this information for boards held 
this fiscal year. I am confident that these efforts will further 
expedite the process and ensure the timely submission of reports of 
selection boards. If confirmed, I will assist Secretary England by 
seeking further efficiencies to this process.
                      investment in infrastructure
    Question. Witnesses appearing before the Committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in installations has led to increasing backlogs of facility 
maintenance needs, substandard living and working conditions, and has 
made it harder for the Services to take advantage of new technologies 
that could increase productivity.
    Do you believe the Department of the Navy is investing enough in 
its infrastructure? Please explain.
    Answer. Yes, much more so than in the past, today's facility 
investment strategy focuses on decisions that enhance shore readiness 
and quality of service, effectively maintain infrastructure assets to 
sustain operations in support of our deployed Naval Forces, and strive 
to recapitalize our facility inventory more consistent with private 
industry standards. The Navy's fiscal year 2005 budget request is a 
balanced product of this investment strategy. This is a major issue 
that we evaluate annually and will continue to review as part of our 
program and budget development process.
    An important initiative to ensure proper and adequate 
infrastructure and installation funding, is the establishment of 
Commander, Navy Installations Command, a single office with the 
responsibility of improving the efficiency and effectiveness of Shore 
Installation Management (SIM). The consolidation of those functions 
from divesting claimants facilitated the establishment of common 
standards of operation, promoted new efficiencies through promulgation 
of best practices, and implemented Navy-wide SIM policies.
            implementation of changes for disabled retirees
    Question. What is your understanding of the Navy's progress in 
implementing a system for payment of combat related disability pay and 
changes in law authorizing disabled retirees to receive both retired 
pay and veterans' disability compensation?
    Answer. The Navy is making good progress in the implementation of 
Combat Related Special Compensation (CRSC). In April of 2003, the Naval 
Council of Personnel Boards was identified as the organization within 
the Department of the Navy to review all CRSC applications. The CRSC 
Branch stood up, and began reviewing applications on 1 June 2003. Since 
that time, the Navy has received over 8,700 applications.
    Question. How many applications for special compensation for 
combat-related disability pay has the Navy processed since 
implementation in 2003 year, and how many will be processed before the 
end of 2004?
    Answer. The Navy has received over 8,700 applications, processed 
over 5,300, and continues to process aggressively those outstanding 
applications. The total number of applications that will be received is 
unknown. In light of the new eligibility criteria established in the 
National Defense Authorization Act for Fiscal Year 2004, we now 
estimate that we will receive approximately 77,000 applications during 
the first 2 years of the program.
                       navy marine corps intranet
    Question. It has been reported that the attack of the Welchia Worm 
on August 18, 2003, infected over 75 percent of the Navy Marine Corps 
Intranet (NMCI) workstations.
    Can you describe what has been done to secure the NMCI network 
since then?
    Answer. The Department has implemented both technological and 
process related improvements in an attempt to secure the NMCI network. 
We recognize that those who intend to practice cyber maliciousness will 
continue to evolve the viruses they use and that no system is 100 
percent impervious against all viruses. However, we are committed to 
constantly improving the level of security in the system. Our current 
improvements served us well in January of this year during the major 
outbreak of the MyDoom.A virus. The private sector struggled with 
infection rates that ranged anywhere between 1-in-12 to 1-in-3 emails. 
NMCI recorded only 7 total infections out of more than 160,000 seats 
and all of these were quickly quarantined and cleaned before the 
infection got a foothold.
    Question. What is the current status of the implementation of the 
NMCI program?
    Answer. NMCI is operational. As of April 1st, 2004, EDS has 
``assumed operations'' for over 303,000 DON seats and approximately 
170,000 have been ``cut-over'', or transitioned, to the NMCI network.
                        navy travel card program
    Question. The Navy has been criticized by the General Accounting 
Office for its management of its purchase and travel card programs.
    What actions have been taken by the Department to implement GAO's 
recommendations and provide more effective oversight of these programs?
    Answer. The Department of the Navy has taken a number of aggressive 
actions to address recommendations to both the travel card and purchase 
programs. For the travel card these include critical review of major 
commands with high delinquencies to identify actions they will take to 
reduce delinquency and prevent misuse, mandating the use of use of 
split disbursements whenever possible to ensure recoupment of funds, 
closing unused accounts and accounts of personnel who have separated, 
and increased training with the new instruction for all program 
personnel. These actions have dramatically reduced travel card 
delinquencies for both the Navy and the Marine Corps. The department 
will continue to monitor and review the travel card program to prevent 
and detect future fraud and misuse.
    For the purchase card these steps also include a critical review of 
commands with high delinquency rates, increased training and requiring 
a 100-percent review by activity level managers of all transactions on 
a semi-annual basis. These direct actions have resulted in historically 
low levels of purchase card delinquencies for both the Navy and the 
Marine Corps and substantially reduced the number of improper purchase 
card transactions.
                         acquisition workforce
    Question. The Defense Acquisition Workforce Improvement Act (DAWIA) 
established specific requirements for managing the Defense Acquisition 
Workforce and authorized a series of benefits for the workforce.
    What is your assessment of the strengths and weaknesses of the 
Department of the Navy's implementation, to date, of DAWIA?
    Answer. The Department of the Navy has actively embraced the DAWIA 
at all levels of its acquisition workforce. Our strengths include well 
established programs that provide periodic training, staff mentoring 
and professional development for this very valuable workforce, actively 
updating them with the latest Federal Acquisition Regulation changes 
and new, best-value contracting methods and procedures. Moreover, 
senior leadership continues to partner with industry and advance 
innovative acquisition strategies like Economic Order Quantity 
acquisition and multi-year funding procurement that lower risk, lower 
cost, and/or reduce scheduled completions.
    Question. In your judgment, does the Department of the Navy's 
current acquisition workforce have the quality and training needed to 
adapt to new acquisition reforms, as well as to the increased workload 
and responsibility for managing privatization efforts?
    Answer. Yes. I believe the Department of the Navy's current 
acquisition workforce has all the requisite tools, core competencies 
and periodic training requirements to responsibly manage all our 
acquisition workload. This includes the newest efforts in both 
privatization and outsourcing. DAWIA expertise certification process 
and continued learning requirements are keystones for that program's 
success across all of Navy and DOD alike.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform certain activities including 
equipment maintenance and facility operations. Some have supported this 
effort while others have expressed concern that core activities are 
being jeopardized by reducing our reliance on military personnel and 
civilian employees of the Federal Government.
    Answer. I am committed to ensuring the DON applies its resources in 
an effective and responsible way. Part of finding the right way to do 
that involves making sure we have the right functions performed by the 
right people. In some cases that should be our military and civilian 
personnel; in others, the private sector possesses the best capability 
to provide support and services. There is not a ``one size fits all'' 
answer. We need to focus on those core functions that we must do to 
accomplish our mission and then determine what the best source is to 
accomplish those functions that support the core competencies.
    Question. What impact will the recent changes to OMB Circular A-76 
have on the Department's plan for public-private competitions?
    Answer. The recent changes to OMB Circular A-76 will facilitate our 
public-private competitions. The changes reinforce our commitment to 
apply a competitive environment to sourcing decisions. We are also 
renewing our emphasis on the development of performance-based 
specifications to obtain the goods or services we need without 
unwarranted restrictions.
    Question. Are there other effective alternatives that the Navy is 
pursuing to achieve the benefits of public-private competition?
    Answer. We are examining functions performed by military personnel 
in particular to determine whether the work can be done by civilian 
employees or contractors, as well as a critical analysis of whether the 
work needs to be done at all.
    Question. Do you believe that outsourcing can yield substantial 
savings for the Department of that Navy?
    Answer. Studies have shown we consistently produce savings when we 
make sourcing decisions in a competitive environment, whether the 
outcome is continued use of government employees or contractor 
performance. The process causes us to look closely at what needs to be 
done and to find the best way to do it.
                    major weapon system acquisition
    Question. Please describe the approach and progress made by the 
Navy to reduce cycle time for major acquisition programs.
    Answer. The Navy has embraced evolutionary acquisition and spiral 
development as the cornerstones on which the naval acquisition 
community will accelerate the delivery of affordable warfighting 
capability to meet Naval Power 21 and Marine Corps Strategy 21 
objectives.
    The Acoustic Rapid COTS Insertion program is an excellent example 
of evolutionary acquisition. The Navy is actively disseminating the 
lessons learned from these successes to facilitate full implementation 
of the evolutionary acquisition philosophy.
    Question. What specific steps has the Department of Navy taken to 
adopt incremental or phased acquisition approaches, such as spiral 
development?
    Answer. The new DOD Instruction 5000.2, ``Operation of the Defense 
Acquisition System'', establishes a strong preference for evolutionary 
acquisition and spiral development. The Navy assisted in the 
development of this instruction. Both evolutionary acquisition and 
spiral development can reduce major acquisition program cycle time. The 
new Secretary of the Navy Instruction 5000.2C, which is currently being 
routed within Navy for approval, will provide further implementation 
guidance and institutionalize the new philosophy. If confirmed, I will 
strongly support and advance this acquisition approach. Navy 
acquisition managers will be expected to exploit fully the flexibility 
of the new acquisition policies in structuring evolutionary acquisition 
plans appropriate to the capability needs and the pace of advancing 
technology for their systems.
    Question. How will the requirements process, budget process, and 
testing regime change to accommodate spiral development?
    Answer. The Navy has encouraged and supported programs in dealing 
with the key enablers for spiral development, such as time phasing of 
capabilities, full funding for spirals/increments, operational testing, 
and evolutionary sustainment strategies. Discussions have been held 
with the capability assessment, resources, test, and logistics 
communities to enhance support within these communities for 
evolutionary acquisition and spiral development. Program managers have 
been directed to structure plans and coordinate activities with 
relevant stakeholders as early as possible within each program 
acquisition cycle. Acquisition plans and documents should reflect these 
agreements.
                          services contracting
    Question. DOD spends over $60 billion a year on services. Concerns 
raised by the DOD Inspector General about the management of these 
contracts led Congress to pass section 801 of the National Defense 
Authorization Act for Fiscal Year 2002, which requires each of the 
military departments to establish a management structure for the 
procurement of services comparable to the structure already in place 
for the procurement of products by the Department of Defense. Section 
801 also requires each department to designate an official to be 
responsible for the management of the procurement of services.
    By way of comparison, the Air Force has established a Program 
Executive Officer for Services, with responsibility for handling all 
services acquisitions in excess of $100 million. The committee also 
understands that the Air Force has established a management structure 
for smaller acquisitions.
    What is the Department of Navy doing to better manage its services 
contracts, and, specifically, to implement the requirements contained 
in section 801?
    Answer. On March 10, 2003, the Department of the Navy issued its 
``Department of the Navy Management Oversight Process for Acquisition 
of Services (MOPAS)'' guidance. In conjunction with existing Navy 
guidance on the procurement of products the MOPAS guidance establishes 
criteria, review/approval thresholds and metrics requirements for 
services contracts. The guidance utilizes existing strengths and 
organizational structure to evaluate needs. Assistant Secretary of the 
Navy (Research, Development, and Acquisition) (ASN(RDA)) will review 
services acquisitions designated as Special Interest by the Under 
Secretary of Defense (Acquisition, Technology, and Logistics) and will 
review and approve services acquisitions with a total planned dollar 
value of $1 billion or more, as well as services acquisitions 
identified by ASN(RDA) as special interest. Review and approval 
authority for lower dollar value contracts are delegated to the 
appropriate Deputy Assistant Secretary of the Navy. Additionally, 
acquisition workforce training is being conducted to foster 
understanding of and compliance with these procedures, and compliance 
is being reviewed during procurement assessments of acquisition 
activities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Dionel M. Aviles follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 6, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dionel M. Aviles, of Maryland, to be Under Secretary of the Navy, 
vice Susan Morrisey Livingstone, resigned.
                                 ______
                                 
    [The biographical sketch of Dionel M. Aviles, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Dionel M. Aviles
    Dionel M. Aviles was nominated on June 12, 2001 by President George 
W. Bush to serve as the Assistant Secretary of the Navy (Financial 
Management and Comptroller) and was sworn in on July 17, 2001.
    From 1995 to 2001, Mr. Aviles served as a professional staff member 
on the staff of the House Armed Services Committee and was responsible 
for defense budgeting and finance issues, as well as Navy shipbuilding 
and other procurement issues.
    Prior to working at the House Armed Services Committee, Mr. Aviles 
served for 4 years in the National Security Division of the OMB in the 
Executive Office of the President. He began his service at OMB as the 
budget examiner for Navy procurement and research and development 
programs and ended as the assistant to the division director 
responsible for the development of the defense accounts for the 
President's Budget.
    Before joining OMB, Mr. Aviles served as a program engineer at the 
Naval Air Systems Command. He worked on various Tomahawk missile 
projects in the Cruise Missile Project. Prior to his government service 
at the Naval Air Systems Command, he worked as a production support 
engineer for the Standard Missile and Phalanx Gun programs.
    A native of Bryan, Texas, he graduated from the United States Naval 
Academy in 1983 with a bachelor's degree in mechanical engineering. In 
1993 he earned a master's degree in business administration from the 
School of Business and Public Management at George Washington 
University.
    Mr. Aviles served on active duty in the United States Navy from 
1983 to 1988 as a surface warfare officer and is an officer in the 
Naval Reserve.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dionel M. 
Aviles in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dionel M. Aviles.

    2. Position to which nominated:
    Under Secretary of the Navy.

    3. Date of nomination:
    February 6, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 23, 1961; Bryan, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Kimberly Lee Corbin.

    7. Names and ages of children:
    Thomas William Aviles (7 years old).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Washington University, 1991 to 1993, Master of Business 
Administration, December 1993.
    University of Maryland, 1989 to 1990, No degree granted.
    U.S. Naval Academy, 1979 to 1983, Bachelor of Science, Mechanical 
Engineering, May 1983.
    Texas A&M University, 1978 to 1979, No degree granted.
    Satellite High School, Satellite Beach, Florida, 1975 to 1978, High 
School Diploma, June 1978.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant Secretary of the Navy (Financial Management & 
Comptroller), 1000 Navy, Pentagon (Room 4E569), Washington, DC, July 
2001 to Present.
    Professional Staff Member, U.S. House of Representatives, Committee 
on Armed Services, Rayburn House Office Building, Washington, DC, March 
1995 to July 2001.
    Budget Examiner, Executive Office of the President, Office of 
Management and Budget, 725 17th Street, NW, Washington, DC, April 1991 
to February 1995.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Engineer, Department of the Navy, Program Executive Officer for 
Cruise Missiles and Unmanned Aerial Vehicles, Naval Air Systems 
Command, Arlington, VA, January 1990 to April 1991.
    Naval Officer, U.S. Navy, 1983 to 1988, U.S. Naval Reserve, 1988 to 
present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Academy Alumni Association (1983-present), 247 King 
Street, Annapolis, MD, Life Member, no offices held.
    Our Lady of the Fields Catholic Church (1995-present), 1070 Cecil 
Avenue, Millersville, Parishoner, no offices held.
    Republican Party (1979-present), c/o Republican National Committee, 
310 First Street, SE, Washington, DC, Member, no offices held.
    National Rifle Association (1993 to present), 11250 Waples Mill 
Road, Fairfax, VA, Life Member, no offices held.
    Navy Federal Credit Union (1979-present), P.O. Box 3000, 
Merrifield, VA, Member, no offices held.
    Anne Arundel Fish and Game Conservation Association (1993-present), 
P.O. Box 150, Arnold, MD, Member, no offices held.
    United Services Automobile Association (1982-present), 9800 
Fredericksburg Road, San Antonio, TX, Member, no offices held.
    Society of American Military Engineers (1988-present), 607 Prince 
Street, Alexandria, VA, Member, no offices held.
    Reserve Officers Association (1995-present), One Constitution 
Avenue, NE, Washington, DC, Life member, no offices held.
    Ducks Unlimited (2003-present), One Waterfowl Way, Memphis, TN, 
Member, no offices held.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member of the Republican party. No offices held or services 
rendered during the last 5 years.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Ehrlich Gubernatorial Campaign (2002), $700.
    Bush for President Campaign (1999), $1,000.
    Bush Gubernatorial Reelection Campaign (1998), $500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Navy Commendation Medal (2 awards).
    Navy Achievement Medal (2 awards).
    National Defense Service Medal.
    Navy Expert Pistol Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Commissioning speaker for U.S.S. McCampbell (DOG 85) on August 17, 
2002.
    Commissioning speaker for U.S.S. Mason (DOG 87) on April 12, 2003.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    If confirmed, I agree to appear and testify upon request before any 
duly constituted committee of the Senate.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Dionel M. Aviles.
    This 9th day of February, 2004.

    [The nomination of Dionel M. Aviles was reported to the 
Senate by Chairman Warner on May 12, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 24, 2004.]
                              ----------                              

    [Prepared questions submitted to Jerald S. Paul by Chairman 
Warner prior to the hearing with answers supplied follow:]
                        Questions and Responses
                                 duties
    Question. Section 3141 of the National Defense Authorization Act 
for Fiscal Year 2002 stated that the Principal Deputy Administrator 
shall be appointed ``from among persons who have extensive background 
in organizational management and are well qualified to manage the 
nuclear weapons, nonproliferation, and materials disposition programs 
of the administration in a manner that advances and protects the 
National security of the United States.''
    What background and experience do you possess that you believe 
qualifies you to perform these duties?
    Answer. The diversity of my background and experience will likely 
provide the most effective tool for coordinating the activities of the 
National Nuclear Security Administration (NNSA). This diversity 
includes perspective from education and experience as Nuclear Engineer 
and Marine Engineer; Operating Systems of power plants, both nuclear 
and fossil; experience coordinating nuclear fuel operations; practicing 
as an attorney; and serving as an elected official in the Florida State 
Legislature.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Principal Deputy 
Administrator?
    Answer. My ability to perform my duties will be greatly enhanced by 
maintaining a visible proactive presence at our laboratories, plants, 
and offices within the complex where I can establish a close meaningful 
relationship with our front line managers and their teams.
    Question. Section 3141 goes on to state that the Principal Deputy 
Administrator ``shall perform such duties and exercise such powers as 
the Administrator may prescribe, including the coordination of 
activities among the elements of the administration.''
    Assuming you are confirmed, what duties and functions do you expect 
that the Administrator of the NNSA would prescribe for you?
    Answer. If confirmed, the Administrator would likely assign me the 
following responsibilities:

        <bullet> Partner with the Administrator in leading the NNSA.
        <bullet> Serve as the ``common superior'' for the resolution of 
        management issues arising between/among headquarters and field 
        offices.
        <bullet> Serve as first line supervisor for NNSA senior 
        managers in headquarters and the field.
        <bullet> Lead the Management Council (senior headquarters 
        managers) and the Leadership Coalition (Management Council plus 
        Site Managers and Director of the Service Center).
        <bullet> Lead the NNSA on DOE Management Challenges and 2004 
        priorities.
        <bullet> Senior NNSA focal point for the Defense Nuclear 
        Facilities Safety Board (DNFSB) on management issues.
        <bullet> Chair NNSA's Diversity Council and champion diversity 
        in the NNSA workplace.
                     major challenges and problems
    Question. The Principal Deputy Administrator is a new position.
    What is your understanding of the role that the individual 
appointed to this position will play in the overall administration of 
the NNSA?
    Answer. The role of the Principal is to partner with the 
Administrator in providing leadership to and management of NNSA. In the 
short run, the Principal Deputy will focus on being the driving force 
in completing the re-engineering of NNSA.
    Question. In your view, what are the major challenges that will 
confront the Principal Deputy Administrator for Defense Programs?
    Answer. Consistent with my responsibilities to ensure full 
implementation of re-engineering, one major challenge will be 
consolidating our business and technical services, together with the 
people who performs them, from Oakland and Nevada, to the NNSA Service 
Center in Albuquerque by the end of this fiscal year.
    Additionally, identifying and remedying gaps and skill mix 
mismatches throughout the organization will be a continuing challenge 
that I will address.
    We must be certain that the most qualified vendors available are 
selected to carry out the complex scientific and technical work needed 
by the Stockpile Stewardship Program and Defense Nuclear 
Nonproliferation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. In each case cited above, I would work closely with the 
NNSA senior leadership team at headquarters and at our site offices and 
service center to ensure that each activity is being managed in an 
efficient and cost effective manner. The NNSA Chief Operating Officer 
has established teams to oversee the specific challenges discussed 
above and he is working closely with the headquarters and field 
managers to address areas of concern. He has developed milestones for 
each phase of implementation and is holding managers accountable for 
adherence to these schedules. If confirmed, I will ensure the 
responsibility for guiding these efforts and accomplishing these key 
objectives.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Principal Deputy Administrator?
    Answer.

        <bullet> The most serious problems involve the design and 
        implementation of an appropriate line oversight and contractor 
        assurance policy for the NNSA complex.
        <bullet> A lesser problem is the number of delinquencies in the 
        technical qualifications program. NNSA has a significant number 
        of individuals, in some instances because of job changes due to 
        re-engineering, who have not completed the technical 
        qualifications for their positions.
        <bullet> Finally, the role of headquarters offices in 
        overseeing the performance of the Site Offices and the Service 
        Center needs to be more clearly defined.

    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer.

        <bullet> If confirmed I would look at immediately assigning an 
        individual from the Service Center to assess the status of each 
        site and contractor. As Principal Deputy I will enforce a 
        deadline to have the line oversight and contractor assurance 
        system designed and the first steps of implementation underway. 
        The completion of the design of a system will include a 
        resources loaded schedule that I will monitor.
        <bullet> Each manager will be required to plan for completing 
        the qualification of each individual in the program who works 
        for that manager. The manager's performance appraisal plan will 
        include this item. Through the Chief Operating Officer, I will 
        monitor progress.
        <bullet> In my role of leading the Leadership Coalition, I 
        expect to drive the resolution of issues regarding roles and 
        responsibilities. I will monitor and effect how the roles and 
        responsibilities are carried out. The Principal Deputy should 
        initiate this effort at the first Leadership Coalition, should 
        he be confirmed.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Principal Deputy 
Administrator?
    Answer. The first priority for the Principal Deputy will be 
completing NNSA's re-engineering so that we have a fully functioning 
Service Center supporting our Site Offices and Headquarters.
    Finalizing the roles and responsibilities among Headquarters, Site 
Offices, and the Service Center will be another priority.
    Accelerating and completing NNSA's workload reduction initiatives 
is a third priority.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Principal Deputy Administrator with the following officials:
    The Secretary of Energy
    Answer. Under the NNSA Act the Secretary, acting through the 
Administrator, can direct the activities of NNSA. In addition, the 
Secretary sets policy for NNSA and NNSA implements it.
    Question. The Administrator of the NNSA
    Answer. The Administrator is the direct supervisor of the Principal 
Deputy. He sets priorities for the Deputy and serves as the common 
superior to resolve any disputes between the Principal Deputy and the 
other Deputy Administrators.
    Question. Other Deputies in the NNSA
    Answer. The other Deputies are direct reports to the Principal 
Deputy who is their first line supervisor providing coordination, 
integration, and oversight of their performance.
    Question. The Assistant Secretary for Environment Management
    Answer. The Principal Deputy will oversee the transition of legacy 
waste cleanup from the responsibility of EM to NNSA. As the common 
superior for both the headquarters cleanup element and the Site Office 
managers, the Principal Deputy resolves any issues between headquarters 
and the field.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs and the Nuclear Weapons 
Council
    Answer. The current incumbent is Dr. Dale Klein. In addition to his 
other duties within the Department of Defense, Dr. Dale Klein serves as 
the Executive Secretariat for the Nuclear Weapons Council (NWC). NNSA 
legal representative to the NWC is the Administrator and, if confirmed, 
I will, along with the Deputy Administrator for Defense Programs, 
provide support to the Administrator in this critical role.
    Question. Commander, Strategic Command
    Answer. The current incumbent is Adm. James O. Ellis, Jr., USN. The 
Commander of Strategic Command is the central customer at the 
Department of Defense for the work of the NNSA. Along with the 3 
laboratory directors, he provides his judgment annually on the 
certification of the stockpile along with the Nuclear Weapons Council 
to the Secretary of Defense. I expect that continual interactions with 
the Commander in Chief of Strategic Command regarding military 
requirements and stockpile size and composition will remain the primary 
responsibility for the Deputy Administrator for DP.
    Question. The Nuclear Directorate of the Air Force and Navy
    Answer. (1) The current incumbent is Major General Robert L. 
Smolen, USAF. The Directorate is responsible for establishing Air Force 
policy and strategy for nuclear weapon systems, has oversight of 
nuclear operations and requirements and manages all aspects of the Air 
Force arms control activities ranging from treaty negotiation support 
to implementation and compliance.
    (2) The nuclear weapon Directorate of the Navy is broken into 
policy and technical organizations. The policy organization is the 
Strategy and Policy Branch within the Office of the Chief of Naval 
Operations. Rear Admiral Carl V. Mauney is the current incumbent. The 
Navy's nuclear weapon technical organization is Strategic Systems 
Programs. The current incumbent is Rear Admiral Charles Young. The 
Director of Strategic Systems Programs is responsible for all research, 
development, production, logistics, storage, repair, and support of the 
Navy's Fleet Ballistic Missile Weapon Systems.
    Interactions with both of these important offices are and should 
continue to be handled by the Principal Assistant Deputy Administrator 
for Military Application.
    Question. Associate Administrator of NNSA for Facilities and 
Operations
    Answer. The Principal Deputy is the first line supervisor for this 
Senior Executive who is responsible for the corporate management and 
oversight of NNSA's facilities management policies and programs, 
project management systems, and safeguards and security programs. There 
will be daily interaction with this Associate Administrator to provide 
oversight and resolve any issues that may arise among Headquarters and/
or field managers, and to ensure the vitality and security of the 
industrial and laboratory infrastructure of NNSA. The Principal Deputy 
performs the annual performance appraisal of this Senior Executive, 
including the establishment of the performance plans and 
recommendations for compensation and awards.
    Question. Associate Administrator of NNSA for Management and 
Administration
    Answer. The Principal Deputy is the first line supervisor for this 
Senior Executive who is responsible for the overall business management 
aspects of the NNSA enterprise by providing for the financial, 
procurement and acquisition, human resources, information technology 
and day-to-day business operations of NNSA. There will be daily 
interaction with this Associate Administrator to provide oversight and 
resolve any issues that may arise among Headquarters and/or field 
managers, and to ensure the overall vitality of the NNSA business 
programs. The Principal Deputy performs the annual performance 
appraisal of this Senior Executive, including the establishment of the 
performance plans and recommendations for compensation and awards.
                           management of nnsa
    Question. What is the role of NNSA's Management Council and, if 
confirmed, what would be your relationship with the Council?
    Answer. Broadly speaking, the role of the NNSA Management Council 
(Senior Headquarter Managers) is to address and make decisions on 
matters which, for the most part, impact the entire NNSA complex. For 
example:

        <bullet> Personnel appointments for key Headquarters and field 
        senior leadership positions that affect major NNSA activities/
        operations;
        <bullet> Major organizational changes--such as re-engineering, 
        etc;
        <bullet> Business practices and systems (implementing E-Gov and 
        other administration data management systems, such as IMANAGE);
        <bullet> Budget matters such as the functioning of the NNSA 
        Planning, Programming, Budgeting and Evaluation (PPBE) 
        activities;
        <bullet> Issues of interest to the NNSA Leadership Coalition 
        (Managers of the Site Offices, and the Director of the Service 
        Center together with the NNSA Management Council) such as, 
        contract management, budget, and Site Office interfaces with 
        the Service Center.
Role of the Principal Deputy
    I have discussed my potential role on the Management Council with 
Ambassador Brooks. I would provide management oversight of all Council 
activities for Ambassador Brooks. I would set the agenda for the weekly 
meetings and ensure that subject matter experts scheduled to brief the 
Council are fully prepared. I would ensure that the Management 
Council's focus is on decisionmaking and implementation. My goal would 
be to help ensure that NNSA is being managed and operated consistent 
with the spirit and intent of the NNSA Act.
                       weapons program work force
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to retain critical nuclear weapons expertise, particularly 
design capabilities, in the NNSA workforce?
    Answer. Monitoring the status of our critical nuclear weapons 
expertise will be one of my highest priorities if confirmed. NNSA's 
nuclear weapons expertise resides in the workforces of our Management 
and Operating (M&O) contractors who manage the weapons laboratories, 
production plants and test site. NNSA relies on these contractors to 
maintain that expertise, but carefully monitors their status. We 
include performance metrics in each of our eight M&O contracts to 
ensure our contractors give this their highest priority. I will ensure 
that senior management and our contractors watch for negative trends in 
advance so that we can take appropriate corrective measures.
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to ensure that new weapons designers are appropriately 
trained?
    Answer. Activities that exercise weapons design skills are the most 
important action NNSA can take to appropriately train new designers. As 
time passes, NNSA continues to lose experienced designers from our 
laboratory workforces, and within the next decade we will have very few 
who have hands-on experience from designing new warheads, or planning 
and conducting underground nuclear tests. I believe we must continually 
seek worthwhile program activities that can exercise these skills as 
well as ensure that the expertise in our workforce is properly archived 
and that the next generation of designers learns from the current 
designers before they retire.
    Question. In your view, what are the critical skills that are 
needed in the NNSA?
    Answer. I believe the Chiles Commission review was on target 
regarding the critical skills needed for the future. As I understand 
it, the NNSA worked with its contractors following the review and has 
established processes for contractors to ensure that those skills are 
maintained, and establish processes for NNSA to ensure that we have 
appropriate operational awareness and oversight of the status. I would 
encourage each contractor to maintain its own list of critical skills 
and periodically reports metrics on recruitment, development, and 
retention of those skills.
                        safeguards and security
    Question. One of the biggest initiatives of the Department of 
Energy and the NNSA over the past year was to establish a new design 
basis threat (DBT) standard.
    If confirmed, what recommendations would you make to help ensure 
the NNSA meets the new DBT?
    Answer. I would ensure that detailed schedules are in place along 
with milestones and timelines to adequately assess progress by the 
sites in implementing site safeguards and security upgrades included in 
approved plans. Further, I would ensure that sites maintain this 
schedule, assess any delays that may occur, and champion requests for 
additional resources as needed.
    Question. How should the NNSA maintain an appropriate balance 
between adding security personnel and investing in force multiplying 
technologies and infrastructure in this area?
    Answer. Utilizing additional manpower to provide necessary upgrades 
in the level of security protection is generally the most expensive 
approach. Therefore, I believe it is important the NNSA invest in 
technologies that are available, reliable and cost effective to 
effectively complement the need for additional protective personnel.
    Question. In your opinion, what are the biggest threats to the 
nuclear weapons program?
    Answer. In my opinion the biggest threats to the nuclear weapons 
program is its aging facilities, systems and equipment compounds by the 
lack of necessary resources to upgrade these facilities to today's 
security standards for protection and storage.
                     stockpile stewardship program
    Question. What is your view of the Stockpile Stewardship Program's 
progress towards its goal of being able to continuously certify the 
U.S. enduring nuclear weapons stockpile as safe, secure and reliable 
without the need for underground testing?
    Answer. While I have not yet received classified briefs about the 
Stockpile Stewardship Program, I understand that it has been able for 
almost a decade to certify that the Nation's nuclear weapons stockpile 
is safe, secure, and reliable. I also understand that it has solved 
problems in the stockpile that in the past would have been resolved 
using nuclear testing.
    Question. In your opinion, what are the greatest challenges 
confronting the Stockpile Stewardship Program?
    Answer. Again, I have yet to received a detailed briefing, but from 
my understanding the greatest challenge confronting the Stockpile 
Stewardship Program is maintaining confidence in the judgments in the 
absence of full scale testing data. The analysis must be rigorous and 
reviewed to ensure that we avoid a false sense of confidence in the 
safety, security and reliability of the stockpile. If the data suggests 
that there is a problem in the stockpile we must be prepared to 
initiate testing if necessary for comprehensive, accurate analysis or 
withdraw the weapon from the stockpile until it is repaired, if that 
was possible.
    Question. Do you fully support the goals of the Stockpile 
Stewardship Program?
    Answer. Yes, the Stockpile Stewardship Program is one of this 
country's most important national security programs. If confirmed, I 
will work with the administration to ensure that this program receives 
the resources necessary to continue to its success.
                         nuclear posture review
    Question. The Nuclear Posture Review (NPR), which was released in 
January 2002, contained the administration's plan to reduce the number 
of operationally deployed strategic nuclear warheads to between 1,700 
and 2,200 by the year 2012. These reductions were included in the 
Strategic Offensive Reductions Treaty in 2003.
    Will any dismantlements occur as a result of the NPR and the Moscow 
Treaty?
    Answer. It is my understanding that the answer is yes and that by 
2012, the size of the nuclear weapons stockpile will be substantially 
reduced from today's levels.
    Question. With the large number of refurbishment and other life 
extension program activities planned over the next 8 years, is there 
enough facility capacity and are there sufficiently qualified personnel 
in the NNSA workforce to also take on a large increase in dismantlement 
during the same time period?
    Answer. As I understand it, the NNSA will continue to be able to 
dismantle warheads, but the rate of dismantlement will depend on the 
workload needed to support other priority activities including life 
extension programs, warhead surveillance, and stockpile maintenance 
modifications and alterations.
    Question. The NPR stated as one of its priority goals achievement 
of a reinvigorated infrastructure across the nuclear weapons complex.
    With competing budget priorities for the Stockpile Stewardship 
Program, directed stockpile work, safeguards and security, and 
maintenance and recapitalization, what steps would you take, if 
confirmed to ensure the infrastructure continues to be revitalized and 
well maintained?
    Answer. I believe it is essential that our country has a modern and 
responsive nuclear weapons infrastructure as called for in the Nuclear 
Posture Review to maintain deterrence with a much smaller stockpile. I 
believe NNSA is on the right track with its FIRP program that will 
ensure that the current weapons complex is brought back up to modern 
standards, as well as looking at what the complex of the future will 
need to ensure the security of future generations to come, such as 
building a Modern Pit Facility.
    Question. What recommendations, if any, would you make to improve 
management of the facilities in the nuclear weapons complex?
    Answer. NNSA reengineering efforts are aimed at improving 
efficiency and effectiveness. Based on my experience, management can 
best be improved by establishing clear performance objectives and the 
means for fairly judging contractor performance. I have been impressed 
with the work NNSA has been doing to clearly define and measure 
performance through its PPBE process. I also support NNSA's efforts to 
establish model contracts that streamline the interface between the 
government and its contractors by establishing assurance and evaluation 
systems based on external validation. If confirmed, I will focus my 
efforts on fully implementing NNSA's Contractor Assurance Systems.
                     facilities and infrastructure
    Question. Upon its creation, NNSA inherited an infrastructure in 
need of significant work, particularly at the nuclear weapons plants, 
but throughout the aging nuclear weapons complex. At the request of the 
Department of Energy, Congress, in section 3133 of the National Defense 
Authorization Act for Fiscal Year 2002, established the Facilities and 
Infrastructure Recapitalization Program (FIRP).
    Although FIRP appears to be making good progress in revitalizing 
the infrastructure through elimination of maintenance backlogs, what 
recommendations would you make to ensure that current and future 
maintenance needs under the Readiness in Technical Base and Facilities 
program are met so that the nuclear weapons complex is revitalized when 
FIRP is terminated in 2011, as originally planned?
    Answer. Based on my current understanding of facility conditions, I 
would recommend that NNSA develop a corporate strategy to ensure smooth 
and appropriate transition that will avoid falling back into an 
unacceptable deferred maintenance backlog. I understand a complex-wide 
coordinated plan to achieve required space reductions, modernize the 
facilities and shift to a preventative maintenance approach rather than 
relying on corrective maintenance. I believe these programs are taking 
appropriate steps to define and manage maintenance requirements. We 
need to make sure both group's efforts are appropriately integrated as 
we approach the end of FIRP in 2011.
           pit production capability and modern pit facility
    Question. In his testimony before the Strategic Forces 
Subcommittee, on March 24, 2004, Admiral Ellis, USN, Commander, United 
States Strategic Command, while discussing the aging effects on 
plutonium, stated that ``[w]e assume that there's some risk in any 
significant delay to the current design of the Modern Pit Facility. 
Some would argue that we are accepting unacceptable risk by not having 
it in operation until the end of the next decade.''
    Please describe the progress being made on the environmental impact 
statement and design work for a Modern Pit Facility.
    Answer. If confirmed, I look forward to reporting back to the 
committee as I have not been fully briefed on this matter. However, I 
do know that on January 28, 2004, the NNSA announced a delay of 
unspecified duration in the release of the MPF-EIS and selection of a 
preferred host site location.
    Question. Please describe what process should be used to 
communicate military requirements on the Modern Pit Facility from DOD 
to DOE.
    Answer. While I have not been briefed on these issues, nuclear 
weapons requirements are coordinated through the joint DOE/DOD Nuclear 
Weapons Council (NWC). Primary duties of the NWC are to prepare nuclear 
weapons stockpile plans, to include the size and composition of the 
stockpile in the out years, and to recommend these plans for approval 
by the Secretary of Defense, the Secretary of Energy, and ultimately, 
the President. As I understand it the NWC regularly receives and acts 
on information concerning the Modern Pit Facility. This includes 
information on its appropriate size, timing, and capabilities.
             environmental restoration and waste management
    Question. What responsibility does NNSA have for managing and 
disposing of its current and future hazardous waste streams and 
environmental restoration?
    Answer. NNSA is responsible for environmental operations at NNSA 
facilities, including managing waste streams from its activities and 
decontamination/decommission of surplus facilities. It is my 
understanding that NNSA assumed responsibility for five of its sites 
from the Office of Environmental Management during the late 1990s for 
disposing of waste from the ongoing operations. In fiscal year 2006, an 
additional two NNSA sites will take over that responsibility.
    Question. What specific steps is NNSA taking to phase these 
activities into its planning budgets in view of the cap DOE has placed 
on the activities of its Environmental Management (EM) program?
    Answer. It is my understanding that part of the fiscal year 2006 
DOE budget planning process, NNSA is working with DOE's Office of 
Environmental Management to develop a plan to transition all EM 
responsibilities at NNSA sites to the NNSA. A new office within NNSA's 
Office of Infrastructure and Security (NA-50) has been assigned 
responsibility for evaluating NNSA's liability and coordinating the 
transition. If confirmed I will fully engage in this process and report 
back to the committee that progress.
    Question. What is the current plan, including milestones, to ensure 
that this responsibility is clearly identified and integrated into NNSA 
planning?
    Answer. Again, it is my understanding that NNSA's Office of 
Infrastructure and Security has developed a field data call for fiscal 
year 2006 EM activities consistent with NNSA's PPBE process. NNSA will 
independently analyze environmental management requirements at its 
sites and integrate these new budget responsibilities into the fiscal 
year 2006 budget request and Future Years Nuclear Security Plan.
               defense nuclear nonproliferation programs
    Question. In your view, are any policy or management improvements 
needed in the Defense Nuclear Nonproliferation Programs? If so, what 
improvements would you recommend?
    Answer. Uncosted balances remain a management challenge that all 
programs face. The Office of Defense Nuclear Nonproliferation (DNN) 
needs to continue to address its uncosted balances and implement and 
revise the practices it has created to reduce them.
    Question. In the National Defense Authorization Act for Fiscal Year 
2002, the Department of Energy (DOE) was authorized to use 
international nuclear materials protection and cooperation program 
funds outside the borders of the former Soviet Union (FSU).
    Do you anticipate DOE will use this authority? If so, in what 
countries and for what purposes?
    Answer. The NNSA Act of fiscal year 2000 directed the DNN to reduce 
the global threat of weapons of mass destruction. Therefore, it is my 
understanding that DNN's mission is global. The National Defense 
Authorization Act for Fiscal Year 2002 further strengthens DNN's 
ability to continue working on Material Protection, Cooperation, and 
Accounting (MPC&A) activities throughout the world. Pursuant to the 
President's fiscal year 2005 budget, DNN plans to support MPC&A work in 
countries of concern worldwide.
                       national ignition facility
    Question. The National Ignition Facility (NIF) is scheduled to 
reach ignition by 2010 using a new cryogenics target technology.
    In your opinion, is this technology feasible, and if confirmed, 
would you support restructuring the NIF budget to reduce the overall 
cost of the project with the goal of completing the project sooner than 
the current schedule would allow?
    Answer. I have not been fully briefed by the Defense Programs staff 
on all technical details of the program for achieving ignition on the 
NIF. However, it is my understanding that NNSA scientists regard 
ignition as a great scientific challenge, and they are confident that 
they will ultimately be successful. Based upon preliminary briefings 
with the Defense Program's staff, I have not been presented with a 
reason at present to restructure the NIF Project. The current budget 
plan for stockpile stewardship strikes a proper balance in schedule and 
resources for addressing this challenge.
    Question. In your view, does the scientific information offered by 
the NIF program provide enough value to justify its cost as part of the 
Stockpile Stewardship Program, even if the NIF does not reach ignition?
    Answer. Yes, at present NIF is the only facility that can 
reasonably be expected to approach the conditions of temperature and 
pressure attained in a nuclear weapon, and that makes it essential for 
stockpile stewardship even though it costs several billion dollars to 
construct. I understand from our scientists that there are many 
important stockpile areas that can be investigated without requiring 
ignition. One such area that provides value is the physical properties 
of weapons-related materials. There are similar needs in the field of 
nuclear engineering, with which I am familiar, but here the conditions 
of temperature and pressure are much higher.
    Question. Would you agree that the NIF is a key Stockpile 
Stewardship facility?
    Answer. Yes, as a nuclear engineer, I realize how important it is 
to have a facility like NIF to investigate issues in a regime 
approaching that found in a weapon. It will also be an important 
facility for training and maintaining the expertise of weapons 
designers.
    Question. In your view, if the NIF fails to reach ignition, does 
that preclude us from being able to certify a nuclear weapon, without 
underground testing in the future?
    Answer. While I believe the ability to certify a nuclear weapon 
without underground testing in the future depends on many factors 
including NNSA's plans to achieve ignition on NIF. I have not been 
fully briefing on all of the issues associated with the scientific 
impacts if NIF fails to achieve ignition. However, I do understand that 
NIF is already providing good scientific data for the Stockpile 
Stewardship Program. Our future ability to certify the safety, 
security, and reliability of our nuclear weapons stockpile using 
science based judgments, without underground testing will depend on our 
ability to continue to conduct a program of these types of activities, 
including NIF. We must maintain confidence that the program is 
providing us all the information needed to certify the ability of the 
weapon to perform its assigned mission.
    Question. In your opinion, could the NIF meet its goal of ignition 
with a number of lasers below the 192-laser design?
    Answer. I understand from NNSA scientists that the full 192 beam 
NIF is needed to reach ignition. It is not so much a matter of the 
laser energy as it is the configuration of the laser beams that 
requires the full set of 192 beams. All the beams are needed so that 
the NIF target can be illuminated as planned.
                        nuclear weapons testing
    Question. Do you support the current moratorium on testing?
    Answer. Yes, I fully support the current moratorium on testing. 
Based on the briefings I have received, the Stockpile Stewardship 
Program is working today to ensure the continued safety, security and 
reliability of this Nation's nuclear deterrent without returning to 
full scale testing.
    Question. Do you believe that there is a need at the present time 
to resume underground nuclear weapons testing to support the current 
stockpile or to support new or modified nuclear weapons?
    Answer. At the present time there is no need to resume underground 
nuclear weapons testing to support the current stockpile. As I 
understand it, there are no requirements from the Department of Defense 
for any new nuclear weapons and that the ongoing Life Extension 
Programs (W87, B61, W80, W76) and the work associated with the Robust 
Nuclear Earth Penetrator do not require a resumption of underground 
nuclear testing.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy 
Administrator for the National Nuclear Security Administration?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Jerald S. Paul follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 3, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jerald S. Paul, of Florida, to be Principal Deputy Administrator, 
National Nuclear Security Administration. (New Position)
                                 ______
                                 
    [The biographical sketch of Jerald S. Paul, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Jerald S. Paul
    Representative Paul was elected to the Florida House of 
Representatives in 2000. During his first 2 years in the Legislature, 
Representative Paul served as Deputy Majority Whip.
    He chairs the House Subcommittee on Agriculture and Environment 
Appropriations and chairs the House Subcommittee on Environmental 
Regulation. He also serves on the following committees: Energy, 
Appropriations, Business Regulation, Natural Resources, Procedures, 
Rules and Public Security.
    Representative Paul holds a Bachelor's Degree in Marine Engineering 
from Maine Maritime Academy, a Merchant Marine Academy in Castine, 
Maine, where he also completed a minor in Nuclear Power Operations. He 
later earned a post baccalaureate degree in Nuclear Engineering from 
the University of Florida where he graduated with high honors and 
completed his thesis titled ``Neutronics Analysis of A Liquid Bonded 
Nuclear Fuel.'' He formerly worked as a Reactor Engineer at power plant 
reactor units where he was responsible for nuclear fuel operations 
activities and reactor core operations activities. He is a practicing 
attorney having received his Juris Doctor of Law from Stetson 
University College of Law.
    He represents Florida on the Southern States Energy Board. 
Representative Paul has been appointed to represent Florida on the 
National Conference of State Legislators Committees on Environment and 
Natural Resources and was most recently appointed by the U.S. 
Department of Energy to serve as a member of Secretary Abraham's 
Nuclear Energy Research Advisory Committee.
    In his first year as a State Representative, Florida Trend magazine 
recognized Representative Paul as one of the top eight newly elected 
legislators in the Florida House of Representatives ``who could shape 
government until 2008.'' That same year the Florida Chamber also 
recognized Representative Paul as one of the Top 20 newly elected 
legislators.
    Representative Paul's wife, Kristy, is an elementary school teacher 
and they have two children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Jerald S. Paul 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jerald Scott (``Jerry'') Paul.

    2. Position to which nominated:
    Principal Deputy Administrator, National Nuclear Security 
Administration.

    3. Date of nomination:
    February 3, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 26, 1966; Lancaster, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married since 1988 to Kristina Lee Paul; Maiden name of wife: 
Kristina Lee Holmbeck.

    7. Names and ages of children:
    Son, Jared Duane Paul, 9 years old.
    Daughter, Lauren Elizabeth Paul, 6 years old.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    04/1992-12/1994--Stetson University College of Law, St. Petersburg, 
Florida, Degree: Juris Doctor of Law (12/1994).
    08/1989-12/1990--University of Florida, Gainesville, Florida, 
Degree: Post Baccalaureate Degree Nuclear Engineering (12/1990).
    08/1985-04/1989--Maine Maritime Academy, Castine, Maine, Degree: 
B.S. Marine Engineering (04/1989), Minor 1: Nuclear Power Operations, 
Minor 2: Power Control Engineering.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    11/2000-Present, Employer: Florida Legislature, Location: 
Tallahassee, Florida, Title/Description: Elected State Representative.
    05/1996-Present, Employer: Mckinley, Ittersagen, Gunderson and 
Berntsson, P.A., Location: Port Charlotte, Florida, Title/Description: 
Law Partner (Civil Practice, Government, Administrative Law).
    12/1994-05/1996, Employer: Charlotte County Attorney Office, 
Location: Port Charlotte, Florida, Title/Description: Attorney 
(Government, Administrative, Environmental, Land Use Law).
    05/1994-07/1994, Employer: Sarasota County Attorney 
Office,Location: Sarasota, Florida, Title/Description: Law Clerk 
(Government, Administrative, Environmental, Land Use Law).
    01/1994-05/1994, Employer: Fowler, White, et al. Law Firm, 
Location: Tampa, Florida, Title/Description: Law Clerk (Admiralty/
Maritime Law).
    01/1991-04/1992, Employer: Georgia Power Company, Location: E.I. 
Hatch Nuclear Plant, Baxley, Georgia, Title/Description: Reactor 
Engineer.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Department of Energy Nuclear Energy Research Advisory 
Committee (NERAC).
    Member, Select Committee on Public Security--Florida House of 
Representatives.
    Represent Florida on the Southern States Energy Board (Since 2000).
    Chair Subcommittee on Environmental Regulation, Florida House of 
Rep.
    Chair Subcommittee on Environmental Appropriations, Florida House 
of Rep.
    Represent Florida on the National Conference of State Legislators, 
Committees on Environment and Natural Resources.
    Serve on following committees in Florida House of Representatives: 
Energy, Natural Resources, Rules, Procedures, Appropriations, Business 
Regulation.
    Served on Public Utilities Advisory Committee, Sarasota County, 
Florida.
    Served as legal counsel and provided legal counsel to the following 
governments: including Charlotte County, Florida; City of Punta Gorda, 
Florida; Gasparilla Island Bridge Authority; Charlotte County School 
Board; Englewood Water District.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner: Law firm of Mckinley, Ittersagen, Gunderson & Berntsson, 
P.A.
    Managing Member: J&K Paul Family, Limited Liability Company (LLC).
    Managing Member: Capitol Energy, LLC.
    Member: Sibling Rivalry, LLC.
    Member: Advisory Committee for University of Florida Department of 
Nuclear and Radiological Sciences
    Member: Advisory Committee for University of Florida College of 
Engineering
    Clients whom I represent or provide legal consultation: Charlotte 
County Government, Charlotte County Tax Collector, Gasparilla Island 
Bridge Authority, Placida Church of God, J&J Homes, Cape Haze Marina 
Bay, Hollis Kachler, Jr., Pamela Johnston and Family, and Bocilla 
Utilities.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Current:
      Florida Bar.
      Florida Blue Key.
      Rotary International Service Organization.
      Charlotte Harbor Environmental Center Board of Directors.
      Big Brothers/Big Sisters of Southwest Florida Board of Directors.

    Former:
      Tau Beta Pi Engineering Honor Society.
      Alpha Nu Sigma Nuclear Engineering Honor Society.
      Phi Delta Phi, International Legal Honor Society.
      Law Review, Stetson University College of Law.
      American Society of Naval Engineers (ASNE).
      American Society of Naval Architects and Marine Engineers (ASME).
      American Nuclear Society (ANS).
      Charlotte County United Way, Board of Directors.
      Englewood Chamber of Commerce, Board of Directors.
      Charlotte County Chamber of Commerce, Government Affairs 
Committee.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I am serving my second term as an elected State Representative, 
Florida House of Representatives. I have not been a candidate for other 
public office(s).
    I served as Deputy Majority Whip (2000-2002) in the Florida House 
of Representatives.
    Committeeman: Sarasota County Republican Executive Committee (1991-
1994).
    Committeeman: Charlotte County Republican Executive Committee 
(1994-Present).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None, other than listed in section 13(a), above.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    N/A.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Alpha Nu Sigma, Nuclear Engineering Honor Society.
    Dr. Glenn Schoessow Nuclear Engineering Honorary Scholarship.
    Tau Beta Pi, Engineering Honorary Society.
    Order of The Engineer, Engineering Honorary Society.
    Institute of Nuclear Power Operators (INPO) Scholarship.
    John Hancock Engineering Honorary Scholarship.
    American Society of Naval Engineers (ASNE) Scholarship.
    Albian S. Coffin Math Achievement Scholarship.
    Maine Maritime Academy Academic Scholarship.
    Phi Delta Phi, International Legal Honorary Society.
    Navy Expert pistol qualification award

    Certifications/Licenses:
      U.S. Coast Guard 3A/E Engineer License.
      3rd Class Engineer License--State of Maine.
      Certified Nuclear Fuel Inspector.
      Nuclear Power Plant Root Cause Analysis.
      Licensed Boiler Operator License.
      Florida Bar License (Federal and State Court).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Neutronics Analysis of Liquid Bonded Nuclear Fuels (1990):
      Research for High Honors Thesis at University of Florida, 
compiled and published as part of a topical report with James S. 
Tulenko, Richard Wright, Glenn J. Schoessow, Jerald Paul, University of 
Florida Department of Nuclear Engineering Sciences, presented at The 
American Nuclear Society International Topical Meeting on LWR Fuel 
Performance in Avignon, France April 21-24, 1991.

    Stetson Law Review Local Government Symposium, Published at Vol. 
23, Spring 1994, No.2:
      1. Environmental Law: Davey Compressor Co. v. City of Delray 
Beach, 613 So. 2d 60 (Fla. 4th DCA 1993).
      2. Land Use Planning & Zoning: Corn v. City of Lauderdale Lakes, 
997 F. 2d 1369 (11th Cir. 1993).
      3. Land Use Planning & Zoning: Lee County v. Sunbelt Equities, 
II, LTD. Partnership, 619 So.2d 996 (Fla. 2d DCA 1993).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Submitted herewith.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Jerald S. Paul.
    This 13th day of February, 2004.
                                 ______
                                 
    [The nomination of Jerald S. Paul was reported to the 
Senate by Chairman Warner on May 12, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 22, 2004.]


TO CONSIDER THE NOMINATIONS OF TINA WESTBY JONAS TO BE UNDER SECRETARY 
OF DEFENSE (COMPTROLLER); DIONEL M. AVILES TO BE UNDER SECRETARY OF THE 
   NAVY; JERALD S. PAUL TO BE PRINCIPAL DEPUTY ADMINISTRATOR OF THE 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION; WILLIAM A. CHATFIELD TO BE 
 DIRECTOR OF THE SELECTIVE SERVICE; AND MARK FALCOFF TO BE A MEMBER OF 
                 THE NATIONAL SECURITY EDUCATION BOARD

                              ----------                              


                         TUESDAY, MAY 11, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Graham, Cornyn, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Dayton, Bayh, and Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Before I turn to the matters at hand, and 
a quorum being present, I ask the committee to consider five 
civilian nominations: Tina Jonas, to be Under Secretary of 
Defense (Comptroller); Dionel Aviles, to be Under Secretary of 
the Navy; Jerald Paul, to be Principal Deputy Administrator of 
the National Nuclear Security Administration; William 
Chatfield, to be Director of the Selective Service; and Mark 
Falcoff, to be a member of the National Security Education 
Board. All of these nominations have been before the committee 
the required length of time.
    Is there a motion to favorably report the nominations?
    Senator Levin. So moved.
    Chairman Warner. So moved. Second?
    Senator McCain. Mr. Chairman, I reserve the right to 
object, and will not object except to say that I will hold 
these nominations until we get the requested information that 
has been outstanding for a long period of time now concerning 
communications on the Boeing issue. I won't waste the time of 
the committee much longer, but we're approaching a time where I 
will be asking a vote of the committee to see whether we 
subpoena these documents or not.
    Chairman Warner. Senator, you have been straightforward in 
that. I've done my best to date, and will continue to help you 
gain that material. But you have kept the chairman and the 
ranking member informed continuously of your views.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Warner. The issue of the nomination is before the 
committee. All in favor, say aye. [A chorus of ayes.]
    Opposed? [No response.]
    Ayes have it. The nominations are now proceeding to the 
floor.
    [The nomination reference of Tina Westby Jonas follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                    March 11, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Tina Westby Jonas, of Virginia, to be Under Secretary of Defense 
(Comptroller), vice Dov S. Zakheim, resigning.
                                 ______
                                 
    [The nomination reference of Dionel M. Aviles follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                  February 6, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dionel M. Aviles, of Maryland, to be Under Secretary of the Navy, 
vice Susan Morrisey Livingstone, resigned.
                                 ______
                                 
    [The nomination reference of Jerald S. Paul follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                  February 3, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jerald S. Paul, of Florida, to be Principal Deputy Administrator, 
National Nuclear Security Administration. (New Position).
                                 ______
                                 
    [The nomination reference of William A. Chatfield follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                 September 3, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William A. Chatfield, of Texas, to be Director of Selective 
Service, vice Alfred Rascon, resigned.
                                 ______
                                 
    [The nomination reference of Mark Falcoff follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                  February 5, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Mark Falcoff, of California, to be a Member of the National 
Security Education Board for a term of 4 years, vice Cornelius P. 
O'Leary, term expired.

    [Whereupon, at 9:38 a.m., this executive session was 
adjourned in order to take up the matter of allegations of 
Iraqi prisoner abuse.]


 NOMINATION OF GEN GEORGE W. CASEY, JR., USA, FOR REAPPOINTMENT TO THE 
    GRADE OF GENERAL AND TO BE COMMANDER, MULTI-NATIONAL FORCE-IRAQ

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Allard, Sessions, Collins, Talent, Chambliss, Dole, 
Levin, Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, 
Dayton, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Elaine A. 
McCusker, professional staff member; Paula J. Philbin, 
professional staff member; Lynn R. Rusten, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; and Michael J. McCord, professional staff member.
    Staff assistants present: Bridget E. Ward and Pendred K. 
Wilson.
    Committee members' assistants present: Darren M. Dick, 
assistant to Senator Roberts; Arch Galloway II, assistant to 
Senator Sessions; James P. Dohoney, Jr., assistant to Senator 
Collins; Lindsey R. Neas, assistant to Senator Talent; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Christine O. Hill, 
assistant to Senator Dole; Russell J. Thomasson, assistant to 
Senator Cornyn; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; William Todd Houchins, 
assistant to Senator Dayton; and Andrew Shapiro, assistant to 
Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning all. I first want to join 
with the ranking member and all members of the committee in 
thanking our respective staffs for the extraordinary work that 
they performed in assisting each of us individually and 
collectively such that we were able to achieve, after 16 days 
of hearings, a bill last night representing the Senate's 2005 
authorization for the men and women of the Armed Forces. It was 
quite a feat.
    I have one other issue to address this morning, and I have 
discussed this with the ranking member. I went back over 
several transcripts of earlier hearings, and there are clear 
passages where, in the course of the questions being propounded 
by Members of the Senate, the witnesses are literally 
struggling to provide the answer, but time was insufficient 
within which to put into the record the full breadth of the 
witness's response before the Senator went on to a successive 
question. The ranking member and I are going to ask our 
colleagues to be a bit more cautious as we question our 
witnesses to give them the full opportunity to respond.
    In any event, we have had a wonderful start to today's 
hearing. We have had the privilege of meeting with the General 
and his wonderful family. I think the best way to start here, 
General, is simply to say that we are meeting to consider your 
nomination to be the first--and I underline ``the very 
first''--Commander of Multi-National Force-Iraq (MNF-I), an 
important new position established to oversee U.S. and 
coalition military activities in Iraq. These military 
activities, as a part of the Multi-National Force, were first 
authorized by the United Nations (U.N.) Security Council 
resolution 1511 in October 2003 and reinforced and extended by 
the U.N. Security Council resolution 1546, which was passed 
unanimously on June 8, 2004.
    The Commander of MNF-I will also be responsible for 
coordinating military and security activities with the new 
interim Iraqi government following the transfer of sovereignty 
on June 30.
    So we welcome you, General, again back before the 
committee, given that you have just been before us for your 
important position which you presently hold. I would like to 
ask if you would kindly introduce your family who have joined 
you at this important hearing today.
    General Casey. Thank you very much, Senator. I would like 
to start by introducing my wife of 34 years, Sheila. Since 
Sunday is our anniversary, I would like to take this 
opportunity to thank her publicly for all the love and support 
that she has given our family and me over the last 34 years and 
for all she has done for Army soldiers and families over that 
period of time. She has managed to do all that and have a 
career at the same time.
    Chairman Warner. That is wonderful.
    General Casey. My son Sean and his wife Jennifer, and my 
son Ryan. They are the parents of our five grandchildren who 
are the apples of our eyes, and I am very proud of both of 
them. Sheila's sister, Clare O'Brien, and her husband Dick. 
They have the distinction of being both family and friends. So 
it's great to have everybody here with us.
    Yesterday Ambassador Negroponte at his swearing in said 
that he was going to Baghdad, but he was not going alone 
because of the support his family gave him, and I feel the same 
way.
    Chairman Warner. I think that is wonderful. This committee 
is very family-oriented, and we appreciate each of you finding 
the time to join us today. This is an important milestone not 
only in the career of General Casey, but an important milestone 
in the efforts of our Nation towards providing freedom for the 
Iraqi people.
    I understand, Senator Roberts, that your son is a close 
friend of the family and has joined with us today.
    Senator Roberts. Yes, sir, he is. I am looking over the 
room. I am not quite sure where he is right now, but that has 
not changed much in about 31 years. [Laughter.]
    But at any rate, he just got married a couple of weeks ago, 
and we were delighted to have the General's son down to 
Shreveport for a small wedding of 750 people.
    I am delighted to see you here, General.
    General Casey. Thank you, Senator.
    Senator Roberts. Welcome to your family and to David's 
fraternity brother.
    Chairman Warner. Well, I thank you, colleague.
    Our nominee today is especially well qualified for his 
challenging position. He currently serves as Vice Chief of 
Staff of the United States Army. He has been extensively 
involved in preparing Army troops for deployment to Iraq. He 
just returned from a trip to the region with Deputy Secretary 
Wolfowitz over the weekend.
    Prior to his current assignment, the nominee was the 
Director of the Joint Staff and has also served as the Director 
for Strategic Planning, J-5, on the Joint Staff, and as 
Commander of the Joint Warfighting Center in Suffolk, Virginia, 
developing joint concepts and doctrine for joint and combined 
warfare.
    Additionally, General Casey served as Commander, 1st 
Armored Division, garrisoned in Germany during the operations 
in the Balkan region.
    At this time next week, the sovereignty of Iraq will have 
formally passed to an interim Iraqi government as Iraq 
continues its path to elections and a hopeful democratic 
future. The past few months have been particularly challenging 
from the continuing violence against the coalition military 
forces, against the new interim government, against innocent 
civilians, and most importantly, against our own coalition 
forces.
    We are reminded that the security situation in Iraq remains 
tenuous and that Iraq continues to be a very dangerous place 
for our American forces, as well as coalition forces and, 
indeed, for the civilians, the contractors, and many others, 
which is an essential infrastructure for the overall military 
operations.
    We are fortunate to have a nominee, as I said, with all of 
these qualifications.
    I am going to ask Senator Levin at this point in time if he 
would provide us with his opening comments.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Thank you also for 
your leadership in shepherding through our annual defense 
authorization bill which was passed last night by a unanimous 
vote. That is a real tribute to you. It is also a tribute to 
our staffs. They have done a superb job, and you made that 
clear last night on the floor as well. I know all the members 
of our committee who worked so hard on this bill, and who also 
made it possible for the bill to have unanimous support, join 
us in thanking our staffs for their work on this bill last 
night and in the months before.
    Chairman Warner. It was team effort, Senator, and you were 
my partner in it. I am very proud of the manner in which so 
many of our committee members came over and actively 
participated in that process.
    Senator Levin. Let me join you also in welcoming and 
congratulating General Casey and his wife, Sheila, their 
family, and their friends on his nomination for such a vital 
position. It is vital to the future of our country, of the 
world, and to the future of Iraq.
    I join you, Mr. Chairman, in thanking particularly his 
family for their support of General Casey. Without their 
support, as we know, nobody can take on the responsibilities 
that General Casey has and will take on.
    I believe that General Casey is the right person to be the 
Commander of the Multi-National Force in Iraq. He has the 
tactical skills, having commanded at all levels from platoon to 
division. He has the staff skills, as he knows the Pentagon 
well, having served as the Director of Political Military 
Affairs on the Joint Staff and later as the Director of the 
Joint Staff. He has the educational background in international 
affairs. He has had international exposure, including in the 
Middle East with the United Nations. He understands the 
importance of coalitions, and the nuances of coalition command 
and coalition building. He understands the complexity of 
dealing with the diverse Iraqi factions.
    A major challenge for you, General Casey, will be 
establishing the relationship between the coalition forces and 
a newly sovereign but interim government. The letters from 
Secretary Powell and Prime Minister Allawi annexed to the U.N. 
Security Council resolution speak of coordinating bodies at the 
national, regional, and local levels. How will they function? 
Who will adjudicate disputes? What will be the command 
relationships? What will be the legal status of the coalition 
military forces and of American civilian security contractors? 
Will you, General Casey, have authority over those contractors? 
How will you and Ambassador Negroponte divide responsibilities? 
Who adjudicates differences there?
    Military commanders have been ordered to reorient 
priorities from offensive operations against the insurgents to 
training of Iraqi security forces. Allegedly some of our 
commanders feel that their forces are stretched thin and 
insurgents are taking advantage of that fact. There are many 
concerns which arise as a result.
    Those challenges are identified here just simply to 
demonstrate the complexity and the broad range of problems that 
you are going to leap right into as soon as you are there. I 
have great confidence that you are going to do an outstanding 
job as Commander of the Multi-National Force. I have confidence 
that you will tell us whether the force levels are high enough, 
that you will be frank and direct on this issue with us at all 
times. You will tell us when you need more, and what you need 
more of, and who you need more of and what missions perhaps 
cannot be carried out as they should be because you do not have 
enough people or equipment. We are going to rely on you heavily 
to give us that in an unvarnished fashion.
    Again, I congratulate you. I look forward to joining our 
chairman promptly in bringing your nomination to the floor and 
in seeing you confirmed.
    Chairman Warner. Thank you, Senator Levin.
    This morning a group of us, Senator Levin and others, met 
with the President, and I raised the question of the status of 
forces agreement (SOFA). The very candid response by the White 
House was that while they had not achieved the conventional 
type of status of forces agreement, they felt that the 
extension of certain other documentary things relating to this 
issue would be sufficient.
    I hope that you put your own personal attention to that 
because it is terribly serious. Our forces are following the 
orders of their commanders, and they might well participate in 
some operation which eventually could come under the scrutiny 
of the future Iraqi judicial system, and we have got to provide 
the protection for our forces, as well as the coalition 
members.
    I would like now to propound the series of advance 
questions. You have answered those questions and provided for 
the record the responses. So we need not go over each of those 
questions.
    But we do have the other questions which we always ask our 
nominees, and I shall now tend to that.
    Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    General Casey. I have, Senator.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Casey. I have not, Senator.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record and hearings?
    General Casey. I will, Senator.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Casey. I will.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or briefings?
    General Casey. They will.
    Chairman Warner. Do you agree when asked before any duly 
constituted committee of the United States Congress to give 
your personal views, even if those views differ from the 
administration in power and which you are serving?
    General Casey. I will, Senator.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee of 
the United States Congress or to consult with the committee 
regarding the basis for any good faith delay or denial in 
providing such documents?
    General Casey. I do.
    Chairman Warner. Now, General Casey, we are pleased to 
offer you the opportunity to make an opening statement, if you 
so desire.

 STATEMENT OF GEN GEORGE W. CASEY, JR., USA, FOR REAPPOINTMENT 
  TO THE GRADE OF GENERAL AND TO BE COMMANDER, MULTI-NATIONAL 
                           FORCE-IRAQ

    General Casey. Thank you very much, Mr. Chairman, Senator 
Levin, distinguished members of the committee. I would like 
just to make a short opening statement here.
    I must say, though, it is much more comforting having the 
other Service Vice Chiefs on my flanks here. [Laughter.]
    First of all, I am honored by the confidence of the 
President and the Secretary of Defense in forwarding my 
nomination to the committee to serve as the first Commander of 
the Multi-National Force-Iraq. I appreciate your thoughtful 
consideration of the nomination.
    If confirmed, I look forward to our continued close 
consultation in the time ahead and I will strive to work in 
concert with you as I have in my current job as the Vice Chief 
of Staff of the Army.
    In that regard, I would like to thank you for your 
continued support of the men and women of the United States 
Army. In my duties as the Vice Chief of Staff, I recently had 
the opportunity to travel to Iraq to meet with our soldiers and 
leaders. I can assure you that these great young Americans are 
fully and faithfully discharging their duties in both Iraq and 
across the globe in prosecuting the war on terrorism in large 
part due to the unwavering support that you, this committee, 
have provided to them and to their loved ones back home. Thank 
you very much.
    There is no greater honor for a serving officer in the 
Armed Forces of the United States than to command. If I am 
given the privilege of commanding Multi-National Force-Iraq, 
the soldiers, sailors, airmen, and marines from all coalition 
countries will have my unwavering and my untiring support. I 
fully appreciate the depth of their sacrifices, particularly 
those service men and women who have given their lives in the 
effort to create a free, secure, and stable Iraq.
    Thank you very much, Mr. Chairman. I look forward to taking 
your questions.
    Chairman Warner. Thank you very much. We will proceed with 
a 6-minute round.
    Might I say, with the greatest of respect, given that this 
is a new position and the swiftness with which the 
administration understandably had to proceed to fill this post 
and, I think, the somewhat limited time for you to prepare, if 
you in any instance feel the need, you might wish to elect to 
amplify your responses for the record after you have gone back 
and referred to such documents and other sources as to help you 
complete your answer to the question.
    General Casey. Thank you, Senator. I appreciate that.
    Chairman Warner. Now, please describe your command 
relationship with the Commander of Central Command (CENTCOM), 
currently General Abizaid.
    General Casey. Sir, I am his direct subordinate. I work 
directly for General Abizaid.
    Chairman Warner. Direct?
    General Casey. Direct subordinate.
    Chairman Warner. So it is one four-star reporting to 
another four-star.
    General Casey. That is correct.
    Chairman Warner. That has been ironed out and established?
    General Casey. It has been, and we have talked face-to-
face.
    Chairman Warner. No diminution in the command and control 
of the Commander in Chief (CINC) in this particular situation.
    General Casey. None at all. None at all, Senator.
    Chairman Warner. Then describe what you understand your 
relationship will be to the newly appointed U.S. Ambassador, 
Ambassador Negroponte?
    General Casey. Senator, I will be the principal military 
advisor to Ambassador Negroponte. I have it, as one of my main 
priorities, to build a close and cordial relationship with the 
Ambassador so that not only myself, but also myself and my 
staff will work closely with the Ambassador and his staff to 
achieve unity of effort for the United States mission.
    Chairman Warner. How will you interface with the interim 
Iraqi government that will become the legal authority in Iraq 
on 30 June or 1 July?
    General Casey. Sir, that relationship will be one of 
partnership, and as General Abizaid has directed, we will 
transition the relationship from one of occupation to one of 
partnership. As you mentioned earlier, we will build the 
coordination mechanisms that will allow the close cooperation 
and coordination for all policy and operational matters that we 
will have to deal with. But I think your statement is correct. 
We will build that relationship over time here as we go 
forward.
    Chairman Warner. What role, if any, will you have with the 
overall contracting community, those that are performing 
numerous contracts in support of our overall goals of the 
coalition in that region?
    General Casey. Senator, I will have oversight of the force 
protection requirements of the contractors that are there 
fulfilling the military contracts. I would like to take you up 
on your offer there to give you some more specifics for the 
record about what my precise relationship is.
    [The information referred to follows:]

    As the Commander of MNF-I, I supervise all contracting activities 
in support of MNF-I operations throughout Iraq and ensure a secure 
environment for contractors to provide their contractual services to 
the personnel in this command. I set the priorities for contracting 
requirements and activities and ensure that resources are available to 
accomplish contracting goals. It is my responsibility to ensure that 
systems are in place to ensure efficient contract formation, execution, 
supervision, completion, and termination. When necessary, I have the 
authority to initiate disciplinary actions for violations of U.S., host 
nation, and international law. Contractors and the MNF-I share force 
protection information. Contractors are required to continuously 
gather, interpret, and expeditiously disseminate information on the 
security situation throughout Iraq. MNF-I provides threat information 
to contractors, including information on routes, specific threats, and 
general threats. When contractors perform duties on military 
installations, the military provides their perimeter security. When 
contractors are not on military installations they must provide their 
own security.

    Chairman Warner. Now, the respective military commanders of 
their respective units of other nations, will they all report 
through you up to CENTCOM?
    General Casey. They will report through Lieutenant General 
Metz who is the Multi-National Corps Commander. He is directly 
responsible for supervising the tactical and operational level 
operations in the country. So he is the Commander of the multi-
national divisions. He reports to me. I report to General 
Abizaid.
    Chairman Warner. That is very clear.
    I mentioned in the opening statement the status of forces 
agreement, which will not be achievable in the normal--I should 
say the historic framework, although it was sought by this 
country. I can see obvious reasons why this government, newly 
established, is somewhat hesitant to get out too far in front 
on that. There has to be left a period of time within which the 
new government takes root and so forth. But every day is 
critical to that trooper over there under your command.
    So what is your current understanding of the framework of 
agreements that give protection to our troops, and what is your 
understanding of the successive framework that will be 
established, as I have been told this morning by the National 
Security Advisor?
    General Casey. By the successive framework, you mean?
    Chairman Warner. We are currently going to operate on an 
extension.
    General Casey. Right.
    Chairman Warner. I think we have taken some initiatives 
before the United Nations, but thus far they have not been 
fruitful is my understanding to tie that down more firmly. So 
you will be operating on an extension of the existing framework 
of agreements with the coalition council which will be phased 
out fully by June 30. Is that your understanding?
    General Casey. That is correct, Senator. I talked to 
General Sanchez about this subject this morning, because I am, 
as you are, very concerned that we have the appropriate 
protections in place for our armed service members.
    The understanding I have now is that Ambassador Bremer has 
modified his order number 17 to take out the provisions that 
directly drew its authority from occupation law, but still 
provides us with the same protections that we had under the 
original provision. It is his intent to complete the 
negotiation of that prior to his departure on the 30th. Once I 
get there, my intent is to review that document and begin 
working toward a follow-on agreement.
    Chairman Warner. I would urge you, if you have any concerns 
about the adequacy of the protection for the forces under your 
command, that you would communicate those concerns to this 
committee very promptly.
    General Casey. I will do that, Senator.
    Chairman Warner. Lastly, the subject of the North Atlantic 
Treaty Organization (NATO). NATO has a footprint there largely 
through the member nations in NATO as a part of the coalition 
forces, but what role do you envision in addition to its 
current participation?
    General Casey. Senator, I believe we, the United States, 
will make suggestions to NATO that they potentially consider a 
role in training Iraqi security forces, and that would be a big 
help to us if we could get them to do that.
    Chairman Warner. Well, we have a magnificent commander, as 
you well know, in General Jones. I know that he wishes to be 
cooperative, but I might tell you I think member nations have 
not given him quite the degree of support to which he is 
entitled, and I hope that improves in the future.
    Senator Levin.
    Senator Levin. This morning, one of the things we did talk 
to the President about was precisely that topic--seeking that 
kind of greater support from NATO as an organization. 
Hopefully, that will be forthcoming.
    In addition, we raised the issue of trying to get support 
from some Muslim nations to try to get some troops or police or 
other forms of support on the ground there to take away the 
propaganda that the terrorists and the insurgents use that this 
is just a western deal rather than an international, 
multilateral, multi-national deal that involves the Islamic 
world as well. Hopefully that is going to be forthcoming one of 
these days, weeks, or months as well.
    General, let me ask you if you are going to be the 
commander of the Special Operating Forces and the Iraq Survey 
Group as part of your command.
    General Casey. I have been told by General Abizaid that I 
will have tactical control (TACON) of the national forces, the 
national Special Operating Forces that are operating in Iraq, 
and that the Iraq Survey Group will be directly under my 
command.
    Senator Levin. In your prehearing questions, you stated 
that you are going to command General Petraeus in his efforts 
in training and equipping Iraqi security forces. Will the 
resources for the train and equip effort be under your control?
    General Casey. Senator, to the best of my knowledge, not 
all of them. There are police resources that come through the 
Department of State that we will require close coordination 
with them to get those.
    Senator Levin. You made reference in your answers to the 
chairman to the coordinating bodies that are referred to in the 
Powell and Allawi letters that were annexed to the U.N. 
Security Council resolution 1546. Will U.S. forces at any level 
be under the command of any other commander but a U.S. 
commander?
    General Casey. No, Senator, they will not.
    Senator Levin. Will Iraqi forces be under your command?
    General Casey. The Iraqi forces will generally be under the 
command of the Iraqis. They will operate with us. In some 
cases, should the Iraqis choose, they may give us operational 
control over them for a specific mission.
    Senator Levin. There has been a press report that General 
Metz, who is the tactical commander currently under General 
Sanchez, has said that military commanders have been ordered to 
shift their emphasis from offensive operations and raids 
against insurgents to training Iraqi security forces more 
quickly and to protecting and improving infrastructure. Some 
are very much concerned about that move because it could create 
safe havens, for instance, in places like Fallujah.
    Do you know if there has been such a shift? Is that an 
accurate report?
    General Casey. I have not seen that specific report. When 
we were there, we went around and visited each of the 
divisions. There was talk about a lower U.S. profile after the 
1st of July. But at no time did I hear anyone talk about 
shifting from an offensive mind set to a defensive mind set. In 
fact, that would be my main concern here. This is something 
that I am trying to work through in my own mind, and I will 
work through with my commanders, once I get on the ground. But 
we have to maintain an offensive mind set here.
    Senator Levin. Training and equipping is, of course, 
critical. We have got to get those Iraqi security forces 
trained and equipped. That is an essential move. We are hopeful 
that other nations will provide more of those trainers and more 
support for that. That is one of the things which we talked to 
the President about this morning. I am sure you would support 
that effort as well.
    General Casey. Absolutely.
    Senator Levin. Prime Minister Allawi has stated his 
intention to recall several divisions of the Iraqi army. As a 
matter of fact, he had previously opposed the disbanding 
decision of Ambassador Bremer of the Iraqi army. A number of us 
have expressed concerns about that decision to disband the 
Iraqi army also.
    Do you support Mr. Allawi's intention to recall units of 
the Iraqi army after appropriate vetting? Were you involved in 
the decision or aware of the decision to disband that army 
after the war?
    General Casey. I was not involved in the decision, Senator. 
I, like everyone else, was aware of it.
    The discussion of the structure of the Iraqi military was 
one of the main topics of Deputy Secretary Wolfowitz's mission 
to Iraq last week. The outcome of that session or those 
sessions that we had there was conveyed in Prime Minister 
Allawi's press conference of a few days ago.
    It is my understanding that he has basically backed off of 
the idea of recalling full divisions. He has agreed to convert 
the Iraq Civil Defense Corps (ICDC) forces that we have built, 
into national guard divisions. The way they will do that is 
they will put brigade and division headquarters on top of them 
which gives the Prime Minister the opportunity to bring some 
mid-level officers that are vetted back in to fill those 
headquarters.
    Senator Levin. They will have internal security functions I 
assume. Is that not correct?
    General Casey. They will have regional internal security 
functions. That is correct, Senator.
    Senator Levin. You support that?
    General Casey. I do.
    Senator Levin. General Casey, you are going to be 
responsible for the operation of Abu Ghraib and other prison 
facilities in Iraq. That is going to include the responsibility 
for interrogation techniques used by our forces. In your 
capacity as Vice Chief of Staff, were you familiar with those 
abuse reports, and if so, when did you become familiar with 
them? Did you have an opportunity to review the reports of the 
International Committee of the Red Cross (ICRC) relative to Abu 
Ghraib and other facilities in Iraq?
    General Casey. I was aware of the reports, Senator. I was 
made aware of them in mid-January, about the same time everyone 
else----
    Senator Levin. That was the first time?
    General Casey. First time, when everyone else was made 
aware.
    I have seen copies of the ICRC reports, but after I 
actually came up and testified before this committee. So I was 
not privy to those prior to that time.
    Senator Levin. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Senator McCain, indulge me a minute. We are going to, as a 
committee, be briefed this afternoon by the Department of 
Defense on stages of the Red Cross participation. We are going 
to start with the security systems at Guantanamo Bay (GTMO), 
and then in subsequent hearings, we will be covering both the 
Iraq and Afghanistan situations. Those will be closed briefings 
today.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Thank you, General 
Casey, for your outstanding service. We are very grateful that 
you are assuming your new position of incredible 
responsibility, and we are very proud of you.
    We have had a pretty rough last 24 hours in Iraq, have we 
not, General?
    General Casey. Yes, we have, Senator.
    Senator McCain. The situation in Iraq is not exactly as we 
envisioned it to be after our spectacular military victory, is 
it?
    General Casey. It is not how I envisioned it to be, 
Senator.
    Senator McCain. What do you think has gone wrong?
    General Casey. I think the insurgency is much stronger than 
I certainly would have anticipated. I think they have got 
support from external sources. But that is the main difference 
that I see, Senator.
    Senator McCain. There were some of us who felt very 
strongly that we needed more troops in Iraq. I note now that we 
are up to about 140,000. Is that not correct?
    General Casey. That is correct.
    Senator McCain. There are media reports that there is 
contemplation of even more troops, as many as five additional 
brigades. Have you heard that speculation?
    General Casey. I have. I saw that press report yesterday.
    Senator McCain. But you have not been engaged in those 
discussions?
    General Casey. I was actually, Senator. That is not a 
request for forces, as was portrayed in that article. That is 
CENTCOM doing some prudent planning in the event the security 
situation changes, but it is not a request for forces or even 
an informal request for forces that the report portrayed.
    Senator McCain. Do you think we need more forces there?
    General Casey. Senator, I have been on the ground for all 
of 3 days. I do not have a good enough appreciation to give you 
an answer for that. I can tell you that if I get there and 
think I need more, I will ask for more.
    Senator McCain. I would like to go back to Fallujah a 
second. Napoleon had a line. He said, ``If you say you are 
going to take Vienna, take Vienna.'' Right? A couple of months 
ago, the command in Baghdad said that we were going to either 
capture or kill al-Sadr and put out a warrant for his arrest.
    After four American citizens were killed and dismembered in 
Fallujah, the command in Baghdad announced that we were going 
to go in and do whatever was necessary to bring to justice 
those who were responsible for these murders and atrocities, 
and we were going to have Fallujah under control.
    I do not believe, General, that we can make statements and 
then act in an opposite way.
    Apparently this unrest and series of terrorist activities 
are primarily in the Sunni Triangle, at least in the last 24 
hours or so, and all reports I see are that Fallujah is now a 
sanctuary for these people. I believe the agreement was that 
they would turn over their weapons and disband. No weapons have 
been turned over, and militias have control of the city of 
Fallujah.
    How do you explain statements that are made in one way and 
now a situation where, at least in the view of some experts, 
the attacks are being orchestrated from Fallujah?
    General Casey. Senator, I do not have insights into the 
decisionmaking process that led to the current situation. I 
will take your insight, though, not to over-promise what I 
cannot deliver, and I think that is something that I made a 
note of.
    Senator McCain. I am very concerned, as I know you are, 
about this increasing sophistication of the insurgency. I think 
everyone is also aware that we have been unable to secure the 
borders, which, as you mentioned, is one of the contributing 
factors in this influx of foreign fighters. It seems to me, 
General, that we need to make decisions pretty quickly as to 
whether we are going to be able to secure that border or not, 
and if we want that border secured, what it is going to take to 
secure it.
    I have great admiration for everyone who is serving in Iraq 
from General Abizaid on down, but I think you would agree that 
we are in a very critical time as regards the situation in 
Iraq. Success or failure may be dictated by what happens in the 
next few months. Would you agree with that?
    General Casey. I absolutely agree with that, Senator.
    Senator McCain. If you need more help, then I think that 
you ought to ask as quickly as possible. The most disingenuous 
answer I have ever heard in my life was that the commanders on 
the ground did not ask for them. It is not the decision of the 
commanders on the ground. I do not think I have ever met a one-
star General who wanted to be a two-star General that would say 
that he needed more help. So I hope that you will make an 
assessment as quickly as possible as to what your needs are in 
order to successfully bring about this evolution of bringing 
freedom and democracy to the Iraqi people. I do not see how you 
have an environment right now that does not make that 
transition extremely difficult. I would be very interested in 
your thoughts.
    I thank you again for your service and your willingness to 
take on the challenging and daunting task that lies ahead of 
you.
    General Casey. Senator, thank you. That is, from my view, 
two good pieces of advice. Do not promise what you cannot 
deliver, and make a quick assessment and act on it, and I will 
do those.
    Senator McCain. You agree with my assessment about the 
problem on the borders? Is that correct?
    General Casey. I do, Senator. In fact, that was a point of 
discussion during the security discussions we had with Deputy 
Secretary Wolfowitz and the Iraqi security officials. There is 
a clear recognition that we, the Iraqis, and the coalition need 
to do something on the borders.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    General Casey, thank you and your family for being willing 
to accept this command. At the outset of your statement, you 
said there was no greater honor for a soldier than to accept a 
command of this kind. In my opinion there have been few 
soldiers who have accepted a command of this kind that is more 
important to the security of the United States than the one 
that you are accepting now. So I am extremely grateful to you 
for doing that.
    I say that because Iraq has now become a major 
battleground--the major battleground--on the war against 
terrorism. As Senator McCain has just said and you have agreed, 
the next 2, 3, 4 months as this interim Iraqi government 
attempts to assume leadership and is threatened by the Saddam 
loyalists and foreign terrorists, our ability to maintain the 
security that will allow this new Iraqi government to take hold 
is critically important. If the terrorists should gain 
victories here and in the worst case make it impossible for the 
elections to take place and Iraqi self-government to go 
forward, it would be a terrible setback in our war against 
terrorism and in our general pursuit of a stable and peaceful 
world. So I thank you for taking on this critical command at 
this critical moment.
    I want to ask you in that regard to speak about your own 
vision of a strategy for U.S. and coalition forces to achieve 
the improved security environment that we all want throughout 
Iraq. I want to pick up on some of your answers to Senator 
Levin and Senator McCain and particularly to tell you that I 
was encouraged to hear you say that you believe the offensive 
mindset must be continued, because there are stories always 
coming up that we intend to go back to garrisons and the like.
    What does an offensive mindset mean in this case, 
particularly as the Iraqis take over and we have a new 
relationship with the Iraqi security forces themselves?
    General Casey. Senator, for me an offensive mindset means 
that the leaders of the Multi-National Force are constantly 
focused on the enemy and constantly assessing his 
vulnerabilities and what they can do to take advantage of those 
vulnerabilities. That is a continuous process. While we may be 
less visible with our helicopter flights or less visible with 
our patrols, the leaders need to stay focused on the enemy so 
that we can push to get the intelligence we need to conduct 
precise operations with the Iraqi security forces. That is the 
mindset that we cannot lose.
    Senator Lieberman. A few months ago, General Abizaid was 
here with General Sanchez. We asked them what some of their 
main needs were at that point in Iraq, and the answer, I think 
General Abizaid gave, was better intelligence. What is your 
sense of how we are doing there?
    In that regard, I was heartened to see in the last couple 
of weeks, going back to Fallujah, that presumably intelligence 
identified some houses where leaders of the enemy perhaps were 
located, and we hit them from the air.
    So, one, what is your assessment of our intelligence at 
this point? Two, can we expect more offensive actions of that 
kind against the enemy?
    General Casey. It is hard for me to say specifically, 
because I do not have direct visibility of what is going on in 
theater right now, but I think the short answer is General 
Abizaid's and General Sanchez's intent is to continue to seek 
out the foreign fighters and the former regime loyalists and 
attack them where they are. So in general terms I think you 
will continue to see that.
    [The information referred to follows:]

    We are confident in our intelligence assessment that current levels 
of offensive actions by foreign fighters, terrorists, and/or former 
regime elements will remain the same in the near term with spikes in 
the run up to the National Conference, the U.S. Presidential elections, 
and the Iraqi elections. Violence should begin to decline once Iraqi 
security forces become more expansive and proficient and are able to 
increase their control over troubled areas. We expect foreign fighters 
and terrorists to continue their attacks against soft targets such as 
Iraqi Police, the Iraqi Interim Government, and supporters of the 
government. These groups will also continue to conduct attacks against 
coalition forces. We will continue to conduct offensive actions as 
necessary to neutralize, destroy, and eliminate foreign fighters 
terrorists and former regime elements that threaten the security and 
stability of Iraq.

    Senator Lieberman. As you now begin to head over to assume 
your command, are there specific regions within Iraq, based on 
what you know and the visit you made last week, where you have 
greater concerns about security, and if so, what plans do you 
have to improve security in those specific regions?
    General Casey. Certainly the Sunni Triangle, Senator, is 
the area that I believe is my greatest concern. As to specific 
measures to conduct operations within the Sunni Triangle, I 
will have to work those once I get on the ground there.
    I will tell you I have a general idea that if you want 
security, you have to have intelligence, and if you want to 
have intelligence in a counter-insurgency environment, you have 
to change the perceptions of the people, first, toward the 
insurgency and, second, toward the coalition forces. You do 
that through a variety of means where you apply all the 
elements of national power. Then you get the intelligence. Then 
you get the security.
    Senator Lieberman. Well said.
    How about your top operational priorities as you head over 
to assume command of the Multi-National Force-Iraq?
    General Casey. Working with the Iraqi forces to defeat the 
insurgency and training Iraqi security forces are my top two 
priorities. The third priority, in conjunction with the United 
Nations and the embassy, as you said, is the elections.
    Senator Lieberman. Right.
    General Casey. I believe, as you suggested, we are going to 
have to fight to get to the elections. But 80 percent of the 
Iraqi people want to have those elections. They want to elect 
their own government, and we need to help them get there.
    Senator Lieberman. I agree. I have been encouraged by the 
news reports that the Iraqi people are encouraged by the new 
government, Prime Minister Allawi, President Yawer, and we have 
to give them an opportunity to take hold.
    Let me ask you a final question about NATO. I know we have 
a NATO summit coming up. We have made some progress, obviously, 
through the U.N. Security Council resolution in, if you will, 
internationalizing the commitment to a self-governing, stable 
Iraq. But unfortunately, as Chairman Warner indicated earlier, 
our allies still have not been very forthcoming with support.
    Ideally, what would you like from our NATO allies? Troops 
on the ground, money for civilian reconstruction, a more 
fulsome involvement in the training of Iraqi security forces? 
What would be your priority list?
    General Casey. Those all sound good to me, Senator. 
[Laughter.]
    Really, my number one priority for international forces 
would be a brigade for the security of the U.N. mission.
    Senator Lieberman. That is very interesting.
    General Casey. Whether it is a NATO force or if it comes 
from other countries with the U.N., that would be my----
    Senator Lieberman. Right, to create the confidence that 
will bring the U.N. back in and keep them there.
    General Casey. Allows them to set up the elections.
    Senator Lieberman. To do what they do.
    General Casey. Yes.
    Senator Lieberman. General Casey, thanks a lot. I wish you 
the best. To say the least, I know that you and your family are 
in the prayers of all members of this committee and I would say 
of all Americans. Godspeed.
    General Casey. Thank you very much, Senator.
    Senator Roberts. Excuse me, General Casey. All of a sudden, 
it looks like I am presiding.
    General Casey. I am just trying to find out if Dave came 
back. [Laughter.]
    Senator Roberts. What do you need? I can get the gavel, and 
we can get this done. [Laughter.]
    Just let me start by thanking you for being here today and, 
as my colleagues have indicated, for your service to our 
country.
    I do not think anybody has to tell you that you have got a 
very tough job under very difficult circumstances. I do not 
know of a tougher job in regards to our national security than 
the one you are assuming. It is in the midst of the prisoner 
abuse scandals, tough resistance from the insurgents and 
foreign fighters, what I think now is a virtual terrorist 
assault in this next 6-day period, and quite frankly, some 
questions here at home about the mission at hand in terms of 
our resolve, and with the 24-hour news cycle, maintaining that 
resolve may be one of our biggest challenges. That is up to us, 
not to you. But at any rate, it certainly exists.
    We have talked about security being the foundation for 
victory in Iraq. You have just been over there. You came back 
and gave me the benefit of a courtesy call. You were optimistic 
about the caliber of people in regards to the transitional 
government, and we get that from most people who are familiar 
with that situation.
    But I am interested in your assessment of the challenges in 
training and the current effectiveness--and I really want to 
emphasize the current effectiveness--of the Iraqi security 
forces who are going to have to shoulder this burden along with 
us. I know there is a 1,000-member intelligence force and that 
the intelligence head of that force has been conducting public 
hearings with the Iraqi people saying I have no prison, please 
feel free to come to the intelligence security forces, and get 
down on that family and that clan level so they feel free, from 
a security standpoint, to share the intelligence that we need 
so we can better predict the situation on the ground.
    There is a 5,000 member outfit now called the Iraqi 
Intervention Force.
    How far along are we in terms of the current effectiveness 
of these two organizations so that we can, at least, meet the 
challenges of the next 6 days and, as many Senators have 
pointed out, the next 2 or 3 months? I know we are in the midst 
of training. I know we need the NATO training, and I know we 
need more training. But right now, how effective are we in this 
crucial next 6-day period?
    General Casey. Senator, I do not know right now the status 
of that intelligence force. I think, as I mentioned to you, I 
am going out to the agency tomorrow to talk about precisely 
that subject.
    Senator Roberts. Well, they are working overtime on it, I 
can assure you of that, but I think it is absolutely essential.
    Let me touch on something that Senator McCain and Senator 
Lieberman also brought up. I am not sure, as the Iraqi forces 
try to take on more responsibility--and I certainly hope they 
can--in regards to how the practices and the procedures that 
our force operate under change. I am not sure how we do that 
yet. I know pretty much what the plan is or what we would like 
to do. But we are in the midst of a terrorist assault right 
now, and my guess is that will continue for the next 6 days and 
in the 6 months leading up to the election.
    Now, Fallujah is the classic case in terms of being a 
unique challenge. If you go out to Walter Reed and you talk to 
the marines involved who were there, the heroes of the day, 
they indicate we should have the green light. We should have 
been offensive to the point that we took care of that situation 
as opposed to simply pulling back. That echoes the concern that 
was stated by Senator McCain.
    How do you anticipate dealing with such challenges after 
June 30? I know Fallujah is going to be there, and there are 
several other areas in the Sunni Triangle. How are we going to 
do that?
    General Casey. They are currently working now, Senator, to 
set up the consultation mechanisms to allow us to do that. When 
I talked to General Sanchez this morning, he said that he was 
quite comfortable that he has the access that he needs to 
discuss and work through sensitive offensive operations, which 
is what we would call the situation in Fallujah. So they are 
going to have to be discussed, and they are going to have to be 
done in conjunction with the Iraqi security forces, which I 
think will be a great asset to us.
    Senator Roberts. I hope they will be a great asset to us. I 
just think the Iraqi Intervention Force--I hope we can get to 
the training, but I have my doubts in terms of their battle 
effectiveness as of right now.
    General Casey. I think your doubts are justified right now, 
Senator.
    Senator Roberts. I have to say that I am a great fan of 
General Jim Jones, and I am a great fan of what he has tried to 
do and what NATO has done and is trying to do in Afghanistan. I 
think there were 31 nations involved in that. But in terms of 
their commitment, even in Afghanistan, we now find it is short 
of what we need.
    So I am not as sanguine about this in terms of the training 
by NATO. I hope we get that, but I think there ought to be a 
message at the NATO summit that either NATO fulfills its 
obligations--all this talk about out of country operations, et 
cetera. I think we are at a crossroads here, and if we cannot 
get their help in terms of training, I think some pretty 
straight talk is due at that summit. Obviously, you are not 
going to be a participant in that, but that is just my view.
    Thank you for what you are about to undertake, and it is in 
outstanding hands. I wish you godspeed.
    General Casey. Thank you very much, Senator.
    Chairman Warner. Thank you, Senator Roberts.
    Senator Roberts and I had the privilege last night of 
speaking together at a dinner in honor of General Tommy Franks. 
I must say Senator Roberts' speech brought the house down. Mine 
barely propped it up. [Laughter.]
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Casey, thank you for your service to our country, 
and I thank your family for continuing to support you as you 
work to help us achieve freedom across the world and make a 
safer world for all of us.
    In previous times when you have testified, I have always 
thought you have been direct and candid. I think you have been 
today and I think you will be in the future, because you are 
going to be asked to give us your honest impression, your 
honest opinion about where we are and where we are going, 
that's what it is going to take to get us there.
    In the face of the changing nature from occupation to 
partnership, my first question is, do you have any thought 
about what kind of a partnership we have here? Is this an equal 
partnership? Is everybody a senior partner? Or is there a 
senior partner and a junior partner? Are we associates in the 
process, or will that emerge over a period of time?
    General Casey. Senator, I would say that is going to emerge 
over a period of time. We will establish the consultation 
mechanisms and the more we interact, the more sharply the 
relationship will become defined.
    Senator Ben Nelson. But it is probably safe to say that as 
it relates to our military and control of our military, that we 
are not going to be the junior partner in that particular 
respect.
    General Casey. Yes, Senator. All of the U.S. coalition 
forces will be under my command, the command of the Multi-
National Force.
    Senator Ben Nelson. In that regard, it seems to me that as 
we look forward to the transition and getting you international 
support, going to NATO and as part of the NATO summit and 
request for NATO support, that we may have the wrong party 
asking for NATO support. I do not think that our government is 
in a position to get yes for an answer. We have, thus far, have 
not even gotten a maybe.
    It seems to me--and I would like your candid impression of 
this--if the new government of Iraq, following on July 1, were 
to ask NATO for support, that NATO would be more inclined to 
look at it and try to find a way to be supportive as opposed to 
presently being disinclined to respond to our requests or our 
suggestions, if not a formal request. What are your thoughts 
about that?
    General Casey. I think you are exactly right, Senator. That 
specific idea was discussed with the Iraqi leadership, and I 
would not be at all surprised to see a request like you suggest 
prior to the summit.
    Senator Ben Nelson. General Casey, I am pleased you think 
it is a good idea because I wrote Secretary Powell suggesting 
that some time ago, and so it is nice to have some confirmation 
of that.
    In that regard, do you think that it is a possibility that 
NATO could come in and provide the security for United Nations, 
recognizing that we think about NATO support and we talk about 
NATO troops, when the truth of the matter is there are not as 
many NATO troops as people might imagine. How many NATO troops 
do you think could be available if NATO said we will give you 
all that we have?
    General Casey. Senator, I do not have any view on that. I 
would have to check.
    Senator Ben Nelson. But do you think that they could give 
enough at least to provide security, if they were so inclined, 
to do so at the request of the new Iraqi government?
    General Casey. I certainly would hope that even with what 
they are doing in Afghanistan and Iraq that there would be a 
brigade left.
    Senator Ben Nelson. As it relates to the number that we 
have there right now, 140,000 American troops, you have already 
indicated if you think you need more troops, you will ask for 
more. If we had more, would the time frame for the troops being 
there be reduced? Is there some correlation between how many 
troops we have and how fast we can get the job done?
    General Casey. Intuitively you would say yes, but I am not 
sure, having not been on the ground.
    Senator Ben Nelson. But if you find out that is the case, 
you are not going to be reluctant, I take it, to ask for more 
support of troops on the ground.
    General Casey. No, I will not, Senator. I would say that it 
is the training of the Iraqi security forces, as Senator 
Roberts suggested, that is the key.
    Senator Ben Nelson. I think you are right, but what bothers 
me a little bit is that Ambassador Bremer said some time ago 
that that was sort of a hollow support system, that it is 
almost there but not there. Therefore, it is going to take some 
time. Any thoughts about how long it might take to get a 
sufficient Iraq security force so we can begin to reduce our 
presence there?
    General Casey. Actually, as we traveled around to the 
divisions and had our meetings, the division commanders were 
fairly positive in the fact that the equipment that they had 
been needing for so long----
    Senator Ben Nelson. Our division commanders?
    General Casey. Our division commanders--is actually 
starting to flow to the Iraqi security forces in good quantity.
    Senator Ben Nelson. It is fast enough? I was of the 
impression that maybe it is not coming quite as fast as they 
would like it to.
    General Casey. I am sure it is not.
    Senator Ben Nelson. Okay.
    General Casey. But it is coming in good quantity and at a 
good clip.
    I think you will see that we will start getting some 
quality forces. There are some quality forces there in 
different parts of the country now, but I think you will start 
seeing quality forces across the country by late fall.
    Senator Ben Nelson. Well, again, I thank you very much, 
look forward to your service and to work together to find a way 
to support what we are doing in Iraq. We know that we cannot 
afford to lose it, and we do not want to have to keep 
redefining what winning it is. So I thank you very much, look 
forward to working with you. Thank you.
    General Casey. Thank you, Senator.
    Chairman Warner. Thank you, Senator.
    The distinguished Senator from Alabama.
    Senator Sessions. Thank you, Mr. Chairman.
    General Casey, it is great to have you with us, and I am 
delighted that you will be taking charge in Iraq. You are a 
senior officer, a four-star General. I was looking at your 
educational background of Georgetown University and a masters 
in international relations at the University of Denver. You 
were a platoon leader in the 509th Infantry Airborne, a ranger, 
a military observer for a year with the United Nations Truce 
Supervision in Jerusalem, which gave you some insight into the 
Middle East problems. You were a fellow with the Atlantic 
Council for a year. You commanded the 3rd Brigade, 1st Cav 
Division and spent time in Bosnia and Herzegovina. Then the 
Commanding General, 1st Armored Division, and the Joint 
Warfighting Center Commander. Of course, now you are the Vice 
Chief of Staff of the Army. I think it will enable you to be 
more effective in dealing with Washington, more effective 
dealing with our NATO allies, and even our friends in Iraq. 
Your experience and your rank will just be an asset there, and 
I think it is a good decision that you will be going.
    It seems to me that the security situation in Iraq is 
emblematic, or part and parcel, of a group of very tough, 
violent people who, in the past, particularly Saddam Hussein, 
have achieved power by intimidating good people, by killing 
good people, and intimidating them from standing up for 
themselves or being able to maintain a decent government. The 
thugs, through their violence and terror and intimidation, have 
been successful, and Saddam Hussein was a master of that.
    Do you sense that is sort of what we are about, that there 
is a group of good people that would like to see a stable, 
prosperous, free Iraq, and then there is a group of people who 
want to seize power there for whatever reason, whether it is 
religious or secular, money or just power, and somehow we have 
to encourage and embolden the good people to stand firm and 
defeat these people?
    General Casey. I do agree with you, Senator. That is 
exactly the strategy that we need to pursue.
    Senator Sessions. So that does call on us to deal with the 
Iraqi military and Iraqi security police and security forces. I 
was there in August of last year. We emphasized that and went 
out to Kirkuk where they have a remarkable center that is quite 
effective I believe for training military. I thought at the 
time we had too few people moving through and moving too 
slowly.
    Do you see the center as something that we can utilize to 
train? Are you optimistic about being able to train increasing 
numbers of people to a high degree? Do you consider that part 
of your responsibility?
    General Casey. It is clearly my responsibility to assist 
the Iraqis and organize training and equipping of security 
forces. I am sorry, sir. I missed the place, the training 
center.
    Senator Sessions. I believe it is Kirkuk out in the desert 
there about 80-90 miles from Baghdad. It is really an 
extraordinary place. The buildings were, for the most part, 
never completed, but brand new buildings with streets. Saddam 
Hussein never really occupied it, but it is an extraordinary 
facility I thought.
    What about General Petraeus and his relationship there? How 
do you expect to interface with him?
    General Casey. He is my direct subordinate, and he will 
work for me as my principal subordinate for organizing, 
training, and equipping the Iraqi security forces.
    Senator Sessions. I know we are stepping up our efforts to 
train Iraqi police, but they are under brutal attack, because 
if the Iraqi police succeed, the bad guys lose. If the Iraqi 
army succeeds, the bad guys lose. What thoughts do you have 
about how we can go from forces that are capable under certain 
circumstances, but under hostile military attack have not 
performed well? How can we make that transition to move them 
from being capable under certain circumstances, as they are 
today, to a higher level capable of defending themselves and 
bringing fire power against significant hostile forces?
    General Casey. Senator, I would say, first, it will be a 
phased approach. It is not going to happen all at one time 
across the country. It is going to happen in different places 
faster than it is going to happen in others.
    The second point I think I would make, Senator, is that we 
need to maintain our focus on producing quality security forces 
rather than trying to crank out large numbers.
    Third, the equipping piece is a big part of it. We can run 
a 3-week training course, but if the guy does not have a good 
rifle, does not have a uniform, does not have a radio, does not 
have a vehicle, it is really a hollow force. So maintaining our 
focus on quality over quantity I think will help us in the long 
run.
    Senator Sessions. We have had top officials in the Defense 
Department admit that, for various reasons, it has been 
difficult to get the equipment and the weapons necessary for 
our security forces. Will you tell us that if there is a 
difficulty there, you will let us know? Maybe this Congress and 
this Senate can help you get what you need for those people.
    General Casey. Senator, I will.
    Senator Sessions. General, I thank you for your service to 
your country. My time is up. You have a great career. This is 
going to be a tremendous challenge. It is important for the 
world and to the United States that we be successful. I believe 
the vast majority of the people in Iraq do want a good and 
stable and free government. That is what they want. There is a 
tough group out there that want to deny that and seize power 
themselves. It is going to take a lot of skill, military, 
diplomatic, personal, to join our forces with the free Iraqi 
forces to defeat these people. I wish you godspeed.
    General Casey. Thank you, Senator.
    Chairman Warner. Thank you, Senator. I wish to associate 
myself with your closing remarks. They are well stated.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General, I want to thank you also for your willingness to 
assume this responsibility, and thank you for your offer to 
stop by yesterday. I am sorry I had to cancel our meeting. We 
had a series of votes.
    I wanted to take this opportunity, since I was not on the 
floor last night, to thank our chairman and ranking member for 
their successful completion of the defense authorization bill. 
Both of you just did a superb job, and it is an honor to serve 
under both of you. Thank you very much.
    Chairman Warner. Well, you were an active participant.
    Senator Dayton. Well, I was. I went over with these two 
gentlemen to Iraq last July. I will not reveal their ages, but 
they are several years older than I am, and I could not keep up 
with either one of them in 115 degree July weather. So if you 
need a couple of additional troops on the ground, you could not 
do any better, I guarantee. [Laughter.]
    General Casey. I think they are more useful back here. 
[Laughter.]
    Senator Dayton. Well, that might be.
    All of us agree that it is imperative that the United 
States achieve success in this undertaking in Iraq in both 
reality and perception. One of my concerns is that I see just 
incredibly heroic American forces, men and women, have achieved 
the successes that they were initially sent over to achieve and 
the President sent them in for. They overthrew the Saddam 
Hussein regime. They determined that there are no weapons of 
mass destruction that threaten our national security.
    Now it seems that success has been redefined almost in a 
way that makes it much more difficult for us to realize. The 
President noted recently that, ``success is now freedom and 
independence, security and prosperity for the Iraqi people.'' 
How long do you think it would take realistically to achieve 
that measure of success, freedom and independence, security and 
prosperity for the Iraqi people?
    General Casey. Freedom, independence?
    Senator Dayton. Freedom and independence, security and 
prosperity for the Iraqi people.
    General Casey. I would be hard-pressed to put a time limit 
on that, Senator.
    Senator Dayton. I would too, sir. It concerns me because, 
as I say, I think our Armed Forces, the coalition forces 
achieved success. We won the victories that they were initially 
sent over to win, the overthrow of the regime, the capture, 
elimination of Saddam Hussein and his sons, and most of his top 
people, henchmen, and then determining that there are no 
weapons of mass destruction. In my view those are the victories 
that our forces were sent over to achieve. Now they are caught 
in this very much more protracted and nebulous struggle with 
these terms that if I even apply them to our own American 
history, took us years, even decades to realize.
    Another rationale that has been set forth here today by 
some of my colleagues is, ``Iraq has become the major 
battleground in the war against terrorism.'' Another statement 
here today is we are in the midst of a terrorist assault.
    We may by the actions, not of our forces, but by the 
political ineptitude of this undertaking over the last year-
plus have created in Iraq the major front of battleground in 
the world against the forces of terrorism, but that did not, in 
my judgment, exist prior to our invasion of that country. In 
the void, perhaps, that has been allowed to develop there, 
perhaps that is the case.
    But I think we have to be careful with our terminology here 
so we do not misperceive our situation there and misrepresent 
it to ourselves and the American people.
    What percent of the ``insurgents'' are, in your judgment, 
international terrorists and what percent are Iraqis who want 
us out of Iraq?
    General Casey. Senator, again, not having spent a lot of 
time on the ground there, I will give you my judgment, and that 
is, a relatively small percentage are foreign extremists, and 
the majority are former regime loyalists.
    [The information referred to follows:]

    We cannot document this with hard intelligence and cannot prove it 
definitively, but the MNF-I Counterterrorism Team estimates that 10 
percent or less of all fighters in Iraq are associated with Abu Musab 
al-Zarqawi or are considered to be foreign fighters; the remainder are 
a mixed bag of former regime elements, Iraqi Sunnis, Baathists, Shia, 
and others that want the coalition out of Iraq.

    Senator Dayton. Maybe sometime after you have had a chance 
to be there, if you could, update us. Certainly, we cannot 
allow the country to become a breeding ground or a staging area 
for international terrorists whether they are operating there 
or planning assaults against the neighbors in the region or 
against ourselves. But I think it is important to the make that 
differentiation.
    You also talked, sir, about changing the perceptions of the 
Iraqi people toward the coalition forces. You also this morning 
talked about developing a more offensive mindset for our 
forces. Do you see those as compatible or complementary goals?
    General Casey. I do not believe I said a more offensive 
mindset. I said to maintain an offensive mindset.
    Senator Dayton. Continuing.
    General Casey. But it is thinking competitively about an 
enemy. That is the mindset I am talking about. It is not 
necessarily offensive operations all the time. Again, you have 
to keep thinking about your enemy and how you can get an 
advantage on it. That is the spirit of the mindset that I would 
like the force to have.
    Senator Dayton. Let me ask it this way then. Do you think, 
given all that has transpired in the last year, that it is 
possible to change the views of the general Iraqi population, 
whatever those views are? I am sure they are a mixture toward 
the coalition forces.
    General Casey. I do believe it is possible, Senator, 
especially after the 30th of June. We will then be in a 
position of supporting the Iraqi security forces and protecting 
the Iraqi people from the murderers, as you saw today, that 
killed 50 to 70 people today, Iraqis. That is a big difference 
from being an occupier to being a protector of the Iraqi 
people.
    Senator Dayton. I met this last weekend with a dozen 
Iraqis, now most of them American citizens but still all of 
them, in fact, born in Iraq, and some of them now are also 
legal residents of our country in Minnesota. Several of them 
had been in Iraq just in the last couple of months, one of them 
for an extended period of time.
    I guess I would commend the International Red Cross report 
to you for your assessment of what they also related to me 
about the conditions in Iraq. I do not fault our troops. I 
think they are in an impossible situation over there, being the 
police and patrol that they were not trained to be and should 
not have to be, but in the vacuum of that society, they were 
put in that position. The way they have had to interface with 
the Iraqi population, as I say, has been difficult.
    I am trying to understand why is it that over this period 
of a year from the published opinion polls and anecdotal 
reports, the attitude of a lot of the Iraqi population, just 
the regular people toward our presence there has really 
changed. The way in which the 42,000 Iraqis who have been 
incarcerated for some period of time have been apprehended, I 
think is instructive, and also the failure, according to the 
report, of our providing families with information about where 
their loved ones are being held, for how long they are going to 
be held, when they are going to be released, if they are going 
to be released, if they are alive. All of that, I think if you 
take 42,000 people who have had that experience and multiply 
that by family and friends, in my mind anyway, you start to get 
a sizeable group of people that have not had the kind of 
experience that you are going to consider befriending our 
forces. That makes our forces more vulnerable to these kinds of 
attacks.
    Finally, I just would say, based on that conversation as 
well--my time is up--but I commend for your consideration that 
there has been talk here about a NATO force coming in to 
supplement our forces. The Iraqis, in their view, would see 
United Nations forces as far preferable to NATO forces because 
it would be a different complexion. There would be hopefully 
Arab nations participating in that U.N. force. It would be 
truly international. So I hope we can keep in mind the 
advantage, at least as they presented it, of a U.N. supplement 
force rather than just a NATO force.
    Thank you. Good luck, sir.
    General Casey. Thank you, Senator.
    Is there a specific ICRC report that concerned you?
    Senator Dayton. I read off of the web site. I will get you 
a copy, sir.
    General Casey. Thank you.
    Chairman Warner. Thank you very much.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General, let me begin by joining my colleagues in thanking 
you for your willingness to take on what is a daunting and 
dangerous challenge. We very much appreciate your public 
service.
    General, we all awoke this morning to the very bad news of 
coordinated attacks on a number of police stations in three 
different cities in Iraq. Less than a week from now, the 
coalition will complete the transfer of sovereignty to the 
Iraqis. In view of these continuing attacks and the targeting 
of Iraqi police forces, what is your assessment of the ability 
of the new Iraqi army and the police forces to provide security 
for the Iraqi people?
    General Casey. As I said, Senator, right now my assessment 
is that they are not capable of providing security country-
wide. They are capable in different places around the country 
but not countrywide. So as Prime Minister Allawi has asked, 
they need the support of coalition forces for an interim period 
here, as we build strong Iraqi security forces to take the role 
themselves.
    Senator Collins. Is there still a problem with Iraqi forces 
being infiltrated by insurgents and thus, when called upon to 
fight the insurgents, we are finding that it is not clear whose 
side some of the Iraqi police forces are on?
    General Casey. I think you will always have a problem like 
that in the situation we have right now. I did not get a sense 
that it is a severe problem, but it is something that everyone 
is keenly aware of.
    I did hear an interesting report about this 36th battalion 
of the Iraqi Civil Defense Corps (ICDC) that was formed out of 
the representatives from the political parties. So it was 
really a multi-ethnic unit. Because of that, it became self-
vetting. If someone was a bad guy and reporting, the other 
folks were telling on them. That will help us a lot. One of the 
things we talked about in the security discussions was in fact 
vetting. The Iraqis know themselves who the bad guys are, and I 
think it will make a big difference after June 30.
    Senator Collins. I also want to talk to you about security 
from a different perspective. From all reports, we have an 
unprecedented number of private security forces that are 
supplementing our troops in Iraq. Some in fact have suggested 
that private security forces, numbering approximately 20,000 
people, comprise the third largest armed force in Iraq. Does 
our heavy reliance on private sector contractors for security 
suggest that we have either an inadequate number of troops in 
Iraq or the wrong mix of troops on which to draw?
    General Casey. Senator, that is a great question. I do not 
know enough about the private contract security to give you a 
credible answer right now. So I would like to take that one and 
get back with you, if that is okay.
    [The information referred to follows:]

    No. I think we have an adequate number of troops in Iraq, and I 
think we have the right mix of troops. We have enough troops to ensure 
our force protection and accomplish all necessary and required missions 
as we work to obtain security and stability in Iraq. We are taking all 
necessary, appropriate, and available measures to ensure the protection 
of U.S. and multi-national forces. The number of troops and the mix of 
troops are steadily improving due to the training of Iraqi security 
forces and the introduction of additional forces as part of MNF-I. 
Every day the number of Iraqi security forces is increasing. The new 
security forces personnel will contribute to short-term and long-term 
benefits to the command as they assume security missions right away and 
represent the future stability and security of Iraq. The mix of troops 
will benefit from the anticipated arrival of troops from other Arab 
nations.
    I do not think we rely too heavily on private security contractors. 
We have two types of private security contracts in Iraq: reconstruction 
support services contracts (RSSC) and private security detachment 
contracts. The reconstruction support services contracts help ensure 
the safety of contractors and program management office (PMO) personnel 
in Iraq. These contracts are designed to ensure the security and 
protection of PMO personnel and the 10 major prime reconstruction 
contractors and their subcontractors as they deploy, occupy work sites, 
and perform reconstruction activities throughout four regions in Iraq 
(i.e., CPA Baghdad, CPA Central, CPA North, and CPA South). The 
contractor also provides personal physical security protection for PMO 
fixed facilities and personnel. A contractor also protects the 
transportation of cargo from the point of entry in Iraq to the point of 
destination, usually DOD warehouses. Private security detachment 
contracts are necessary due to the special risks associated with 
military service in Iraq, including the risk of capture, kidnap, and 
murder.

    Senator Collins. Does it trouble you or concern you that we 
have such large numbers at a time when it appears we do not 
have an adequate number of military police units, for example?
    General Casey. Again, Senator, I do not know enough about 
the private security contractors to give you a credible answer. 
So I will get back with you on that.
    [The information referred to follows:]

    No. I am not troubled or concerned about the number of private 
security contractors in Iraq. I believe we do have an adequate number 
of military police units. As noted above, the private security 
contracts protect reconstruction activities by other contractors, 
unsure the safe transportation of cargo and provide personal protection 
services. The private security companies are primarily engaged in the 
business of providing security to civilian contractors and their 
materiel. They also provide security inside military facilities, for 
example, building and site access, and provide essential personal 
security for key leaders. The military police units are employed in 
traditional military police roles. They ensure force protection on 
military bases, conduct searches as necessary, operate detention 
facilities, conduct law enforcement missions, and do other missions to 
ensure the security of the force. They are responsible for base 
perimeter security, access to military bases, and other key force 
protection missions. The numbers of military police appear to be 
adequate to accomplish all required missions.

    Senator Collins. Well, it is an important issue to this 
committee and also to the Governmental Affairs Committee which 
I chair. The issue has arisen, for example, in the prison abuse 
case where it appears that some private sector contractors may 
have been involved in the abuse. We know that a lot of the 
security for coalition authority personnel is being provided by 
private firms. We have seen the problem of private contractors 
being killed or subjected to violence. I am just wondering. 
That seems to be an unusual war where we are so heavily 
dependent on the private sector to provide the troop strength 
essentially that in previous conflicts would have been provided 
by the military itself.
    General Casey. It is a different dimension. I agree with 
you. I would also note, as we have talked previously, what we 
are doing in the Army to rebalance our low density/high demand 
capabilities, we are, in fact, creating 24,000 additional 
military police (MP) over the course of the next 3 or 4 years. 
So we are taking some steps there to mitigate that.
    The whole contractor issue is something that I need to get 
a lot smarter on, and I think you are right. It is an issue we 
all need to pay attention to.
    Senator Collins. Well, I look forward to continuing a 
dialogue with you on that issue. I wish you well. Be safe.
    General Casey. Thank you, Senator.
    Chairman Warner. Thank you very much, Senator Collins.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    General Casey, over the past year, I have enjoyed getting 
to know you and working with you in your capacity as Vice Chief 
of Staff of the Army, and I think that one of the most striking 
tributes to your success in that position is how sparsely 
attended this hearing is. Boring is good, General Casey. 
[Laughter.]
    I applaud you on that. It is something I have not yet 
figured out how to do, but clearly you are a master at it. 
[Laughter.]
    It goes to the heart of your success in your present 
position, and I know your success in the future as well.
    General Casey. I am going to have to think about that. 
[Laughter.]
    Chairman Warner. I note for the record that when we 
commenced the hearing, we had half a committee present and a 
number have rotated in and out.
    Senator Clinton. Well, Mr. Chairman, I was more thinking of 
the press and the public, particularly the press.
    Chairman Warner. I am proud of the committee. That is where 
my head count goes.
    Senator Clinton. That is right. I agree with that, but I 
think the fact that the press is not here and breathing down 
the General's neck is a good sign for the future.
    Chairman Warner. Yet.
    Senator Clinton. Yet?
    Senator Levin. They are not breathing down his neck yet. 
[Laughter.]
    Senator Clinton. General, there are a number of issues that 
have already been addressed by members of the committee, and I 
want to touch on a few others to get your reaction.
    I, along with a number of my colleagues, have expressed 
concern about the increasing role and presence of private 
contractors in performing a variety of security functions in 
Iraq. I am not talking about preparing meals or being parts of 
convoys with supplies but actually performing security 
functions that put them in the line of fire. In fact, we now 
know that they are not only engaged in what amounts to, if not 
military, certainly paramilitary actions, but they are 
developing their own networks and intelligence services within 
Iraq. Yet, they are neither bound by the U.S. rules of 
engagement, nor as I understand it, are they protected by any 
kind of military shield with respect to the takeover of 
sovereignty on June 30.
    Could you give us your thoughts about this relationship 
that exists now, and do you have any plans to try to clarify 
the relationship between U.S. forces in Iraq and contractors 
and the new sovereign Iraqi government and these private 
contractors?
    General Casey. Again, as I mentioned, I do not know 
everything I need to know about this subject, Senator, and it 
is something that I will commit to looking into.
    I do know that as part of the Coalition Provisional 
Authority's (CPA) order number 17, that they are looking to 
revise and extend, that they are working the issue of whether 
contractors get protection or not. It is still an open issue to 
the best of my knowledge.
    Senator Clinton. But would that protection be military 
protection, General? Is that what the CPA is looking to?
    General Casey. I am sorry. It is protection under the SOFA-
like arrangements of the order 17.
    Senator Clinton. So that would go to the position they 
would hold vis-a-vis the Iraqi government after the takeover, 
as I understand it, if this CPA provision is accepted.
    General Casey. My understanding is basically it would say 
that contractors who are providing support to the Multi-
National Force mission would receive protections similar to 
those of the Multi-National Force. That is what they are trying 
to adjudicate right now.
    Senator Clinton. Would that, in your view, include those 
security forces that are working to secure the other 
contractors who are in Iraq, those working on resumption of 
electricity, on the maintenance of the oil pipelines, or would 
they be in a different category?
    General Casey. Senator, I do not know the specifics of 
that.
    Senator Clinton. The other issue that is related to that 
that I would like to follow is whether there will be additional 
calls on our forces with respect to protecting the contractors, 
and not only the contractors providing security, but the 
contractors doing necessary revitalization and rehabilitation 
work in Iraq. With respect to the U.N.'s recent decision not to 
provide continuing exemption for American forces from the 
International Criminal Court of Justice, how do you view that 
as affecting the status of the forces under your command within 
Iraq?
    General Casey. With respect to the contractors that provide 
support to the U.S. military there now, we provide support for 
them and security for them as part of our ongoing mission. For 
example, the people that run the dining facilities, that drive 
our trucks and things, they are provided the same security that 
we provide to our forces.
    Senator Clinton. General, the other piece of this, though, 
is that as I understand, the United Nations has just refused to 
continue any exemption for our military forces from potential 
prosecution under the International Court of Criminal Justice. 
This is a murky area, and I know that it is not yet resolved. 
Do you have any reaction to that? Have you been given any 
guidance as to what, if any, changes you have to oversee when 
you take command in Iraq?
    General Casey. Senator, I just heard that same report this 
morning. I do not know the details. I do know that as we talked 
earlier here, Jerry Bremer is focused on getting an extension 
of his order 17 approved so that our forces and supporting 
contractors have the protections that they need, and he expects 
to do that prior to June 30.
    Senator Clinton. General, have they yet identified the 
person who will be your counterpart in this new Iraqi 
government, the commander of whatever forces or security 
personnel that this new government will put into place?
    General Casey. General Babakur is the senior military 
advisor to the Prime Minister of Iraq, and he will be my direct 
interface.
    Senator Clinton. So even though he is what is called an 
advisor, he will have not only the responsibility for 
interacting with you but will he have any line command or any 
operational responsibility so far as you know?
    General Casey. I am not 100 percent sure of that, Senator.
    Senator Clinton. All of these questions about how we 
interact with the post-June 30 government are really going to 
be in your lap, General. I know that it is going to be a very 
challenging task for you to line this up and to get the 
appropriate understandings.
    But one thing I was struck by is that news reports indicate 
CENTCOM is asking for five more brigades. Is that an accurate 
report?
    General Casey. It is not, Senator. We talked about that a 
little bit earlier before you came in. CENTCOM is doing some 
contingency planning for increased levels of violence. It is 
not, as the report suggested, an informal request for forces. 
It is planners doing planning.
    Senator Clinton. Finally, General, are there any 
projections that you are aware of that have looked to the 
numbers of troops we will need over the next 1 to 5 years?
    General Casey. Senator, Central Command and Army planners 
continuously assess and reassess that.
    Senator Clinton. What is the range of troops? Do you have 
knowledge of that?
    General Casey. Right now we are looking at sustaining 
planning. Because we have to designate units 2 and 3 years in 
advance, we want to give them that notification so they have 
the stability. But we are planning on sustaining the current 
force levels through at least another rotation. So, Operation 
Iraqi Freedom 4 (OIF-4)----
    Senator Clinton. Do you know what percentage of Guard and 
Reserve members that will be consisting of?
    General Casey. My sense is it will stay somewhere between 
30 and 50 percent.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator. We brought 
up and I am glad you brought it up again, the status of forces 
agreement. The General has been very forthcoming to the extent 
that anyone knows the full answer to that important question.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General Casey. We all welcome your appointment. 
You are a superb professional with great experience and you 
were given a difficult job, and we appreciate what you are 
going to do for us.
    What is your relationship, as you understand it, with 
Ambassador Negroponte? Are there separate lines of 
communication through his office, the Secretary of State to the 
President, separate lines through your office to the Department 
of Defense? What is the coordination mechanism?
    General Casey. I am his principal military advisor. It is a 
priority relationship for me to ensure that we work closely 
together and that our staffs work closely together so that we 
have unity of effort in the U.S. national mission.
    Senator Reed. But----
    General Casey. I will finish up here. My chain of command 
is General Abizaid, Secretary of Defense, President.
    Senator Reed. As the advisor to the Ambassador, does that 
imply that he will make the decisions and you will provide 
advice on military matters?
    General Casey. I will provide advice how the military can 
best support the operations that he----
    Senator Reed. He will make the ultimate judgments that have 
to be made there in the country?
    General Casey. He will make the ultimate policy judgments. 
I will make the ultimate military judgments with guidance from 
General Abizaid and the Secretary of Defense.
    Senator Reed. The obvious question. Who gets to break the 
tie if you disagree?
    General Casey. We have the possibility of pushing things 
back up our separate chains. So the decision is taken here in 
Washington.
    Senator Reed. Thank you, General.
    General, there was an announcement, which was encouraging, 
of the disbanding of these militias. Since that announcement, I 
have not heard a great deal of practical information about how 
that is going, what is the time frame, will it really happen. I 
ask the question because we all recognize that the Iraqi 
security services that we are trying to create are months, if 
not years, away from deployment, and these militias are on 
hand, ready to go. Given the Prime Minister's avowed intention 
to get tough with the insurgents, there is I think at least the 
temptation to start using these militias rather than disbanding 
them. Can you comment upon that?
    General Casey. As part of the discussions that we had with 
Deputy Secretary Wolfowitz and the Iraqis last week, the 
militia agreement was discussed. Although I have not seen it 
directly, the Iraqis and the CPA worked out agreement with a 
number of the militias basically to disband over a period of 
time. Not having, again, a lot of time on the ground there, my 
personal perception is that it is probably a good thing because 
what people there are running around with guns ought to be 
working for the Iraqi security forces or for the coalition.
    Senator Reed. Well, I agree with that. I think there is 
sort of an intermediate situation where they are not formally 
part of the Iraqi security services but they are working in 
some way for the Iraqi government, and given the number of 
these militias and their conflicting loyalties, that could 
cause you a huge problem. So, again, this is an issue of 
concern which I hope you can address.
    There is some evidence or information in the media that 
particularly in the north, the Kurdish Peshmerga is very 
active, very well organized, and unlikely to easily disband 
unless all their political objectives are achieved, and also 
beginning to encroach upon areas where Sunni Arabs were planted 
years ago. Is that an issue that you are concerned about?
    General Casey. I was concerned enough about it to ask both 
of the Presidents on our visit what their expectation was for 
the Peshmerga to disband. What I got back was a willingness to 
participate in the militia agreement process that they had 
signed up to do.
    Senator Reed. Looking at this situation in the last year or 
so since my first trip in July with the chairman and Senator 
Levin and then subsequent trips with Senator Clinton and again 
with Senator Levin, there seems to be a progression or trend on 
the insurgency. It started off with kind of random potshots at 
our troops. Many times people were paid to just close their 
eyes and fire an AK-47 to improvised explosive devices (IED) 
which require some sophistication in terms of building them and 
in placing them, and now in the last few days, insurgent 
attacks which appear to be pretty well coordinated. That is a 
very disturbing trend. Do you want to comment on that trend, 
General?
    General Casey. Senator, I do not think there is any 
question that over time the insurgency has become increasingly 
sophisticated. Whether they can continue to sustain the level 
of operations that they had in April remains to be seen. It has 
already dropped off from the peak in April, but it is still 
above where it was previous to that.
    Senator Reed. Then on our side, the tactics seem to be 
shifting too. It appeared, several weeks ago, around Fallujah 
that the marines were going to enter the city, root out the 
insurgents. That was called off hastily because of objections 
presumably from internal Iraqi political forces, turned over 
now to Iraqis, our profile lowering. But now we are using 
apparently attack helicopters to go in and take out selective 
targets. Sort of a lowering of our profile and then the hope 
the Iraqis will step in.
    The question is, are we creating a vacuum there, or are we 
doing something that looks a lot like what the Israelis have 
been doing in Gaza and other places for years, using high tech 
to go after individual targets? The question is, of course, is 
that going to be an effective strategy over time?
    General Casey. As I have mentioned earlier, because of the 
current state of training and equipping of the Iraqi security 
forces, there will be a phased process here as we gradually 
bring them to a level where they can take over the security 
responsibilities for themselves.
    It is that interim period here that I think you are talking 
to. What I talked about here earlier was that we, as a Multi-
National Force, need to maintain an offensive mindset that will 
continue to develop intelligence to go after the insurgents and 
facilitate the precise application of force, like what you are 
talking about happened recently in Fallujah.
    Senator Reed. Thank you, General. Good luck.
    General Casey. Thank you, Senator.
    Chairman Warner. Thank you, Senator Reed.
    Just an announcement to our colleagues. Even though most of 
them have finished their work here, there are staffs and others 
who are following these hearings. It is imperative, in the 
judgment of the ranking member and myself, that this committee 
review the hearing we have had this morning as quickly as we 
can and hopefully express our support for the President's 
nomination that you have now received and that we allow the 
Senate to review the committee's recommendation in the way of a 
confirmation process either this evening or first thing 
tomorrow morning.
    So, Senator Levin and I are looking to the 3 o'clock hour, 
at which time the committee will be given the opportunity to 
receive briefings from the Department of Defense, an initial 
briefing I stress, on the relationship between the 
International Red Cross and our command structure and the 
oversight of our prison structure in all areas of 
responsibility (AORs).
    So, General, I am quickly going to ask a few questions 
here. We are going to take a minute or 2, each of us.
    The United Nations, hopefully, will begin to reestablish 
its mission. I presume you have that on a high priority of your 
security demands.
    General Casey. It is, Senator. It is specifically stated in 
the U.N. Security Council resolution.
    Chairman Warner. Yes, I am aware of that. Good. But I think 
it is important this record reflect your commitment to that.
    Back to that resolution 1546, unanimously approved on June 
8, the document refers to the requirement to reach agreement 
with the government of Iraq regarding ``policy on sensitive 
offensive operations.'' Now, as the Commander of the MNF-I, 
what does this language mean to you? Anything above and beyond 
the interpretation of the English language? Perhaps it was left 
in that form purposely to give you the latitude to work with 
your counterparts to effectively carry out the missions. Is 
that correct?
    General Casey. I believe that is the case, Senator.
    Chairman Warner. The recent violence, which several 
colleagues, notably Senators Sessions and Collins, and others 
on this side have raised, led the new Prime Minister to suggest 
that some form of martial law might be implemented in order to 
restore order and establish security. I suggest we not try and 
put too much in the record about that today because I think 
that is a subject that you will have to put high on your agenda 
as you work with the United States Ambassador and the Iraqi 
government and your counterparts in the Iraqi forces.
    If that decision were to be made by the successor 
government, this committee will bear down very closely in its 
oversight responsibilities and just see what is the role of the 
coalition forces in implementation. Obviously, in the minds of 
the Iraqi people, all of the various nuances in these laws and 
regulations and working relationships are lost. It is the 
American GI and the coalition GI that gets the flashback when 
the necessary use of force is applied. So this is very 
important to this committee to follow should that step 
eventually be taken. So I will just make that by way of 
reference.
    General Casey. Thank you, Senator. I will look closely at 
that if that does in fact occur.
    Chairman Warner. I know you will. We are very fortunate to 
have a man of your vast experience and capabilities take on 
this position.
    I had another question I wrote down here, being an old 
farmer. I am out of the business now. You do not put two bulls 
in the same pen, and I am not entirely sure how it works 
putting two four-stars in the same pen. But we know both of you 
quite well from years of experience with General Abizaid and 
now recent experience with you. We are going to follow that. We 
are going to see just how well that works.
    General Casey. I think you will find, Senator, that it will 
free General Abizaid up to be more proactive.
    Chairman Warner. I beg your pardon?
    General Casey. I think you will see that it will free 
General Abizaid up to be more proactive throughout the rest of 
his theater, something I know he is concerned about.
    Chairman Warner. Well, I think that is a very important 
consideration for the creation of this post. Nevertheless, 
still two bulls in the same pen.
    Senator Levin.
    Senator Levin. I know a couple of bulls in the Senate pen. 
[Laughter.]
    Chairman Warner. Yes. You are looking at two of them right 
now.
    Senator Levin. They have great respect for each other.
    Chairman Warner. Order please. You think up your own 
metaphor. [Laughter.]
    Senator Levin. Literally, it can lead to tremendous 
respect, I think, given the backgrounds of both of you. But it 
is a good cautionary note in any event.
    I want to get back to this issue that the chairman raised 
about the martial law. It goes back to the point that Senator 
McCain made with you about raising expectations because now, 
once that statement is made by Allawi, if that is, in fact, 
just announced and it was just put on your doorstep to 
implement it, that is one heck of a load. It may be a load you 
would not have suggested or recommended be made.
    So I concur in what our chairman has said that that 
probably needs to be pretty high up there on your list of 
things to look into because of that representation that was 
made, because I do not think they can enforce their own martial 
law. They do not have the forces to do it, so here you would 
have an announcement made that is left for us to implement, but 
we may not have been part of that decision to make the 
announcement. So I support what the chairman said in that 
regard.
    I want to just get back to the one issue that you commented 
on. That has to do with if you needed additional forces, that 
you will recommend them. I think you made a very forthright 
statement here that if you think that you need more troops, you 
will ask for more. I do not want to just raise unnecessarily a 
sensitive subject around here, but we had an Army Chief of 
Staff who just predicted we would need more troops than the 
civilian leaders said they thought we would need in Iraq, and 
when General Shinseki made that prediction, he was severely 
criticized by civilian leadership.
    I just hope that that has not chilled the determination of 
our uniformed leaders such as yourself to give us the 
unvarnished facts when we ask for them or even if we do not ask 
for them, if you feel that we need them. We are heavily relying 
upon you to give us that information. So it may be undesirable. 
The civilian leaders that you report to may not want to hear 
it.
    That has happened before. Frankly, it happened during the 
Clinton administration apparently. According to all the 
reports, there was a well-known general around here who made a 
request that turned out to be embarrassing to the civilian 
leaders for certain kinds of equipment to go into the Balkans. 
It created a problem, but it was the right thing to do. Whether 
it was right or wrong, it was the honest thing to do. He 
expressed his own opinion on that.
    I just want to reinforce this point. When we ask that 
question which the chairman asked about will you give us your 
honest, professional advice, and you said you sure will, we 
really count on you to do that and, more importantly, the 
troops count on you to do that. That is something that I know 
is first and foremost in your heart and mind is to do what is 
right for the troops. So that may cause some painful problems 
in terms of civilian leadership if you ask for something they 
do not want to hear, but we need you to do that and to give it 
to us straight. Everything I know about you I think we can 
count on you to do that.
    General Casey. You can, Senator.
    Senator Levin. Thank you.
    Chairman Warner. Senator Dayton.
    Senator Dayton. Mr. Chairman, thank you.
    I want to just follow up with that, General, because one of 
my frustrations over the last year, year and a half regarding 
the situation in Iraq is that I am not sure we get the truth. I 
certainly know we do not get the whole truth, and I do not 
think we get nothing but the truth.
    By way of illustration, we get this working paper, 
unclassified, Iraq status. The last one I received is dated 
June 22 this year. It starts out, the highlights of over 12,000 
dialogue activities have been held, various things in 
governance, time table. I have seen that before. Then it gets 
to essential services, water, telecommunications, the number of 
telephone subscribers in Iraq is up. Cell phone subscribers is 
up. Essential services, transportation, it goes into food 
security and health education. I do not doubt that any of those 
are essential services. Then it goes into program management.
    Finally, I get to page 20 and it gets to the electricity 
overview which in the past has been up quite near the front. I 
certainly consider it an essential service. It says here, due 
to unforseen problems, the goals set by Ambassador Bremer in 
January to reach a certain level of capacity in daily 
production will not be reached until at least June 30. Then it 
gives a couple charts and it has got a couple of graphs that I 
cannot distinguish between the various shades of gray to really 
tell.
    But again, with the Iraqis I met with in Minnesota over the 
weekend who had been, a couple of them, in Baghdad up till 
about 2 weeks ago and had been there over the previous couple 
of months, they told me that the typical electricity situation 
in Baghdad now on a given day is 8 hours of electricity, 16 
hours of no electricity. They said sometimes it is worse.
    We were in Iraq last July, as I said earlier, when it was 
115 degree temperature. Electricity was 95 percent of what the 
Iraqis were concerned about in terms of daily comfort. It is 
essential for refrigeration. It is essential for air 
conditioning. It is essential in the major cities I was told 
for also running water and sanitation. So if there is not 
electricity on a regular, consistent basis, we have got a lot 
of unhappy people with understandable reasons. Here is 
something, it seems to me if it is true what I was told, that 
is extremely significant, has a huge impact.
    Our forces unfairly bear the brunt of this because a year 
ago--and the electricity situation back then I think was even 
better in Baghdad than that. Certainly the situation prior to 
our invasion in Baghdad, from what I am told, was better than 
what was reported to me. But the Iraqi citizens thought if we 
can take over their country militarily in 3 weeks, we are 
omnipotent and we ought to be able to provide electricity more 
reliably and to a greater degree than Saddam Hussein. We are 
falling short of that, and now it seems a year later we are 
falling short of, arguably, even what it was back then.
    I realize that there are difficulties and the like, but you 
would have to ferret through here to find that information 
buried on page 20. It says in a very kind of antiseptic way, it 
has not met a goal, whereas in the real world over there, as I 
say, which I would not have found out if I had not met with 
these citizens. There is a real life impact that is not 
represented here that is huge. Again, for our forces and the 
way they are going to be perceived and treated by Iraqi 
citizens and everything else, the vulnerabilities, this is 
huge.
    We are not getting that information in my experience on a 
factual, upfront basis. I would ask that you see that we do, 
please and certainly find out if they are not getting 
electricity in Iraq, they are not going to be feeling very 
favorable toward our forces.
    Thank you.
    General Casey. That was something that was brought up by 
the Iraqi government officials that we met with. Everyone is 
very keenly aware of the need to do better in electricity.
    I would also point out, though, that part of the problem, a 
good part of the problem is because the terrorists are 
attacking the electrical infrastructure. They are stealing that 
from the Iraqi people.
    Senator Dayton. Then the suggestion was made why can we not 
bring in generators the way that have been brought in for some 
of our base camps operations and for the coalition force 
headquarters in the palace. We may have to improvise. I do not 
know, but I just know that if the situation is as they 
described it, this summer you are going to have a whole lot of 
very unhappy people.
    Thank you.
    Chairman Warner. Thank you.
    Senator Clinton.
    Senator Clinton. General, just two quick things. One to 
follow up on Senator Dayton.
    We get reports that a lot of our troops are performing 
functions that they were not trained for, and that seems 
particularly true with respect to some of these civil projects. 
We have had reports that people who were trained for infantry 
are trying to help with controlling sewage, and there is not a 
significant amount of troops for the engineering, the kind of 
fundamental building block work that is required. I do not know 
whether that is the case or not, and I would like to get some 
sense of that. It may be that you have enough troops, but it 
may also be, as we are told consistently, that the mix of 
troops may not quite be right for the changeover and the new 
kinds of responsibilities you face.
    Finally, on a matter that is not perhaps at the top of the 
pressing issues that you confront. There was a very poignant 
report this morning on, I think it was, National Public Radio 
by the man who had been Jerry Bremer's consultant for cultural 
affairs. He spoke in detail about how we had established base 
camps in places like Babylon on the archaeological sites and 
that we, through the efforts to protect these sites and then to 
establish a permanent presence, had perhaps taken some actions 
that were contrary to preserving not just the archaeological 
heritage of the Iraqis but the biblical heritage of the entire 
Judeo-Christian world.
    Would you look into that, General? Because I was deeply 
disturbed, in the aftermath of the initial efforts, that we had 
the looting of the national museums and the like and we found 
out that damage might not have been as great as had originally 
been reported. So I would like to know where we stand with 
respect to some of these very valuable ancient sites that mean 
so much to people around the world.
    General Casey. I will do that, Senator. By chance, I did 
happen to visit that Polish base camp, and I can tell you that 
he inherited that from the marines who went in first. But he is 
doing everything in his power to mitigate the effects of his 
presence there on the cultural sites.
    Senator Clinton. Thank you.
    Chairman Warner. Senator, thank you for raising that 
question. On one of the three or four congressional delegations 
that I have been on to that region, we went to those very areas 
at Babylon and we were impressed with the security that our 
multi-national forces had provided and that the restoration and 
preservation of some of areas was going right on. I am glad 
that you have reinforced, in your response to the Senator's 
question, your commitment to do the same.
    General Casey. They actually have two full-time Polish 
archaeologists there that are with the multi-national force.
    Chairman Warner. We met with one of them. A remarkable 
piece of history.
    We were doing a little homework up here, as you were 
speaking with other Senators, about this question of your area 
of responsibility and that of General Abizaid. Now, you are 
heading a command that was specifically established really by 
the United Nations resolutions. Let me read from the most 
recent one, which is 1546, adopted just 8 June of this year. 
Section 9 notes that the presence of the Multi-National Force 
in Iraq is at the request of the incoming interim government of 
Iraq and therefore reaffirms the authorization for the Multi-
National Force under unified command, established under 
resolution 1511 in 2003--that is the earlier U.N. resolution--
having regard to the letters annexed to this resolution.
    In our questions to you, routine questions to our nominees, 
we ask what will be the relationship of your command MNF-I to 
the United Nations. Your response, ``The U.N. will be 
interacting with MNF-I in their efforts to establish democratic 
election processes and humanitarian reconstruction assistance. 
MNF-I will, with the Iraqi security force, provide security for 
these efforts. I envision the relationship between the MNF-I 
and the U.N. as a partnership, pursuing the common goal of 
building a democratic Iraq.''
    Now, as to precedence for two four-star officers being more 
or less in the same AOR, there is this Pacific Command and the 
Korean Command. If you look down in the fine print, the Korean 
Command is in a sense a deputy to the overall commander in the 
Pacific, the CINC. It is my understanding according to our 
quick research.
    General Casey. In the U.S. chain, that is correct.
    Chairman Warner. Yes, that is correct.
    Now, I ask for the record--and you may not be able to 
provide it--what reporting chain do you have, if any, up 
through your command to the United Nations?
    General Casey. Senator, I know of no reporting chain that 
goes back to the United Nations.
    Chairman Warner. Because the Korean Commander does have a 
reporting chain.
    General Casey. That is correct, but in my situation I am 
not aware that I do.
    Chairman Warner. All right. I just wonder if you would 
refine that for the record.
    General Casey. If it changes, I will come back to you.
    Chairman Warner. Just provide it in today's record at the 
earliest possible time because I think that is very important. 
Reporting up and what directions, if any, could they send down 
to you in your capacity as commander.
    General Casey. All right, Senator, I understand. But my 
chain of command is through the Secretary of Defense and the 
President.
    Chairman Warner. I understand that but there is reference 
in here to their having established this.
    I thank you very much.
    Senator Levin, we have been joined by Senator Nelson. I am 
wondering if you might forgive the chairman if I absent myself 
and say thank you first and foremost to you, General, and to 
your family. I wish you all the best of good fortune, and thank 
you again on behalf of not only just those of us here in the 
United States, but people all over the world for your accepting 
this very challenging post in the cause of freedom. Thank you.
    General Casey. Thank you very much, Senator.
    Senator Bill Nelson. Mr. Chairman, before you depart, 
following up on that line of questioning about the question of 
where the responsibility lies, clearly an American commander is 
responsible to the American chain of command. But, of course, 
it can get a little more convoluted since we have the phase-in 
of the government over the period of a year and a half, first 
with June 30 and then with elections in January 2005, to be 
followed by the parliamentary elections in December 2005, a 
year and a half from now. In the course of that year and a 
half, if the new transitional government were to say we do not 
want the American forces there, which is not a remote 
possibility given the fact of a campaign for the parliament in 
the heat of elections that Iraq is certainly not experienced in 
and in what we have already heard from people. They are glad 
the Americans liberated them, but they do not want us there as 
occupiers, we are going to be likely facing the situation, what 
about our troops being there, absolutely necessary for 
stabilizing Iraq for the transitional government, with the 
transitional government suddenly saying, ``Get out, 
Americans?''
    That puts us, that puts commanders like this, that puts his 
chain of command in a very difficult situation because clearly, 
it is not going to be in the interest of the United States to 
get out because, at the end of the day, what we want is a 
stabilized Iraq. They simply do not have the army. They do not 
have the police force, and they are not anywhere close to it 
even though we are helping train them. So I think we have got 
some real straining and grunting that we are going to be doing 
here over the course of the next year and a half.
    Chairman Warner. Your observation is well taken, Senator.
    Senator Bill Nelson. Mr. Chairman, I would just note for 
General Casey the subject that you have heard me speak of ad 
infinitum, just to say that we had a downed flyer that we 
walked away from in the Gulf War in 1991, Captain Scott 
Speicher. The good news is that we have had a dedicated team 
over there under Major General Dayton, who has now rotated 
back, and under a specific, smaller Speicher team that was 
looking for any evidence. They were very dedicated. I went over 
there just to give them some ``atta boys'' not only as the 
Senator but as a Senator from the State where the family lives.
    The sad news is that we have not found any conclusive 
evidence. This clearly is just one of thousands of things that 
you have to consider, General Casey, but ultimately coming to 
some conclusive evidence is important. It is not only important 
for that family that has been in this limbo for so many years, 
but it is also important to every pilot in the United States 
military that they know, if they are downed, that somebody is 
coming after them. We have a pilot that we did not go after 
through a series of mistakes. So I just want to put that on 
your radar screen, General Casey.
    General Casey. Thank you, Senator. One of the elements of 
the Army's soldier's creed is that I will never leave a fallen 
comrade. So we take that very seriously. Thank you.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Levin. I have never seen anybody take an issue more 
seriously than Senator Bill Nelson of Florida has taken on in 
the Scott Speicher case. He raises this on every occasion. He 
has gone to Iraq solely for that issue. When he is there--I 
have been with him when he has done this--he raises this issue. 
I want to commend him. I had no doubt what your answer would be 
and you should have no doubt of the tenacity of Senator Nelson 
and a number of other members of the committee, I am sure, on 
behalf of the American people, the families, and the flyers, as 
you put it. I want to thank Senator Nelson too. He is 
absolutely right in what he is doing here. Until we find out 
for sure what happened, we just have to press on. It is a kind 
of a mission that we can never forget.
    General, thanks to you and your family.
    General Casey. Thank you very much, Senator.
    Senator Levin. This hearing is adjourned.
    [Whereupon, at 12:09 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN George W. Casey, Jr., 
USA, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. More than 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
assignments as Vice Chief of Staff of the Army, Director of the Joint 
Staff, and Commander of the Joint Warfighting Center, U.S. Joint Forces 
Command.
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, the Goldwater-Nichols act has improved our joint 
operations. The goals of Goldwater-Nichols have been confirmed in the 
war on terrorism.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. Our fight in the global war against terrorism and our need 
to work with many agencies outside DOD as well as with coalition 
partners is creating a different security environment from the one that 
drove defense reform in 1986. I do believe that its time to update 
Goldwater-Nichols. The update should take into account the lessons 
learned since Goldwater-Nichols was implemented, and the current and 
projected security environments.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. These reforms have significantly clarified operational 
chains of command and working relations among the Military Services and 
combatant commanders to enhance joint operations. Most importantly, 
they have clearly communicated the intent of Congress and the President 
that our warfighting efforts must be increasingly joint.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes. The general framework established by the Goldwater-
Nichols Act is appropriate and existing policies and processes allow 
that role to be fulfilled.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command. Multi-National 
Force-Iraq is a new command, established to oversee U.S., coalition, 
and Iraqi military and security operations in Iraq. Please describe 
your understanding of the relationship of the Commander, Multi-National 
Force-Iraq to the following offices:
    The Under Secretaries of Defense.
    Answer. The Under Secretaries of Defense assist the Secretary of 
Defense in specific functional areas: Policy, Comptroller, Acquisition 
and Technology, Intelligence, and Personnel and Readiness. These Under 
Secretaries provide coordination and the exchange of information with 
Department of Defense components having collateral or related 
functions, which include the combatant commanders. Since the Multi-
National Force-Iraq is a subordinate command to Central Command 
(CENTCOM), I anticipate that my interaction with the Under Secretaries 
would be primarily at the direction of, and subject to the control of, 
the CENTCOM Commander.
    Question. The Assistant Secretaries of Defense.
    Answer. The Assistant Secretaries of Defense have functional 
responsibilities prescribed by the Secretary of Defense. Since the 
Multi-National Force-Iraq is a subordinate command to CENTCOM, I 
anticipate that my interaction with the Assistant Secretaries of 
Defense would be primarily at the direction of, and subject to the 
control of, the CENTCOM Commander.
    If confirmed, I will fully support and execute all guidance issued 
by the Assistant Secretaries of Defense with respect to defense 
functions pursuant to their assigned duties and responsibilities.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, subject to the authority of the 
CENTCOM Commander, I will coordinate with and keep the Chairman of the 
Joint Chiefs of Staff informed in order to execute any assigned 
missions and accomplish the objectives of the President and the 
Secretary of Defense.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for the administration and support of the forces they provide to the 
combatant commands. The responsibilities are outlined in title 10 
United States Code (USC), section 165, which notes that the Secretaries 
are subject to the authority, direction, and control of the Secretary 
of Defense. If confirmed, subject to the authority of the CENTCOM 
Commander, I will coordinate with the Secretaries of the Military 
Departments to ensure I have the forces necessary to execute assigned 
missions.
    Question. The Service Chiefs.
    Answer. While the Service Chiefs are not in the formal chain of 
command, they have a significant role. As members of the Joint Chiefs 
of Staff, the Service Chiefs provide military advice to the President 
and Secretary of Defense. Individually and collectively, the Joint 
Chiefs are a source of experience and judgment that every joint 
commander can call upon; it is a privilege to work with them. If 
confirmed, subject to the authority of the CENTCOM Commander, I will 
coordinate with the Service Chiefs to ensure that I have the forces 
necessary to execute my assigned mission.
    Question. The Commander, U.S. Central Command.
    Answer. If confirmed as the Commander, Multi-National Force Iraq, 
my actions will be subject to the authority, direction, and control of 
the Commander, U.S. Central Command, the combatant commander with 
overall responsible for current military operations in Iraq. I will 
work closely with the Commander, U.S. Central Command to execute his 
priorities in successfully accomplishing assigned missions.
    Question. The other combatant commanders.
    Answer. As directed by the Commander, U.S. Central Command, I will 
coordinate with the other combatant commanders to accomplish missions 
assigned to the Multi-National Force-Iraq.
    Question. The U.S. Ambassador to Iraq.
    Answer. The Commander, MNF-I, and the U.S. Ambassador will work 
closely in formulating strategic direction and ensuring unity of effort 
in support of the Interim Government of Iraq. Creating a secure and 
stable Iraq requires careful coordination of military operations and 
objectives with other elements of U.S. national power, including 
economic, political, diplomatic, and informational objectives. 
Establishing a close and effective working relationship with the new 
Ambassador and the government agencies working out of the Embassy is a 
priority goal for me. I will also serve as his principal military 
advisor.
                             qualifications
    Question. If confirmed, you will be entering this important 
position at a critical time for United States interests in Iraq and the 
Middle East.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. My military experience and education have prepared me to 
assume this position. I have over 30 years of Military Service, and 
have commanded soldiers from platoon to division. My joint experience 
includes service as the Deputy Director for Politico-Military Affairs 
(Europe), J-5, Director of the J-5 Strategic Plans and Policy on the 
Joint Staff, and most recently as the Director of the Joint Staff. My 
tour as a U.N. Military Observer in Cairo, Egypt, my assignment as the 
Assistant Division Commander of the 1st Armored Division in Bosnia, and 
my oversight of 1st Armored Division forces in Kosovo afforded me an 
understanding of the challenges and complexities of multi-national 
operations. My present assignment as the Vice Chief of Staff of the 
Army gives me direct and daily involvement with the critical issues 
facing our military in meeting the challenges in Iraq and in fighting 
the global war on terrorism. My educational background includes a 
Bachelor of Science Foreign Service degree from Georgetown University's 
School of Foreign Service, a Masters degree in International Relations 
from Denver University, and service as a Senior Fellow at the Atlantic 
Council, all of which will be extremely valuable in discharging the 
duties as Commander of the Multi-National Force-Iraq. If confirmed, I 
am confident that I possess the experience and knowledge to 
successfully address the difficult challenges of this position.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the first Commander of Multi-National Force-Iraq (MNF-I)?
    Answer. I see these major challenges facing MNF-I:

        1. Implementing an effective transition from occupation to 
        partnership with the Interim Iraqi Government (IIG).
        2. With the IIG and the Iraqi security forces, defeating the 
        anti-Iraqi and anti-coalition forces.
        3. Assisting the IIG in efficiently rebuilding the Iraqi 
        Security Forces (ISF).
        4. With the ISF, provide an environment secure enough to permit 
        elections in December/January.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. MNF-I is already developing plans to address these 
challenges. Broadly, I will focus on: leading the MNF counterinsurgency 
effort and establishing a strong relationship with the U.S. ambassador 
and IIG to bring all the elements of national power to bear in 
defeating the insurgency; building links to the IIG to rebuild the ISF 
and ensure close cooperation and coordination of military operations; 
and, in coordination with the IIG, the U.N., and the U.S. Embassy, work 
to provide a secure environment for the year-end elections.
          relationship to commander, multi-national corps-iraq
    Question. In addition to MNF-I, there is also a new organization 
designated Multi-National Corps-Iraq (MNC-I).
    What will the relationship of Commander, MNF-I be to the Commander, 
MNC-I?
    Will there be a division of responsibilities between the two 
commanders and, if so, please describe the responsibilities of each 
commander?
    Answer. The Commander of the MNF-I has a national strategic focus, 
with responsibilities for consulting and coordinating with the IIG, 
training Iraqi security forces, and political-military relations with 
the new U.S. Embassy Team and coalition. The Commander, MNF-I maintains 
overall responsibility for military operations in Iraq.
    A three-star general commands the Multi-National Corps. MNC-I is 
one of the major subordinate commands of MNF-I. The focus of the MNC-I 
Commander is the battle command (C2) of five subordinate commanders: 
two U.S. Divisions, two Multi-National Divisions (Poland and the U.K.), 
and one Multi-National Brigade (U.S.). He will focus on full spectrum 
operations at the operational and tactical levels.
                        operation iraqi freedom
    Question. From your perspective as the Director of the Joint Staff 
and then as the Vice Chief of Staff of the Army, preparing soldiers for 
deployment, and now as the prospective Commander of MNF-I, what are the 
top lessons learned with regard to Operation Iraqi Freedom?
    Answer. The U.S. Army has learned several important lessons from 
Operation Iraqi Freedom. The major ones are the value of truly joint 
operations and the integration of coalition and Special Operations 
Forces. The Joint culture forged through continuous operations and 
aided by improved command and control networks enabled CENTCOM to 
operate as a cohesive Joint force. The merger of Special Operations 
Forces and conventional forces increased the range of coalition 
capabilities and enabled key victories.
    There are several areas, however, that we want to improve. Our 
information operations have provided mixed results and need significant 
improvement. The deployment of more than 40,000 reservists was hampered 
by cumbersome mobilization policies and by a force mix that put too 
many early deploying support units and high demand low-intensity units 
in the Reserves. The Army is addressing these issues in its 
transformation efforts.
    Question. What role do you foresee for forces from additional 
coalition nations in Iraq in the future?
    Answer. Joint Staff has the lead to work within the Inter-Agency 
process to coordinate contributions from current and potential 
coalition partners. There are 35 coalition countries with 22,000 
personnel conducting stability operations and humanitarian relief in 
Iraq. In the near term, we are focusing our efforts on obtaining 
contributions for security forces for U.N. personnel and facilities in 
Iraq.
               united nations security council resolution
    Question. On June 8, 2004, the U.N. Security Council unanimously 
approved Resolution 1546, recognizing the Interim Government of Iraq as 
the legal authority of a sovereign Iraq on June 30, 2004, and extending 
the U.N. mandate for 1 year for the presence of a multi-national force 
under the unified command of a U.S. military commander.
    Question. What will be the relationship of MNF-I to the United 
Nations?
    Answer. The U.N. will be interacting with the MNF-I in their 
efforts to establish democratic election processes and humanitarian 
reconstruction assistance. MNF-I will, with the ISF, provide security 
for these efforts. I envision the relationship between the MNF-I and 
the U.N. as a partnership pursuing the common goal of building a 
democratic Iraq.
    Question. What will be the relationship of MNF-I to the Government 
of Iraq?
    Answer. The MNF-I and the IIG will form a partnership to build a 
free and democratic Iraq. National, regional, and local coordinating 
bodies comprised of Iraqi Security Force and MNF-I leaders will be 
established. These bodies will be responsible for ensuring that there 
is coordination between Iraqi Security Forces and the MNF-I on all 
security policy and operations issues. This will promote unity of 
command in military operations in which Iraqi Forces are engaged with 
MNF-I. At the invitation of the Prime Minister of Iraq, I, or my 
designee, will attend and participate in the sessions of the Iraqi 
Ministerial Committee on National Security.
    Question. What will be your chain of command?
    Answer. Commander, CENTCOM; Secretary of Defense; President.
    Question. What will be your responsibilities with regard to 
providing security for the United Nations Assistance Mission for Iraq? 
What coalition forces will be used for such a mission?
    Answer. The MNF will work to facilitate the protection of the U.N. 
Assistance Mission. The MNF-I will establish a separate brigade sized 
force under its command dedicated to providing security for U.N. 
personnel and facilities in Iraq. We strongly desire that this come 
from additional international contributions.
                       status of forces agreement
    Question. There is no specific status of forces agreement (SOFA) 
between the United States and the Interim Government of Iraq.
    How will U.S. and coalition forces be protected from unwarranted 
prosecution under Iraqi law?
    What will be the status of contractors supporting U.S. and 
coalition military efforts after the transfer of sovereignty to the 
interim Government of Iraq?
    Answer. Currently, Coalition Provisional Authority (CPA) Order 17 
provides immunity from Iraqi legal process for all U.S. and coalition 
forces. Order 17 also provides that coalition personnel are subject to 
the exclusive jurisdiction of their Parent States, and that they are 
immune from local criminal, civil, and administrative jurisdiction and 
detention.
    The current version of CPA Order 17 relies heavily on occupation 
law and this must be modified to extend protection beyond June 30, 
2004, when the occupation ends. CENTCOM officials are currently 
consulting with the interagency and other members of the coalition on 
an amendment to CPA Order 17 that extends and expands protections for 
coalition military forces beyond June 30, 2004.
    In the draft amendment to CPA Order 17 currently under 
consideration, non-Iraqi contractors supporting U.S. and coalition 
military efforts shall be immune from Iraqi legal process with respect 
to acts performed by them pursuant to the terms and conditions of a 
contract with a Sending State. When called into question, the Sending 
State is responsible for determining and certifying whether the 
contractor acted pursuant to the terms and conditions of the contract.
                  iraqi and foreign national detainees
    Question. After the transfer of sovereignty, what will be the role 
of MNF-I in the detention and interrogation of Iraqi and foreign 
nationals detained during the course of authorized military operations?
    Answer. After the transfer of sovereignty, multinational forces 
will continue to have a role in detention and interrogation operations 
in support of the maintenance of security in Iraq. In United Nations 
Security Council Resolution 1546, the Security Council specifically 
decided that multinational forces shall have the authority to take all 
necessary measures to contribute to the maintenance of security and 
stability in Iraq. Among those tasks is detention and internment where 
necessary for imperative reasons of security.
    Question. What will be the role of Iraqi security forces in the 
detention and intelligence exploitation of persons detained during the 
course of authorized coalition military operations?
    Answer. MNF is currently working procedures to be able to integrate 
the selected Interim Iraqi Government Intelligence and related ministry 
elements in the Screening and Debriefing/Interrogation process. There 
are currently a number of procedural issues to be worked out to enable 
that to happen. Memorandums of Agreement must be drafted between Multi-
National Force-Iraq and the respective Interim Iraqi Governmental 
organization to ensure that all parties understand and agree to areas 
of mutual concern.
    Question. What role will MNF-I have in the supervision and 
oversight of detainee operations conducted by the Iraqi security 
forces?
    Answer. Multi-National Force-Iraq is developing a memorandum of 
understanding with the Ministry of Justice for individuals held in pre-
trial confinement. This MOA will address the support to be provided 
pending the development of the capacity by the Ministry of Justice to 
securely house these detainees.
                             transformation
    Question. As a result of your previous positions, you are familiar 
with the requirements for the Military Services to support CENTCOM and 
MNF-I.
    Do current transformation initiatives support MNF-I's future 
requirements?
    Answer. I believe that Department of Defense and Army 
transformation initiatives support MNF-I's current and future 
requirements. In particular, actions directed by the Army 
Transformation Strategy and the Army Campaign Plan are enhancing 
Current Force capabilities and building toward the Future Force, now. 
Currently, the Army is focusing its efforts and institutional energies 
to enhance the effectiveness of and reduce risk to our frontline 
soldiers at MNF-I and other global operations. The Army's focus and 
sense of urgency pervade all of the Army's transformation efforts.
    Based on a comprehensive analysis of lessons learned, operational 
experience, requirements for the global war on terrorism, combatant 
commanders' needs, and a focused look at key areas, the Army has 
initiated numerous transformational initiatives. It has accelerated 
select Future Force capabilities where they could benefit the 
warfighter, now. The focus of Army transformation is reconfiguring Army 
maneuver formations to fight as smaller, more modular, more versatile, 
and joint interdependent units will enable the MFNI to sustain 
operations over protracted campaigns and confer substantial benefits to 
Army forces in Iraq.
    Question. How will the Army's transformation impact MNF-I's current 
operations?
    Answer. In Iraq, the benefits of Army transformation are clear, 
now. Today, the Army's first networked maneuver formation, a Stryker 
Brigade Combat Team, is demonstrating Future Force capabilities in 
Iraq. The Army converted the 3rd Infantry Division to a modular design 
while retaining its readiness for redeployment and return to Iraq. Army 
forces in Iraq fight with Good Enough Battle Command that provides 
enhanced situational awareness. The Rapid Fielding Initiative provides 
soldiers coming to Iraq with 50 essential items to improve the 
effectiveness and protection. The Rapid Equipping Force has fielded a 
variety of commercial off-the-shelf or near-term developmental items in 
response to warfighter requests--from webcams to aid in weapons 
searches to Packbots that remotely search dangerous areas. These 
efforts reflect the pace and scope of Army transformation efforts and 
demonstrate how Army transformation provides an immediate impact on 
MNF-I's current operations.
    Transformation efforts that will provide the most significant 
impacts to current MNF-I operations will be modular conversion of 
maneuver and support formations that retain the capabilities previously 
found at higher echelons. Over the next 3 years, the Army will build up 
to 15 additional brigades and select high demand/low density 
capabilities required for global commitments. The Army will also 
convert all maneuver brigades and divisions within the active 
components (AC) and Reserve components (RC) into standardized designs 
by 2010, with modularly converted units fighting in Iraq this year.
    To provide ready forces, the Army is also developing a force 
management process that leverages standard unit designs and rotational 
deployment cycles. This process pools available forces in the active 
and Reserve components into modular deployment packages for specific 
periods. Each unit within the force pool will undergo a structured 
progression of increased readiness over time, culminating in full 
readiness and availability to deploy. When this process is coupled with 
the balancing of AC and RC force structure, the Army will improve its 
capability to sustain combat operations over the mid-term.
    Army transformation efforts are synchronized with the planning, 
preparation, and execution of Army operations within the context of 
ongoing strategic commitments. The Army Campaign Plan framework has two 
complementary parts--strategic posture and transformation. This 
framework enables a detailed, by fiscal year view of Army capabilities 
to build the Army program. This allows the Army to align resources and 
manage its budget against the plan and emerging needs. Further, this 
planning framework provides flexibility to adjust plan execution as 
required.
    Question. What impact will the Army's transformation have on the 
large prepositioned stocks in the CENTCOM area of responsibility that 
are critical to force rotations for MNF-I?
    Answer. Army Prepositioned Stocks (APS) and Army Regional Flotillas 
are and will continue to be integral components to the strategic 
responsiveness and reshaping of Army forces. Modernization of APS has 
always been affected by resource prioritization required by the entire 
Army. APS equipment has been older and less capable than equipment 
found in the active component. Currently, Army prepositioned stocks in 
CENTCOM are serving their intended function--providing an equipment 
base for rotational Army forces in Iraq.
    In 2003, as the VCSA, I approved the concept that supports some 
modernization of APS equipment as part of the Army reset initiative. 
The prepositioned stocks in the CENTCOM area of responsibility will 
benefit from this program. At the same time, rotational ``Stay Behind 
Equipment'' packages at MNF-I are also benefiting from some 
improvements in battle command and protection.
    The APS strategy continues to evolve to meet both changing threats 
and simultaneous implementation of Army transformation concepts. The 
Army faces significant funding and resourcing challenges as it resets 
and converts to modular units, but it recognizes that APS must also be 
reset, repositioned, and modularized.
                              end strength
    Question. You have a unique perspective as the current Vice Chief 
of Staff of the Army and the prospective Commander of MNF-I.
    In your view, is the current end strength of the Army sufficient to 
meet the requirements to support the needs of MNF-I, as well as the 
Army's other global commitments?
    Answer. The Army is currently meeting the needs of MNF-I and our 
other global commitments. To continue to meet these commitments, we 
need more combat units and a better balance in low density/high demand 
capabilities between our active and Reserve component forces. We are 
executing a plan to build 10 new brigades by the end of fiscal year 
2007 (with a potential for 5 more this decade). One has already been 
activated, and by this time next year, we will have four new brigades 
available for commitment. These new formations, along with force 
stabilization and a new unit rotational readiness cycle will begin to 
ease the stress on the force to a more sustainable OPTEMPO.
                           nato peacekeepers
    Question. Military forces from 17 NATO member nations are currently 
participating in peacekeeping operations in Iraq.
    What additional opportunities, if any, do you foresee for NATO 
forces to conduct operations in the MNF-I area of responsibility?
    Answer. MNF-I would welcome NATO involvement. A specific way NATO 
forces can contribute to operations in Iraq is to provide military 
training for the Iraqi army and to build the capacity of Iraqi military 
and defense civil servants and institutions. If confirmed, I will 
carefully examine this and other possibilities to enhance our 
peacekeeping operations in Iraq.
                            force protection
    Question. If confirmed, what would be your top priorities in terms 
of force protection?
    Answer. My first priority in force protection will be to review the 
measures we take to prevent hostile actions against Department of 
Defense and coalition personnel. This includes both offensive and 
defensive measures that allow us to preserve the lives of our soldiers 
while degrading opportunities for enemy forces. We will do our utmost 
to protect all coalition personnel on our bases and while they are 
conducting operations and movements.
    If confirmed, I will insist that requirements for force protection 
equipment are met as quickly as possible, with tested and proven gear. 
This includes monitoring the aggressive programs we have already put in 
place to provide armoring for vehicles, fielding of items like unmanned 
aerial vehicles, counter mortar radars, and IED countermeasures. I will 
also work to take advantage of innovative new equipment begin developed 
by industry and incorporate new tactics and procedures. Finally, I will 
aggressively seek and employ solutions that defeat and prevent enemy 
combatants from attacking our soldiers.
    Question. What additional steps, if any, need to be taken to ensure 
that personnel being assigned to Iraq are fully prepared and equipped 
for potential threats?
    Answer. Service members arrive in theater with an impressive amount 
of training that is specifically focused on the threats they will 
encounter in Iraq. For example, our Army Combat Training Centers have 
adapted to include these threats in training and challenge all units 
with realistic scenarios. This training continues all the way until 
their arrival in Iraq, under the most realistic challenges possible. I 
will continue to work with the Services to ensure that the training and 
the preparation received by service members fully prepare them for 
operations in Iraq. Additionally, with the great support of Congress, 
billions of dollars have been applied to ensure that service members 
have the most capable equipment available for their use. If confirmed, 
I will continue to work with the commanders on the ground to obtain 
their input and ensure they have the best equipment to accomplish the 
mission and protect our service members.
    Question. What steps are being taken to ensure that foreign nations 
that contribute forces to MNF-I have sufficient force protection 
capabilities?
    Answer. If confirmed, one of my first areas of interest will be to 
closely examine the capabilities of the other nations that make up the 
coalition. I will also ensure that we are sharing the lessons learned 
in force protection techniques and equipment.
                      bandwidth on the battlefield
    Question. Unmanned assets, such as persistent unmanned aerial 
vehicles, require tremendous bandwidth capacity. Command and control, 
blue force tracking and movement of intelligence products also use 
significant amounts of bandwidth.
    What challenges do you anticipate in fully utilizing these 
important assets with the bandwidth currently available to you in Iraq?
    Answer. The full utilization of all radio emitting assets (Command 
and Control (C2), Blue Force Situational Awareness (BFSA), and 
Intelligence Surveillance and Reconnaissance (ISR)) in the constrained 
area requires a constant effort to efficiently and effectively use the 
available bandwidth. Bandwidth requirements for deployed forces have 
increased ten fold with over 3.2 Gbps of SATCOM service alone 
supporting Central Region. By comparison, the available SATCOM 
bandwidth for Operation Desert Storm was 99 Mbps vs. the 3.2 Gbps as of 
April 2003 (source DISA Bandwidth report). The bandwidth challenges are 
most pronounced below the division level.
                      sexual assaults in the army
    Question. You testified before the Personnel Subcommittee on 
February 25, 2004, along with the other service chiefs, about policies 
and programs for preventing and responding to incidents of sexual 
assault in the armed services. At that time you testified that the Army 
Criminal Investigation Command was actively investigating, or had 
completed investigating, 86 sexual assault crimes reported in the 
CENTCOM area of operations.
    How many of the foregoing cases have been closed since you 
testified?
    Answer. The 86 sexual assault crimes that I referenced in my prior 
testimony consisted of 38 allegations of rape, 5 allegations of 
forcible sodomy, and 43 allegations of indecent assault. As of June 21, 
2004, 5 cases remain open and under investigation (3 allegations of 
rape, 1 allegation of sodomy, and 1 allegation of indecent assault). Of 
the remaining cases, 52 were investigated and determined founded, 15 
were determined as unfounded, and 14 were determined to have 
insufficient evidence to proceed.
    Question. What measures have been implemented in the CENTCOM AOR to 
ensure prevention of sexual assaults and to respond appropriately to 
victims of assaults?
    Answer. If confirmed as the MNF-I Commander, I will support the 
recommendations from the Task Force on Sexual Assault Policies that 
establish a policy and program structure to provide support to sexual 
assault victims through Victim Advocates (VA) and Victim Advocate 
Coordinators (VAC). The Army is currently staffing a draft policy that 
will place VACs at the Installation level while assigning as a 
collateral duty a minimum of two soldiers at battalion or equivalent 
level for all deployments. The installation VAC will have the 
responsibility of integrating and coordinating victim services at the 
installation while VAs will serve to assist victims of sexual assault 
in securing basic needs and serve as a companion throughout the 
medical, investigative and judicial process. Since this is considered a 
collateral duty, VA's must undergo training to deal with victims of 
sexual assault. The Army is aggressively pursuing implementing VACs and 
VAs throughout the Army, to include deployments, by the end of the 
calendar year 2004. CID will also provide investigative support and 
victim and witness protection as required.
    Question. What steps will you take as Commander, MNF-I to prevent 
sexual assaults and to respond to victims of assaults?
    Answer. Commanders will ensure that all soldiers receive 
instructions on sexual assault prevention techniques and training. If 
confirmed, I will ensure that all MNF-I personnel will understand that 
sexual assault is a crime that is not tolerated and those who commit 
these crimes will be held accountable. I will also undertake efforts to 
improve awareness and education programs designed to prevent sexual 
assault, provide sensitive care for sexual assault victims, and conduct 
aggressive and thorough investigation of all reported sexual assaults. 
If confirmed, I will ensure a positive command climate in which victims 
of any crimes have complete confidence in their chain of command, and 
will report these crimes immediately.
                         iraqi security forces
    Question. Lieutenant General David Petraeus, USA, has returned to 
Iraq as the Chief of Security Transition in Iraq, responsible for the 
recruiting, training, equipping and mentoring of Iraqi Security Forces.
    What will be your relationship with the Chief of Security 
Transition in Iraq?
    Answer. The Chief of Security Transition will work for the 
Commander, MNF-I.
    Question. What relationship will General Petraeus' office have with 
the interim Government of Iraq?
    Answer. Lieutenant General Petraeus will work closely with the 
Minister of Defense for military issues along with the Coalition 
Military Assistance Training Team (CMATT), one of his subordinate 
commands. Likewise, he will work closely with the Minister of Interior 
for police issues with his other subordinate command, the Civilian 
Police Assistance Training Team.
    Question. What are your views concerning the pace at which Iraqi 
security forces can assume responsibility for the internal and external 
defense of Iraq?
    Answer. This is a priority and the goal is to have the Iraqis 
increase their responsibility for internal and external defense of Iraq 
as soon as possible. We must ensure that the conditions are set for 
their success, and that we proceed at a pace that yields quality as 
well as quantity.
              assistance to contractor security personnel
    Question. Private security companies in Iraq are performing some 
extremely important missions, including protecting military supply 
convoys and guarding critical facilities and personnel, and, in some 
cases, coming under hostile fire.
    What responsibilities, if any, should MNF-I assume in assisting 
contract security personnel, or other contractors, to include providing 
threat information, intelligence, military assistance, or appropriate 
medical assistance?
    Answer. Private security companies have proven instrumental in the 
reconstruction efforts within Iraq. Events over the past several months 
have clearly demonstrated their individual professionalism and courage 
under hostile action. Moreover, these companies have assisted not only 
in providing security to the Coalition Provisional Authority, but to a 
host of individuals, contractors, and Iraqi government officials.
    The combatant commander is responsible for the security and force 
protection for contractors accompanying the force. Integration and 
oversight of contractor-provided security services is a key task to be 
executed by the MNF-I. I am committed to this relationship and, if 
confirmed, will take measures to provide for their safety and well-
being.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, MNF-I?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of GEN George W. Casey, Jr., USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 14, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, United States Code, section 601:

                             To be General

    George W. Casey, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of GEN George W. Casey, Jr., USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Resume of Service Career of GEN George W. Casey, Jr.
Source of commissioned service: ROTC.

Military schools attended:
    Infantry Officer Basic and Advanced Course
    Armed Forces Staff College
    Senior Service College Fellowship--The Atlantic Council

Educational degrees:
    Georgetown University--BS--International Relations
    University of Denver--MA--International Relations

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of Appointment
------------------------------------------------------------------------
2LT.......................................  21 Oct. 70
1LT.......................................  21 Oct. 71
CPT.......................................  21 Oct. 74
MAJ.......................................  6 Sep. 80
LTC.......................................  1 Aug. 85
COL.......................................  1 May 91
BG........................................  1 Jul. 96
MG........................................  1 Sep. 99
LTG.......................................  31 Oct. 01
GEN.......................................  1 Dec. 03
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Apr. 71.........................  Sep. 72...........  Mortar Platoon
                                                       Leader, later
                                                       Liaison Officer,
                                                       Headquarters and
                                                       Headquarters
                                                       Company, 2d
                                                       Battalion, 509th
                                                       Infantry
                                                       (Airborne), 8th
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe, Germany.
Sep. 72.........................  Jun. 73...........  Platoon Leader, A
                                                       Company, 2d
                                                       Battalion 509th
                                                       Infantry
                                                       (Airborne), 8th
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe, Germany.
Jun. 73.........................  Oct. 74...........  Mortar Platoon
                                                       Leader, later
                                                       Executive
                                                       Officer, A
                                                       Company, 1st
                                                       Battalion, 509th
                                                       Infantry
                                                       (Airborne),
                                                       United States
                                                       Army Southern
                                                       European Task
                                                       Force, Italy.
Oct. 74.........................  Dec. 75...........  Student, Ranger
                                                       School and
                                                       Infantry Officer
                                                       Advanced Course,
                                                       United States
                                                       Army Infantry
                                                       School, Fort
                                                       Benning, Georgia.
Dec. 75.........................  Dec. 78...........  Assistant S-4
                                                       (Logistics),
                                                       later S-4, later
                                                       Commander, C
                                                       Company, later
                                                       Commander, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       11th Infantry,
                                                       4th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Carson,
                                                       Colorado.
Dec. 78.........................  May 80............  Student,
                                                       International
                                                       Studies,
                                                       University of
                                                       Denver, Denver,
                                                       Colorado.
Jun. 80.........................  Jan. 81...........  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       Virginia.
Feb. 81.........................  Feb. 82...........  Department of
                                                       Defense Military
                                                       Observer, United
                                                       States Military
                                                       Observer Group,
                                                       United Nations
                                                       Truce Supervision
                                                       Organization,
                                                       Jerusalem.
Feb. 82.........................  Feb. 84...........  S-3 (Operations),
                                                       later Executive
                                                       Officer, 1st
                                                       Battalion, 10th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson,
                                                       Colorado.
Feb. 84.........................  May 85............  Secretary of the
                                                       General Staff,
                                                       4th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Carson,
                                                       Colorado.
Jul. 85.........................  Jul. 87...........  Commander, 1st
                                                       Battalion, 10th
                                                       Infantry, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Carson,
                                                       Colorado.
Aug. 87.........................  Jul. 88...........  Student, United
                                                       States Army
                                                       Senior Service
                                                       College
                                                       Fellowship, The
                                                       Atlantic Council,
                                                       Washington, DC.
Jul. 88.........................  Dec. 89...........  Congressional
                                                       Program
                                                       Coordinator,
                                                       Office of the
                                                       Chief of
                                                       Legislative
                                                       Liaison,
                                                       Washington, DC.
Dec. 89.........................  Jun. 91...........  Special Assistant
                                                       to the Chief of
                                                       Staff, Army,
                                                       Washington, DC.
Aug. 91.........................  May 93............  Chief of Staff,
                                                       1st Cavalry
                                                       Division, Fort
                                                       Hood, Texas.
May 93..........................  Mar. 95...........  Commander, 3d
                                                       Brigade, 1st
                                                       Cavalry Division,
                                                       Fort Hood, Texas.
Mar. 95.........................  Jul. 96...........  Assistant Chief of
                                                       Staff, G-3
                                                       (Operations),
                                                       later Chief of
                                                       Staff, V Corps,
                                                       United States
                                                       Army, Europe and
                                                       Seventh Army,
                                                       Germany and Task
                                                       Force Eagle,
                                                       Bosnia-
                                                       Herzegovina.
Aug. 96.........................  Aug. 97...........  Assistant Division
                                                       Commander
                                                       (Maneuver), later
                                                       Assistant
                                                       Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Aug. 97.........................  Jun. 99...........  Deputy Director
                                                       for Politico-
                                                       Military Affairs,
                                                       J-5, The Joint
                                                       Staff,
                                                       Washington, DC.
Jul. 99.........................  Jul. 01...........  Commanding
                                                       General, 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jul. 01.........................  Oct. 01...........  Commander, Joint
                                                       Warfighting
                                                       Center/Director,
                                                       Joint Training, J-
                                                       7, United States
                                                       Joint Forces
                                                       Command, Suffolk,
                                                       Virginia.
Oct. 01.........................  Oct. 03...........  Director,
                                                       Strategic Plans
                                                       and Policy, J-5,
                                                       later Director,
                                                       The Joint Staff,
                                                       Washington, DC.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Grade
------------------------------------------------------------------------
Department of Defense Military    Feb. 81-Feb. 82...  Major
 Observer, United States
 Military Observer Group, United
 Nations Truce Supervision
 Organization, Jerusalem.
Deputy Director for Politico-     Aug. 97-Jun. 99...  Brigadier General
 Military Affairs J-5, The Joint
 Staff, Washington, DC.
Commander, Joint Warfighting      Jul. 01-Oct. 01...  Major General
 Center/Director Joint Training,
 J-7, United States Joint Forces
 Command, Suffolk, Virginia (No
 joint credit).
Director for Strategic Plans and  Oct. 01-Jan. 03...  Lieutenant General
 Policy, J-5, The Joint Staff,
 Washington, DC.
Director, Joint Staff, The Joint  Jan. 03-Oct. 03...  Lieutenant General
 Staff, Washington, DC.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Army Commendation Medal (with Oak Leaf Cluster)
    Army Achievement Medal (with Oak Leaf Cluster)
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN George W. 
Casey, Jr., USA, in connection with his nomination follows:]
                                United States Army,
                                   The Vice Chief of Staff.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of the Commander, Multi-National Forces-
Iraq. It supplements Standard Form 278, ``Public Financial Disclosure 
Report,'' which has already been provided to the committee and which 
summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any firm or organization that is a 
Department of Defense contractor.
    During my term of office, neither I, nor my spouse will invest in 
any entity that would create a conflict of interest with my government 
duties. I do not have any present employment arrangements with any 
entity other than the Department of Defense and have no formal or 
informal understandings concerning any further employment with any 
entity.
    I have never been party to any civil litigation with the exception 
of the action, which is, annotated in Part D, Legal Matters, paragraph 
3. To the best of my knowledge, there have never been any lawsuits 
filed against any agency of the Federal Government or corporate entity 
with which I have been associated reflecting adversely on the work I 
have done at such agency or corporation. I am aware of no incidents 
reflecting adversely upon my suitability to serve in the position for 
which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely,
                              George W. Casey, Jr.,
                               General, United States Army.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    George W. Casey, Jr.

    2. Position to which nominated:
    Commander, Multi-National Forces-Iraq.

    3. Date of nomination:
    June 14, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 22, 1948; Sendai, Japan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sheila Lynch Casey.

    7. Names and ages of children:
    Sean Patrick Casey, 33.
    Ryan Michael Casey, 31.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    There are no positions other than those listed in the service 
record extract provided to the committee by the executive branch.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements other than those 
listed on the service record extract provided to the committee by the 
executive branch.
    There are no honors or awards other than those listed in the 
service record extract provided to the committee by the executive 
branch.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               George W. Casey, Jr.
    This 15th day of June, 2004.

    [The nomination of GEN George W. Casey, Jr., USA, was 
reported to the Senate by Chairman Warner on June 24, 2004, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 24, 2004.]


NOMINATIONS OF ADM VERNON E. CLARK, USN, FOR REAPPOINTMENT TO THE GRADE 
 OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS; AND LT. GEN. JAMES E. 
  CARTWRIGHT, USMC, FOR APPOINTMENT TO THE GRADE OF GENERAL AND TO BE 
               COMMANDER, UNITED STATES STRATEGIC COMMAND

                              ----------                              


                         THURSDAY, JULY 8, 2004

                                        U.S. Senate
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Allard, 
Sessions, Talent, Chambliss, Dole, Levin, Reed, E. Benjamin 
Nelson, Dayton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Brian 
R. Green, professional staff member; Ambrose R. Hock, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Paula J. Philbin, professional staff member; 
Joseph T. Sixeas, professional staff member; Scott W. Stucky, 
general counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Kenneth M. Crosswait, professional staff member; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
minority counsel; and Peter K. Levine, minority counsel.
    Staff assistants present: Alison E. Brill and Nicholas W. 
West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; Jayson Roehl, assistant to Senator Allard; 
Lindsey R. Neas, assistant to Senator Talent; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Elizabeth King, assistant 
to Senator Reed; and William K. Sutey, assistant to Senator 
Bill Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everybody. We have changed 
the time of our hearing today because the Majority Leader and 
the Democratic Leader arranged for the entire Senate to be 
briefed this morning with regard to the security situation 
facing our Nation here in the next few months. More will be 
said about that publicly as the day goes on by Secretary Ridge 
and perhaps others. Senator Levin is on his way, so you will 
forgive the absence of a number of Senators who are still at 
the briefing, which is under way.
    We will now come to order, and we are very pleased to have 
before the committee this morning our distinguished Chief of 
Naval Operations (CNO), Admiral Clark, who has been nominated 
for an additional 2-year term as CNO. Joining him today is 
Lieutenant General James E. Cartwright, Lieutenant General, 
Marine Corps. He has been nominated to serve as Commander, 
United States Strategic Command (STRATCOM).
    We welcome both of our nominees and their families. I 
wonder at this time if you might introduce the distinguished 
first lady of the Navy, Admiral Clark, who has been a dear and 
valued friend and a full partner in your distinguished career 
thus far.
    Admiral Clark. Thank you very much, Mr. Chairman. It is 
always a privilege to be working beside my commander in chief 
and my bride of 40 years, Connie.
    Connie, stand up, let everybody see you.
    Chairman Warner. We thank you, Mrs. Clark, for your 
marvelous service. It is a 24 hour a day, 7 day a week job that 
both of you have discharged well. We are so grateful as a 
nation that you have indicated that you will extend your tour 
of duty, and I am confident that the Senate will confirm you 
very promptly.
    General?
    General Cartwright. Thank you, Mr. Chairman. I would like 
to introduce my wife Sandy; my daughter Jamie, who is an 
analyst with Defense Intelligence Agency (DIA); my daughter 
Billie, who is a teacher in Fairfax County; her husband Andy, 
who is with the West Virginia National Guard, part of the 
Special Forces Group there, with tours in Bosnia and then 
recently in Afghanistan.
    I appreciate the opportunity to be here today, sir.
    Chairman Warner. Thank you very much.
    We have always viewed, Senator Levin and I, working 
together these many years that we have been on this committee, 
that families are an integral part of our nomination 
proceedings, because we recognize the very important role 
played by the spouses on behalf of those who perform these 
difficult duties.
    The military is a family. I have always felt that, and in 
the past few years we have shown a greater and greater strength 
of the family role in the military. How often have we heard 
around this table, Senator Levin, that the decision to extend 
the term of service as an enlisted person and as an officer is 
made around the dinner table? That probably took place here, 
too. So we welcome you and your families here this morning.
    Admiral Clark has been before this committee many times, 
having served since July 21, 2000, as the 27th Chief of Naval 
Operations. You have performed superbly. You have led the Navy 
to new heights. You will go on, I am confident, to achieve even 
greater goals. We are grateful for your leadership.
    I might say as a footnote to history, I think that you are 
the second in the contemporary history of the Navy to have gone 
the 6 years, Admiral Burke being the first. Am I not correct in 
that?
    Admiral Clark. That is correct, Mr. Chairman.
    Chairman Warner. Well, when you finish we will determine 
whether or not you have approached the successes of that great 
naval officer. We will hold that in abeyance.
    Admiral Clark. Yes, sir. I understand it is all about 
output. [Laughter.]
    Chairman Warner. Dealing with Congress.
    You have served in a number of billets, including, I think, 
perhaps the one that you and I have talked about so many times, 
and that is your early duty as a young officer aboard 
destroyers off the coast of Vietnam when I was back in the 
Pentagon. Then of course, you commanded the U.S.S. Carl Vinson 
battle group, the Second Fleet, United States Atlantic Fleet, 
and served as the Director of the Joint Staff. So you are well 
experienced to take on this post.
    Just over a year into Admiral Clark's tour as Chief of 
Naval Operations, our Nation suffered its perhaps worst 
disaster, an attack on September 11, 2001. We remember the 198 
individuals who died at the Department of Defense (DOD) on that 
tragic day, including 29 members of the United States Navy, 
both active duty and Reserve, who died in the command center 
while performing their duties.
    I compliment you, sir, for your compassionate response to 
the families of those military and civilian personnel in the 
Department of the Navy who died at the Pentagon and for those 
who have since, be they in the Navy, the Marine Corps, or other 
Services, and for your participation in recognition of their 
tremendous sacrifice in the cause of freedom and their 
families.
    We have witnessed the effects of Admiral Clark's leadership 
in the superb performance of the Navy during Operations 
Enduring Freedom and Iraqi Freedom. We see it today in the 
ongoing implementation of Sea Power 21, the Navy's strategic 
vision for the future. We are fortunate as a Nation again that 
you are willing, together with your wife and other members of 
your family, to take on this post.
    General Cartwright, I admire you for so many reasons. One, 
you had the aviation career that I always aspired to, but never 
was really qualified or able to achieve. To go back through the 
number of hours and the number of airplanes that you have 
mastered throughout your career, it is marvelous. You will be 
the first marine, if confirmed, to serve as Commander, United 
States Strategic Command. Your distinguished aviation record 
and outstanding record as an operational commander, including 
the First Marine Aircraft Wing, Marine Air Group 31, and Marine 
Attack Squadron 232. You previously served with the Joint Staff 
as the Director for Force Structure, Forces, and Assessment 
from 1996 to 1999, and returned in May 2002 to be the Director 
of this key directorate, the J-8. In your opening statement, I 
think it would be helpful if you expanded on the specific 
responsibilities of the J-8 post.
    We congratulate you and your family on achieving the 
appointment by the President.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Let me join you in 
welcoming and congratulating both of our two nominees. These 
are well-deserved nominations. I commend Admiral Clark and 
admire him as you do. I do not know General Cartwright as well, 
but had an opportunity to talk with him the other day in my 
office and was deeply impressed by a number of his 
characteristics, as well as by his background.
    As you have mentioned, Mr. Chairman, Admiral Clark has been 
a naval officer for 36 years. He has had a distinguished career 
in the Navy, serving as our CNO since July 2000. He will be 
only the second CNO to be reappointed to a second term, as you 
have mentioned.
    General Cartwright has been a marine for 32 years, spent 
the last 4 years as commanding general of the First Marine 
Aircraft Wing and Director of the J-8 on the Joint Staff, which 
gives him some extremely valuable background in terms of his 
new duties.
    We thank you both for your service. We thank your families. 
As our chairman has mentioned, we always try to remember the 
families because of the critical role they play. You would not 
be here without them. You could not serve without them. Our 
Nation could not be served by you without the support of your 
families.
    This is a very challenging period for our military. Admiral 
Clark, you are going to continue to be faced with the 
challenging task of recruiting and retaining a quality force, 
maintaining current readiness, and conducting the ongoing war 
on terrorism, and at the same time transforming the force 
structure of the Navy to deal with future threats.
    General Cartwright, you, among others, are going to be 
playing a key role in establishing requirements for future 
space systems and for the nuclear weapons that we have. That is 
going to be particularly critical because of the apparent 
interest of this administration in exploring new types of 
nuclear weapons and new uses for nuclear weapons. That is a 
highly controversial position that the administration has 
taken. We have had many debates about this issue around this 
table and on the floor of the Senate. Your role in establishing 
requirements and assuring that whatever systems that you have 
function properly and effectively is an absolutely essential 
role.
    So we welcome and commend both of you. We are grateful, 
again, for your extraordinary service to this Nation.
    Chairman Warner. Thank you, Senator Levin.
    The committee has asked Admiral Clark and General 
Cartwright to answer a series of advance policy questions. They 
have responded to those questions and, without objection, I 
will make these questions and their responses part of the 
record.
    We also have certain standard questions we ask every 
nominee who appears before the committee. Gentlemen, if you 
will respond to each question, then we can move on to your 
opening statements.
    First, have you adhered to the applicable laws and 
regulations governing conflict of interest? Admiral Clark?
    Admiral Clark. I have.
    General Cartwright. I have.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Clark. No, sir, I have not.
    General Cartwright. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with the deadlines established for the requested 
communications, including questions for the record, in hearings 
before the Congress of the United States?
    Admiral Clark. I will do that to the best of my ability, 
Mr. Chairman.
    General Cartwright. I will do that, Mr. Chairman.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    Admiral Clark. Yes.
    General Cartwright. Yes.
    Chairman Warner. Will those witnesses be protected from 
reprisal?
    Admiral Clark. Yes, sir.
    General Cartwright. Absolutely.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request by any duly constituted committee of the 
United States Congress?
    Admiral Clark. I do.
    General Cartwright. I do.
    Chairman Warner. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views; 
even if those views differ from the administration in power, 
you will provide them?
    Admiral Clark. Yes, sir, I will.
    General Cartwright. I will.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee of 
Congress or to consult with the committee regarding the basis 
for any good faith delay or denial in providing such documents?
    Admiral Clark. I will. I understand the question you are 
asking sometimes will get into the issue of executive privilege 
in matters. I will comply with the directives that I am given, 
but I will provide everything that I am authorized to provide, 
sir.
    Chairman Warner. Thank you, Admiral.
    General Cartwright. The same applies to me, sir.
    Chairman Warner. Now, first I would like to invite any of 
my colleagues who have joined us this morning if they would 
care to make an opening observation.
    Senator Allard.
    Senator Allard. Mr. Chairman, just briefly. I am glad to 
see that we have Admiral Clark before us again for 
consideration for Chief of Naval Operations. I think he has 
done a great job, and I have enjoyed working with him on those 
issues that we have had the opportunity to work together.
    I look forward to working with General Cartwright. I have 
looked over your experience, and I think that you have the 
background to do a good job. I look forward to working with 
you. Many of those areas that you are working in, General 
Cartwright, are areas of concern to me as chairman of the 
Strategic Forces Subcommittee of this committee. I look forward 
to working with you on the development of our global strike 
capabilities, the integration of our missile defenses, and the 
operation of our military space assets, which are extremely 
important to all branches of the Service. I am glad to see that 
we are giving a marine an opportunity to serve in that capacity 
and look forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Reed.
    Senator Reed. I just want to welcome both Admiral Clark and 
General Cartwright and thank them for their great service to 
the Nation. Thank you.
    Chairman Warner. Colleagues?
    Senator Talent.
    Senator Talent. Very briefly, Mr. Chairman. It has been a 
pleasure for me as a freshman in this committee and, 
notwithstanding that, the chairman of the Seapower 
Subcommittee, to work with Admiral Clark. I think his 
reappointment is an outstanding move. I am looking forward to 
working with General Cartwright, and welcome them both to the 
committee.
    Chairman Warner. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    It is a pleasure to welcome you back, Admiral Clark. Your 
distinguished career speaks for itself and the fact that you 
have been asked, but also that you are willing to re-up, I 
think is a reassuring thing for us as we face a very difficult 
and dangerous world. The importance of the Navy to that is 
clear.
    General Cartwright, I look forward to welcoming you to 
Nebraska, where we are very proud to be the home of Strategic 
Command. With the addition of Space Command capabilities and 
responsibilities, it will be a pleasure to welcome you.
    The fact that you are the first marine will cause some 
people to ask, why a marine? But they asked, why an admiral in 
Nebraska? So I am sure that we will get over that consideration 
real quickly. I also am proud to welcome you and your family to 
Nebraska, where we are looking forward to working with you both 
professionally and socially, as we have with the Commander in 
Chiefs (CINCs) at STRATCOM over the years.
    It is my pleasure to be here with you today, and I 
appreciate the kind response to all the questions that we asked 
during our meeting. I think you have gotten an idea of the 
capabilities and what the future changes and transformation 
time will require, and therefore I think you are an excellent 
selection. I look forward to a quick confirmation of your 
nomination.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Nelson.
    Senator Dole.
    Senator Dole. Admiral Clark, I look forward to working with 
you as you continue to pursue your transformation priorities. I 
want to mention that I am excited about the growing naval 
presence in North Carolina. I had the privilege of talking with 
a number of wonderful young sailors, both at Cherry Point and 
at Camp Lejeune Naval Hospitals, and I cannot say enough about 
these wonderful young people.
    Certainly, General Cartwright, I look forward to working 
with you in your very important role of supporting our national 
security. Our strategic forces must continue to put forth a 
safe, reliable deterrent, and STRATCOM must maintain the global 
perspective in stabilizing the international security 
environment and winning the global war on terror.
    So I congratulate you both and thank you for your 
outstanding service to our country.
    Admiral Clark. Thank you, Senator.
    Chairman Warner. Thank you very much, Senator.
    Admiral Clark.

STATEMENT OF ADM VERNON E. CLARK, USN, FOR REAPPOINTMENT TO THE 
      GRADE OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS

    Admiral Clark. Mr. Chairman, distinguished members of the 
committee, Senator Levin: Good morning. I want to say to each 
of you it is a great privilege to be here. I also want to say 
that it is a high honor for me to appear alongside General 
Cartwright. This is a great officer. He has been well nominated 
and well-chosen. He will serve with distinction if you confirm 
him to be the Commander of Strategic Command. It is truly an 
honor.
    I would say too, on the Joint Staff, setting aside the 
Chairman and the Vice Chairman, I get to work and rub elbows 
with this gentleman more than any of the other directors there. 
He is a fantastic officer.
    Chairman Warner. That is because of the duties in which he 
served in the J-8 post, is that correct?
    Admiral Clark. I am sorry, sir?
    Chairman Warner. In other words, you said that you have 
probably had more association. Is it because of his specific 
responsibilities?
    Admiral Clark. Because of his responsibilities as the J-8, 
I see more of him in the tank and in discussions about the 
creation of our future military. I would characterize my 
ability to observe him as, ``up close and personal.'' He has 
been well nominated.
    Chairman Warner. Thank you very much, Admiral.
    Admiral Clark. I also want to say thank you for the 
opportunity to discuss my potential renomination and the goals 
for the future of our Navy. I want to express my appreciation 
to each of you for your strong support for our Navy, a support 
that has allowed us to respond to the challenges that we have 
faced while I have been given the privilege of serving as the 
Chief of the Navy.
    Mr. Chairman, you mentioned I have been here now a number 
of times. I have come to know each of you well. I wish that 
America could see what I see in watching you labor for the good 
of America. It is clear to me that this Nation is blessed to 
have a body like this, because I have come to understand that 
creating the defense capability the Nation needs is just plain 
hard work. Your resolve has given our Nation the best Navy that 
we have ever known.
    My goals as the CNO for the past 4 years are a matter of 
record, and I report that I am pleased with the progress that 
we have made in the areas that I have identified as my 
priorities: manpower, current readiness, future readiness, 
quality of service, and, of course, alignment.
    Having said that I am satisfied and pleased with our 
progress, I must say that there is still a lot to do. If 
confirmed for this additional assignment, I will continue to 
emphasize the priorities that I last spoke about to you on 
February 10 in my posture hearing, and I will continue to focus 
on three specific goals for the future. We will seek to deliver 
the right readiness, at the right cost, to support the global 
war on terror, and to meet the Nation's warfighting needs. We 
will continue to develop our 21st century workforce and deepen 
the professional growth of our sailors. That means my 
commitment to the men and women who choose to wear the cloth of 
the Nation will continue to be my number one priority, because 
I am convinced that without them none of the things that we 
need to do are possible.
    Third, we will seek to accelerate our investments in our 
naval strategy, Seapower 21, to recapitalize and to transform 
our Navy.
    I am committed to pursuing innovative solutions to long-
term challenges, while I also remain committed to our great 
sailors. On that point, I want to say that having the 
opportunity to lead the young men and women of America who have 
chosen to be sailors and to mold and shape the Navy has been an 
extreme honor for me and my bride of 40 years.
    Mr. Chairman, I appreciate you recognizing her, and you 
called it correctly, the decision to continue to do this was a 
team decision, and we have been working on this project as a 
team. We are honored to appear before this committee for this 
rather unique reappointment.
    So I thank you for your continued support and I look 
forward to your questions. Thank you, Mr. Chairman.
    Chairman Warner. A wonderful statement, Admiral. Thank you 
very much.
    General.

     STATEMENT OF LT. GEN. JAMES E. CARTWRIGHT, USMC, FOR 
APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Cartwright. Mr. Chairman, Senator Levin, and other 
distinguished members that are here today: I really do feel 
greatly honored at this opportunity. I would be remiss, as 
Admiral Clark did, to not comment on the bipartisan support of 
our soldiers, sailors, airmen, and marines who are in uniform 
and serving today. This committee has really been forward-
leaning in taking care of our people and that is critical both 
today and into our future.
    It is a personal and professional honor to appear before 
you today as the nominee for the position of Commander, United 
States Strategic Command. As was mentioned earlier, this is a 
time of unprecedented challenge and a time of change for our 
forces and the Nation. I am humbled by the prospect of 
continued service in this assignment, alongside the talented 
people of the United States Strategic Command and all the 
soldiers, sailors, airmen, and marines of the Nation.
    If confirmed, I will add my energies to sustaining and 
enhancing the unique and essential contributions of Strategic 
Command.
    I thank you and the members for the opportunity today. I 
will digress a little bit here and talk, as you asked, a little 
bit about current duties that you have confirmed me for as the 
J-8 in the Joint Staff. This is a unique opportunity to be in 
that particular billet because you get the opportunity to look 
across a wide portfolio. Inside of the J-8 resides for you the 
opportunity to do assessments on force structure, acquisition 
programs, requirements, all the analytics that go to underpin 
our warfighting plans and the future of our force.
    In that billet I had the opportunity to provide advice both 
to the Chairman and to the Joint Chiefs; the opportunity to lay 
down the facts and say, here is how analytically these things 
lay out for us. Here are the opportunities. Here, to some 
extent, are the second and third order effects of decisions 
that you might make.
    It is with that background that I come to this job, if 
confirmed, to provide that kind of advice both to the Chairman 
and to the Secretary of Defense and President and also to the 
members of this committee, if asked.
    So, Mr. Chairman, I look forward to your questions along 
with Admiral Clark.
    Chairman Warner. Thank you very much.
    Admiral, we have watched the military departments go 
through their own analyses of transformation and particularly 
the Army has had an extraordinary amount of transformation. One 
of their goals has been to take, say, the current force level 
of the Army and transform it in a way that they are getting 
more firepower out of what they have, not only in personnel but 
equipment and the like. The Army feels the need for, and I 
think all of us wish to be supportive that they need a larger 
force level.
    Tell us about the degree of transformation that you have 
supervised in the Navy, and are you likewise trying to get a 
greater efficiency out of what you have in personnel and 
equipment, and what you project for the next 2 years?
    Admiral Clark. Well, that question is really at the heart 
of what the future is about, is it not, Mr. Chairman? In the 
written response to questions I think I have about five or six 
pages in there about what we have done so far executing our 
transformation plan.
    Let me start with the people side of this. What we see the 
Army doing is basically a restructuring to obtain more 
operational availability out of the force that they have 
already bought and paid for. Then they are looking at 
additional resources, which Congress is dealing with. I would 
report to you that one of the most important studies, 
potentially the most important study, that has been conducted 
since I have been the Chief is a study called the Operational 
Availability Study, that is led up by this guy on my left.
    I happen to believe that at the heart of everything that we 
need to do to transform is we have to figure out how to get 
more operational availability out of the investment that the 
taxpayers of America have already made in the military.
    For me it goes like this. On the people side, of course, I 
am trying to build a more effective and efficient Navy. I say 
``effective'' because I do not believe you start by trying to 
become efficient. I think if you become more effective and 
create better warfighting capability, you will become efficient 
naturally.
    I am the one Service Chief that has a program recommended 
before Congress that is reducing the number of people. I happen 
to believe that we have a Cold War personnel structure, and I 
am seeking to realign and transform my personnel system to the 
maximum extent that it is possible to do within the structure 
that we have today.
    We have done some things that will lead us to future 
transformations and addresses the operational availability 
issue. For 2 years, I have been talking to you about an 
experiment that we are conducting called Sea Swap. The ships 
are now home. When I appeared before you in February they were 
still in the Gulf, in the area of responsibility (AOR) 
conducting combat operations.
    One of the ships, a brand new Guided Missile Destroyer 
(DDG), went there for 18 months, and then one of the oldest 
ships I have in the Navy, a destroyer, went there for 2 years. 
I rotated the crews. In the process of doing so, I eliminated 
approximately 80 days of transit time, multiplied by 4 for the 
destroyer and 80 days of transit multiplied by 3 for the DDG. I 
have been also talking about my belief that we need about 375 
ships in the Navy. I think I can report to you that I do not 
know what that number is for sure now, because I am convinced 
that this kind of operational availability analysis is going to 
allow me to bring more combat capabilities to the Nation at 
lower cost and to provide that kind of combat capability on 
point where it gives the President of the United States the 
options he or she will need in the future to deal with the 
global challenges that face them. That is just one point.
    With regard to programs, I could talk to you at length in 
the written testimony and the response to questions about 
things like the multi-missioned surface combatant (DD(X)). 
DD(X), because it is all-electric, will create a fundamental 
change in the relationship between the United States Marine 
Corps and the United States Navy in warfighting. What does that 
mean? Well, to summarize it, I will say it like this: In 
Operation Desert Storm we saw precision come to the battle 
space. In the air arm of the military, the world watched as 
crosshairs went on windows in specific targets, and precision 
changed everything. We have not brought that kind of precision 
to land warfare yet, but we are now.
    DD(X) will bring a gun with a precision capability to 
initially fire 100 miles and hit this table. In times after 
that as we introduce electromagnetic----
    Chairman Warner. Maybe some other table you might target. 
[Laughter.]
    Admiral Clark. Yes, sir.
    Senator Levin. Now you know that you are making us nervous 
here. The chairman just redesigned this committee table!
    Admiral Clark. Let me not be taken literally. [Laughter.]
    In the days that follow as we continue our investment in 
more precision, an electromagnetic rail gun will increase our 
current capability by over 400 times and bring precision to the 
marines on the battlefield.
    Now, General Hagee can come up here and talk to you about 
how that will transform the way they fight. But it will be 
significant. These are examples. Manpower savings: DD(X) will 
have 125 or so people. Pete Schoomaker has reported to you 
10,000 people equals $1.2 billion worth of resources. If we can 
learn how to bring more combat capability with fewer people, we 
can invest that money in the investment streams that create 
tomorrow's military capability.
    Now, I must say this because I do not want to be 
misunderstood. Part of my belief--and if you reconfirm me, I 
would hope that you have picked this up, up to this point in 
the time in our experience together, but I want to reemphasize 
this. I have staked my whole first tour on the point that we 
are going to build people. This is not about cutting people; it 
is about buying the right level of readiness.
    My belief is it has to be good for sailors, but it also has 
to be good for the taxpayer, too. Here is what I believe: In 
order to compete in the 21st century, we have to compete in the 
marketplace for the human resources that will make our Navy 
what it is going to become, and that is the young men and women 
that are more and more gifted and will be more and more in 
demand in the marketplace.
    I am convinced that we are going to have to have 
incentivized remuneration systems that are different from what 
we have today. I am also convinced that when I look at the 
track history, manpower accounts have gone up 50 percent since 
I have become the CNO. Here is my commitment: I want to commit 
that we will spend whatever it takes to grow and develop the 
young men and women who have made the choice to serve and wear 
the cloth of the Nation. We will spend whatever it takes to 
grow and develop them. But I do not want to spend one thin dime 
on a person that we really do not need.
    So that is a brief top line on where we are going, Mr. 
Chairman.
    Chairman Warner. Thank you very much.
    General Cartwright, throughout almost the entire history of 
America's posture on strategic systems, we have relied on what 
is known as the triad: a sea-based leg, an air leg, and a 
missile leg. Give us your views as to whether that is to remain 
a fundamental concept in our strategic planning for the future 
and your assessment to date of those systems, their 
capabilities, and the need for replacement and how that should 
be done.
    General Cartwright. Thank you, Mr. Chairman. That is a 
broad order, but the triad has served the Nation well. We have 
gone through a review, the Nuclear Posture Review, which looked 
at that triad. It validated the contribution of the bombers, 
the contribution of the missiles, and the contributions of the 
submarines. It also looked at the opportunity to create 
defensive capabilities, the opportunities to look at non-
nuclear capabilities, both kinetic and non-kinetic. A third 
pillar, which is the infrastructure, if you take the offensive 
piece, the defensive piece, talks to the buildings and the 
mortar, and to the values that Admiral Clark just spoke to: the 
people, the intellectual capital, and the people that serve in 
the Services that provide these capabilities. Our ability to 
get the best and the brightest--the right ones--the ones that 
want to serve and who want to contribute, and nurture them and 
provide the opportunity for them to contribute. I think that 
that is one of the major challenges that I will have if 
confirmed, to bring in the right people, attract them, allow 
them to have the opportunity to contribute in these areas of 
offense, defense, and the infrastructure that support this 
great deterrent capability, and broaden that capability from 
the standpoint of the non-kinetic and the conventional means by 
which we can take a global perspective on deterrence. That is 
where we are trying to head.
    So if confirmed, those are the areas that I will focus on 
with respect to the triad, but to broaden it out, as we have 
done in this review, to take in both the defensive pieces and 
the infrastructure pieces.
    Chairman Warner. Let us go with some specificity on the 
three systems. The naval leg is always viewed as the most 
survivable leg.
    General Cartwright. Yes, sir.
    Chairman Warner. You have upgraded a number of missile 
ships. The lifespan of the existing fleet as far as I know, 
Admiral, is way into the future. So I think we can put that leg 
aside.
    But let us look at the airplanes, primarily the aging 
aircraft, the old, wonderful, magnificent B-52s. Again, you and 
I calculated the other day when we were visiting, some of them 
are into their half century of life, am I correct?
    General Cartwright. Yes, sir.
    Chairman Warner. How would you visualize continuing that 
system? Is there anything in your judgment that should be done 
now by the DOD, working with Congress, to lay a foundation for 
looking at a follow-on aircraft?
    General Cartwright. Well, first with the B-52, it has 
served us well. It continues to serve us well, and it has a lot 
of life left in it. The Air Force, in particular with the B-52, 
is looking at programs to extend the service life. Number one, 
to extend the viability of the platform with integrated 
avionics and weapons systems that are more relevant today and 
keep pace with the developments that are out there.
    In addition, you have the B-2 side of the house, which 
brings to the table the equation of great survivability. The 
question for the future that we look at is: What are the 
attributes that we think we are going to want for future 
systems? When do we believe that we are going to need to bring 
them to bear? When can we no longer modify the existing 
platforms to a level that keeps them relevant? When do we need 
to transition? What do we want to transition to?
    There are several studies out there right now, both ongoing 
and completed, that are starting to look at the kinds of 
attributes that we would like to have. Obviously, global reach, 
the ability to sustain or be persistent in the area and create 
effect out there are going to be critical assets. The 
survivability of a platform and its ability to get to the 
target is going to be absolutely essential, and the ability to 
go there in areas that are denied globally is going to be a 
critical aspect that we need to take a look at and figure out 
how we are going to accomplish.
    Some of those are going to bring in the technologies that 
we have, that we see on the horizon, of very high speeds, the 
ability to sustain and persist on station for long periods of 
time that are measured, not in minutes, but in days. Those are 
the types of capabilities that we will have to take a look at 
in the future.
    The critical questions will become: When do we need to make 
that decision? When do we need those new capabilities that can 
no longer be brought to bear by just modifying existing 
platforms? Then to sit down and have that debate about exactly 
when. Is this the time and what risks are we assuming by 
delaying the decision? I think for each of those legs those are 
going to be critical decisions that will come here in the near 
future.
    Chairman Warner. Let us take the land-based leg then, the 
missiles. Those systems have a lot of years on them.
    General Cartwright. Yes, sir. The land-based systems, the 
missile systems, are going through life extension programs. We 
are retiring the Peacekeeper fleet, but the motors, the 
launchers, the boosters, those things are still relevant and 
could be used in other ways. We should keep those and explore 
the opportunities that we have with those.
    My belief is that those systems still have life, whether we 
are talking about the Minuteman or the Peacekeeper. They still 
have a lot of viability. They need to be upgraded as 
opportunities become available. This committee has been very 
good in supporting those operations and those upgrades and the 
life extensions of those programs and keeping them relevant, 
and they still are a very relevant force.
    Chairman Warner. I thank you, General.
    Senator Levin.
    Senator Levin. First, Admiral, let me ask you a budget 
question. Many of us at the time that the budget was submitted 
by the administration argued that the fiscal year 2005 budget 
request did not include any funding for the wars in Iraq and 
Afghanistan. The administration has now changed their course. 
They agree that a $25 billion contingency fund is needed to 
bridge the gap between the start of fiscal year 2005 and the 
likely time when there will be a full supplemental request.
    Now, in the meantime, the DOD has asked Congress to shift 
about $3 billion within the Department of Defense's resources 
to meet more urgent fiscal year 2004 requirements. At the last 
hearing, you indicated that you did not have problems about 
cash flowing fiscal year funding to meet early requirements in 
fiscal year 2005.
    My question, however, is are you convinced now that you can 
maintain your current level of readiness and operate through 
the end of fiscal year 2004 with the resources that would be 
available under the reprogramming request?
    Admiral Clark. When we appeared before you in February, I 
was also asked what would my shortfalls be, and I believe I 
reported $1.3 billion or $1.6 billion. We did not know that 
there were going to be additional deployments for the marines. 
Before this committee and other committees, as the facts 
unfolded over the course of the spring and early summer, we 
testified to the fact that we would expect to be covered with 
unforeseen expenses through the supplemental.
    When it came time to do that, there were insufficient funds 
in the supplemental for us to be covered. So I am currently 
$1.3 billion short in fiscal year 2004. We have spoken openly 
about those numbers. I have reprogrammed $300 million of base 
support, project modernizations, and so forth, in the shore 
base structure, and I have taken some flying hour money and 
things to get by.
    No doubt about it, if this is not recovered in a bridge to 
fiscal year 2005 those issues will either have to be pushed 
into fiscal year 2005, and I have not programmed for them in 
fiscal year 2005, or our readiness will be impacted. So I can 
address any of those particular issues there, but I can tell 
you it is a couple hundred million dollars in flying hours and 
a couple hundred million dollars in steaming days and the $300 
million in shore structure, and the rest are smaller items. 
Those three items will affect our readiness. I will be able to 
sustain my six plus two posture, but let us say that my force 
was C-2. I would be at a lower level inside the C-2 structure, 
but I will be able to respond to global requirements. My 
readiness level will be lower.
    Senator Levin. Thank you.
    Admiral, in response to a prehearing question regarding 
what you might recommend as a potential change to the 
Goldwater-Nichols Act, you indicated disagreement with the 
Act's establishment of the Service Secretary as the sole 
acquisition authority within the departments. The reason that 
the Goldwater-Nichols Act was crafted as it was, to remove the 
Service Chiefs from the acquisition chain of command, was that 
Congress felt there should be an individual that makes 
acquisition decisions who is different from the individual who 
sets the requirements. Before Goldwater-Nichols there had been 
no healthy tension between the set of requirements and what 
might be considered affordable. Before Goldwater-Nichols, 
requirements took precedence, to the exclusion of more 
affordable systems that might be satisfactory, but not perhaps 
quite as good.
    If the legislation were changed to again include the 
service chiefs in the process, how would that ensure that that 
imperative of filling requirements would not overwhelm the 
decision to acquire something which is good enough and 
affordable?
    Admiral Clark. It is a great question. I wrote those words 
myself. There has been a lot of discussion in Washington over 
the course of the last year. In fact, we discussed this at a 
previous hearing. I want to set the stage for this. I happen to 
believe that we have a phenomenal team in the Navy department 
and the acquisition executive and I work extremely closely.
    Here is what I see as the extreme point in the law. Since I 
have been the CNO, I have been looking back over what I think 
happened in times prior and asking whether we were well served 
by the extreme point in the law. The extreme point in the law 
says nothing will occur and the services will take no action 
which will abridge this--and I am paraphrasing here, which will 
abridge this separation, so that the services are involved in 
acquisition decisions, or words to that effect.
    My view is that is too extreme. My view is that the 
services should be represented when you are at an acquisition 
point and you are looking at fiscal realities and you are 
trading off a potential--you might be way past the knee of the 
curve in buying a capability that was initially laid out in the 
key performance parameters, and in the final acquisition 
decision. If it was going to cost you the sun, moon and the 
stars to go to that next level, you ought to be represented in 
that discussion.
    That is the point that I really am referring to, Senator.
    Senator Levin. Just one question for you, General 
Cartwright. As the person in charge of operational concepts for 
strategic systems, how important is it for you to have good 
testing of a system to show what the military utility is? Do 
you believe that independent, realistic operational tests on 
major weapons systems prior to going into full production 
provide for that good testing?
    General Cartwright. Senator, the issue of operational 
testing is a very important issue, and it is laid out in the 
statute. There are various parts of those rules which I need to 
spend more time on to understand. Basically in the test regime, 
we have the opportunity to look at the performance of any given 
system that we would like to field in the developmental 
testing. That should be a venue by which we get some of our 
information.
    I am speaking here as if we had the opportunity, if I were 
confirmed in this position and looking at a particular system, 
a strategic system that was being fielded. Next, you have the 
opportunity for operational testing. In strategic systems we 
oftentimes cannot go to the final stage in our testing because 
of the types of systems. It is not like jumping in an airplane 
and carrying a bomb out to the target and actually dropping it 
and getting the chance to see how it falls and what happens at 
the point of impact and afterwards. But there are good regimes 
for operational testing and they should be operationally 
realistic, and I do support that.
    If confirmed, there is also some opportunity to conduct 
what we are calling military utility assessments, which is the 
opportunity for the combatant commander to look at the 
developmental testing and all that that brings to the table, 
the operational testing and all that that brings to the table. 
Then the other tools that we have: war games to understand the 
command and control aspects of any given system and how it 
would fit; its applicability, its attributes, the analysis that 
we can do, when and where you might use that capability. Those 
also have to be brought to bear.
    So, at the conclusion, each one of those tests gives you an 
insight into what it is you might want to be able to do and the 
ability of a given system to provide that capability. It would 
be my job to come to you at the end of that military utility 
assessment and say: ``I have looked at the developmental 
testing. I have looked at the operational testing. I have done 
as much as I can do to understand all the attributes of this 
system from a military utility perspective, and here is my 
recommendation.''
    Given that new systems often are spiraled and do not just 
have one iteration, and then are fielded, I need to come to you 
and give you my best judgment on: Is this spiral what we need 
and is it worth bringing to the table at this point in time, or 
what are the risks if we do not?
    Senator Levin. The operational testing you refer to as 
being part of that overall assessment which is provided for by 
the law, is it important that it be independent operational 
testing?
    General Cartwright. Yes, sir, absolutely.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral Clark, I am encouraged by your fiscal response to 
preparedness, because I think it clearly is what we need to do, 
having the right military to do what we need to do in this 
particular environment of threat, as opposed to the Cold War 
threat environment in preparedness.
    I notice you said that if you reduce the force by 10,000 
you save $1.2 billion. So is it your thought that you are 
looking at about $120,000 for training, equipping, and 
maintaining individual soldiers, airmen, sailors, and marines? 
Would that apply pretty much across the board, about $120,000?
    Admiral Clark. I am not sure I understand.
    Senator Ben Nelson. It costs so much to train, equip, and 
maintain personnel.
    Admiral Clark. Yes.
    Senator Ben Nelson. Individually, what do you think that it 
costs you to bring a new sailor in to serve?
    Admiral Clark. Well, it is different for every individual. 
This is why we have to have a 21st century structure.
    Senator Ben Nelson. Right.
    Admiral Clark. Because you cannot bring in a person, a 
highly skilled person, and get them and compete in the 
marketplace at the same cost as you do somebody with a lower 
skill set. So the future is about matching skill sets and 
optimizing the way you get your hands on them and acquire them 
for the institution.
    I have not gone into this before, but when I came into 
office I had a personal project for year 1. For me it was 
``alignment.'' Year 2 was the revolution in training, year 3, 
and so forth. If I am reconfirmed, my year 5 project is going 
to be the pursuit of a 21st century human resource strategy 
that addresses these issues. I believe this is the most 
important thing for my Navy to focus on. I actually believe it 
is a requirement for the entire military structure.
    What the human capital, human resource strategy does, it 
addresses first how do you acquire these individuals, and then 
what is the development cycle for them, and then how do you 
retain them, and should you sign onto a philosophy that says 
they are going to join you for life? Is that realistic in the 
21st century? It turns out that in the marketplace you find 
that it is less and less the case.
    So do you have ``on ramps and off ramps'' for people, and 
how do you do this? I can bring in a sailor for $12,000 to 
$15,000, but that does not even start the training process. To 
bring in a pilot, it costs me a million plus to train a pilot.
    So this is why we have to put the spotlight on this, in 
order to redirect those resources. The Congressional Budget 
Office (CBO) study pointed out just late last year in a study 
on Navy shipbuilding. They said since 1990 we have averaged a 
little over $8 billion a year in shipbuilding and acknowledged 
that we cannot have the Navy of the future if we continue to do 
that.
    I have been working to redirect resources so that we have 
them to invest in our future while we posture ourselves for the 
present and have the right kind of readiness for today.
    Senator Ben Nelson. Thank you very much.
    As the ranking member with my chairman, Senator Chambliss, 
on the Personnel Subcommittee, I would be very interested if 
you could give us more insight at a later date on what the 
compensation packages should look like to be modern. I would 
suggest that to you, General Cartwright, as well, because I 
think we are struggling, making a pie a piece at a time. We are 
not getting a comprehensive look at what compensation packages 
will make us competitive in the marketplace today.
    So I thank you, Admiral.
    General, with respect to the risks that we have with the 
National Missile Defense systems designed to protect us from 
nuclear armed missile attack or any other attack that might 
come our way with the weapons of mass destruction, chemical or 
biological, would you agree that the launch of a North Korean 
long-range missile against the U.S. would be an unforeseen 
event necessarily? If we knew that it was coming we could take 
all the necessary actions to prevent it, but the offense always 
has the element of surprise, whether it is in athletics or 
whether it is in warfighting. Is it safe to say that the 
operational testing that you are talking about and the 
developmental testing will put us into a position where we have 
major confidence that our ability to react to any kind of a 
launch would be the best that we could possibly have? Can we do 
more to aid you in meeting that challenge?
    General Cartwright. That is a great question. It is one 
that I am going to have to spend more time on, clearly. But if 
you know that a threat is coming, you obviously have an 
opportunity to bring a lot of the Nation's capabilities to bear 
on that threat. It may be that you take a very different tack 
if you do not know it is coming, or the opportunity to have a 
threat basically threaten the United States from which you do 
not have the opportunity to prepare, you would like to build a 
defensive system that has all the attributes you described.
    Senator Ben Nelson. To react to surprise as well.
    General Cartwright. Yes, sir, and the unknown about whether 
it is North Korea or somewhere else. Those are the types of 
attributes that we are going to have to look at as we grow this 
system. Those are the decisions that I have to bring to you on 
here is what we are capable of doing under the current system; 
is this where we want to be; do we want to go beyond that, and 
how. I will spend a great deal of time working to understand 
those opportunities.
    Senator Ben Nelson. I appreciate your answer. I am 
certainly encouraged by your willingness to move forward with 
operational testing. It has gotten to be a little bit of a 
testy issue sometimes on a rational basis here, and I am 
encouraged by your willingness to really look at it. We all 
want to make sure that at the end of the day it works or that 
we have the greatest assurance that it works, because it is 
expensive, a lot is contingent on it, and our security is 
dependent on it.
    So I thank you very much. I look forward to working with 
you.
    Chairman Warner. Thank you, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me echo what Senator Nelson says, Admiral Clark, with 
respect to the compensation packages. We have been kind of 
piecemealing this, in particular for the Guard and Reserve over 
the last couple of years, and all of us agree that we need to 
relook at this. I think it would behoove all of us, both active 
duty as well as the Reserve, to get a plan together so that we 
can help you in your recruiting and retention if folks know 
what to expect down the road. I think it would be smart to do 
that.
    Senator Warner, Senator Nelson, and I will look forward to 
working with you as well as the other chiefs on that issue.
    Talking about the Reserves, Admiral Clark, I know that you 
are continuing to move hardware within your Reserve units. Are 
you seeing any results of this, such as downsizing of the 
Reserves, with folks not reenlisting because all of a sudden 
they are having to go further away from home to carry out their 
weekend missions and their other training missions?
    Can you tell me what your thought process is on this, and 
is it going to impact your recruiting and retention?
    Admiral Clark. Well, it is a key issue, because before you 
came in we were talking about operational availability of 
forces and units. Operational availability of people is also a 
key issue that really applies to the Reserves. The fundamental 
thing of what we are doing right now is that we have a zero-
based review of the whole Reserve structure going on between 
the Chief of the Naval Reserve, Vice Admiral John Cotton, and 
the Commander of Fleet Forces Command, Admiral Bill Fallon. We 
are in the process of baselining everything that we have got 
with these objectives in mind.
    We want the Reserve Force of the future to be integrated 
with the Active Force fully. For much of our past that was not 
true, and our conviction is that that is what the Nation needs 
and that is what the Navy needs.
    I will tell you that we are so impressed with what the 
Reserve structure is doing in the global war on terrorism. In 
the Navy, our numbers that have been called up are certainly 
not as significant as the Army, but my whole Reserve structure 
is not nearly as big as theirs. We are looking at the creation 
of something that we are going to call Fleet Response Units 
(FRUs), that go hand-in-glove with this Fleet Response Plan 
that we have created, that is going to give us more operational 
availability. We are looking at the Air Force model, the way 
they have used the blended approach, which I think makes a lot 
of sense. So it is a two-way street, that there are actives in 
there and there are Reserves in there.
    None of these decisions are final. We are exploring our way 
through how to implement a Navy that is more responsive, that 
makes the best use of the Reserve structure, that meets the 
needs that the Navy really has in the 21st century.
    Now, I did not really answer your question. We are alerted 
to the potential problem that you describe. You cannot have a 
unit that is in your State and have all of the hardware parked 
12 States over. That is going to really complicate the problem, 
and that has to be a primary consideration as we reach for 
potential solutions.
    Senator Chambliss. We are going through some of that at 
Naval Air Station (NAS) Atlanta right now. You cannot have a 
more professional group than those reservists that are there 
now. They are superb individuals, and they are doing a terrific 
job. I know just from talking to them, that there is the 
potential there for that problem. So I hope you will seriously 
consider that.
    Admiral Clark. Absolutely.
    Senator Chambliss. General Cartwright, you discuss in your 
responses to the advance policy questions the importance of 
developing more robust pit production capability. While there 
is limited production facility at Los Alamos Labs, we do not 
have the flexible production capability that other countries 
possessing nuclear weapons do have. We are considering right 
now the establishment of another pit facility and where that 
location is going to be. If you will elaborate on the steps you 
will take if confirmed to ensure the United States does develop 
and maintain this capability, which is essential to maintaining 
an effective and safe nuclear deterrent.
    General Cartwright. Yes, sir. It is a wonderful question, 
and it is at the heart of this new triad and the infrastructure 
piece of this new triad, the ability to respond. It is broader 
than just building one component. It is looking at the entire 
capability and saying: What do we want to have to be able to 
respond if our current systems are either put at risk because 
the threat matures, or put at risk because there is a technical 
problem that we discover with them, or what we are trying to be 
able to do with the current capability needs to change to 
respond to that threat.
    To have the infrastructure, which is, again, not just the 
mortar and bricks, but it is the intellectual capital to be 
able to do these kinds of very sophisticated tasks associated 
in this case with pit production, having that intellectual 
underpinning, and having the capacity to respond in a balance. 
Let me go to kind of the analytic model of a response surface, 
that if one part of this complex system is becoming the 
through-put chokepoint, then the ability of the other parts to 
respond and make up the difference is one way of looking at it. 
In other words, can I go and invest in analytic tools that make 
me understand and give me the right pit through-put capability 
that I need, or do I need to have a facility that actually 
increases the through-put?
    We need to look at all of the pieces of the puzzle to make 
sure that we understand what portion of it will make the most 
significant difference and is the most responsive to why we are 
making a change. If I get the opportunity to assume this job, 
that is what I will be looking at, the holistic system, and 
what makes a difference, where do we need to put our investment 
in order to be best postured to respond to the emerging threat.
    Senator Chambliss. Thank you. Thanks to both of you for 
your service to our country.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, again thank you for your service to our Nation 
and to the Navy and the Marine Corps.
    Admiral Clark, there are current reviews of the size of the 
submarine fleet. Admiral Sestak, who is a very competent and 
capable officer, did a serious study, but that is classified. I 
do not want to get into that. But the last report in 1999 by 
the Joint Chiefs of Staff suggested that the appropriate level 
was 55 submarines. But in the middle of the next decade, which 
is presumably several years out, it would be anywhere from 68 
to 72.
    Do you have a number in mind right now in your view which 
is the right number of submarines to be deployed in the fleet?
    Admiral Clark. The Joint Staff has a study going on 
regarding undersea warfare, and it will address this issue. We 
are in the process--as you indicated, Admiral Sestak has done 
some work for me, and his work talks across a span of 
responses.
    Here is, I guess, how I would respond to this. When the 
chairman asked the question about transformation, there are so 
many things to talk about. I wrote pages and pages in my answer 
to my written questions. But when I look at the submarine 
force, I look at this: the incredible capability they bring to 
the table, and I will tell you that the 1999 study was done 
primarily driven by peacetime requirements and what we call 
intelligence, surveillance, and reconnaissance (ISR) 
requirements. My focus is on warfighting requirements first and 
then, what are the options after the warfighting requirements.
    I can tell you that coming at that from a different 
position is likely to give me a different perception of what I 
think we will need. But here is where we are with regard to 
requirements. There are a lot of studies out there. We have a 
study that says we need 168 surface combatants and I have got 
96. I have got another study that says I need 135. We have got 
studies that say we need 15 carriers and we have got 12. We 
have got studies that say that we need 3.0 Marine Expeditionary 
Brigade (MEB) lift for the Marines and we have between 2.5 and 
2.8.
    By the way, the studies are important, but what are even 
more important are the assumptions that cause the studies to 
turn out the way they have. Here is what I have asked of the 
submarine force. I said: Look, I believe that as we look to the 
future--and this is a transformational point--speed is going to 
be more important than ever before, which is why we moved three 
submarines to Guam, because the Pacific is important and we 
want to be ready to respond faster.
    This is why in our transformational concepts next year we 
will be talking about delivering twice as much combat power in 
half the time with the Marine Force. Speed is important to 21st 
century warfare.
    I believe we have to exploit the stealth capability that 
submarines bring to get more return in the pre-hostilities 
phase, because I believe this is the greatest advantage that 
they bring to the warfight. We have to make the investment so 
that it is possible for us to exploit that capability.
    I believe, Senator, over the course of the next number of 
months we will come down to again a spread of potential numbers 
where we might go. I can tell you that I do not know what the 
Joint Staff is going to say on this. So I am not in on their 
study. With the submarine force, we are going to apply exactly 
the same kind of analytical rigor to the requirements that we 
apply to every other platform set, and when that number comes 
out, whatever comes out, that is what we are going to bring up 
through the administration as the requirement for what we need 
to be able to win in the 21st century.
    Senator Reed. Admiral, I think in your written comments and 
also in your response you indicate that if you take a different 
scenario you can have a different answer.
    Admiral Clark. Absolutely correct.
    Senator Reed. The warfighting scenario, as you point out, 
depends on assumptions about duration of the fight, even the 
scenario itself, is it a quick win or is it a prolonged 
operation.
    Then the other aspect you mention is this intelligence ISR 
mission might be a peacetime mission, but I do not expect it is 
going to go away, and I think it is something that has to be 
factored, too.
    I presume from your answer all of those missions and those 
assumptions will be included.
    Admiral Clark. Well, let me make sure that I do not get 
misrepresented. The numbers were driven by a peacetime rotation 
requirement, but certainly you are right--that in wartime one 
of the most valuable things that a submarine brings to the task 
is they can go conduct covert kinds of ISR collection missions.
    Now, having said that, let us cut to the chase here. Cost 
is important. In every platform that we have, we are examining 
how can we afford what we need for the future. I have been 
talking about the challenges in changing the manpower profiles 
and all of that to the tunes of billions of dollars to try to 
create the 21st century Navy. We have got the record here. The 
CBO study lays it out clearly. We, as a Nation, have not been 
able to invest the resources to sustain the shipbuilding 
structure.
    So I am constantly looking to compete every potential 
capability against another capability to see, is there a better 
and more effective way that I can accomplish the mission. That 
is the way I take my task. That is what I am getting paid to 
do.
    We just had, just this last week, we had another indication 
that we are going to have an increase in the Virginia class. We 
have to get a hold of costs. By the way, there was an article 
in the New London dated this morning, and I want to praise the 
leadership of the submarine community. The Program Executive 
Officer (PEO), Admiral John Butler, was talking with the 
suppliers and saying: Look, we need your help to figure out how 
to produce this product in a competitive way, and we do. We 
need that. That is what we need to be able to do, because we 
cannot make it without the tremendous capability that the 
submarine force brings to the fight. We cannot dominate the 
undersea battle space without them.
    Senator Reed. Thank you.
    My time has expired, so, General Cartwright, I will have 
some written questions. Thank you.
    Chairman Warner. Thank you very much. We will, for the 
information of all members of the committee, leave the record 
open the usual period of time within which to submit questions. 
However, it is the intention of the chair, in consultation with 
Mr. Levin, to try and move these nominations tonight or 
tomorrow morning. I think it is important, particularly for 
General Cartwright. There is a change of command taking place 
with General Ellis. When is that scheduled?
    General Cartwright. If confirmed, sir, it is tomorrow 
morning. [Laughter.]
    Senator Reed. Just in time.
    Chairman Warner. You may have to go find one of those old 
single-seat aircraft and get it and fly your mission out there.
    We have Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, I do not have any 
questions.
    Chairman Warner. Fine, thank you.
    We have our good friend Mr. Dayton.
    Senator Dayton. I am amazed that the military has that much 
confidence in the efficiency of the Senate. [Laughter.]
    Certainly well placed with the chairman and the ranking 
member. They will pull us all through no doubt, and I look 
forward to supporting both of your nominations, and thank you 
for your service to our country.
    Admiral, I am impressed with your success in improving 
retention, and both my colleagues have touched on a couple of 
those areas. You cited in your answers some of the key 
ingredients. I guess I want to be clear. What is most important 
in retention and what can we provide from Congress more of or 
in addition to or whatever, because I think we all agree that 
we want to see that as successful as possible.
    Admiral Clark. An incredibly important question. Two years 
ago you gave me the authority to establish a pilot program. We 
called it Assignment Incentive Pay, and now three of the four 
Services are using it. The Army just implemented it a few weeks 
ago, and it absolutely changed the whole dynamics about the way 
they are manning Korea, with an incentivized bonus for people 
that chose to stay.
    It changes the whole tone of the institution. So what I 
would ask you is, please, because I have been successful in 
retention do not take away my ability to incentivize. My 
ability to incentivize comes out of the selected reenlistment 
bonus line. Because I have been successful, there is a tendency 
to go: Oh, well, they are not going to need as much of that. 
Please do not do that.
    What we have tried to do is put the power of choice in 
place. This is a transformation issue, Mr. Chairman. The future 
is about a web site where young people are going to get on 
there and bid for jobs. Their resume is going to be there, and 
the executive officer of the ship or the aircraft squadron is 
going to look at it. The Bureau of Naval Personnel and what 
they do is changing in front of our eyes.
    We have something called the slam rate. We said: Needs of 
the Navy, you are going. Our data is not great, but the numbers 
are about 33 percent. Last year my slam rate was 1.5 percent. 
We are effectively changing the environment.
    So what I ask you to do is to support this kind of 
incentivized process that we can do in the construct of the 
current pay and allowances tables. Ultimately, we have to go 
after those. But that kind of capability allows me to manage my 
work force, understanding that all lieutenant O-3s over 6 years 
are not the same and that all E-5s over 8 years are not the 
same.
    In order to compete, we have got to be able to 
differentiate between skill sets, and I need the help to do 
that.
    Senator Dayton. What help specifically, sir? Is the fund 
sufficient now? Do you have sufficient flexibility?
    Admiral Clark. Your willingness to allow us to pilot has 
been extraordinarily important. Now, I will tell you that in 
order for me to achieve the kind of efficiencies that I know 
that I can achieve in manpower accounts, I am going to have to 
have some tools that I do not have that would incentivize 
people to step aside.
    Senator Dayton. I just ask that you keep us informed and 
tell us.
    Admiral Clark. I would be happy to give you details of that 
in a written response if you would like.
    [The information referred to follows:]

    The Navy would like more flexibility and funding to shape our force 
as part of a broader 21st century Human Capital Strategy. While we have 
a number of statutory authorities to help us recruit and retain high 
quality personnel, we have limited means by which to stimulate 
voluntary separation among personnel in overmanned skill areas.
    Retraining and converting personnel from overmanned skill areas to 
undermanned skills is our primary approach for retaining highly-trained 
personnel while simultaneously improving the balance of the force. In 
many cases, however, retraining and conversion is neither feasible nor 
cost-effective. Therefore, statutory authorities that incentivize 
voluntary separation would help shape our force while maintaining a 
positive tone that will not detract from recruiting and retaining 
highly-educated and top performing professionals.
    We are currently evaluating proposals for force shaping authorities 
that would work with existing authorities and programs to give us 
maximum flexibility to adapt to emerging requirements. Our overarching 
plan would be to use new and expanded authorities such as a lump sum 
buyout, early separation lifetime annuity, a deferred annuity, expanded 
selective early retirement, reduction in high-year tenure gates for 
field grade officers, and non-monetary transition benefits. Funding for 
these proposals will be requested in forthcoming budget inputs.

    Senator Dayton. Thank you very much.
    General, regarding the ballistic missile capability, your 
predecessors and the others involved in that project, I think, 
have been in a difficult position for the last couple years 
because the Commander in Chief--and I do not mean this 
personally; this would be the case with any Commander in 
Chief--having said that there shall be deployment by November 
2004, everybody else is required to fall in line and to 
replicate that line.
    On the other hand, we on this committee and Congress, we 
are tasked with making our own independent assessments of that 
system, and it is a very expensive one. I find it extremely 
difficult to get any clear answers from within the system team. 
We can, of course, get the evaluations and all the conflicting 
studies from outside.
    You referenced the military utility assessment. When will 
that be undertaken or completed?
    General Cartwright. The military utility assessment is 
something that--if confirmed, I would undertake--but is already 
ongoing. The tools that the Strategic Command has to conduct 
that are both internal to the command and with its components. 
In addition, they have the engineering level expertise that we 
use out of an organization called the Joint Theater and Air 
Missile Defense Organization (JTAMDO) which provides us the 
engineering level of insight to understand the pros, cons, and 
the risks associated with any decision we would make.
    So, as is, the developmental and operational testing is 
iterative. At any given point, I would like to be able to reach 
in and say: Where am I today? If I am approaching a benchmark 
period driven by an event, the fielding of the capability, the 
testing, whatever it happens to be, what do I know, what are my 
confidence levels, where are my risk levels, and how would I 
articulate them and be able to bring them both to my leadership 
inside of the Strategic Command on up through the chain and 
obviously to this organization.
    Senator Dayton. I understand that you have a chain of 
command, but if you are asked directly by this committee would 
you provide that in clear and comprehensible English?
    General Cartwright. I will do my best to be clear and 
comprehensible.
    Senator Dayton. As unequivocally as can be possible, 
because I think we are doing here--you mentioned the word 
``rudimentary,'' and we recognize, given the way this is being 
undertaken, that that is a starting point. But it is just very 
difficult to find out, at least for me to find out, how 
rudimentary is rudimentary, and then where are we getting into 
the level of realistic testing, what kind of additional 
realistic testing needs to be undertaken, which seems to be 
taking a back seat now to deployment. So be it, that is the 
decision that has been made. But once deployed, I am not clear 
when the realistic testing is going to either be resumed or 
commenced, depending on how you define it.
    I am an old hockey goalie and a 95-percent save rate was 
awfully good, better than I usually could achieve. That is not 
good enough in this realm. I could not tell the opposing 
players to please only shoot from outside the blue line and 
preferably let me know in advance when they are going to shoot 
and only when I am ready and clear and everything else.
    So I mean, once you get into the kind of real world 
environment that I expect these would have to be functional and 
effective at a very high degree of almost perfect proficiency, 
that is a very different order from rudimentary. I do not know 
how we are planning and what the trajectory is in terms of 
time, expense, and procedures to get us to that point. But 
there is no point in having a system that is going to stay 
rudimentary, I think we would all agree.
    So I would ask that you give us that as a progress report 
and give it to us straight. You would be the first to do so.
    General Cartwright. I take that responsibility very 
seriously, and I will do that.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Gentlemen, as I opened the hearing this morning I stated 
that the Senate, or those that sought the opportunity, were 
briefed with regard to the heightened alert situation. I just 
want the record to reflect that each of you in your respective 
posts will heed that alert and see that those people and 
installations and equipment, ships, and the like under your 
command will be carefully given every protection possible.
    Chief, you are aware of this, I am sure.
    Admiral Clark. Yes, sir, to be sure.
    Chairman Warner. Fine. As you take over your post, there is 
a degree of vulnerability there that has got to be established 
and taken care of.
    General Cartwright. We will do that, sir.
    Chairman Warner. Are you aware of it also?
    General Cartwright. Yes, sir.
    Chairman Warner. Thank you very much.
    Admiral, the carrier strike forces are 12 in number and 
there are 12 expeditionary strike groups. Do you envision that 
that level will be continued throughout your projected 
additional 2 years as Chief of Naval Operations?
    Admiral Clark. The requirement is 12 today. I will tell you 
that I am in the process of trying set up a Sea Swap experiment 
for an expeditionary strike group to see if we could do 
something that large. If we could, it would affect my 
recommended investment profile and allow us to--I talked about 
the importance of speed--to transform to the next level of 
speed, especially in the Marine Corps set.
    Maritime prepositioned forces of the future will be a 
totally new concept. It is not the maritime prepositioned ships 
(MPS) of old. They will have flattops in them, they will be 
built to surge Joint Strike Fighters (JSF) and V-22 forward, to 
give the marines much more striking power, to bring precision 
warfare to bear to support the Marine Corps structure. It is 
going to be markedly different.
    If I could redirect resources by being able to Sea Swap 
expeditionary strike groups (ESG), we could start earlier on 
that, on that concept. But we have got to prove we can do that. 
So we are working toward that.
    Now, if I could have just 30 more seconds. With regard to 
carriers, it is not just Sea Swapping them. It is how many 
total do you need for the fight, the same response to Senator 
Reed's question about the submarines: How many do you need for 
the fight? How long will it take to get them to the fight?
    So those calculations might address the ESG. I see it less 
likely to affect the carrier structure, but that is all under 
analysis today.
    Chairman Warner. Is it within the realm of feasibility to 
do a Sea Swap with a carrier, given that there are anywhere 
from 5,000 to 6,000 personnel?
    Admiral Clark. It would be obviously much more difficult to 
do.
    Chairman Warner. Yes.
    Lastly, Admiral, I think every time we have the 
opportunity, really the extraordinary opportunity, to have you 
before us, we are always concerned about the vulnerability of 
your ships, primarily at sea. The memory of the U.S.S. Cole. 
remains with us. What systems do you regard as creating the 
greatest threat to our ships? Surface-to-surface missiles, for 
example?
    Admiral Clark. Again, like Senator Reed's question, I said 
it would depend on the scenario. So let me describe a couple to 
you.
    Chairman Warner. The follow-on: How do you envision in the 
coming year that you personally will direct not only the 
operations of the Navy, but the technical breakthroughs as they 
come along, to apply them against this type of vulnerability? 
There is a constant evolution of things regarding the surface 
to surface missile.
    Admiral Clark. Thank you. The number one principle for the 
future and what the Navy has to be able to transform to: No 
longer can we be primarily a blue water Navy and conduct the 
global war on terrorism. We had two sailors and a 
coastguardsman recently killed when they were inspecting the 
dhow that was intending to destroy the oil platform. The 
economic impact of which would have been incredible, because I 
believe something like 60 percent of the oil flow out of 
Southern Iraq goes through that platform. So if Iraq is to 
restructure itself economically, this would be devastating.
    So in days of old we took comfort. We put an airplane in 
the air and, oh, there is the grey ship with some numbers on 
the side, and it was easier. That is not what this war is 
about. We have to be able to do the deep blue water thing and 
we have to do the near-land warfare in the global war on 
terrorism, which is why I made the Littoral Combatant Ship 
(LCS) a priority to be able to deal with the near-land threat. 
You can look at nations that will take us on toe to toe, but 
that is much less likely than the asymmetric threat that faces 
us today and you were briefed on this morning.
    So how do we take that on, and what does that threat look 
like? A major war against a state in the future, frankly, I 
think it would be very worthwhile for us to go to a closed 
session and have a discussion about where we see that going in 
the next 10 to 20 years. I would very much like to do that in 
closed session.
    But in an open session, I want to say that the tools that 
they used on U.S.S. Cole, the tools that they used against the 
French ship Linthal, the tools that we saw them use against the 
oil platform, we must be able to defeat them and dominate that 
battle space. We are going to need more unmanned vehicles. We 
are going to need to be able to dominate that battle space in 
the shallows, so LCS has a shallow draft so that we can do 
that.
    The same thing will go for nations that could bring a large 
number of submarines against us, the tools they would use, and 
then the missile threat. The specifics of that we need to 
discuss in a closed session. But the threat is growing, and we 
have to invest in capabilities to defeat it. In my testimony, I 
talked about the transition to CGX. It will follow on the DD(X) 
hull and take us to a future so that this Nation can go where 
it needs to go.
    Chairman Warner. That is very reassuring.
    Thank you very much. We have had an excellent hearing. I 
wish you all well. I am confident we will act promptly on both 
nominations.
    Admiral Clark. Thank you very much, Mr. Chairman.
    Chairman Warner. We stand adjourned.
    [Whereupon, at 11:28 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Vernon E. Clark, USN, 
by Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your original nomination to be Chief of Naval 
Operations.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing on May 16, 2000?
    Answer. Yes, my views have changed. I believe, more strongly than 
ever before, in the importance of this joint legislation. As I stated 
at the time of my first confirmation hearing, I believe that these 
reforms have helped to significantly improve the effectiveness of our 
joint warfighting forces. Our military is much more capable as a result 
of Goldwater-Nichols.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols? If so, what areas do you believe it might be 
appropriate to address in these modifications?
    Answer. No legislation, especially when it fundamentally changes 
institutions, can predict perfectly how reforms will be implemented. 
So, I believe the time has come to conduct a review of certain aspects 
of the act.
    Most pressing is the need to review how acquisition is accomplished 
within the Department of Defense (DOD). We need to focus on how we can 
develop systems that are ``born joint.'' Command and control systems, 
for example, is one area where we can do better. We are not making 
sufficient progress in leveraging the buying power of something as big 
as DOD. Among the greatest risks facing us is the spiraling cost of the 
procurement of modern military systems. Additionally, implementation of 
the act's provisions giving ``sole responsibility'' for acquisition to 
the Service Secretaries has effectively cut the Service Chiefs out of 
the acquisition process. The voice of the Service Chiefs in this 
process should be enhanced.
    We have made great progress in developing joint perspectives. It is 
now time to examine joint educational requirements, joint billet 
structure and joint service credit to ensure we are best postured, from 
a statutory point of view, for the 21st century.
    If confirmed, I am committed to working with the Secretary of 
Defense and with the Secretary of the Navy to continue to evaluate this 
law and make recommendations to improve our joint forces.
                                 duties
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Chief of Naval Operations, as set forth 
in title 10, United States Code, and in regulations of the Department 
of Defense and Department of the Navy pertaining to functions of the 
Chief of Naval Operations?
    Answer. I am comfortable with the duties and functions of the Chief 
of Naval Operations (CNO) as delineated in the above regulations, and I 
recommend no changes.
                             relationships
    Question. Please identify any changes you have observed since your 
last confirmation in the relationships between the CNO and the 
following officials.
    The Secretary of Defense
    Answer. Secretary Rumsfeld has created an operating environment 
where there is significant senior executive exchange, the focus of 
which is the Senior Level Review Group (SLRG). This increased level of 
senior executive communication is generally oriented to broader DOD 
issues rather than those that are service-specific.
    Secretary Rumsfeld is also deeply involved in the selection of 
future military leaders, and that has changed our interface as well as 
the process for nominating three and four-star officers.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary continues to function as the number 
two in the Department. In the post-September 11 environment especially, 
my exchanges with him have become more policy oriented and less 
program/budget focused. My primary interface is through the SLRG.
    Question. The Under Secretaries of Defense and the Assistant 
Secretaries of Defense.
    Answer. The advent of the SLRG has given the Under Secretaries of 
Defense and the Assistant Secretaries of Defense more opportunity to 
set the agenda. Their impact, and the breadth of their authority, has 
therefore increased.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The chairman's involvement with the Secretary of Defense, 
not just day-to-day, but hour-to-hour, has increased. While this is to 
be expected in time of war, it is also due to the chairman's focus 
becoming more and more operational in nature.
    Question. The Combatant Commanders.
    Answer. I see more interchange between the combatant commanders and 
the Service Chiefs. Combatant commander conferences, for example, now 
meet three times per year rather than twice in order to enhance our 
exchange and maintain the DOD-wide focus on transformation and the 
global war on terrorism.
    Question. The Secretary of the Navy, the Under Secretary of the 
Navy and the Assistant Secretaries of the Navy
    Answer. The relationship between the Secretary of the Navy and the 
Office of the Chief of Naval Operations (OPNAV) staff has changed 
markedly. The Secretary of the Navy significantly streamlined his own 
staff, and we have established a much more collaborative environment 
within the DON that has transformed the way work is accomplished. The 
assistant secretaries have direct access to my Deputy CNOs and their 
working relationships have changed for the better. My three-star flag 
officers now work more directly with the assistant secretaries and this 
has also enhanced staff coordination. These arrangements have created a 
vastly improved environment of teamwork and the Department functions 
much more effectively as a result. The under secretary position is not 
filled.
    Question. The General Counsel of the Navy.
    Answer. No change.
    Question. The Commandant of the Marine Corps (CMC).
    Answer. The commandant and I have created a Navy/Marine Corps Board 
of Directors, which functions at the three-star level, and we 
formalized additional structures to improve the interface between the 
services. We created a ``Big Four'' (CMC, CNO, Vice CNO (VCNO), and 
Assistant CMC (ACMC)) and a ``Big 12'' (Big Four plus other key three-
star officers) which now provide a framework for senior level interface 
that never existed before. In addition, there are now Marine Corps 
general officers in virtually every corporate-level meeting that I 
conduct, including all of my budget and program meetings. While we 
remain two Services, the cooperation is greater than I've ever known it 
to be. This has led to a new level of co-development and is what the 
Nation deserves. The Marine Corps is our number one joint partner and 
we are seeking to run the headquarters in a way that proves it.
    The Secretary of the Navy, the Commandant of the Marine Corps, and 
I have a tremendous partnership as we work together to revolutionize 
the warfighting capability of the Navy-Marine Corps team.
    Question. The Chiefs of Staff of the other Services.
    Answer. The Service Chiefs are now individually and collectively 
pursuing joint solutions more aggressively. Our focus is more on joint 
program development and less on current operations in formal settings 
like the SLRG and the Tank, in bilateral service warfighter talks, and 
in acquisition. This is the most joint group of Chiefs we have had to 
date, and this progression to more ``jointness'' should be expected as 
we grow officers who have been ``born joint'' at junior levels.
    If confirmed, I look forward to continuing to foster the same 
strong relationships with leadership across the Department of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that you 
would confront if confirmed for a second term of office as CNO?
    Answer. The major challenges that I would face if confirmed for a 
second term are those that I have testified to this year, specifically:

        <bullet> Winning the ongoing battle to attract, develop, and 
        retain the most talented men and women that our Nation has to 
        offer.
        <bullet> Delivering the right readiness at the right cost to 
        support the Nation's warfighting needs.
        <bullet> Solving the investment challenge to create the future 
        capabilities and the vision outlined in Sea Power 21 to 
        recapitalize and transform our force and improve its ability to 
        operate as an effective component of our joint warfighting 
        team.
        <bullet> Creating, formalizing, and executing ideas that will 
        improve our productivity and reduce our overhead costs.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, the first item on my agenda will be the 
development of a Human Capital Strategy that makes sense for the Navy 
of the 21st century. As I testified earlier this year, we will continue 
to pursue the kinds of new technologies and competitive personnel 
policies that will streamline both combat and non-combat personnel 
positions, improve the two-way integration of active and Reserve 
missions, and reduce the Navy's total manpower structure. We have 
proposed a fiscal year 2005 Navy end strength reduction of 7,900 
personnel, and I believe that that is just the beginning. Your Navy is 
fundamentally different from the other services in that the combat 
power of fleet units is not directly proportional to the size of the 
crew. It will be even less so in the future as we integrate new 
technologies and implement transformational concepts of operation. In 
short, we expect to be a better educated and trained, but smaller 
workforce in the future. Getting there will likely require changes in 
the way we recruit, assess, train and manage that workforce. It will, 
therefore, also require some flexible authorities and incentive tools 
to shape career paths and our skills mix in a way that lets us compete 
for the right talent in a competitive marketplace.
    On the issue of readiness, with the help of Congress we now have 
the most combat-ready fleet that I've seen in my career. Our people are 
superbly trained and well provisioned. They are ready for combat 
operations earlier in their training and maintenance cycle and they 
remain so for a longer period of time. This has been made possible by 
the ongoing transformation of training and maintenance concepts. If 
confirmed, my challenge will be to continue to refine our understanding 
of the collective contributions of all the components of readiness, to 
accurately define the requirements, and to align the proper funding and 
provide a balanced investment to the right accounts. To that end, we 
will continue to advance the Integrated Readiness Capability Assessment 
(IRCA) process that I testified to this year.
    I also intend to pursue a broad analytical agenda in order to 
maximize our understanding of the data and assumptions that are the 
foundation of our campaign analysis and budget request formulation. As 
part of that work, we have already invested in improvements to our 
modeling and simulation capabilities, and we have modified our 
analytical processes to reduce the number of overlapping data reviews.
    Sea Power 21 defines the capabilities and processes that the 21st 
century Navy will deliver. My objectives in recapitalization and 
transformation of the Navy and its infrastructure to achieve this 
vision have not changed since my appearance before this committee on 10 
February 2004. If confirmed, I intend to continue our pursuit of 
distributed and networked solutions that could revolutionize our 
capability. We will focus in particular on the power of Sea Basing and 
our complementary capability and alignment with our number one joint 
partner, the United States Marine Corps. We will also continue our Sea 
Enterprise efforts to revolutionize the way in which our defense 
dollars are spent. We are committed to efficiency and productivity 
improvements that will generate the savings necessary to augment our 
investment stream and implement our Sea Power 21 vision.
                             transformation
    Question. If confirmed, you would continue to play an important 
role in the process of transforming the Navy to meet new and emerging 
threats.
    With the benefit of almost 4 years in office, please discuss the 
progress that the Navy has made in achieving its transformation 
objectives.
    Answer. When I became CNO, I established my ``Top 5 Priorities''--
Manpower, Current Readiness, Future Readiness, Quality of Service, and 
Alignment. In 2000, we were facing challenges and opportunities in each 
of these critical areas. We needed to recruit and retain the highly 
skilled, professional workforce of the future. We needed to invest in 
current readiness so our Navy would be able to project decisive power 
around the world, around the clock. We needed a vision to guide us in 
the 21st century. We needed to continue to take care of our sailors and 
their families and provide a quality of work worthy of their important 
service. We needed to ensure that our organizations, systems, and 
processes were aligned to deliver exactly what they were designed to 
produce--a combat-capable Navy, ready to sail into harm's way.
    The following is a breakdown of our significant accomplishments in 
each of those areas:

    I. Manpower. This is, and will remain, our Navy's biggest 
challenge. As I have written elsewhere in this document, we are in the 
process of developing a Human Capital Strategy that makes sense for the 
21st century. We would not be in a position to do that today had we not 
first tackled the fundamentals of winning the battle for people: 
recruiting the right people, raising retention and attacking attrition. 
We have built a mentoring culture, emphasized our commitment to 
diversity, and piloted personnel programs to capitalize on the 
revolution we have inspired in training and detailing. In short, we now 
have the highest quality workforce the Navy has ever seen.

        <bullet> Recruiting. We have consistently met or exceeded our 
        recruiting goals since 2000. In fact, I have approved a 
        reduction of 17,000 people in our recruiting goals since I have 
        been CNO, and I'm not convinced that we've reduced enough. The 
        reason is we are now retaining 62 percent of sailors with less 
        than 6 years of service. This, in turn, has allowed us to seek 
        out higher quality recruits than ever before. Nearly 15 percent 
        of our current recruits, for example, now have some college 
        experience, up by more than 300 percent since fiscal year 2000. 
        More than 95 percent of new recruits have high school diplomas, 
        up from 90 percent in fiscal year 2001. Minority officer 
        applications increased by 27 percent while minority Seaman to 
        Admiral-21 applications increased by 15 percent.
        <bullet> Retention. We have experienced extraordinary retention 
        in our Navy fostered by a new culture of choice and a focus on 
        professional development for our sailors. This new culture has 
        led to the highest retention in our history and this fact has 
        resulted in what I like to call a virtuous cycle in manpower. 
        We are not only able to be more selective in recruiting, but we 
        are also able to establish the kind of competitive environment 
        for reenlistment and detailing that we need to change the shape 
        of the force, developing a more educated and experienced group 
        of professionals to lead and manage our high-tech Navy. To that 
        end, we have grown the percentage of E-4s through E-9s (Top 6) 
        to 73.25 through the fiscal year 2005 budget submission, moving 
        well toward our goal of 75.5 percent by fiscal year 2007. 
        Sailors in many ratings have been given new opportunities to 
        compete and grow in our institution through adjusted Navy 
        Enlisted Classification (NEC)-targeted Sailor Reenlistment 
        Bonuses and the Perform To Serve program. We have also piloted 
        choice in assignments with a new geographic incentive pay pilot 
        program. Sailors are now able to compete for select jobs in 
        duty stations across the globe.
        <bullet> Attrition. Since fiscal year 2000, we have reduced 
        attrition by 33 percent. Our losses due to illegal drug use are 
        also down, while we increased drug testing by 12 percent.

    II. Current Readiness. As I said in my confirmation hearing 4 years 
ago, I believe that we have a responsibility to you in Congress and to 
the taxpayers to ensure that the Navy the Nation has already bought is 
properly provided for. That is at the root of why we have invested 
billions of dollars in training, maintenance, spare parts, ordnance, 
flying hours, and steaming days so that the current force is prepared 
on a day-to-day basis to deliver persistent combat power whenever and 
wherever it is needed. The fleet has answered the call by producing the 
best readiness levels I've seen in my career, and the combat-ready 
response of more than half the Navy to recent operations worldwide has 
provided ample demonstration of that fact.

        <bullet> Surged combat excellence to Operation Iraqi Freedom. 
        Seven aircraft carriers and nine big deck amphibious ships were 
        among the 164 U.S. Navy ships to deploy worldwide in support of 
        Operation Iraqi Freedom. Along with our number one joint 
        partner, the United States Marine Corps, we put more than 
        60,000 combat-ready marines ashore in Kuwait in 30 days. The 
        Military Sealift Command sailed and chartered more than 210 
        ships and moved more than 32 million square feet of combat 
        cargo and more than 1 billion gallons of fuel, or 94 percent of 
        the Nation's joint and combined capability to the fight.
        <bullet> Implemented a new Global Concept of Operations. To 
        enhance our Navy's ability to respond to crises whenever and 
        wherever needed, we have implemented a Global Concept of 
        Operations that increases both the number and capabilities of 
        naval assets that are forward deployed throughout the world. 
        This new operating concept delivers a sustainable global reach 
        to influence current events through the sovereign presence of 
        our naval forces.
        <bullet> Developed the Fleet Response Plan (FRP). The Fleet 
        Response Plan is a revolutionary new approach to Operational 
        availability for our Navy and greatly enhances the ability to 
        surge naval forces if required by the President. The FRP and 
        the supporting Integrated Readiness Capability Assessment 
        (IRCA) will enable us to surge 50 percent more combat power on 
        short notice to deal with future global contingencies.
        <bullet> Sustained the war against terrorists. We expanded our 
        littoral warfare capabilities by realigning our Naval Coastal 
        Warfare forces, establishing Mobile Security Force detachments, 
        adding an Explosive Ordnance Disposal unit to U.S. Naval Forces 
        Central Command and accelerating the planning for two new SEAL 
        teams.
        <bullet> Created Expeditionary Strike Groups. We enhanced our 
        strike capability with creation of Expeditionary Strike Groups 
        (ESG). The ESG combines the combat power of the Marine 
        Expeditionary Unit with the strike and Air Combat capabilities 
        of Cruiser and Destroyer escorts to create a transformational 
        capability in littoral warfare.
        <bullet> Improved organizational, intermediate, and depot 
        maintenance for our ships, submarines and aircraft. Innovative 
        programs like Shipmain and the Naval Aviation Readiness 
        Integrated Improvement Program helped develop and share best 
        practices, streamline maintenance planning and improved 
        performance goals in shipyards, depots and other maintenance 
        facilities.
        <bullet> Aligned our homeland security organization and 
        improved our force protection procedures. We established 
        Commander, U.S. Naval Forces, Northern Command, activated the 
        Atlantic and Pacific Shipping Control Centers, and created the 
        Naval Air Station North Island Anti-Terrorism/Force Protection 
        (AT/FP) test bed under the Commander, Navy Region Southwest, to 
        exploit technology and move new AT/FP capabilities into the 
        Navy.

    III. Future Readiness. At the Naval War College in June 2002, I 
introduced our vision of tomorrow's Navy, Sea Power 21, and this vision 
committed us to change. It began the process of translating theory into 
practice for a wide range of advanced concepts and technologies that 
will dramatically increase the combat effectiveness of the joint force. 
While we must continue to challenge our assumptions, I believe that 
recent operations around the world indicate that we are on the right 
vector.

        <bullet> Sea Strike. We introduced capabilities that extended 
        our reach and precision, providing joint force commanders with 
        a potent mix of weapons. For the first time, we deployed F/A-
        18E/F Super Hornet squadrons, providing greatly enhanced range, 
        payload, and refueling capability to forces in Operation Iraqi 
        Freedom (OIF). The Shared Reconnaissance Pod, the Advanced 
        Targeting Forward-Looking Infrared, the Joint Helmet Mounted 
        Cueing System, and the Multi-Functional Information 
        Distribution System arrived in the fleet and showed us the 
        power of these new knowledge dominance technologies. We began 
        the conversion of the first of four Trident Nuclear-Powered 
        Ballistic Missile Submarines into the Nuclear-Powered Cruise 
        Missile Attack Submarine conventional strike and Special 
        Operations Forces platform.
        <bullet> Sea Shield. During Operation Iraqi Freedom, the Navy 
        helped extend the defensive umbrella over joint forces ashore. 
        U.S.S. Higgins (DDG 76) provided early warning and tracking to 
        help U.S. Army Patriot batteries defend Kuwait and southern 
        Iraq from the threat of theater ballistic missiles. Also, 
        U.S.S. Lake Erie (CG 70) and U.S.S. Russell (DDG 59) combined 
        to acquire, track and hit a ballistic test target missile in 
        space with an SM-3 developmental missile in support of the 
        Ballistic Missile Defense program. These missile tests are 
        contributing to an initial Ballistic Missile Defense capability 
        that will become part of our Navy's ability to respond to 
        emerging threats. We have formed Task Force antisubmarine 
        warfare (ASW) to study improvements in ASW readiness, enhance 
        our capability, and ensure access for joint forces moving from 
        the sea to objectives inland. Task Force Hip Pocket 
        demonstrated dramatically improved close-in defensive systems 
        for surface ships in the near-littoral environment.
        <bullet> Sea Basing. We awarded three preliminary design 
        contracts for the Littoral Combat Ship (LCS), leading to the 
        construction of the first LCS in fiscal year 2005. We selected 
        the baseline design for the DD(X) multi-mission destroyer, 
        launched San Antonio (LPD 17) and Virginia (SSN 774) and began 
        fabrication of Makin Island (LHD 8). The Defense Science Board 
        study on Sea Basing, our Joint Forcible Entry study and the 
        Maritime Prepositioning Force (Future) Analysis of Alternatives 
        now nearing completion are all beginning to provide the 
        information needed to define future sea based expeditionary 
        operations. As our Sea Basing concept continues to unfold, we 
        will develop a more detailed view of LHA(R) and Maritime 
        Prepositioning Force (Future) which will shape our next budget 
        submission in these areas.
        <bullet> FORCEnet. FORCEnet is the connection between our 
        initiatives to integrate the power of warriors, sensors, 
        weapons, and platforms into a networked combat force. For the 
        first time, we have created a single organization to establish 
        an enterprise-wide architecture that puts in place standards 
        for both infrastructure management and the networking of combat 
        systems. We have also enhanced joint and coalition 
        interoperability on all of our deploying ships through 
        installation of combined enterprise regional information 
        exchange (CENTRIX) and combined operations wide area network 
        (COWAN) nets. We also partnered with the U.S. Army to develop a 
        joint, ISR airborne replacement for the aging EP-3.
        <bullet> Sea Trial. Sea Trial streamlined and formalized our 
        experimentation process and is up and running with the Fleet in 
        charge. Sea Trial is already providing us with valuable 
        insights into future tactics and technology. As an example, two 
        high-speed, wave-piercing catamarans (HSVs) were employed as 
        part of a joint-service experiment. HSV X1, known as Joint 
        Venture, conducted operations this past year in support of mine 
        warfare and special operations during Operation Iraqi Freedom. 
        HSV 2, known as SWIFT, is conducting experimentation in support 
        of Sea Power 21 concept development. These ships are an 
        experimental bridge to the LCS and their tests will help 
        mitigate the risk of the LCS program while further enhancing 
        our understanding of the near-land domain.
        <bullet> Sea Enterprise. As we pursue efficiencies and overall 
        effectiveness, we are running the business end of the Navy to 
        redirect resources towards creation of tomorrow's Navy. We have 
        focused headquarters leadership on outputs and execution and we 
        are creating ideas that will improve our productivity and 
        reduce our overhead costs. The Sea Enterprise Board of 
        Directors established an enterprise-wide approach to 
        transformation, validating $38 billion in savings across the 
        fiscal year 2004 future years defense plan and identifying $12 
        billion in new initiatives to help us recapitalize and 
        transform the force.

    IV. Quality of Service. Quality of Service is a balanced 
combination of quality of life and quality of work. Our goal and 
commitment is a Navy that provides good quality of life and work for 
our sailors and their families. We will continue to fund technologies 
and develop programs that enable our people to do their jobs more 
effectively.

        <bullet> Continuing investment in our sailors. Sailors are the 
        core resource of the Navy and we compete with industry to 
        retain them. Investing in Quality of Service is critical in 
        this effort. Congressional commitment to redress pay imbalances 
        relative to the civilian sector have allowed competitive base-
        pay raises and the completion of the DOD goal to eliminate out-
        of-pocket expenses for housing (by fiscal year 2005). 
        Additionally, we have funded achievement of Homeport Ashore, 
        moving all single sea-duty sailors to bachelor quarters by 
        fiscal year 2008.
        <bullet> Family focused programs. Quality of Service has also 
        been enhanced for the families of our sailors. We have improved 
        family housing and remain on track to eliminate inadequate 
        family housing units by fiscal year 2007. Family medical care 
        benefits have been enhanced through the initiation of TRICARE 
        for Life, ensuring superb medical care for qualified families 
        after their military service. Finally, traditional difficulties 
        with military service have been mitigated through partnerships 
        with private industry to provide mobile career opportunities 
        and enhance the Spouse Employment Assistance Program.
        <bullet> Accelerating the Revolution in Training and Education. 
        Training and education for our sailors are a critical component 
        of their quality of service and we have created a developmental 
        system to accelerate the implementation of training and 
        education improvements that has become a model for DOD. These 
        programs seek to create the workforce for the 21st century and 
        to ensure the right skills, in the right place, at the right 
        time. Education opportunities have also been enhanced through 
        the Navy College Program, including partnerships with civilian 
        colleges, to provide rating-related associate and bachelor 
        degrees via distance learning.

    V. Alignment. At its most fundamental level, alignment within our 
Navy is about two things. First, it ensures that organizations, 
systems, and processes are constructed to effectively and efficiently 
produce a combat-ready fleet geared to fight as part of the joint 
force. Alignment is also about effective communication, ensuring that 
we share a common understanding of the mission and objectives, and that 
we speak one message with many voices across the entire organization. 
Over the last 4 years, we have launched numerous initiatives aimed at 
increasing the alignment of our organization.

        <bullet> Reorganized the Office of Chief of Naval Operations 
        (OPNAV) staff. We established the Deputy CNO for Warfare 
        Requirements and Programs (N6/N7), thereby significantly 
        enhancing the integration of platform and network requirements, 
        and resource planning and programming. We refocused the mission 
        of the Deputy CNO for Fleet Readiness and Logistics.
        <bullet> Reorganized the Fleet. We created the Commander, Fleet 
        Forces Command (CFFC) to integrate policies and requirements 
        for manning, equipping, and training all fleet units. We 
        created Fleet Type Commanders to lead their communities with 
        one voice, from the waterfront. We established the Naval 
        Network Warfare Command as a single organization responsible 
        for network, space and information operations. We organized the 
        Naval Construction Battalions into a single division. We also 
        established the Commander, Navy Education and Training Command 
        to serve as the Chief Learning Officer for the Navy and to be 
        the single authority for individual training (officer and 
        enlisted) strategy and policy. We aligned the Navy Warfare 
        Development Command and warfare centers of excellence under 
        CFFC to stimulate concept development and technology insertion 
        to the fleet. We established the Commander, Navy Installations 
        Command (CNI) to better guide the operations, administration 
        and support for Navy installations worldwide while reducing 
        infrastructure management layers.
        <bullet> Improved our alignment for joint warfare. We joined 
        with the Marine Corps to integrate USN-USMC logistics 
        functions, capabilities, and processes, and we implemented the 
        Navy-Marine Corps Tactical Air integration plan. We also issued 
        the Transformation Roadmap to specify the capabilities required 
        to increase joint warfighting effectiveness. We invested in the 
        U.S. Coast Guard's Deepwater Integrated Systems Program, new 
        munitions development with the U.S. Air Force, and joint 
        experiments with the U.S. Army on high-speed vessels.

    Question. What are your goals regarding transformation in the 
future?
    Answer. My beliefs about the future boil down to this: success in 
the world that we are moving toward will demand two attributes above 
all others--speed and agility. This is true regardless of whether we're 
talking about combat or the size and adaptability of our industrial 
base. It is the demand for speed and agility that drives much of our 
thinking about the following transformation goals:

        <bullet> Develop new concepts of operation and the systems that 
        support them. We have to get to the fight faster and we have to 
        seize and retain the initiative once there. That means 
        increasing the operational availability of our forces by 
        continuing to refine and test the Fleet Response Plan and its 
        associated training and maintenance processes. That means 
        studying our base structure to ensure that we are in a position 
        to win. It also means that we have to do what we can to lighten 
        the load of joint forces going ashore and reduce our ground 
        footprint. To that end, we must more fully develop the 
        operational concepts and tools required for seabasing, 
        pervasive awareness in the battlespace and the delivery of 
        precision, seabased fires to support forces ashore. Some of 
        those tools include the Littoral Combat Ship and modular combat 
        systems, Aerial Common Sensor (ACS), an all-electric drive 
        DD(X) and the continuing development of the electromagnetic 
        rail gun, joint strike fighter, organic mine warfare, unmanned 
        air/surface/subsurface vehicles, air and ballistic missile 
        defense, and stealth in our ships and aircraft.
        <bullet> Leverage potential changes in the Maritime 
        Prepositioning Force (Future). Minimizing dependence on foreign 
        bases and the need to establish a beachhead for projection of 
        power ashore, we will use the maneuver space of the sea to 
        usher in dramatic new ways of employing joint forces to deter 
        conflict, wage war and restore stability. In that regard, the 
        Commandant of the Marine Corps and I have initiated an analysis 
        of alternatives to determine how best to leverage potential 
        changes in the Maritime Prepositioning Force (Future) in order 
        to generate a more responsive amphibious capability; one that 
        will deliver combat power faster and with more lethality.
        <bullet> Enhance interdependence with our joint partners. Speed 
        and agility apply as well to the way in which we run the 
        business of putting combat power to sea. In that vein, we have 
        initiated efforts to achieve true integration, even 
        interdependence with our joint partners. We have initiated a 
        Spiral Development process to increase return on our initial 
        investments and to reduce the risks associated with 
        technological advancements. We need to look hard at right 
        sizing the industrial base to build the military capability we 
        need for the right kind of fast and agile Navy of the future.
        <bullet> Ensure our ability to operate in all elements of the 
        unique maritime domain. It has become increasingly clear that 
        we must have a Navy that can operate in two very different 
        strategic environments; we must maintain our readiness to win 
        decisively against an enemy at sea, but we must also be able to 
        operate effectively in the littoral environment required by the 
        global war on terrorism. Transformational technologies such as 
        the Littoral Combat Ship and Unmanned Vehicles, among many 
        others, will employ spiral development techniques for future 
        and evolving technologies that will ensure our ability to 
        operate in all elements of the unique maritime domain.
        <bullet> Refine our infrastructure requirements and level of 
        manning. As we evolve our concepts for employment of forces, 
        this will allow refinement of our infrastructure requirements 
        to include the appropriate number of ships, aircraft and 
        submarines. We will continue to refine concepts such as Sea-
        Swap, and we will continue to experiment with multiple crews 
        for various platforms to not only define how many assets are 
        required, but how much structure is needed to create and 
        sustain them and what level of manning is required.

    In sum, if confirmed, my goals for transformation would be to 
expand upon our asymmetric advantages, speeding our process of 
innovation and driving the co-evolution of concepts, technologies, and 
doctrine.
                          fleet response plan
    Fleet Response Plan (FRP) has been implemented to provide a surge 
capability to provide ``presence with a purpose.'' There have been some 
reports that indicate dissatisfaction with the unpredictability of the 
new deployment schedules.
    What strengths and weaknesses have you perceived to date with the 
implementation of the FRP?
    Answer. FRP formalizes a surge capability we have always had, and 
streamlines our maintenance and training processes in order to enable 
progressive readiness in the fleet. The principal strength of the FRP 
is that it will allow us to surge 50 percent more combat power on short 
notice whenever the Nation needs our naval forces to arrive with 
overpowering force. This is being accomplished largely within resources 
already planned, with no increase in tempo of operations/personnel 
tempo. While the timing and sequence of underway time may shift, the 
total amount of underway time is not increasing. The end result is that 
we derive significantly more return on the Nation's investment in naval 
forces.
    FRP also attempts to maintain the readiness state of naval forces 
at a higher level throughout the course of the employment cycle, thus 
increasing the operational availability of the force. To do this, we 
have fundamentally reconfigured our employment policy, fleet 
maintenance, deployment preparations and fleet manning policies to 
expand the operational availability of non-deployed fleet units. We 
have shifted the readiness cycle from one centered solely on the next-
scheduled-deployment to one focused on returning ships to the right 
level of readiness for both surge and deployed operations. In short, we 
have been seeking to instill a ``culture of readiness'' throughout the 
Fleet so that our adversaries can no longer count on our predictability 
in how and when our forces will be employed. This added flexibility and 
adaptability is an important part of confronting new threats and giving 
the President options as we prosecute the global war on terrorism.
    FRP is in its first full year of execution and, while we are 
working to identify areas of the plan that require refinement, no 
noteworthy weaknesses have been identified to date. ``Summer Pulse 04'' 
is the first exercise of FRP, and will culminate in simultaneous 
deployment of seven carrier strike groups operating in five theaters 
with other U.S., allied and coalition military forces.
    Question. Are there sufficient assets to support the ``6 plus 2'' 
surge of Carrier Strike Groups, particularly since there are only 10 
active airwings to deploy on the 12 aircraft carriers?
    Answer. The FRP 27-month employment cycle allows us to sustain 
eight Carrier Strike Groups in `surge ready' status. For a number of 
years, we have operated with 12 aircraft carriers and 10 airwings. Type 
Wing Commanders prudently schedule airwing aircraft depot-level 
maintenance periods prior to and during their Inter Deployment 
Readiness Cycle to ensure adequate assets are available for training 
and deployment. Nominally, two aircraft carriers are in extended 
maintenance periods at any time. By rotating airwings to available 
aircraft carriers the ``6 plus 2'' commitment is met.
    Question. After a surge, do you feel there is sufficient 
maintenance and repair capability in the public and private sector to 
quickly reconstitute the force?
    Answer. During OIF, we surged seven Carrier Battle Groups, four 
Amphibious Readiness Groups, and two Amphibious Task Forces; more than 
half the fleet. That force was reconstituted using both public and 
private ship depot repair facilities. All the ships that participated 
in OIF have been reconstituted and are back in their notional 
maintenance schedule. Should another surge be ordered, there is 
sufficient repair capability and capacity to reconstitute the fleet and 
reestablish notional maintenance rotations.
    Question. How does ``presence with a purpose'' differ from other 
concepts such as ``virtual presence''?
    Answer. ``Virtual presence'' refers to the fact that some military 
assets of the United States need not be deployed to a theater of 
operations in order to be employed for combat. In theory, therefore, 
these assets are always virtually present in the minds of friends and 
potential enemies alike. That said, ``virtual presence'' is actual 
absence, and absent forces cannot engage with allies or demonstrate 
commitment in peacetime, nor can they generate persistent combat power 
and operational agility in war. The ``virtual presence'' of strategic 
weapons and space-based assets is complementary with, not a substitute 
for forces deployed overseas.
    ``Presence with a purpose'' is a term that I've used to describe 
moving beyond rigid 6-month, heel-to-toe rotational deployments based 
on the calendar rather than on the accomplishment of specific missions. 
It is the surge capability provided by the FRP that makes possible this 
reexamination of the definition of global presence. It's about 
capitalizing on the tremendous investments that we've made in training 
and maintenance, building a culture of readiness, and generating the 
responsiveness of our forces required for victory in a new era where 
time is the friend of our enemy. Then it is about maximizing the effect 
of our presence, both in real-world operations and in exercises. I 
believe that to win quickly and at minimum cost, we must arrive early 
and with the right set of capabilities. ``Presence with a purpose'' 
helps us to do that.
                         vision for the future
    Question. In your Sea Power 21 vision for the Navy, you have put 
forward a notional force structure that you have publicly stated would 
translate into a requirement for approximately 375 ships. Yet recent 
documentation from the Defense Department endorsed a shipbuilding rate 
that would maintain, at most, a 300 ship Navy. In the past, Navy 
officials have been consistent in testimony that ``quantity has a 
quality all its own.'' Additionally, you have been quoted in the papers 
as indicating that the 375 ship number may not be that important.
    Has anything changed that would alter your previous stated 
requirement for approximately 375 ships?
    Answer. We are continuously studying and updating the analysis that 
supports this number. Like all analysis, that which supports a Navy of 
approximately 375 ships is based upon assumptions about technology and 
about how we use technology to generate warfighting capabilities. For 
example, our estimates of the range, payload and sensor envelope for 
future unmanned vehicles will generate a notional number needed to 
develop some percentage of sensor coverage over a given area. In turn, 
the number of unmanned vehicles that can be carried, launched and/or 
controlled by a single ship may vary depending upon radio frequency 
band and bandwidth requirements, operator requirements and the physical 
capacity of the ship itself. From this example, it's easy to see that a 
small change in any one of these variables will have an impact on the 
outcome of the total ship number analysis.
    Add to that new operating concepts like Sea Swap, with which we are 
experimenting now, and the variables in the analysis may change again. 
Sea Swap has the potential to increase the operational availability of 
our platforms for forward presence and for surge operations without 
extending the deployments of our sailors. This could also modify our 
investment approach.
    We will continue to assess the impact of new technology and new 
operating concepts as we work to transform our Navy. Now and in the 
future the challenge will be to balance risk and an affordable fleet on 
the one hand with the global defense needs of the Nation on the other. 
If new analysis supports a different number of ships, then you will 
hear it from me first.
    Question. Do you still envision a force of 12 Carrier Strike Groups 
and 12 Expeditionary Strike Groups?
    Answer. Yes, but as I discussed above, new technology and new 
concepts of operation may change our analysis of what is needed.
    Question. What effect have current operations had on your vision?
    Answer. Operations Enduring Freedom and OIF were the most joint 
operations in our history and they have provided the best possible 
opportunity to dissect, study and analyze some of the limiting factors 
and effects of how we fight. While we recognize that we must continue 
to challenge all of our assumptions in a variety of scenarios, our 
lessons learned indicate that the capabilities-based investment 
strategies, new war fighting concepts, and enabling technologies we are 
pursuing in our Sea Power 21 vision are on the right vector.
    These operations proved--more than anything else--the value of the 
combat readiness in which the Nation has invested, and the importance 
we must place on improving the fleet's ability to respond and surge 
with decisive, persistent combat power. They demonstrated the 
importance of the latest technology in surveillance, command and 
control, and persistent attack. Sensors and precision weaponry are 
changing everything we know about the balance between firepower and 
maneuver in a battlespace defined increasingly by time and information 
rather than distance and geography. In this environment, time critical 
targets will increasingly be the norm rather than the exception, and 
the speed of action will demand that we deal more effectively with the 
doctrinal problems associated with fratricide. Our operations over the 
last few years have also highlighted once again that over-flight and 
basing overseas are not guaranteed; our dominance of the maritime 
domain and our consequent ability to quickly deliver an agile combat 
force is a priceless advantage for our Nation.
                     attack submarine force levels
    Question. The most recent official statement of requirements for 
attack submarine force levels was a study by the Joint Chiefs of Staff 
in fiscal year 1999. That study indicated that the minimum requirement 
for attack submarines is 55 boats, and that in the future the Navy 
would need to have between 68 and 72 boats. A substantial portion of 
these numbers of boats were deemed necessary to meet various 
intelligence, surveillance, and reconnaissance requirements. There have 
been recent press reports that the Navy is considering reducing the 
force structure of attack submarines to fewer than 40 boats, a 
significant reduction from any of these levels.
    What are the considerations that might permit the Navy to conclude 
that a number of attack submarines substantially smaller than 55 would 
be sufficient to meet the requirements of the combatant commanders and 
other intelligence, surveillance, and reconnaissance needs?
    Answer. The reported studies recently alluded to in the press are 
Navy internal efforts that are continuously conducted. No definitive 
submarine force structure has been determined. Navy, Joint Chiefs of 
Staff (JCS), and Office of the Secretary of Defense (OSD) are 
conducting a submarine force structure assessment that will conclude 
later this year.
    In considering whether the minimum attack submarine force-level 
requirement of 55 should be reduced, it is important for studies and 
analyses to evaluate the range of options and potential performance 
versus the risk associated with those options and the trade-offs 
between competing platform investments. We have a responsibility to 
balance all of our warfighting investments to deliver the full range of 
naval capabilities. Over the past 4 years, we have made tough decisions 
to reduce the total number of surface combatants and tactical aircraft 
based on this kind of analysis. Submarines are, and will continue to 
be, part of the calculus in determining how best to deliver the 
capabilities the Nation requires of its Navy.
    A thorough analysis of the required number of submarines should 
consider the potential duration of future conflicts and subsequent 
threat draw down rates, the value of precursor actions and distributed 
sensors, possible changes in threat numbers and capabilities, changes 
in the environment or theater of operations, changes in strategy and 
tactics, inherent differences in capabilities of platforms, forward 
basing and optional crew rotation versus supportable infrastructure, 
political climate, and vulnerability of the forward basing to weather, 
threat of attack and other variables.
                          joint forces command
    Question. In your view, what is the appropriate role of the Joint 
Forces Command?
    Answer. As the Department of Defense Executive Agent for Joint 
Experimentation, Joint Forces Command is responsible to the Chairman of 
the JCS for creating and refining future warfighting concepts and 
integrating service efforts in support of the Joint Vision. They 
coordinate and collaborate with the Joint Staff, Services, combatant 
commanders, and various defense agencies to ensure concept development 
and experimentation is conducted in a common joint context to support 
the Secretary of Defense Transformation Planning Guidance and CJCS 
Joint Vision Implementation Plan.
    Question. What role should Joint Forces Command play in 
experimentation, acquisition, and exercise planning and execution?
    Answer. Joint Forces Command (JFCOM) coordinates with the services 
to integrate experimentation as well as joint concept and prototype 
development. They should continue to develop and define the joint 
context for experimentation and their Joint Experimentation Campaign 
Plan. This will help synchronize experimentation and assessment events 
to refine joint concepts and doctrine, organization, training, 
material, leadership, personnel, and facilities to realize desired 
joint capabilities.
    Through continued co-sponsorship of service war games and 
collective assessment of these games and other events such as 
exercises, studies, Advanced Technology Demonstrations and real-world 
operations, JFCOM will provide a cohesive joint operational concept 
development environment. At the same time, they should ensure each 
event supports individual Service objectives as well as broader 
Department of Defense transformation goals.
    JFCOM's role in the acquisition process should remain to inform the 
Joint Capabilities Integration and Development System (JCIDS) process 
through findings from the conduct of joint experimentation. The 
identification and development of transformational warfighting 
capabilities through experimentation events that reveal potential 
material solutions should be forwarded to the Joint Requirements 
Oversight Council (JROC) for consideration and implementation in the 
JCIDS analysis process.
                      united states naval academy
    Question. In the National Defense Authorization Act for Fiscal Year 
2003, increases of 100 per year in the end strength of the U.S. Naval 
Academy were authorized up to a limit of 4,400, however, the Navy has 
indicated that it does not intend to increase the size of the Brigade 
of Midshipmen to 4,400.
    What is your view of the optimal size of the Brigade of Midshipmen?
    Question. Due to exceptional officer retention and current plans to 
decrease end strength in fiscal year 2005, I have given guidance to 
target 4,150 students in fiscal year 2005. The optimal size of the 
brigade varies from year to year and is dependent on a number of 
factors including retention levels, fleet billet requirements, and 
overall end strength goals.
    Question. Do you support increasing the number of midshipmen to 
4,400 and, if not, why not?
    Answer. I support authorization to have up to 4,400 students at the 
U.S. Naval Academy and request continuing authorization to operate up 
to the 4,400 student level. The number of students however is adjusted 
year by year in accordance with the dynamics of our overall accession 
requirements and our end strength goals.
    Question. For several years, the Naval Academy has included in its 
faculty Permanent Military Professors, career officers who instruct at 
the Academy until mandatory retirement.
    What is your view of the appropriate number of Permanent Military 
Professors at the Naval Academy?
    Answer. Permanent Military Professors are of great value to the 
U.S. Naval Academy. We agree with the pending legislative proposal to 
increase the number of Permanent Military Professors (PMPs) to 50 and 
to exempt these officers from grade control and strength limits. This 
has been a recurring recommendation of the Board of Visitors. These 
officers typically fill technical disciplines while pursuing doctoral 
studies in a related area (e.g., physics, electrical engineering, and 
weapons systems development).
    Question. If you believe more are needed, what is the Navy's time 
line for providing additional Permanent Military Professors?
    Answer. If legislation is approved, we would seek support up to 50 
PMPs at the Naval Academy in fiscal year 2005.
                           navy end strength
    Question. The Navy's proposed budget for fiscal year 2005 includes 
reductions of 7,500 personnel in the active duty ranks and 2,500 in the 
Naval Reserve. You have stated that your goal is to reduce the Navy's 
Active-Duty Force to 350,000 sailors from the current authorized level 
of 373,800.
    What is the justification for these reductions in active duty and 
Naval Reserve Forces?
    Answer. Our end strength goals are part of a long-term plan to 
maximize the capability of our people while minimizing the total number 
in the manpower account. As I testified to earlier this year, I believe 
that retaining manpower we do not truly need limits the potential of 
our people. I also believe that it severely limits the investments 
needed to transform our combat capability for the future, an area in 
which we have underinvested by $90 to $100 billion in the decade of the 
1990s. Add to that the fact that my buying power has decreased with 
each passing year, and the conclusion that we must become more 
effective and efficient with the resources provided us is inescapable. 
This is why, if confirmed, the first item on my agenda will be the 
development of a Human Capital Strategy that makes sense for the 21st 
century Navy.
    We must come to grips with the fact that we will need to compete in 
the all-volunteer marketplace for bright, talented and ambitious 
Americans to operate the ever more technologically complex Navy of 
tomorrow. Our workforce as a whole must be better trained in high-tech 
skills and more educated to use those skills wisely. These 
sophisticated young people are in demand, and we will have to pay them 
enough to be competitive with other employers and to reward them for 
their increasingly critical contribution to the defense of our Nation. 
We must also be able to offer them the kind of job content that will 
appeal to their sense of accomplishment and satisfaction.
    Achieving a viable human capital strategy will not be possible 
unless we attack the problems inherent in our current manpower 
approach, which I believe is an unaffordable outgrowth of a 
conscription reality that no longer exists. The total costs of manpower 
have increased 40 percent since I have been CNO. A change in course for 
the workforce will be driven by our changing the nature of the work, 
and by changing the way in which we access, develop, and retain these 
marvelous Americans. We have a lot of work to do here, and we have 
begun to address this challenge by introducing new technology and new 
processes to the fleet and to our shore facilities, such as Optimal 
Manning and the establishment of the Navy Installations Command, that 
reduce manpower needs.
    Our analysis indicates that based on technology insertion and 
innovation, we can potentially reduce our manpower structure to nearly 
350,000, and we will continue to study if additional reductions would 
be practical or desirable.
               prevention and response to sexual assaults
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Services at which a ``zero tolerance'' 
standard was endorsed by the service vice chiefs. In late April 2004, 
the DOD Task Force on Care for Victims of Sexual Assault issued its 
report and recommendations, noting ``If the Department of Defense is to 
provide a responsive system to address sexual assault, it must be a 
top-down program with emphasis placed at the highest levels within the 
Department down to the lowest levels of command leadership. It must 
develop performance metrics and establish an evaluative framework for 
regular review and quality improvement.''
    In response to the report and recommendations of the DOD Task Force 
report, what actions are you taking to improve the Navy's prevention of 
sexual assaults?
    Answer. Sexual assault is not tolerated in our Navy. Our standard 
is that every sailor be treated with dignity and respect. When 
incidents do occur, we have a process in place to provide specialized 
assistance to the victim, to conduct a full and fair investigation, and 
to hold offenders accountable. The senior leadership of the Navy has 
personally communicated to each commanding officer our expectations 
regarding Sexual Assault Victim Intervention (SAVI) responsibilities 
and reporting compliance. We require annual training on sexual assault 
awareness and prevention. Training is included in the student curricula 
at Recruit Training Command (RTC) Great Lakes, the Naval Academy, Naval 
Air Station (NAS) Pensacola, and is presented to prospective Commanding 
Officers and Executive Officers, to Surface Warfare Officer classes, 
and at the Senior Enlisted Academy. I have also asked the Chief of 
Naval Personnel to initiate an internal monthly review of sexual 
assault data to identify trends and propose corrective action where 
required.
    Question. Does the Navy's SAVI program have sufficient resources?
    Answer. Yes, and we are continually evaluating resource 
requirements. Accordingly, we have allocated additional funding for the 
remainder of fiscal year 2004 and for fiscal year 2005 to further 
enhance program services and to offset increasing costs.
    Question. What actions, if any, do you plan to take to improve the 
Navy's ability to respond to the needs of victims of sexual assault?
    Answer. We have what I believe to be effective policies in place in 
the areas of awareness, prevention education, and victim advocacy. To 
improve our ability to execute those policies, we have focused 
commanding officer attention on the issue, we have committed the 
additional funding noted above, and we are working to develop better 
performance metrics in our data collection and trend analysis.
                   national security personnel system
    Question. In testimony before the Senate Armed Services Committee, 
the Secretary of the Navy stated that the Navy will be the first 
component of the Department of Defense to implement the National 
Security Personnel System (NSPS) enacted by Congress in the National 
Defense Authorization Act for Fiscal Year 2004.
    If confirmed, what role would you play in implementation of the 
NSPS for civilian personnel in the Navy?
    Answer. If I am confirmed my role would be to incorporate the 
legislated personnel management system into our larger institutional 
strategy for capturing the genius of our people, both military and 
civilian. I will also implement and integrate the civilian workforce 
into our 21st century workforce to ensure continued readiness of our 
Navy while seeking out efficiencies to minimize overall cost. I believe 
NSPS must be a central element of any Human Capital Strategy that we 
develop to recruit, access, train and manage our workforce.
    What I like most about this legislation is that it authorizes a 
more flexible civilian personnel management system, allowing DOD to be 
a more competitive and progressive employer at a time when our national 
security demands a highly responsive system of civilian personnel 
management. At the same time, it also ensures that merit systems 
principles govern changes in personnel management, that whistleblowers 
are protected, that discrimination and nepotism remain illegal, and 
that veterans' preference is protected. This will facilitate the kind 
of competition and performance we need for the future.
    Most importantly, I believe we will also need these kinds of 
flexible authorities and incentive tools to shape the career paths and 
our skills mix in a way that lets us compete for the right talent in 
uniform, not just within the Navy, but with all the Nation's employers 
as well.
    Question. What are the fundamental principles that you would apply 
in managing personnel reform of this magnitude?
    Answer. Four fundamental principles will guide the management of 
this personnel reform. First, we will seek to create a workforce that 
maintains our Navy's readiness. Second, we will seek to maintain a 
flexibility that will enable us to tap into the efficiencies that 
ensure we are good stewards of our budget. Third, we will continue to 
be a merit-based organization that seeks to deepen the growth and 
development of our workforce. Finally, our organization will demand a 
safe, fair, and respectful working environment that respects the 
fundamental dignity of our workforce.
    Question. You testified that the enactment of the NSPS system would 
enable the Navy to shift functions now performed by the uniformed 
military to civilian employees of the Department of the Navy.
    What is the status of the Navy's efforts to shift functions 
previously performed by the uniformed military to civilian employees of 
the Department of the Navy?
    Answer. I have established an office of Civilian Community 
Management, similar to that which we have used for military community 
management, under my Deputy for Manpower and Personnel. That office is 
currently evaluating the work performed and the skills required in our 
civilian workforce as a necessary prerequisite to a determination of 
how best to transfer military functions to civilian and contract 
personnel.
                       navy-marine corps intranet
    Question. What is your assessment of the status of the Navy-Marine 
Corps Intranet program and the ability of that program to meet the 
Navy's information technology needs?
    Answer. Let me say first that I believe that the Navy-Marine Corps 
Intranet (NMCI) is vitally important to both the U.S. Navy and the U.S. 
Marine Corps; it is the foundation upon which we are connecting our 
force and our people, and it is moving forward.
    There are a number of complex challenges that remain including 
ongoing standardization of existing hardware and software systems, 
countering the cost spiral of emerging technologies, maintaining system 
efficiencies across the enterprise in light of these new technologies, 
maintaining information assurance on a large-scale system, and long-
term integration with other knowledge management systems.
    These are complex and highly dynamic problems, but Electronic Data 
Systems (EDS) Corporation is already providing NMCI services to more 
than 360,000 users in the Navy and Marine Corps, which makes NMCI the 
second-largest computer network in the world--only the Internet itself 
is larger. NMCI is providing an increasing user base with much better 
information assurance and security. We also have 4 world-class Network 
Operation Centers (NOCs), 27 unclassified server farms, and 6 
classified server farms up and running. This ``backbone'' has 
successfully maintained service through fires, floods, blackouts, and 
hurricanes. What the DON/EDS partnership has accomplished is 
significant and improves on a daily basis.
    We are committed to NMCI and to bringing the entire department onto 
a single, secure, enterprise-wide intranet. The immediate challenges 
are rapid completion of the ``cutover'' of NMCI seats on the NMCI 
network, improved user acceptance of the inherent changes, and 
``harvesting'' the benefits offered by NMCI (e.g., business process 
change and improved productivity).
                                tricare
    Question. Your support for the TRICARE program has been notable 
throughout your military service, particularly as the Chief of Naval 
Operations.
    What is your assessment of the effectiveness of the military health 
benefit, its administration through TRICARE, and the sufficiency of 
funding for military health benefits by the Department of Defense?
    Answer. The military health benefit is among the finest available, 
as evidenced by the continued enrollment growth of our beneficiaries 
and its identification in survey data as one of the strongest retention 
incentives among active duty naval personnel. Naval Medicine 
effectively managed the military health benefit during a period of 
benefit expansion and enrollment growth, while keeping medical 
inflation below the national average. The new TRICARE contracts 
provided sweeping improvements in the provision of TRICARE benefits 
this fiscal year. While there will be no significant benefit changes, 
it simplifies the old contracts, and provides performance incentives 
and guarantees. It is important to allow the military heath benefit to 
mature under the new contract. Any future modifications should 
incorporate readiness, equity, affordability, and be competitive with 
the private sector. Naval medicine is funded at the level supported in 
the President's budget, benchmarked at fiscal year 2002 baseline 
levels.
                             space programs
    Question. What role should the Navy play in space programs?
    Answer. While the United States Air Force is executive agent for 
space programs, we remain engaged in the Department of Defense 
management structure for these programs, including requirements 
development, science and technology (S&T), research and development, 
acquisition and, wherever appropriate, operations.
    Question. Should the Navy principally be involved in the 
exploitation of data and services provided by space assets, or should 
the Navy be engaged in the development and operation of space systems?
    Answer. The Navy is engaged across the board and supports the Air 
Force role as Executive Agent. The Services have been charged by the 
Secretary of Defense to educate, train, develop and sustain a cadre of 
highly competent and motivated military and civilian space 
professionals. The Navy space cadre, with their experience in naval 
warfighting, are valuable participants in the requirements, science and 
technology, research and development, acquisition, and operation 
processes. They are in a position to put maritime needs into the space 
context, and suggest innovative approaches to best satisfy joint 
requirements.
    Question. If the latter, what is the appropriate level of that 
involvement in development and operation of the space system?
    Answer. Ensuring maritime applications of space programs are being 
executed by the Air Force is an important consideration, and we 
therefore cooperate with our joint partners to ensure appropriate joint 
development that incorporates capabilities to operate in the unique 
maritime environment.
                       ballistic missile defense
    Question. The Navy will play an important role in defending the 
Nation against the threat of long range ballistic missile attack and in 
defending allies, friends and deployed forces against theater ballistic 
missile threats.
    Do you view ballistic missile defense as a core Navy mission?
    Answer. As I testified to this committee last year, I accept 
ballistic missile defense as a core Navy mission. We have been working 
with the Missile Defense Agency (MDA) to help deploy this important 
capability for the Nation. Navy systems and tests have shown great 
promise in recent years. Indeed, our SM-3 missile has hit the target 
four out of five times in the past 18 months. I initiated and fully 
support the ongoing agreement between Navy and the MDA that provides 
full-time commitment of an Aegis equipped Cruiser to the Testing and 
Evaluation (T&E) role, as well as a plan to modify other Aegis equipped 
ships to conduct MDA missions when required. We are intent on helping 
MDA succeed in deploying effective ballistic missile defenses.
    Question. Should the Navy play a role in the defense against short 
and medium range ballistic missile threats?
    Answer. Yes. It wouldn't make sense if we don't capitalize upon the 
oceans and our dominance at sea in posturing to do this important 
mission. The combatant commanders are in the process of developing a 
joint concept of operations for ballistic missile defense against 
threats of the short and medium-range class. The fleet and Navy 
headquarters staffs are actively engaged to ensure that Navy capability 
is utilized to best effect in both advance planning and deployment of 
short-range ballistic missile/medium-range ballistic Missile defenses.
    Question. What plans does the Navy have for testing the Aegis 
Ballistic Missile Defense System?
    Answer. The Missile Defense Agency is currently charged with 
testing of the Aegis Ballistic Missile Defense System (ABMD) for the 
Defense Department. I have directed the fleet to cooperate actively as 
MDA proceeds with their testing and evaluation program. Navy ships have 
been involved in every major system test for the past 2 years. Aside 
from the Navy-specific firing events featuring U.S.S. Lake Erie, Navy 
destroyers have participated in intercontinental ballistic missile 
tracking exercises on a recurring basis. Under the direction of Fleet 
Forces Command, Navy sailors have begun an aggressive training and 
exercise program in cooperation with our colleagues in the joint arena. 
We're resolved to be ready to go when the President calls for the 
deployment of ballistic missile defenses and I'm pleased with our 
progress to date.
                     science and technology program
    Question. The defense science and technology program is recovering 
after years of declining budgets. However, the budget request for 
defense S&T still falls short of the Secretary of Defense's goal of 
dedicating 3 percent of the total defense budget to science and 
technology. In particular, the Navy science and technology program, 
especially the investment in long-term, innovative work which has been 
so successful in confronting emerging threats, has declined 
significantly over the last 3 years.
    How do you plan to address the shortfalls in the Navy science and 
technology program to meet the Secretary's goal?
    Answer. The fiscal year 2005 Navy S&T budget request stabilizes 
funding at 0 percent real growth for the first time in 3 fiscal years, 
and though it is not 3 percent of Navy Total Obligation Authority, it 
does provide a sufficient level of investment in this very important 
program for this year. Three percent remains our goal, but at the same 
time, we must recognize and balance competing investment priorities 
from year to year. We have done that in this year's budget, and I 
expect we will continue to do so in the years to come.
    Question. What is your view of the role and value of science and 
technology programs in meeting the Navy's transformation roadmap goals?
    Answer. As I have said in previous testimony, I would count 
advanced technology as one of our national asymmetric advantages. 
Science and technology programs are therefore important in maintaining 
that advantage. In fact, much of the maturing technology being 
delivered today for incorporation into platforms, weapons, sensors, and 
process improvements are the result of long-term investments in science 
and technology. That said, new technology alone will not deliver the 
Navy's transformation roadmap goals. It is only when we integrate that 
technology with new operational concepts and organizational constructs 
that it results in real transformation of military capability.
              readiness and range preservation initiative
    Question. The Readiness and Range Preservation Initiative (RRPI) is 
a package of legislative proposals requested by the Department of 
Defense in response to environmental encroachment on military 
readiness.
    How have the three RRPI proposals which already have been clarified 
in law--the Endangered Species Act (ESA), the Marine Mammal Protection 
Act (MMPA), and the Migratory Bird Treaty Act (MBTA)--affected the 
Navy's test and training readiness?
    Answer. The amendments to the ESA, MMPA, and MBTA enacted in the 
National Defense Authorization Act (NDAA) for 2003 and the NDAA for 
2004 made favorable changes that have improved the Navy's performance 
in both environmental stewardship and fleet training operations. 
Clarifying our current and future responsibilities and providing 
assurances that these standards will remain constant is helping us to 
plan and resource for stable, long-term programs that will benefit both 
fleet readiness and the land and life that abounds on and around our 
ranges. Specifically:

        <bullet> Migratory Bird Treaty Act: NDAA for Fiscal Year 2003 
        allows the military to conduct training while protecting 
        migratory birds, thereby preserving the availability of 
        Farallon de Medinilla and other critical ranges for vital Navy 
        training.
        <bullet> Endangered Species Act: NDAA for Fiscal Year 2004 
        allows DOD to use the Integrated Natural Resources Management 
        Plan prepared under the Sikes Act to address endangered species 
        concerns in lieu of designating a critical habitat. It also 
        required the U.S. Fish and Wildlife Service to consider the 
        impact to national security when designating a critical 
        habitat.
        <bullet> Marine Mammal Protection Act: NDAA for Fiscal Year 
        2004 amended the MMPA definition of ``harassment,'' adjusted 
        the permitting system to better accommodate military readiness 
        activities, and added a national defense exemption consistent 
        with other environmental statutes.

                <bullet> ``Harassment'' now focuses on biologically 
                significant vice benign disturbances, eliminating the 
                legal tripwires of `small numbers' and `specific 
                geographic area.'
                <bullet> Allows safety, practicality, and effectiveness 
                of the military readiness activity to be considered for 
                monitoring and mitigation measures.

    We are grateful for the NDAA for Fiscal Year 2003 and Fiscal Year 
2004 changes which continue to be implemented. Preserving these changes 
in future reauthorization acts is important to us, allowing the Navy to 
continue to demonstrate the right balance between military readiness 
and environmental stewardship.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Naval Operations?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                             18-18-18 plan
    1. Senator McCain. Admiral Clark, in the National Defense 
Authorization Act for Fiscal Year 2003, we created a new short term 
enlistment plan for the military. This plan could effectively be used 
as a recruiting tool to quickly and affordably meet necessary manpower 
requirements. Please share the implementation of the ``18-18-18'' short 
term enlistment plan within the Navy.
    Admiral Clark. Our accession goal for fiscal year 2004 is 1,000 
recruits under the National Call to Service (NCS) plan, previously 
referred to as ``18-18-18.'' This represents 2.5 percent of our total 
fiscal year 2004 accession objective.
    To support long-term needs within the Naval Reserve for Hospital 
Corpsman (HMs) and Masters-At-Arms (MAs), 88 percent of NCS enlistees 
will serve within these ratings. HMs will provide field medic support 
to Fleet Marine Force units, many of which are engaged in Operations 
Enduring Freedom and Iraqi Freedom. Upon affiliating with their 
respective Reserve units, these recruits will possess formal technical 
schooling and 15 months of Fleet or Fleet Marine Force experience. 
Likewise, MA personnel enlisted under the NCS program will enhance our 
Anti-Terrorism/Force Protection (AT/FP) mission, again offering a 
combination of formal technical training coupled with follow-on fleet 
experience in a variety of assignments. The remaining 12 percent of 
this fiscal year's NCS enlistees are dedicated to other Reserve Force 
missions, including intelligence, anti-mine warfare, and naval 
aviation.
    For fiscal year 2005, we plan to double the NCS accession goal to 
2,000 recruits, which represents 5.2 percent of the total fiscal year 
2005 accession objective, 1,100 of which will serve in the HM and MA 
ratings.

                              end strength
    2. Senator McCain. Admiral Clark, as the global war on terrorism 
expands, it has put a strain on the manning of our armed services, 
especially the Reserves. While I understand that your justification for 
reducing end strength in the Navy will save significant funding, how 
can you justify reductions in end strength now, when the platforms that 
have reduced manning will not be in place for years to come?
    Admiral Clark. Platforms designed from the keel up for reduced 
manning, like LCS, DD(X), and Carrier Vessel Nuclear (CVN) 21, are only 
part of a long-term plan. In the near-term, we are attacking the 
problems and inefficiencies inherent in our current manpower approach, 
which I believe is an unaffordable outgrowth of a conscription reality 
that no longer exists. We are changing the nature of the work required 
in our current platforms--and thereby changing the skill sets and 
numbers of people needed--by introducing and experimenting with new 
technologies in areas such as navigation, engineering, and seamanship. 
We are changing policies and processes to enhance the effectiveness and 
job content of our sailors with experiments like Optimal Manning. We 
are experimenting with new concepts of operation, like the Fleet 
Response Plan and Sea Swap, designed to derive more operational 
availability from the platforms we have today. We have also reorganized 
and aligned our infrastructure under the Navy Installations Command to 
more efficiently support both today's and tomorrow's fleets. All of 
these initiatives promise a more efficient Navy that requires fewer 
sailors.

                            air force tanker
    3. Senator McCain. Admiral Clark, you have always been an advocate 
for jointness across the Services and saying that no single Service can 
do the job alone. Is it still a requirement for the Navy to have multi-
point and simultaneous refueling capabilities in any future airborne 
tanker program?
    Admiral Clark. Yes. I consider it a Navy requirement and a 
tremendous joint and combined force multiplier to have any future 
tanker program retain the capability to perform boom and probe/drogue 
refueling on the same sortie. While we have no documented requirement 
specifically for multi-point refueling (the ability to simultaneously 
refuel more than one aircraft at a time), we do capture our 
requirements for Air Force tanking in terms of pounds per day and hose-
hours (defined as one tanker hose on station for 1 hour).
    The current specific requirement numbers are classified and, as you 
might imagine, there are several caveats and footnotes associated with 
these numbers based on scenario and strategic context. Clearly, there 
are several options on how the Air Force meets this requirement; for 
example, a larger fleet of tankers with a single hose each or a smaller 
fleet of tankers with multi-point refueling capability. Our initial 
analysis shows that, at a minimum, our future tanker force should 
include the necessary platform modifications (plumbing, wiring, etc.) 
to accommodate wingtip-refueling pods even if the Air Force does not 
procure the pods on a one-for-one basis.
    We are participating in several Service and OSD-sponsored studies 
and working groups to examine the trade-offs and benefits of various 
concepts to identify the best way to meet our tanking requirements.

                       active reserve integration
    4. Senator McCain. Admiral Clark, I applaud your leadership and 
efforts in active-Reserve integration. How do you plan on integrating 
the infrastructure and personnel to accommodate a more effective and 
efficient workforce?
    Admiral Clark. To more effectively integrate active and Reserve 
infrastructure and personnel we have, for example, rebalanced the Navy 
Coastal Warfare mission from a predominantly Reserve capability to a 
fully integrated active-Reserve capability. Other ongoing efforts 
include consolidation of Reserve recruiting into the Navy Recruiting 
Command, alignment of Reserve training requirements under the Naval 
Education and Training Command, and the integration of Reserve 
infrastructure under the Chief of Navy Installations.
    Additionally, I have asked my fleet commander to review Reserve 
units and billets on a continuing basis for capability relevance and 
alignment with fleet requirements. The initial review is not yet 
complete.

                        operational availability
    5. Senator McCain. Admiral Clark, you have been extremely 
successful in applying the Fleet Response Plan to increase the 
operational availability of the carrier force. What success have you 
had in working with the Marine Corps to increase the operational 
availability of the amphibious Navy's Expeditionary Strike Groups?
    Admiral Clark. The Fleet Response Plan (FRP) operational concept 
for Navy ships and the ESG concept are both in their first full year of 
execution. The Navy-Marine Corps team is working aspects of the FRP 
that require additional refinement.
    One of those areas is the application of FRP to the ESG, including 
aligning the readiness standards and milestones of Navy ships with 
available Marine forces. These Marine forces may range from a Special 
Purpose Marine Air-Ground Task Force (SPMAGTF) to, potentially, an 
Amphibious Marine Expeditionary Brigade (MEB).
    Experiments to validate the principles of FRP are ongoing. 
Significant data has been compiled regarding the effects of FRP on 
surface combatant ships. Additional data is being gathered regarding 
the application of FRP to submarines, aircraft carriers, amphibious 
warfare ships, and aviation squadrons.
    We are working with the Marine Corps to integrate their units into 
FRP, as well, although this effort is being impacted by the deployment 
demands of Operations Iraqi Freedom and Enduring Freedom.

                  force structure and industrial base
    6. Senator McCain. Admiral Clark, the LCS and all-electric 
destroyer ((DD(X)) seem central to your transformation strategy. What 
will be the impact on the Navy's force structure and the industrial 
base if the current marks against the DD(X) and LCS stand?
    Admiral Clark. The impact would be significant. For DD(X), the 
proposed cut would eliminate funding for initiation of detail design 
and procurement of long-lead materials to support start of fabrication 
of the lead ship at the end of fiscal year 2007. Long-lead material 
purchases include generators, propeller and shafting, gun mounts and 
communications antennas. These items must be procured in fiscal year 
2005 to ensure delivery by the ``in yard'' need date. A reduction of 
funding to begin detail design and procurement of long-lead materials 
for the lead ship in fiscal year 2005 will slip delivery of the first 
DD(X) until fiscal year 2012, and may jeopardize the financial 
viability of the second shipbuilder due to schedule slippage that will 
migrate to follow ships as a result of the mark.
    For LCS, in the event that the funds for LCS lead ship construction 
are not provided, we will not be able to commence with detail design 
and construction on schedule, effectively delaying lead ship delivery 
by 1 year. In addition, it is important to understand that LCS mission 
module integration risks are currently low, well understood, and 
properly funded to allow the program to proceed as currently 
scheduled--with mission modules ready for employment before the first 
ship delivery in fiscal year 2007. A delay in lead ship construction 
would not provide additional risk reduction in terms of ship-module 
interface development.

    7. Senator McCain. Admiral Clark, while you have come out publicly 
supporting increasing shipbuilding to support a force structure of 375 
ships, I am confused by some other statements you have made. You have 
advocated reducing the total number of ships by decreasing the number 
of amphibious ships and submarines as well as keeping more ships on 
station while swapping out crews. This seems to be contradictory. Can 
you explain?
    Admiral Clark. The force structure of our Navy--present and 
future--is under constant review to achieve the best combination of 
capabilities and numbers. Future fleet size estimates are based on 
emerging technologies, operational concepts, and real-world missions. 
As we conduct technical experiments and validate more efficient ways to 
generate combat power, we also revise fleet size estimates.
    The Sea Swap operating concept, by which multiple crews are rotated 
through ships that are deployed forward for great lengths of time, 
shows particular promise. Sea Swap has the potential to greatly 
increase the operational availability of our Navy, while providing 
enhanced stability to deployment lengths for our sailors.
    The global war on terrorism has also impacted Navy requirements. 
Evolving missions such as precision strike, maritime interception 
operations, intelligence gathering, and homeland defense, among others, 
impact future fleet capabilities and composition estimates.
    Review of new technologies, operating concepts, particularly Sea 
Swap, and warfighting requirements have convinced me that we can 
produce an operational availability with fewer than 375 ships. That 
said, the analytical rigor required to identify a new 375-ship 
equivalency is still ongoing. As we refine estimates of a smaller Navy 
that is optimally sized and shaped for the 21st century, we will keep 
Congress fully apprised.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                 navy reallocation and the supplemental
    8. Senator Collins. Admiral Clark, earlier this year, the Senate 
passed a $25 billion supplemental appropriations bill to pay for 
continuing efforts in the war on terrorism and Iraq. Recently, the 
Navy, specifically the Navy Installations Command, reallocated $300 
million from base operating budgets worldwide to the global war on 
terrorism. I know this decision may affect a lot of people--for 
example, firefighters from the Portsmouth Naval Shipyard called my 
office and told that 5-13 firefighting positions may be cut. This 
really concerns me because I have to wonder if that $25 billion 
supplemental was enough if we are now having to dig deeper into the 
operating budgets. How do you view the $300 million reallocation and 
how that will affect programs?
    Admiral Clark. The $25 billion supplemental was provided after the 
$300 million cost of war realignment of funds. The $300 million 
reallocation to support the global war on terrorism was executed with a 
close review of mission requirements and legal obligations. No 
reductions in force or furlough actions--including firefighters from 
the Portsmouth Naval Shipyard--were part of this realignment of funds, 
although some shore support services were curtailed or delayed to 
support the reallocation.

                     dd(x) and littoral combat ship
    9. Senator Collins. Admiral Clark, I know you have been a strong 
supporter of the DD(X) and the Littoral Combat Ship. In fact, I was 
pleased to see that you had sent a letter to the House Armed Services 
Committee requesting that they restore full funding to these important 
programs. How do you assess the future of these two programs and do you 
believe their production schedule will stabilize?
    Admiral Clark. Maritime Dominance in the 21st century requires a 
naval force capable of projecting power and defeating anti- access 
threats. DD(X) and LCS offer these vital capabilities for the future. 
DD(X) will provide critical area control and deep striking power in 
support of the Navy/Marine Corps team. LCS will be central to 
dominating the near-land arena in which we operate in support of the 
global war on terrorism.
    While both DD(X) and LCS are on track and meeting major milestones, 
it is important to note that actions taken by Congress in the fiscal 
year 2005 budget process have impacted the rate and pace of future 
deliveries. Changes in the funding approach submitted in the 
President's fiscal year 2005 budget will delay DD(X) and impact the 
delivery of the second and follow-on ships of the LCS class.
    As a result of these actions, we are currently funded ($15.8 
billion) to build one DD(X) in fiscal year 2007, one in fiscal year 
2008, two in fiscal year 2009, two in fiscal year 2010, and one in 
fiscal year 2011 for a total of seven across the Future Years Defense 
Program. For LCS, we are funded ($5.1 billion) for 1 in fiscal year 
2005, 1 in fiscal year 2006, 2 in fiscal year 2007, 3 in fiscal year 
2008, and 5 per fiscal year from fiscal year 2009 to fiscal year 2011 
for a total of 22 since program start through the current Future Years 
Defense Program.
    The total number of ships to be built for each of these classes 
will be determined based upon ongoing analysis of technologies, 
warfighting requirements, and innovative manning concepts such as Sea 
Swap and multi-crewing.
                                 ______
                                 
                Question Submitted by Senator Jack Reed
                     attack submarine force levels
    10. Senator Reed. Admiral Clark, the pre-hearing policy questions 
asked about what considerations might permit the Navy to conclude that 
a number of attack submarines substantially smaller than 55 would be 
sufficient to meet the requirements of the combatant commanders (COCOM) 
and other intelligence, surveillance, and reconnaissance (ISR) needs.
    Your answer discussed a number of considerations, including such 
considerations as the duration of future conflicts, changes in threats, 
changes in strategy and tactics, and forward basing options. Your 
answer does not make clear that the requirements established by the 
combatant commanders or other ISR needs would be among those 
considerations. Also, based on previous Navy testimony, combatant 
commander and ISR requirements exceed the currently available attack 
submarine force's capability and have been steadily increasing over the 
past 10 years or more.
    Are the requirements established by the combatant commander or 
other ISR needs not as important to these calculations as the 
considerations you mention?
    Admiral Clark. The requirements established by combatant commanders 
(COCOM) and other ISR needs are central to our ongoing calculation of 
optimum force structure. COCOM requirements are based upon both wartime 
and peacetime needs. We have more than sufficient submarines to meet 
wartime operational plan (OPLAN) requirements. However, peacetime ISR 
requirements have driven submersible ship nuclear (SSN) force structure 
calculations. These ISR needs are important to the COCOMs, and in 
certain cases a SSN may be uniquely capable of satisfying a specific 
ISR requirement. Having said that, as we transform our force and field 
new technology we are committed to a process wherein requirements are 
stated as desired outcomes, not inputs. Emerging technologies may 
enable platforms with greater reach and aperture--including Navy, 
Joint, and national sensors--to satisfy ISR needs historically met by 
SSNs. Certainly the SSN's unrivaled stealth will continue to make it 
the ideal, and perhaps uniquely qualified, asset to satisfy certain 
COCOM collection requirements, but that determination should be made 
based on validating desired outcomes rather than specifying certain 
platforms. Given an objective outcome, we can optimize force employment 
to deliver the proper warfare capabilities to satisfy ISR needs.
    We will make recommendations to the Secretary of Defense based on a 
differentiation between peacetime and wartime requirements, and we will 
evaluate investment risk accordingly. With regard to ISR, we will 
continually seek to evaluate the critical components of the warfighting 
analysis to determine how to maintain and equip a viable capability for 
the COCOMs. We will continue to make investment judgments using all 
applicable variables to procure future capabilities, in close 
coordination with the COCOMs, and will evaluate our capabilities and 
programs to meet future requirements and seek efficiencies to improve 
the operational availability of our forces.
                                 ______
                                 
    [The nomination reference of ADM Vernon E. Clark, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 22, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for reappointment as Chief of Naval 
Operations, United States Navy, for an additional term of 2 years, and 
appointment to the grade indicated while assigned to a position of 
importance and responsibility under title 10, United States Code, 
sections 601 and 5033:

                             To be Admiral

    ADM Vernon E. Clark, 0000.
                                 ______
                                 
    [The biographical sketch ADM Vernon E. Clark, USN, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
   Transcript of Naval Service for ADM Vernon Eugene Clark, U.S. Navy
    07 SEP 1944 Born in Sioux City, Iowa.
    23 AUG 1968 Ensign.
    23 AUG 1969 Lieutenant junior grade.
    02 MAY 1971 Lieutenant.
    28 MAR 1972 Released from active duty.
    03 FEB 1973 Reported for active duty.
    07 MAR 1974 Augmented in the U.S. Navy.
    01 JUL 1975 Lieutenant Commander.
    01 SEP 1980 Commander.
    01 JUN 1987 Captain.
    22 JUL 1991 Designated Rear Admiral (lower half) while serving in 
billets commensurate with that grade.
    01 SEP 1992 Rear Admiral (lower half).
    SEP 1994 Designated Rear Admiral while serving in billets 
commensurate with that grade.
    01 OCT 1995 Rear Admiral.
    01 APR 1996 Vice Admiral.
    11 AUG 1999 Designated Admiral while serving in billets 
commensurate with that grade.
    01 NOV 1999 Admiral, Service continuous to date.

Assignments and duties:

------------------------------------------------------------------------
                                            From               To
------------------------------------------------------------------------
Fleet Training Center, Norfolk, VA   AUG 1968.........  SEP 1968
 (DUINS).
U.S.S. John W. Weeks (DD 701) (Main  SEP 1968.........  AUG 1970
 Propulsion Asst/Engineer Officer).
U.S.S. Gearing (DD 710) (Engineer    AUG 1970.........  FEB 1972
 Officer).
Office of CNO (Administrative        FEB 1973.........  MAY 1974
 Asst.) (OP-96).
Naval Guided Missile School, Dam     MAY 1974.........  JUN 1974
 Neck (DUINS).
CO, U.S.S. Grand Rapids (PG 98)....  JUN 1974.........  SEP 1976
Office of CNO (Personal Aide and     SEP 1976.........  DEC 1977
 Administrative Asst. to DCNO,
 Surface Warfare) (OP-03).
Office of CNO (Administrative Asst.  DEC 1977.........  MAR 1979
 to VCNO) (OP-09).
CO, U.S.S. McCloy (FF 1038)........  MAR 1979.........  JUN 1981
Staff, Commander, Naval Surface      JUN 1981.........  FEB 1983
 Force, U.S. Atlantic Fleet (Force
 ASW Officer).
Bureau of Naval Personnel (DUINS)..  FEB 1983.........  JUN 1983
Surface Warfare Officers School      JUN 1983.........  AUG 1983
 Command (DUINS).
CO, U.S.S. Spruance (DD 963).......  AUG 1983.........  NOV 1985
Naval War College (DUINS)..........  NOV 1985.........  MAR 1986
CO, Fleet Anti-Submarine Training    MAR 1986.........  DEC 1987
 Center Atlantic.
Commander, Destroyer Squadron ONE    DEC 1987.........  JAN 1990
 SEVEN.
Commander, Destroyer Squadron FIVE.  JAN 1990.........  JUL 1990
Office of Joint Chiefs of Staff      JUL 1990.........  JUL 1991
 (Chief, PACOM Branch, J-3).
Director, Plans & Policy, J-5, and   JUL 1991.........  JUL 1993
 Director, Program Analysis and
 Financial Management, J-8, U.S.
 Transportation Command.
Commander, Cruiser Destroyer Group   AUG 1993.........  NOV 1994
 THREE.
Commander in Chief, U.S. Atlantic    NOV 1994.........  MAR 1996
 Fleet (Deputy and Chief of Staff).
Commander, SECOND Fleet/Commander    MAR 1996.........  NOV 1997
 Striking Fleet Atlantic.
Joint Staff (Director for            NOV 1997.........  NOV 1998
 Operations) (J-3).
Joint Staff (Director).............  NOV 1998.........  AUG 1999
Commander in Chief, U.S. Atlantic    SEP 1999.........  JUN 2000
 Fleet.
Chief of Naval Operations..........  JUL 2000.........  TO DATE
------------------------------------------------------------------------

Medals and awards:

    Defense Distinguished Service Medal with two Gold Stars.
    Navy ``E'' Ribbon with two ``Es''.
    Distinguished Service Medal.
    National Defense Service Medal with one Bronze Star.
    Legion of Merit with two Gold Stars.
    Armed Forces Expeditionary Medal.
    Defense Meritorious Service Medal.
    Vietnam Service Medal with two Bronze Stars.
    Meritorious Service Medal with three Gold Stars.
    Southwest Asia Service Medal with one Bronze Star.
    Navy and Marine Corps Commendation Medal.
    Sea Service Deployment Ribbon with one Silver Star.
    Joint Meritorious Unit Award with one Bronze Oak Leaf Cluster.
    Navy and Marine Corps Overseas Service Ribbon. Meritorious Unit 
Commendation.

Special qualifications:

    BA (Business Administration) Evangel College, 1967.
    MA (Business Administration) University of Arkansas, 1968.
    Designated Joint Specialty Officer, 1998.

Personal data:

    Wife:
      Connie Rae Nealy of Bay City, Texas.

    Children:
      Jeffrey Alan Clark (Son), Born: 5 August 1970;
      Matthew Christopher Clark (Son), Born: 26 April 1974.

Summary of joint duty assignments:


------------------------------------------------------------------------
            Assignment                       Dates              Rank
------------------------------------------------------------------------
Office of Joint Chiefs of Staff     JUL 90-JUL 91.........  CAPT
 (Chief, PACOM Branch, J-3).
Director, Plans & Policy, J-5, and  JUL 91-JUL 93.........  RDML
 Director, Program Analysis and
 Financial Management, J-8, U.S.
 Transportation Command.
Commander, SECOND Fleet/ Commander  MAR 96-NOV 97.........  VADM
 Striking Fleet Atlantic.
Joint Staff (Director for           NOV 97-NOV 98.........  VADM
 Operations) (J-3).
Joint Staff (Director)............  DEC 98-AUG 99.........  VADM
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Vernon E. 
Clark, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Clark, Vernon E.

    2. Position to which nominated:
    Chief of Naval Operations.

    3. Date of nomination:
    October 22, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 7, 1944; Sioux City, IA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Connie Rae (Nealy) Clark.

    7. Names and ages of children:
    Jeffrey A. Clark, 33 yrs.; Matthew Clark, 29 yrs.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    State--Virginia Military Advisory Council.
    Local--Norfolk Military/Civilian Liaison Group.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Council on Foreign Relations.
    Honorary Member, Naval Academy Alumni Association.
    Co-Chairman, Navy-Marine Corps Relief Society.

    11. Honors and awards: List all memberships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    2003 George P. Schultz Award for Public Service, June 2003. 
Presented by the 45th Class of the United States Department of State 
Foreign Service Institute Senior Seminar.
    Meritorious Service Medal (Military), March 2003. Awarding 
Official: Chief of Navy, Republic of Singapore Navy.
    Knight Commander's Cross of the Order of Merit of the Federal 
Republic of Germany, November 2002. Awarding Official: President of 
Federal Republic of Germany, on recommendation of Chief of Staff of 
German Navy.
    Grand Officer, Order of Merit of the Italian Republic, October 
2002. Awarding Official: Chief of Staff, Italian Navy.
    Rank of Commander of the ``Legion d'Honneur,'' April 2002. Awarding 
Official: President, French Republic.
    Order of National Security Merit, Tong-Il Medal, September 2001. 
Awarding Official: Minister of National Defense of the Republic of 
Korea, on behalf of the President of the Republic of Korea.
    Japanese Medal Order of the Rising Sun, September 2001. Awarding 
Official: Minister for Self Defense.
    Naval Cross of the First Class, May 2001. Awarding Official: Chief 
of Staff, Portuguese Navy.
    National Association of Intercollegiate Athletics (NAIA) Service 
Master Distinguished Graduate, January 1994: Presented to former 
student athletes who have distinguished themselves in their 
professions.
    The General Superintendent's Medal of Honor, 1991: An award 
presented to the outstanding layperson who distinguished themselves 
through meritorious service to God, the church, community, and fellow 
citizens. Presented by the Executive Presbytery of the General Counsel 
of the Assemblies of God.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    I do agree, if confirmed, to appear and testify upon request before 
any duly constituted committee of the Senate.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do agree, when asked before any duly constituted committee of 
Congress, to give my personal views, even if those views differ from 
the administration in power.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Vernon E. Clark.
    This 21st day of January, 2004.

    [The nomination of ADM Vernon E. Clark, USN, was reported 
to the Senate by Chairman Warner on July 8, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 8, 2004.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. James E. 
Cartwright, USMC, by Chairman Warner prior to the hearing with 
answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The enactment of the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986 and the Special Operations reforms 
brought about fundamental change in the manner in which the Department 
of Defense (DOD) and the Services carry out the mission of national 
security.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the Defense Reorganization Act of 1986 and 
the Special Operations reforms. They have strengthened our Armed 
Forces, joint operations and the effectiveness of our combatant 
commanders.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most positive aspect is overall improvement in our 
joint military operations. The Goldwater-Nichols Act resulted in much 
needed improvements in joint doctrine, joint professional military 
education, and joint strategic planning. Another important element is 
clarity in the chain of command from the National Command Authorities 
to the combatant commanders and unambiguous responsibility placed upon 
each combatant commander for execution of mission and preparedness of 
assigned forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe the Department of Defense has vigorously and 
successfully pursued implementation of these important reforms.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations defense reforms, as reflected in section 3 of the Goldwater-
Nichols Department of Defense Reorganization Act, can be summarized as 
strengthening civilian control over the military; improving military 
advice; placing clear responsibility on the combatant commanders for 
the accomplishment of their missions; ensuring the authority of the 
combatant commanders is commensurate with their responsibility; 
increasing attention to the formulation of strategy and to contingency 
planning; providing for more efficient use of defense resources; 
enhancing the effectiveness of military operations; and improving the 
management and administration of the Department of Defense.
    Do you agree with these goals?
    Answer. Yes. The law gives combatant commanders sufficient 
authority to carry out their assigned missions. Additionally, the voice 
of the combatant commanders has been strengthened in the resource 
allocation process ensuring vital requirements are properly resourced. 
Many complex joint operations conducted since the legislation was 
enacted have demonstrated this effectiveness. These changes continue to 
be vital to success of the Strategic Command (STRATCOM) strategic 
deterrence mission as well as the newly assigned missions of global 
strike, information operations, intelligence, surveillance, 
reconnaissance (ISR), missile defense, and space.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy?
    Answer. The Goldwater-Nichols Act has profoundly improved the 
performance and capabilities of the American military establishment. We 
have significantly improved our ability to conduct combat operations, 
manage defense resources, streamline management practices, and address 
organizational issues within the Department of Defense. The Department 
has undertaken, and continues to refine and develop, several internal 
processes that are further strengthening the spirit and intent of 
Goldwater-Nichols. As we continue to improve the joint influence in 
critical decisionmaking, the Goldwater-Nichols Act remains an important 
and effective piece of legislation. As a result, I do not believe any 
major revisions are required at this time. However, as with any of our 
organizational constructs, we should not hesitate to challenge 
underlying assumptions, initial intentions and plans as situations 
change. Defense organization is important and deserves innovative 
attention. Congress and the Department have recognized this with 
efforts to look beyond Goldwater-Nichols. The results of these reviews 
will better inform the debate concerning any potential changes required 
to enhance our defense posture.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Strategic Command?
    Answer. The Commander, United States Strategic Command has 
responsibility and control for all strategic forces in support of the 
national security objective of strategic deterrence. The commander's 
traditional role as custodian of our Nation's nuclear forces remains 
paramount, and nothing can detract from this critical mission of 
ensuring safety, reliability and positive control of our nuclear 
forces. Additionally, the new Strategic Command structure created and 
evolved during the past 2 years, includes further missions such as 
kinetic and non-kinetic global strike, department-wide information 
operations, ISR, space operations, and an integrator for missile 
defense. In my view, Strategic Command as currently structured has 
tremendous opportunities to view the international security environment 
through an entirely new prism, and to continue to develop new 
mechanisms for dealing with the global issues that face us. This global 
perspective is critical as we further develop and integrate the other 
elements of strategic operations to more completely and comprehensively 
meet critical national security requirements.
    Throughout the mission areas briefly mentioned above, the commander 
exercises combatant command over the organization and operation of all 
assigned forces and headquarters in accordance with public law and the 
policies established by the Secretary of Defense. Additionally, he is a 
primary advisor to the Secretary of Defense on strategic military 
issues.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Almost 33 years of service in the United States military 
have prepared me for this position through a variety of Marine Corps 
and Joint Assignments, in periods of peace, crisis and conflict, 
alongside the finest soldiers, sailors, airmen, marines, and Coast 
Guardsmen in the world. I have commanded two aviation squadrons, a 
Marine Aircraft Group, a Marine Aircraft Wing and was the Deputy 
Commanding General of Fleet Marine Forces Atlantic. Operationally, I 
have been fortunate to serve on numerous occasions overseas including 
recent operational involvement in Bosnia and Operation Enduring 
Freedom. I have been privileged to fill several Washington staff 
positions including my current assignment as the Director of Force 
Structure, Resources and Assessments on the Joint Staff, and previous 
tours in other billets on the Joint Staff, Marine Corps Staff and 
technical assignments in jet aircraft programs.
    My career has included qualification as a Radar Intercept Officer, 
Naval Aviator, as well as graduate-level education from two war 
colleges.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander 
in Chief, U.S. Strategic Command?
    Answer. One of the great benefits of a military career is the 
continuing opportunity to learn, and I certainly have much to continue 
learning. Not only are we in a period of operationally challenging 
activities surrounding the war on terror, I believe we are also in a 
period of strategic transition, and the success of STRATCOM depends on 
many factors and organizations outside the immediate command structure. 
I have not worked regularly with several organizations that contribute 
to the success of STRATCOM (examples: National Security Council, 
Nuclear Weapons Council, Defense Threat Reduction Agency, Department of 
Energy-National Nuclear Security Administration and others). If 
confirmed, I will make it a priority to become more familiar with these 
organizations and the contributions they make to the success of our 
missions.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, U.S. Strategic Command, to the following officials:
    The Secretary of Defense.
    Answer. In accordance with title 10, United States Code, section 
164, the Commander of U.S. Strategic Command (CDR STRATCOM) performs 
his duties under the authority, direction, and control of the Secretary 
of Defense. CDR STRATCOM is directly responsible to the Secretary of 
Defense for the preparedness of the command and the ability to carry 
out missions assigned to the command.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with title 10, United States Code, section 
132, the Deputy Secretary of Defense will perform duties and exercise 
powers as prescribed by the Secretary of Defense, and in the absence of 
the Secretary of Defense, perform his duties. If confirmed, I intend to 
work closely with the Deputy Secretary on all strategic matters.
    Question. The Under Secretary of Defense for Policy.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary of Defense regarding matters 
related to specific functional areas. Within these areas, the Under 
Secretaries exercise policy and oversight functions, and in discharging 
their responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication lines between under secretaries and combatant commanders 
is direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Policy on all strategic policy issues.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary of Defense regarding matters 
related to specific functional areas. Within these areas, the Under 
Secretaries exercise policy and oversight functions, and in discharging 
their responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication lines between under secretaries and combatant commanders 
is direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Intelligence in defining and attaining command goals in the 
area of intelligence.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary of Defense regarding matters 
related to specific functional areas. Within these areas, the Under 
Secretary exercises policy and oversight functions, and in discharging 
their responsibilities the Under Secretary may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Communication lines between under secretaries and combatant commanders 
is direct unless otherwise directed by the Secretary of Defense. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics on command issues 
pertaining to his departmental responsibilities.
    Question. The Assistant Secretary of Defense for International 
Security Policy.
    Answer. The Assistant Secretary of Defense for International 
Security Policy (ISP) is subordinate to the Under Secretary of Defense 
for Policy. Any relationship U.S. Strategic Command would require with 
the Assistant Secretary of Defense for ISP would be with and through 
the Under Secretary of Defense for Policy.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. Relations with the Assistant Secretary of Defense for 
Homeland Defense would be conducted along the same lines as those 
discussed above regarding relations with the Under Secretaries of 
Defense. If confirmed, I look forward to working with U.S. Northern 
Command, U.S. Pacific Command and the Assistant Secretary of Defense 
for Homeland Defense on command-related national security issues.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is clearly established by title 10, United 
States Code, as the principal military advisor to the President, 
National Security Council, and Secretary of Defense. He serves as an 
advisor and is not in the chain of command that runs from the National 
Command Authorities (NCA) directly to each combatant commander. The law 
does allow the President to direct that communications between the NCA 
and the combatant commanders be transmitted through the chairman. This 
action keeps the chairman fully involved so that he can execute his 
other responsibilities. By law and to the extent directed by the 
Secretary of Defense, the chairman serves as spokesman for the 
combatant commanders and is charged with overseeing their activities. 
He provides a vital linkage between the combatant commanders and other 
elements of the Department of Defense. The legal duties of the chairman 
are many and they require either his representation or personal 
participation in a wide range of issues. If confirmed, I will also have 
an obligation in accordance with title 10, United States Code, to keep 
the Secretary of Defense promptly informed on matters for which he may 
hold me personally accountable. If confirmed, I will work with and 
through the chairman in the execution of my duties.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, section 165, provides that, 
subject to the authority, direction, and control of the Secretary of 
Defense and subject to the authority of combatant commanders, the 
Secretaries of military departments are responsible for the 
administration and support of the forces they have assigned to 
combatant commands. The authority exercised by a combatant commander 
over Service components is quite clear, but requires close coordination 
with each secretary to ensure there is no infringement upon those 
lawful responsibilities a Service Secretary alone may discharge.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. They 
now have two significant roles. First, their primary function is to 
provide organized, trained, and equipped forces to be employed by the 
combatant commander in the accomplishment of assigned missions. 
Additionally, as members of the Joint Chiefs of Staff, the Service 
Chiefs have a lawful obligation to provide military advice. 
Individually and collectively, the Service Chiefs are a source of 
experience and judgment every combatant commander can and should call 
upon. If confirmed, I would work closely and confer regularly with the 
Service Chiefs.
    Question. The Combatant Commanders, including Commander, U.S. 
Northern Command.
    Answer. The Commander of STRATCOM has both supported and supporting 
relationships with the other combatant commanders. These relationships 
are primarily identified in the Unified Command Plan, the Forces For 
Unified Commands Memorandum, the Joint Strategic Capabilities Plan, 
specific command arrangement agreements, Operations Plan, and 
contingency plans. In general, STRATCOM is the supported combatant 
commander for the national strategic war plan, and is a supporting 
combatant commander for many remaining plans and missions. The new 
missions recently added to STRATCOM create opportunities to further 
develop the supporting/supported command relationships between the 
combatant commands. If confirmed, I look forward to working with the 
other combatant commands to broaden and enhance the level and range of 
these supporting/supported relationships, especially in the areas of 
information warfare/operations, ISR, space operations, missile defense, 
and global strike.
    Question. The Administrator of the National Nuclear Security 
Administration
    Answer. In accordance with title 32, section 3212, of the National 
Nuclear Security Act of 1999, the Administrator is responsible to the 
Secretary of Energy for all Department of Energy programs and 
activities involving the production, safety, and security of nuclear 
energy and nuclear weapons--including the stockpile stewardship 
program. Though the Administrator is outside the Defense Department's 
chain of command, these issues are of concern to STRATCOM as well, and 
if confirmed, I will work closely and confer regularly with the 
Administrator.
    Question. The Director of the Missile Defense Agency.
    Answer. The Missile Defense Agency (MDA) serves as the missile 
defense systems engineering and development organization for the 
Department of Defense. It provides the research, development, testing, 
and evaluation of the missile defense and associated support systems 
that would be employed by the combatant commanders. U.S. Strategic 
Command maintains a close and continuous relationship with the Director 
of the MDA as they develop the systems to support our warfighting 
requirements. In accordance with Unified Command Plan, Change Two, U.S. 
Strategic Command advocates and ensures desired ballistic missile 
defense and missile-warning characteristics and capabilities of 
combatant commanders are properly represented to MDA.
    Question. The Director of Operational Test and Evaluation.
    Answer. Title 10, United States Code, section 139, provides that 
the Director of Operational Test and Evaluation is appointed from 
civilian life by the President, by and with the advice and consent of 
the Senate. The Director is the principal adviser to the Secretary of 
Defense on operational test and evaluation in the Department of Defense 
and the principal operational test and evaluation official with the 
senior management of the Department of Defense. The director may 
communicate views on matters within the responsibility of the office of 
Operational Test and Evaluation directly to the Secretary of Defense. 
If confirmed, I will work closely with and seek the advice of the 
Director of Operational Test and Evaluation in assessing the progress 
of command programs of interest.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. Strategic Command?
    Answer. The responsibilities of U.S. Strategic Command were 
recently broadened to help advance a global perspective on current and 
emerging capabilities and to enhance DOD ability to counter potential 
threats to our national security. Significant progress has been made in 
developing capabilities within all of the previously unassigned mission 
areas and, if confirmed, I look forward to continuing the efforts of my 
predecessor. As I look ahead, I see challenges along several fronts. 
Most significant of these is ensuring the ability to sustain and 
develop a corps of well-trained professionals with the technical 
competence to advance all assigned mission area disciplines, within 
both the operational and scientific realms. The right, properly skilled 
people will be key to tackling other important issues such as ensuring 
a safe and reliable nuclear weapons stockpile, advancing credible and 
effective strategic deterrent capabilities and expanding command and 
control architectures beyond the legacy nuclear mission to help 
effectively integrate all of STRATCOM's strategic mission areas.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will continue to build upon the excellent 
work of my predecessor and ensure we further operationalize the global 
missions assigned to STRATCOM in order to create a coherent integration 
effort that will provide greater, more flexible capabilities and 
options to the other combatant commanders and the National Command 
Authority. I will also seek to develop and nurture an effective 
organization comprised of talented, educated forces focused on 
strengthening our capabilities to adapt to strategic challenges 
wherever they may arise. If confirmed, I intend to build upon the 
cooperation which STRATCOM already enjoys with other combatant 
commanders to promote improved planning, intelligence, exercises, 
resource management, information operations and security, force 
protection, and command and control so that the Nation is better 
prepared to respond appropriately to a variety of potential 
contingencies.
                           strategic threats
    Question. In your view, what are the most serious strategic threats 
facing the United States today?
    Answer. The globalization of our Nation's security landscape has 
demanded fundamental defense policy shifts. The United States will face 
an array of potential adversaries whose political, cultural, and 
idiosyncratic differences will complicate our efforts to protect vital 
U.S. interests at home and abroad. We face four persistent and emerging 
global challenges: the traditional adversaries, unconventional non-
state or state supported actors, catastrophic use of WMD or methods, 
and disruptive capabilities to supplant our advantages in particular 
operational domains. We must change the way we think about strategic 
deterrence to provide the President with a wider range of deterrent 
capabilities that effectively address the new set of challenges we face 
today.
    Question. What future strategic threats should the United States 
prepare for?
    Answer. Considering the ambiguities today's environment holds as 
discussed above, it is difficult to clearly define all threats the U.S. 
may face in the future. That said, within the STRATCOM realm of 
responsibility, several significant challenges do seem to present 
themselves in my opinion: cyber threats, threats to assured access and 
use of space, weapons of mass destruction, and ballistic missiles are 
all areas where rising challenges can be seen. Encompassing yet also 
exceeding the traditional military domain, the first two are vitally 
important to our daily way-of-life and economic well-being nationwide. 
Likewise, the second two pose threats with obviously devastating 
consequences. As we develop plans and potential responses to these 
known threats, we need to ensure capabilities developed for known 
challenges possess the flexibility to deal with what we do not predict 
today.
                    u.s. strategic command missions
    Question. In an overarching sense, how do you define the U.S. 
Strategic Command mission?
    Answer. U.S. Strategic Command was created to advance a global 
perspective on current and emerging capabilities to counter threats to 
our national security. The mission of U.S. Strategic Command is to 
establish and provide full-spectrum global strike, coordinated space 
and information operations, integrate missile defense, global C\4\ISR, 
specialized planning expertise to joint warfighters as well as 
retaining the legacy missions for our nuclear forces.The intent is to 
meet both deterrent and decisive national security objectives globally.
    Question. U.S. Strategic Command has absorbed several new missions 
in the last 2 years, including ballistic missile defense, space 
operations, ISR, information operations, and computer network security.
    How successful has U.S. Strategic Command been at integrating these 
new missions and acquiring the expertise needed to perform them?
    Answer. I understand that STRATCOM headquarters has realigned, 
refocused, and is energized across the full range of missions assigned. 
New concepts have been shaped, innovative relationships crafted, 
aggressive milestones established, and real progress is being made 
towards full operational capability in the missions assigned by the 
Unified Command Plan. If confirmed, I will continue to seek mechanisms, 
component relationships, and relationships with other combatant 
commanders that further develop the flexibility of pre-existing 
capabilities and expertise resident within the DOD and other agencies 
to support U.S. Strategic Command's missions. Additionally, we will 
continue coherent integration to advance efforts that provide new and 
innovative capabilities allowing the Secretary of Defense and President 
more flexible options in support of our strategic interests.
    Question. What organizational challenges remain at U.S. Strategic 
Command related to these new missions? Specifically, what additional 
work, if any, remains to be done and what expertise, if any, needs to 
be acquired for these new missions?
    Answer. The assignment of forces, where appropriate, and 
establishment of effective component relationships with Services and 
Agencies, as well as strong ties with our allies will continue to 
transform our Nation's security posture as directed in the Unified 
Command Plan. Partnerships with civilian agencies, private industry, 
and academia are vital to successfully accomplish U.S. Strategic 
Command's missions. If confirmed, I will investigate what if any 
challenges remain and how best to address any shortfalls I discover.
    Question. If confirmed, would you recommend or support any changes 
in the missions currently assigned to U.S. Strategic Command? If so, 
what changes would you recommend?
    Answer. U.S. Strategic Command has achieved full operational 
capability for the oversight and direction of all currently assigned 
missions. Each mission area, however, continues to develop and, if 
confirmed, I will continue to apply all of the commands resources to 
achieve full operational capability in each mission area. However, I 
believe that until U.S. Strategic Command achieves full operational 
capability in all missions, significant changes to these assigned 
missions should not be made.
                       ballistic missile defense
    Question. How do you view the role of the Commander, U.S. Strategic 
Command, related to ballistic missile defense?
    Answer. The Unified Command Plan directs STRATCOM to plan, 
integrate, coordinate global missile defense operations and support for 
missile defense, as well as to develop and advocate for all combatant 
commands missile defense characteristics and capabilities. I understand 
that STRATCOM has already established a Global Missile Defense 
Strategic Concept and is developing operational procedures to execute 
its Unified Command Plan missions. If confirmed, my role is to continue 
to provide a clear voice for other Combatant Commanders with Defense 
Agencies on advocating requirements and concepts of operations; and, 
during crisis, to provide sound alternatives for the Secretary of 
Defense and President across the spectrum of missile defense responses, 
including global strike and information operations (offensive-defense 
integration).
    Question. If confirmed, would you recommend or support any changes 
in the authorities of Commander, U.S. Strategic Command, as they relate 
to ballistic missile defense?
    Answer. At present, it appears that the level of authority given to 
Commander, U.S. Strategic Command, as they relate to ballistic missile 
defense, is appropriate.
    Question. If confirmed, what role would you anticipate playing in 
the assessment of the military utility of ballistic missile defenses 
against short-, medium-, and long-range ballistic missiles?
    Answer. U.S. Strategic Command is responsible for conducting a 
Military Utility Assessment (MUA) of the Ballistic Missile Defense 
System. Overall, the MUA serves as a progress report to the Secretary 
of Defense on the progress to date and the ultimate utility of the 
system. It is designed to support two purposes. First, to provide the 
combatant commanders' view of the military utility of the Ballistic 
Missile Defense System at Initial Defensive Operations in 2004. Second, 
to provide the combatant commander's assessment of the Ballistic 
Missile Defense Systems Initial Defensive Operations capabilities and 
limitations.
    Question. What are your views on the relationship between ballistic 
missile defenses and nuclear deterrence?
    Answer. The significant changes in the post-Cold War environment 
call into question the framework and analysis used at the height of the 
Cold War when bipolar, offensive based strategic deterrence worked 
well. Deterrence theory needs to adapt to the multi-faceted, multi-
threat world of today. A more comprehensive framework, including 
missile defense, can integrate additional elements of military strategy 
and deny an adversary specific benefits, to complement offensive 
nuclear forces and assure sustainment of a deterrent capability. Robust 
missile defenses can make the U.S. an even more valuable partner to 
friends and allies and possibly begin to devalue the expensive, long-
range missiles to potential rivals or foes.
    Question. From the perspective of the warfighter, do you believe 
that the spiral acquisition of ballistic missile defenses through 
concurrent fielding, development, testing, and operations is 
appropriate?
    Answer. Spiral acquisition methods facilitate collaborative 
processes that could incorporate rapidly evolving technologies and 
address ballistic missile threats in a dynamic and unpredictable 
security environment. I anticipate concurrent fielding activities will 
not only provide timely defensive coverage, but will also expedite 
inclusion of operational input from combatant commanders.
    Question. Do you believe that the exploitation of the operational 
capabilities of the ballistic missile test bed provides a militarily 
useful capability and contributes to deterrence?
    Answer. If we are able to realize the operational capabilities, 
they will provide two fundamental benefits. First, we gain a 
rudimentary defensive capability against near term threats for the 
United States. Second, as we exercise and test the system, we will 
develop better procedures and experience to ultimately transition from 
a primarily test configuration into full operational capability status.
    Question. In your view, at what stage in the deployment of missile 
defense capabilities should operationally realistic testing be 
conducted?
    Answer. If confirmed, I will examine the current state of 
operational testing as we prepare for initial defensive operations 
later this year. U.S. Strategic Command is tasked with operationalizing 
the capabilities being developed by the Missile Defense Agency. As an 
operational commander, it is essential to ensure that deployed systems 
will work as designed.
    I understand that the operational test bed system to be deployed 
this fall is a rudimentary system that will provide the capability upon 
which to continue further spiral development work. In coordination with 
the Director, Operational Test and Evaluation and Missile Defense 
Agency, U.S. Strategic Command will assess, through the Military 
Utility Assessment, the degree to which delivered capabilities support 
execution of the missile defense mission with a focus on effectiveness, 
interoperability and suitability. We will quantify system performance 
and assess mission execution, fully aware of the developmental 
capabilities and limitations identified. Observations and insights on 
system performance gained from wargames will also be added to determine 
whether modifications to tactics, techniques and procedures can enhance 
system capabilities.
                                 space
    Question. What is your view on the responsiveness of current space 
systems to meet warfighter needs?
    Answer. Our Nation's space systems have served us well and the 
importance of space systems and the warfighting capabilities they 
afford are widely recognized across the Services and combatant 
commands. However, many of these systems are reaching the end of their 
useful life, posing challenges in our future ability to collect, assess 
and transmit timely, actionable information.
    Question. What is your view of the ability of the DOD to develop 
and deploy spaces systems in a cost-effective and timely manner?
    Answer. While there have been challenges with the cost and schedule 
performance of DOD space programs, I believe we understand the 
underlying reasons for many of those problems. I believe that with 
closer attention to three vital areas: the technical, intellectual, and 
industrial bases, we should be able to provide a greater impetus for 
success.
    Question. What steps, if any, do you believe might be necessary to 
improve the responsiveness of current space systems?
    Answer. The Department is aggressively working to improve the 
responsiveness of space systems. To achieve optimum responsiveness, I 
believe focus areas for improvement must address the following key 
attributes: horizontal integration--ensuring space capabilities are 
integrated with programs serving other functional areas; persistent 
capability; survivable and not bandwidth limited; and rooted in a 
responsive launch capability.
    Question. In your view, what are the most important unmet 
requirements for space systems?
    Answer. Persistent surveillance, increased bandwidth, 
survivability, and horizontal integration are all key attributes which, 
if confirmed, I would continue to advocate as key enhancements required 
of our future space systems. I would also advocate investments in 
science and technology to maintain our space pre-eminence well into the 
future.
    Question. What do you believe should be done to meet those 
requirements, and what space programs should be accorded highest 
priority?
    Answer. I believe we should further develop those capabilities that 
provide assured, worldwide survivable communications, persistent 
surveillance and those systems which support these capabilities. The 
Department has several ongoing programs to address these capability 
shortfall areas including Transformational Satellite Communications 
(TSAT), Space-Based Infrared (SBIRS), and Space-Based Radar (SBR) and 
Operationally Responsive Launch (ORL).
    Question. How important, in your view, is persistent surveillance? 
What programs do you believe are best able to provide this capability?
    Answer. Persistent surveillance is paramount to better 
understanding of adversary intentions and movements and a key 
contributor to a credible strategic deterrent. As our adversaries learn 
more about our current surveillance systems, they are able to exploit 
gaps in our coverage. Shorter revisit times provided by enhanced 
persistence allow us to operate inside an adversary's decision cycle, 
minimizing the potential for him to conduct complex activities out of 
our view. Importantly, I believe integrated airborne and space ISR 
programs must be employed to provide the persistence this Nations 
requires.
    Question. In the National Defense Authorization Act for Fiscal Year 
2004, Congress approved a national policy to support two space launch 
vehicles, or families of launch vehicles, capable of launching national 
security payloads into space.
    What, in your view, should the United States do in the future, and 
what steps would you take if confirmed, to ensure continued reliable 
access to space?
    Answer. The U.S. must maintain assured access to space. While most 
of the recent focus has been on launch vehicles, there are several 
other elements that help comprise the overall capabilities for the end-
to-end process necessary for reliable access to space. If confirmed, I 
will support continued emphasis in all critical areas of space access 
including space ranges, launch facilities, support infrastructure, 
launch vehicles and launch services.
    Question. Do you believe that the Nation should sustain redundant 
space launch capabilities?
    Answer. There is always increased risk when relying exclusively on 
one system to achieve a particular capability. The history of the Space 
Shuttle program is ample evidence of the vulnerability in reliance on a 
single launch system. Our Nation's launch capability must be affordable 
and balanced against all elements required to maintain assured access 
to space.
    Question. How important, in your view, is the Air Force 
Operationally Responsive Launch program?
    Answer. Robust augmentation and reconstitution of the capabilities 
addressed by operationally responsive launch programs will allow the 
warfighter to rapidly insert emerging technologies and meet the 
flexibility demands necessary for today's operational concepts.
    Question. In your view, what are the most significant challenges 
that the U.S. faces in military space programs and policy?
    Answer. I believe the most significant challenges are improving 
U.S. launch capabilities, improving space-based ISR, reducing space 
system vulnerabilities, improving satellite communications, and 
assuring access to space. Operations in Iraq last year provided a wake 
up call to potential vulnerabilities of space systems we take for 
granted (like Global Positioning System (GPS)). If confirmed, I intend 
to remain committed to strengthening our space systems and ensure 
horizontal integration of space with other functional air, land, and 
sea capabilities.
                         cruise missile defense
    Question. In your view, how serious is the vulnerability of our 
Nation and deployed military forces to the cruise missile threat?
    Answer. This is a serious threat. Numerous states continue to 
improve their ballistic and cruise missiles, focusing on longer range, 
better accuracy and deployment of new units. The preponderance of the 
cruise missiles under development can carry nuclear, biological, or 
chemical warheads and submunitions. Thus, prudent defense planning, 
active defense design, and command and control systems--both for 
homeland defense and regional defense of deployed forces and interests 
abroad--require that cruise missiles be considered. The actual 
assessment of vulnerability of specific targets is situation dependent 
and is considered in both homeland and regional defense planning.
    Question. What role do you believe U.S. Strategic Command should 
play in the cruise missile defense of our Nation?
    Answer. The Unified Command Plan (Change 2, 10 Jan 03) directs 
STRATCOM to plan, integrate, coordinate global missile defense 
operations and support for missile defense, as well as to develop and 
advocate for all combatant commands missile defense characteristics and 
capabilities. An integrated missile defense architecture must consider 
all credible threats including cruise missiles. STRATCOM is positioned, 
both by law and breadth of program oversight-space operations, 
offense--defense integration, and active defense integration--to 
provide leadership for integrating of cruise missile defense into 
existing capabilities. If confirmed, I will work closely with other 
combatant commanders, defense agencies and material developers in this 
regard.
                           nuclear deterrence
    Question. What is your view of the significance of the nuclear 
triad in today's military and strategic environment?
    Answer. The New Triad outlined in the Nuclear Posture Review allows 
us to adapt to new threats and also provide our national leaders a 
greater range of response options than ever before. I support the 
transition to our New Triad, which provides for a range of capabilities 
beyond our traditional nuclear forces. That said, the capabilities 
provided by the three components of our offensive nuclear forces are 
still very relevant today. They provide diversity in our deployed force 
that remains a viable and desired attribute in our New Triad. The three 
nuclear delivery means complicate potential adversary's attack 
planning, hedge against wholesale failure by one or more systems, 
reduces the risk of technological obsolescence by countermeasures 
developed against any particular system, and likewise, forces 
adversary's to consider a broad range of defense measures for 
themselves. The deterrent value and flexibility of options available 
has been greatly expanded by adding the elements included in the New 
Triad thereby increasing overall strategic value to the Nation.
    Question. If confirmed, what priority would you place on sustaining 
and modernizing the nuclear triad and what steps would you recommend in 
that regard?
    Answer. As our Nation comes to rely on a numerically smaller 
deployed strategic nuclear force, the imperative for modernizing and 
sustaining that force becomes even more critical to ensure a continued 
viable deterrent. If confirmed, I would give priority to supporting on 
going life extension programs to strategic nuclear platforms, and 
planned life extension programs for our nuclear stockpile. Programs 
such as these are, in some cases, multi-decade long events and require 
continuous support to ensure their successful conclusion. These are the 
core nuclear deterrent capabilities and must be supported.
    Question. The Nuclear Posture Review recommended a new triad 
consisting of offensive forces, both nuclear and conventional; 
defenses, both active and passive; and a responsive infrastructure to 
support those forces. With respect to offensive forces, the Nuclear 
Posture Review called for improved conventional strike capabilities and 
nuclear forces tailored to deter adversaries.
    Do you support the conclusions of the Nuclear Posture Review?
    Answer. Yes. The Nuclear Posture Review (NPR) provided a good 
conceptual re-examination of our forces and posture and established a 
viable new framework to re-set how we consider our strategic Triad. The 
New Triad provides the Nation a more robust flexible capability that 
does not only rely on offensive response as the sole deterrent 
mechanism.
    Question. Do you believe that there is a minimum number of 
strategic nuclear weapons needed to sustain a viable deterrent posture?
    Answer. I support the President's commitment to reduce the nuclear 
stockpile to the lowest number possible consistent with our national 
security needs. I also support the goals laid out in the Moscow Treaty 
of reducing our operationally deployed strategic nuclear weapons to 
between 1,700 and 2,200 by 2012.
    Question. Do you believe new nuclear weapons are needed or will be 
needed to support a viable deterrent posture?
    Answer. I do not foresee a need in the immediate future, but we 
need to ensure the Nation retains the response infrastructure that is 
capable of development, production, and fielding as a hedge against 
future uncertainty. I support the President's commitment to reduce the 
nuclear stockpile to the lowest number possible consistent with our 
national security needs. I also support the goals laid out in the 
Moscow Treaty of reducing our operationally deployed strategic nuclear 
weapons to between 1,700 and 2,200 by 2012.
    Question. In your view, what steps, if any, are appropriate to 
tailor our nuclear forces to the new strategic environment?
    Answer. Our immediately required actions are already underway as a 
result of the NPR and the recent stockpile reduction plan. As we 
develop the legs of the New Triad, we will be able to further consider 
appropriate changes to our existing nuclear forces. Any re-examination 
should look to ensure our stockpile is capabilities-based while 
simultaneously maintaining safety and security.
    Question. In your view, is there a relationship between U.S. 
nuclear deterrence policy and nonproliferation policy? If so, please 
describe the relationship.
    Answer. A credible nuclear deterrent has been an important 
nonproliferation tool that has removed incentives for many allies to 
develop and deploy their own nuclear forces. Nuclear weapons, in 
concert with treaty and alliance structures, have assured allies the 
U.S. will deter, prevent, or limit damage to them from adversary 
attacks. Our newly expanded definition of deterrence may in fact help 
discourage further proliferation. While some developing and existing 
nuclear powers may continue their improvement efforts, as U.S. 
defensive capabilities improve, this may devalue the enormous expense 
required to initiate nuclear capability development and lessen the 
proliferation drive from aspiring participants.
                     hard and deeply buried targets
    Question. In your view, how adequate are current efforts to address 
hard and deeply buried targets?
    Answer. There are hard and deep buried targets in existence today 
that are difficult for us to place at risk. Deterrence requires we be 
able to hold these targets at risk--potential adversaries obviously 
value them highly or they would not go the trouble of deep location and 
hardened protection. If confirmed, I desire to comprehensively assess 
the full spectrum of capabilities necessary to place these targets at 
risk, both kinetically and nonkinetically.
    Question. If confirmed, would you support or recommend steps to 
improve the management or coordination of development efforts to hold 
at risk hard and deeply buried targets?
    Answer. I wholeheartedly support identifying and analyzing the 
capabilities the Nation desires against such types of targets. The 
ultimate capability required will better direct particular development 
efforts across the broad spectrum of potential military solutions--
kinetic and nonkinetic, nuclear, and conventional.
    Question. Do you support development of new or modified nuclear 
weapons to hold at risk hard or deeply buried targets?
    Answer. I believe we need to first determine the capability we 
desire against such targets and then evaluate all material and non-
material solutions to engage them. Nuclear weapons are only one of many 
potential arrows that we could carry in our quiver against hard and 
deep buried targets.
                              arms control
    Question. In the last several years, the United States ratified the 
Strategic Offensive Reductions Treaty with Russia and withdrew from the 
1972 Anti-Ballistic Missile Treaty.
    What is your view of the significance of strategic arms control 
agreements in the current environment?
    Answer. Arms control agreements still remain a central feature in 
the strategic environment we face with other state-based actors. The 
recently ratified Moscow Treaty highlights this importance and will 
facilitate reductions in nuclear arsenals. However, our rapidly 
evolving security environment is no longer hinged on a static, bi-polar 
relationship and the certain stability and predictability that 
framework brought. In the future, arms control may need to place 
greater emphasis on managing strategic uncertainty than on codification 
of specific force structures.
    Question. If confirmed, what arms control initiatives, or other 
forms of cooperative initiatives related to armaments, if any, would 
you recommend?
    Answer. As stated above, the evolving strategic environment may 
require us to reconsider the basic underpinnings of future arms control 
agreements. Regardless of any potential specific initiative, I feel 
future agreements will still have to possess confidence building 
measures, maintain linkage to the broader dictates of U.S. foreign and 
defense policy goals, provide timely and rapidly accessible 
information, be developed in consultation and cooperation with Congress 
and our allies, and most importantly, provide protection mechanisms 
against the shock of unexpected strategic developments.
    Question. In your view, should the U.S. continue to abide by a 
moratorium on nuclear weapons testing?
    Answer. I support our current policy and program of science-based 
Stockpile Stewardship. However, while this is currently sufficient, we 
should not preclude the ability to resume such tests if serious 
technical issues, or other factors, call into question our data 
analysis or reliability of the nuclear stockpile. I feel we need to 
retain our capability for testing even while we honor the moratorium on 
such tests.
                             global strike
    Question. Are you satisfied with Service efforts to provide 
appropriate weapon systems and platforms to support the U.S. Strategic 
Command global strike mission?
    Answer. With close cooperation of the Air Force and Navy, the 
Secretary of Defense just signed the Interim Global Strike Alert Order, 
which provides the President a prompt, global strike capability. Today, 
we rely upon Navy Tomahawk missiles and Air Force bombers carrying 
conventional cruise missiles, Joint Direct Attack Munitions and other 
gravity released weapons to provide this kinetic-kill solution, and our 
global command and control reach. U.S. Strategic Command is responsible 
for the advocacy of kinetic and nonkinetic capabilities that could be 
adapted to the global strike mission. As the Services develop new, even 
more responsive kinetic and nonkinetic solutions, global strike 
capabilities will achieve the desired effects with far greater time 
responsiveness.
    Question. What strike weapon systems and platforms do you believe 
are most important in this regard?
    Answer. Global strike capabilities must have a global reach and 
unimpeded access as well as timely response to any threat to national 
security. While today's global strike capability is limited, if 
confirmed, I will advocate advancements in kinetic and nonkinetic 
solutions that improve global reach and access. Global Strike 
effectiveness will be limited, however, without robust ISR. We must 
continue to improve our persistent ISR capability to obtain warning and 
necessary targeting information to find and fix a target before we can 
neutralize or destroy it through Global Strike kinetic or nonkinetic 
weaponry.
    Question. In your view, what steps should be taken over the next 10 
years to modernize and sustain the bomber fleet?
    Answer. The long range bomber fleet is an essential element of the 
Nation's strategic deterrent force and STRATCOM's nuclear and Global 
Strike capability. The Air Force is currently executing plans to 
sustain and modernize our bomber fleet through 2037. Programmed 
upgrades to all three platforms including radar modernization, 
survivable communications and defensive/offensive systems upgrades are 
essential for the fleet to fulfill the new combat capabilities demanded 
by Global Strike. If confirmed, I intend to keep the Command fully 
engaged in advocating associated requirements and improving the fleet's 
concepts of operation.
                     stockpile stewardship program
    Question. What is your view of how well the Stockpile Stewardship 
Program is proceeding towards its goal of being able to continuously 
assess and annually certify the U.S. enduring nuclear weapons stockpile 
as safe, secure, and reliable, without the need for underground nuclear 
testing?
    Answer. The science-based Stockpile Stewardship Program continues 
to improve and the combined efforts of STRATCOM and the National 
Nuclear Security Administration (NNSA) should be able to continue to 
certify the safety and reliability of the stockpile without resorting 
to underground testing anytime in the near future. To the best of my 
knowledge, we have no immediate need to, and no current plans to, 
recommence underground testing. What I think we do not want to do is 
preclude our ability to resume such tests if we find technically 
compelling reasons in future that call into question our data or 
weapons reliability.
    Question. In your opinion, what are the biggest challenges for the 
Stockpile Stewardship Program?
    Answer. I think the program faces several challenges. The first is 
maintaining sufficient funding to ensure our current facilities are 
developed and maintained to world-class standards to support our 
national security requirements. The second major challenge as I 
understand it, is an acute aging of the scientific/engineering 
community in several areas of nuclear weapons research. This is 
particularly evident in the nuclear effects arena. Throughout a variety 
of nuclear weapons related scientific and engineering activities there 
is a lack of young scientists and engineers available and willing to 
undertake and persist in requisite apprenticeships to replace the 
expertise that is and soon will be retiring. Finally, as our stockpile 
ages, I believe we may need to reevaluate the baseline assumptions of a 
purely science based approach as there is little to no experience in 
extrapolating such complex matters over long periods of time. If 
confirmed, I look forward to working with our partners at NNSA in 
addressing these potential challenges.
           pit production capability and modern pit facility
    Question. The Under Secretary of Defense for Policy stated in 
testimony before the Senate Armed Services Committee on February 14, 
2002, ``I believe that of the countries that have nuclear weapons, we 
are the only one that does not have the capability to manufacture new 
nuclear weapons now.'' Since that time, Los Alamos National Laboratory 
has added the capability to manufacture small numbers of W88 pits, 
however, the United States still does not have a flexible production 
capability.
    What is your view of the need for the United States to restore its 
pit production capability beyond the limited capability at the Los 
Alamos National Laboratory?
    Answer. The third leg of our new triad of flexible response 
capabilities is an R&D and industrial infrastructure needed to develop, 
build, and maintain nuclear offensive forces and defensive systems. The 
limited pit production capability at Los Alamos is one element of this 
Triad leg that is lacking in sufficient capability should the need 
arise. In order to be responsive, achieve the planned stockpile 
reductions without further risk, and maintain our commitment to a 
second-to-none strategic deterrent, it is vital that the U.S. develop a 
more robust pit production capability.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Strategic 
Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator John McCain
                        assured access to space
    1. Senator McCain. General Cartwright, in the National Defense 
Authorization Act for Fiscal Year 2004, Congress approved a policy to 
support two space launch vehicles capable to support a policy of 
assured access to space. The result has been significant cost overruns 
to the taxpayer in keeping duplicate systems in place. Do you believe 
we should reconsider this policy in favor of affordable access to space 
at any time, rather than assured access to space at any cost?
    General Cartwright. United States national security is highly 
dependent on space capabilities. It is essential that our combatant 
commanders be provided these capabilities when needed. We are moving 
toward the next generation of launch technologies that should give us 
reliable, routine, and affordable access to space in the future.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                        icbm and nuclear weapons
    2. Senator Reed. General Cartwright, there are several studies 
underway looking at the next generation bomber or other options for 
long range global strike in the future. There are a wide variety of 
options including manned and unmanned vehicles under discussion. In 
addition, the Air Force will shortly begin to conduct an analysis of 
alternatives for a new land-based intercontinental ballistic missile 
(ICBM). Options that are being suggested in both contexts include using 
conventional warheads on intercontinental ballistic missiles. Have you 
looked at this option; and, if you have, do you have any thoughts on 
whether it is practical, affordable, and how it would not be confused 
with a nuclear ICBM?
    General Cartwright. The Services are examining several 
possibilities of conventional strike through space to provide a 
practical, affordable global strike capability. This effort meets the 
Nuclear Posture Review goal of enhancing our deterrent posture with a 
mix of advanced concepts, to provide a full range of options for our 
Nation's leaders. Initial studies indicate there is a set of workable 
and affordable measures that could effectively reduce the risk of any 
major power confusing a conventional strike with a nuclear attack.

    3. Senator Reed. General Cartwright, are there any military 
requirements for new nuclear weapons?
    General Cartwright. Currently, there is no military requirement for 
a new nuclear weapon. The military does have a requirement to defeat 
hard and deeply buried targets that currently cannot be held at risk. 
We are studying several options to achieve this capability. 

    4. Senator Reed. General Cartwright, what are your views on whether 
new nuclear weapons are needed and under what circumstances?
    General Cartwright. Currently, there is no military requirement to 
develop a ``new'' nuclear weapon. As stated in the 2001 Quadrennial 
Defense Review and Nuclear Posture Review, the post-September 11 future 
is uncertain and requires a force structure that can effectively adapt 
to unexpected shifts in the geo-political landscape. I cannot 
anticipate whether future circumstances may drive the development of a 
completely ``new'' nuclear weapon.

                  nuclear policy and nonproliferation
    5. Senator Reed. General Cartwright, it has been said that the 
world watches us like a hawk when it comes to nuclear weapons and 
nuclear policy. If the United States should decide to develop new 
nuclear weapons or resume nuclear weapons testing in support of either 
new or modified nuclear weapons, what signal would this send or what 
impact would it have on those countries that are seeking nuclear 
weapons, such as Iran or North Korea?
    General Cartwright. Deterrence is the capacity to dissuade others 
from taking action contrary to our vital interests by maintenance of 
overwhelming power. Nuclear capabilities are a cornerstone of our 
national deterrence strategy. Maintaining the safety and reliability of 
those weapons demonstrate a strong national resolve to remain a global 
power. The decision to resume testing lays with the President of the 
United States if a need arises.

                        nuclear weapons testing
    6. Senator Reed. General Cartwright, in pre-hearing questions you 
were asked if, in your view, the U.S. should continue to abide by the 
moratorium on nuclear weapons testing. In your response you said that 
while you support current policy ``we should not preclude the ability 
to resume such tests if serious technical issues, or other factors call 
into question our data analysis or reliability of the nuclear 
stockpile.'' Could you please explain what you mean by ``other 
factors?''
    General Cartwright. The United States is attempting to maintain 
weapons that contain primary elements that naturally decay. Without 
testing, we continue to modify the weapons to make them more reliable 
and safer. The ``other factors'' include the uncertainty of untested 
design configurations, metallurgy changes due to radioactive decay, and 
limitations of models built without empirical test data. These factors, 
combined with technical issues discovered from component testing, could 
support consideration for future testing. 

    7. Senator Reed. General Cartwright, the resumption of nuclear 
weapons testing has been reserved for a situation when the safety or 
reliability of a nuclear weapon essential to the U.S. stockpile is no 
longer able to be certified. Could you please explain what you mean by 
``call into question our data analysis?'' By this statement do you mean 
to lower the threshold for a resumption of nuclear weapons testing?
    General Cartwright. The United States Government currently relies 
on the analytical tools of the Stockpile Stewardship Program to ensure 
our aging stockpile remains safe and reliable over time. The phrase 
``call into question our data analyses'' refers specifically to 
possible limitations of the current models that support certification.

                          future space systems
    8. Senator Reed. General Cartwright, the 1996 National Security 
Space Policy is in the process of being changed. The new policy is 
projected to be finished in the fall. If confirmed, will you have an 
opportunity to participate in or comment on the new policy?
    General Cartwright. Yes, the STRATCOM staff is engaged with the 
Joint Staff and the Office of the Secretary of Defense on this issue. 

    9. Senator Reed. General Cartwright, do you have any thoughts on 
how any specific areas or issues should be addressed? For instance, 
would you support development and deployment of space based electronic 
attack satellites?
    General Cartwright. United States space systems provide unique 
capabilities and offer global force enhancements critical to prevailing 
during military operations today and tomorrow. Our recent operations in 
Afghanistan and Iraq demonstrate that given the opportunity and 
capability, an adversary will likely contest our ability to use space 
assets. Although these adversaries employed nascent capabilities in 
their counter-space effort, it demonstrated the importance of being 
able to maintain space control capabilities.

                     confidence in missile defense
    10. Senator Reed. General Cartwright, by September the 
administration plans to deploy a national missile defense system, and 
you will have the responsibility to ensure this system protects the 
United States from long-range missile attack. You will also bear 
responsibility if this system fails in the unlikely event it is called 
upon to defend this country.
    At this point in time, neither the new operational interceptor, nor 
the operational radar, nor the operational software of this system have 
ever been tested in an actual intercept test. The last intercept test 
of this system, which occurred way back in December 2002, was a 
failure.
    The next intercept test (which is described as a ``fly by'' even 
though it is really intended to hit the target) had been scheduled for 
March, but has been delayed again and again because of technical 
problems, and now is not scheduled until August.
    In March, I asked the Pentagon's chief tester, Tom Christie: ``So 
at this time we cannot be sure that the actual system would work 
against a real North Korean missile threat?'' Mr. Christie replied: ``I 
would say that's true.''
    Given all of this, what confidence do you have that the system to 
be deployed in September will actually be capable of defending the U.S. 
against a missile attack, and what is the basis for your level of 
confidence?
    General Cartwright. STRATCOM is working closely with the Missile 
Defense Agency, the Director of Operational Test and Evaluation, and 
other combatant commands towards initial defensive capability. Barring 
unforeseen complications, we will be prepared to operate a rudimentary 
defensive capability this year. A Military Utility Assessment in 
progress forms the basis for this confidence. This iterative, event-
driven assessment is the mechanism for evaluating system capabilities 
and provides for periodic assessments of system effectiveness and 
suitability. It utilizes a full range of missile defense testing, 
modeling, and simulation tools.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                        ensuring access to space
    11. Senator Bill Nelson. General Cartwright, in your view what are 
your highest priorities in ensuring that the U.S. maintains the ability 
to access space and about what do you most worry?
    General Cartwright. The Nation's ongoing efforts to maintain 
reliable access to and operations in space are paramount. We must 
continue to accurately assess and maintain the quality of our launch 
vehicles, facilities, and control systems. My highest priorities are 
space protection, responsiveness, affordability, and infrastructure.

                 coordination and cooperation with nasa
    12. Senator Bill Nelson. General Cartwright, there is not 
significant coordination and cooperation with NASA and the DOD on space 
research and development. In your view what are the opportunities for 
improved or new cooperative work with NASA on space systems?
    General Cartwright. The Department of Defense and National 
Aeronautics and Space Administration recognize mutual support is in the 
best interest of the Nation, Today, we are focusing our collaboration 
efforts in four major areas: interagency cooperation, science and 
technology developments, space operations, and human space flight 
activities. To advance those efforts we have established the 
Partnership Council, the Space Technology Alliance, the National 
Aerospace Initiative, the Space Exploration Steering Council, the Space 
Experimentation Review Board, and the Space Test Program. 

                             space systems
    13. Senator Bill Nelson. General Cartwright, many of the key space 
systems are substantially over budget and behind schedule, due in large 
part to an inability to resolve the requirements for the systems and 
underestimating the complexity of the technology. What role will you 
play in developing requirements and improving the way requirements for 
space systems are developed and technologies adopted?
    General Cartwright. I see STRATCOM's role as the broker for 
warfighter requirements to ensure combatant commanders' needs are met. 
Recent progress has been made through the National Security Space 
Programs Acquisition process. In addition, the Defense Department's 
Joint Capabilities Integration and Development system promises greater 
linkage between the requirements, acquisition, and planning and 
programming processes. Together these improvements will enhance the 
space systems acquisition process. Close interaction with STRATCOM's 
component commands and services will ensure future space systems are 
designed, funded, fielded, and sustained as end-to-end systems that 
meet the requirements of all stakeholders.

                             global strike
    14. Senator Bill Nelson. General Cartwright, one of the new 
Strategic Command missions is encompassed in the Global Operations 
Division. In many ways this division appears to overlap or duplicate 
planning and operations previously conducted by the regional 
commanders. What is your thinking on this new mission and how should 
Strategic Command support the other commanders in planning global 
operations?
    General Cartwright. The Global Operations Directorate, in concert 
with other STRATCOM directorates, collaborates with the regional 
commanders to accomplish STRATCOM's newly assigned missions. STRATCOM 
leverages headquarters-based and component expertise to enhance, 
augment, and complement regional commanders' operations. STRATCOM also 
integrates the newly assigned missions in its supporting plans to 
regional commanders. STRATCOM's global focus leverages worldwide DOD 
asset availability and, with the regional commanders, develops 
solutions on a macro-scale to resolve issues within each region and 
across area of responsibility seams. Mission duplication is eliminated 
through ongoing collaboration and cooperation between STRATCOM and the 
regional commanders.

                        missile defense testing
    15. Senator Bill Nelson. General Cartwright, the last missile 
defense intercept test, held in December 2002, was a failure. As of 
now, there are just two missile defense intercept tests scheduled prior 
to the system being declared operational in September. How will the 
results of these tests impact your view of whether the system is 
effective? For example, what if one or both test fail--would you 
recommend to the President that the system be deployed anyway?
    General Cartwright. The failure of a single test or a series of 
tests would not necessarily preclude my recommendation to deploy the 
system. The root cause of any test failure must be determined and 
evaluated.
                                 ______
                                 
    [The nomination reference of Lt. Gen. James E. Cartwright, 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 15, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the Untied States 
Marine Corps to the grade indicated while assigned to a position of 
importance and responsibility under title 10, United States Code, 
Section 601:

                             To be General.

    Lt. Gen. James E. Cartwright, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. James E. Cartwright, 
USMC, which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Biographical Sketch of Lt. Gen. James E. Cartwright, USMC
Date and pace of birth: September 22, 1949; Rockford, IL.

Date of first commission: November 1, 1971.

Years of commission: 32.

Education:

------------------------------------------------------------------------
                      Education                         Year Completed
------------------------------------------------------------------------
Civilian:
  BS, University of Iowa............................               1971
Military:
  The Basic School..................................               1972
  Naval Flight Officer Training.....................               1973
  Naval Aviator Flight Training.....................               1979
  Air Command and Staff College.....................               1986
  Naval War College.................................               1991
------------------------------------------------------------------------


Command experience:

------------------------------------------------------------------------
                                     From      To           Grade
------------------------------------------------------------------------
MALS-12, Marine Aircraft Group 12     1989     1990  LtCol
 (Squadron Commander).
VMFA-232, Marine Aircraft Group       1991     1992  LtCol
 24 (Squadron Commander).
MAG-31, 2nd Marine Aircraft Wing      1994     1996  Col
 (Group Commander).
U.S. Marine Corps Forces Atlantic     1999     2000  BGen
 (Deputy Commander).
1st Marine Aircraft Wing              2000     2002  BGen/MajGen
 (Commanding General).
------------------------------------------------------------------------


Major staff assignments:

------------------------------------------------------------------------
                                     From      To           Grade
------------------------------------------------------------------------
F/A-18 Program, Naval Air Systems     1986     1989  LtCol
 Command (Deputy Assistant
 Program Manager).
Aviation Plans, Policy and Budget     1993     1994  LtCol/Col
 Branch, Aviation Department,
 HQMC (Assistant Branch Head).
------------------------------------------------------------------------


Joint duty assignments:

------------------------------------------------------------------------
                                     From      To           Grade
------------------------------------------------------------------------
Director, J-8, Joint Staff            1996     1997  Col
 (Special Assistant).
Resources and Requirements, J-8,      1997     1999  BGen
 Joint Staff (Deputy Director).
Force Structure, Resources and        2002  present  LtGen
 Assessment J-8, Joint Staff
 (Director).
------------------------------------------------------------------------


Special Qualifications:

Personal Decorations: Defense Distinguished Service Medal; Legion of 
        Merit w/gold star, Meritorious Service Medal, Navy Commendation 
        Medal w/gold star, Navy Achievement Medal.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. James 
E. Cartwright, USMC, in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James E. Cartwright.

    2. Position to which nominated:
    Commander, United States Strategic Command.

    3. Date of nomination:
    June 15, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 22, 1949; Rockford, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sandra K. Waltz.

    7. Names and ages of children:
    Jayme Elizabeth Cartwright, 24 years, birthdate: September 20, 
1979.
    Billee Ann Bennett (married); 29 years, birthdate: March 18, 1974.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
proided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements other than those 
listed on the service record extract provided to the committee by the 
executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               James E. Cartwright.
    This 11th day of June, 2004.

    [The nomination of Lt. Gen. James E. Cartwright, USMC, was 
reported to the Senate by Chairman Warner on July 8, 2004, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 8, 2004.]


NOMINATIONS OF VADM TIMOTHY J. KEATING, USN, FOR THE APPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES NORTHERN COMMAND/
   COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND; LTG BANTZ J. 
 CRADDOCK, USA, FOR THE APPOINTMENT TO THE GRADE OF GENERAL AND TO BE 
 COMMANDER, UNITED STATES SOUTHERN COMMAND; PETER CYRIL WYCHE FLORY TO 
 BE ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY POLICY; 
  AND VALERIE LYNN BALDWIN TO BE ASSISTANT SECRETARY OF THE ARMY FOR 
                  FINANCIAL MANAGEMENT AND COMPTROLLER

                              ----------                              


                        WEDNESDAY, JULY 21, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Allard, Talent, Chambliss, Dole, Levin, Kennedy, E. 
Benjamin Nelson, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
Brian R. Green, professional staff member; Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; Paula J. Philbin, professional staff member; Lynn F. 
Rusten, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Maren R. 
Leed, professional staff member; Peter K. Levine, minority 
counsel; Michael J. McCord, professional staff member; and 
William G.P. Monahan, minority counsel.
    Staff assistant present: Alison E. Brill.
    Committee members' assistants present: Darren M. Dick, 
assistant to Senator Roberts; Jayson Roehl, assistant to 
Senator Allard; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Christine O. Hill, assistant to Senator Dole; David 
S. Lyles, assistant to Senator Levin; Mieke Y. Eoyang, 
assistant to Senator Kennedy; Jarret A. Wright, assistant to 
Senator Kennedy; William K. Sutey and Peter A. Contostavlos, 
assistants to Senator Bill Nelson; and Terri Glaze, assistant 
to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will come to order.
    We here on the committee are very pleased that we have four 
distinguished nominees this morning in the advice and consent 
process, which--I will explain for the benefit of some of the 
newer members here--is established by the Constitution of the 
United States, giving the United States Senate a very special 
and very important authority to review the nominations 
forwarded by the President of the United States, whoever that 
may be, to the Senate for confirmation.
    On our first panel, we have two military nominees. Vice 
Admiral Timothy J. Keating, United States Navy, has been 
nominated to be Commander of the United States Northern Command 
(NORTHCOM) and the North American Aerospace Defense Command 
(NORAD). Lieutenant General Bantz Craddock, United States Army, 
has been nominated to be Commander, United States Southern 
Command (SOUTHCOM).
    We welcome you, gentlemen, and your families. I wonder if 
at this time, Admiral, you would introduce your family that is 
here with you.
    Admiral Keating. I would be delighted, Senator. Thank you, 
Mr. Chairman. My wife, Wanda Lee. We have been married for 
decades. [Laughter.]
    She does not look it. I do.
    Chairman Warner. Thank you very much. That is clear and to 
the point. [Laughter.]
    General Craddock.
    General Craddock. Mr. Chairman, thank you. My wife, Linda, 
is with me today. We too have been married for decades, I 
guess. [Laughter.]
    She has been with me every step of the journey of this 
military career. My daughter, Amanda, who is also here today, 
is the Assistant Dean of Admissions at the University of Mary 
Washington in Fredericksburg. We are very proud of her. A dear 
friend, Gail Loveless, who is beside Amanda, is also joining us 
today. Thank you, sir.
    Chairman Warner. Thank you very much, gentlemen.
    In our second panel, we will consider two civilian 
nominations. Peter Flory has been nominated to be the Assistant 
Secretary of Defense for International Security Policy, and 
Valerie Baldwin has been nominated to be the Assistant 
Secretary of the Army for Financial Management and Comptroller. 
I wonder, Mr. Flory, if you would introduce your family at this 
time please.
    Mr. Flory. Senator, my wife Kathleen, to whom I have been 
married, also for decades. [Laughter.]
    Just barely. My son, Seamus Flory, 16; my son, Xavier 
Flory; and my daughter Fiona. Will you stand up please? My 
youngest daughter, Mairead, who is 4. There are two others who 
are not here. They are at camp. I am sure they would rather be 
here.
    Chairman Warner. Well, you are very well represented. Thank 
you.
    Ms. Baldwin, if you would, kindly introduce those that have 
joined you today.
    Ms. Baldwin. Thank you, sir. First of all, I would like to 
introduce my brother, Louie Lemert, and substituting for my 
parents who could not be here from Kansas today, I have Don and 
Carol Muntz and Kevin Delany, and later on, sir, I hope you 
will bear with me, I think that a number of my younger 
godchildren are going to be arriving.
    Chairman Warner. I understand you are the godmother to four 
individuals. Is that correct?
    Ms. Baldwin. Actually five, sir, two of whom are my 
nephews.
    Chairman Warner. That is a very important function. Well, 
we welcome the families. Our committee urged the nominees to 
bring their families. I myself proudly sat at that table, oh, 
my gracious, 30 some odd years ago.
    Senator Levin. Decades ago. [Laughter.]
    Chairman Warner. Senator Levin and I have been seated side 
by side on this committee for 26 years.
    Senator Levin. Decades. [Laughter.]
    Chairman Warner. But we recognize the importance--and it is 
becoming of increasing importance in military life--of the role 
of the families. Throughout history, it has been that wonderful 
family that stood beside that soldier, sailor, airman, and 
marine, as he or she has been deployed beyond our shores, and 
the family that packs and moves, and packs and moves, and packs 
and moves in the careers of our military. So we thank you, and 
we are glad to have you here. You are every bit a part of this 
nomination process.
    Now, Admiral Keating, I shall briefly mention your very 
distinguished career as a naval aviator, he is presently 
serving as Director of the Joint Staff. He has commanded a 
fighter attack squadron, a carrier based wing, a carrier battle 
group, and most recently commanded United States Naval Forces 
Central Command (NAVCENTCOM), and the U.S. Fifth Fleet during 
Operation Iraqi Freedom (OIF).
    I remember very well, as does my distinguished colleague, 
Mr. Levin, when we came to visit you in Qatar in February 2003, 
and you briefed us on the naval responsibilities for the 
forthcoming operation in Iraq.
    Previously you served as Deputy Chief of Naval Operations 
(CNO) for Plans, Policy, and Operations and as the Deputy 
Director for Operations, J-3, on the Joint Staff. We welcome 
you again, Admiral.
    Admiral Keating. Thank you, sir.
    Chairman Warner. General Craddock is currently assigned as 
the Senior Military Assistant to the Secretary of Defense, and 
when we have the privilege of visiting with the Secretary in 
his spaces, you are always there silently, discreetly at a 
distance, taking notes, but ready with a firm hand to grab any 
of us who get out of order and chuck us out. [Laughter.]
    I witnessed that not for a Member of Congress, but somebody 
else. I was rather impressed----[Laughter.]
    ----how firmly you got that individual settled and back.
    He has had various assignments in the United States Army, 
in Europe with the 7th Army in Germany, and culminating in his 
command of the 1st Infantry Division.
    General Craddock served in Kosovo from 1998 to 1999 as the 
Commander, Multinational Brigade, and as the commander of an 
armored battalion during Operation Desert Storm, for which he 
was awarded the Silver Star.
    General Craddock has also served previously on the Joint 
Staff as Assistant Deputy Director for Strategy and Policy, J-
5.
    General Craddock, I congratulate you on your nomination for 
this important command, as I do you, Admiral.
    Now, we have a series of pre-hearing policy questions. You 
have given your answers. They are now a part of the record 
available for all members to examine, and I will put them in 
without objection into the record.
    I also have certain standard questions we ask of every 
nominee who appears before the committee. At this time, I will 
propound those questions to our first two panelists, with the 
understanding that we may have to stop. If someone would advise 
me if the Member of Congress, Mr. Lewis, arrives.
    So to our first panel, have you adhered to applicable laws 
and regulations governing conflict of interests?
    Admiral Keating. I have.
    General Craddock. I have.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Keating. No, sir.
    General Craddock. I have not.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in the hearings?
    Admiral Keating. I will, sir.
    General Craddock. I will, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Keating. Yes, sir, I will.
    General Craddock. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Keating. Yes, sir.
    General Craddock. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Keating. Yes, sir.
    General Craddock. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked before this committee to do som even if those views 
differ with the administration at that time in office?
    Admiral Keating. Yes, sir.
    General Craddock. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by this committee, or to consult 
with the committee regarding the basis for any good faith delay 
or denial in providing such documents?
    Admiral Keating. I do.
    General Craddock. I do.
    Chairman Warner. Senator Levin, do you have some comments 
for this first panel?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Let me first join 
you in welcoming Admiral Keating and General Craddock and their 
family members. I wholeheartedly join your sentiments about the 
relevance and importance of family to the careers of these 
nominees, as well as to all of the members of this wonderful 
military profession.
    Admiral Keating has been nominated to be the second 
commander of the relatively new Northern Command, as well as to 
assume the command of NORAD. His nomination comes at a juncture 
where we are receiving almost daily reminders of the ongoing 
terrorist threat. Two weeks ago, Secretary Ridge told the 
public that we face an increased risk of attack this summer. He 
said that ``credible reporting now indicates that al Qaeda is 
moving forward with its plans to carry out a large scale attack 
on the United States in an effort to disrupt our democratic 
process.''
    A few months ago, Thomas Kean, the chairman of the panel 
investigating the September 11 attacks, said in an interview 
with the Philadelphia Inquirer that, ``Every single person whom 
we have talked to who is considered knowledgeable in this study 
expects another attack.''
    Meanwhile, in a newly released book, Steve Flynn, a retired 
Coast Guard Commander and senior fellow at the Council on 
Foreign Relations, stated that: ``With the exception of 
airports, much of what is critical to our way of life remains 
unprotected: water and food supplies, refineries, energy grids 
and pipelines, bridges, tunnels, trains, trucks, and cargo 
containers, as well as the cyber backbone that underpins the 
information age in which we live. The security measures we have 
been cobbling together are hardly fit to deter amateur thieves, 
vandals, and hackers, never mind determined terrorists.'' 
``Worse still,'' he said, ``small improvements are often 
oversold as giant steps forward, lowering the guard of average 
citizens as they carry on their daily routine with an 
unwarranted sense of confidence.''
    Against this backdrop, the Northern Command continues to 
be, as the former deputy commander told committee staff a few 
months ago, an evolving command. NORTHCOM is working to address 
the challenge of developing intelligence sharing and 
communication systems that are interagency and involve State 
and local authorities. NORTHCOM and NORAD are working to 
improve North America's air defense system and to develop 
systems for managing maritime and land security.
    Admiral Keating, I look forward, as all of us do, to 
hearing some of your thoughts as to how we can do that and, if 
you are confirmed, working with you to ensure that Northern 
Command is a robust, fully capable command.
    General Craddock, you have been nominated to assume command 
of the U.S. Southern Command at a time when political and 
economic stability in the western hemisphere is shaky in 
several areas that are critical to us--from their contribution 
to fighting illegal drug production and trafficking and for 
maintaining stability in Latin America and the Caribbean. We 
are watching with interest and concern the political 
developments in Peru, Bolivia, and Venezuela. The United States 
continues to have a great stake in the struggle against the 
armed insurgent narcotraffickers in Colombia. In Haiti the 
government still does not control about half of the country. 
Security remains dependent on the roughly 2,000 troops that are 
there now.
    The Southern Command is also responsible for detainee 
operations in Guantanamo Bay, Cuba, and that is an issue of 
great concern to this committee and to the American people. If 
confirmed, it is my hope that we can work closely with you, 
General, to address the challenges of implementing detainee 
policies within the context of U.S. and international law and 
to address U.S. national security interests in Latin America 
and the Caribbean.
    Again, thank you both for your service to this country and 
thanks to your families for their contribution to your service.
    Chairman Warner. We are ready to proceed. Do any other 
colleagues desire to address our witnesses this morning?
    Senator Allard.
    Senator Allard. Just briefly, Mr. Chairman. I know you want 
to get on to hear from them, as I do. I think we have an 
outstanding and talented group of professional soldiers and 
civilians before us. Admiral Keating, I guess, realizes that it 
has been a few million years since we have had a coastline in 
Colorado where Northern Command is. [Laughter.]
    But on a more serious note, we do need his expertise. I do 
not think we talk enough about how vital Northern Command is to 
actual homeland defense. That is very key.
    Chairman Warner. Integral.
    Senator Allard. One of our challenges, obviously, is the 
ports. So I am absolutely delighted to see somebody with his 
kind of background and qualifications moving to Colorado to 
join us out there.
    Admiral Keating. Thank you, sir.
    Senator Allard. Also, I look forward to working with Peter 
Flory, who is the President's nominee for Assistant Secretary 
of Defense for International Security Policy. The issues that 
he will be dealing with are issues that I have in my 
subcommittee: missile defense, nuclear programs, as well as the 
security treaties.
    So I look forward to working with them and look forward to 
their testimony. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Dole.
    Senator Dole. Admiral Keating, I would like to congratulate 
you on your nomination as NORTHCOM and NORAD Commander, and I 
certainly look forward to working with you on the homeland 
defense and civil support missions that have become 
increasingly important as we continue to execute the war on 
terror.
    You played a very commendable role in orchestrating the 
successful liberation of Iraq as the naval component commander, 
and while your expertise will be central in maintaining a 
strong defense against airborne threats, I am encouraged to see 
your strong interest in improving maritime security awareness 
as a part of our National defense strategy.
    General Craddock, I also look forward to working closely 
with you in your very important role of supporting our national 
security. SOUTHCOM operations in Haiti, Colombia, and Cuba in 
the drug war, hurricane assistance, and peacekeeping are often 
relegated to the back pages of our newspapers but are extremely 
important in maintaining a strong front in the war on terror. 
While many successes may not be covered with much fanfare, I 
particularly want to commend the men and women in SOUTHCOM who 
are meeting the challenges of their difficult mission with such 
dedication.
    I look forward to hearing your testimony and strongly 
supporting your nominations.
    Admiral Keating. Thank you.
    General Craddock. Thank you.
    Chairman Warner. Thank you very much.
    Anyone else, colleagues? Thank you very much.
    Admiral, will you kindly give your opening statement to the 
committee this morning?

STATEMENT OF VADM TIMOTHY J. KEATING, USN, FOR THE APPOINTMENT 
  TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES 
 NORTHERN COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    Admiral Keating. Mr. Chairman, it is a real thrill and an 
honor to appear before you and your colleagues in this historic 
chamber. Wanda Lee and I are very excited at the prospect of 
continuing to serve our great Nation.
    It is a personal privilege for me to sit next to John 
Craddock, a fellow with whom I have had the pleasure of working 
for the past year. I have come to appreciate and recognize his 
talents and his dedication.
    I look forward to your questions, sir.
    Chairman Warner. Thank you very much.
    General Craddock.

STATEMENT OF LTG BANTZ J. CRADDOCK, USA, FOR THE APPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES 
                        SOUTHERN COMMAND

    General Craddock. Sir, I just have very brief remarks. To 
you sir, Mr. Chairman, and distinguished members of the 
committee, again thank you for the opportunity to appear here 
today and to appear here with Vice Admiral Keating.
    The members of the committee may not be aware of the fact 
that, as Tim said, over the past year or so he has been the 
Director of the Joint Staff and I have been the Senior Military 
Assistant to the Secretary of Defense, and in those 
assignments, we meet every day and we discuss and work the 
activities and the issues of the Department of Defense (DOD). 
So it is good to be here today with my wingman, Tim Keating. He 
is a great officer, a great leader, and I hear a fair-to-
middling naval aviator.
    I would like to thank the committee for this opportunity to 
appear before you. I know you have a full schedule, a very 
hectic schedule this week and a lot of work, and we certainly 
appreciate your time.
    I am honored to have been nominated by the President for 
the position of the Commander of the United States Southern 
Command. If confirmed, I look forward to working with the 
members of this committee, as well as with all Members of 
Congress, in carrying out this important task.
    Mr. Chairman, I am prepared to answer your questions.
    Chairman Warner. Thank you.
    This is a changed world in which we live, and those of us 
who are privileged to work here in the environs of Capitol Hill 
from time to time, in a very quiet and orderly way, accept 
situations, and I have just been informed that the Dirksen and 
Hart buildings are being evacuated. Thus far, this building is 
not under an evacuation order, but I wish to inform anyone who, 
for whatever reason, might desire to depart now. I do not know 
the causes for the evacuation of the other buildings. I will 
keep the persons in this room promptly informed as information 
comes to me.
    In the meantime, I intend to continue this hearing. I will 
start a brief question period of 6 minutes each for our 
members, and then we may go into a second round.
    First, to you, Admiral, I am going to read from the 
questions that our committee propounded and your response: 
``Several proposals have been made to expand NORAD's focus from 
air to air, land, and sea. The Chief of Naval Operations has 
suggested creating a `maritime NORAD,' and a recent Defense 
Science Board study recommended that the Department improve and 
integrate its maritime intelligence, surveillance, and 
reconnaissance assets with those of the Departments of Homeland 
Security, Transportation, the Central Intelligence Agency 
(CIA), and the Federal Bureau of Investigation (FBI). What do 
you think would be the advantages and disadvantages of such an 
approach?''
    You gave a fairly detailed answer: ``I believe that 
improving our awareness of the maritime domain is critical to 
the security of the United States. There are vulnerabilities in 
our maritime approaches. Numerous initiatives, including the 
96-hour notice of arrival requirement to offload at a U.S. or 
Canadian port and the automatic identification system--a 
maritime equivalent to Federal Aviation Administration (FAA) 
transponders--are being implemented to improve our maritime 
awareness.'' I am going to put the rest of it in the record. 
[See prepared questions at the conclusion of the testimony.]
    But I am interested to have a clear understanding of your 
role in the maritime domain together with your partners, so to 
speak, the Coast Guard and the Homeland Security Department. 
Specifically, you have the rather awesome responsibility of 
having aircraft on standby at various locations in our country 
to interdict any aircraft for reasons which are clearly 
identified in all of the documents that have been thought 
through very carefully.
    By coincidence, the last evacuation of this building 
occurred here just weeks ago when an unidentified aircraft 
approached National Airport, and I think authorities responded 
quite appropriately and ordered the evacuation of the Capitol 
and these buildings. It was later found to be a 
miscommunication and a faulty transponder.
    But that is a heavy responsibility, and I am interested in 
the maritime side of it. Should we have, for example, in our 
ports, on a standby basis, surface craft or perhaps helicopters 
under the maritime command to respond instantly to a suspicious 
situation and if necessary to apply force to interdict that 
situation before it comes into the port system?
    Admiral Keating. Mr. Chairman, I would say the shortest 
answer I could give you is I do not think we need that 
capability in a general port as we understand the term today. 
From my current position as the Director of the Joint Staff and 
some discussions I have had with some staffers from Northern 
Command, I am aware that there is increased interest and 
emphasis on intelligence fusion and intelligence sharing. In my 
view that is a linchpin for attacking this problem of maritime 
domain awareness and protection of the coastal United States, 
including our ports.
    As we get better at fusing this intelligence, we will be 
able to pinpoint with greater accuracy, both in terms of 
location and time, where we may need to position forces when 
authorized by the Secretary of Defense or the President to 
respond to a situation you described. I am unaware of a 
situation like that at this time, sir.
    Chairman Warner. Well, supposing some craft, not unlike a 
pleasure craft, were to stash aboard it a lot of explosives, 
not unlike what we saw happen to the U.S.S. Cole, and suddenly 
decide to head into the Norfolk port and hit the first target 
they could find. What would we do? Is that part of your 
jurisdiction or is that the Coast Guard?
    Admiral Keating. Both, I would say, Senator. It is my 
understanding--and I have some knowledge here from previous 
lives in the Navy--that there are layered force protection 
measures in effect. So it is unlikely, not impossible, but very 
unlikely, that a boat as you describe could come up alongside a 
naval vessel or Coast Guard vessel in Norfolk harbor or any 
other military harbor and get that close without some sort of 
challenge and, with sufficient time, response from watch teams 
on the ships and on boats that are patrolling the waters.
    The Northern Command, I understand, works very closely with 
the Coast Guard. There is a joint interagency coordination 
group that examines situations just as you describe. This group 
fuses the intelligence, and focuses their assets both on a 
State and a local level in coordination with the Department of 
Homeland Security to respond to situations.
    Chairman Warner. Well, suppose that vessel did not approach 
a military vessel but approached a civilian vessel. Is there a 
sufficient watch on that vessel? Suppose it is just in a 
routine offloading or onloading of cargo.
    Admiral Keating. Probably not, sir.
    Chairman Warner. Is that a gap that should be addressed?
    Admiral Keating. I am certain it is being considered, 
Senator, and the short answer to your question is yes, it 
should be at least considered. Now, the fix is a challenge. I 
do not believe it is possible to protect every ship in every 
harbor. But I have some experience here. As you mentioned, I 
spent some time in Bahrain and while there was tasked with 
maritime interdiction operations. The forces in my command were 
required to intercept and investigate every ship going into and 
out of the north Arabian Gulf waters. It is a challenge. It is 
doable. It is asset-intensive, both in terms of ships and young 
men and women who are trained for the mission. So we have a 
significant amount of capability and experience here. It is 
dedicating the right resources to that situation if our 
intelligence tells us it is appropriate to do that.
    Chairman Warner. The inspection of containers, does that 
come within your sphere of responsibility?
    Admiral Keating. No, sir.
    Chairman Warner. That is Coast Guard?
    Admiral Keating. Correct, sir.
    Chairman Warner. Well, when you have these overlapping 
jurisdictions of three entities of our Government, namely your 
command now, Coast Guard, and the Department of Homeland 
Security, and indeed the indigenous port security provided by 
the local community in the port, I just hope that you have the 
opportunity to really determine if there are gaps in this 
coordinated activity that have to be filled. It is a perplexing 
and daunting task. Something like several thousand containers a 
day enter the United States, and people are being requested to 
be held responsible for the contents of all them. It is just a 
very challenging task.
    Admiral Keating. Yes, sir, it is.
    Chairman Warner. General Craddock, there is current 
interest in how the U.S. conducts detainee and interrogation 
operations in the global war on terrorism. What will be your 
role and responsibilities in the conduct of detainee operations 
and interrogations at Guantanamo (GITMO)? What responsibility 
will you have for training or promulgating techniques and 
procedures for other theaters of operation in your area of 
responsibility (AOR)?
    General Craddock. Mr. Chairman, assuming confirmation as 
Commander of SOUTHCOM, I would be responsible and be the 
Commander of the Joint Task Force (JTF) at Guantanamo, which is 
the JTF that provides security for and interrogation operations 
of the detainees at GITMO. So from that perspective, the 
operations there come under the SOUTHCOM Commander's purview.
    With regard to that, there is obviously a security aspect 
to that. We will support the efforts and initiatives that 
Secretary England has recently been tasked to undertake, which 
is a review of combatant detainees, the status of those 
detainees as combatants. He is executing that mission right 
now. So from that perspective, SOUTHCOM will support that 
current review or any future review as so directed by the 
Department.
    With regards to training services, trained interrogators, 
there is a combination of linguists that are needed, 
interrogators obviously, and analysts. Those people work for 
the command that puts together interrogation plans. Their 
responsibilities are to monitor interrogation plans, to monitor 
interrogation techniques, to ensure that those techniques used 
are in accordance with the policy guidelines provided by the 
Department, and to inform the Department, the Secretary of 
Defense of some of those techniques for which he has retained 
an information knowledge of prior to use. So we have that 
responsibility at the facility in Guantanamo.
    Also, SOUTHCOM has responsibility for detainee advice with 
regard to other locations around the world, and we will send 
out, as requested from other combatant commanders, training 
teams which will move to those areas and provide training to 
and in interrogation and detainment operations at other sites.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, Admiral Keating, on June 9, just before President 
Reagan's state funeral, the FAA failed to share the identity of 
the Governor of Kentucky's plane with other authorities. This 
resulted in the evacuation of congressional buildings. 
Apparently, in early June, according to the 9/11 Commission 
members, there was an unidentified aircraft over New York City. 
There was great confusion over who had the authority to 
respond.
    The FAA states that it has taken action to address the 
causes of these problems, but it appears that more needs to be 
done to boost our air defenses.
    Could you tell us, in your judgment and to the extent you 
are able to determine, whether air defense measures still need 
to be taken by NORAD or by NORTHCOM in order to address these 
vulnerabilities that seem to be persistent?
    Admiral Keating. Senator, I will do my best. It is my 
understanding that there is an investigation ongoing, and I do 
not know the results of that investigation within the 
Department. The information that has come across my desk as the 
Director indicates that it was a relatively simple breakdown in 
communication. The fix is in. I do not know the fix, Senator, 
and I do not know that we have had time yet to do an exercise 
to ensure that the aforementioned fix is in fact appropriate.
    But I can promise you that if confirmed, we will continue 
to do exercises, both scheduled and random, throughout the 
continental United States in all those areas that apply to 
NORTHCOM and to NORAD to ensure, to the best of our ability, 
that situations as you describe do not occur again.
    Senator Levin. Could you give us your opinion as to the 
role of the National Guard in homeland defense? Do you have any 
ideas as to how we can use them appropriately and what the 
balance should be between Active and Reserve Forces?
    Admiral Keating. The role of National Guard in homeland 
defense is huge. They are the first responders under the DOD, 
of course, in their capacity working for the Governors of the 
States where they are stationed. However, as you are aware, we 
have about 130,000-140,000 guardsmen who are activated and 
deployed right now. That is a drain on the total pool of 
450,000 or so guardsmen. There are arrangements, I am told, in 
place between Governors throughout the States, as coordinated 
by Lieutenant General Steve Blum, the Chief of the National 
Guard Bureau, to respond if necessary to situations where a 
State may be a little bit low on their guardsmen. But NORTHCOM 
works very carefully with Lieutenant General Blum on all those 
issues attendant to the Guard and their ability to respond.
    Senator Levin. The chairman raised the question relative to 
maritime homeland defense. There was a study of the Defense 
Science Board in the summer of 2003 titled ``DOD Roles and 
Missions in Homeland Security.'' It recommended that NORTHCOM 
``develop a road map for maritime surveillance.'' Can you tell 
us what the status of that study is? Do you know?
    Admiral Keating. Senator, I do not know. I will have to 
find out for you. I am unaware of the status.
    Senator Levin. Okay. If you could check into that right 
after your confirmation.
    Admiral Keating. I would be happy to.
    [The information referred to follows:]

    In May 2004, the Assistant Secretary of Defense for Homeland 
Defense and the Deputy Secretary of the Department of Homeland Security 
sponsored a national Maritime Domain Awareness (MDA) Summit. As a 
result of the Summit, I understand the U.S. Navy and U.S. Coast Guard 
will serve as their Departments' Executive Agent in developing a way 
ahead for MDA. NORTHCOM is represented on the MDA Senior Steering Group 
and Working Group.

    Senator Levin. On the question of intelligence sharing, the 
Terrorist Threat Integration Center (TTIC) was created to 
assure intelligence sharing among all agencies about threats to 
our homeland. There are still inadequate resources for the 
TTIC. Are you familiar with the role of TTIC now in the way in 
which Northern Command receives intelligence?
    Admiral Keating. I am, sir.
    Senator Levin. Can you describe that?
    Admiral Keating. I will do my best. Northern Command has as 
part of their command structure, the physical layout, a 
Combined Intelligence and Fusion Center (CIFC) in their 
headquarters in Colorado Springs. It is a full-time, 24/7, 
manned watch center, and they have hotlines, if you will, to a 
number of agencies throughout the interagency, one of those 
groups being TTIC. So there is 24/7, real-time communication 
between Northern Command and TTIC, as well as other agencies, 
CIA, FBI, and some State and local agencies as well. What they 
do is fuse intelligence. Northern Command does not collect 
intelligence. It is available real-time or near real-time from 
those agencies who do gather it, and it is all fused into a 
common operational picture.
    Now, there are parts of it that are not germane to Northern 
Command, and I have not been to TTIC, so I do not know what 
they have, nor have I been to Northern Command. But I am 
assured that there is sufficient, robust intelligence sharing 
and fusion between TTIC and the Northern Command fusion center.
    Senator Levin. Thank you, Admiral.
    General, as the Senior Military assistant to Secretary 
Rumsfeld, can you describe what role you had, if any, regarding 
the detainee interrogation procedures for Guantanamo and 
elsewhere? You were asked about kind of the future rule, but I 
am interested as to what role you have had, if any, and whether 
you have had access to documents, for instance, pertaining to 
detainees. If so, what is your judgment and assessment of that 
situation.
    General Craddock. Yes, Senator. The short answer to that is 
I had no role in policy formulation for the detainees. I had no 
role in policy formulation for the detainee operations or 
interrogations.
    Now, let me expand on that a bit. My duties as the Senior 
Military Assistant for the Secretary of Defense were varied and 
ranged based upon the subjects at hand. The key word is 
``assistant,'' not advisor. The Senior Military Assistant has 
several functions and duties. Throughout the period for which 
the issue you are talking about, detainees, I was involved to 
the extent of ensuring that meetings were conducted on time 
with the right people. But in terms of policy formulation 
input, I did not provide any.
    The way I ran the job as the assistant was if my training, 
background, or education gave me the wherewithal to provide 
input and comment on policies at hand, then I would either be 
asked or I would volunteer such information and my judgment. 
With regard to detainees and detainee operations and 
interrogations, I have no experience nor training. So from the 
perspective of what were my duties, my duties were to ensure 
that the Secretary had the right people at the right time for 
those discussions. I participated in some and in others I did 
not, in terms of being present during those discussions on 
detainee and detainee operations, but in no way formulated or 
assisted in policy formulations.
    Senator Levin. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    This fall, in fact, right now, they are in the process of 
putting missiles in the ground for our national missile defense 
system so that we can proceed with our test bed testing. Also, 
there is going to be some limited defensive capability. In 
fact, I think the President is likely to declare the missile 
defense system operational this fall.
    Admiral Keating, if confirmed, will you support the missile 
defense system's plan for concurrent tests and operations?
    Admiral Keating. I will, sir.
    Senator Allard. Now, are you comfortable with the concept 
of operations that have been developed for the ground-based 
mid-course missile defense system? Because, if confirmed, you 
are going to be responsible for operating our ground-based mid-
course missile defense system when it becomes operational. 
There are a number of scenarios that would invariably require 
cooperation with other geographic commands.
    Admiral Keating. To the extent that I have been briefed in 
my current job, Senator, I am comfortable. The way I think 
about it is I am kind of at the grade school level right now, 
and if confirmed, I will have to ratchet that up in a hurry. 
The staff out there, I promise you, is prepared to do that.
    Regarding the relationship between the various combatant 
commands. I have had the great fortune of serving in a number 
of these commands, and I know the guys who are in those 
commands now. I am confident that we are going to be able to 
develop and sustain the level of cooperation necessary to 
ensure successful implementation and execution of a fairly 
complex system.
    Senator Allard. Now, my understanding is that Northern 
Command has reached out to utilize the expertise of a 
university consortium to support its missions in homeland 
defense and technical training for civilians. How does academia 
provide military utility to your overall mission goals? More 
importantly, do you plan on continuing this effort?
    Admiral Keating. In reverse order, if I could. It is a 
healthy program now. It will stay as healthy or get healthier, 
if I am confirmed.
    I am convinced, as are many others, that there are many 
answers to these very challenging situations. As the chairman 
discussed, for example, looking at the tens of thousands of 
containers that come into our ports on a weekly basis. There 
are potential answers outside the DOD. It might be a high 
school science fair. It might be the University of Boulder, 
Colorado, consortium that you described. If confirmed, I 
guarantee Northern Command is going to pursue as many of those 
options as we can so as to seek the solution and not be so 
reliant on a single source.
    Senator Allard. This is a question for both Admiral Keating 
and General Craddock. We get rumors out of the Pentagon all the 
time. One of the things that we hear is that Secretary Rumsfeld 
reviews annually the Unified Command Plan (UCP). There are 
rumors that maybe Northern and Southern Commands should be 
combined. What is your opinion on whether this effort should be 
undertaken? Can Northern Command perform a unified mission if 
these commands are consolidated? Since we have both of you 
here, I would like to hear both of your perspectives on that.
    Admiral Keating. I am aware of the study that is being 
conducted, Senator. It is my understanding that it is not 
likely that the Secretary will approve a merger in the short 
term, but has asked that the Department continue to look at it. 
Right now, the missions of the two commands are significantly 
different. Over time it may be that we could find a way to 
combine the two commands, but my personal opinion is that is 
not likely to occur soon.
    General Craddock. Senator, I pretty much endorse what Tim 
just said. I think studies are always helpful, so the studies 
will be ongoing. The UCP is reviewed on a routine basis, and 
some of these that are not agreed to this year will be reviewed 
again next year.
    Having said that, I also agree that it is probably a notion 
before its time. It may be in the future, as conditions change 
and situations change, something that would have more merit 
than today.
    I know that the Institute for Defense Analysis recently in 
May completed a study of combining the two commands. They 
recommended the status quo, and it is my understanding the 
Secretary of Defense agrees with that recommendation.
    Senator Allard. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I want to 
apologize for shaking you up yesterday as I walked past your 
chair.
    Chairman Warner. That is all right. You got my attention.
    Senator Ben Nelson. You were very gracious, and I gave a 
great deal of distance when I walked behind your chair this 
time. So I appreciate that.
    It is a pleasure to see both of you with us here today. 
Admiral Keating, I think the President made a very wise choice 
in selecting you to succeed General Eberhart. Of course, 
General Craddock, I enjoyed our discussion at the office the 
other day, and I look forward to continuing our discussions 
about Colombia and Venezuela.
    Admiral Keating, with respect to missile defense testing 
and coordination, with the rudimentary missile defense system 
being deployed this year, obviously you are going to be the 
person responsible for the actual operation of the system. How 
do you see the roles of NORTHCOM and Strategic Command 
(STRATCOM) in missile defense? How do you see the relationship 
between those two commands and coordination of them?
    Admiral Keating. Yes, sir. The roles are clearly defined, 
and I think clearly understood. Again, from my position as the 
Director, I have been able to watch some of this. In fairly 
simple fighter pilot terms, Northern Command will be the 
supported command, will have the hardware, the doctrine, the 
policy, and the rules of engagement. Those will be worked by 
Strategic Command. So the heavy lifting is done by Strategic 
Command. Northern Command will be apprised and will monitor 
throughout. When the system reaches initial defensive 
capability, the rules will have been well briefed up through 
the President of the United States and Northern Command will 
assume the responsibility of the shooter. But throughout all of 
this, Northern Command and Strategic Command, in concert with 
the Department of Defense, have done a lot of work so that they 
are all equally aware of the developments.
    Senator Ben Nelson. In the clear delineation and definition 
of the lines of demarcation between the two, you think it is 
sufficiently understood the two roles being separate but also 
being combined for certain purposes and that that is an 
appropriate and clearly understood delineation.
    Admiral Keating. I believe it is appropriate, Senator, and 
I am very confident it is clearly understood.
    Senator Ben Nelson. I appreciate that.
    In connection with the policies regarding firing on 
commercial airlines, when you have a simple breakdown--
fortunately in the last case, we did not end up with a complex 
situation. Are you reasonably certain that this sort of 
situation can be corrected in the future? Because clearly, 
shooting down an airliner or shooting down a private plane in a 
breakdown situation would be a terrible tragedy, not fully 
understood by the American public, certainly not giving more 
confidence to hometown security. Are you sure that we really 
are getting closer to solving that breakdown for the future?
    Admiral Keating. I am confident that we are, Senator. Now, 
it is important to note that it is possible to conceive a 
situation where even the most seamless, ready, and cocked 
defense position will be unable to mitigate the threat, a 
complicit crew, for example. We see planes flying by the 
Pentagon many times a day in and out of Washington Reagan 
National Airport, and there are many other circumstances. So 
against a complicit crew, the best defense in the world is not 
going to be able to stop that necessarily.
    But it is this system of systems that the Department of 
Homeland Security and Department of Defense have implemented 
that lead me to believe that we are making good and continuous 
progress. We test it and exercise it frequently to be able to 
assure you that we are getting better, a lot better.
    Senator Ben Nelson. General Craddock, in April this year, 
General Hill testified that the narcoterrorists in Colombia 
remain the largest and most well-known threat in SOUTHCOM and 
their illicit activities still continue but not without a 
price. As we deal with this, can you describe the types of 
missions that the U.S. soldiers are now conducting in Colombia 
under Plan Colombia? Several of us from this committee went to 
Colombia in 2001. What is going on there now with these 
missions?
    General Craddock. Yes, Senator. The military component of 
Plan Colombia that the Colombian Government has is Plan 
Patriota. That is the military attempt to take on the 
Revolutionary Armed Forces of Colombia (FARC), as you say, the 
narcoterrorists, the National Liberation Army (ELN), the United 
Self-Defense Forces of Colombia (AUC), and other terrorist 
organizations dependent on narcotrafficking to generate funds 
to either, one, control the countryside and the people, or two, 
try to assume control of the government.
    The progress has been impressive. At this point, the 
Colombian Government has made considerable progress in being 
able to eliminate a lot of the control that the FARC has 
exercised in the past. Even though they are addressing all 
three elements of those insurgencies, if you will, that have 
transitioned really beyond that to narcotrafficking and 
narcoterrorism, the FARC has been the focal point of that 
effort. They have taken back the countryside from the FARC. 
They have placed government personnel in all the villages now 
recently, which is a big plus, and they have instilled 
confidence in the Colombians that the government indeed has 
control of the country at this time.
    Now, the U.S. role here is to provide training assistance 
and planning assistance for the Colombian military to be able 
to conduct those operations. That is the focal point of the 
military effort. So the military trainers and advisors, mostly 
Special Operations Forces, in Colombia work very closely with 
vetted Colombian units, the battalions, the brigades, the 
squadrons, the counterdrug units that the Colombian Army has 
developed to ensure that they have planned adequately and they 
are trained and prepared to conduct those operations in order 
to prevail against the narcoterrorists. It has been very 
successful.
    The plan, Plan Patriota, is in a bit of a surge phase, so 
operations are continuing, and the outlook right now is good. 
The confidence in the government is as high as it has been. I 
think President Uribe has about an 82 percent confidence 
rating, which is unheard of up to this time. But everything is 
going very well at this point.
    Senator Ben Nelson. My time is expired.
    We are seeing, though, where there are some good guys in 
the process and among the others, it is bad, worse, and the 
worst. Is that a fair characterization of it?
    General Craddock. Yes, Senator, I think that is fair. We 
are finding that a lot of the narcoterrorists have----
    Senator Ben Nelson.--lost sight of their ideology now, and 
it seems to be more driven by financial gain.
    General Craddock. Absolutely. The ideology in the beginning 
has pretty much merged into one of trading drugs for money. The 
fact that there is some demobilization of those forces would 
indicate, one, that they are being demoralized; two, they are 
turning themselves over to Colombian Army units, which in the 
past would never happen because of their fear of being killed. 
So the human rights aspects are improving. So across the board, 
I will not say that it is perfect. I will not say that it is a 
done deed, but it is indeed progress.
    Senator Ben Nelson. Well, thank you, gentlemen, and thank 
you to your families for your service.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. I apologize for 
being late. It appears that the level of water in the pipes of 
a water closet over in the garage of Hart has caused an 
increase in blood pressure for quite a few staffers and 
members.
    I do want to thank Admiral Keating for a good conversation 
this morning. I will just repeat my concern, and I think your 
answer is yes.
    I expressed to you previously I have serious concerns about 
the resources that DOD has allocated to NORTHCOM to complete 
its mission, and I think there may be an unwillingness to 
accept the homeland defense mission within DOD. You indicated 
in your conversation to me that that is certainly not your 
view.
    A Defense Science Board study concluded that DOD needed to 
develop several homeland defense capabilities including medical 
surge capacity, the ability to deal with chemical, biological, 
radiological, and nuclear (CBRN) incidents, and improve 
intercommunication capabilities between civilian law 
enforcement and military officials at the local, State, and the 
Federal level.
    The Nation and the DOD's ability to respond to attacks on 
the homeland directly affect our ability to maintain our 
strategic military flexibility and our domestic control. What 
steps do you plan to take to address these shortfalls?
    You indicated to me that you are going to be conducting 
serious exercises, taking a hard look at that responsibility, 
even though normally you might not think that would fall within 
DOD. But after the civil support team (CST) arrives in the 
area, they are going to need your support. You are going to 
have to have the airlift to get the job done.
    Have I pretty well described our conversation as of this 
morning?
    Admiral Keating. Yes, sir. I wrote down the answer. 
[Laughter.]
    Senator Roberts. Thank you very much, Admiral.
    General Craddock, I am an old Wilhelm admirer. I think it 
was General Wilhelm who told me several sessions back that 
other than drugs and immigration and about 23 to 25 percent of 
our energy supply and crime and trade and terrorism, we really 
do not have any primary interest in our neighbors to the south. 
360 million people, 31 nations, average age of 14, with a lot 
of force structure that was taken away from you in the Balkans 
and now has never been replaced. So I hope that we can be 
supportive to you on this committee. I know that Senator Warner 
shares my concern. I wish you well.
    I yield back the balance of my time, Mr. Chairman.
    Chairman Warner. Thank you very much, colleague.
    The two buildings of the Senate office complex remain 
evacuated. Therefore, I am going to ask colleagues to submit 
their additional questions for the record of these two 
panelists, and we will proceed immediately to the second panel.
    Thank you very much, gentlemen, for your offer and that of 
your family to continue in public service in these very 
demanding and challenging posts.
    Admiral Keating. Thank you, sir.
    General Craddock. Thank you, Mr. Chairman.
    Chairman Warner. Congressman Lewis, we welcome you.
    Mr. Lewis. Thank you, sir.
    Chairman Warner. Your sense of timing is, as always, very 
precise.
    Ordinarily the chairman reads at some length and speaks to 
the biographical achievements of the nominees, but given the 
fact that, Chairman Lewis, we have two of our Senate buildings 
that have just been evacuated, I am going to put my remarks 
into the record and proceed to this second panel.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    On our second panel, we will consider two civilian nominations. 
Peter Flory has been nominated to be the Assistant Secretary of Defense 
for International Security Policy, and Valerie Baldwin has been 
nominated to be the Assistant Secretary of the Army for Financial 
Management and Comptroller.
    Peter Flory currently serves as the Principal Deputy Assistant 
Secretary of Defense for International Security Affairs and has been 
nominated to be the Assistant Secretary of Defense for International 
Security Policy. Mr. Flory previously has served with distinction in 
the Department of Defense from 1989 to 1992 as the Special Assistant to 
the Under Secretary of Defense for Policy, Paul Wolfowitz, and in the 
Department of State as an Associate Coordinator for Counterterrorism 
from 1992 to 1993. Mr. Flory also served in the legislative branch as 
the Chief Investigative Counsel and Special Counsel to the Senate 
Select Committee on Intelligence.
    Ms. Baldwin has been nominated to be the Assistant Secretary of the 
Army for Financial Management and Comptroller. Ms. Baldwin is highly 
qualified for this position, having served in a variety of capacities 
in the legislative branch including distinguished service on the House 
Appropriations and Veterans Affairs Committees. She served on the staff 
of our former colleagues, Senator Kassebaum of Kansas and Senator John 
Glenn of Ohio.

    Chairman Warner. But I would like now at this time to say 
how pleased we are as a committee that you have joined us, and 
we look forward to your comments on behalf of this 
extraordinary nominee of the President to be Assistant 
Secretary of the Army for Financial Management and Comptroller.

  STATEMENT OF HON. JERRY LEWIS, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Mr. Lewis. Thank you very much, Mr. Chairman. I first want 
you to know how much we appreciate the courtesy you are 
extending to us, giving us this time and the recognition. With 
those buildings being evacuated and with my bride was trying to 
find a parking place, I was a bit late and Valerie, I am sorry 
about that.
    But in the meantime, Mr. Chairman, I have been noted for 
very few things around the House of Representatives. The one 
thing that I point to with pride is that, along with the help 
of my bride, I am able to find and steal, one way or another, 
very talented people to help me with my work.
    Today, I am here to extend my recognition and my 
appreciation to one, Valerie Baldwin, who is a fabulous young 
woman who served the House with great distinction, and me 
personally as well. As she goes to serve the Army, with your 
blessing, she will make a further great contribution to our 
country.
    Valerie got her law degree at the University of Kansas. 
That is the only shortcoming that I can think of about Valerie. 
[Laughter.]
    Chairman Warner. That will soon be addressed by two other 
distinguished colleagues. [Laughter.]
    Mr. Lewis. I understand that.
    Senator, I will not talk about tying our shoes. Is that all 
right?
    Senator Roberts. You have the floor, Mr. Chairman. 
[Laughter.]
    Mr. Lewis. Thank you, Senator.
    Valerie came to the House, being attracted by the glitter 
of public service. First she came to the Banking Committee 
where she was our counsel. We identified that talent and stole 
her to serve with me on the Veterans' Affairs and Housing and 
Urban Development (VA-HUD) Subcommittee. The Housing Committee 
is where she did most of the work for the years I served there 
as chairman on the housing side of our effort. She did a 
fabulous job at helping us try to figure how to better deliver 
money to local communities and made sure that money got to the 
people we intended and we wanted to serve in the first place. 
That is not always easy, but Valerie was a very important 
person in that development of our work.
    From there, she became the clerk of the Military 
Construction Subcommittee and did a fabulous job for us there.
    Valerie Baldwin, as she goes to the Army, will continue her 
national service, and I am just proud to come today to present 
her to the Members of the Senate for your consideration, and I 
appreciate what I hope will be positive results of this panel's 
hearing. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Mr. Chairman. I just 
had the privilege of meeting extensively yesterday with this 
distinguished nominee, and I certainly have reason to share 
your sentiments. Here in the committee staff, after my meeting 
yesterday filtered up the staff evaluation, and one word 
emerged: ``tenacious.'' [Laughter.]
    Chairman Warner. Senator Roberts.
    Senator Roberts. That is a Kansas trademark, Mr. Chairman. 
[Laughter.]
    It is my pleasure to voice my very strong support for 
Valerie Baldwin. Valerie is a distinguished graduate of both 
Wichita State University, where she graduated magna cum laude, 
and the University of Kansas School of Law. As we all know, the 
University of Kansas is the home of the ever-optimistic and 
fighting Jayhawks. [Laughter.]
    Second only to the optimistic and fighting Wild Cats of 
Kansas State, but that is another matter. [Laughter.]
    She has a distinguished record of service and 
accomplishments. She has made a career of serving Congress, 
including an early stint with one of our very greatest 
Senators, Senator Nancy Kassebaum. Her most recent positions on 
the staff of the House Appropriations Committee have 
demonstrated her qualifications for the position for which she 
is currently being considered, and I want to associate myself 
with my distinguished colleague and fellow swimmer and friend, 
Chairman Lewis. I trust my colleagues on this committee will 
find her as deserving of this post as I do, and it is my 
privilege to say these remarks on her behalf.
    Chairman Warner. Thank you very much, Senator Roberts.
    Folks, I apologize for this, but I want to do it because I 
have an obligation. We have so many children and families here 
with us. We now are advised the Hart and Dirksen buildings have 
been cleared for reentry. The problem was much as you described 
it, Senator. We exercise a very strong fiduciary obligation in 
this committee and throughout the Senate for those who come to 
visit us, and in that capacity, I tried to keep you informed.
    Would you kindly introduce your colleague here?
    Senator Roberts. I would be delighted to. The distinguished 
gentlemen from Ohio who is a great friend and colleague and an 
outstanding Member of Congress, David Hobson.

 STATEMENT OF HON. DAVID HOBSON, U.S. REPRESENTATIVE FROM THE 
                         STATE OF OHIO

    Mr. Hobson. Thank you, Senator Roberts. Senator Warner, 
thank you for your courtesy this morning.
    I had the distinction and honor of being Chairman of the 
Military Construction Committee for 4 years. Valerie Baldwin 
was my clerk for the last 2 years of that. Valerie is tenacious 
and is dedicated to this country. She is dedicated to the 
troops and their well-being. She proved that many times over by 
going out and visiting bases all over the world and looking at 
the quality of life of troops there. So I have no hesitancy to 
appear today and to recommend her for this position. I know she 
has the educational background and the experience and that 
wonderful Jayhawk spirit that will make her a very outstanding 
public servant should she get the recommendation of this 
committee and the approval of the Senate.
    So I thank you very much for your courtesy, sir.
    Chairman Warner. Well, I think it is very important that 
you and Mr. Lewis took the time to join us here, because this 
position now straddles both bodies of Congress, and you will be 
dealing with the Senate as well as the House. I think it is 
important that the record reflect the sentiments of these 
distinguished members of the other body who have had the 
opportunity to observe your extraordinary professional 
capabilities.
    I would only mention that she put down on her resume 
something that I have seldom seen in my many years here, that 
she was a member of St. Alban's Church. It brought great warmth 
to my heart, as I showed her the picture of my uncle who was 
pastor of that church for 39 years. In that church, I was 
raised as a young man and known as a bad boy because I was an 
acolyte and then relieved of my command at one point as an 
acolyte by my uncle. [Laughter.]
    Since we have a clear situation in terms of security here, 
I would like to return to the regular order of the matter in 
which we were proceeding here.
    Senator Roberts. Mr. Chairman, I do have some remarks for 
Mr. Flory, if that would be appropriate at this time, but I 
will yield to your counsel.
    Chairman Warner. Fine, and I am going to follow you then. 
You go right ahead.
    Senator Roberts. I would also like to voice my support for 
Peter Flory. Peter, prior to joining the Department of Defense 
was a professional staff member on the Senate Intelligence 
Committee. He served with distinction as the committee's Chief 
Investigative Counsel and Special Counsel. I know that the 
committee's former chairman, Senator Shelby, depended a great 
deal on Mr. Flory's expertise and counsel, as we all did. I am 
confident that he will bring those same skills and insights to 
any future position that he might seek.
    I stand ready to assist the chair in any way to consider 
Ms. Baldwin's and Mr. Flory's nominations as expeditiously as 
we can.
    Chairman Warner. Thank you, Senator Roberts.
    I would like to add that Mr. Flory currently serves as the 
Principal Deputy Assistant Secretary of Defense for 
International Security Affairs. He has been nominated for the 
post of the Assistant Secretary. He previously served with 
distinction in the Department of Defense from 1989 to 1992 as 
the Special Assistant to the Under Secretary of Defense for 
Policy, Mr. Wolfowitz, and in the Department of State as an 
Associate Coordinator for Counterterrorism from 1992 to 1993.
    Mr. Flory also served in the legislative branch as the 
Chief Investigative Counsel and Special Counsel to the Senate 
Select Committee on Intelligence.
    So you bring a very broad and distinguished background of 
experience to this post, Mr. Flory. As citizens of this 
country, we are fortunate that you and your family once again 
are willing to accept an even greater challenge and more 
demanding schedule, as it will soon be, in fulfilling these 
posts subject to the confirmation of the United States Senate.
    I would like at this time to ask each of our nominees the 
following. To the nominees, have you adhered to applicable laws 
and regulations governing conflicts of interests?
    Mr. Flory. Yes, Mr. Chairman.
    Ms. Baldwin. Yes, Mr. Chairman.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Flory. No, sir.
    Ms. Baldwin. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in the hearings?
    Mr. Flory. Yes, sir.
    Ms. Baldwin. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Flory. Yes, sir.
    Ms. Baldwin. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony or briefings?
    Mr. Flory. Yes, sir.
    Ms. Baldwin. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Flory. Yes, Senator.
    Ms. Baldwin. Yes.
    Chairman Warner. Do you agree to give your personal views 
when asked before this committee to do so even if those views 
differ with the administration in power?
    Mr. Flory. Mr. Chairman, as a political appointee, I 
consider it my duty to be an advocate for the positions of the 
administration. However, I would always be prepared to discuss 
with you and with the committee my best professional judgment.
    Chairman Warner. Thank you. That is quite satisfactory.
    Ms. Baldwin. Senator, that would be my statement as well.
    Chairman Warner. Thank you very much.
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by this committee or to consult with the committee 
regarding the basis for any good faith delay or denial in 
providing such documents?
    Mr. Flory. Yes.
    Ms. Baldwin. Yes, sir.
    Senator McCain. Could I elaborate on that, Mr. Chairman?
    Chairman Warner. Yes.
    Senator McCain. Do you fully understand what the chairman 
is asking you?
    Mr. Flory. Yes, sir.
    Senator McCain. Do you fully understand that includes e-
mails and other communications?
    Mr. Flory. I understand.
    Ms. Baldwin. Yes, sir.
    Senator McCain. You fully understand that?
    Mr. Flory. I fully understand, sir.
    Senator McCain. The reason why I ask that, Mr. Chairman, it 
is now over a year since I asked for the communications 
concerning the Boeing issue, and after being assured they would 
be coming in very quickly, we have still gotten not nearly what 
we had expected from them. Included in it is a whole bunch of 
duplication and unnecessary documentation to show that they are 
providing thousands of pages when, in fact, about two-thirds of 
it is duplicative and at best uninformative.
    So I think it is important that we not have to go through 
this drill again. I would be glad to have the record perfectly 
clear about Mr. Flory's and Ms. Baldwin's views. Okay?
    Ms. Baldwin. Yes, Senator.
    Mr. Flory. Yes, sir.
    Senator McCain. I thank you, Mr. Chairman. I apologize for 
the interruption.
    Chairman Warner. Not at all. I think it is very important 
because, as a matter of fact, the committee as a whole has 
joined with our colleague, who is also chairman of the Commerce 
Committee, which has a similar request in. So we are supportive 
in every way.
    Now, at this juncture, unless others wish to make an 
opening statement with regard to either of the nominees, we 
will proceed to receive their preliminary comments.
    Mr. Flory.

STATEMENT OF PETER CYRIL WYCHE FLORY, TO BE ASSISTANT SECRETARY 
          OF DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Flory. Thank you, Mr. Chairman. I have no opening 
statement. I would like to make a few expressions of 
appreciation, if I may, first to you and to Senator Roberts for 
your kind remarks, and in particular to you and Senator Levin 
for scheduling this hearing. I understand that this is a very 
busy week for the Senate and I appreciate your finding the time 
to hold the hearing.
    I have had the privilege, in two tours as a personal and 
committee staff member in the Senate, of working with this 
committee on a variety of issues, and I have always been 
impressed by and admired the bipartisanship and the 
professional spirit in which the committee carries out its 
work. I look forward, if confirmed as Assistant Secretary of 
Defense for International Security Policy, to continuing to 
work with the committee in that same spirit.
    The record should also note, I think, that even before we 
understood the precise nature of the threat that had caused the 
evacuation of the other buildings, this committee stood by its 
guns.
    You have met my family, and I can only say I could not be 
here without their love and support. They have seen me through 
the last 3 difficult years. I hope, if I am confirmed, that 
they will have the patience and forbearance that they have 
shown for me in the last 3 years.
    I would like to thank the President for his confidence in 
me, and express my appreciation to Secretary Rumsfeld for that 
same confidence.
    Lastly, I would like to recognize someone who is not with 
us today. I spoke briefly with Senator Dole earlier about my 
maternal grandfather, Ira Thomas Wyche, who graduated from the 
United States Military Academy at West Point in 1911. He grew 
up on Ocracoke Island and would have been, if the timing had 
been right, a constituent of Senator Dole. He served as an 
artilleryman in World War I, and he commanded the 79th Infantry 
Division of the U.S. Army in World War II. He lived a long and 
full life before dying at the age of 93. He was an enormous 
presence in my life. He taught me many things, and I know that 
he is watching these proceedings with great interest.
    Chairman Warner. I thank you for that reference. I think 
that is extremely important for each of us, as we go through 
life, to acknowledge those who are no longer present with us 
and their tremendous contribution to our ability to take on 
responsibility.
    Mr. Flory. Thank you, Mr. Chairman. My grandfather had a 
great deal to do with setting me on the path in life that I 
have taken, and I wanted to acknowledge him in these chambers.
    Lastly, I would like to thank you, Mr. Chairman, and 
Senator Levin once again for holding this hearing. I will be 
pleased to answer your questions.
    Chairman Warner. Thank you.
    Ms. Baldwin.

STATEMENT OF VALERIE LYNN BALDWIN, TO BE ASSISTANT SECRETARY OF 
       THE ARMY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Ms. Baldwin. Mr. Chairman, first of all, I, too, would like 
to thank a few people, beginning with Jerry Lewis, for those 
very kind comments, and also Mr. Hobson and Senator Roberts. It 
is always a little overwhelming when you have the people for 
whom you have worked and for whom you have so much respect to 
say so many kind things. I am deeply honored by their comments.
    I wish that Senator Roberts were here so that I could 
assure him that if Kansas State University had a law school, I 
would have joined him as a fighting Wildcat. [Laughter.]
    Senator, I would like to thank the President for nominating 
me to this post and Secretary Rumsfeld for recommending me to 
the position.
    In addition, Les Brownlee, whom many of you here know, was 
instrumental in suggesting that I become a candidate for the 
job, and he has encouraged me as the nomination moved down the 
road.
    Chairman Warner. The Acting Secretary of the Army, Mr. 
Brownlee, served this committee for many years. For 17 years, 
he was either on the committee or on my staff working for me 
here on the committee. He is an extraordinary, competent 
professional and has discharged his responsibilities in an 
exemplary fashion.
    Ms. Baldwin. Yes, sir.
    In addition to Mr. Lewis, there are some other people on 
the Appropriations Committee who have given me many 
opportunities, including the chairman, Mr. Young, Mr. Obey, the 
ranking member, Mr. Mollohan, and the now retired Lou Stokes 
was extremely helpful to me. I learned something from each one 
of them and they made me a better staffer as a consequence. I 
hope I can take some of what I learned from them and use it in 
my work at the Department of Defense.
    I would also like to thank Jim Dyer, who is the House 
Appropriations Committee clerk. He has been a terrific mentor 
to me. He has been a wonderful advocate, great boss, and good 
friend.
    Mr. Chairman and members of the committee, I have been 
fortunate to work on the staffs of both an appropriations 
committee and an authorization committee. As a consequence, I 
have a great deal of appreciation for credible numbers and a 
great deal of respect for the importance of well-considered 
legislative policy. Linking and integrating these two 
congressional functions with serving soldiers is a challenge 
that I welcome if I am confirmed. It is a challenge that I 
would attempt to carry out using the highest standards.
    Before closing, Mr. Chairman, I would like to thank you and 
Senator Levin for having this hearing today, and should I be 
confirmed, I pledge to work with you Chairman Warner, with you, 
Senator Levin, and with the other members of the committee and 
with all of your staffs. I am prepared to answer any questions 
at this time.
    Chairman Warner. Thank you very much.
    Mr. Flory, I will proceed first to a subject we discussed 
briefly yesterday, and that is my concern over the future of 
the North Atlantic Treaty Organization (NATO) and its role on 
the international scene. NATO is the most extraordinary 
military alliance in the history of contemporary mankind, and 
it was very successful in its missions to date.
    When a group of us here in the Senate visited Afghanistan 
recently, we learned of a deepening concern about NATO's 
fulfillment of its committed mission in Afghanistan, concerns 
ranging from what we call the national caveats. For those that 
may not be familiar with that term, it is where a nation 
commits its forces under the command of NATO to perform a NATO 
mission but, in doing so, they add stipulations as to what 
those forces can do and cannot do. That makes it extremely 
difficult for the on-scene commander to coordinate and command 
and commit those forces in accordance with the mission.
    There are severe risks to life and limb in Afghanistan 
because of the continued level of insurgency, and some of those 
forces under the NATO command specifically could take on tasks 
which--I will just put it in the kindest terms I can--to some 
extent limit the risks that they must take and thereby putting 
on the shoulders of other NATO forces perhaps an added risk. 
That to me is just an intolerable situation.
    Furthermore, NATO had committed to do a number of things in 
Afghanistan. The Secretary General, I understand, has said that 
forces will be made available for the elections to provide the 
security. I welcome that, but at the time I was there, there 
was considerable doubt as to whether or not they would do it. 
That seems to have been remedied by the new Secretary General.
    But still the NATO forces were to provide a security 
situation to allow reconstruction to go on in the four 
quadrants in Afghanistan. While I think to some degree they 
performed admirably in one quadrant, the time table for the 
commitment to the other three quadrants seems to be somewhat in 
doubt.
    Then we come to Iraq. A number of NATO nations have very 
courageously stepped up and contributed their troops to the 
overall coalition forces, but at the recent high level meeting 
of the NATO officials in Turkey, there was a release to the 
effect that they would provide some training for Iraqi security 
forces. It was in response to a request from the new Prime 
Minister, and that letter specifically said that that training 
was to take place inside Iraq. Since that time, there has been 
somewhat of a debate within NATO and comments from France and 
other countries about where and how that training would take 
place. So once again, we have some question marks raised about 
the future role of NATO in that theater with regard to the 
limited mission of training the Iraqi security forces.
    First, I would like to have you describe your work with 
NATO in your previous position and now the continued work with 
NATO in the position to which the President has appointed you, 
subject to confirmation, and how your work relates with that of 
other persons in the Department of Defense who also share the 
responsibility of NATO and your views as to the likelihood that 
NATO can carry forward the commitments both in Afghanistan and 
Iraq.
    Mr. Flory. Mr. Chairman, thank you. You have summed up very 
well what I anticipate will be one of the biggest challenges 
facing me, if confirmed into my new position.
    As Principal Deputy Assistant Secretary in International 
Security Affairs (ISA), with responsibility for Afghanistan and 
Iraq, I have been in the position of working with NATO members 
who have contributed to our missions in those countries. We 
have worked closely with the NATO office in the Office of 
International Security Policy (ISP), and we have a good working 
relationship there.
    With respect to providing of forces, we in ISA have been, 
as it was, the support command, and ISP has worked with NATO to 
provide the force of supporting and supported missions in our 
office of NATO. I think that it is important to note that 
considerable progress has been made. When NATO forces took over 
International Security Assistance Force (ISAF) in Afghanistan, 
that was an extraordinary step for an alliance that, as you 
well recall, was conceived, created, and spent virtually all of 
its life within Europe with a mission that was essentially 
confined within Europe. So we have made considerable progress 
in getting NATO to Afghanistan, and now obtaining the 
commitment with respect to Iraq.
    As you say, there is a lot of work still to be done. A lot 
of that is a function of continuing the transformation of NATO, 
including the NATO Response Force as one example. A lot of good 
work was done under Assistant Secretary Crouch with the NATO 
Response Force and NATO command restructuring to increase the 
capability of the alliance, first, to deploy, and second, to 
sustain its forces once they are there.
    As you point out, another issue that has arisen is this 
question of national caveats. This has been a concern in 
Afghanistan. It has been a concern in Kosovo where last March, 
as I understand it, I have not been working the Kosovo issue, 
but as I understand it, a number of issues came up that General 
Jones is working on right now.
    Chairman Warner. May I say that I think he has been one of 
the most outstanding Supreme Allied Command, Europe (SACEUR) 
and NATO Commanders in contemporary history. I have discussed 
with him the very same questions that I am propounding to you.
    Mr. Flory. Mr. Chairman, I agree with your assessment. I 
have watched his work, again from the other side of what we in 
policy call the ISA/ISP divide.
    All of these questions are questions that I expect to spend 
a great deal of time on, and I will look forward to working 
with you and Senator Levin and the committee on these. Again, I 
think a great deal of good work has been done, but for NATO to 
live up to its potential, for NATO to be all it can be, it 
needs to develop both the capabilities and the political will, 
which translates into an absence of restrictions that will 
allow it to carry out the commitments that it makes.
    Chairman Warner. I thank you for that response.
    Now, Ms. Baldwin, the committee has been concerned about 
the pace of modernization of the defense financial management 
systems. The current time line calls for completion by 2007. 
However, the Government Accountability Office (GAO) reports 
that this goal appears too optimistic. If confirmed, what 
priority would you assign to achieving modernized financial 
systems and fully auditable financial statements?
    Ms. Baldwin. Yes, Senator, I understand that this has been 
a concern of the committee. It is my goal, as the financial 
manager of the Army's budget, to make sure that systems make it 
possible for us to adequately track data and to provide 
credible numbers to the Senate and to the House. We need 
systems that enable us to understand what the requirements are 
and to match up those requirements with the resources that we 
have. I think we do need to produce better data.
    My understanding is that the Department of Defense has put 
together a business modernization plan for its financial 
management systems, and I feel it will be very important for me 
to work closely with them. The DOD's goal is to have auditable 
financial statements by 2007. At this point, sir, I do not have 
sufficient information to know whether that goal can be met, 
but we will certainly try very hard to meet it if we can get 
all the data together that would be required.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Again, let me thank General Craddock for hanging in here 
for a few more minutes. We appreciate that.
    Mr. Flory, I have questions on a number of nuclear issues. 
First, do you support the Comprehensive Test Ban Treaty or the 
continuation of the moratorium on nuclear weapons testing?
    Mr. Flory. Senator Levin, I support the administration's 
position in support of continuing the moratorium.
    Senator Levin. Do you believe that there is going to be a 
need in the near future to resume nuclear weapons testing?
    Mr. Flory. Senator, I do not know the answer to that 
question. It is not a question that I have dealt with. I 
understand that it is an issue that is in the mind of the 
committee, and I will certainly delve into that if confirmed in 
my new position.
    Senator Levin. Do you support the Nonproliferation Treaty 
(NPT) and our commitments under it?
    Mr. Flory. Yes, sir.
    Senator Levin. Relative to the questions you were asked on 
the Robust Nuclear Earth Penetrator, you indicated that the 
Department of Defense should be able to provide the President 
with options to place certain facilities at risk and that 
belong to potential adversaries who are now hardening or 
burying facilities that support weapons of mass destruction 
(WMD) operations. Would you include Russia in that list of 
potential adversaries?
    Mr. Flory. Senator, Russia would not be the first country 
that came to my mind.
    Senator Levin. Would it be on the list?
    Mr. Flory. I have not seen a list, and as I mentioned 
earlier, I have not worked this issue for some time. Before 
making any definitive comment, I need to review the facts, and 
I would be happy to discuss it further. I also am concerned 
about the classification issue here.
    As I say, I think that there are other countries that would 
come to mind as being more immediate concerns.
    Senator Levin. Just a quick question on missile defense. Is 
there an opportunity for U.S.-Russian missile defense 
cooperation?
    Mr. Flory. I know there have been discussions both within 
the U.S. Government and with the Russians on that. I do not 
know what the outcome of these discussions has been. My view is 
that there is the potential for such cooperation, but again, 
that is something I would have to study further.
    Senator Levin. The chairman, I believe, asked you about the 
possible role of NATO forces in Iraq. I guess my question is, 
given the reluctance of many NATO members to have a presence on 
the ground in Iraq, do you foresee a role for NATO forces in 
Iraq either, one, to provide security for a United Nations 
(U.N.) mission that is going to need to aid in the preparation 
for elections in Iraq in January, as requested by the foreign 
minister in Iraq in his visit to NATO headquarters; or two, at 
the formal request of the newly elected Iraqi government after 
those elections?
    Mr. Flory. Senator, my understanding of where the issue 
stands right now is that at the recent Istanbul summit, NATO 
agreed to provide training, and the modalities of the training, 
the scope and other aspects of that are currently being worked 
out.
    In terms of what future requests or requirements might be, 
if confirmed, I will certainly be dealing with those as they 
come in. I would not be surprised if requests are made, and 
they will have to be dealt with at the time.
    Senator Levin. Mr. Flory, you are in the office that Mr. 
Feith heads. Is that correct?
    Mr. Flory. Yes, sir.
    Senator Levin. I have been trying for, I do not know how 
many months, to get documents from Mr. Feith for a review that 
I am making here, along with the minority staff, of some of the 
issues relative to the intelligence failures and the 
intelligence characterization prior to the attack on Iraq. It 
is, frankly, a painfully long list of letters to Mr. Feith, 
partial responses, promises not kept, and I am not going to go 
through all of the letters and all of the inadequate, partial 
responses or responses and commitments which have not been kept 
after the commitments were made.
    But I want to alert you to these. I know he has copies, but 
since you are in his office, you might want to inform him that 
as far as I am concerned, we must have these documents 
immediately. The last letter I sent to him was that we expected 
these letters no later than July 15. Promises just simply are 
not going to do anymore. So we would expect those documents by 
the end of business today or by noon tomorrow.
    We have actually had to invoke the good offices of our 
chairman on this one. Even though this is not a formal 
committee inquiry, the chairman has supported the efforts that 
I have made to obtain documents and to make my own analysis and 
to have minority staff involved in this process. We are 
grateful to the chairman for that support, which he has given, 
even though it is not a formal committee investigation. We have 
kept the chairman informed of all of the requests to Mr. Feith. 
I will not go into any more detail, because he is fully aware 
of what those requests are or what those documents are. So I 
would like to have an answer by noon tomorrow on this issue.
    Chairman Warner. If I might comment on that, Mr. Feith 
appeared before this committee and responded in the affirmative 
to the same questions that you responded to this morning about 
the commitment to the committee of the Senate, the Senate as a 
whole, and congressional committees to supply on a timely basis 
documents. That is a matter of record.
    Senator Kennedy, do you wish to question our panel here?
    Senator Kennedy. No. Thank you very much, Mr. Chairman. I 
have no questions.
    Chairman Warner. Mr. Flory, the 2001 Nuclear Posture Review 
laid out a comprehensive vision for the future of the United 
States strategic forces that included conventional and nuclear 
forces, active and passive defenses, and a robust defense 
structure, all undergirded by improved command, control, and 
intelligence. How would you assess the progress that has been 
made to date in implementing the recommendations of the Nuclear 
Posture Review?
    Mr. Flory. Mr. Chairman, I read the Nuclear Posture Review 
when it came out. Since that time, I have not worked on, and 
have not kept abreast of, our nuclear weapons and related 
strategic programs. I am not in a position right now to give 
you a good answer on that. It is a significant undertaking. I 
know that people have put a lot of time and work into it. If 
confirmed, that is another matter that I will be immersing 
myself in, and I will be pleased to report to you on where that 
stands.
    Chairman Warner. Thank you.
    Arms control has been a very prominent feature of the 
United States security policy in past years, but clearly the 
international security landscape has changed dramatically in 
the past decade. What is your view of the proper role of arms 
control in the U.S. national security strategy at this time?
    Mr. Flory. Mr. Chairman, in my current job, I dealt with 
arms control strategy per se. I have dealt with some of the 
issues of nuclear proliferation from the regional perspective. 
There are a number of lines of defense against the 
proliferation of WMD. Senator Levin asked earlier about the 
NPT. That treaty and other treaties are among our first line of 
defense for defending against WMD. We need a multi-layered 
defense. Initiatives such as the President's Proliferation 
Security Initiative are designed to help plug gaps in current 
regimes and in our ability to enforce current regimes. There 
are other military elements, of course, but I consider arms 
control to be one of the first lines of defense in preventing 
states from actually developing these capabilities in the first 
place, and in attempting to prevent them from spreading them to 
other countries.
    Chairman Warner. Ms. Baldwin, the GAO recently completed a 
report that identified extensive problems with the National 
Guard's pay system. Modernizing the military payroll system is 
part of the longer-term business management modernization 
program. However, it is essential that corrections be made 
immediately in this system to minimize the personal hardships 
on deployed guardsmen, reservists, and their families.
    Can you assure this committee that if confirmed you will 
make fixing pay problems one of your top priorities?
    Ms. Baldwin. Yes, sir, I can assure the committee of that.
    Chairman Warner. Are you familiar with the problem?
    Ms. Baldwin. I have read a little bit of the GAO report, 
Senator. It was not something that I dealt with in my previous 
position. So I am not aware of all of the problems. What I 
believe GAO concluded was that the existing system is just 
overloaded and cannot handle all of the inputs. So I think that 
that is the first thing that must be understood.
    The business modernization management plan that DOD is 
working on should enable systems to speak to one another. 
Accurate pay on a timely basis is vital for our troops. It 
certainly adds to their morale.
    Chairman Warner. And their families. Always remember the 
families.
    Ms. Baldwin. Yes, sir, absolutely. I think in the newspaper 
today there was a story about the morale of the families, and I 
think it is very important that they get their pay on time.
    Chairman Warner. I thank you for that commitment. I heard 
you, and the record reflects it would be your first priority. 
Is that correct?
    Ms. Baldwin. Yes, sir.
    Chairman Warner. Thank you.
    Colleagues, at this time I think we will just submit such 
additional questions we may have to the panel.
    Yes, Mr. Flory?
    Mr. Flory. Mr. Chairman, if I might just take a second to 
respond to something Senator Levin raised. I will take back 
with me the request Senator Levin made with respect to the 
materials that have been requested from Mr. Feith. Mr. Feith is 
not only out of town today, but he is about as close to 
unreachable as he can be. He will be back sometime this 
evening. I am not going to be able to communicate directly with 
him until then. I will, of course, communicate what you said to 
him at my earliest opportunity, but I cannot guarantee a 
particular time frame because it is just going to take time for 
me to get hold of him and then for people to respond to the 
request.
    Senator Levin. Mr. Chairman, I will just make the June 30 
letter to Mr. Feith that I referred to a part of the record, if 
I could at this time.
    Chairman Warner. Yes, without objection.
    [The letter referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Thank you, Mr. Chairman. I appreciate your 
accommodating me.
    Chairman Warner. This concludes your part in the nomination 
procedures before this committee. The committee will promptly 
consider the testimony you have given here today. All members 
will have the opportunity to express their support for the 
committee's reporting out. I anticipate that it will hopefully 
be favorable in both instances and your name will be put on the 
executive calendar.
    I once again thank each of you, together with your family 
and friends who have given you the support through the years 
and will hopefully continue to give you the support to fulfill 
these important posts to which our President has appointed you. 
Thank you very much.
    Senator Levin. Mr. Chairman, if I could just say that my 
questions for Ms. Baldwin will have to be for the record, given 
the circumstances that we are in. I congratulate both nominees 
on their nominations.
    As I have indicated, as far as I am concerned, this effort 
with the Feith office has to be addressed at this point. We 
just cannot delay this any longer.
    Thank you, Mr. Chairman. I appreciate your courtesies.
    Chairman Warner. Thank you very much.
    We will now ask General Craddock to reappear before the 
committee for purposes of more questions.
    General Craddock. Yes, Mr. Chairman.
    Chairman Warner. Thank you, General. The chair advised you 
earlier that the balance of the questions would be for the 
record, given the somewhat unusual situation of security here 
in the complex of the buildings, but now that situation has 
abated, fortunately. At the request of the distinguished 
ranking member and our distinguished colleague from 
Massachusetts, we will resume the questioning in connection 
with your confirmation.
    General Craddock. Yes, sir.
    Senator Kennedy. First of all, I want to thank you, Mr. 
Chairman, and Senator Levin for the courtesy, and I want to 
thank General Craddock for his willingness to stand by here and 
permit me to question him briefly on a matter of some 
importance. But I am very grateful to the chair.
    I was necessarily absent earlier this morning. The 
President signed the Bioshield legislation, which is enormously 
important in terms of our whole biodefense legislation. We have 
worked on that with our Majority Leader, Senator Frist, and 
Senator Gregg. It was appropriate that the President sign that 
because, given all of the challenges that we face, it is 
extremely important legislation dealing with government and the 
private sector and an important way to deal with the challenges 
that we are facing in terms of the biodefense issues. So I am 
grateful. We came back as rapidly as we could, but I missed the 
opportunity to question.
    So I just have one area of concern, General, and I thank 
you very much for being here.
    I recently have reviewed memos from the Department showing 
the serious debate and disputes that occurred among the senior 
military lawyers around the wisdom and legality of the 
Department's post-September 11 interrogation policies. These 
memos were referred to in a June 24, 2004, Washington Post 
article. These memos were by General Romig in the Army, General 
Sandkuhler in the Marine Corps, Admiral Lohr in the Navy, and 
General Rives in the Air Force. All of them I find to be 
extremely prescient.
    Long before the abuses of Abu Ghraib occurred, these 
officers vigorously criticized the new interrogation policies 
as unlawful, counterproductive, and potentially dangerous to 
American soldiers. All of them. They argued that the new 
policies contradicted longstanding military practice, would 
cause great confusion on the battlefield, would lower the bar 
for treatment of our own troops, and they disputed the claim 
that the war on terror authorized the President to break the 
laws or to violate the Geneva Convention. They accurately 
predicted that other nations and human rights observers would 
object to our harsher interrogation techniques, thus weakening 
the coalition.
    Some of these new policies that they referred to involved 
the implementation of the harsher interrogation tactics at 
Guantanamo. In April you personally signed off on these 
memoranda, on these tactics, and recommended them to the 
Secretary, or at least forwarded these documents all to the 
Secretary.
    Were you aware at the time of the serious objections by the 
military lawyers to these proposed changes?
    General Craddock. Senator, I am not aware, nor can I 
recollect the memo you are talking about I signed off on.
    Senator Kennedy. There were four memos.
    General Craddock. I have never seen those memos.
    Senator Kennedy. Well, you signed off here. On April 2003, 
your signature is on the face document.
    General Craddock. Sir, I cannot recollect. I would have to 
see the document. If that is available, that would be helpful.
    Senator Kennedy. They are in the next room.
    Chairman Warner. They are classified documents.
    Senator Kennedy. They are classified documents. They are in 
the next room. I shared them with Senator Levin just a few 
moments ago, and there is your signature just as clear as can 
be on the cover page for these.
    You do not have any recollection? Because there are four. 
They come from each of the Services, each of the judge 
advocates of each of the Services, all of them taking a very 
similar position in terms of interrogation techniques. They 
were all then sent on to General Counsel Haynes who is the 
overall coordinator for the DOD, but they came through you and 
your name is on the cover of the documents.
    General Craddock. I do not recollect that, sir. I am trying 
to recall a situation where a Service general counsel or staff 
judge advocate--you mentioned military, so they must be staff 
judge advocates, Judge Advocates General (JAGs)--would send a 
document through me to the general counsel. I just do not ever 
recall that. That document from a Service component would 
normally come into the executive secretary and be brought under 
control and then sent to the functional office to which it 
would be worked unless it came to the Secretary of Defense.
    Senator, I do not recall that. Now, that does not mean that 
100 documents a day do not come through, and I may put my 
initial on it and a date, but I do not ever recall seeing 
those.
    I was aware of a working group that was established of the 
Service general counsels to address those issues. I do not 
recall any memos, having ever seen or read, for sure never read 
any memos, from the Service JAGs.
    Senator Kennedy. Well, I am surprised, because your name is 
on the face cover of that, signed off, as clear as I am here. I 
mean, I do not know if we can recess----
    General Craddock. I need to see the document, Senator.
    Chairman Warner. Could the documents be produced?
    Senator Kennedy. Yes, they could.
    Chairman Warner. We can allow the witness to look at them.
    Senator Kennedy. It will take about 2 minutes, I believe.
    Chairman Warner. He could do the examination back here in a 
secured area since they are classified documents. Why do we not 
stand in recess for a few minutes in fairness to the witness 
and allow him to look at the documents?
    Senator Kennedy. While we are getting the documents, could 
I just ask?
    Chairman Warner. Yes.
    Senator Kennedy. Just so that I have an understanding. The 
idea that these documents exist, you are completely unaware of 
their existence? You are completely unaware that they were sent 
on to the general counsel, or to the task force that the 
General Counsel, Mr. Haynes chaired? As far as you know, it is 
completely news to you?
    General Craddock. Senator, I read what you read in the 
paper. So I have read that. I am aware of that. I do not recall 
seeing those documents.
    Senator Kennedy. What were you aware of in the paper? That 
there were what? That there were these memoranda?
    General Craddock. There were documents of concern; that 
there were procedures that possibly were of concern to the 
Services.
    Senator Kennedy. Am I right? When you read them in the 
paper, you said, well, that did not come across my plate, or 
maybe it did come across my plate and I have to take a look?
    General Craddock. It did not register, nor do I recall any 
concern on my part that I had seen something or signed off on 
something.
    Senator Kennedy. So your testimony is the only thing that 
you know about is what you read in the newspaper?
    General Craddock. You are asking me if I am aware of those 
documents. I am aware of them from that perspective. I do not 
recall reading those documents other than what was reported in 
the newspapers.
    Senator Kennedy. So you have no further information about 
whether they were ever received? Do you have any recollection 
whether you heard the Secretary talk about these documents or 
the General Counsel talk about these documents? You have no 
recollection of these documents or that they existed other than 
what you read in the newspaper? I am just trying to get some 
feel for it.
    General Craddock. My recollection is a concern by Service 
general counsels as opposed to staff judge advocates or JAGs 
expressed by the DOD general counsel. Beyond that, I have no 
recollection of Service----
    Chairman Warner. Again, I think if we just give him the 
opportunity to examine the documents, it might refresh 
recollections. Having had a lifetime of experience dealing with 
Secretaries of Defense both in and out of their offices, the 
amount of paper, the public should know, and the amount of 
memoranda and documents that go through there, is just massive 
every day. So I think in fairness to our witness, let us give 
him a chance.
    General Craddock. I understand this is 2003. Is that the 
date of the memo?
    Senator Kennedy. April 2003, I believe.
    Chairman Warner. Shall we just recess for a few minutes? It 
is not an inconvenient matter.
    Senator Kennedy. That would be fine.
    Chairman Warner. All right. The committee stands in recess 
at the call of the chair. [Recess.]
    The hearing will resume. Let the record reflect that 
General Craddock had an opportunity to examine the documents 
referred to by our colleague from Massachusetts, and now having 
had the opportunity to see them, General, would you like to 
expand on your reply to the question from the Senator from 
Massachusetts?
    General Craddock. Yes, Mr. Chairman. Upon reviewing the 
documents, indeed, my signature was on a slip, a buck slip, 
forwarding a memo from the Chairman of the Joint Chiefs to the 
Secretary on the topic of interrogation techniques. The 
attachment to the memos, which were the memos in question from 
the various Service staff judge advocates and general counsels, 
to my recollection, were never attached to the memorandum from 
the Chairman to the Secretary. I have not seen those prior to 
today.
    Senator Kennedy. Mr. Chairman, again, thank you.
    Just finally then, so you have indicated that you never saw 
those memoranda. Is that correct?
    General Craddock. That is correct, Senator.
    Senator Kennedy. If you had seen those memoranda, do you 
think you remember whether you had read them?
    General Craddock. I do, sir.
    Senator Kennedy. Well, Mr. Chairman, I appreciate your 
following through with this. I think it does emphasize the 
importance of this issue. We know that all four of these went 
up the line of command up to General Counsel Haynes. At some 
time I am hopeful that we will be able to inquire of him at an 
appropriate time.
    Chairman Warner. Senator, you have properly noted to the 
chair the desirability of having the committee hear from the 
General Counsel of the Department.
    Senator Levin. Mr. Chairman, I, of course, also support 
that.
    Chairman Warner. Let the record show that the ranking 
member has brought that to the attention of the chairman.
    We are proceeding apace on the hearings with regard to the 
detainee situations. We had the opportunity yesterday to get 
some information on that subject. By the way, I will be joining 
you and informing the committee of the documents and pictures 
in the possession of the committee now, which some members may 
wish to examine. We will expand on that later.
    Are there any further questions of this witness?
    Senator Kennedy. I thank you again, Mr. Chairman, for your 
typical courtesy. Thank you, General.
    Chairman Warner. General, do I see that your family have 
departed?
    General Craddock. They are in the back of the room, 
Senator.
    Chairman Warner. They went in the back row. I hoped they 
had not deserted you. Well, I thank them once again for joining 
us here, and thank you, General.
    Senator Levin. You realize, more than ever, how important 
you are, I hope.
    Chairman Warner. I am hopeful that this nomination can be 
acted upon by the Senate prior to its period of recess.
    General Craddock. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    The committee is adjourned.
    [Whereupon, at 11:38 a.m., the committee adjourned.]

    [Prepared questions submitted to VADM Timothy J. Keating, 
USN, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments as Commander, U.S. Naval Forces Central Command from 
February 2002 through October 2003 and as Director of the Joint Staff 
since October 2003.
    Do you support full implementation of these defense reforms?
    Answer. Yes. The success of military operations in the past several 
years is directly linked to the implementation of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented, particularly in the U.S. Navy?
    Answer. These reforms have been widely implemented with great 
success throughout the Department of Defense, including the U.S. Navy.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most important outcomes are improved joint 
warfighting capabilities, clear operational chains of command and more 
efficient use of defense resources.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. At this time, I do not see any need to modify the 
Goldwater-Nichols Act. However, if confirmed, I will not hesitate to 
make relevant recommendations, if I see a need.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Northern Command?
    Answer. The Commander, U.S. Northern Command is responsible for 
defending the people and territory of the United States against threats 
to our homeland. The Commander is also responsible for security 
cooperation with Canada and Mexico, as well as providing civil support 
as directed by the President or the Secretary of Defense.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Thirty-three years of military training and experience, to 
include numerous command positions, have prepared me for assuming 
command of the North American Aerospace Defense Command and U.S. 
Northern Command. During Operation Iraqi Freedom, as Commander, U.S. 
Naval Forces Central Command, I planned and executed joint warfighting 
missions. In addition, as Director of the Joint Staff, I have gained 
invaluable insights into the conduct of joint operations, the duties of 
a combatant commander and interagency cooperation.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Northern Command?
    Answer. If confirmed, I will take advantage of every opportunity to 
improve my knowledge of homeland defense and civil support missions. I 
look forward to engaging with key players within the Department of 
Defense, including the National Guard, as well as the interagency 
community and the newly established homeland defense/homeland security 
education consortium.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, U.S. Northern Command, to the following officials:
    The Secretary of Defense.
    Answer. The Commander, U.S. Northern Command, performs his duties 
under the authority, direction and control of the Secretary of Defense. 
He is directly responsible to the Secretary of Defense for the ability 
of the command to carry out its missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary and performs the duties of the Secretary in his 
absence. The Commander, U.S. Northern Command, ensures the Deputy has 
the information necessary to perform these duties and coordinates with 
him on major issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under secretaries are key advocates for combatant commands' 
requirements. The Commander, U.S. Northern Command, coordinates and 
exchanges information with the Under Secretary of Defense for Policy on 
strategic policy issues involving homeland defense and civil support.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Commander, U.S. Northern Command, coordinates and 
exchanges information with the Under Secretary of Defense for 
Intelligence as needed to set and meet the command's intelligence 
requirements.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. Normally, interaction with assistant secretaries is 
accomplished through the appropriate under secretary. However, the 
Commander, U.S. Northern Command, also works directly with assistant 
secretaries, when appropriate. This is frequently the case with the 
Assistant Secretary of Defense for Homeland Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. While the Chairman is not in the chain of command that runs 
from the President and the Secretary of Defense to combatant 
commanders, his role as the senior uniformed military advisor is 
critical. The Commander, U.S. Northern Command, supports the chain of 
command as directed in title 10 and communicates closely with the 
Chairman to enable him to perform his duties as the principal military 
advisor to the President and the Secretary of Defense.
    Question. The Secretaries of the Military Departments.
    Answer. The secretaries of the military departments are responsible 
for the administration and support of forces assigned to combatant 
commands. The Commander, U.S. Northern Command, coordinates closely 
with the secretaries to ensure homeland defense and civil support 
requirements are met.
    Question. The Chiefs of Staff of the Services.
    Answer. The Commander, U.S. Northern Command, communicates and 
exchanges information with the chiefs of staff of the Services to 
support their responsibility for organizing, training and equipping 
forces. Successful execution of U.S. Northern Command's new force 
protection responsibilities also involves close coordination with the 
service chiefs. Like the Chairman, the service chiefs are valuable 
sources of judgment and advice for combatant commanders.
    Question. The other combatant commanders.
    Answer. The Commander, U.S. Northern Command, maintains close 
relationships with the other combatant commanders. These relationships, 
which are critical to the execution of our National Military Strategy, 
are characterized by mutual support, frequent contact and productive 
exchanges of information on key issues.
    Question. The Chief of the National Guard Bureau.
    Answer. National Guard forces are likely to be involved in almost 
all homeland defense and civil support missions; close coordination 
between U.S. Northern Command and the National Guard Bureau is central 
to the success of these operations. The Commander, U.S. Northern 
Command, communicates regularly with the Chief of the National Guard 
Bureau on issues involving the use of National Guard forces.
    Question. If confirmed, in carrying out your duties, how would you 
work with the Department of Homeland Security, the Homeland Security 
Council, and other Federal agencies, as well as State and local 
authorities and representatives from the private sector?
    Answer. If confirmed, I will work operational issues with the 
Department of Homeland Security, the Homeland Security Council and 
other Federal agencies. I understand U.S. Northern Command's Joint 
Interagency Coordination Group gives the command a means to communicate 
with local, State, and Federal agencies and facilitate appropriate 
Department of Defense assistance.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. Northern Command?
    Answer. As we move further from the tragic attacks of September 11, 
I believe maintaining the command's focus and intensity in protecting 
and defending our homeland will be important. Our enemies today are 
like no other we have faced in our Nation's history; U.S. Northern 
Command should remain prepared to deter and defeat traditional and 
unconventional means of attack.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I believe a robust exercise program, 
involving participants from the Department of Defense, the interagency 
community, as well as State and local officials, is the cornerstone to 
success. I also believe the information-sharing culture fostered in 
U.S. Northern Command is the right approach to help protect Americans 
where they live and work.
                    mission of u.s. northern command
    Question. What is the mission of U.S. Northern Command?
    Answer. U.S. Northern Command conducts operations to deter, 
prevent, and defeat threats and aggression aimed at the United States, 
its territories and interests within its assigned area of 
responsibility. As directed by the President or Secretary of Defense, 
the command provides civil support. In addition, the U.S. Northern 
Command is responsible for theater security cooperation with Mexico and 
Canada, with full respect for their sovereignty.
    Question. How does U.S. Northern Command's mission relate to the 
Department of Homeland Security's mission?
    Answer. The Department of Homeland Security has overall 
responsibility for civil aspects of protecting our Nation. U.S. 
Northern Command works closely with elements of the Department of 
Homeland Security at the tactical and operational level to plan, train 
for, and execute homeland defense and civil support missions.
    Question. Under what circumstances, if any, would you anticipate 
U.S. Northern Command would have the lead role in responding to a 
terrorist incident?
    Answer. I believe the President or Secretary of Defense would 
assign U.S. Northern Command the lead role in defending our Nation 
against a major terrorist attack. They may also assign U.S. Northern 
Command the lead in the case of an attack by weapons of mass 
destruction, or in the event that a terrorist incident occurs on a 
Department of Defense installation.
    Question. What responsibility, if any, does U.S. Northern Command 
have with respect to the Critical Asset Assurance Program (CAAP)?
    Answer. Homeland Security Presidential Directive-7, published in 
December 2003, assigns the Department of Homeland Security primary 
responsibility for critical infrastructure protection (the successor 
program to CAAP) within the United States. It also assigns the 
Secretary of Defense responsibilities for the protection of the defense 
industrial base. It is my understanding that the Office of the 
Secretary of Defense is drafting policy guidance for U.S. Northern 
Command regarding its responsibilities for critical infrastructure 
protection.
                       organization and authority
    Question. U.S. Northern Command has recently been assigned 
responsibility for force protection and antiterrorism within its area 
of responsibility.
    What actions would you take, if confirmed, to mitigate force 
protection vulnerabilities, and what force protection challenges do you 
anticipate you would face within U.S. Northern Command theater of 
responsibility?
    Answer. If confirmed, I will ensure U.S. Northern Command's force 
protection and antiterrorism program, which will achieve full program 
execution on 1 October 2004, includes an aggressive vulnerability 
assessment process that involves the Joint Staff and Service/Department 
of Defense Agencies' headquarters. Vulnerabilities will be measured 
against established standards and risk mitigated throughout the U.S. 
Northern Command area of responsibility. Spot checks will performed as 
needed to verify fixes. This standardization of the various force 
protection and antiterrorism programs will be a challenge due to the 
diversity and vastness of U.S. Northern Command's area of 
responsibility.
    Question. What specific forces, if any, have been assigned to U.S. 
Northern Command?
    Answer. Forces assigned to U.S. Northern Command include Joint Task 
Force Civil Support, Joint Task Force Six, Joint Force Headquarters 
National Capital Region, and the Commanders of the four Service 
components (Army North, Northern Air Force, Marine Forces North, and 
Navy North).
    Question. How has the assignment of forces to U.S. Northern Command 
changed since U.S. Northern Command was established on October 1, 2002?
    Answer. Since 1 October 2002, U.S. Northern Command has stood up a 
Joint Force Headquarters National Capital Region. In addition, they 
deactivated Joint Force Headquarters Homeland Security.
                                 norad
    Question. What is the mission of the North American Aerospace 
Defense Command?
    Answer. The missions of the North American Aerospace Defense 
Command are aerospace warning and aerospace control. Aerospace warning 
consists of detection, validation, and warning of an attack against 
North America. Aerospace control consists of air sovereignty and air 
defense of United States and Canadian airspace.
    Question. How does NORAD's mission relate to U.S. Northern 
Command's mission?
    Answer. The missions of the North American Aerospace Defense 
Command and U.S. Northern Command are complementary. The North American 
Aerospace Defense Command conducts operations in the air domain and 
provides warning of ballistic missile attack. U.S. Northern Command 
conducts land and maritime defense, U.S.-only air missions and civil 
support. The commands coordinate on many issues and work side-by-side.
    Question. How does NORAD's mission relate to DHS's mission?
    Answer. The North American Aerospace Defense Command provides a 
layer of deterrence that supports the Department of Homeland Security's 
mission.
                            jtf-cs and jtf-6
    Question. Since the establishment of U.S. Northern Command, several 
multi-service commands, e. g., Joint Task Force-Civil Support (JTF-CS), 
Joint Task Force-Six (JTF-6), have been placed under its authority.
    What is the current status of the transfer of command of these 
organizations?
    Answer. The transfer of command for JTF-CS and JTF-6 occurred on 1 
October 2002 when U.S. Northern Command was activated. These 
organizations serve as subordinate commands under U.S Northern Command.
    Question. At the present time, various units with responsibilities 
relating to the counter-drug mission, including Joint Interagency Task 
Force-East, and Joint Interagency Task Force-West are assigned to 
various combatant commanders.
    Do you anticipate that either of these units will eventually be 
assigned to U.S. Northern Command? Are there any plans to merge these 
joint interagency task forces?
    Answer. I would not anticipate the assignment of Joint Interagency 
Task Force South (which includes the former Joint Interagency Task 
Force East) or Joint Interagency Task Force West to U.S. Northern 
Command, and I am not aware of any plan to merge these task forces.
    Question. What role does U.S. Northern Command play in the 
Department's overall counterdrug mission and organization?
    Answer. U.S. Northern Command, through Joint Task Force Six, 
synchronizes and integrates Department of Defense operational, 
training, and intelligence support to domestic law enforcement agency 
counterdrug efforts in the continental United States. It serves as a 
force multiplier by enhancing law enforcement agency effectiveness.
    Question. How are counterdrug operations coordinated across 
combatant command boundaries, particularly with U.S. Southern Command?
    Answer. U.S. Northern Command and U.S. Southern Command have a 
Command Arrangement Agreement that facilitates counterdrug operations 
across area of responsibility boundaries. This agreement provides for a 
shared common operational picture and notification procedures when 
forces transit areas of responsibilities in the conduct of their 
mission. Intelligence information is routinely exchanged to eliminate 
border seams.
    Question. The National Defense Authorization Act for Fiscal Year 
2004 included a provision (section 1022) that authorizes forces 
providing support to law enforcement agencies conducting counter-drug 
activities to also provide, subject to all applicable laws and 
regulations, support to law enforcement agencies conducting counter-
terrorism activities.
    How has this authority been implemented, and what financial 
resources do these task forces have to conduct counter-terrorism 
missions?
    Answer. My understanding is that JTF-6 will become Joint Task Force 
North by 1 October 2004 and expand beyond counterdrug activities into 
counterterrorism. It will still be aligned under U.S. Northern Command. 
Its mission will include the detection, monitoring, and support of the 
interdiction of suspected transnational threats in the approaches to 
the continental United States. Similar to the counterdrug mission, 
Department of Defense forces will be in support of law enforcement 
agencies and follow all applicable laws and restrictions. There are 
currently no additional resources provided exclusively to JTF-6 for the 
counterterrorism mission. At the present time, the only 
counterterrorism missions are those conducted in conjunction with a 
counterdrug operation.
                             national guard
    Question. There is still considerable debate about the role the 
National Guard should play in defending the homeland.
    Do you believe that defending the homeland should become the 
National Guard's primary mission?
    Answer. The National Guard is fundamental to homeland defense and 
plays an important role in planning for and responding to terrorist 
attacks in the United States. If confirmed, I am confident National 
Guard forces will be available when needed to defend our Nation.
    Question. What is the current status of the working relationship 
between U.S. Northern Command, the National Guard Bureau, and 
individual state National Guard headquarters?
    Answer. U.S. Northern Command and the National Guard Bureau have a 
strong relationship. Through the National Guard Bureau, U.S. Northern 
Command coordinates with state headquarters for planning purposes and 
maintains situational awareness of National Guard actions and 
commitments.
    Question. If confirmed, what type of liaison relationships for 
planning and operational purposes would you advocate between U.S. 
Northern Command, the Department of Homeland Security, Federal, State, 
and local first responders, and National Guard units under State 
authority?
    Answer. If confirmed, U.S. Northern Command will continue to work 
with the Department of Homeland Security on operational planning, 
training, and execution of homeland defense and civil support missions. 
U.S. Northern Command will support the Department of Homeland 
Security's efforts to assist governors and civil authorities in 
executing homeland security responsibilities. The Department of Defense 
does not engage directly with State governors on the role of National 
Guard forces operating under State authority. However, the National 
Guard Bureau keeps U.S. Northern Command informed of State-level 
homeland security activities involving National Guard forces.
    Question. Do you believe that changes to the ``posse comitatus'' 
doctrine under section 1385 of title 10, United States Code, and 
implementing DOD and Service regulations, would enhance U.S. Northern 
Command's ability to accomplish its mission?
    Answer. No, my understanding is that the Posse Comitatus Act has in 
no way hampered U.S. Northern Command's ability to accomplish its 
missions.
            weapons of mass destruction--civil support teams
    Question. In recent years, legislation has been enacted to 
establish additional Weapons of Mass Destruction--Civil Support Teams 
(WMD-CST) with the goal of ensuring that all 54 states and territories 
have a WMD-CST within their borders. The Department is currently 
reviewing the mission, doctrine, organization, and equipping of these 
teams.
    In your view, do the WMD-CSTs need more robust capabilities to not 
only diagnose but also manage the response to a WMD attack, including 
decontamination functions?
    Answer. Yes.
    Question. Do you think that the WMD-CSTs have adequate 
transportation support to respond to an event within an appropriate 
time frame?
    Answer. Yes. To the best of my knowledge, the WMD-CSTs have not 
encountered any transportation difficulties in responding to events.
    Question. Do you believe it is advisable for at least some of the 
teams to have a chemical-biological response capability similar to that 
of the U.S. Marine Corps' Chemical Biological Incident Response Force 
(CBIRF)?
    Answer. Yes. I fully support the establishment of National Guard 
Chemical, Biological, Radiological, Nuclear and High-Yield Explosive 
Enhanced Response Force Packages.
                             maritime norad
    Question. Several proposals have been made to expand NORAD's focus 
from air to air, land, and sea. The Chief of Naval Operations has 
suggested creating a ``maritime NORAD,'' and a recent Defense Science 
Board study recommended that the Department improve and integrate its 
maritime intelligence, surveillance, and reconnaissance assets with 
those of the Departments of Homeland Security and Transportation, the 
CIA, and the FBI.
    What do you think would be the advantages and disadvantages of such 
an approach?
    Answer. I believe that improving our awareness of the maritime 
domain is critical to the security of the United States. There are 
vulnerabilities in our maritime approaches. Numerous initiatives, 
including the 96-hour notice of arrival requirement to offload at a 
U.S. or Canadian port and the automatic identification system--a 
maritime equivalent to Federal Aviation Administration transponders--
are being implemented to improve our maritime awareness. However, these 
initiatives will only affect large vessels, which still leaves a 
significant gap in our maritime awareness. Therefore, it is to our 
advantage to ensure information and intelligence are shared regardless 
of the source agency. I believe a cooperative approach is an optimal 
solution to this dynamic problem, and I see no disadvantage to such a 
pursuit.
    Question. What are your views on potential cooperative Canadian-
U.S. maritime activities?
    Answer. Continuing cooperation between Canada and the United States 
on maritime activities would improve our national security. There is 
currently a robust information-sharing network among our maritime 
agencies. Security could be further enhanced by a NORAD-like agreement 
in the maritime domain.
                          information sharing
    Question. On June 9, 2004, an incident involving a private aircraft 
entering the National Capital Region airspace led to the evacuation of 
the U.S. Capitol. The emergency apparently resulted from shortfalls in 
the ability of various government agencies, including the Federal 
Aviation Administration, the Department of Homeland Security, and the 
Department of Defense to share information. The mission of U.S. 
Northern Command requires rapid, secure, and effective communication 
with a variety of Federal, State, and local entities.
    What steps would you take, if confirmed, to ensure that rapid 
communication is possible?
    Answer. If confirmed, I will work to improve communication during 
times of crisis. My experience as Commander of Carrier Group Five in 
Yokosuka Japan taught me the importance of exercises that are designed 
to enhance communications. This is clearly a challenging issue that I 
believe warrants continued close attention.
    Question. Are there any legal impediments that exist that slow or 
prevent the rapid dissemination of information gained by military 
components with other Federal, State, or local entities, or the private 
sector?
    Answer. I am not aware of any.
                       intelligence sharing/ttic
    Question. What is the U.S. Northern Command's role and involvement 
in developing intelligence assessments regarding terrorist threats?
    Answer. U.S. Northern Command does not collect intelligence data. 
The Command's Combined Intelligence and Fusion Center coordinates the 
analysis and fusion of intelligence and collaborates with intelligence 
and law enforcement agencies to develop terrorist threat assessments. 
These assessments are shared with decisionmakers, the Intelligence 
Community, and law enforcement agencies.
    Question. What intelligence agencies are involved in providing 
input to U.S. NORTHCOM's staff for the development of intelligence 
assessments?
    Answer. U.S. Northern Command has representatives from many of the 
Federal intelligence agencies in its headquarters, to include the 
National Security Agency, the Central Intelligence Agency, the Federal 
Bureau of Investigation, the Defense Intelligence Agency and the 
National Geospatial Intelligence Agency, who collaborate in the 
development of intelligence assessments. In addition, U.S. Northern 
Command receives information from the Joint Intelligence Task Force 
Combating Terrorism, the Office of Naval Intelligence, the Coast Guard 
Intelligence Coordination Center, the Department of Homeland Security, 
and the Government of Canada.
    Question. What is the current nature of the relationship between 
U.S. Northcom and the Terrorist Threat Integration Center (TTIC), and 
what will that relationship be in the future?
    Answer. U.S. Northern Command and the TTIC exchange analyses and 
collaborate on key issues daily. I understand the command plans to 
assign an Intelligence Liaison Officer to the TTIC to facilitate the 
exchange of information.
    Question. How do posse comitatus, privacy restrictions, and other 
laws and regulations concerning the collection of intelligence within 
the U.S. affect the way U.S. NORTHCOM receives and uses intelligence?
    Answer. U.S. Northern Command leverages the authorized intelligence 
collection activities already performed by national-level agencies, 
which are responsive to the command's information requirements. U.S. 
Northern Command fuses the information to develop comprehensive 
situational awareness of current and potential terrorist threats, 
facilitating timely notification to decisionmakers.
                         cruise missile defense
    Question. How serious do you believe the cruise missile threat is 
to the United States and its territories?
    Answer. I do believe there is a threat from low altitude fliers, to 
include cruise missiles.
    Question. If confirmed, what capabilities would you prioritize to 
address this threat?
    Answer. The ability to detect and track objects over-the-horizon, 
as well as above, on and below the surface is critical. If confirmed, I 
will advocate for a persistent wide area low-altitude surveillance 
capability. I understand the high altitude airship shows promise as a 
cost-effective solution to this challenge.
                        continental air defense
    Question. How has the continental air defense mission changed since 
the end of the Cold War and the events of September 11, 2001?
    Answer. Prior to 11 September 2001, the North American Aerospace 
Defense Command's air defense posture was aligned to counter external 
threats to North America. In response to the attacks on 11 September 
2001, the command's mission was expanded to protect against domestic 
airborne threats.
    Question. Do you believe that current U.S. continental air defense 
capabilities are adequate to meet national security needs? If 
confirmed, what capabilities and programs would prioritize to address 
any identified deficiencies?
    Answer. Yes, the North American Aerospace Defense Command has 
adequate air defense capabilities. If confirmed, my priorities will be 
to support Operation Noble Eagle, integrate missile defense, and 
improve the North American Aerospace Defense Command's common 
operational picture.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Northern 
Command, and Commander, NORAD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Saxby Chambliss
                  northcom/national guard relationship
    1. Senator Chambliss. Admiral Keating, you outline in your 
responses to advanced policy questions the relationship between U.S. 
Northern Command (NORTHCOM) and the National Guard Bureau. This is a 
key relationship since, in the event of a terrorist attack or imminent 
threat to our homeland security, personnel from NORTHCOM and the 
National Guard will need to work very closely together. Can you outline 
for me what types of personnel relationships NORTHCOM and the Guard 
Bureau have now?
    Admiral Keating. There has always been a strong relationship 
between the National Guard and NORTHCOM. As you may recall the Chief of 
the National Guard Bureau, Lieutenant General Blum, served as the 
NORTHCOM Chief of Staff during our initial standup. There is a National 
Guard liaison office within the command to coordinate homeland defense 
and civil support action. In addition, the National Guard Bureau and 
NORTHCOM share operational information daily to ensure situational 
awareness and to synchronize operations, planning and exercising.

    2. Senator Chambliss. Admiral Keating, are personnel from the 
National Guard assigned to NORTHCOM and, if so, what types of roles do 
the National Guard personnel fulfill?
    Admiral Keating. Forty-one full-time Army and Air National 
Guardsmen are assigned to NORTHCOM from senior noncommissioned officers 
to major general. National Guardsmen serve in a wide range of positions 
from action officers and division chiefs to the Command's Chief of 
Staff.

    3. Senator Chambliss. Admiral Keating, do you envision a greater 
need for National Guard representation at NORTHCOM Headquarters and 
subordinate units?
    Admiral Keating. Not at this time. However, NORTHCOM will continue 
to assess its force structure in light of changing threats.

                           intelligence needs
    4. Senator Chambliss. Admiral Keating, you mention that NORTHCOM 
does not collect intelligence data, but instead coordinates the 
analysis and fusion of intelligence which is collected by other Federal 
and military departments. However, I am sure NORTHCOM does generate 
intelligence collection requirements, and my question is are you 
satisfied with the Intelligence Community's responsiveness to your 
requirements and what types of intelligence information does NORTHCOM 
not have that you believe would make you better able to execute your 
mission?
    Admiral Keating. The NORTHCOM Intelligence Directorate does 
generate intelligence collection requirements for action by other 
agencies. I understand the command receives the intelligence and 
information they need to develop threat characterization and provide 
warning. However, the use of ``restrictive caveats'' and ``data 
ownership'' by collecting agencies can slow data dissemination and 
impede usability in some instances.

    5. Senator Chambliss. Admiral Keating, reforming the Intelligence 
Community is a very high priority for Congress and it has been 
highlighted recently by the Senate Select Committee on Intelligence and 
the 9/11 Commission. As a principle user of intelligence, do you have 
any concerns or recommendations about intelligence reform? 
Specifically, are you concerned that there is a possibility that a 
stronger civilian Director of National Intelligence might negatively 
impact the timeliness and quality of intelligence support that your 
respective command is now getting from the Department of Defense (DOD)?
    Admiral Keating. We do not anticipate a negative impact from the 
creation of a strong Director of National Intelligence. However, we 
believe care should be taken to ensure any change in the structure of 
the Intelligence Community results in enhanced intelligence and 
information flow. The focus should be on eliminating collector agency 
``data ownership'' to ensure usability in the field.

    6. Senator Chambliss. Admiral Keating, the Intelligence Community 
is made of 15 agencies, 8 of which are in the DOD. Do you see 
advantages of putting these eight DOD agencies under a new four-star 
Unified Commander for Intelligence who would then provide centralized 
intelligence support to your command in a similar fashion that 
transportation support and special operations support are provided by 
U.S. Transportation Command and U.S. Special Operations Command 
respectively?
    Admiral Keating. We see no advantage in combining the eight 
intelligence agencies under a new Unified Commander for Intelligence, 
since each combatant commander has unique missions and geographic 
responsibilities.
                                 ______
                                 
                Question Submitted by Senator Carl Levin
            northern command antiterrorism/force protection
    7. Senator Levin. Admiral Keating, NORTHCOM was recently authorized 
to establish baseline antiterrorism/force protection levels within the 
United States for military installations, and to integrate the numerous 
disparate assessments and enforcement standards for installation 
security among Services, agencies, other combatant commands, and 
States. Two years ago the National Defense Authorization Act directed 
the Secretary of Defense to establish a comprehensive plan for 
protecting installations against terrorist attacks in a manner that 
reduces redundancy and encourages efficiency. The comprehensive, 
rigorous strategy we requested has yet to be submitted to Congress. If 
confirmed, will you work on this military installation security plan 
with Assistant Secretary of Defense for Homeland Defense McHale?
    Admiral Keating. Yes, I look forward to working with Secretary 
McHale on a comprehensive plan for protecting installations against 
terrorist attacks.
                                 ______
                                 
    [The nomination reference of VADM Timothy J. Keating, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 15, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C, section 601:

                             To be Admiral

    VADM Timothy J. Keating, 0000.
                                 ______
                                 
    [The biographical sketch of VADM Tmothy J. Keating, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
        resume of career service of vadm timothy j. keating, usn
Date and place of birth: November 16, 1948; Dayton, Ohio.

Promotions:

  Midshipman, U.S. Naval Academy.....................       28 Jun. 1967
  Ensign, U.S. Navy..................................       09 Jun. 1971
  Lieutenant (junior grade)..........................       09 Dec. 1972
  Lieutenant.........................................       01 Jul. 1975
  Lieutenant Commander...............................       01 Jun. 1980
  Commander..........................................       01 Jun. 1986
  Captain............................................       01 Sep. 1992
  Rear Admiral (lower half)..........................       01 Jul. 1997
  Designated Rear Admiral while serving in billets             Mar. 1999
   commensurate with that grade......................
  Rear Admiral.......................................       01 Aug. 2000
  Designated Vice Admiral while serving in billets          06 Oct. 2000
   commensurate with that grade......................
  Vice Admiral, service continuous to date...........       01 Nov. 2000

Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
U.S.S. Leonard F. Mason (DD 852)  Jun. 1971.........  Jun. 1971
 (Assistant Navigator).
Naval Aviation Schools Command,   Jan. 1972.........  May 1972
 Naval Air Station, Pensacola,
 FL (DUINS).
Training Squadron ONE NINE        Jun. 1972.........  Sep. 1972
 (DUINS).
Training Squadron TWO TWO         Sep. 1972.........  Aug. 1973
 (DUINS).
Training Squadron TWO TWO         Aug. 1973.........  Sep. 1974
 (Assistant Schedules/Advanced
 Jet Flight Instructor).
Training Wing TWO, NAS            Sep. 1974.........  Jul. 1975
 Kingsville, TX (Staff Training
 Records/Stats Officer).
Attack Squadron ONE SEVEN FOUR    Aug. 1975.........  Mar. 1976
 (Ready Replacement Officer).
Attack Squadron EIGHT TWO         Mar. 1976.........  Sep. 1978
 (Assistant Aircraft Officer).
Attack Squadron ONE TWO TWO       Sep. 1978.........  May 1980
 (Landing Signal Officer/
 Navigation Phase Instructor).
Commander, Carrier Air Wing ONE   May 1980..........  May 1982
 FIVE (Landing Signal Officer/
 Assistant Safety Officer).
Attack Squadron NINE FOUR         May 1982..........  Jul. 1984
 (Administrative/Operations/
 Maintenance Officer).
Commander, U.S. Pacific Command   Aug. 1984.........  Aug. 1985
 (Flag Lieutenant).
Attack Squadron ONE SEVEN FOUR    Aug. 1985.........  Nov. 1985
 (Replacement Pilot).
XO, Strike Fighter Squadron       Nov. 1985.........  May 1987
 EIGHT SEVEN.
CO, Strike Fighter Squadron       May 1987..........  Jan. 1989
 EIGHT SEVEN.
Commander, Naval Military         Feb. 1989.........  Sep. 1990
 Personnel Command (Head
 Aviation LCDR/JO Assignment
 Branch).
Commander, Carrier Air Wing ONE   Jan. 1991.........  Jul. 1991
 SEVEN (Deputy (Air Wing
 Commander).
Strategic Studies Group Fellow..  Aug. 1991.........  Jun. 1992
CJTF-SWA (Deputy Director of      Oct. 1992.........  Dec. 1992
 Operations).
Commander, Carrier Air Wing NINE  Dec. 1992.........  Nov. 1994
CO, Strike Warfare Center,        Nov. 1994.........  Sep. 1995
 Fallon, NV.
Bureau of Naval Personnel         Sep. 1995.........  Aug. 1996
 (Director, Aviation Officer
 Distribution Division (PERS-
 43)).
Joint Staff (Deputy Director for  Aug. 1996.........  Jun. 1998
 Operations (Current
 Operations)) (J-33).
Commander, Carrier Group FIVE...  Jun. 1998.........  Oct. 2000
Deputy Chief of Naval Operations  Oct. 2000.........  Jan. 2002
 (Plans, Policy and Operations)
 (N3/N5).
Commander, U.S. Naval Forces,     Feb. 2002.........  Oct. 2003
 Central Command/Commander,
 FIFTH Fleet.
Joint Staff (Director)..........  Oct. 2003.........  To Date
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal
    Legion of Merit with two Gold Stars
    Defense Meritorious Service Medal
    Meritorious Service Medal with one Gold Star
    Air Medal with Second and Third Strike/Flight Awards
    Navy and Marine Corps Commendation with Combat ``V'' and two Gold 
Stars
    Navy and Marine Corps Achievement Medal with one Silver Star
    Joint Meritorious Unit Award
    Navy Unit Commendation with two Bronze Stars
    Meritorious Unit Commendation
    Navy ``E'' Ribbon
    Navy Expeditionary Medal
    National Defense Service Medal with one Bronze Star
    Vietnam Service Medal
    Southwest Asia Service Medal
    Humanitarian Service Medal
    Sea Service Deployment Ribbon
    Republic of Vietnam Campaign Medal
    Kuwait Liberation Medal
    Pistol Marksmanship Medal with Silver ``E''

Special qualifications:
    BA (Physics) U.S. Naval Academy, 1971.
    Designated Naval Aviator, 3 August 1973.
    Designated Joint Specialty Officer, 1988.

Personal data:
    Wife:
      Wanda Lee Keating of Alexandria, Virginia

    Children:
      Daniel Patrick Martin (Stepson); Born: 6 February 1969.
      Julie Cathryn Martin Camardella (Stepdaughter); Born: 7 December 
1972.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                        Dates             Rank
------------------------------------------------------------------------
Commander, U.S. Pacific Command (Flag  Aug. 1984-Aug. 1985....         LCDR
 Lieutenant).
Joint Staff (Deputy Director for       Aug. 1996-Jun. 1998....      RDML
 Operations (Current Operations)) (J-
 33).
Commander, U.S. Naval Forces, Central  Feb. 2002-Oct. 2003....     VADM
 Command/Commander, Fifth Fleet.
Joint Staff (Director)...............  Oct. 2003-To Date......     VADM
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by VADM Timothy 
J. Keating, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Timothy John Keating.

    2. Position to which nominated:
    Commander, Northern Command/Commander, North American Aerospace 
Defense Command.

    3. Date of nomination:
    15 June 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    16 November 1948; Dayton, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Wandalee Keating.

    7. Names and ages of children:
    Stepson: Daniel Pratt Martin (34)
    Stepdaughter: Julie Catherine Camardella (31).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of Naval Aviation, Veterans of Foreign Wars.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Timothy J. Keating.
    This 27th day of May, 2004.

    [The nomination of VADM Timothy J. Keating, USN, was 
reported to the Senate by Chairman Warner on July 22, 2004, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 22, 2004.]
                              ----------                              

    [Prepared questions submitted to LTG Bantz J. Craddock, 
USA, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
assignments as the Assistant Deputy Director for Strategy, J-5, on the 
Joint Staff and Military Assistant to the Secretary of Defense.
    Do you support full implementation of these defense reforms?
    Answer. Yes I do.
    Question. What is your view of the extent to which these defense 
reforms have been implemented, particularly in the U.S. Army?
    Answer. The Defense Authorization Act of 1986 accelerated the 
integration and synchronization of all our military's capabilities to 
fight and win all of our wars decisively. The legislation strengthened 
the authority of civilian control over the Armed Forces while at the 
same time provided the combatant commander the authority and 
flexibility to perform his mission. More specifically, the Goldwater-
Nichols reforms have improved military operations by not only the Army, 
but the Air Force, Navy, and Marines.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most important aspect of these reforms is the 
expansion of the combatant commander's responsibilities. The Goldwater-
Nichols Act revised the authority of the regional combatant commander 
and clearly defined his responsibilities.
    These changes simplified the chain of command and improved the 
planning and execution of assigned missions during times of crises. 
While providing for more efficient use of DOD resources these reforms 
have also resulted in far more effective joint military activities and 
operations.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy, 
and to contingency planning; providing for more efficient use of 
defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I completely agree with these goals.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. The Center for Strategic and International Studies has 
conducted a study which is under review by the Department of Defense 
with the intent of strengthening Goldwater-Nichols. This study provides 
options for change including actions taken within the department, those 
requiring interagency coordination and those requiring statutory 
change.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Southern Command?
    Answer. The Commander of U.S. Southern Command is assigned the 
geographical area of responsibility (AOR) and reports directly to the 
Secretary of Defense. The commander is responsible for U.S. military 
forces assigned to the AOR--which includes 30 countries throughout 
Latin America and the Caribbean. The duties and functions of a 
combatant commander include, but are not limited to: prescribing the 
chain of command, including authoritative direction over all aspects of 
military operations, joint training and logistics; organizing commands 
and forces and employing them within his command as necessary to carry 
out the command's assigned missions; and assigning command functions to 
subordinate commanders.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am indeed honored by the President's nomination to be the 
Commander of U.S. Southern Command. Over the last several years, I have 
served in both Joint and Army assignments involved in planning and the 
actual conduct of operations, and while not in the U.S. Southern 
Command's geographical area, are similar to many of the operations and 
activities found in Latin America today. While serving as the Senior 
Military Assistant to the Secretary of Defense, I have had the 
opportunity to observe and participate in international, interagency, 
joint and combined strategy, and policy formulation across the spectrum 
of conflict. As the Commanding General of the 1st Infantry Division of 
the U.S. Army in Europe, I deployed forces to Kosovo in support of the 
U.S. European Command. Prior to that assignment, as a Brigadier General 
and Assistant Division Commander of that same Division, I commanded 
Joint Task Forces in Macedonia and Kosovo, both commands providing 
enormous insights into the challenges associated with coalition, 
combined and joint operations.
    While assigned to the Joint Staff as the Assistant Deputy Director 
for Strategy and Policy, J-5, I gained great understanding of the 
interagency process and the relationships between the office of the 
Secretary of Defense, the Joint Chiefs, the Joint Staff, and the 
combatant commanders. The privilege of commanding U.S. forces, from 
platoon through division level, to include in combat in Operation 
Desert Storm, has provided me the keen perspectives on training, caring 
for, and leading the superb men and women of our Armed Forces.
    These assignments have provided me a strong foundation and a 
diversity of experiences that will serve me well if confirmed as the 
Commander of U.S. Southern Command.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Southern Command?
    Answer. If confirmed, I will engage with the governments and 
militaries of partner nations to fully understand the complex issues in 
this region. Further, I will work closely with key officials and 
personnel within the Executive and Legislative branches of the U.S. 
government to analyze and address these complex issues.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command.
    Please describe your understanding of the relationship of the 
Commander, U.S. Southern Command to the following offices:
    Question. The Secretary of Defense
    Answer. The commander is responsible to the President and the 
Secretary of Defense for accomplishing the military missions assigned 
to him and exercises command authority over forces assigned to the 
combatant commander as directed by the Secretary of Defense. The 
combatant commander has the obligation to promptly inform the Secretary 
of Defense on accountable matters within his regional or functional 
AOR.
    Question. The Deputy Secretary of Defense
    Answer. The Deputy Secretary of Defense is the second ranking 
senior official within the Office of the Secretary of Defense. On those 
matters delegated by the Secretary to his Deputy Secretary, the 
commander coordinates and exchanges information with the Deputy 
Secretary. In practice, responsibility for significant matters has been 
so delegated to the Deputy Secretary, which requires direct 
communication on a regular basis between the combatant commander and 
the Deputy Secretary.
    Question. The Under Secretary of Defense for Policy
    Answer. There is no direct command relationship between the Under 
Secretary of Defense for Policy and the Combatant Commander. The Under 
Secretary of Defense for Policy coordinates and exchanges information 
with Department of Defense components such as Combatant Commanders.
    Question. The Under Secretary of Defense for Intelligence
    Answer. There is no direct command relationship between the Under 
Secretary of Defense for Intelligence and the combatant commander. The 
Under Secretary of Defense for Intelligence and the combatant commander 
coordinate and exchange information regularly.
    Question. The Assistant Secretary of Defense for International 
Security Affairs
    Answer. A direct command relationship does not exist between the 
Assistant Secretary of Defense for International Security Affairs and 
the combatant commander. The Assistant Secretary of Defense for 
International Security Affairs works with the combatant commander on 
mutual issues of concern.
    Question. The Assistant Secretary of Defense for Homeland Defense
    Answer. There is no direct command relationship between the 
Assistant Secretary of Defense for Homeland Defense and the combatant 
commander. The Assistant Secretary of Defense works closely with all 
Department of Defense components, to include combatant commanders.
    Question. The Chairman of the Joint Chiefs of Staff
    Answer. The Chairman is not in the direct chain of command from the 
President and Secretary of Defense to the commander and has no command 
authority over the combatant commander. However, the Chairman is the 
principal military advisor to the President and the Secretary of 
Defense and a key conduit between the combatant commander, Interagency 
and Service Chiefs. Communications to the combatant commanders from the 
President or the Secretary of Defense are transmitted through the 
Chairman of the Joint Chiefs of Staff. The combatant commander keeps 
the Chairman and his staff advised of accountable matters and critical 
issues that affect his unified command.
    Question. The secretaries of the military departments
    Answer. The secretaries of military departments are responsible for 
administration and support of forces that are assigned to unified and 
specified commands. Additionally, at Guantanamo Bay Cuba, U.S. Southern 
Command provides support to the Secretary of the Navy in his role as 
the Department of Defense's executive agent for the Combatant Status 
Review Tribunals.
    Question. The Chiefs of Staff of the Services
    Answer. As advisors to the Chairman and the Secretary of Defense, 
and as the senior uniformed leaders of their respective Services, the 
Service Chiefs play a critical role in transforming their Services' 
force structure and capabilities--an issue of high interest to the 
combatant commander. The combatant commander must rely upon the Service 
Chiefs to provide properly equipped and capable forces to accomplish 
missions in his assigned AOR.
    Question. The other combatant commanders
    Answer. Formal relationships between the combatant commanders are 
based upon operational plans. The plans lay out clearly the roles of 
the commanders as ``supporting'' or ``supported.'' These planned 
relationships mandate close coordination in peacetime and training.
    Question. U.S. Chiefs of Mission within the U.S. Southern Command 
area of responsibility
    Answer. There is no command relationship between the Chiefs of 
Mission and the commander. However, the commander coordinates and 
exchanges information with Chiefs of Mission on matters of common 
interest, to include assessments, military operations and engagement 
efforts with foreign defense officials.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. Southern Command?
    Answer. Currently, all 30 of the countries in the U.S. Southern 
Command AOR are led by democratically elected leaders, many of whom are 
faced with threats that are undermining the security and stability of 
their nations. These threats include: 1) terrorism, 2) transnational 
threats, and 3) the challenges of supporting partner nations in their 
efforts to deal with the threats they face.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I intend to ensure that U.S. Southern 
Command's ``Theater Strategy'' incorporates as a central theme the 
collective security of our partner nations. I will foster improved 
security relationships to promote regional solutions to shared regional 
challenges. I will ensure prioritization of security activities to 
areas that offer the greatest leverage for protecting and advancing 
U.S. regional and global interests. Further, I will continue to promote 
military-to-military contacts to enhance the professionalism of the 
region's militaries. Finally, I will work diligently to ensure our 
military efforts are fully coordinated and synchronized with other U.S. 
government agencies.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, U.S. Southern 
Command?
    Answer. Dealing with weak states whose transition to a democratic 
form of government is not satisfying the economic and social 
expectations of the citizens. Narcoterrorism, drug-funded gangs, 
kidnapping, and crime combine to make Latin America the world's most 
violent region as measured by homicides. It is imperative to remain 
active in assisting countries to maintain stability, promote 
prosperity, and enhance regional cooperation in this area of 
significant strategic importance to the U.S.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will immediately conduct a thorough 
assessment to build upon and modify where necessary current initiatives 
and programs that effectively address these challenges. I will work 
through established Department of Defense venues and processes and 
continue to engage Congress for appropriate resources and support to 
the region.
                              panama canal
    Question. It has been several years since the United States turned 
operation of the Panama Canal over to the Panamanian Government.
    What is the current political and economic situation in Panama?
    Answer. Economically, Panama's economy grew 4.1 percent in 2003 and 
is expected to exceed 4 percent again in 2004. The current government, 
although plagued by alleged ineffectiveness and corruption, remains 
politically stable. But there are enormous social challenges. The new 
President-elect, Martin Torrijos, assumes office on September 1 of this 
year. Hopefully his strong mandate will aid his administration in 
fighting corruption, addressing the high level of public debt, reducing 
unemployment and tackling widespread poverty.
    Question. To what extent does the Panamanian government attempt to 
interdict the drug flow out of South America through Panama?
    Answer. Despite limited capabilities, the Government of Panama 
continues to demonstrate its willingness to combat drug trafficking and 
improve efforts to interdict the drug flow from South America. The 
Panamanian Air Service (SAN) and Maritime Service (SMN) are actively 
engaged in disrupting the flow of illicit drugs through their sovereign 
territory. Since 2003, the SMN has supported U.S. sponsored 
multilateral counterdrug operations. This has significantly improved 
the mutual coordination and independent cooperation between the 
Colombian Navy and the SMN.
    Question. What is your assessment of how Panama is protecting and 
maintaining the Panama Canal?
    Answer. Following the turnover of the Panama Canal in 1999, the 
Government of Panama formed the Panama Canal Authority (PCA) to oversee 
its operation. The PCA's efforts to date have been remarkable, 
exceeding expectations by improving efficiency, security and safety 
while simultaneously increasing its tonnage, and profitability. A very 
professional and dedicated workforce, overseen by an experienced and 
competent management structure, operates the Panama Canal. Panamanians 
understand how critical the canal is to their economy and take their 
enormous responsibility in the context of global commerce very 
seriously. The Government of Panama and the Panama Canal Authority have 
achieved a high level of efficiency and security and continually strive 
to improve.
    Last year, Southern Command sponsored PANAMAX, an exercise designed 
to focus on the defense of the Panama Canal against terrorism. PANAMAX 
has become an annual endeavor in which a growing number of countries 
participate. This year, we expect the participation of nine partner 
nations to secure both the Pacific and Caribbean approaches to the 
Canal.
    Question. How vulnerable is the Panama Canal to attack by 
terrorists, and what would be the consequences of an attack to U.S. 
national security interests?
    Answer. The foundation of the Canal is a watershed that is formed 
by man-made lakes and dams, but relies on the natural rainfall in the 
region to maintain water levels necessary for Canal operations. It is 
dependent on a series of man-made locks, a large labor force, 
electrical power, telecommunications, oil, maintenance, and security to 
ensure its continued operation 24 hours a day, 365 days a year. Because 
of its complexity, and because it must remain open to cargo and 
shipping from all over the world, there will always be some risk that 
its many infrastructure systems and facilities are vulnerable to 
sabotage or terrorist attack. The only way to eliminate risk altogether 
would be to shut it down. Therefore, it is important to assess risks 
from the security, economic, and safety standpoints and apply 
protections and/or mitigations where feasible. Even more important, is 
the need to build redundancy in infrastructures, provide for adequate 
response to incidents, and ensure the capability of effective recovery, 
if required.
    The Panama Canal is the most important infrastructure in Southern 
Command's area of responsibility. The Canal is of significant economic 
importance to the world and critical to the people of Panama. Two-
thirds of the goods that transit the canal are coming from or going to 
U.S. ports. Disruption of Canal operations could create a significant 
impact on global commerce as well as the U.S. economy.
                     role of u.s. southern command
    Question. If confirmed as the Commander of the U.S. Southern 
Command, you will be responsible for all military operations in that 
region. These include the Department's counternarcotics efforts in the 
source nations and transit zone, detainee and interrogation operations 
at Guantanamo Bay, security of the Panama Canal, and enhancing 
relationships between the military personnel of the United States, 
Latin America, and the Caribbean in order to instill democratic values 
in the military organizations of the region. If confirmed, you will 
face the challenge of pursuing these missions at a time when there 
appears to be movement away from democracy in some nations, and 
increasing instability in other nations.
    If confirmed, what will be your highest priorities and what actions 
would you propose to counter the growing threat to democracy in the 
region?
    Answer. If confirmed, my highest priorities will be to: 1) continue 
to prosecute the war on terrorism in the AOR; 2) enhance regional 
security cooperation to counter transnational threats; and 3) closely 
coordinate Southern Command's efforts with the interagency in assisting 
partner nations' efforts to address the threats they face in 
maintaining effective democracies.
                        stability of the region
    Question. Instability in one nation in the U.S. Southern Command 
area of responsibility has often ``spilled over'' into neighboring 
countries. An example is Colombia where insurgents have used the 
neighboring countries of Venezuela, Ecuador, and Panama to escape 
detection. These groups have even engaged in illegal activities in 
those countries, such as kidnapping for ransom.
    What additional actions can be taken to improve regional 
cooperation and coordination to avoid this ``spillover'' effect?
    Answer. It may help to first clarify terminology--the terms 
``insurgents'' or ``guerrillas'' are less applicable today than in the 
past. I believe the term ``narcoterrorists'' is more appropriate, given 
the fact that the center of gravity for these groups is the incredible 
financial support they get from illicit drug trafficking, which 
motivates them to protect and manage the entire process of growing, 
processing, and trafficking illicit drugs.
    Southern Command, through its Theater Security Cooperation Strategy 
(TSC), seeks to build and/or improve defense relationships and partner 
nation (PN) capabilities, including interoperability, and promote 
regional cooperation to meet the variety of transnational challenges 
that confront the region. I will build on General Hill's successes in 
changing the TSC model from a bilateral approach to a multilateral 
scheme, which encourages neighbors to work together as much as they 
work with the United States. This approach will minimize the 
narcoterrorists' ability to use borders between countries as seams for 
illicit activities.
            counternarcotics--overall importance and effort
    Question. Each year the Department of Defense spends several 
hundred million dollars for counternarcotics programs. These programs 
range from outreach programs to teach children the dangers of drugs, to 
assistance to foreign governments to interdict the flow of drugs 
through their territory. Despite the expenditure of these funds and the 
several billion dollars that the Federal Government spends for this 
purpose each year, the flow of drugs into the United States and the 
price of drugs on the street have not been significantly reduced, and 
countries such as Colombia and Peru face tremendous internal security 
challenges. This has led many to question the effectiveness and focus 
of our counternarcotics programs.
    How should we measure the success of each of the Department's 
counternarcotics programs?
    Answer. Success should be measured by performance and results of 
mutually supportive eradication, interdiction, and demand reduction 
operations and programs.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region or should 
we focus the Department's efforts elsewhere?
    Answer. Department of Defense programs are designed to enhance 
partner nations existing capabilities and create new capabilities to 
combat narcotrafficking within the region. Colombia is the center of 
gravity and the largest cultivator, processor and exporter of narcotics 
in the region. Increasingly, terrorist organizations fund their 
activities through drug trafficking. This trend is particularly 
troubling in Colombia where there are clear connections between drug 
traffickers and Department of State designated Terrorist Organizations 
(FARC, ELN, AUC). Supporting the Government of Colombia's efforts to 
defeat illicit narcotrafficking also directly supports the global war 
on terror. There are concerns that coca cultivation in Peru may also 
fund terrorist organizations, and coca cultivation remains problematic 
in Bolivia. Success in Colombia is of marginal value if illicit 
narcotrafficking migrates to other countries within the region. 
Consequently, it is important to build upon our past efforts and ensure 
an approach that addresses the regional situation.
    Question. Compared to other missions that you would be responsible 
for as Commander, U.S. Southern Command, if confirmed, where would you 
rank counternarcotics in terms of its contribution to our national 
security and the ability of the Department of Defense to make a 
meaningful contribution?
    Answer. Narcoterrorism is one of the fundamental contributors to 
the problems within the region. Democratic instability, corruption, and 
radical populism present significant threats to security throughout the 
region, and narcotrafficking directly contributes to all of these 
threats. There is also a problem of fundraising for international 
terrorist organizations. Southern Command's detection and monitoring 
role helps keep illicit drugs from reaching U.S. markets and attacks a 
primary funding source for international terrorists. Counternarcotics 
operations, therefore, contribute significantly to U.S. national 
security.
                      forward operating locations
    Question. One of the elements of the regional counternarcotics 
strategy is the United States Southern Command's establishment of 
forward operating locations (FOLs) in the source and transit zone. 
There is some concern that the Department has not deployed sufficient 
aircraft and other resources to these FOLs to justify sustainment costs 
and continued improvements. There is also concern that after U.S. 
investment of several million dollars on these facilities, the host 
nations will restrict our use of these facilities.
    What is the role that these FOLs play in the Department's counter-
drug efforts?
    Answer. Forward Operating Locations (FOLs) compensated for the loss 
of coverage that was previously provided by operations conducted from 
Howard Air Force Base (AFB), Panama. The previous term, FOLs, was 
subsequently changed to Cooperative Security Location (CSL) to better 
reflect U.S. Southern Command's relationship with partner nations in 
the establishment and operation of these sites.
    Question. Does current use justify the costs of sustaining these 
locations?
    Answer. Yes, the current use justifies the costs of sustaining 
these CSLs. CSLs play a significant role in stemming the flow of 
illicit narcotics to the U.S. CSLs are essential to the D&M missions, 
which result in significant endgame operations.
    Question. What assurance do we have from host nations that these 
locations will continue to be available to us, and under what 
conditions?
    Answer. The agreement of cooperation with Ecuador is valid through 
2009; the U.S. government's agreements with the Netherlands and El 
Salvador are valid through 2010. Current relations between the U.S. and 
all of these nations are favorable. Southern Command fully expects the 
agreements to be renewed before the current agreements expire. The 
agreements of cooperation for the use of the CSLs were specifically 
written to foster cooperative efforts to counter illicit drug 
trafficking.
                             andean region
    Question. Internal political dynamics and lack of effective border 
control have resulted in the potential for a significant increase in 
drug production and trafficking in Bolivia, Peru, and Ecuador.
    What do you think the U.S. military can or should do to prevent 
such developments?
    Answer. Our security cooperation objectives support our overall 
policy objectives in a holistic approach. Southern Command needs to 
ensure a regional approach that directly contributes to Partner Nation 
cooperation and capability to defeat narcoterrorism. Programs in 
Colombia have proven effective; however, limited resources hamper our 
ability to approach the problem regionally.
    A very small U.S. military training unit in Bolivia has 
demonstrated significant improvement in their forces and the successful 
development of a national antiterrorism force, while expanding Southern 
Command's opportunities to promote human rights training and awareness. 
Both Peru and Ecuador have porous borders along southern Colombia, the 
major cultivation area of coca. Training should focus on 
professionalization of their respective military forces, strengthening 
border security, information/intelligence gathering as well as 
analytical capabilities, and integration of forces from different 
services.
    All of these training efforts would be infused with respect for 
human rights to ensure compliance with U.S. statutes.
                         colombia: human rights
    Question. When the U.S. began providing increased support through 
Plan Colombia for Colombia's efforts to significantly reduce or 
eliminate narcoterrorists operating in their country, much concern was 
expressed about human rights abuses that the Colombian military forces 
had committed.
    What is your assessment of the record of the Colombian military 
with regard to respect for human rights over the past 3 years?
    Answer. The Colombian military is the second most respected 
institution in Colombia today--first is the Catholic Church. The 
overall record of the Colombian military on human rights is positive. 
The Colombian government and military leadership have established a 
comprehensive human rights and international humanitarian law program. 
Every officer and soldier receives mandatory human rights training. 
Every military unit down to the battalion level has a human rights 
office responsible for providing human rights training, advising the 
unit commander on human rights issues, and tracking any credible 
allegations of human rights abuses against a member of the unit. Every 
member of every unit the U.S. military trains is vetted for human 
rights violations.
    The Colombian military program includes partnerships with civil 
society groups, universities, and international organizations to 
collaborate on strengthening their human rights programs. In the past 3 
years, human rights groups have accused these forces of committing less 
than 5 percent of gross human rights violations in country, a 
percentage far less than those of the 1980s and early 1990s. Another 
indicator of success is the fact that approximately 75 percent of the 
FARC, ELN, and AUC who demobilized--about 3,000 people--surrendered to 
military units, which they would not do if they thought that their 
human rights would be violated.
    Question. What progress has been made in reducing the links between 
Colombian military units and commanders, and paramilitary organizations 
that have had a record of human rights abuses?
    Answer. The Colombian military understands that illegal armed 
groups (IAGs), including the AUC forces, are an impediment to security 
and, ultimately, to peace in the country. While there is room for 
improvement in severing the Colombian military's links to the AUC, 
progress has been made in the areas of prosecution and censure of 
military officers, noncommissioned officers, and enlisted personnel 
with such ties. The Colombian government and the military have also 
instituted a variety of policies designed to fight collusion between 
government security forces and illegal armed groups. Prior to the peace 
process currently underway, the Colombian military actively pursued and 
engaged illegal armed groups, increasing the numbers of AUC killed in 
action or arrested. In part, it was this pressure that helped bring the 
AUC to the negotiating table.
    Question. What more remains to be done and how would you approach 
the issue of respect for human rights in the Colombian military?
    Answer. The Colombian military has made significant advances on 
human rights and has conducted its operations against terrorist 
violence in accordance with human rights and international humanitarian 
law principles. Without security, the full exercise of human rights 
cannot be guaranteed. Colleagues in the human rights community are 
concerned that the balance in Colombia will tilt too far toward the 
guarantee of security at the expense of political and civil liberties. 
I understand this concern.
    If confirmed, I will continue to help the Colombian military 
strengthen its judicial system and encourage prosecution of military 
members credibly accused of committing crimes or human rights 
violations. I will support further strengthening of human rights 
training programs, while at the same time encouraging the Colombian 
military to play a greater role in regional military human rights 
initiatives. Additionally, I will ensure that Southern Command 
continues its human rights policies throughout the region as a key 
component of Theater Security Cooperation.
                       colombia: force protection
    Question. Plan Colombia and related efforts will involve the 
continued deployment of a number of U.S. service members and civilians 
to the region.
    What measures are being taken to ensure the protection of U.S. 
military and civilian personnel in the country in the case that they 
become targets of the insurgents, or narcotraffickers?
    Answer. U.S. military personnel are only permitted to operate from 
secure locations. The U.S. Military Group (USMILGP) Commander, who also 
serves as the U.S. Defense Representative, is charged with certifying 
the security of these locations prior to any deployment of U.S. 
personnel. In addition to the protection afforded by the Colombian 
Military, U.S. forces receive threat updates and antiterrorism training 
prior to deployment. The USMILGP Commander possesses the means to 
contact deployed units at any time to provide early warning or 
additional Anti-Terrorism/Force Protection guidance as necessary, and 
can initiate coordinated actions with the Colombian Military to 
safeguard U.S. Department of Defense personnel (evacuation, etc.). U.S. 
Department of Defense personnel usually do not leave the safety of the 
Colombian Military base. Standard rules of engagement are in effect for 
all U.S. DOD forces operating in Colombia, including the right of self-
defense.
    Question. What legal protections, if any, are provided for civilian 
contractors captured or accused of criminal behavior in Colombia?
    Answer. The U.S. Government does not have any agreement with the 
Government of Colombia that provides legal status protection for 
civilian contractors from Colombian laws. If civilian contractors 
violate Colombian laws, they are subject to prosecution by Colombian 
authorities. I would note that U.S. military personnel deployed in 
Colombia are routinely afforded legal status protection with the 
approval of the Colombian Armed Forces Commander under the Military 
Missions Agreement of 1974.
    As for the legal protections of civilian contractors captured by 
IAGs in Colombia, they are not prisoners of war under the Geneva 
Conventions since the IAGs are narcoterrorist organizations and not 
party to the Geneva Conventions. The three U.S. civilian contractors 
currently held by the FARC are considered hostages illegally held by 
these narcoterrorists since February 2003.
                                colombia
    Question. Recent reporting from Colombia indicates improved 
military performance by the Colombian Armed Forces in pursuing the 
narcoterrorist groups, and an increased willingness and commitment by 
the Government of Colombia to decisively address the terrorist 
insurgency in their country.
    Please outline your views regarding the current situation in 
Colombia focusing upon:
    (1) the current military and political situation in Colombia;
    Answer. The Colombian military is becoming a professional and 
competent force, subordinate to civilian leadership, respectful of 
human rights and mindful of the rule of law. Under their national 
security strategy, the military has undertaken an ambitious new combat 
offensive to retake their national territory. The determination and 
progress demonstrated by the military to bring security, stability and 
the rule of law to the Nation make the likelihood of a negotiated end-
state greater than anytime in recent history.
    President Uribe has provided much of the momentum for this window 
of opportunity. It is important to note that his efforts are 
resoundingly backed by the Colombian people, as demonstrated not only 
by his public approval ratings, but those of the Armed Forces. He has 
ensured much-needed political support for the Colombian military's 
efforts against illegal armed groups. His determination to make 
substantial progress in Colombia's war against narcoterrorism is 
admirable and is just what Colombia needs. He is taking the fight to 
the FARC, is making a concerted effort to achieve peace and demobilize 
the AUC, and is engaged in preliminary peace talks with the ELN. Since 
his inauguration in 2002, President Uribe has significantly enhanced 
security force capabilities, restored state presence to every 
municipality, and mobilized the citizenry to support state efforts.
    Question. (2) the ability of the Colombian military to regain 
control of its territory; and
    Answer. The Government of Colombia has demonstrated an 
unprecedented ability to extend presence and rule of law throughout its 
sovereign territory. Recent military operations are being executed on a 
scale and duration far beyond previous efforts. This is largely 
attributable to the political will of the current administration and 
the level of training and professionalism of the Colombian military.
    Question. (3) ongoing DOD programs, including the request to 
increase the U.S. troop cap to 800 military personnel and 600 
contractor personnel, to assist the Colombian government in its 
counternarcotics/counterterrorism efforts specifically, and its 
military training and military professionalism in general.
    Answer. As stated earlier, Colombia's security forces are 
undertaking an ambitious new combat offensive to retake their national 
territory. U.S. military and developmental assistance, diplomatic 
support and training are helping the Government of Colombia achieve 
this goal.
    Having the authority to increase personnel levels to 800 military 
and 600 civilian contractors, consistent with our own operations and 
personnel tempo and the success of the Colombian military, will add 
flexibility which enables the U.S. to methodically provide trainers, 
technical assistance and maximize every opportunity.
                               venezuela
    Question. With the upcoming referendum on President Chavez' 
leadership, politics in Venezuela remains volatile.
    Please describe the U.S.-Venezuelan military relationship.
    Answer. Southern Command maintains a current policy of fostering 
institutional ties with the Venezuelan military. This policy includes 
training and seminar activities in Venezuela, attendance at 
Professional Military Education (PME) training and conferences, 
invitations to regional exercises in which it has traditionally 
participated, and Traditional Commander Activities (TCA) by Venezuelan 
military members and government officials to the U.S.
    The military relationship between the United States military and 
the Venezuelan military is at a historical low point. Despite Southern 
Command's efforts to maintain institutional ties with the Venezuelan 
military, pressure from President Chavez and his senior leadership has 
reduced our security cooperation activities with Venezuela to a 
minimum. Venezuela has recently cancelled planned participation in 
numerous Southern Command sponsored exercises. The Venezuelan military 
sends very few PME students to the U.S., has reduced the number of 
guest instructors it has in the U.S., and declined to participate in 
TCA Venezuela since January 2004. The U.S. Military Group moved from 
its offices on Venezuelan military bases to the U.S. embassy due to a 
request from the Venezuelan Minister of Defense. This negative trend in 
our relationship will probably not change in the near future.
    Question. What, if any, aspect of this relationship do you believe 
should be altered?
    Answer. I believe it is in the interest of the United States to 
maintain institutional ties with the Venezuelan military. We cannot 
influence them if we detach from them, but our engagement must be 
consistent with U.S. policy.
                       intelligence requirements
    Question. U.S. Southern Command has often reported reduced 
readiness levels of its intelligence capabilities because of the lack 
of airborne assets to adequately execute the counter-narcotics 
detection and monitoring mission. Part of the reason is the competition 
for assets with other theaters of operations.
    In your view, does U.S. Southern Command have adequate 
intelligence, surveillance, and reconnaissance assets available to it 
to accomplish its missions?
    Answer. While most commanders would prefer to have unlimited 
resources, the Department of Defense has mechanisms in place to 
continuously evaluate threats to U.S. security and assign assets 
consistent with Global Force Management procedures.
    Southern Command has stated their requirements through the 
Integrated Priority List, which requires an integrated mixture of 
airborne, maritime and ground systems capable of detecting, monitoring 
and collecting intelligence. I have every confidence Southern Command 
will be awarded additional assets consistent with global threats to 
U.S. national security where the threats warrant these assets. 
Meanwhile, Southern Command will continue to optimize the assets 
assigned and work with both the Department of Defense and Congress to 
ensure our requirements are known.
                                whinsec
    Question. What is the relationship between U.S. Southern Command 
and the Western Hemisphere Institute for Security Cooperation 
(WHINSEC)?
    Answer. Although U.S. Southern Command is clearly a stakeholder, 
there is no formal command relationship between the U.S. Southern 
Command and WHINSEC. WHINSEC is directly subordinate to the Commander, 
U.S. Army Combined Arms Center (CAC). CAC Commander has oversight 
responsibility for WHINSEC and will ensure WHINSEC curriculum is in 
accordance with the intent of Congress, Office of the Secretary of 
Defense, the Secretary of the Army and U.S. Southern Command's Theater 
Security Cooperation (TSC) Plan. The Commander, U.S. Army Infantry 
Center and Fort Benning provide base operations support to WHINSEC as a 
U.S. Army Training and Doctrine Command (TRADOC) school. WHINSEC 
provides education and training to students from countries in the U.S. 
Southern Command's AOR.
    Question. What more, if anything, does WHINSEC need to do to 
emphasize human rights in its curriculum?
    Answer. WHINSEC is extremely proactive in the issue of human rights 
training. They have modified their curriculum to include historical 
case studies of human rights violations where students discuss what 
went wrong and ways violations could have been prevented. The cases 
reviewed include: My Lai, Srebrenitza, El Mozote (El Salvador), and the 
Jesuit Murders (El Salvador). Additionally, WHINSEC conducts a Human 
Rights instructor course, which this year has the highest-ever number 
of graduates.
    Question. In your view, how can WHINSEC improve its outreach 
efforts to individuals or groups interested in their activities?
    Answer. Since WHINSEC does not work for U.S. Southern Command, this 
question may best be reserved for the Department of the Army. We 
continue to rely upon WHINSEC as an educational institution to provide 
quality education to foreign military personnel from countries in our 
AOR.
                 detainee and interrogation operations
    Question. U.S. Southern Command has been given significant 
responsibility for managing detainee and interrogation operations in 
the global war on terrorism, and is responsible for these operations at 
Guantanamo Bay, Cuba.
    What is U.S. Southern Command's overall role in managing detainee 
and interrogation operations, not only at Guantanamo Bay, but in the 
larger global war on terrorism?
    Answer. U.S. Southern Command provides command, control and 
coordination that enables Joint Task Force (JTF)-Guantanamo to conduct 
detention and interrogation operations. These operations are to collect 
intelligence in support of the global war on terrorism. They also 
support law enforcement in conducting war crimes investigations. U.S. 
Southern Command through JTF-Guantanamo also supports the conduct of 
military tribunals. Additionally, JTF-Guantanamo conducts detainee 
screening operations, as requested, through the employment of Mobile 
Detainee Review and Screening Teams.
                                 haiti
    Question. Haiti continues to experience turmoil and instability.
    What is the current military, economic, and political situation in 
Haiti, including the role of the U.N. multinational peacekeeping force 
and the U.S. military?
    Answer. Unquestionably, the current situation in Haiti is more 
stable than it was in February of this year. The U.S. Southern Command-
led Multinational Interim Force-Haiti did a tremendous job stabilizing 
the tenuous situation and providing a smooth transition to the United 
Nations Stabilization Mission (MINUSTAH) under United Nations Security 
Council Resolution 1542 which authorizes the United Nations, acting 
under Chapter VII of the Charter (Peace Enforcement), to ensure a 
secure and stable environment for the constitutional and political 
process in Haiti to take place. The partner nations in Southern 
Command's AOR should be applauded for actively supporting the MINUSTAH. 
Argentina, Brazil, Chile, Peru, and Uruguay have forces on the ground 
in MINUSTAH, with Brazil as the lead country. Several other countries 
plan to deploy forces in the near future.
    Haiti does not currently have a military, and security functions 
are accomplished by the Haitian National Police (HNP). The U.S. 
government is awaiting a decision from the Haitian Government to 
transform the HNP into a Haitian Defense Force. In coordination with 
U.S. Government initiatives, and in synchronization with United Nations 
activities, the U.S. military maintains a role in the continued 
transition in Haiti through security cooperation activities.
    The current political situation in Haiti is relatively stable, with 
MINUSTAH lending credence to the political process, which is being 
conducted in accordance with the Constitution of the Republic of Haiti. 
While Haiti is the poorest country in the Western Hemisphere, the 
country's economic situation is improving. However, a viable economy 
from foreign investment is dependent upon the continued stability of 
the political situation.
    Question. What trends are apparent with regard to the potential for 
any mass migration of Haitians to the U.S. mainland?
    Answer. There are no recent indications of a potential mass 
migration of Haitians to the U.S.
    Question. What role, if any, does Haiti play in the transshipment 
of drugs en route to the United States, and what capabilities does the 
Government of Haiti have to disrupt these illegal activities?
    Answer. Under the failing Aristide government, Haiti was a key 
transshipment point for drugs entering the U.S. due to its proximity, 
endemic political corruption, and extreme poverty. Current and future 
security operations will need to concentrate on this vulnerability in 
order for Haiti to cease being a haven for international drug 
traffickers.
    The Government of Haiti has a very limited capability to deal with 
sophisticated drug trafficking organizations. Prime Minister Latortue 
has publicly stated the importance of disrupting the illicit drug trade 
in Haiti. Latortue has cooperated with U.S. efforts to arrest Haitian 
drug traffickers and attempted to increase counterdrug cooperation 
between Haiti and the Dominican Republic.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Southern 
Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Saxby Chambliss
                                whinsec
    1. Senator Chambliss. General Craddock, you responded to several 
questions related to the Western Hemisphere Institute for Security 
Cooperation (WHINSEC) in your responses to the advance policy 
questions. While it is clear WHINSEC is not under the authority of U.S. 
Southern Command (SOUTHCOM), SOUTHCOM is clearly a large stakeholder in 
WHINSEC's activities and benefits greatly from the educational programs 
WHINSEC offers. I believe there might be greater appreciation of 
WHINSEC's contribution to regional security if there were some readily 
available ``success stories'' resulting from WHINSEC's training of 
Latin American military personnel. Do you agree with this assessment, 
and, if confirmed, what steps will you take to make available this type 
of information to the extent you are aware of it?
    General Craddock. I agree that success stories would help the 
general public appreciate WHINSEC's contribution to regional security. 
I believe it is also important to note that WHINSEC is one of many 
institutions that contribute to regional security. Success stories are 
already reported within the Federal Government. SOUTHCOM's 
International Military Education and Training 5-year training plans 
include success stories that are reported to the Departments of Defense 
and State. Additionally, success stories are included in annual report 
to Congress on WHINSEC's previous year's activities.
    The Institute's Board of Visitors has expressed interest in making 
more success stories available to the general public. The next WHINSEC 
Board of Visitors meeting scheduled for November 2004 will address this 
subject and provide recommendations for the Institute to implement. The 
Commander of SOUTHCOM is a Member of the Board of Visitors. As a Member 
of the Board, I will ensure that this issue is raised and properly 
addressed.

    2. Senator Chambliss. General Craddock, reforming the Intelligence 
Community is a very high priority for Congress and it has been 
highlighted recently by the Senate Select Committee on Intelligence and 
the 9/11 Commission. As a principal user of intelligence, do you have 
any concerns or recommendations about intelligence reform? 
Specifically, are you concerned that there is a possibility that a 
stronger civilian Director of National Intelligence might negatively 
impact the timeliness and quality of intelligence support that your 
respective command is now getting from the Department of Defense (DOD)?
    General Craddock. At this stage in the process, not knowing with 
certainty what the Director of National Intelligence authorities might 
be, it is difficult to say how that new position may ultimately impact 
intelligence support. In broad terms however, every commander requires 
timely and accurate intelligence to support decisionmaking. Commanders 
focus on the Intelligence Community results, not necessarily on its 
construct. Reorganization requires careful and thoughtful 
consideration. However, regardless of the final Intelligence Community 
structure, combatant commanders must have the ability to influence 
national intelligence priorities and intelligence asset allocation to 
satisfy the full spectrum of military planning and operations, from 
combat to peacekeeping to theater security cooperation activities.

    3. Senator Chambliss. General Craddock, the Intelligence Community 
is made of 15 agencies, 8 of which are in the DOD. Do you see 
advantages of putting these eight DOD agencies under a new four-star 
Unified Commander for Intelligence who would then provide centralized 
intelligence support to your command in a similar fashion that 
transportation support and special operations support are provided by 
U.S. Transportation Command and U.S. Special Operations Command 
respectively?
    General Craddock. Establishing a Unified Command comprised of the 
DOD intelligence Combat Support Agencies might assist in this process 
and is an idea that merits assessment and consideration. It would be 
important, I believe, to study such a recommendation thoroughly to 
ensure the potential benefits are well understood, and to consider such 
a possible approach along with the recommendations of the 9/11 
Commission.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                          colombian drug trade
    4. Senator Levin. General Craddock, Colombia has made great 
progress in their military campaign against the narcoterrorist 
Revolutionary Armed Forces of Colombia (FARC), National Liberation 
Army, and, to a somewhat lesser extent, the paramilitaries. What is 
your impression of the military campaign in Colombia? Do you believe we 
have reached some sort of ``turning point?''
    General Craddock. Plan Patriota is a Colombian government plan 
focused on bringing the FARC and other illegal armed groups to the 
negotiating table by conducting a full range of operations against 
them. To date, supporting military and police efforts nationwide have 
prevented the narcoterrorist groups from regenerating their strength 
elsewhere. The Government of Colombia has reestablished government 
presence in every municipality in the country. Overall, there has been 
a 30-percent decrease in attacks against the economic infrastructure; a 
16-percent decrease in homicides; a 30-percent decrease in robberies; a 
45-percent decrease in kidnappings and a general decrease in terrorist 
activities.
    The ultimate objective is to render these illegal armed groups 
ineffective by 2006. However, Colombia is at a decisive point in their 
military campaign. The momentum built by President Uribe and the 
Colombian Armed Forces in Plan Patriota is unfortunately, reversible. 
Consequently, we must maintain our steady, patient support in order to 
reinforce the Government of Colombia's successes and to guarantee a 
tangible return on the significant investment our country has made to 
our democratic neighbor.

    5. Senator Levin. General Craddock, when would you expect 
measurable progress to manifest itself in higher street prices for 
cocaine?
    General Craddock. According to the Interagency Assessment of 
Cocaine Movement coordinated by the Office of National Drug Control 
Policy (ONDCP), there is not a precise time frame or estimate as to 
when interdiction efforts might result in higher street prices for 
cocaine. Despite the estimated overall reduction in cocaine flow, ONDCP 
has not seen expected indications of tension between supply and demand.

    6. Senator Levin. General Craddock, do you believe that President 
Uribe's leadership is essential to Colombian military and political 
success against the narcoterrorists?
    General Craddock. President Uribe's leadership has been an 
essential component to Colombian military and political success against 
the narcoterrorists. The Government of Colombia, under President Uribe, 
has shown the political will to strengthen Colombia's democracy, 
respect for human rights and the rule of law, and to reduce the threat 
of narcoterrorism. His approval rating has remained around 80 percent. 
Currently, Colombia's Congress is reviewing a proposal to allow him to 
run for re-election. President Uribe has mobilized the Colombian 
populace and provided guidance and resources for the Colombian Armed 
Forces to prevail in the fight with the illegal armed groups.
    Continued strong leadership from Uribe's successor remains 
essential to uphold the institutions and initiatives that President 
Uribe has put into place.

                        colombian paramilitaries
    7. Senator Levin. General Craddock, once your nomination is 
approved and you are sworn in, will you speak to the Colombians about 
making, or stepping up, efforts to apprehend the top paramilitary 
leadership, especially those who are refusing to participate in 
negotiations with the Colombian government?
    General Craddock. I intend to travel to Colombia and meet with 
high-ranking government officials soon after assuming command of U.S. 
Southern Command. During these meetings, I will emphasize the 
importance of building upon current successes and reducing the threat 
of all illegal armed groups. I will encourage aggressive action to 
apprehend the top paramilitary leadership.

                             andean region
    8. Senator Levin. General Craddock, we continue to receive reports 
that Colombian narcotraffickers are operating in the territories of 
countries bordering Colombia--Panama, Peru, Brazil, Ecuador, and 
Venezuela. In the latter case, the Chavez government may be assisting 
the narcotraffickers. Meanwhile, in Peru and Bolivia, coca farmers are 
becoming more politically assertive, raising the possibility that drug 
cultivation will increase in those countries. What, in your opinion, 
should the United States do to ensure that our counternarcotics 
strategy in Central America encompasses the entire Andean region, 
addressing the potential for spillover from Colombia, as well as 
increased domestically-based production in other Andean countries?
    General Craddock. U.S. Southern Command is vigorously pursuing a 
strategy to promote stability for the entire Andean Region in the 
forthcoming ``post-Plan Colombia'' era. It is vitally important that we 
maximize our current regional approach and mature key regional 
initiatives that contribute to counternarcoterrorism efforts of partner 
nations in the region. Some examples of initiatives undertaken by 
Colombia's neighbors in the Andean Ridge to this effect include:
    1. Brazil. Implementation of their Aerial Shoot down program, which 
should go into effect around October 14, 2004. Brazil has initiated 
discussions with its Andean Ridge neighbors to discuss the spillover 
problem; has conducted well-publicized joint and combined exercises, 
Timbo I and II, along its borders with Colombia and Peru and has 
established Federal Police offices along its borders with those nations 
to coordinate cross-border police activities.
    2. Peru. Peru has a liaison officer in Leticia, Colombia and has a 
liaison officer in Iquitos, Peru to facilitate cross-border cooperation 
and security; Peruvian Coast Guard forces are communicating and 
coordinating with Colombian Army forces across the Putumayo River, 
along the Peru-Colombia border; and Peru and Brazil are collaborating 
on air defense cooperation exercises.
    3. Ecuador. Ecuador significantly increased its troop strength by 
one-third along the northern border with Colombia and has plans to 
continue increasing this presence with an additional Special Forces 
Group.
    U.S. Southern Command will continue to assist in facilitating and 
developing a regional approach to security cooperation in the Andean 
Ridge. It is my intention, to explore new and additional measures to 
work with and fortify Southern Command's partner nations capabilities 
in the fight against narcoterrorism in order to protect, prevent, and 
prevail against transnational threats.

                                 haiti
    9. Senator Levin. General Craddock, a few days ago the Washington 
Post editorial page asserted, ``Haiti's recovery [nevertheless] remains 
precariously weak--largely because of an underpowered international 
effort. The small number of peacekeepers in the country--2,000, 
compared with the more than 6,000 that a U.N. plan calls for--means 
that large parts of the countryside remain in the hands of ``armed 
gangs.'' Haitian Prime Minister Latortue attended the World Bank Donors 
Conference in Washington this week and called for international 
assistance in training the Haitian police forces. I note that the 
United States already provided such training for over 5 years in the 
1990s. What do you believe the United States should do to improve the 
security situation in Haiti? Should the United States get involved 
training police, and if so, how can we ensure that this time it is an 
enduring success?
    General Craddock. Sustained international engagement with the 
Haitian Government and its people is key to future success in Haiti and 
is consistent with our own national interests.
    In 1994, training of the Haitian National Police was a U.N./U.S. 
bilateral effort. The Department of Defense made facilities available 
to the Department of Justice to conduct training, but conducted no 
training itself. An updated version of the training used then is being 
used by the Haitian National Police Academy. It is not essential that 
the U.S. train Haiti's police, only that it be done in a manner that 
sustains professionalism. Southern Command does not presently have the 
legal authority to conduct training for the police.
    Since 2000, public law has limited Southern Command's engagement 
with Haiti to only the Haitian Coast Guard. During the most recent 
Haitian crisis, the Haitian Coast Guard was the only Haitian 
governmental organization able to function. The Haitian Coast Guard, 
working together with the U.S. Coast Guard, stemmed the flow of 
migrants from Haiti, so that immediate repatriation could be 
accomplished without having to establish migrant camps, or without 
seeing large flotillas of migrants arriving on U.S. shores during the 
crisis.
    I believe that the reliability and professionalism of the Haitian 
Coast Guard is due in great part to their continued, close relationship 
with the U.S. Coast Guard. One of the key areas that will determine 
success in Haiti is the reestablishment of the rule of law, which 
requires a properly trained and equipped security force. It is vital 
that the U.S. assists with this effort and remains engaged in the 
effort for the long term.

                                whinsec
    10. Senator Levin. General Craddock, despite changes in the 
curriculum, and State Department and Department of Defense vetting of 
its foreign students, the Western Hemisphere Institute for Security 
Cooperation (WHINSEC) still has opponents who assert that the school 
trains human rights violators. One proposal is to bring experts in 
human rights and civil-military relations to the Institute to assess 
their work and to help bring outside lecturers from the non-
governmental communities and civilian academic communities to WHINSEC. 
What, if anything, do you believe that the WHINSEC leadership needs to 
do to further improve its curriculum, and what should be done to better 
educate critics of the school, who appear unable to end public and 
legislative criticism of their Institute?
    General Craddock. When WHINSEC was established in 2001, its 
leadership took measures to establish a curriculum that supports the 
infusion of not only military skills, but respects civilian authority 
and human rights. WHINSEC implements a culture of continuous review, 
improvement, and vigilance. The Institute's curriculum is prepared, 
presented and evaluated to demanding Army Training and Doctrine Command 
standards. Its Democracy and Human Rights program is second to none and 
even Amnesty International--USA noted in one of its recommendations 
contained in a 2002 report that the ``core human rights program . . . 
could serve as a model. . .''
    WHINSEC continually provides opportunities to the general public to 
learn more about the Institute. For example, WHINSEC conducts an annual 
Democracy and Human Rights week and consistently invites up to 50 Non-
Governmental Organizations (NGOs), including those focused on human 
rights. Typically, only five or six NGOs accept the invitation, attend, 
and participate. Of note, The International Committee of the Red Cross 
is a participant. All NGOs that do participate have encouraged others 
to attend.
    Additionally, during the annual Board of Visitors (BOV) meetings, 
the general public to include NGOs and members of the civilian academic 
communities are provided opportunities to visit, participate, and learn 
more about the Institute. During the aforementioned meetings, members 
of the general public are also provided a forum to express their 
concerns to the BOV.

    11. Senator Levin. General Craddock, if confirmed, will you work 
with the Army and the State Department to ensure that they increase 
their outreach efforts to outside experts and public critics?
    General Craddock. I will work with the Army and the State 
Department to explore new opportunities and initiatives to expand 
current outreach efforts.
                                 ______
                                 
    [The nomination reference of LTG Bantz J. Craddock, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, United States Code, section 601:

                             To be General

    LTG Bantz J. Craddock, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Bantz J. Craddock, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Resume of Service Career of LTG Bantz J. Craddock, USA,
Source of commissioned service: ROTC.

Military schools attended:
    Armor Officer Basic and Advanced Courses.
    United States Army Command and General Staff College.
    United States Army War College.

Educational degrees:
    West Virginia University--BA--Political Science.
    United States Army Command and General Staff College--MMAS--
Military Art and Science.

Foreign Language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  15 Aug 71
1LT.......................................  20 Apr 73
CPT.......................................  20 Aug 75
MAJ.......................................  1 Apr 83
LTC.......................................  1 May 89
COL.......................................  1 Sep 93
BG........................................  1 Aug 98
MG........................................  1 Dec 01
LTG.......................................  21 Aug 02
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 72..........................  Jun 74............  Platoon Leader, C
                                                       Company, later
                                                       Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 36th
                                                       Infantry, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jun 74..........................  Dec 74............  Anti-Tank Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       36th Infantry, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jan 75..........................  Aug 78............  Service Test
                                                       Project Officer,
                                                       Armor Test
                                                       Division, United
                                                       States Army Armor
                                                       and Engineer
                                                       Board, Fort Knox,
                                                       Kentucky
Aug 78..........................  Mar 79............  Student, Armor
                                                       Officer Advanced
                                                       Course, Fort
                                                       Knox, Kentucky
Apr 79..........................  Oct 81............  S-3 Air
                                                       (Operations),
                                                       later Commander,
                                                       C Company, 1st
                                                       Battalion, 32d
                                                       Armor, 3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Nov 81..........................  May 84............  Systems Analyst,
                                                       later Executive
                                                       Officer, Office
                                                       of the Program
                                                       Manager, M-1
                                                       Abrams Tank
                                                       Systems, Warren,
                                                       Michigan
Jun 84..........................  Jun 85............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth,
                                                       Kansas
Jul 85..........................  Jun 87............  Executive Officer,
                                                       4th Battalion,
                                                       69th Armor, 8th
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jul 87..........................  Apr 89............  Deputy G-3
                                                       (Operations), 8th
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
May 89..........................  Jul 91............  Commander, 4th
                                                       Battalion, 64th
                                                       Armor, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart,
                                                       Georgia and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jul 91..........................  Jul 92............  G-3 (Operations),
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart,
                                                       Georgia
Jul 92..........................  Jun 93............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks,
                                                       Pennsylvania
Jul 93..........................  Jun 95............  Commander, 194th
                                                       Separate Armored
                                                       Brigade, Fort
                                                       Knox, Kentucky
Jul 95..........................  Aug 96............  Assistant Chief of
                                                       Staff, G-3
                                                       (Operations), III
                                                       Corps, Fort Hood,
                                                       Texas
Aug 96..........................  Aug 98............  Assistant Deputy
                                                       Director for
                                                       Strategy and
                                                       Policy, J-5, The
                                                       Joint Staff,
                                                       Washington, DC
Aug 98..........................  Aug 99............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Commander,
                                                       Multinational
                                                       Brigade
                                                       (Southeast),
                                                       Kosovo
Aug 99..........................  Sep 00............  Commander, 7th
                                                       Army Training
                                                       Command, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Sep 00..........................  Aug 02............  Commanding
                                                       General, 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
           Assignment                    Dates              Grade
------------------------------------------------------------------------
Assistant Deputy Director for     Aug 96-Aug 98.....  Colonel/Brigadier
 Strategy, J-5, The Joint Staff,                       General
 Washington, DC.
Senior Military Assistant to the  Aug 02-Present....  Lieutenant General
 Secretary of Defense, Office of
 the Secretary of Defense,
 Washington, DC.
------------------------------------------------------------------------


U.S. Decorations and badges:
    Distinguished Service Medal
    Silver Star
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with 2 Oak Leaf Clusters)
    Bronze Star Medal
    Meritorious Service Medal (with 3 Oak Leaf Clusters)
    Army Commendation Medal (with 2 Oak Leaf Clusters)
    Army Achievement Medal
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Bantz J. 
Craddock, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Bantz J. Craddock.

    2. Position to which nominated:
    Commander, United States Southern Command.

    3. Date of nomination:
    16 June 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    8 August 1949; Parkersburg, WV.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Eaton Craddock.

    7. Names and ages of children:
    Zachary W. Craddock (29) and Amanda E. Craddock (27).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army--Member.
    Society of the 1st Infantry Division--Member.
    U.S. Army Armor Association--Member.
    VFW--Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Armor Association--Order of St. George.
    Infantry Association--Order of St. Maurice.
    Ordnance Association--Order of Samuel Sharpe, Honorary Ketucky 
Colonel.
    Honorary Texan, Artiller Association--Order of St. Barbara.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Bantz J. Craddock.
    This 18th day of June, 2004.

    [The nomination of LTG Bantz J. Craddock, USA, was reported 
to the Senate by Chairman Warner on July 22, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 22, 2004.]
                              ----------                              

    [Prepared questions submitted to Peter C.W. Flory by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD, 
improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are 
strengthening civilian control, improving military advice, the clear 
responsibilities and authorities given the combatant commanders for 
mission accomplishment, and the increased attention to formulation of 
strategy and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I am unaware of any need to modify Goldwater-Nichols at 
this time. If I am confirmed, I will raise any such requirements that I 
may identify within the Department. The Department would consult 
closely with Congress, especially this committee, on any changes that 
might be appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for International Security Policy?
    Answer. I understand that, if I am confirmed, my duties as 
Assistant Secretary of Defense for International Security Policy will 
be to serve as the principal assistant and advisor to the Under 
Secretary of Defense for Policy in formulating and implementing 
national security and defense policy in a wide range of areas, 
including: nuclear forces; technology security; missile defense; Europe 
and NATO; Russia, Ukraine, and Eurasia; arms control, nonproliferation, 
and counterproliferation.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. I would expect Secretary Rumsfeld to look to the Assistant 
Secretary of Defense for International Security Policy to fulfill all 
the duties assigned to that office under the authorities of the 
Secretary of Defense and the Under Secretary of Defense for Policy--in 
particular, assistance and advice on the formulation of national 
security and defense policy in the areas noted in the response to the 
previous question.
                             relationships
    Question. If confirmed, what will be your relationship with:
      The Secretary of Defense
      The Deputy Secretary of Defense
      The Under Secretary of Defense for Acquisition, Technology, and 
Logistics
      The Under Secretary of Defense for Policy
      The Under Secretary of Defense for Intelligence
      The Principal Deputy Under Secretary of Defense for Policy
      The Assistant Secretary of Defense for International Security 
Affairs
      The Assistant Secretary of Defense for Homeland Defense
      The Chairman, Joint Chiefs of Staff and Director for Strategic 
Plans and Policy (J-5)
      Commander, United States European Command
      Commander, United States Strategic Command
      Director, Missile Defense Agency
      Administrator, National Nuclear Security Administration
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I expect to maintain a close working relationship with the 
other Assistant Secretaries in the Office of the Under Secretary for 
Policy, the offices of the Under Secretaries for Acquisition, 
Technology and Logistics, Personnel and Readiness, Comptroller, and 
Intelligence, the Chairman, Vice Chairman, Director for Strategic Plans 
and Policy (J-5) of the Joint Chiefs of Staff, Commanders of the U.S. 
European Command and U.S. Strategic Command, other combatant 
commanders, and the Missile Defense Agency. I will also, if confirmed, 
work closely with the National Security Council Staff and with 
officials in the Departments of State, Justice, Homeland Security, the 
Intelligence Community, the National Nuclear Security Administration, 
and other agencies and departments.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for International Security 
Policy?
    Answer. The United States and our allies face serious, growing, and 
unpredictable threats. We must maintain the ability to deter and, if 
necessary, defend against a wide range of threats, particularly 
ballistic missiles and weapons of mass destruction. Through arms 
control, export control groups, and non-traditional methods such as the 
Proliferation Security Initiative, we must seek to prevent and counter 
the spread of WMD and delivery systems. We must maximize our ability to 
deter the use of these weapons by development and deployment of 
improved strike and missile defense capabilities--what we call the 
``New Triad.'' To address the possible use of these weapons, in 
addition to developing missile defense capabilities, we must seek to 
improve our other defensive capabilities, including enhanced chemical 
and biological defenses for our forces and enhanced consequence 
management training and preparedness.
    As we work to transform our military forces to meet 21st century 
challenges, we also must work to transform our defense and security 
relationships with countries throughout the world. In Eurasia, we 
strive to promote stability and democratic development so that 
countries once part of the Soviet Union do not contribute to an ``arc 
of instability'' in the region. In Europe and NATO, we must continue 
the efforts this administration has begun to transform our alliances 
and structures, and the capabilities of the member states, so that NATO 
members can live up to their political commitments.
    Assuming you are confirmed, what plans do you have for addressing 
these challenges?
    Question. If confirmed, I will work to ensure we have a defense 
strategy and appropriate policies and plans to address the range of 
threats we face.
                                  nato
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO over the next 5 years?
    Answer. One of the key challenges will be to complete the Alliance 
transition from stationary forces to more mobile, deployable, and 
sustainable forces. The NATO Response Force (NRF) has been designed as 
a catalyst for NATO transformation, as well as a highly capable 
military force to carry out NATO missions. We will continue to work 
with the new members and partners to assist them in developing forces 
that are better able to operate with NATO forces and to contribute 
niche capabilities, such as chemical and biological defense units, 
light infantry units, combat engineers, and special operations forces 
to the Alliance.
    Another challenge is to develop a cooperative relationship with the 
European Union, as it develops its European Security and Defense Policy 
that preserves NATO as the primary instrument of transatlantic security 
and does not diminish the Alliance's military effectiveness.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. This latest round of enlargement will not be NATO's last, 
and the door to membership remains open. There is no timetable for the 
next round of enlargement. It depends on each aspirant government's 
achievement of the political, economic, military, and civil society 
reforms they laid out in their Membership Action Plans. NATO leaders at 
the Istanbul Summit reaffirmed NATO's open door, and recognized the 
reform efforts of the three NATO aspirants (Albania, Croatia, and 
Macedonia). Each NATO aspirant will be judged on its individual merits.
    Question. What criteria should NATO use in determining whether the 
Alliance would benefit from further expansion?
    Answer. Article 10 of the NATO Treaty allows for addition of 
European states that are ``in a position to further the principles of 
this Treaty and to contribute to the security of the North Atlantic 
area to accede to this Treaty.'' There are no defined criteria for NATO 
membership, but there are two fundamental questions we should want 
answered prior to making decisions about a future round of NATO 
enlargement:
    Will this candidate strengthen the Alliance's ability to protect 
and promote its security, values, and interests?
    Can we be confident of the candidate's enduring commitment to 
democracy and Allied values and interests?
    Question. What criteria should NATO use to determine which nations, 
if any, should be invited to join NATO?
    Answer. Although there are no set criteria for judging a country's 
readiness to join NATO, from a DOD perspective we expect the invitees 
to:

        <bullet> Share the risks and responsibilities of collective 
        defense.
        <bullet> Be able to participate in NATO missions (e.g., 
        interoperability).
        <bullet> Provide military value to the Alliance (commensurate 
        with size); this value may be through a specialized capability.
        <bullet> Spend at least 2 percent of gross domestic product 
        (GDP) on defense.
        <bullet> Have laws, regulations, and procedures to protect NATO 
        classified information.
        <bullet> Make progress on defense reform.
                              nato/russia
    Question. How do you assess the NATO-Russia relationship, as 
formalized through the NATO-Russia Council?
    Answer. The NATO-Russia Council (NRC) has led to increased 
cooperation between Russia and the Allies, especially military-to-
military cooperation. Russia has increased its participation in 
Partnership for Peace (PfP) activities, assigned officers to the 
Partnership Coordination Cell, and agreed with NATO to establish a 
Russian military liaison mission at Supreme Headquarters Allied Powers 
Europe (SHAPE). These steps will help enable Russian forces eventually 
to work with NATO in the field to address the threats of the 21st 
century.
    Other examples of successful NRC cooperation include civil 
emergency preparedness exercises, terrorist threat assessments, a Joint 
Missile Defense Command Post Exercise in Colorado Springs in March 
2004, and a cooperative airspace initiative.
            dod's cooperative threat reduction (ctr) program
    Question. The CTR program has several key objectives including: (1) 
reducing strategic nuclear weapons; (2) improving the security and 
accounting of nuclear weapons and fissile material; (3) eliminating and 
preventing biological and chemical weapons and capabilities; and (4) 
encouraging military reductions and reforms to reduce proliferation 
threats.
    In your view, how has the CTR program benefited U.S. national 
security?
    Answer. CTR has reduced the amount of weapons of mass destruction 
and related infrastructure that might be poorly secured or subject to 
illicit transfer. Also, DOD has refined CTR to better support the 
global war on terrorism, by an increased focus on chemical and 
biological weapons, and assisting with WMD border security (in the non-
Russia former Soviet Union (FSU)) in coordination with other 
departments of the United States Government (USG).
    Question. What is your view of the CTR program's chemical and 
biological weapons elimination efforts?
    Answer. I support the CTR program's efforts to eliminate chemical 
weapons and prevent the proliferation of dangerous pathogens and 
biological warfare (BW) expertise.
    Question. Do you think the CTR program is well coordinated among 
the U.S. government agencies that engage in threat reduction efforts in 
Russia, e.g., the State Department and the Department of Energy?
    Answer. CTR program activities and plans are well coordinated among 
U.S. Government agencies. Relationships among interagency offices 
handling CTR and other non-proliferation matters are mature; the system 
for coordinating issues and elevating disagreements through the NSC-
chaired Proliferation Strategy Policy Coordinating Committee functions 
effectively.
    Question. If confirmed, would you anticipate being assigned 
responsibility for policy development, coordination, and oversight of 
the CTR program?
    Answer. The current Office of the Assistant Secretary for 
International Security Policy and all predecessor offices have had 
responsibility for CTR policy development, coordination, and oversight. 
I anticipate no changes in this regard.
    Question. What is your vision of the CTR program 5 years from now?
    Answer. My vision of CTR 5 years hence is of a program that has 
successfully implemented the management reforms of 2002-2004 to execute 
long-standing strategic nuclear elimination projects, and has 
successfully followed through on initiatives related to nerve agent 
elimination and WMD border security. We have overcome significant 
challenges over the last 3 years. Five years from now the program 
should have built on its already impressive threat reduction record, 
but with enhanced value for the U.S. nonproliferation investment and 
improved cooperation from recipient countries.
    Question. In your view, are Russia and the nations of the former 
Soviet Union making a significant contribution to efforts to reduce the 
proliferation threats they inherited?
    Answer. All of the states of the former Soviet Union have taken 
significant steps over the past decade to reduce the threat posed by 
poorly secured weapons of mass destruction and related infrastructure 
within their respective territories. However, the level of commitment 
and contribution on the part of Russia to the cooperative activities we 
undertake with Russia through CTR has been uneven. For instance, 
Russian officials have demonstrated clearly a desire to improve the 
security of their inactive nuclear warheads and have granted CTR the 
access it needs to warhead storage facilities to make this a reality. 
However, while Russia's economy is much stronger than in the early days 
of CTR, Russia continues to request substantial assistance. Russia 
could also contribute by following through on certain commitments, 
e.g., ratify the CTR umbrella agreement extension of 1999; turn over 
samples of Russia's altered anthrax strain; and agree to a biological 
weapons project implementing agreement.
    Question. What needs to be done to enable agreement between Russia 
and the United States on access and liability issues that continue to 
hamper progress on some CTR programs?
    Answer. All CTR activities with Russia are conducted under the CTR 
``Umbrella Agreement,'' the foundation of CTR's legal framework that 
was extended in 1999 for a 7-year period. The Umbrella Agreement 
extension has not been ratified by the Duma but has been applied 
provisionally--with success--since 1999. Thus, there are no liability 
issues that currently hamper CTR program activities. We look forward to 
working with Russia in the coming years to extend the Umbrella 
Agreement again in 2006 with the same liability protections for U.S. 
assistance through CTR that have existed since the beginning of the 
program.
    Question. In your view, what new projects, if any, should be added 
to the CTR program and what current projects, if any, should be closed 
out?
    Answer. CTR is sized appropriately at the current time.
            united nations convention on the law of the sea.
    Question. Do you support accession by the United States to the 
United Nations Convention on the Law of the Sea?
    Answer. Yes, I agree with the administration's support of the 
United Nations Convention on the Law of the Sea.
    Question. In your view, would ratification of this treaty be in the 
national security interest of the United States?
    Answer. Yes.
                            nuclear weapons
    Question. To meet U.S. national security needs in the post-Cold War 
world, the 2001 Nuclear Posture Review recommended a new strategic 
triad consisting of nuclear and conventional offensive forces, active 
and passive defenses, and a robust nuclear and defense infrastructure.
    Do you agree with the conclusions of the Nuclear Posture Review?
    Answer. Yes. In contrast to the Cold War where the United States 
faced a single major adversary, the new security environment is 
characterized by unpredictability, weapons of mass destruction in the 
hands of a large number of potential adversaries and hostile non-state 
actors, and a wide range of possible types of conflict, including 
cyberattack and terrorist strikes as well as traditional hostilities 
between nations. The new environment demands that the Department 
develop a new strategic posture. Expecting and adapting to surprise, 
quickly and decisively, is now a condition of planning.
    The Nuclear Posture Review initiated a major change in our approach 
to the role of nuclear offensive forces in the U.S. deterrent strategy 
and provided the direction to transform our traditional nuclear triad 
into a New Triad. Nuclear weapons are being reduced to the lowest level 
consistent with our national security, including our commitments to our 
allies and friends. Achievement of fully integrated New Triad 
capabilities is an ongoing process that will continue for a number of 
years.
    The New Triad offers the President a broader range of capabilities 
better suited to implementing our defense policy goals of assuring 
allies and friends of our ability to meet our military commitments; 
dissuading adversaries from undertaking military programs or operations 
that could threaten U.S. interests or those of our friends and allies; 
deterring threats and countering coercion against the United States, 
its forces, allies, and friends; and defeating adversaries and 
defending against attack should deterrence fail.
    Question. What roles should nuclear weapons, including the 
traditional nuclear triad, play in U.S. national security policy and 
strategy?
    Answer. The traditional nuclear triad of Intercontinental Ballistic 
Missiles (ICBMs), Submarine-launched Ballistic Missiles (SLBMs), and 
heavy bombers is now one part of the Strike element of the New Triad. 
Nuclear weapon capabilities remain a vital element of U.S. defense 
policy, allowing us to deter a nuclear, biological and chemical weapons 
attack on the United States and our friends and allies. Nuclear 
capabilities can be helpful in assuring our friends and allies of our 
ability to meet our security commitments; dissuading potential 
competitors from threatening U.S. interests or those of our friends and 
allies; deterring threats and countering coercion against the United 
States, its forces, allies, and friends; and, if necessary, defeating 
any adversary decisively if deterrence fails.
    Question. Do you believe that exploration of new nuclear weapons 
concepts is justified?
    Answer. Yes. Although we are not developing any new nuclear weapons 
at this time, if the United States is to maintain an effective 
deterrent, it is critical that scientists and engineers examine ways to 
incorporate new technologies into advanced design concepts if this 
becomes necessary for national security reasons. Such work also helps 
to recruit and retain the high quality scientists we need to maintain a 
nuclear deterrent capability.
    Question. Do you believe that there is a need for the development 
or fielding of new nuclear weapons that are not currently part of the 
stockpile?
    Answer. Currently, there is no requirement to develop and produce 
any new nuclear weapon. In conjunction with the Department of Energy, 
the Department of Defense is studying ways to modify an existing 
gravity bomb to satisfy a long-standing requirement to place at risk a 
growing set of hard and deeply buried targets.
    Question. In your view, will the United States need to resume 
underground nuclear testing in the foreseeable future in order to 
ensure the reliability, safety, and security of United States strategic 
nuclear forces?
    Answer. I support the President's policy to continue the moratorium 
on underground nuclear testing for the foreseeable future. If 
confirmed, I plan to get briefed on the condition of the nuclear 
weapons stockpile, including the effects of age. Each year, experts 
assess the condition of the stockpile to determine if nuclear testing 
is required to resolve a question about the safety and reliability of a 
warhead critical to the U.S. deterrent. I will participate in this 
process and will advise the Secretary accordingly on the need for 
nuclear testing.
    Question. Do you support the moratorium on underground nuclear 
weapons testing? In your view, does unilateral U.S. restraint in 
nuclear weapons development promote nonproliferation and help dissuade 
other nations from similar development activities?
    Answer. Yes, I support the President's policy to continue the 
moratorium on underground nuclear testing for the foreseeable future. 
At the same time, the U.S. must continue to maintain its nuclear 
deterrent and its ability to meet its security obligations to its 
allies and friends. This could include the development of new weapon 
designs should they ever be required. I believe current policy on 
nuclear weapons is consistent with U.S. nonproliferation goals.
                 hard and deeply buried targets (hdbt)
    Question. Many U.S. adversaries are hardening or burying targets of 
interest to the U.S. military.
    In your view, how serious is the challenge posed by hard and deeply 
buried targets to U.S. military capabilities?
    Answer. I am concerned about the number of potential adversaries 
now hardening or burying facilities that support WMD operations. There 
are a growing number of facilities, often associated with weapons of 
mass destruction, that are well beyond the capability of our most 
effective conventionally armed weapons to destroy. The Department of 
Defense must be able to provide the President with options to place 
these facilities at risk.
    Question. Do you believe that the Department's efforts to develop 
the technical means to counter hard and deeply buried targets is 
adequate? Do you believe that the service support of these efforts is 
adequate?
    Answer. The Department has a multi-faceted program to defeat HDBTs 
that includes both advanced conventional capabilities--including 
nonkinetic approaches--and the Robust Nuclear Earth Penetrator study. 
If confirmed, I plan to examine the details of the program further to 
ensure that this effort is adequate.
    Question. If confirmed, what steps would you recommend, if any, to 
strengthen programs, policy, and management relevant to hard and deeply 
buried targets?
    Answer. If confirmed, I plan to examine the details of this multi-
faceted program further to ensure for myself that this effort is 
adequate.
                       ballistic missile defense
    Question. What is your understanding of the nature and extent of 
ballistic missile threats to the United States, its allies and friends, 
and deployed forces?
    Answer. The United States and our allies face serious and 
unpredictable threats and potential adversaries are less predictable 
and more diverse than during the Cold War. The proliferation of 
ballistic missiles and weapons of mass destruction (WMD) is of 
particular concern. Today, roughly two dozen countries, including some 
of the world's least responsible states, possess ballistic missiles and 
some are attempting to obtain missiles of longer range. Many of these 
states also have nuclear, biological, and chemical weapons programs.
    One of the key reasons potential adversaries seek ballistic 
missiles is because we have no defenses against long-range missiles, 
and limited defenses against shorter-range missiles. Absent defenses, 
even primitive ballistic missiles can deliver devastating WMD attacks 
against population centers. Potential adversaries see these weapons as 
a means for exploiting an obvious U.S. and allied vulnerability. For 
example, North Korea continues to develop and deploy ballistic 
missiles, has deployed significant WMD capability, and threatens to 
expand its nuclear capability. North Korea continues to work on the 
Taepo Dong II long-range missile capable of reaching the United States 
with a nuclear weapon-sized payload. The Taepo Dong II could be flight-
tested at any time. North Korea is also the world's foremost 
proliferator of ballistic missiles and has a track record of selling 
these weapons to some of the world's least responsible states. It has 
deployed--and sold--missiles with little testing. Hence, missile 
threats can emerge with little or no warning. Iran and other countries 
also are working on space-launch vehicles and long-range missiles that 
could be ready for testing in the next few years.
    Question. From the perspective of the warfighter, do you believe 
that the spiral acquisition of ballistic missile defenses through 
concurrent fielding, development, testing, and operation is 
appropriate?
    Answer. The Department's approach to developing and fielding 
missile defense has been consistent with the goal of transforming U.S. 
military forces and adopting a capabilities-based approach to planning. 
We begin with the recognition that we face serious and uncertain 
threats and that potential adversaries are less predictable and more 
diverse than during the Cold War.
    In applying capabilities-based planning to missile defense, we 
concluded that an evolutionary or spiral approach to acquiring and 
fielding missile defense was the best way to address ballistic missile 
threats in a dynamic and unpredictable security environment. This 
approach to the acquisition and fielding of missile defenses will 
provide advanced capabilities to the warfighter, while we continue to 
pursue follow-on improvements to meet the changing threats. Fielding 
modest capabilities in the near-term will provide not only timely 
defensive coverage, it also will allow operational input from combatant 
commanders. This is especially important for the missile defense 
mission where there is little previous operational experience to serve 
as a guide.
    There are several good examples where we have taken a similar 
approach to the timely fielding of limited capabilities still in 
development, such as the Predator Unmanned Aerial Vehicle (UAV) and the 
Joint Surveillance and Target Attack System (JSTARS). As we begin 
missile defense operations, this step does not indicate a reduction in 
aggressive development and testing activities. Rather, the Department 
will continue a robust development effort, and will use test results to 
improve existing capabilities, field new ones, and gain even greater 
confidence in operating missile defenses.
    Question. In your view, how important are international cooperative 
efforts to achieving effective missile defenses? What steps, if any, 
should be taken to strengthen such efforts?
    Answer. As the President has said, it is essential that we work 
together with allies and friends to defend against the shared ballistic 
missile threat we face. Accordingly, the Department of Defense is 
developing and deploying missile defenses capable of protecting not 
only the United States and our deployed forces, but also our friends 
and allies. We have taken a number of steps to strengthen cooperative 
efforts. For example, the Defense Department has structured the missile 
defense program in a manner that encourages participation by other 
nations. Countries can participate at varying levels of involvement, up 
to and including co-development and production of various systems. 
Other countries might also provide in-kind contributions, such as 
territory and facilities upon which to build components of our missile 
defense system.
                                 space
    Question. The National Defense Authorization Act for Fiscal Year 
2004 included a provision establishing as national policy support for 
two space launch vehicles or families of space launch vehicles capable 
of launching national security payloads.
    Do you agree with this policy?
    Answer. I do. The Department of Defense and the National 
Aeronautics and Space Administration (NASA) are responsible for 
ensuring access to space for critical national security and civil space 
missions, respectively. Ensuring access to space means they will 
provide a sufficiently robust, responsive and resilient capability to 
allow continued space operations. Currently, this means maintaining the 
two Evolved Expendable Launch Vehicle (EELV) launch service providers.
    Question. If confirmed, what capabilities and programs would you 
prioritize to ensure U.S. access to space?
    Answer. The United States' ability to deter adversaries and, if 
deterrence fails, to project power across the globe is dependent on our 
access to space and assured, protected operations in space. The 
capabilities required to ensure access to space include our current 
launch vehicle programs, launch ranges, satellite control network, 
responsive launch, and flexible / protected space systems.
    Question. What further policy actions, if any, do you believe are 
needed to support assured access to space?
    Answer. The security and well being of the United States, our 
allies, and friends depend on our ability to operate in space. Our 
increasing dependence on space and the vulnerability it creates require 
us to have the means to deter and dissuade threats to our National 
interests in space. If confirmed, I intend to be briefed extensively on 
U.S. space launch capability and other programs required to ensure 
assured access to space. I understand the administration has included 
in its ongoing strategic review the range of capabilities necessary to 
implement this policy, and I support this effort.
    Question. Current U.S. national security space policy states that 
the United States should have the ability to use space to support its 
national security interests and the ability to deny the use of space to 
its adversaries.
    Do you support current U.S. national security space policy?
    Answer. Yes. Although currently under review, the 1996 National 
Space Policy continues to provide policy and guidance for the conduct 
of our Nation's space activities. This presidential directive states 
that ``consistent with treaty obligations, the United States will 
develop, operate, and maintain space control capabilities to ensure 
freedom of action in space and, if directed, deny such freedom of 
action to adversaries. These capabilities may also be enhanced by 
diplomatic, legal, or military measures to preclude an adversary's 
hostile use of space systems and services.'' I agree with the 
Commission to Assess United States National Security Space Management 
and Organization that ``the broad outline of U.S. national space policy 
is sound.'' If confirmed, I look forward to working with Congress and 
my administration colleagues to ensure that our national space policy 
provides a coherent approach and clear direction for advancing our 
interests in space.
    Question. What, in your view, are the policy implications of 
current and anticipated threats to U.S. space systems?
    Ensuring our freedom of action in space and protecting U.S. 
national security interests there are priorities for our space-related 
activities. U.S. space systems are national property afforded the right 
of passage through and operations in space without interference. In 
this regard, space is much like the high seas and international 
airspace. The political, military, and economic value of the Nation's 
activities in space may provide a motive for an adversary to attempt to 
counter U.S. space advantages. Purposeful interference with U.S. space 
systems would be viewed as an infringement on our sovereign rights. The 
United States must be prepared to take all appropriate self-defense 
measures, including, if directed by the President and Secretary of 
Defense, the use of force, to respond to such an infringement on our 
rights.
    What role, if any, should arms control play a role in protecting 
U.S. space systems?
    Answer. The Outer Space Treaty provides certain basic rules. In 
addition, the Strategic Arms Reduction Treaty (START) and Intermediate-
Range Nuclear Forces (INF) Treaty prohibit interference with National 
Technical Means of Verification. At this time, the United States does 
not see any need for additional arms control measures. Any new arms 
control measure must be equitable and effectively verifiable, and must 
enhance the security of the United States and our allies. In the 
context of space, these are difficult to achieve.
                              arms control
    Question. Arms control has been a prominent feature in U.S. 
security policy in the past, but clearly the international security 
landscape has changed dramatically in the past decade.
    What is your view of the current significance of arms control 
efforts, and the proper role of arms control in U.S. national security 
strategy?
    Answer. Arms control agreements must be considered in the context 
of our national security requirements. Most existing arms control 
agreements were negotiated during, and are a product of, the Cold War. 
Our national security requirements have evolved since then. As an 
example, on the whole, the Anti-Ballistic Missile (ABM) Treaty was no 
longer a net benefit to our national security; therefore, the President 
decided to withdraw from the treaty, with no negative effects. The 
Moscow Treaty codified with Russia a decision that the United States 
had already made to reduce its strategic weapons to levels that we 
believe were necessary for the security of the United States. To be 
effective, arms control treaties must be based on all parties' 
willingness to comply with the limitations of the treaty, and must, in 
fact, control the arms they are designated to control. In some cases, 
traditional arms control agreements can provide the legal underpinning 
for non-traditional methods of controlling the spread of dangerous 
weapons. For example, the Nuclear Nonproliferation Treaty, the Chemical 
Weapons Convention, and the Biological Weapons Convention are the legal 
bases behind other efforts, such as the Proliferation Security 
Initiative, the Australia Group, and the Nuclear Suppliers Group.
    Question. What in your view are the opportunities for arms control 
with respect to nuclear, chemical, and biological weapons and their 
means of delivery?
    Answer. Nuclear weapons: The emphasis in the upcoming year for the 
Nuclear Nonproliferation Treaty (NPT), including the 5-year Review 
Conference in May 2005, will be on dealing with the main threat to the 
global nonproliferation regime--parties to the treaty that cheat. In 
the case of Iran, we will continue to work through the International 
Atomic Energy Agency (IAEA) Board of Governors and, eventually, the 
U.N. Security Council. The Democratic People's Republic of Korea 
(DPRK), which announced its withdrawal from the Treaty in 2003, will be 
dealt with in the context of the Six Party Talks. Elsewhere, we have 
begun initiatives to support the IAEA. President Bush outlined these 
objectives in his February 2004 speech on combating WMD proliferation, 
and these objectives will remain a major focus of our international 
efforts.
    Chemical weapons: We will continue to meet our own Chemical Weapons 
Convention (CWC) obligations while pushing for universal adherence to 
the CWC. We will also continue to work closely with the Organization 
for the Prohibition for Chemical Weapons in the world-wide 
implementation of the CWC and the monitoring of Russia's CW destruction 
progress. Additionally, we remain committed to ensuring all member-
States meet their CWC obligations, including the institution of 
implementing legislation that criminalizes violations of the 
Convention. We will continue to support the work of the Australia Group 
to limit the transfers of chemical and biological weapons technologies 
and precursors.
    Biological weapons: The Biological Weapons Convention (BWC) 
establishes an important norm against the development, production, 
acquisition and stockpiling of biological weapons. However, given the 
nature of biological weapons and biotechnology, the Convention is 
inherently unverifiable. We will continue to push for universal 
adherence to the BWC and pursue initiatives that leverage existing 
mechanisms and national actions by States to combat the threat of 
biological weapons. The Department of Defense is actively engaged, 
along with other Departments, in the 2003-2005 BWC Work Program. This 
type of effort has and will continue to produce useful results.
    Delivery systems: Although there is no international treaty 
controlling the development and spread of ballistic missiles and cruise 
missiles, we do have several tools at our disposal to limit their 
proliferation. We will continue our strong support of the Missile 
Technology Control Regime, which serves an important role in 
coordinating the export controls of countries with the potential to be 
suppliers of missiles and missile-related items. We will also continue 
encouraging states to end their missile and defense-related trade with 
proliferators like North Korea.
    In addition to the treaties covering nuclear, chemical, and 
biological weapons that are the backbone of our nonproliferation 
efforts, we will also use complementary mechanisms to address 
proliferation problems. For example, we recently worked successfully 
through the United Nations Security Council (UNSC) to advance the fight 
against weapons of mass destruction through the adoption of UNSC 
Resolution 1540 on nonproliferation.
                proliferation security initiative (psi)
    Question. If confirmed, would you have a role in policy formulation 
and implementation of the PSI? If so, what would your role be?
    Answer. If confirmed, I would have a leading role in the policy 
formulation and implementation of the PSI. The Office of the Assistant 
Secretary of Defense for International Security Policy has been 
responsible for formulating and implementing PSI within the Department 
of Defense since the President announced this initiative in May 2003. 
The head of the U.S. delegation to the Operational Experts Group of the 
PSI will be under my supervision, and I will provide that person with 
policy guidance on how to improve PSI's operational focus internally 
within the Department and within the U.S. Government, while interacting 
with PSI experts from other governments. We will work closely with the 
Joint Staff, the Military Departments, the combatant commands, and the 
other agencies within the USG to strengthen and expand under the PSI 
efforts to stem the proliferation of WMD, their delivery systems, and 
related materials.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. As a political appointee, I consider it my duty to be an 
advocate for the policies of the administration. However, I will always 
be prepared to provide my best professional judgment when asked.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for International Security Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Jack Reed
    1. Senator Reed. Mr. Flory, please explain your role in the 
planning and execution of the war in Iraq.
    Mr. Flory. Since July 2001, I have served as Principal Deputy 
Assistant Secretary of Defense for International Security Affairs 
(ISA). In this capacity, I serve as the senior deputy to the Assistant 
Secretary for ISA, and as a senior advisor to the Under Secretary of 
Defense for Policy (USDP) and the Secretary of Defense. ISA is 
responsible for regional political-military policy for Africa, Asia-
Pacific, Near East and South Asia, and the Western Hemisphere. Within 
ISA, the Deputator of Near Eastern and South Asian Affairs (NESA), 
headed by a Deputy Under Secretary, is responsible for Iraq.
    The USDP does not conduct war planning or execute war plans. The 
USDP and his staff (including ISA) advise the Secretary of Defense 
regarding policy guidance for the preparation and review of operational 
and contingency plans prepared by the combatant commanders, and in 
reviewing such plans in collaboration with the Joint Staff.
    Within that context, I was aware of and participated in the 
development of overall U.S. policy toward Iraq. Because of the breadth 
of my responsibilities as Principal Deputy, overseeing the full range 
of regional policies in ISA, my involvement in the day-to-day 
deliberations that developed policy guidance for the preparation of 
operational and contingency plans for Iraq was limited. The bulk of 
this work was conducted by the NESA's Directorate of Northern Gulf 
Affairs (officially known from summer 2002 to spring 2003 as the 
Directorate of Special Plans). While NESA is part of ISA, because of 
the salience and sensitivity of the work on Iraq during that period, 
much of the work was directly overseen by the USDP.
    In addition, before and during major combat operations in Iraq, in 
the spring of 2003, I served in the U.S. embassy in Tel Aviv as the 
senior civilian member of a civilian-military team that provided 
liaison between the U.S. Department of Defense and the U.S. Central and 
European Commands, and the Israeli Ministry of Defense.
                                 ______
                                 
    [The nomination reference of Peter C.W. Flory follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 1, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Peter Cyril Wyche Flory of Virginia, to be an Assistant Secretary 
of Defense, vice Jack Dyer Crouch II.
                                 ______
                                 
    [The biographical sketch of Peter C.W. Flory, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Peter C.W. Flory
    Peter C.W. Flory became Principal Deputy Assistant Secretary of 
Defense for International Security Affairs in July 2001. In this 
capacity, he serves as the principal assistant to the Assistant 
Secretary for International Security Affairs, who is the principal 
advisor to the Secretary of Defense on the formulation and coordination 
of international security strategy and policy for East Asia, South 
Asia, the Middle East and Persian Gulf, Africa, and Latin America.
    From April 1997 to July 2001, Mr. Flory was Chief Investigative 
Counsel and Special Counsel to the Senate Select Committee on 
Intelligence (SSCI). Mr. Flory had responsibility for the People's 
Republic of China and other regional issues, as well as 
counterintelligence, covert action, denial and deception, and other 
intelligence oversight matters.
    An Honors Graduate of McGill University, Mr. Flory received his law 
degree from Georgetown University Law Center. After working as a 
journalist, he served as a national security advisor to members of the 
House Foreign Affairs Committee and Senate Defense Appropriations 
Subcommittee. From 1989 to 1992, Mr. Flory served as the Special 
Assistant to Under Secretary of Defense for Policy Paul D. Wolfowitz. 
From 1992 to 1993, he was an Associate Coordinator for Counterterrorism 
in the Department of State with the rank of Deputy Assistant Secretary. 
From 1993 until he joined the SSCI staff in 1997, Mr. Flory practiced 
law with the firm of Hughes, Hubbard & Reed LLP.
    Mr. Flory speaks German and French. He and his wife Kathleen have 
six children, and reside in Nokesville, Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Peter Cyril 
Wyche Flory in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Cyril Wyche Flory.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Policy.

    3. Date of nomination:
    June 1, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 16, 1955; Pinehurst, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Kathleen M. McGovern.

    7. Names and ages of children:
    Henry (17), Seamus (16), Fiona (13), Xavier (11), Isabelle (9), and 
Mairead (4).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Marks School, Southborough, MA; High School Diploma; 1973.
    McGill University, Montreal, Canada; B.A. with Joint Honors; 1979.
    Colombia University Graduate School of Journalism (1979-1980); No 
degree.
    Georgetown University Law Center; J.D.; 1993.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary of Defense For International 
Security Affairs (July 2001-Present), U.S. Dept. of Defense, 4E841 
Pentagon, Washington, DC.
    Special Counsel/Chief Investigative Counsel (April 1997-July 2001), 
Senate Select Committee on Intelligence, SH-211 U.S. Senate, 
Washington, DC.
    Attorney, Hughes Hubbard & Reed LLP (Feb. 1993-April 1997), 1300 I 
St. NW (now located at 1775 I St. NW), Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Associate Coordinator for Counterterrorism (Jan. 1992-Jan. 1993), 
U.S. Department of State.
    Special Assistant to Under Secretary of Defense for Policy (Dec. 
1989-Jan. 1992), U.S. Department of Defense.
    Legislative Assistant for National Security (Aug. 1987-Dec. 1989), 
Sen. James McClure, U.S. Senate.
    Legislative Assistant for Foreign Affairs and Defense (Aug. 1986-
Aug. 1987), Rep. Olympia Snowe, U.S. House of Representatives.
    Legislative Assistant (May 1985-Aug. 1986), Rep. Bobbi Fiedler, 
U.S. House of Representatives.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Henry C. Flory Family LLC, 120 Applecross Road, Pinehurst, 
NC.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member (Currently Inactive) DC Bar.
    Member (Currently Inactive) Pennsylvania Bar.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    George W. Bush Campaign 2000--$250.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Op-Ed ``Keeping Counterterrorism A Serious Priority,'' Washington 
Times, April 20, 1994.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have not given any formal speeches in the last 5 years.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Peter C.W. Flory.
    This 23th day of June, 2004.

    [The nomination of Peter Cyril Wyche Flory was reported to 
the Senate by Chairman Warner on September 30, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was placed on the executive calendar but not acted upon prior 
to adjournment sine die of the 108th Congress.]
                              ----------                              

    [Prepared questions submitted to Valerie Lynn Baldwin by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the enactment and objectives of these 
defense reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. It appears that these reforms have resulted in significant 
improvements by defining the roles and responsibilities of the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, and 
the Service Secretaries.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The key result was the strengthening of the effectiveness 
of military operations, which was accomplished by strengthening 
civilian control and better defining responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. I am not aware of any current proposals to amend Goldwater-
Nichols. It is too early for me to comment about any proposals without 
additional evaluation and insight.
duties of the assistant secretary of the army for financial management 
                            and comptroller
    Question. The duties of the Assistant Secretary of the Army for 
Financial Management and Comptroller are set forth in section 
3016(b)(4) and 3022 of title 10, United States Code. The Assistant 
Secretary of the Army for Financial Management and Comptroller has 
principal responsibility for the exercise of the comptroller functions 
of the Department of the Army, including financial management 
functions.
    What is your understanding of the duties and functions of the 
Assistant Secretary of the Army for Financial Management and 
Comptroller?
    Answer. If confirmed, I will be responsible for advising the 
Secretary of the Army on financial matters and directing all 
Comptroller and Financial Management functions of the Department of the 
Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my background qualifies me to serve as Assistant 
Secretary of the Army (Financial Management and Comptroller). I have 
significant experience in the legislative process, from both 
appropriations and authorization perspectives, and understand the 
oversight role of Congress in financial matters. I have made extensive 
visits to Army installations throughout the world and have an 
appreciation of the needs facing the Army and the challenges to finance 
them. My education in law gives me a solid foundation to build upon.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Army for Financial Management and Comptroller?
    Answer. I am always looking to improve my skills and understanding 
of fiscal issues. If confirmed, I will need to gain a better 
understanding of the Army's challenges.
                             relationships
    Question. What do you see as the relationship between the Assistant 
Secretary of the Army for Financial Management and Comptroller and each 
of the following?
    The Secretary of the Army
    Answer. The Assistant Secretary of the Army (Financial Management 
and Comptroller) is the principal advisor to the Secretary of the Army 
on financial matters and directs Comptroller and Financial management 
functions of the Department of the Army.
    Question. The Under Secretary of the Army
    Answer. My relationship to the Under Secretary would mirror that of 
the Secretary of the Army.
    Question. The Under Secretary of Defense (Comptroller)
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Comptroller) to ensure the Army financial management and 
comptroller policies dovetailed with those of the office of the Under 
Secretary of Defense (Comptroller).
    Question. The Assistant Secretary of Defense Networks and 
Information Integration/Chief Information Officer
    Answer. Financial Management systems are the critical link in 
enabling the Army to perform accurate, timely financial management and 
are crucial in auditable financial statements. The Army's financial 
managers need to include the Chief Information Officer in all financial 
management system planning and decisionmaking.
    Question. The Director, Office of Program Analysis and Evaluation 
(PA&E)
    Answer. If confirmed, I will support the Director, Office of 
Program Analysis and Evaluation in fulfilling his or her role of 
providing independent assessments. I will also work with the Director, 
PA&E to ensure the success of the Planning, Programming, Budgeting, and 
Execution (PPBE) process.
    Question. The Chief of Staff of the Army
    Answer. If confirmed, I would work closely with the Chief of Staff 
of the Army on resourcing and financial management issues.
    Question. The other Assistant Secretaries of the Army
    Answer. My relationship with the other Assistant Secretaries would 
support the responsibility I would have, if confirmed, to advise the 
Secretary of the Army on financial matters and direct all Comptroller 
and Financial Management functions and activities of the Department of 
the Army.
    Question. The General Counsel of the Army
    Answer. I will consult and coordinate with the General Counsel on 
all legal matters and financial management and comptroller issues 
requiring legal review.
    Question. The Assistant Secretaries for Financial Management of the 
Navy and Air Force
    Answer. If confirmed, I will work with the Navy and Air Force 
Assistant Secretaries for Financial Management to serve as the Army 
financial management liaison to the Office of the Under Secretary of 
Defense (Comptroller).
    Question. The Deputy Chief of Staff (G-5) of the Army
    Answer. Not applicable to the Army.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Financial Management 
and Comptroller?
    Answer. Any Assistant Secretary of the Army for Financial 
Management will be challenged to improve financial management systems 
and processes, to include finance, accounting, budget, and feeder 
systems to provide accurate, reliable and timely financial information. 
The Army will also be challenged to ensure adequate funds are available 
to fight and win the global war on terrorism while maintaining the Army 
as the best trained and equipped force in the world. The Army must 
continue to develop consistent and executable budgets that support the 
priorities of the Secretary of Defense and the Secretary of the Army, 
under the guidance of the President.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller) and our sister Services, and the Army 
leadership team to achieve a unified approach to addressing challenges. 
I will make every effort to ensure that sufficient resources and 
financial management information are available to successfully address 
issues.
    Question. What are the financial management personnel issues you 
foresee as challenges and, if confirmed, what actions do you intend to 
initiate to address those challenges?
    Answer. I am not aware of specific problems or issues. However, I 
am convinced that having and maintaining quality personnel is key to 
the success of the Army.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army for Financial Management and Comptroller?
    Answer. If confirmed, I would establish priorities for preparation 
of auditable financial statements, preparation of fully justified 
budget submissions and development of streamlined/efficient financial 
systems compliant with joint architectures. If confirmed, I would work 
hard to ensure that adequate funds are available to support our Army to 
fight and win the global war on terrorism and take care of soldiers and 
their families.
         civilian and military roles in the army budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Army for 
Financial Management and Comptroller and the senior military officer 
responsible for budget matters in the Army Financial Management and 
Comptroller office in making program and budget decisions, including 
the preparation of the Army Program Objective Memorandum, the annual 
budget submission, and the Future Years Defense Program?
    Answer. If confirmed as the Assistant Secretary of the Army 
(Financial Management and Comptroller), I will have responsibility for 
all budget matters within the Department of the Army. The senior 
military officer who serves as the Military Deputy will serve under my 
direct supervision. Additionally, if confirmed, I will have formal 
oversight responsibility for the Secretary for all financial aspects of 
the Program Objective Memorandum preparation and the Army portions of 
the annual President's budget submission, along with all the entries in 
the Future Years Defense Program (FDYP).
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and inefficiencies, problems with financial data 
continue.
    What do you consider to be the top financial management issues to 
be addressed by the Department of the Army over the next 5 years?
    Answer. The Army must have financial management systems that 
provide accurate, timely, and reliable information for use in making 
business decisions regarding the allocation of resources during the 
year of execution and over the program years. To properly address these 
issues, the Army needs to replace inefficient non-integrated systems 
and processes with modern solutions and best practices that fit within 
the Department of Defense Business Enterprise Architecture. I believe 
the Department of the Army must improve the delivery of pay services to 
soldiers, and improve financial management systems and processes.
    Question. If confirmed, how do you plan to provide the needed 
leadership and commitment necessary to ensure results and improved 
financial management in the Army?
    Answer. If confirmed, I will work closely with the Army leadership, 
the office of the Under Secretary of Defense-Comptroller, and the 
Defense Finance and Accounting Service to improve our financial 
management practices.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Army's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and the anticipated results are being achieved?
    Answer. Key performance measures include timely, relevant, and 
accurate financial information that is capable of obtaining a favorable 
audit. If confirmed, I will enlist the support of the Army's leadership 
to establish additional logical, useful, and relevant performance 
measures.
                    budget justification information
    Question. If confirmed, what changes do you intend to initiate to 
improve the timeliness, adequacy, and accuracy of the Budget 
Justification books provided to Congress by the Army?
    Answer. It is premature for me to offer any specific changes to the 
process used to develop the Budget Justification books. I fully 
understand the need to submit relevant justification material in enough 
detail to permit Congress to carry out their constitutional duties. I 
have seen improvements in the Army's justification materials and if 
confirmed, will continue the efforts underway to improve them.
                        dod financial management
    Question. The GAO has reported that DOD lacks the necessary 
integrated accounting systems to properly control assets and control 
costs. DOD has acknowledged that overall, its reported network of 167 
critical financial management systems does not comply with the Federal 
Financial Management Improvement Act's Federal financial management 
systems requirements. (GAO Report: DOD Financial Management--Integrated 
Approach, Accountability, and Incentives Are Keys to Effective Reform, 
May 8, 2001).
    If confirmed, how do you intend to improve the Department of the 
Army's financial management system?
    Answer. If confirmed, I will ensure that the Army works closely 
with the Business Management Modernization Program Office on the 
improvement of financial systems, and that these improvements align 
with the DOD Business Enterprise Architecture.
    Question. If confirmed, would you support the consolidation and 
integration of the Department of Defense's reported network of 167 
critical financial management systems even if it means that the Army 
would lose direct supervisory control of its service-financial 
management systems?
    Answer. Yes, I think that DOD and the Army need to consolidate and 
integrate critical financial management systems. This effort needs to 
leverage commercially available technological solutions and supporting 
business practices. The Army has transferred direct supervisory control 
of financial management systems to the Defense Finance and Accounting 
Service. I believe it is important that the Army be actively engaged in 
the implementation and operation of financial management systems.
              sufficiency of financial management systems
    Question. What do you consider to be the most critical shortfall in 
the Department of Defense's and Department of the Army's financial 
management systems?
    Answer. The lack of a compliant, integrated accounting and 
financial management system is one area of concern and will be an area 
I intend to address if I am confirmed.
    Question. If confirmed, what private business practices would you 
advocate for adoption by the Department of Defense and Department of 
the Army?
    Answer. One private sector area that holds significant potential 
for DOD is to adopt commercially available software products, and 
associated business practices. If confirmed, I will ensure that these 
products comply with the Department's Business Enterprise Architecture 
and applicable policy guidance and objectives of the Department.
    Question. What are your views on privatizing the military pay 
system?
    Answer. In general, I am open to the privatization of non-core 
business functions in accordance with the President's Management 
Agenda. However, I would have to understand the details of any 
privatization plan, and ensure that this critical function is 
implemented correctly.
            improper use of first and business class travel
    Question. The GAO recently reported that breakdowns in internal 
controls resulted in improper first and business class travel by 
Department of Defense employees, and increased costs to taxpayers.
    What actions has the Department of the Army taken in response to 
this report?
    Answer. Internal controls are essential. If confirmed, I will 
ensure that the Army implements policies to correct internal control 
problems.
                  travel and government purchase cards
    Question. The increased use of government travel and purchase cards 
were significant financial and acquisition reform initiatives of the 
past decade. Concerns, however, have been raised in the past several 
years about the controls put in place for both the travel and purchase 
cards.
    What is the status of Army efforts to ensure that proper controls 
are in place that will not jeopardize the benefits accrued from the 
proper use of these cards?
    Answer. If confirmed, I will work with the Army's acquisition 
community to ensure effective policies and controls are in place, and 
that these controls provide for the detection of problems and enable 
managers to monitor program performance.
                          inventory management
    Question. Do you believe that the Army has adequate information 
about and controls over its inventory?
    Answer. At this point I have not studied in detail the Army's 
inventory policies, procedures, and challenges. I recognize that sound 
inventory management is a critical component in ensuring organizational 
effectiveness and efficiency. Inventory management is also essential to 
achieving accurate financial statements.
    Question. If not, what steps would you take, if confirmed, to 
improve inventory management?
    Answer. Learning about the Army inventory management policies, 
procedures, and challenges and seeking ways to make improvements will 
be one of my top priorities if I am confirmed.
               business management modernization program
    Question. For the past 3 years, the administration has pursued a 
Business Management Modernization Program (BMMP) aimed, in part, at 
correcting deficiencies in the Department of Defense's financial 
management and ability to receive an unqualified ``clean'' audit. Two 
years ago, Under Secretary of Defense (Comptroller) Zakheim testified 
before the Readiness Subcommittee that the Department of Defense's 
financial management modernization would be complete by 2007. By that 
time, he stated, that the Department would be able to provide a full, 
repeatable accounting of resources and funding.
    Do you expect the Army to meet that 2007 time line for financial 
modernization?
    Answer. I have not been involved in the Army's efforts to meet the 
2007 deadline for financial modernization. If confirmed, I will support 
the Army's efforts to obtain a ``clean'' audit by 2007. I will reserve 
judgment, however, on the time needed to modernize Army financial 
management until I have an opportunity to assess the Army's plans and 
progress.
    Question. Do you support continuing the BMMP?
    Answer. I would like to gain a better understanding of the BMMP 
before making a judgment on this critical matter. If confirmed, I will 
work closely with Congress to address Army plans and progress.
    Question. The BMMP advocates top-down leadership in establishing an 
enterprise architecture for business systems modernization. The 
Services, however, appear to be pursuing independent pilot programs for 
modernizing business systems, despite the risk that a Service-led 
approach could produce numerous incompatible systems.
    Do you support an OSD-led approach to business modernization?
    Answer. I believe it is important for DOD to develop the Business 
Enterprise Architecture for implementation across the entire 
Department. The Army and other Services need to participate in and 
support this effort.
    Question. If so, what would you do, if confirmed, to ensure that 
the Army supports such an approach?
    Answer. I will ensure that the Army is fully engaged and actively 
participates in development of the Business Enterprise Architecture, 
and that all Army modernization programs comply with the architecture's 
requirements.
    Question. A critical requirement of the BMMP is an ``enterprise 
architecture'' that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    Why is establishing an effective enterprise architecture so 
important?
    Answer. Though not an information technologies specialist, I 
believe an effective enterprise architecture is important because it 
provides the blueprint necessary to enable the Department's business 
systems to operate in an integrated, cohesive manner. An enterprise 
architecture provides the business rules that must be followed by all 
business applications throughout the Department to enable the needed 
integration.
    Question. When can Congress expect to see a fully developed 
enterprise architecture?
    Answer. I am not familiar with the current schedule but will work 
with DOD to ensure the enterprise architecture is developed and 
implemented in an efficient manner.
                     gao recommendations for reform
    Question. In testimony before the Readiness and Management Support 
Subcommittee this year, the Comptroller General of the United States, 
David M. Walker, offered two suggestions for legislative consideration 
which, in his words, are intended ``to improve the likelihood of 
meaningful, broad-based financial management and related business 
reform at DOD.'' These included establishing a senior management 
position in the Department of Defense to spearhead Department-wide 
business transformation efforts, and giving the leaders of the 
Department's functional areas, or ``domains,'' control of systems 
investments.
    What is your view of these suggestions?
    Answer. I have not developed an opinion on these recommendations 
and will need to study their details before making a judgment.
    Question. Mr. Walker testified that the Department of Defense 
should fix its financial management systems before it tries to develop 
auditable financial statements. He explained that: ``Given the size, 
complexity, and deeply ingrained nature of the financial management 
problems facing DOD, heroic end-of-the-year efforts relied on by some 
agencies to develop auditable financial statement balances are not 
feasible at DOD. Instead, a sustained focus on the underlying problems 
impeding the development of reliable financial data throughout the 
Department will be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. I am unaware of all of the factors that led Mr. Walker's 
conclusion and, if confirmed, would review them in depth before making 
a final assessment. Certainly identifying the source of the problems, 
creating solutions to address the problems, and maintaining good 
practices across all financial management systems are important steps 
to develop.
                 reserve component military pay systems
    Question. The GAO recently completed a report that identified 
extensive problems with the National Guard's pay system. Modernizing 
the military payroll system is part of the longer term Business 
Management Modernization Program, however, it is essential that 
corrections be made immediately in this system to minimize personal 
hardships on deployed Guardsmen, reservists and their families.
    If confirmed, what would you do to address these pay problems in 
both the short and long term?
    Answer. I firmly believe that all soldiers--active, Guard, and 
Reserve--should be paid the right amount and on time. I will work with 
the Army leadership, particularly those in the personnel arena, DOD, 
and Defense Finance and Accounting Service (DFAS) to ensure immediate 
corrections in the payroll system are made that enable all soldiers to 
be paid the right amount and on time. If confirmed, I would make it a 
priority to work with OSD to work on and correct problems in the 
military payroll system.
                          base closure savings
    Question. The Department has asserted that additional base closures 
are needed to bring the Department's base structure in line with its 
force structure.
    In your view, have the previous base closure rounds resulted in 
significant savings for the Department of the Army?
    Answer. According to the General Accounting Office reports, 
previous base realignment and closure (BRAC) rounds have generated 
savings over time. There are, of course, significant up front costs to 
closing bases, but these are generally offset by the long-term savings.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S. Code, is necessary before funds for operations 
and maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense and Department of the Army?
    Answer. The U.S. Code specifies that such authorization is 
necessary before funds for the appropriations listed above may be 
obligated or expended. If confirmed, I will follow the policies and 
procedures directed by the Under Secretary of Defense (Comptroller) in 
dealing with any specific line items, which might fall under the 
``appropriated but not authorized'' category.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. As a political appointee, I consider it my duty to be an 
advocate for the policies of the administration. However, I will always 
be prepared to provide my best professional judgment when asked.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Financial Management and Comptroller?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Valerie Lynn Baldwin follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      July 8, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Valerie Lynn Baldwin, of Kansas, to be an Assistant Secretary of 
the Army, vice Sandra L. Pack, resigned.
                                 ______
                                 
    [The biographical sketch of Valerie Lynn Baldwin, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

              Biographical Sketch of Valerie Lynn Baldwin

    Valerie Lynn Baldwin has been a member of the 
Appropriations Committee Staff of the United States House of 
Representatives since 1996, serving most recently as the Clerk 
of the Military Construction Subcommittee. From 1996 until 
moving to the Military Construction Subcommittee in 2001, she 
was a staff assistant on the Veterans Affairs, Housing and 
Urban Development and Independent Agencies Subcommittee.
    Ms. Baldwin also served as the Legislative Counsel to the 
Housing Subcommittee of the Financial Services Committee from 
1993 to 1996. Prior to 1993 she served as a trial attorney at 
the Department of Housing and Urban Development and a 
legislative assistant on the staffs of Senator Nancy Landon 
Kassebaum and Senator John Glenn.
    Ms. Baldwin received her law degree from the University of 
Kansas School of Law, her master's degree from the London 
School of Economics and Political Science, her bachelor's 
degree from Wichita State University, and her associate's 
degree from Seward County Community College.
    Ms. Baldwin is the daughter of Annette Lemert of Liberal, 
Kansas, and Chuck Baldwin of Wichita, Kansas. She attends Saint 
Albans Church and is the proud godmother of five children.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Valerie Lynn 
Baldwin in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Valerie Lynn Baldwin.
    Valerie Lynn Olson.

    2. Position to which nominated:
    Assistant Secretary of the Army for Financial Management and 
Budget.

    3. Date of nomination:
    July 8, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 10, 1961; Wichita, Kansas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Liberal High School, 1976-1979, diploma awarded in May 1979.
    Seward County Community College, September 1979-May 1981, Associate 
of Science degree conferred in May 1981.
    Wichita State University, September 1981-May 1983, Bachelor of Arts 
degree conferred in May 1983.
    London School of Economics and Political Science, September 1983-
September 1984, Master of Science in Politics degree conferred in 
September 1984.
    University of Kansas School of Law, September 1988-May 1991, Juris 
Doctorate degree conferred in May 1991.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2001 to present, Clerk, Military Construction Subcommittee, 
Appropriations Committee, U.S. House of Representatives, Washington, 
DC.
    1996-2001, Staff Assistant, VA, HUD, and Independent Agencies 
Subcommittee, Appropriations Committee, U.S. House of Representatives, 
Washington, DC.
    1993-1996, Legislative Counsel, Housing Subcommittee, Banking and 
Financial Services Committee, U.S. House of Representatives, 
Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Saint Albans Church
    Phi Theta Kappa Honor Society
    Phi Theta Kappa Alumni Organization
    Daughters of the American Revolution
    Gamma Phi Beta Alumni Association
    P.E.O.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Alumnus, Kansas Phi Theta Kappa, 1996.
    Achievement Award and Commissioner's Award, Department of Housing 
and Urban Development, 1992.
    Arnold-Wittenberg Fellowship, Gamma Phi Beta, 1988.
    Rotary International Fellow, The London School of Economics, 1983.
    Scanlon Scholar, Wichita State University, 1983.
    Presidential Scholar, Wichita State University, 1982, 1983.
    Emory Lindquist Scholar, Wichita State University, 1982, 1983.
    Mortar Board, Wichita State University, 1983.
    Founding member of Beta and Gamma of Kansas Phi Theta Kappa Alumni 
chapters.
    National President and North Central Vice President, Phi Theta 
Kappa, 1980.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    As a professional staff member of the committees listed in question 
#9, I was involved with the development and publishing of various 
reports and bills developed by the committee.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Valerie L. Baldwin.
    This 13th day of July, 2004.

    [The nomination of Valerie Lynn Baldwin was reported to the 
Senate by Chairman Warner on July 22, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 22, 2004.]


   NOMINATIONS OF DR. FRANCIS J. HARVEY TO BE SECRETARY OF THE ARMY; 
RICHARD GRECO, JR., TO BE ASSISTANT SECRETARY OF THE NAVY FOR FINANCIAL 
MANAGEMENT; AND GEN. GREGORY S. MARTIN, USAF, FOR REAPPOINTMENT TO THE 
  GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES PACIFIC COMMAND

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Talent, Levin, Reed, Akaka, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; Thomas L. MacKenzie, professional staff member; Stanley 
R. O'Connor, Jr., professional staff member; Paula J. Philbin, 
professional staff member; Lynn F. Rusten, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Maren R. Leed, professional staff member; Gerald J. Leeling, 
minority counsel; and Peter K. Levine, minority counsel.
    Staff assistant present: Catherine E. Sendak.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul and Marshall 
A. Salter, assistants to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; Lance Landry and Jayson Roehl, 
assistants to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; Lindsey R. Neas, assistant to Senator Talent; 
and Clyde A. Taylor IV, assistant to Senator Chambliss; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi and Richard Kessler, assistants to Senator Akaka; 
William K. Sutey and Dan Shapiro, assistants to Senator Bill 
Nelson; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will come to order. We welcome 
all present here today. I am very pleased that we have three 
distinguished potential public servants, one of them on active 
duty now and very much a public servant, before the committee 
this morning.
    Dr. Harvey, General Martin, and Mr. Greco, would you 
kindly, at this time, introduce those family members that you 
have present?
    Dr. Harvey, I understand we brought you back from 
California on short notice, so I believe you're on your own 
this morning.
    Dr. Harvey. I am on my own, Senator.
    Chairman Warner. On your own.
    Dr. Harvey. I'm sorry my wife isn't here, but she said her 
heart's with me.
    Chairman Warner. Thank you.
    General Martin?
    General Martin. Thank you, Mr. Chairman. I'm delighted to 
introduce my high-school sweetheart. We met each other in 
Hawaii in high school and we've been married for 33 years. 
Wendy Martin is her name. She's been a wonderful military 
spouse and mother of three children. I think she has been the 
anchor point of the Martin family, and her involvement in our 
organizations as we've gone through our career, and her support 
of our family, has given me the opportunity to be somewhat 
successful. I love her, and I'm glad she's here with me.
    Chairman Warner. Thank you very much.
    General Martin. I would also like to introduce my brother. 
He's an older brother. Steve Martin. He's a retired Senior 
Master Sergeant from the United States Air Force, living in San 
Antonio today, and he has served his Nation from 1965 until his 
retirement in 1997, including a tour as a transportation 
specialist at the siege of Khe San in Vietnam in 1968. I'm glad 
that my brother is here to keep me on track.
    Chairman Warner. Thank you very much. We welcome you, and 
we thank you for your public service.
    Mr. Greco?
    Mr. Greco. Thank you, Mr. Chairman. I, like Dr. Harvey, am 
here by myself today, but certainly not alone in spirit, as 
well. I would like to thank my wife Marla and our four 
children, Mary, Ricky, Cecilia, and Claudia, who, 
unfortunately, couldn't be here today. It is my wife, in 
particular, who selflessly gives of herself entirely, having 
left the practice of law so that she could raise our family. 
Without her support, love, and sacrifice, which is very real 
and very tangible every day, I would be much less, in all 
respects, than I am today, and incapable of dedicating myself 
to public service.
    I would also like to thank my mother and father, Ann and 
Richard Greco, Senior, who have been my foundation and example 
of virtue always.
    Thank you.
    Chairman Warner. Thank you. Would you give the ages of 
those four children?
    Mr. Greco. Sure. Four, three, almost two, and almost one. 
[Laughter.]
    Chairman Warner. I share with all present, I was aware of 
that and just wanted to see your reaction and see if it was the 
same as mine. [Laughter.]
    We welcome our distinguished colleague, Senator Brownback, 
this morning. Knowing of your schedule, the committee will now 
recognize you for the purposes of an introduction.

STATEMENT OF HON. SAM BROWNBACK, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman and 
members of the distinguished Armed Services Committee, a 
pleasure to be here with you. With the task you've just given 
me, I have additional duties that I have to attend to, as well.
    I'm here to introduce Mr. Greco. I got to know him at the 
White House Fellows Program that he participated in. I'm an 
alumni of that program, as well. I worked with him there. He 
was with the Department of Defense. I think he's one of the 
most extraordinary candidates you could have for this job or 
any job within public service.
    He is a graduate of Fordham, with a Master's of Business 
Administration from the University of Chicago and a Master of 
Arts from Johns Hopkins. He has a spectacular academic 
background. Mixing that with private finance-sector experience 
that he has had, having worked in the Scowcroft Group, great 
international experience, a wonderful man, great family and 
growing family make a great package. I don't know how many more 
children are on the way, but we have them stacked up like 
planes landing at National Airport right now.
    This is a great public servant. He's worked in Baghdad with 
Ambassador Bremer, a fabulous set of experiences. I would just 
summarize by saying from my experience with Mr. Greco, he's 
that type of person that has both a good heart and a good head. 
You need both in this business. You need somebody that can have 
a heart that feels, knows, and can discern right from wrong, 
and you need a good head to be able to figure things out. He 
has them both, and I highly recommend him for this post.
    I'm delighted, Mr. Chairman and members of the committee, 
that you would give me a few moments to put forth my 
recommendation of Richard Greco.
    Chairman Warner. Senator, it's very important that you have 
taken the time to share with us your own personal views about 
this outstanding nominee. We thank you very much.
    Senator Brownback. If you don't mind, I'll have to take my 
leave.
    Chairman Warner. You're free to go.
    Dr. Harvey, you were here before this committee in 
connection with another nomination by the President, and now 
the President has indicated that you are his nominee to be the 
19th Secretary of the Army in the history of the United States. 
That is quite an honor for you, but it is in recognition of an 
extraordinary career. You are a business executive, with 
extensive experience in leading and managing large 
corporations, particularly program-based organizations involved 
in the development and deployment of technology and systems. As 
a part of your results-oriented management approach, you place 
major emphasis on business transformation, especially through 
process improvement in combination with the application of 
information technology. Doctor, those are phrases and words 
that come before this committee regularly, and, most 
particularly, in connection with the Army, which is going 
through a major transformation.
    At this point, I know my colleagues would want to join me 
in recognition of the contribution by the Acting Secretary of 
the Army, Secretary Brownlee, who served this committee with 
great distinction for many years and actually was Chief of 
Staff at the time that our esteemed colleague, Senator 
Thurmond, was chairman. We all feel that he has done a very 
credible job, and I hope that, in the event that you are 
confirmed, that you will access yourself to his knowledge and 
experience. While you, with your career, have had--and I could 
go on, and we will put into the record the extensive 
accomplishments you had there is another side of the Army you 
may not be as knowledgeable about.

    [The information referred to is included in the biographical sketch 
of Dr. Harvey.]

    Chairman Warner. The other side of the Army is a human one 
with the privates and their wives, the sergeants who are 
aspiring to be lieutenants in many instances, and the four-
stars on down. It is an enormous, big family. At this point in 
our history, the United States Army is being put to a challenge 
that really has very few precedents in its long and 
distinguished career as an institution. Therefore, this 
committee wishes to carefully analyze all of your 
accomplishments, your credentials, and hear from you this 
morning, particularly how you want to address that other side 
of the Army, which is a very human one, which daily or weekly, 
as the case may be, is suffering losses of their loved ones, 
and we grieve with their families. So it is a daunting position 
to which the President has nominated you, and we will very 
carefully scrutinize your qualifications. Thank you very much, 
Dr. Harvey, for offering to come back and serve your country 
again.
    We welcome General Gregory S. Martin, United States Air 
Force. I read through your record of accomplishments yesterday, 
and they, indeed, are impressive as a professional officer. 
You've been nominated to be Commander of the United States 
Pacific Command (PACOM). Presently the Commander of the Air 
Force Materiel Command at Wright-Patterson Air Force Base, 
you're a command pilot who flew 161 combat missions in 
Southeast Asia and later commanded the 421st Tactical Fighter 
Squadron and 49th Tactical Fighter Wing. Prior to your current 
assignment, you were the Commander, U.S. Air Forces in Europe, 
and also served from 1998 to 2000 as the Principal Deputy to 
the Assistant Secretary of the Air Force for Acquisition. We, 
as a committee, have been very involved with the Department of 
the Air Force, and particularly with several of their temporary 
acquisition projects. Those will be covered in detail here this 
morning to the extent that you were in the decision chain or 
otherwise had association with those contracts.
    The committee is also pleased to have Richard Greco before 
us, who has been nominated to be Assistant Secretary of the 
Navy for Financial Management. Mr. Greco had an interesting 
career in private life and public life, particularly in 
corporate financial matters prior to your appointment as a 
White House Fellow in 2002 and service in the Office of the 
Secretary of Defense (OSD). That would be under Secretary 
Rumsfeld. In May 2003, Mr. Greco served as Special Advisor to 
Presidential Envoy and Administrator of Iraq L. Paul Bremer, 
and that was a challenging assignment to have had at that time. 
Your efforts were devoted to private-sector development and 
financial-sector management and modernization. Subsequently, 
you were assigned as acting director of Private Sector 
Development for the Coalition Provisional Authority (CPA) 
Representative's Office, where your role was to serve as the 
liaison between the international private sector and CPA in 
Baghdad.
    So we welcome all of our nominees, and the committee will 
very carefully, fairly, and objectively give our views with 
regard to your credentials.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, let me thank you, and welcome 
our three nominees. I want to thank them for their service and 
thank their families, as you have and always do, for their 
service to our Nation in supporting these nominees and making 
it possible for them to serve.
    If confirmed as Secretary of the Army, Dr. Harvey will take 
the reins of a military service that has primary responsibility 
for taking on an aggressive insurgency and winning the peace in 
Iraq. At the same time, the Army continues to bear the brunt of 
the continuing effort to stabilize and rebuild Afghanistan; to 
keep the peace in Bosnia, Kosovo, and on the Sinai; to contain 
the threat of North Korea; and also to prepare to execute other 
missions in support of the national military strategy.
    The Secretary's challenge, and the challenge for the 
administration and Congress, is to ensure that this Army does 
not lose its edge under the strain of these multiple tasks. I 
hope that Dr. Harvey will share with us his views today on a 
number of critical issues facing the Army, such as:

          Is the Army large enough to meet its commitments in 
        this new strategic environment?
          Does the Army have the proper organizational 
        structure, including roles, missions, and force mix 
        between active and Reserve components?
          How dangerous is the current and projected tempo of 
        operations (OPTEMPO) and personnel tempo (PERSTEMPO) to 
        the All-Volunteer Army?
          Is the balance between current readiness and future 
        readiness ensured by modernization and transformation 
        about right?
          Given the reality of limited resources, how should we 
        prioritize among the requirements to recapitalize the 
        current force, field the interim force of Stryker 
        Brigade combat teams, and develop the future combat 
        systems of the future objective force?

    Our second nominee, Mr. Greco, if confirmed, will face the 
challenge of helping to balance the Navy's current readiness 
requirements against future modernization needs. He will also 
be faced with the critically-important job of improving the 
Navy's deficient financial-management systems.
    Our third nominee, General Martin, comes before us after a 
distinguished 34-year career in the Air Force, culminating with 
his positions over the last 4 years as Commander, U.S. Air 
Forces in Europe, and Commander, Air Force Materiel Command. If 
confirmed, General Martin would be the first Air Force general 
to serve as Commander of the United States Pacific Command.
    I look forward all of their testimony and, again, thank 
them.
    Chairman Warner. Thank you, Senator Levin.
    At this time, I will propound certain questions that we put 
forward at each hearing of this committee to nominees. Then I 
will recognize any Senator who wishes to make some opening 
statements.
    First, to each of you, have you adhered to applicable laws 
and regulations governing conflicts of interest?
    Dr. Harvey?
    Dr. Harvey. Yes.
    Chairman Warner. General Martin?
    General Martin. Yes, Mr. Chairman.
    Chairman Warner. Mr. Greco?
    Mr. Greco. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which appear to presume the outcome of this 
confirmation process?
    Dr. Harvey. No, sir.
    General Martin. No, Mr. Chairman.
    Mr. Greco. No, sir.
    Chairman Warner. If confirmed, will each of you ensure that 
your staffs comply with the deadlines established for requested 
communications, including questions for the record on the 
hearings?
    Dr. Harvey. Yes, sir.
    General Martin. Yes, Mr. Chairman.
    Mr. Greco. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Harvey. Yes, Mr. Chairman.
    General Martin. Yes, Mr. Chairman.
    Mr. Greco. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony or briefings?
    Dr. Harvey. Yes, Mr. Chairman.
    General Martin. Yes, Mr. Chairman.
    Mr. Greco. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    Dr. Harvey. Yes, sir.
    General Martin. Yes, sir.
    Mr. Greco. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration that you're serving?
    Dr. Harvey. Mr. Chairman, as a political appointee I 
consider it my duty to be an advocate for the policies of the 
administration; however, I will always provide to the committee 
my best professional judgement, when asked.
    Chairman Warner. Your personal views?
    Dr. Harvey. Yes, sir.
    Chairman Warner. I thank you.
    General?
    General Martin. Yes, Mr. Chairman.
    Mr. Greco. Yes, Mr. Chairman.
    Chairman Warner. Will you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    Dr. Harvey. Yes, sir, to the best of my ability, I will 
conform with that.
    General Martin. Yes, Mr. Chairman.
    Mr. Greco. Also to the best of my ability.
    Chairman Warner. Colleagues, I invite you to make such 
opening statements as you wish.
    Senator McCain.
    Senator McCain. Mr. Chairman, I think we have a situation 
here regarding General Martin that I would like to briefly 
review.
    First of all, I would like to review the extent to which 
the Air Force has assisted us in this committee and me, as 
chairman of the Commerce Committee, in discharging its 
oversight responsibilities in the tanker lease investigation. 
In response to repeated requests by Congress for tanker-related 
records, the Air Force stonewalled for months. Ultimately, it 
decided to cooperate only in response to the threat of 
subpoenas and a continuing hold on all Department of Defense 
(DOD) civilian nominations and my negotiations with the White 
House counsel, Judge Alberto Gonzales.
    After the Air Force produced a modest amount of documents, 
a handful of nominations were released as a measure of good 
faith. In response, the DOD shut off the spigot, producing no 
documents through the entire summer recess period.
    In response to a request by Senate Armed Services Committee 
staff for tanker-related records, the Air Force produced them 
only after doctoring them in a manner most favorable to the Air 
Force position on tankers. A key e-mail between Secretary Roche 
and a senior Office of Management and Budget (OMB) staff that 
was otherwise responsive to our request, was improperly 
withheld because it was deemed to be a joke. That joke, in 
their view, has now been sent over to the Justice Department. 
Most recently, after the Air Force jammed us up to fit in your 
nomination, General Martin's nominating hearing, we got the 
word from the DOD Inspector General last night, and I would 
like to quote from it, Mr. Chairman.
    This is a letter that was sent to you yesterday. It says, 
from the Department of Defense Inspector General--``We 
received, this afternoon, a CD with additional e-mails of 
General Martin which the Air Force had considered 
`nonresponsive' and had not originally provided to us. We're 
expecting the Air Force to provide another CD with additional 
e-mails tomorrow''--meaning today. ``The CD we received today 
is approximately 90 e-mails, which we're reviewing and sorting 
in accordance with Secretary Rumsfeld's letter to you. We will 
provide these documents to the committee tomorrow. In addition, 
we are currently assessing the process used to search for 
documents sent to and from General Martin relating to acquiring 
a commercial derivative aerial refueling tanker. We conducted 
interviews with staff involved in retrieving the documents on 
October 4 and 5, 2004. We were told that on August 23, 2004, 
the local hard drive of General Martin's computer was searched 
for e-mails and electronic documents containing one of seven 
key words related to the KC-767 tanker program. The search 
procedures followed guidelines established and distributed by 
the Air Force administrative assistants. However, upon 
conducting the review there was no attempt to retrieve any 
previously deleted items. As such, only items that existed on 
the hard drive on that date were searched, identified, and 
submitted. In addition, we could not ascertain whether 
classified system and General Martin's personal files were also 
reviewed for responsive e-mails and electronic hard-copy 
documents. Our review of the sufficiency of the procedures used 
to conduct this search is still ongoing.''
    Mr. Chairman, what this means is, we haven't received 
General Martin's e-mails, and we tried to get them as a 
priority due to the urgency of this nomination. We have not 
obtained them. Obviously, there is something going on about 
nonresponsive e-mails. Now, if this has any relationship to 
previous nonresponsive e-mails which had to be sent over to the 
Justice Department, then we have a serious issue that needs to 
be resolved before, I believe, this committee could move 
forward with General Martin's nomination, much less for 
consideration on the floor of the Senate.
    Mr. Chairman, I try to not get too emotional about this 
situation, but in my 22 years in Congress, it is the most 
frustrating thing that I've ever encountered.
    Now, you have to also put this in the context of a guilty 
plea by a former employee of the United States Air Force who 
said in her guilty plea that not only did she act improperly 
and illegally on the Boeing tanker deal, but on four other 
contracts as a ``going away gift'' for Boeing.
    Now, the question then leads us--and the reason I believe 
we're going to have to have hearings--how could she do all of 
this by herself? How could one civilian employee be responsible 
for ripping off the American taxpayer by perhaps billions? It 
would have been $5.7 billion if we had let the tanker deal go 
through.
    So this is larger than Ms. Druyan. It's larger than General 
Martin, and it is an absolute obligation of this committee to 
get to the bottom of what apparently, at least in Ms. Druyan's 
guilty plea, was the rigging of contracts to the detriment of 
the taxpayer and to the financial benefit, enormously, of the 
Boeing Corporation. So this is really a very serious situation, 
and I think we have to find out, ``How did this happen? How did 
one person--aren't there procedures in the United States Air 
Force that would somehow have this kind of procedure not be 
possible?'' Instead, we have to have a guilty plea by a former 
employee in Federal court to bring to the attention that at 
least four other contracts were improperly consummated in order 
to have a ``going away present,'' in her words, for Boeing 
Aircraft Company.
    So, Mr. Chairman, I hope that we can get the remaining e-
mails. Actually, I don't know if we ever will or not, because 
the Air Force has been incredible in their unresponsiveness. 
But General Martin was involved in this. I've already seen e-
mails of his involvement of it. We have a lot of questions for 
him, as well as other members of the United States Air Force.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    If I might just say, we have worked together on this 
project for some time, and you've expended an enormous amount 
of your own senatorial time to this issue. What you have stated 
today are your concerns. I share those concerns. I brought this 
up with General Martin when we had our usual meeting, as I do 
with all nominees. I would like to ask now that he have an 
opportunity to respond to two points.
    One, you've clearly said that you were, at one time, 
associated with the individual to whom the Senator referred, 
who pled guilty, and that you had a lot of working 
relationships during that period. We can go into some detail on 
that.
    Second, upon learning of the problem with regard to the 
material that the Department of Defense is obligated to provide 
this committee in connection with the ongoing review that this 
committee has undertaken, you tried to facilitate, to the 
extent you had authority, the freest-possible and widest-
possible flow of that information to the committee. So I think 
it would be appropriate at this time if he had just an 
opportunity to address those two points, and then we'll turn to 
other Members.
    General Martin. Thank you, Mr. Chairman. Senator McCain, 
thank you for letting me appear before you to discuss, not only 
my nomination to be the Commander of the United States Pacific 
Command, but also an opportunity to air this issue that Senator 
McCain has brought forward.
    First, I did, in fact, work with Ms. Darlene Druyan from 
1998 until the very end of 1999, when I left Washington and 
went to Europe in January 2000, so for about a year and a half. 
I had some relationship with her when I was the Director of 
Operational Requirements prior to that for 2 years, in terms of 
council meetings and that sort of thing. But when I worked with 
her, when I was the Principal Deputy to the Assistant Secretary 
of the Air Force for Acquisition--at that time, the job was 
vacant--Secretary Whit Peters maintained the acquisition 
authority himself, and Ms. Druyan and myself were coequals in 
dealing with acquisition activities from space through 
sustainment and air-vehicle procurement.
    Chairman Warner. Let me interrupt you. I think it would be 
helpful to members of the committee and those following this to 
clairfy--you pointed out to me that, at that time, you were a 
three-star lieutenant general.
    General Martin. Correct.
    Chairman Warner. In the hierarchy of the civilian corps, 
she was coequal in rank to a lieutenant general, and with 
commensurate responsibilities.
    General Martin. Correct.
    If you would think of it as an airplane, Senator McCain, 
the Secretary of the Air Force, Mr. Peters, was the pilot; we 
were copilots working together for him and bringing forward 
acquisition activities.
    The job that I had was principally oriented around ensuring 
that the acquisition programs were being developed in such a 
way that they would meet operational requirements. My job was 
to represent the uniformed military who would use those 
products. Ms. Druyan's, who was a contracting expert, primary 
function was acquisition management, and it was the 
determination of the appropriate contracting vehicles, 
incentive awards, and those sorts of things.
    Ms. Druyan is a contracting professional. She had been in 
that job, I believe, since 1992. She is a very hard negotiator, 
tough-minded, and a strong leader. We met every morning, when 
we were both in town, at 6:30 a.m. to go through the major 
events that were going on and the different activities that 
might occur that day and what our positions would be.
    I did not get into the business of determining which 
contract vehicle was better or more appropriate. I did not get 
into the business of understanding what kind of pressure she 
was applying, although occasionally I would see her dealing 
with contractors in a way that convinced me that she was after 
the best good of the Air Force and the American public.
    Senator McCain. Well, you must have been deceived, General 
Martin.
    General Martin. Actually, Senator McCain, I can't speak as 
to where those last contract awards came and when she started 
them, but the ``going away gifts'' occurred after I had left. I 
left in December 1999.
    Now, at that point--I must tell you, I'm not an expert in 
contracting--I saw nothing that she was doing that was 
inappropriate or in any way illegal. If I had, I would have----
    Senator McCain. We'll have time in the questions, Mr. 
Chairman, but I'm looking at e-mails that you wrote in 2003, 
General----
    General Martin. Yes, sir.
    Chairman Warner. Excuse me, we don't need to get into more 
detail at this point in time because Senator McCain is going to 
remain here and have that opportunity during the question 
phase. But I want you to address the other question of the 
current problem of the flow of information from DOD to this 
committee and what you did to try and facilitate that flow.
    General Martin. Mr. Chairman, I would be glad to give you 
any of my files through the normal processes through which we 
deliver them. I was never asked to provide any information to 
you or any other Member of Congress until the Deputy Secretary 
of Defense memo signed by Dr. Wolfowitz came out in late August 
and described in great detail the search methodology that would 
be used for tier-one, tier-two, and tier-three players. I was a 
tier-two player, which means the procedures that would be used 
to develop my e-mail CD that would come to you were perhaps 
different than the tier-one or tier-three. To the best of my 
knowledge, the individuals who executed the electronic search 
did exactly as they had been asked to do. I played no role in 
that, other than to direct them to do exactly as the 
instructions had requested. I never saw the e-mails. I did not 
pay attention to what they did and did not do with respect to 
that, other than to get a certified statement back that they 
had completed the actions, as appropriate, and had turned those 
e-mails in before the end of August.
    Chairman Warner. We will return to this in the questioning.
    Senator Akaka, would you like to make any opening comments?
    Senator Akaka. Mr. Chairman, may I at this time say I'm 
glad to be back with my friends on this committee, and also 
want to welcome our witnesses to this hearing.
    Thank you.
    Chairman Warner. Thank you very much.
    Senator Inhofe?
    Senator Inhofe. No, thank you.
    Chairman Warner. Senator Allard?
    Senator Allard. Mr. Chairman, I have a brief statement I 
would like to insert in the record with my comments.
    Chairman Warner. We would welcome that opportunity.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. I am pleased to welcome our distinguished 
nominees here today. I also appreciate the chairman's willingness to 
hold a hearing for these nominees, particularly given the activity on 
the Senate floor and the ongoing Senate-House conference on the defense 
authorization bill. I hope the nominees recognize and appreciate the 
extraordinary effort the chairman expended in order to hold this 
hearing before the Senate adjourned at the end of the week.
    Our Nation remains locked in a difficult struggle against 
terrorists with a global reach. Terror does not end at our country's 
borders. Nor it is a problem for one military Service. I recognize that 
each of our nominees here today have significant different backgrounds, 
experiences, and duties. Yet, each of you should be aware that your 
efforts in the service of our Nation are not insignificant. We need 
each and every nominee to understand that we need a joint military 
force capable of protecting the American people and taking the fight to 
the terrorists. Serving our country at this point of time will not be 
easy. Demands on your time and the sacrifices you will need to make may 
be significant. Yet I hope that you recognize the value of your service 
to our Nation. We cannot remain a free nation without those like you 
who are willing to step forward and commit to defending our Nation.
    Thank you again for appearing before this committee. I look forward 
to discussing several policy issues with the witnesses during our 
question and answer period.

    Chairman Warner. Senator Sessions?
    Senator Sessions. No, thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Talent?
    Senator Talent. No statement. Thank you.
    Chairman Warner. Senator Reed, do you have any opening 
comments?
    Senator Reed. I will forego those comments. Thank you, Mr. 
Chairman.
    Chairman Warner. I thank you.
    Senator Pryor?
    Senator Pryor. No, thank you very much.
    Chairman Warner. We will now proceed to receive such 
opening remarks as you may wish to make.
    Dr. Harvey.

STATEMENT OF DR. FRANCIS J. HARVEY, TO BE SECRETARY OF THE ARMY

    Dr. Harvey. Thank you, Mr. Chairman, Senator Levin, and 
other distinguished members of the committee.
    I'm very honored to appear before you this morning as the 
President's nominee to serve as the Secretary of the Army. I 
would like to thank the President and Secretary Rumsfeld for 
their support and confidence by selecting me for this position. 
If confirmed, I look forward to the opportunity to serve my 
country at a time when our security environment is markedly 
different and perhaps more complex than at any other time in 
our Nation's history.
    To ensure our country's national security in this complex 
environment, it is essential that the Army continues to 
successfully carry out its mission of providing the necessary 
forces and capabilities to the combatant commanders in support 
of the National security and defense strategies. These forces 
must be totally capable of conducting the full range of 
required military operations. In the near term, that means the 
Army must meet its fundamental obligations of recruiting, 
organizing, training, equipping, sustaining, and developing 
leaders for the current force.
    As these responsibilities are carried out in the near term, 
the Army must also develop a future force that is better able 
to meet the challenges of this dangerous security environment 
by implementing a key element of defense strategy, and that is 
transforming the way it fights and the way it does business.
    I believe that the Army has made significant progress over 
the last few years on force transformation. A successful 
transformation in the way the Army does business is also 
essential because it will free up financial resources which can 
then be applied to the warfighters.
    If confirmed, I will intensely and energetically focus 
myself and the senior leadership of the Army on achieving 
success in all these areas. Rest assured that regardless of 
what I'm focusing on, one of my top priorities that will be 
overarching and enduring is the well-being of the soldier and 
his family.
    Let me close by stating that, if confirmed, I look forward 
to working with you, Mr. Chairman, and the rest of the members 
of the committee, as well as the dedicated and proud men and 
women of the Army, to meet the challenges of the dangerous and 
uncertain world in which we live.
    Thank you.
    Chairman Warner. Thank you very much.
    General Martin.

STATEMENT OF GEN. GREGORY S. MARTIN, USAF, FOR REAPPOINTMENT TO 
THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES PACIFIC 
                            COMMAND

    General Martin. Thank you, Mr. Chairman, Senator Levin, and 
other distinguished Members of the Senate Armed Services 
Committee. Thank you for this opportunity and the honor to 
appear before you today.
    Let me also thank each of you for the outstanding support 
to our men and women in the Armed Forces. I can't tell you how 
important it is and what it means to each and every one of us 
to have your strong support behind us every day.
    As you can imagine, I'm deeply honored to have been 
selected by the Secretary of Defense and nominated by the 
President of the United States to serve as the Commander of the 
United States Pacific Command. I am mindful of the tremendous 
responsibilities inherent in this nomination. But as I have 
progressed through my career, and due to the leadership and the 
foresight of the bosses that I have worked for, I believe I 
have been exposed to a wide variety of duties and operations, 
staff, and combined organizations throughout the world, and 
that those opportunities have prepared me for this critical 
responsibility.
    I have studied Admiral Fargo's agenda and his priorities 
for the United States Pacific Command very carefully, and I 
believe them to be correct. If confirmed, I will do my best to 
ensure the command continues to pursue those objectives in a 
way that will enhance American security and the stability of 
the Pacific region.
    Again, I am honored to be here, Mr. Chairman, and I look 
forward to your questions.
    Chairman Warner. Thank you very much, General.
    Mr. Greco.

 STATEMENT OF RICHARD GRECO, JR., TO BE ASSISTANT SECRETARY OF 
               THE NAVY FOR FINANCIAL MANAGEMENT

    Mr. Greco. Thank you, Mr. Chairman, Senator Levin, and 
honorable Senators. I'm deeply honored to be here seeking 
confirmation as the Assistant Secretary of the Navy for 
Financial Management and Comptroller.
    I would like to thank President Bush for this nomination, 
and Secretary Rumsfeld and Secretary England for their support 
and confidence in me.
    I would also like to thank Senator Brownback for the time 
he made in being here this morning and for his gracious and 
very generous introduction.
    I would like to thank the Senate Armed Services Committee 
for your time in conducting this hearing, as well as all those 
who have guided me through the interview and confirmation 
process.
    Mr. Chairman, if confirmed, I would commit myself to 
addressing what I believe is the key issue in financial 
management at the Department of the Navy; namely, the provision 
of consistent, accurate, reliable, and timely information to 
decisionmakers at all levels of the Navy and the development of 
financial management systems that are capable of producing this 
information.
    Mr. Chairman and honorable Senators, if confirmed, I pledge 
to you a commitment to excellence and performance in my job, 
guided by the highest standards of professional and personal 
conduct, and to working together with you to support the men, 
women, and families who serve in the United States Navy and 
Marine Corps, and, together, to exceed our objectives.
    Thank you.
    Chairman Warner. Thank you very much.
    We'll now proceed to 6 minutes for each Senator.
    Dr. Harvey, I would like to open my questioning with you. 
But advising all three nominees that in the course of the 
response to Senators' questions and other ideas you may have, 
the record will remain open through midday tomorrow for the 
purposes of receiving such supplementary material or responses 
as you may wish to make in writing. The committee often has the 
benefit of receiving those views after you've had further time 
to reflect on the questions and to make such additional 
research as you wish.
    Dr. Harvey, my question is more in the nature of an 
observation, and I want to have in mind the procedures you hope 
to adopt to enable you to get a complete understanding of the 
enormity of the task that you will assume, if confirmed. 
Clearly, as I go through your record of achievement in the 
private sector, the issues of transformation, the issues of 
financial management, contracting, and the management side, 
you're fully qualified, and I'm certain that you will be able 
to quickly gain the grasp of that. As a matter of fact, as I 
look at your dossier, it parallels that of a wonderful man, 
David Packard, who joined the Department of Defense in the late 
1960s and through the 1970s, and I recall how quickly he was 
able to, in a masterful way, understand the problems, the 
complexities, and the vulnerabilities of the procurement system 
and the management system. So on that side, I am confident. 
It's the human side of this magnificent Army that only time 
will enable you to gain an understanding of.
    In our discussions prior to this hearing, you indicated to 
me that, if confirmed, you would try, at the earliest possible 
date, to make a trip to some of the bases overseas--most 
notably, Iraq and Afghanistan--and I think South Korea should 
be on your itinerary as soon as you can do so--to see for 
yourself what the uniformed side of your department is 
undertaking to carry out their missions, the sacrifices they're 
making, and the stress that is put on their families. You've 
assured me you're going to undertake that.
    Second, with respect to the future size of the Army, this 
committee has expressed its views legislatively. I am hopeful, 
as I say to the members of the committee, that we can soon 
complete a package for you to examine prior to submitting it to 
the Senate, and in that is our means to address the pressures 
of end strength on the Army. I think it is no secret that we 
are going to increase the pay and benefits, the healthcare 
programs, all of which this committee very conscientiously and 
carefully has addressed and reviewed. But the Army is dependent 
on that, and we're concerned, as I say, about the recruiting, 
the ability of the future Army--and that future begins 
tomorrow--to attract the needed numbers of young men and women 
to fill not only the active ranks, but, equally important, the 
Reserve, and that includes the National Guard. Some of those 
figures are beginning to take a turn,--and members of this 
committee have dealt with them for years--we might say, on a 
downward trend, and that sends a signal that there could be a 
problem looming. Those trends can't be turned around in 30 
days, 60 days, or 90 days. They have to be predicated upon the 
long-range planning and putting in place of the inducements to 
attract those young men and women for the All-Volunteer Force.
    I mentioned ``All-Volunteer Force,'' because, for reasons 
which are very perplexing, there's a dialogue going on in this 
country about a draft. I can tell you forthrightly that this 
Congress is not going to enact legislation for a draft, because 
the causes for it are not before the country. Second, the All-
Volunteer Force, as you will soon determine, to the extent 
you've not been able to do so to date, is working, and working 
well, and has worked magnificently since its inception, which 
was in the middle 1970s.
    So those are the points that I wish to make. Just acquaint 
the members of the committee with how you intend to go about 
looking at that other half of this magnificent Army.
    Dr. Harvey. Senator, let me say that I agree with all the 
points you're making there, and I'm generally aware of the 
challenges that we have in that regard. Perhaps I can start out 
to answer that question by sharing with you my management 
philosophy, which has developed over several years and which 
really is a summation of what I consider to be a lessons-
learned coupled with my values and beliefs. It starts out that 
people are the single most important part of any organization, 
and that goes double for the Army. But every organization that 
I have led, managed, and changed has involved people. We've 
talked about transformation, we've talked about all those 
things, but people make it happen. So I think my record would 
say that I'm a very people-oriented person.
    Other elements of that philosophy are: ultimately, the only 
thing that counts are results. Change and improvement of all 
aspects of the organization should be going on all the time. 
I'd like to think that I'm effective at building a team which 
is based on trust and teamwork. Effective leaders are key to 
the future and to the present of any organization. At the end 
of the day, the only thing that counts, really, is a good, 
positive, can-do attitude.
    So those are the framework from which I would look and 
start the process of leading and managing the Army.
    Now, in terms of the problems, in terms of pay and 
recruiting, over the years I've taken what I call a dual 
approach to problems. The dual approach goes something like 
this. If you have a problem or an opportunity, you appoint a 
task force to try to fix as much as can be fixed in the near 
term so that you don't wait around for some elegant long-term 
solution. Coupled with that, you initiate a long-term 
initiative that attacks the root causes, in terms of 
organizational changes, processes, systems, and so forth. So 
I've taken that dual approach on problems. For example, if 
there is a recruiting and retention problem, we would do 
exactly that.
    I was pleased to read this morning, however, at least for 
the active and Reserve, that the goals of this year in 
recruiting and retention were met. But from my own corporate 
experience, I know darn well that that's an area that you have 
to look at all the time. Success in the past doesn't guarantee 
success in the future. So those will be among my several things 
I look at.
    Chairman Warner. I'm going to have to ask that you can 
provide further for the record. We have 6 minutes.
    [The information referred to follows:]

    What I do is, I plan--, if confirmed, to put people first. Caring 
for soldiers and their families is paramount to our continued success. 
I would address the near-term needs of the Army, but also focus on the 
long-term initiatives that attack and resolve the root causes of our 
organizational challenges. Finally, all of this would be energized with 
a team-building and result-oriented approach for this magnificent Army.

    Chairman Warner. Now, quickly, General Martin, as one looks 
out over your area of responsibility (AOR), if confirmed, you'd 
see immediately the problems associated in the Korean 
Peninsula. I think the correct decision has been made to draw 
down some of our land forces there, because that figure of land 
forces has been constant for many years and does not reflect 
the advancements in technology and other means by which we can 
put together a solid front to the North Koreans of deterrence 
against any form of aggression they might wish to initiate. 
Therefore, those numbers, in this Senator's view, can be drawn 
down. The tensions on that peninsula are going to be your first 
priority, I believe, every morning you arise.
    Then you have the stresses that continue between Taiwan and 
China. Whether it's one China or two Chinas, and the buildup in 
China now of the weaponry. It's awesome what they're achieving. 
They're rapidly moving to have, I think, the second-largest 
navy in the world, if they haven't achieved that already. Their 
technology is finding its way into high-performance aircraft, 
into missiles, and all types of armaments. We have a balance to 
maintain. The commitments that this Nation has made to Taiwan 
have to be reviewed by you on a regular basis.
    So, having said that, I am confident, given the credentials 
and the experience that you've had, that you are competent to 
take on that task, and I hope to be able to support your 
nomination, but I will have to withhold that until the 
completion of the work by the committee.
    Mr. Greco, I've had some familiarity with the Department of 
the Navy. My first advice to you would be to go back and find 
some of your predecessors who are in other ventures of life 
now, because there's been a very long line of distinguished 
individuals who have been the Assistant Secretary for Financial 
Management. While I'm sure you can go over and figure out 
what's going on pretty quickly, given your background, I do 
urge you to supplement your knowledge through personal meetings 
with that fine group of individuals who preceded you in that 
post. I think you will do well.
    Mr. Greco. Thank you, Mr. Chairman. I will.
    Chairman Warner. Senator Levin.
    Senator Levin. I would yield to Senator Reed, who has to 
leave.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, Senator Levin.
    Dr. Harvey, let me first state the obvious. You are an 
extraordinarily competent individual with a distinguished 
career, but the question today is not what you've done, which 
is admirable, and, indeed, in some respects, remarkable; it's 
what you will do as Secretary of the Army. This should come as 
no surprise to you. Do you support a permanent legislative 
increase of at least 20,000 to 40,000 soldiers in the active 
duty end strength, and putting the cost of that increase in the 
Army's budget by taking funds from outside the Army to pay for 
it? Which is the only way, from my perspective, the Army can 
maintain itself over the next several years.
    Dr. Harvey. Senator Reed, I'm not, at this time, fully 
briefed and familiar with and knowledgeable about all of the 
elements of the end strength issue. For sure, if I'm confirmed, 
I and the rest of the Army leadership have the responsibility 
to provide fully capable forces to the combatant commanders. 
I'm certainly aware of that obligation. This obligation, of 
course, is to the soldier and to the country.
    Now, what I do know is that both the Secretary of Defense 
and the Army are for an increase in end strength. To the best 
of my understanding, the President has authorized a 30,000 
increase in the number of troops, on a temporary basis. I'm 
also familiar with the Army's position that they want, at this 
time at least, for this increase to be temporary, because they 
have a number of initiatives in work to increase the combat 
power, which would then preclude the Army from making these 
positions permanent.
    Now, I haven't reached a final conclusion on any of this. I 
can tell you, from my own personal background and experience in 
a corporation, that when I'm faced--and I know the analogy 
isn't perfect here--but when I'm faced with a situation where 
there's a rapid growth of the organization, my first approach 
is to hire temporary people and then see if I can sustain it, 
and only then make them permanent employees. The reason you do 
that is because you don't want to lay off people, and you want 
to ensure that the need is there.
    So let me say that if I am confirmed, I know this is a very 
important issue, and I'm going to take a very objective look at 
that, and I'm going to take a look at these Army initiatives. 
I'm going to see whether they're viable, whether they pass the 
test of viability. If they don't, I will reach conclusions and 
make recommendations accordingly. But I just don't think I'm 
totally up to speed to make a final decision, but I'm open at 
this time to----
    Senator Reed. Well, Dr. Harvey, I respect that, but we've 
heard that for years now. General Schoomacher was going to look 
at this, and the Secretary of Defense has been looking at this. 
The answer, I think, should be obvious. I would have hoped in 
the interim, between our meeting and today, that you would have 
made yourself more aware of the specifics so you could give an 
answer rather than essentially a conceptual approach to the 
problem. I'm disappointed in the answer.
    Are you aware of the Defense Advisory Board's findings 
about the need for additional troops despite the changes the 
Army has taken in modularity and the temporary expedients?
    Dr. Harvey. I've not had the opportunity to read that 
report. I don't believe it's out yet. I would plan on reading 
that for sure.
    Senator Reed. Similarly, with respect to the equipment of 
the Army, the Army sustained $2.439 billion equipment battle 
losses in Iraq and Afghanistan. It has an unfunded requirement 
of $1.3 billion for munitions. Last year, the Army spent $4 
billion on equipment reconstitution, and next year we'll need 
much more. This is not, I think, the way to do it, through 
emergency provisions. Would you support a recapitalization 
funding that is in the regular budget so the Army can fix its 
equipment?
    Dr. Harvey. Again, Senator, I know these are important 
issues, and, if confirmed, I will immediately address those and 
see whether that is feasible in the context of the Army plan 
and the Army budget. But, again, I think at this time I'm just 
not familiar enough with all the details to make that call. But 
I will address that carefully and look at it carefully, and use 
my judgment, and come to conclusions, and make recommendations, 
and proceed accordingly.
    Senator Reed. Let me raise a final point, Dr. Harvey. We 
are all aware that General Shinseki, was asked to give his 
opinion as a professional officer; he didn't volunteer it. He 
was asked at this committee. He made the point that we would 
need more than 100,000 troops in Iraq at least. Not only was he 
honest, but he turned out to be right. He was treated very 
poorly by the Department of Defense, by high officials there. I 
think it sent a chilling effect to the military that if you 
stand up and say, in response to an honest question from this 
committee or any other committee, there's a penalty if you tell 
the truth. I think that is very destructive, corrosive. What 
are you going to do to protect the officers, the men and women 
of the United States Army, who, when called upon to give their 
professional judgment, they're marginalized and shunned and 
made to feel that they've done something wrong? How are you 
going to protect those individuals?
    Dr. Harvey. Senator, I think I mentioned, in response to 
Senator Warner's question, that one of the tenets of my 
management philosophy is trust, teamwork, and openness. I think 
my track record speaks for that. I have never stifled input 
from any of my subordinates. I have a lot of respect for the 
military. I have a lot of respect for people. I welcome their 
comments. I would never stifle any honest input. I would 
appreciate that input, and I would integrate that into the 
overall decisionmaking process and then proceed accordingly. So 
I don't think I'm going to have any problem with an honest 
input from any of my subordinates. I would respect that.
    Senator Reed. Thank you, Dr. Harvey.
    Mr. Chairman, if I could make just one final point. 
Secretary White was fired in April 2003. It is now October 
2004. For 17 months we have not had a Secretary of the Army, so 
this is obviously not----
    Chairman Warner. Not had a secretary that's been confirmed. 
We've had a darn good acting secretary.
    Senator Reed. I agree. But the White House has felt that 
this is not such an important job that they would send somebody 
up to be confirmed. Now in the last week of our session, this 
appointment is before us. I think that bespeaks the lack of 
urgency, at least with respect to the Department of Defense, to 
have a confirmed permanent Secretary of the Army. So I wonder 
why we're rushing.
    Chairman Warner. Well, it is the President's prerogative to 
nominate. Dr. Harvey had been nominated for a previous post in 
the Department of Defense. That was awaiting floor action. He 
then offered to serve in this post, at the request of the 
Secretary and the President, and his papers arrived here--I'll 
put the dates in--I think it is September 12, completed 
financials and so forth September 27. As chairman, I feel we 
must be responsive to the constitutional prerogative of the 
President.
    [The information referred to follows:]

    Dr. Harvey's nomination was received by the Senate on September 15, 
2004, and immediately referred to the Armed Services Committee. His 
answers to the committee questionnaire and financial forms were 
received in committee on September 28, 2004. Dr. Harvey's answers to 
the committee's pre-hearing policy questions were received on October 
5, 2004.

    I would like to make one comment. I'm going to have to go 
to the floor now, as a member of the Intelligence Committee and 
also because of the tremendous importance of intelligence to 
the Department of Defense and the role of this committee, I 
have to get down and work on some amendments. My colleague, 
Senator Levin, has been a very helpful and supporting partner 
on that. But time and time again, Senator Reed, you have the 
right, of course, to bring up General Shinseki's observation. 
Let me give you a few concerns I have with that.
    I was present that day when he was asked, at the end of a 
long hearing, the question about his professional views on 
which I'm not going to comment. He was--and still remains--a 
very distinguished and courageous officer. You know about his 
personal disabilities, which he accepted and continued in 
active service. I think it was a wise decision to have given 
him the opportunity to be the Chief of Staff of the Army. But 
when asked that question--and I've studied his transcript, I 
remember his struggle with trying to provide the answer--I have 
not been able to find, to date, any record that the estimates 
of size that he provided were ever considered within the staff 
of the Army, were ever considered within the staff or by the 
Joint Chiefs. I hope someday we can determine the extent to 
which his views were shared within the Department of Defense, 
the Department of the Army, indeed, most significantly, by the 
Joint Chiefs, as to his concern about those figures.
    If the Senator could ever provide that information, I would 
be delighted to read it, study it, and carefully give my own 
views on that.
    Senator Reed. Mr. Chairman, I think that would be an 
admirable inquiry, and that is something this committee could 
do, and I would encourage you to do it.
    Chairman Warner. I thank the Senator very much.
    Thank you. Senator McCain, I would ask you to chair the 
committee.
    Senator McCain [presiding]. Senator Inhofe.
    Senator Inhofe. Thank you very much.
    First of all, I've had a chance to know General Martin and 
talk to him in different capacities, but I haven't had a chance 
to meet the other two. However, we have common friends. I was 
pleased that Pete Geren, Mr. Greco, is a good friend of yours, 
and he speaks very highly of you. Of course, I've known John 
Hague, Dr. Harvey, for many years. I am looking forward to 
working with all of you.
    I guess the obvious question I would ask you, Dr. Harvey, 
is here we are in the midst of a war, fighting with an Army 
that was downsized after the Cold War. I can remember, even 
less than about 12 years ago, hearing testimony before this 
committee--it might have been when I was in the House Armed 
Services Committee--that 10 years from now there wouldn't be 
the need for ground forces. All these things are changing. I 
agree with Senator Reed, in talking about the numbers. I'm 
concerned particularly about the Reserve component. With the 
base realignment and closure (BRAC) round coming up and the 
future combat system (FCS), my question is, why in the world 
would you want to do this at this time? But, I won't ask that 
question.
    I am also concerned about the modernization program. It is 
long overdue. I've been following the FCS very closely, and all 
of its components, and wonder if you had any thoughts about 
that, if you had given some thought to the modernization 
program, with a specific emphasis on the FCS.
    Dr. Harvey. Yes, Senator. I think you nailed the number-one 
challenge that we have in the Army, and that is to transform 
while we're at war. From my own background, I'm, in theory, 
comfortable with a challenge like this, because, as you 
probably know, in business the challenge is to meet your short-
term objectives and, at the same time, provide for the long 
term. Because if you don't meet your short term, there is no 
long term; but if you're not providing for the long term in the 
short term, there won't be any long term either.
    So I think the FCS program is a very important 
transformational program. I'm generally familiar with it, 
though I certainly don't know any of the details right now.
    I was pleased to see that the Chief of Staff of the Army 
had somewhat restructured the program, trying to accelerate 
certain capabilities into the current force, and, at the same 
time, take enough time and effort to ensure that you are 
successful in the long term.
    So I think that's an excellent approach. It's an approach 
I'm comfortable with. You're superimposing transformational 
efforts on meeting your short-term objectives, and I really 
think that is a sound approach that the Army is taking right 
now, providing for both. That is the challenge, and we have to 
balance it. I look forward to meeting that challenge.
    Senator Inhofe. Good. You're probably familiar that Senator 
Akaka and I, having both been veterans of the United States 
Army, started the Army Caucus to try to focus a little bit more 
attention on the mission and what is out there. My personal 
feeling is that the Army is not adequately funded to take on 
its task. I would ask you, when you get in, to look at that 
from a macro sense to see if it's something maybe we should 
look at, because I believe that's a real serious problem.
    Mr. Greco, I was fascinated with your 4-year-old, 3-year-
old, 2-year-old, and 1-year-old. I can tell you that 40 years 
ago my wife and I had the same situation. I can just tell you 
that it gets easier and it gets better. [Laughter.]
    I understand you didn't say anything in your opening 
remarks about the Enterprise Resource Program. One of the 
things that I have found in government in general, and 
specifically in the military, is that there's a resistance to 
change. It's a very difficult thing to do. So I would like to 
have you tell us--you're proposing something that hopefully 
will make us more accountable and do a better job. How do you 
propose to do that?
    Mr. Greco. Sure, and I thank you very much. Whenever you 
have a system that has grown up, that has evolved over the 
course of decades, inevitably you have what are known as legacy 
problems. Certainly that is widely recognized. The whole 
Enterprise Architecture is designed to alleviate, resolve, and 
eventually replace the problems that are faced now in financial 
management, financial-control systems, and financial reporting. 
So when you are looking at an organization that has multiple 
components here--you have the four Services, as well as OSD--
it's important to look at it from a top-down perspective. That 
is my understanding, though I'm not entirely familiar with the 
details of the Enterprise Architecture, that the Navy supports 
this kind of approach. If confirmed, I will certainly support 
the Navy's efforts in this area.
    Senator Inhofe. Well, we look forward to assisting you in 
doing that, because, as I say, change is very difficult.
    Mr. Greco. It certainly is.
    Senator Inhofe. General Martin, you're taking on a command, 
in terms of population and geography, which is the largest out 
there. I'm glad the chairman brought up some of the things that 
are happening in China right now. I was distressed, back in the 
late 1990s, when I saw a lot of the purchases that were going 
on in their conventional program, in terms of the Su vehicles 
and others. So I would just ask you the general question. Since 
this opportunity has emerged, that if something is keeping you 
up at night, what is it?
    General Martin. Senator Inhofe, actually, on a day-to-day 
basis, as I thought about this position, there are three things 
that I'm most concerned about. Clearly, the Korean situation, 
which has a tendency to spike and ebb, is in a very delicate 
period now, I think, where the six-party talks about working 
over the nuclear issue, and we never quite know what the intent 
of the North Koreans will be. So I worry about that.
    I'm very concerned about the incredible growth that we're 
observing with the Chinese modernization. We would hope that 
that is so that they can feel comfortable about setting their 
own destiny in that part of the world. But the fact is, those 
capabilities can never be ignored, and particularly given that 
just a few miles away is the island of Taiwan, which we are 
prepared to assist if they are attacked in an unprovoked 
manner.
    Last, in the Southeast and Southwest Asia area, I'm very 
concerned about what we see, in terms of insurgents, in terms 
of terrorists--the transnational activities, which, on their 
own, are destructive, but then, in support of terrorism, can be 
very detrimental to the building of new democracies or 
countries that are trying to improve. I think it is important 
for us to maintain a strong partnership with those nations in 
the area so that there's never a unilateral approach that has 
to be taken, but, rather, a multinational coalition and 
activity that I think will engender long-term stability in that 
part of the world.
    Any one of those three are dangerous and of concern to me.
    Senator McCain. Senator Pryor.
    Senator Pryor. I don't have any questions right now, thank 
you, Mr. Chairman.
    Senator McCain. General, Ms. Druyan testified, as part of 
her plea bargain, that not just the effort on the Boeing 
tankers, but also the North Atlantic Treaty Organization (NATO) 
airborne warning and control system (AWACS), the C-130J, which, 
by the way, the DOD Inspector General has already ascertained 
we may have wasted a couple of billion dollars on those--we 
will be having a hearing on that--and the C-17 were ``parting 
gifts'' to ingratiate herself to her future employers, and 
later to ``ensure employment'' for her daughter and son-in-law. 
This is four major contracts. How is it, General Martin, that 
this is could happen? How is it possible that one person can 
wreak this kind of havoc? In the case of the tankers, it would 
have been $5.7 billion additional, according to Government 
Accountability Office (GAO) and Congressional Research Service 
(CRS), and other experts. Two billion dollars have been wasted 
on the C-130Js. We're talking about billions of dollars. How 
does that happen, General?
    General Martin. Well, Senator McCain, I will tell you, when 
she made her plea bargain not only I was disappointed, but I 
was very surprised, first. Second, I think we have to realize 
that Ms. Druyan, as I mentioned, had been in that position 
since 1992.
    Senator McCain. So there's no process that would act as a 
check or a balance, that she was able to orchestrate four major 
contracts so as to ingratiate herself to Boeing?
    General Martin. Sir, as we went through the 1990s--and you 
may recall, not only did we go through a very serious 
restructuring of our forces in draw-down, but we also went 
through a major acquisition reform that took much of the 
oversight, took much of the checks and balances out. We became 
very closely aligned with the partners. We went into total 
system program management.
    Senator McCain. Is there something wrong?
    General Martin. We may have gone too far in the pendulum 
swing.
    Senator McCain. May have? With this kind of scandal, we may 
have, General?
    General Martin. Senator McCain, I've not been in that 
business. I've not reviewed all the complaints.
    Senator McCain. Well, you're in the business of the 
tankers. I'll quote you some of your e-mails here.
    General Martin. All right, sir.
    Senator McCain. Are you aware of the Center for Naval 
Analysis finding, ``Trends in KC-135 readiness and maintenance 
research requirements are reasonably steady, and that incursion 
has not been a major contributor''?
    Are you aware of the CRS report, October 23, 2003, stating 
that ``corrosion is not a problem''?
    Are you aware of the Defense Science Board report, ``The 
Task Force did find evidence on maintenance regime well poised 
to deal with the corrosion and other aging problems''?
    Are you aware of all of these studies?
    General Martin. I'm aware of two of those. I'm not aware of 
the second one you mentioned.
    Senator McCain. All of them said that corrosion was not a 
problem, right?
    General Martin. Senator, in one context, that's correct. I 
would also call your attention to the Defense Science Board 
Report that said the 61 KC-135Es that the United States Air 
Force planned to retire was a good decision that they concurred 
with.
    Senator McCain. Actually, we can argue about that, but 
there were a number of them that said that corrosion was not a 
problem.
    General Martin. Sir, we had 176 tankers in backlog 4\1/2\ 
years ago, most of them for fatigue, obsolescence, and 
corrosion.
    Senator McCain. All of those rates have been dramatically 
improved, according to these studies.
    General Martin. Yes, sir. We've had to hire on two 
contractors to make that work out. They have worked overtime. 
They brought the fleet back up to a 65 to 75 percent rate. But 
at what price? We are re-manufacturing many of the tankers 
because of serious fatigue, obsolescence, and corrosion. 
Corrosion is just one of the terms that we've used.
    Senator McCain. Well, you gave a speech on February 12, 
2004, ``But it doesn't have to--whatever it takes--40, 50-year 
old tankers need to move on. These haven't been modified in the 
new configuration. These are in the saddest shape. We see that 
when they come into depot with respect to corrosion and all of 
that. So it is time for us to understand that 40 to 50-year old 
aircraft''--that is in direct contradiction to the Defense 
Science Board, the Center for Naval Analysis, and every other 
objective study.
    Now, you may say that it is, but they say that corrosion is 
not a problem, that it was a manageable problem. That is what 
objective observers say. If you want to say black is white, 
sir, you can. But I will quote again, ``The task force did find 
evidence of a maintenance regime well poised to deal with 
corrosion and other aging problems.'' That is the bottom line, 
General, while you are alleging otherwise. I'll be glad to hear 
your response.
    General Martin. Mr. Senator, those comments were made at 
the Air Force Association before Mr. Wynne asked for the 
analysis of alternatives to review the potential of re-
manufacturing and re-engining the KC-135Es. On that day, I was 
talking about the KC-135Es. At that time, we had about 138. 
They had not been modified to the KC-135R configuration. They 
had not been modified with new engines and the other 25 
modifications, to include avionics, wiring, other stiffeners, 
and stress-point repairs. So those aircraft, yes, they could be 
brought in, re-manufactured, re-engined, and they had some use 
to them, but they would still be 44- to 45-year-old aircraft.
    Senator McCain. ``The task force did find evidence of a 
maintenance regime well poised to deal with corrosion''----
    General Martin. That's corrosion, sir.
    Senator McCain.--``and other aging problems.'' All said, 
``Solutions are in hand to deal with the known problems with 
the fleet, including the KC-135 engine struts.'' So you have a 
different view, sir, than the Center for Naval Analysis, the 
Defense Science Board, and every other objective----
    Let me get into one of your e-mails here. This is why I'm 
concerned about the ``irrelevant'' e-mails that just came to 
light. From General Handy to General Martin, Subject:--written 
June 24, 2004, McCain's statement on the tanker amendment, S. 
2400. ``Speedy, have you had a chance to read this information? 
I'm certain we need to link our staffs once again with the 
tanker team to come back with our bottom line on corrosion and 
cost, plus any other engine end data you might have in your hip 
pocket. I'm sure that we will both get calls for action. Please 
protect my source.''
    Your reply, General Martin, Subject: Hot McCain Statement, 
``John, I have not seen this yet. I will get our guys to work 
with yours. In the meantime, I just signed a memo with point 
paper to you on the 30 tankers that need to have work done 
before 1 October 2004. I will ask the guys to fax you a copy if 
you haven't seen it yet. This will be fun. Speedy.''
    What was fun?
    General Martin. A casual comment to a colleague about a 
situation that was clearly becoming what I would consider to be 
controversial. ``This will be fun,'' meaning nothing more than 
it looks like we have some work ahead of us. That's what I 
meant.
    Senator McCain. Well, General----
    General Martin. Now, Senator McCain, if you look at my 
comments, is there anything in my comments there that indicate 
that I'm stonewalling or in any way supporting a position that 
is inappropriate? I will look into it----
    Senator McCain. It's inappropriate when it's the bottom 
line on corrosion and cost when there have been numerous 
studies that say that corrosion is not a problem.
    General Martin. Sir, in this particular case, that was a 
corrosion issue. Those were the engine struts holding the 
engines onto the wing. The analysis that had been done in 
December 2002 said that those aircraft needed to be repaired or 
grounded by September 30.
    Senator McCain. The tanker amendment did not address the 
strut issue, General Martin. The tanker amendment was about a 
requirement for an analysis of alternatives and other 
requirements before we went through with this massive ripoff of 
the taxpayers.
    General Martin. But, sir, the point is that the analysis by 
the engineers was that those aircraft should not fly if they do 
not have strut modifications, as all of the other aircraft had. 
General Handy and the Air Force Mobility Command of the United 
States Air Force decided, rather than to modify those aircraft 
2 years ago, to retire them. Now the retirement date is coming 
up, but we have been prohibited from retiring them due to 
congressional language, so we either have to fix the struts or 
ground them.
    Senator McCain. You could have fixed them for $400,000.
    General Martin. Yes, sir, that's correct. However, sir, 
that would also then mean they would go into the programmed 
depot maintenance and the other modifications that were 
necessary to allow them to fly in the airspace as we know it. 
Overall, nearly $1.5 million would be spent to keep those 
airplanes flying when the command decided that they were no 
longer necessary to be flying.
    Senator McCain. As opposed to a $20-some-billion 
acquisition. Well, General, we will look forward to receiving 
the e-mails that you haven't given us. We will look forward to 
finding out why it is ``fun'' to talk about corrosion when 
there have been numerous studies that clearly state that it is 
not a problem. We will try to find out, as this committee, how 
in the world one individual can be responsible for four major 
contracts--four major contracts in the United States Air Force, 
involving billions of dollars--can get away with such a thing. 
There's something very badly wrong. I will tell you, one of the 
things we found out--it's a military industrial complex, 
General Martin. We found out that--from the Boeing e-mails and 
the incredible incestuous relationship between Boeing and the 
United States Air Force, both civilian and military. I will 
strongly object to your nomination leaving this committee until 
we get all the e-mails and all the answers.
    This is a national disgrace. If it hadn't of been for my 
chairmanship of the Commerce Committee and the ability to get 
the Boeing e-mails, as chairman of the Commerce Committee, we 
would have ripped off the taxpayers for $5.7 billion. Not 
according to me, but according to the Government Accountability 
Office and the Congressional Research Service and others. We 
need to fix the system. We very badly need to fix the system 
where one individual was able to corrupt four major defense 
contracts all by herself. It is hard for me to believe.
    General Martin. Mr. Senator, I would only ask this. Given 
the facts that you have, I would not disagree; however, I think 
you have to consider the source of those comments, and you have 
to look at the details of what she said and what she actually 
did.
    Senator McCain. Are you saying she didn't?
    General Martin. I don't know.
    Senator McCain. She confessed to doing so, General.
    General Martin. I'm sorry, sir. I don't understand how she 
made those comments and whether those are honest comments or 
not. I have no knowledge either way. But I'm here to tell you 
that my dealings with her----
    Senator McCain. General, now I'm questioning your 
qualifications for command. A person pleads guilty in Federal 
court to a crime that's going to send her to jail, and you 
question whether she was telling the truth?
    General Martin. Yes, sir.
    Senator McCain. Senator Sessions.
    Senator Sessions. Thank you, Senator McCain.
    I thank you for raising this issue. A lot of times we're 
not dealing with criminal conduct or even terrible malfeasance. 
But sometimes things start developing in our agencies, 
bureaucracies, and Defense Departments that are not healthy. I 
believe, at some point, the Air Force made a decision they did 
not want to refurbish the KC-135s. I do believe Senator McCain 
is correct when he said that we have an absolute statement at 
various points that the KC-135s couldn't be refurbished because 
of corrosion. Now we find that that is not as big a deal as was 
said. So I have some concerns about it. I know the decision was 
made somewhere. It really started in Congress. Not in this 
committee. The appropriators put in this tanker-lease deal 
without any hearings that I know of in this committee to 
consider it. People fell in line to support that idea, and 
justifications started coming up. I'm not sure we thought it 
through correctly. It's about $25 million, as I understand it, 
to refurbish a KC-135; $200 million to buy a new one. It has 
some advantages, of buying a new one, but when you don't have 
enough money to do everything you need to do, maybe we need to 
consider an analysis of alternatives, which is out there, and 
we'll review it there.
    General Martin, you're going to an area of the world that 
is very important for us. You, I believe, spent time in the 
Pacific, in Japan, and the Pacific Command through maybe 4 or 5 
years. I would join with Senator Warner in saying I see no 
reason for us to have almost 40,000 troops in Japan when they 
have 650,000 South Korean troops. This country is one of the 
most progressive countries in the world, South Korea, and they 
need to step up. We need not to have so many troops there. But 
it does require a command study and a great deal of thought and 
sophistication--don't you agree?--to develop a plan to ensure 
that we can respond adequately to any hostilities that may 
occur there or may occur in Taiwan. We ought not to be 
ambiguous one bit about South Korea. We should not be ambiguous 
one bit about Taiwan. Our principles are stated clearly there. 
We expect that you will help us develop a plan to respond 
immediately if there are situations that develop there that are 
unacceptable.
    I guess my question is to ask you how important you think 
this mission is. Will you call Congress and ask for, and fight 
for, the things necessary for you to accomplish your mission? 
Because we want you to have that capability.
    General Martin. Senator Sessions, first let me tell you I 
believe it's absolutely critical to the security of the Pacific 
region that the United States presence there be credible and 
that nations we support continue to progress and exist as the 
successful nations that we've seen, from Korea, Japan, the 
development that is going on in Southeast Asia area, in 
Singapore, and, of course, the work that we're doing in the 
Philippines.
    With respect to Korea, I could not agree more that with the 
growing capabilities of the South Korean military forces and 
the improvements that we have made in our military 
capabilities, in terms of lethality, agility, flexibility, and 
mobility, that we should position them in such a way that they 
can be very responsive to not only a problem that would occur 
in Korea, but allow us to have the flexibility with some of 
those forces elsewhere to deal with another problem that may 
surface somewhere in that theater.
    Senator Sessions. Briefly, just as a matter of command and 
control, in your position, what direct command and control do 
you have over the placement of the troops in South Korea?
    General Martin. Sir, General LaPorte is responsible there 
for deterring the Koreans and then conducting that war. The 
Pacific Command is in a support role there. As the Commander of 
U.S. Forces Korea, he works for the Commander of U.S. Pacific 
Command, so the arrangements that are made will be made 
primarily from an operational perspective, a war-planning 
perspective, and then backed up by the U.S. Pacific Command in 
supporting that.
    Senator Sessions. Are you in accord with the plan as it has 
been moved forward?
    General Martin. Sir, I am not studied in the actual unit 
detail movement. I understand the general movements and the 
rationale, and agree with those. In my previous job in Europe, 
we were doing much the same in Europe, and we coordinated some 
of our thinking with the Pacific. So I'm somewhat aware of the 
rationale and thought, but the actual specific moves of units, 
I am not yet read into. That will be one of my first 
priorities, because, in the end, it will be most important, if 
I'm confirmed, to be responsive to General LaPorte in bringing 
the forces to bear that he needs to support that repositioning 
of the forces.
    Senator Sessions. Well, I think that is well stated. You 
have to make sure that his plans, which I am confident are 
sound, are in coordination with his ground, air, space, and sea 
forces, so that we have the capabilities. I absolutely do not 
believe a reduction in troops there signals any weakness or 
lack of commitment on our part on the Korean Peninsula, and I 
think that is important to state. I think it just makes good 
sense.
    Dr. Harvey, thank you for your service. I know that you 
have an incredibly impressive background and have supervised as 
many as 40,000 people with Westinghouse, one of the world's 
great corporations. You have been chief operating officer (COO) 
of two high-tech information-technology companies. You bring an 
experience that can help us continue to modernize the Army and 
can help us evaluate that.
    Mr. Greco, thank you for your service. I am extremely 
impressed with what the Navy is doing. You're joining a team 
that seems to have a real good ability to mix change with 
traditions of the Navy, and I think that is something of value.
    My time is up, Mr. Chairman, but, Dr. Harvey, this Army is 
critical to our Nation's defense. You don't have a lot of 
personal experience with it, although you did have a period of 
time with former Secretary of Defense Harold Brown on his 
staff. But I do think that if you bring your knowledge and 
skills to bear, and if you pay attention to the individual 
soldiers, the Guard and Reserve in particular, with carefully 
chosen policy changes, we can make life in our military even 
more healthy and positive than it is today.
    With respect to Guard units in my State, I met with the 
Guard and talked to them in depth for hours about this, and 
they tell me that troops back from Iraq are re-enlisting in 
record numbers. There are troop units that haven't gone to Iraq 
yet. Their numbers are a little tougher, but if they were given 
the right incentives packages, they could meet all of their 
recruitment and retention goals, they believe, and I think that 
is important.
    Thank you, Senator Allard.
    Senator Allard [presiding]. Thank you very much, Senator 
Sessions. I'm going to use my time, and then we have a vote 
coming up on the floor. I've been asked to adjourn the 
committee at that particular point in time. There will be some 
things I will handle in that process.
    But, first of all, I have a question concerning the 
Chemical Weapons Convention Treaty for you, Dr. Harvey. I 
didn't vote for that provision. I thought it was ill-advised 
but, just the same, it has become the law of the land. The 
United States Army has been put in charge of implementing the 
chemical-weapons demilitarization at these facilities, so we 
can meet the requirements of that treaty.
    That treaty requires that the chemical demilitarization 
occur by 2012. I have a chart here that has been put out by the 
Department of Defense that shows that we have five sites that, 
as the schedule was originally laid out, aren't going to meet 
the 2012 deadline.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The site that's going to be most out of line is the 
Bluegrass, Kentucky site. Then we have a site in Alabama, and a 
site in Oregon. They're not far behind the Kentucky site. Then 
we have sites a little closer to 2012. The next one would be 
Pueblo, Colorado. We also have one in Pine Bluff, Arkansas. The 
other four sites are scheduled to get cleaned up. Now I've been 
told that the program is way behind schedule and that there are 
some serious cost-overrun issues. I'm concerned about this 
program. I would like to hear you respond to some of these 
concerns. What is it, as Secretary of the Army, that you feel 
you can do to get us on track so that we can comply with the 
treaty?
    Dr. Harvey. Yes, thank you, Senator. As you mentioned, this 
is a very important initiative and program, and I'm generally 
familiar with it. I'm not familiar with the details. I know 
progress has been made at certain sites, and there have been 
delays, cost overruns. But I don't really know the drivers.
    In my background, I pride myself on my program-management 
abilities. I think, as I told you, I really learned to manage 
by being a program manager in Air Force and Navy programs, and 
so I'm kind of a cost, schedule, technical objectives----
    Senator Allard. Let me interrupt you here. Where is the 
priority of the chemical demilitarization of these facilities? 
From your understanding and from that of your predecessors, do 
you think the priority was set high enough? I would like to 
have you respond to that.
    Dr. Harvey. At this time, I don't think I know that detail. 
I certainly know the sites, and I know the kind of sequence of 
awards. I know there has been a change in technology in the 
middle of this program.
    So what I was about to say is, I commit to you that I will 
certainly get involved in the details, find out why we're 
behind schedule, why we have overrun, and ensure that we have 
the right program managers on the job. One of the measures, 
performance measures, that I will institute as the Secretary is 
on key acquisition programs in key programs like this. So I 
plan on regularly and frequently knowing what the progress by 
site is, in terms of schedule and meeting the technology and 
meeting the environment and meeting the overall program. By the 
way, I will know, in real time, what the performance is, and I 
will take actions accordingly. If we're going to get off 
schedule or over cost, the program manager will be in my office 
explaining why and what corrective action he's going to take 
and when it is going to get back on schedule and when it's 
going to be done. So while we will use all the program-
management tools that I've experienced over the years, I don't 
know enough about the details to comment on the program at this 
time.
    Senator Allard. I appreciate what you explained to me, and 
clearly what you outlined I expect you to do as Secretary of 
the Army. I do hope that you keep this committee informed, and 
you keep me informed, as to what's happening with this program. 
It is under the jurisdiction of this committee, and it is 
something that we need to be concerned about, whenever we run a 
possibility of overruns. I think the contractors have to be 
held accountable. I think that people within the Department of 
the Army have to be held accountable. I think we're headed for 
some problems here, and I would call those to your attention.
    Dr. Harvey. I think your remarks are very appropriate, and 
I have a responsibility to ensure that taxpayer dollars are 
spent wisely. Believe me, from my past, I hate overruns, and I 
hate to waste money, and I hate to be behind schedule.
    Senator Allard. Well, I'm glad to hear that.
    Dr. Harvey. I will get involved in acquisition programs, 
including this one.
    Senator Allard. This is a new technology, I will 
acknowledge that, and we have had to put money in some of the 
new technology areas, but then it's been put into those sites 
where they were using the older technology because of cost 
overruns. So I think some really tough questions need to be 
asked in that regard.
    The next question I have is for you, General Martin. I 
understand pulling back with our troops out of Korea. I agree 
with that, but I do think that there's going to be other 
programs and that there is emphasis on these programs that has 
to be added if we're going to maintain a strong defensive 
posture there. I think that missile defense is one of those 
programs. I would like to hear you talk a little bit about 
where you see missile defense playing a role and providing for 
the defense of this country, as far as the threat from North 
Korea is concerned, and what you see, as far as working with 
our allies in the Pacific on missile-defense issues. Also, how 
important do you think it might be to continue the development 
of a sea-based ballistic-missile defense as part of that.
    I've lumped three questions I wanted to keep separate, 
because of lack of time, I feel I want to put these together 
and just let you talk a little bit about this for this 
committee, if you would, please.
    General Martin. Yes, sir, Senator Allard.
    First of all, clearly one of the more vexing problems we 
face is a nation that may not be nearly as powerful as we are, 
but with weapons of mass destruction and missile technology, 
the results can be catastrophic. It doesn't matter whether it's 
in theater or whether it be from a national perspective. So, 
first, as I think you know, we've been pursuing it at the best 
speed possible. Our theater missile defense systems, both 
within the Navy and in the Army--and, of course, Navy theater 
missile defense. At the same time, we've been pursuing national 
missile defense, and this month are in the process of having 
initial or limited operational capability so that the 
technology that we currently have and the systems we currently 
have, although we all know they've not been fully tested and 
connected to the standards that we have become used to in 
previous acquisition programs, offer us some capability today 
should something happen that we were unable to predict, and 
then we will spiral those developments and improvements.
    The best I can tell--and I'm not an expert in the Pacific 
theater yet--but the best I can tell, it takes a very concerted 
and joint effort for us to be able to properly identify the 
launch, get its initial track and vector activity, and be able 
to deliver that to the fire control system and the interceptor 
in a way that will be successful. It requires either sea-based 
radar support in order to support the entire United States, 
along with ground-based missile defense.
    In the end, however, because of the geometry of this 
situation, I think the partnerships that you alluded to become 
very important. I think finding those right allies for us to 
partner with for missile defense will not only benefit the 
United States, both from a national perspective and a theater 
perspective, but it will provide some sense of assurance to 
those partners and strong allies that they will have some sense 
of protection, as well, against the rogue or errant decision 
made by one of those people that has that kind of weapon at 
their control. I'm very strong on it, knowing that today the 
irrational behavior that we notice in terrorist activities, 
when matched with this technology, could cause catastrophic 
results, and we must defend the people of the United States and 
our allies as best we can against that.
    Senator Allard. Well, thank you very much.
    I wanted to talk a little bit with Dr. Harvey about the 
missile-defense programs you have under the Army. That's all in 
theater again. But we're not going to have time to get into 
that discussion. But I do want you to be aware that there 
certainly is an interest, and I think there's a decided benefit 
to these programs. I don't have any particular concerns about 
it. Just to make sure that you do recognize the importance, I 
think, of space and the high-technology system we have there. 
These are important to the fighting man in the field, or woman 
in the field, and on the field of battle. I hope you keep us 
informed as to how that particular program is going. Again, 
these are programs under my jurisdiction on the Strategic 
Subcommittee.
    Dr. Harvey. I will do so.
    Senator Allard. Okay. I just have been asked by the staff 
to remind you that you have 1 day to get in and get your 
supplemental remarks in. I would just ask that you get those in 
today, if you would, please, if you want to supplement your 
testimony and have any additional remarks for this committee. 
That's a pretty tight schedule. But since we're on the closing 
days of this session, it is necessary for us to ask that from 
you, and I hope that you can make an earnest effort to comply 
with the request of the staff and the chairman of this 
committee.
    [The information referred to follows:]

    General Martin. In my last response, I may have either misspoken or 
caused a misunderstanding and would like to clarify the record. What I 
intended to communicate in the abbreviated discussion was that I 
believe we need to understand the full context of Ms. Druyun's 
admissions with respect to the acquisition-review process as it exists 
today.
    During the period that I worked daily with Ms. Druyun, from July 
1998 until December 1999, and during the subsequent period until her 
retirement in November 2002, where I conversed with her on a very 
infrequent basis, I never detected or believed her performance to be in 
any way illegal. As a result, when she admitted to providing ``parting 
gifts'' to the Boeing Corporation, I was extremely disappointed and 
very surprised. The acquisition processes changed significantly in the 
mid-1990s due to Goldwater-Nichols legislation along with comprehensive 
DOD-wide acquisition reform and Air Force acquisition lightening bolt 
initiatives. As a result of those efforts we have seen a significant 
flattening of the organization, reduced oversight, increased reliance 
on collaboration with industry, and streamlined reporting chains within 
the acquisition community. Nonetheless, I believe the acquisition 
decisionmaking process to be transparent and, therefore, it is 
inexplicable to me how Ms. Druyun could have provided the ``parting 
gifts'' she admitted to in her plea bargain without anyone's knowledge.

    We don't have any more members present to ask questions. We 
have a vote on the floor. I want to thank each and every one of 
you for taking the time, for your past service to this country, 
and let you know that we all appreciate your dedication to try 
and make this a better country, a safer country, and a more 
secure country. I, for one, appreciate everything you do for 
us.
    So, with that, I will go ahead and adjourn the committee. 
Thank you for your service.
    [Whereupon, at 11:45 a.m., the committee adjourned.]

    [Prepared questions submitted to Dr. Francis J. Harvey by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination to be the Assistant Secretary of 
Defense for Networks and Information Integration.
    Have your views on the importance, feasibility, and implementation 
of these reforms changed since you testified before the committee at 
your confirmation hearing on January 28, 2004?
    Answer. No, my views on the importance of the reforms brought about 
by the Goldwater-Nichols Act have not changed. Goldwater-Nichols has 
significantly improved our joint operations and its goals have been 
irrefutably confirmed in the crucible of war. Specifically, the 
Goldwater-Nichols Act has significantly improved the organization of 
the Department of Defense, focused our joint warfighting capabilities, 
enhanced the military advice received by the Secretary of Defense and 
provided for a more efficient and effective use of defense resources 
for national security.
    Question. Do you see the need for modifications to Goldwater-
Nichols provisions based on any observation you have made to date? If 
so, what areas do you believe it might be appropriate to address in 
these modifications?
    Answer. If confirmed, I will fully support the intent of the 
reforms and advocate legislative proposals and policies that will 
enhance the Department's ability to respond to the national security 
challenges of the 21st century. To that end, the Department will 
continue to examine ways to better support the goals of reform in light 
of our ever-changing environment.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Secretary of the Army?
    Answer. The Secretary of the Army is subject to the authority, 
direction, and control of the Secretary of Defense. The position of the 
Secretary of the Army is outlined in title 10 USC, section 3013, which 
states that the Secretary is responsible for, and has the authority 
necessary to conduct, all affairs of the Department of the Army. The 
Secretary is also responsible for such activities as may be prescribed 
by law or by the President or Secretary of Defense. The Secretary of 
the Army may, after first informing the Secretary of Defense, make 
recommendations to Congress relating to the Department of Defense as he 
considers appropriate.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Rumsfeld will prescribe for you?
    Answer. In accordance with title 10, USC, section 3013, I expect 
the Secretary of Defense will prescribe the following duties: ensure 
proper functioning and efficiency of the Department of the Army; 
formulate policies and programs that are consistent with national 
security objectives; effectively implement all decisions and 
instructions of the President or the Secretary of Defense; ensure the 
current and future operational requirements of the unified and 
specified combatant commands are met; and ensure that there is 
effective supervision and control of Department of the Army 
intelligence activities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe I have three basic qualifications for the 
position of Secretary of the Army.
    First, I know how to lead, manage, and change large organizations, 
particularly program based organizations involving people and the 
development and deployment of technology and systems. In the management 
area, I have had a great deal of experience in project management as 
well as success in streamlining organizational structures and improving 
business processes thereby transforming organizations into much more 
efficient and effective operations. At Westinghouse, I initiated and 
led comprehensive change and improvement initiatives at seven different 
organizations that resulted in significant operational improvements.
    Second, I have a broad base of experience centered on the defense 
industry that has been multidimensional in terms of functions, 
industries and markets and has included both the commercial and 
government sectors. Although my industrial experience has been centered 
on the defense industry, it also includes energy, environmental and 
infrastructure, electronics, government facilities management, 
communication and information systems. Overall, about two-thirds of my 
career was spent in defense, where I was involved in one or more phases 
of over 20 major DOD programs that spanned the entire spectrum from 
under seas to outer space including submarines, surface ships, 
aircraft, tanks, missiles and satellites. In addition, I spent a year 
in the DOD as a White House Fellow, so I believe I had a very good 
understanding of DOD organizations and enterprise processes.
    Finally, I have a management approach that I believe would be 
effective and supportive of Defense Transformation, which is one of the 
key elements of the Secretary's Defense Strategy. This approach can be 
characterized as both results and continuous improvement driven.
    I believe that the combination of successfully leading, managing, 
and changing large, technology based organizations; the broad base of 
industrial experience centered on the defense industry; an effective 
management approach; direct DOD experience and my education have 
prepared me to be the Secretary of the Army.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Secretary of the Army, as set forth 
respectively in section 3013 of title 10, United States Code, or in 
regulations of the Department of Defense pertaining to the functions of 
the Army?
    Answer. I do not have any specific recommendations at this time. If 
confirmed, I will assess current Army duties and functions are 
warranted, and I will make appropriate recommendations to DOD.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Army?
    Answer. The Under Secretary of the Army performs such duties and 
exercises such powers as the Secretary of the Army prescribes. The 
Under Secretary is the Secretary's principal civilian assistant and 
senior advisor on key Army issues. If confirmed, I will review the 
current assignment of functions, responsibilities and duties within the 
Army Secretariat and determine the capacities in which the Under 
Secretary can most appropriately support my efforts to ensure the 
Department of the Army is efficiently administered in accordance with 
the policies set out by the Secretary of Defense.
                             relationships
    Question. What do you see as the relationship between the Secretary 
of the Army and each of the following?
    The Secretary of Defense.
    Answer. The Secretary of Defense, as the head of the Department of 
Defense and the principal assistant to the President in all matters 
relating to the Department of Defense, issues guidance and direction to 
the Military Departments. The Secretary of the Army is subject to the 
authority, direction, and control of the Secretary of Defense. If 
confirmed, I will be responsible to the Secretary of Defense for the 
operation of the Army in accordance with such directives. I will 
cooperate fully with the Secretary of Defense to ensure that the Army 
properly implements the policies established by the Office of the 
Secretary of Defense. I will communicate with the Secretary of Defense 
in articulating the views of the Army.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense prescribes. The 
Deputy takes precedence in the Department of Defense immediately after 
the Secretary. If confirmed, I will be responsible to the Deputy 
Secretary of Defense for the operation of the Army in accordance with 
such directives. I will cooperate fully with the Deputy Secretary of 
Defense to ensure that the Army properly implements the policies 
established by the Office of the Secretary of Defense.
    Question. Other Service Secretaries.
    Answer. The Secretaries of the Military Departments are responsible 
for, and have the authority necessary to conduct, all affairs of their 
respective Departments. If confirmed, I will work closely with my 
counterparts to foster an atmosphere of teamwork and complete trust, 
which I believe is critical to executing U.S. national policy. As 
directed by the President and Secretary of Defense, I will support the 
other Service Secretaries in the accomplishment of their 
responsibilities as needed.
    Question. The Chairman, Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff's (CJCS) 
responsibilities are clearly delineated in title 10, USC, section 153. 
The Chairman of the Joint Chiefs of Staff is the principal military 
adviser to the President, the National Security Council, and the 
Secretary of Defense. The CJCS serves as an advisor but is not in the 
direct chain of command that runs from the President and Secretary of 
Defense directly to the combatant commanders. However, there are 
provisions for the President to direct communications between him or 
the Secretary of Defense and the combatant commanders be transmitted 
through the CJCS. This ensures the Chairman stays informed in order to 
execute his other responsibilities. If confirmed, subject to the 
authority of the President and Secretary of Defense, I will coordinate 
with the CJCS to accomplish the objectives of the National Command 
Authority.
    Question. Chief of Staff, Army.
    Answer. The Chief of Staff of the Army assists the Chairman in 
providing military advice to the President, the National Security 
Council, and the Secretary of Defense. The Chief of Staff serves as the 
Secretary of the Army's principal military adviser. If confirmed, I 
will work closely with the Chief of Staff to ensure that my decisions 
are implemented through the Army Staff and Army commands and agencies. 
I will rely upon the Chief of Staff to communicate Army Staff's plans 
to me and to inform me about conclusions reached by the Joint Chiefs of 
Staff and about significant military operations, to the extent such 
action does not impair the independence of the Joint Chiefs of Staff. I 
will work with the Chief of Staff to establish the best policies for 
the Army in light of national interests.
    Question. Assistant Secretary of the Army for Manpower and Reserve 
Affairs.
    Answer. The Assistant Secretary of the Army (Manpower and Reserve 
Affairs (M&RA)) has the principal responsibility for the oversight of 
manpower, personnel, and Reserve components affairs in the Department 
of the Army. If confirmed, I will work closely with the Assistant 
Secretary to ensure that within the Department of the Army there is 
effective and efficient management of the force and adequate and 
appropriate training. My goal will be to provide soldiers, Department 
of the Army civilians, veterans, and their families with effective and 
clear policies and programs to meet their needs.
    The M&RA was established in 1968 when Congress directed that the 
Army create a new Assistant Secretary for the specific purpose of 
managing manpower and Reserve affairs. The Assistant Secretary of the 
Army for Manpower and Reserve Affairs, on behalf of the Secretary of 
the Army, has the principal responsibility for setting the strategic 
direction and providing the overall supervision for manpower, 
personnel, and Reserve Affairs across all Army components (active, 
Guard, Reserve, civilian, and contractor). The primary policy and 
oversight responsibilities include; human resources, training, 
readiness, mobilization, force management, manpower management, Reserve 
components, Army Review Boards, equal employment opportunity, and civil 
rights.
    Question. Assistant Secretary of the Army for Installations, and 
Environment.
    Answer. If confirmed, I will establish and maintain a close, 
professional relationship with the Assistant Secretary of the Army 
(Installations and Environment). I will encourage direct and open 
communication and will foster an environment of cooperative teamwork 
with this office as well as with the entire Army Secretariat and Staff.
    The Office of the Assistant Secretary of the Army for Installations 
and Environment has responsibility for policy development, program 
oversight and coordination of a wide variety of Army activities. If 
confirmed, I will work closely with the Assistant Secretary to ensure 
that our Army installations are properly maintained and operated; that 
privatization of Army family housing and other infrastructure programs 
continue; and that environmental compliance and clean-up programs are 
being conducted in an efficient and effective manner.
    Question. Assistant Secretary of the Army for Financial Management 
and Comptroller (ASA (FM&C)).
    Answer. If confirmed I see my ASA (FM&C) as my Chief Financial 
Officer, my CFO who is my principal advisor on all financial matters to 
include resource allocation, cost controls and financial 
accountability. The Assistant Secretary of the Army for Financial 
Management and Comptroller has the duty to resource the Army and to 
provide accountability to the American public. If confirmed, I will 
work closely with the Assistant Secretary to ensure that the Department 
of the Army's financial management activities and operations are 
operated properly and efficiently as possible.
    Question. Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology.
    Answer. The Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology serves, when delegated, as the Army 
Acquisition Executive, the Senior Procurement Executive, the Science 
Advisor to the Secretary, and as the senior research and development 
official for the Department of the Army. If confirmed, I will work 
closely with the Assistant Secretary to ensure that all Department of 
the Army matters related to logistics and technology are managed in a 
effective and efficient manner.
    Question. Assistant Secretary of the Army for Civil Works.
    Answer. If confirmed, I will establish and maintain a close, 
professional relationship with the Assistant Secretary of the Army for 
Civil Works. I will encourage direct and open communication and will 
foster an environment of cooperative teamwork within the Secretariat 
and with the Army Staff.
    The Assistant Secretary of the Army (Civil Works) has as the 
principal responsibility for overall supervision of the functions of 
the Department of the Army relating to all aspects of the civil works 
program. If confirmed, I will work closely with the Assistant Secretary 
to ensure the continued effective and efficient management of the many 
programs under his responsibly.
    Question. General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. His duties include coordinating legal and 
policy advice to all members of the Department of the Army regarding 
matters of interest to the Secretariat, as well as determining the 
position of the Army on any legal question or procedure other than 
military justice matters assigned to the Judge Advocate General. If 
confirmed, I will establish and maintain a close, professional 
relationship with the General Counsel to assist him in the performance 
of these important duties.
                     major challenges and problems
    Question. In your view, what are the major challenges that you 
would confront if confirmed as Secretary of the Army?
    Answer. Transforming the force while providing the capability to 
combatant commanders to fight in Iraq, Afghanistan and other theaters 
in the war on terror--while continuing to deter aggression in other 
theaters--is a major challenge. Our Nation is decisively engaged in a 
war fought against global terrorist networks--that will endure, in some 
form, for the foreseeable future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To meet this challenge, we are aggressively transforming 
the Army as we fulfill our task to equip, train, and protect the 
Soldiers we provide to the combatant commanders. We are reshaping the 
Army to create a ``campaign quality with joint and expeditionary 
capabilities.''
    Waging a war while transforming is a complex, potentially high risk 
task; however, we have charted the right course. We are applying 
lessons learned in 2\1/2\ years of war--and examining every aspect of 
how we do business. Our core competencies, however, will endure: to 
train and equip soldiers and grow leaders, and to provide relevant and 
ready landpower to combatant commanders and the joint team.
    We have three immediate objectives, contained in the Army Campaign 
Plan, for our transformation: modularity, rebalancing, and 
stabilization.
    Building modular capabilities--to be able to deploy forces in 
distinct combat or support modules--is already increasing our strategic 
responsiveness and flexibility.
    Rebalancing the size and capabilities of our active and Reserve 
components--to ensure each component is the right size with the right 
capabilities--will help to manage workload for our people and units.
    Stabilizing the force--lengthening time that units are assigned 
together--will increase cohesion by reducing turnover and requirements 
for repetitive retraining on key tasks. This will improve our 
preparedness--or readiness to fight. A key byproduct of our focus on 
improving cohesion will be improvements to levels of predictability--
when people will be deploying and for how long. All of these objectives 
will help to relieve stress on the force.
                              focus areas
    Question. The senior leadership of the Army has established 
immediate focus areas to channel Army efforts on winning the global war 
on terrorism and increasing the relevance and readiness of the Army. 
The focus areas include the soldier, combat training centers and the 
Battle Command Training Program, leader development and education, Army 
aviation, the network, and modularity.
    What is your opinion of the Army's focus areas?
    Answer. I believe the Army's approach to focus on key areas to be 
right on the mark. Last summer, the Army identified 17 areas in need of 
immediate focus to adapt Army organizations and processes to improve 
its ability to do its job--provide trained soldiers and leaders as well 
as the land forces needed by the combatant commanders to fight. 
Progress in the focus areas--that range from preparing soldiers better 
to designing more agile resourcing and planning processes--will make 
the Army better. They are already improving combat and logistical 
capability. This will improve the ability to wage campaigns, as well as 
joint, expeditionary operations.
    Question. In your view, what can be done to improve these focus 
areas?
    Answer.
    a. Soldier--The Army is working to prepare flexible, adaptive 
soldiers supported by their families. This requires soldiers to have 
all the equipment they need to fight and to protect themselves. The 
Army is working to resource and field this equipment, from improvements 
to small arms to body armor. It also requires improving training to 
prepare them to operate and communicate in the environment of irregular 
warfare. Improvements also include working to improve their 
understanding of the Warrior Ethos--the values and attitudes we want 
soldiers to inculcate. Finally, the Army is continuing efforts to 
reinforce families' abilities to be resilient in the face of extended 
deployments.
    b. Network--The Army is working to ensure that the network that 
supports soldiers is fully interoperable with joint applications. The 
Army is executing a top-down, enterprise approach to integrate 
architecture and protocols to improve access and versatility for 
soldiers and their leaders.
    c. Combat Training Centers--CTCs must continue to focus on full 
spectrum training in the contemporary operating environment, including 
greater emphasis on civilians on the battlefield and joint operations.
    d. Leader Development--Training and Leader Development needs to 
continue to improve soldier and civilian institutional training, 
operational experience, and self-development opportunities to better 
prepare our leaders to operate effectively in a joint environment now 
and in the future.
    e. Army Aviation--The senior leadership's guidance to the Army has 
been to make Army Aviation a capabilities based maneuver arm, optimized 
for the joint fight with a shortened logistics tail. I look forward to 
working with the Army's leadership as we review and adjust aviation 
modernization and transformation efforts.
    f. Modularity--The Army is working to complete standard designs for 
combat and support oriented Units of Action, that will replace the 
brigade design prevalent today. This conversion is well underway. The 
Army is working to develop strategies--and provide resources--to man, 
equip, train, and deploy the new modular units of action, many of which 
are already included in deployment schedules.
    Question. If confirmed, do you intend to refocus the Army's focus 
areas, and if so, how?
    Answer. I have no plans at this time. I will participate in 
discussions with the senior leaders in the Army to make an informed 
assessment.
                         investigative reports
    Question. Service Secretaries are regularly called upon to make 
decisions regarding accountability of military and civilian personnel 
based on investigative reports of service inspectors general and field 
commanders.
    What steps do you believe that a Service Secretary should take in a 
case in which the Secretary has doubts about the quality and 
reliability of the legal and factual conclusions in an investigative 
report?
    Answer. I have confidence in the independence and judgment of the 
Inspector General (IG), his staff in the U.S. Army Inspector General 
Agency and field IGs across the Army. These officers and their staff's 
enjoy a reputation and a tradition of honesty and incisive advice to 
the Army leadership. At the headquarters, they receive outstanding 
legal support from the Office of the General Counsel and from the Judge 
Advocate General. Field commanders, and their detailed Inspectors 
General receive the same support from their supporting Staff Judge 
Advocate. If there is ever any doubt as to any of their reports, 
however, there are a number of formal agencies available to the 
Secretary of the Army for additional review. In criminal cases, the 
Secretary can refer matters to the Criminal Investigation Command. If a 
case involved financial integrity, the Secretary can refer matters to 
the Army Audit Agency. Finally, the Secretary of the Army may request 
the Secretary of Defense to have Department of Defense Inspector 
General conduct a review of the matter. In addition to these formal 
structures, the Secretary may direct an independent investigation under 
Army Regulation 15-6 to look into any matter of concern. I am confident 
that as Secretary of the Army, I would have the resources available to 
conduct the full range of independent investigations.
                            title 32, u.s.c.
    Question. The National Guard operates under title 32 of the United 
States Code when performing training while under the control of the 
State governors, and also while performing certain counterdrug 
activities. Legislative proposals to expand this authority to include 
homeland security activities have passed both Houses of Congress.
    What are your thoughts on the adequacy of the present title 32 
statutes to meet the national defense and homeland security needs?
    Answer. Title 32 was originally enacted to ensure that members of 
the National Guard were trained to Federal standards. Title 32 has been 
successful in that members of the National Guard, who have been called 
into Federal service for generations since the enactment of title 32, 
have consistently accomplished their assigned national defense missions 
to the highest standards. Accordingly, title 32 has been effective in 
training members of the National Guard to meet national defense needs.
    Although title 32 has been expanded to permit members of the 
National Guard to perform counterdrug activities while under state 
control in a title 32 status, it is my understanding that Congress 
would have to further amend title 32 to permit members of the National 
Guard to perform homeland security missions while in a title 32 status.
    Question. In your view, is an expansion of authority under title 32 
desirable? If so, why?
    Answer. If confirmed, I will assess the Army's capabilities to 
accomplish its national defense and homeland security missions. I will 
also evaluate how the Army National Guard can best be employed to that 
end within the statutory limitations imposed by Congress.
    Question. It is argued that such an expansion would dilute the 
concept of title 32 as a training status, making it virtually identical 
to title 10 active duty service, while raising significant command and 
control questions. What is your opinion?
    Answer. I agree that, if members of the National Guard are used to 
perform homeland security missions while in a title 32 status, then the 
Army would have to ensure that the guardsman were still adequately 
trained to Federal standards. I would also agree that certain missions 
must be performed while soldiers are subject only to Federal command 
and control; Federal interests would dictate that members of the 
National Guard should not perform such missions while in a title 32 
status.
                       delivery of legal services
    Question. The Secretary of the Air Force has approved significant 
changes in the working relationship between the General Counsel of the 
Air Force and the Judge Advocate General of the Air Force. Information 
available to the committee indicates that the ability of the Judge 
Advocate General and Air Force judge advocates to provide independent 
legal advice to senior leaders may have been undermined, and that the 
morale and effectiveness of the Air Force legal system have been 
adversely affected. The General Counsel of the Army last year expressed 
the opinion that a substantial reduction in the number of judge 
advocates in the Army might be desirable, although evidently no action 
has been taken on the suggestion.
    What are your views about the responsibility of the Judge Advocates 
General of the Services to provide independent legal advice to the 
Service Secretaries, the Chiefs of Staff and other senior military 
leaders, particularly in the areas of military justice, international 
and operational law, including the applicability of the 1949 Geneva 
Conventions?
    Answer. The Judge Advocate General of the Army has specific 
statutory responsibilities set forth in title 10, particularly in the 
areas of military justice and as legal advisor to the Secretary of the 
Army. I look forward to working closely with the General Counsel and 
the Judge Advocate General and their organizations to accomplish our 
Department's mission in the most effective manner possible.
    Question. What are your views about the responsibility of field 
judge advocates to provide independent legal advice to military 
commanders in the field?
    Answer. The independent and accurate legal advice provided by judge 
advocates to commanders in the field is indispensable to the successful 
accomplishment of the Army's mission. If confirmed, I will ensure that 
such advice continues to be available to our commanders at all times.
    Question. If confirmed as Secretary of the Army, what intentions do 
you have with respect to the delivery of legal services in the 
Department of the Army?
    Answer. If confirmed, I intend to fully utilize all of the legal 
expertise provided by our Service's military and civilian attorneys. 
The legal complexities of the current operational environment require 
the Army to leverage all available legal assets and expertise to ensure 
the accomplishment of our Department's mission. To this end, I look 
forward to the support of all Department of the Army attorneys.
                             transformation
    Question. The Comptroller General of the United States has recently 
written that defense transformation is ``a battle the U.S. cannot 
afford to lose'' . . . , and that, ``the U.S. Armed Forces clearly 
deserve an `A' for effectiveness. At the same time, the Department 
earns about a `D' for economy, efficiency, transparency, and 
accountability.''
    The Army has expended a great deal of effort in developing the 
Army's transformation plans.
    Answer. That's exactly right--transformation is a battle the United 
States Army cannot afford to lose. While fighting two wars, the Army is 
decisively engaged with force transformation, our most comprehensive 
since World War II, and we must see this through to victory. Success in 
Army transformation leads to greater success in Afghanistan and Iraq by 
making our forces more situational aware, more deployable and more 
agile to seize opportunities to destroy terrorist organizations. In 
turn, this makes the American people safer.
    Question. Please describe your understanding and assessment of the 
Army's transformation plans, its strengths and weaknesses in each of 
the areas mentioned by the Comptroller General, and what 
transformational priorities you would pursue if confirmed as Secretary 
of the Army.
    Answer. The Army's transformation efforts are directed to build a 
campaign-quality Army with joint and expeditionary capabilities now to 
provide relevant and ready land power to combatant commanders and the 
Joint Force while sustaining operational support to combatant 
commanders and maintaining the quality of the All-Volunteer Force. The 
Army is fulfilling its strategic commitments while simultaneously 
transforming to a modular, capabilities-based force.
                  requirements and planning processes
    Question. For fiscal year 2004, the Department of Defense submitted 
a supplemental request and reprogrammed funds for Operation Iraqi 
Freedom to address force protection equipment shortfalls including 
interceptor body armor, up-armored high-mobility multipurpose wheeled 
vehicles and aircraft survivability equipment. If confirmed as 
Secretary of the Army, you will be responsible for equipping the Army.
    What changes would you recommend to the way the Army prioritizes 
resource allocation to mitigate future force protection shortfalls?
    Answer. The Army, along with the Nation, has experienced a 
significant change in operating environment. We have journeyed from 
being a Nation enjoying a strategic pause with predictability to an 
Army at War with a continuous rotation of forces worldwide to support 
an unpredictable global war on terror. In response, the Army has 
developed flexible and responsive resourcing processes to specifically 
address force protection equipment shortfalls along with other 
identified equipment shortfalls as they arise. I would clearly review 
these processes to ensure that combatant commander, and certainly 
soldier, needs are addressed swiftly and fully with a view towards 
balancing supply and demand to best prioritize all available resources.
    Question. Are there changes in the planning process that you would 
recommend to prepare Army forces for future conflicts or operations?
    Answer. Army planning must be flexible enough to consider the broad 
spectrum of potential missions and not be limited to a handful of known 
or suspected threats. The Army has witnessed the unforeseen and must be 
capable to respond quickly. Capabilities-based planning is a critical 
component of the Army's planning process and nests fully under the 
Department of Defenses efforts to transform defense planning processes. 
I would review the Army's progress to integrate a capabilities based 
planning process and eliminate artifacts from the previous threatbased 
planning process that impede the Army's ability to best posture for 
future conflicts and global operations. We must continue to meet the 
needs of our soldiers in combat today and develop processes to quickly 
provide capabilities needed in a dynamic battlefield.
                                comanche
    Question. While terminating the Comanche helicopter program, the 
Army stated that it would reallocate $14.6 billion, all of the funds 
originally programmed for Comanche development, to critical Army 
aviation shortfalls. In the fiscal year 2005 amended budget request, 
the Army took the first step by reallocating $1.2 billion originally 
requested for Comanche development to other Army aviation programs. The 
Army also requested funding for an armed reconnaissance helicopter and 
a light utility helicopter. Do you support the Army's strategy of 
fixing Army aviation shortfalls using funds originally programmed for 
the development of the Comanche helicopter?
    Answer. Yes. A 6-month study determined that the some of the 
capabilities that the Comanche program would provide were no longer 
consistent with the Current Operational Environment. The reallocation 
of funds previously intended for the Comanche program will allow the 
Army to accelerate air crew protection and Aircraft Survivability 
Equipment (ASE) initiatives to meet the evolving threat and provide 
every aircraft with the best possible equipment; modernize 
approximately an additional 300 helicopters to extend aviation 
capabilities beyond 2020; transform Reserve component aviation; 
purchase approximately 800 new aircraft; accelerate the Unmanned Aerial 
Vehicle (UAV) program to add platforms that extend battlefield 
awareness and strengthen manned-unmanned teaming; and balance current 
and future Army Aviation capabilities.
    Question. Do you agree with the Army's assessment that it has a 
requirement for an armed reconnaissance helicopter and a light utility 
helicopter?
    Answer. I am aware that the Army has a plan to address the 
shortfalls in aviation capability. I look forward to working with the 
Army's senior leadership as we move forward to aggressively implement 
the plan.
    Question. If confirmed, how would you intend to address Army 
aviation capability shortfalls resulting from the Comanche helicopter 
termination?
    Answer. The Army has already or has plans to migrate Comanche 
technologies into existing programs, where possible. As an example, 
improvements in the Forward Looking Infra-Red (FLIR) planned for 
Comanche have been integrated into the Apache program. As an interim 
solution for an armed reconnaissance platform, the Army will procure 
368 helicopters to replace the Kiowa Warrior fleet. Additionally, 
funding from Comanche have been applied for a future Joint Multi-Role 
platform. This will satisfy future force armed reconnaissance 
requirements.
                          future combat system
    Question. The Army's Future Combat System (FCS) consists of 18 
programs and a network. It is managed for the Army by a lead systems 
integrator. The Army recently announced that it was restructuring the 
FCS program to accelerate the network and core FCS programs through 
three spirals in order to provide more network connectivity and 
capabilities to the current force.
    What are your views on the current structure of the Future Combat 
System?
    Answer. The Future Combat System is the engine of transformation 
for the Future Force. This year, the Army recognized the opportunity to 
restructure a technologically aggressive program to not only better 
support the future force, but also to increase the capabilities of our 
current force. By instituting a series of spirals of FCS technologies 
such as the network, intelligent munitions system, the non-line-of-
sight launcher system, and eventually unmanned ground vehicles to the 
current force, valuable insights will be gained on the entire FCS 
program and inserting FCS capabilities that are required for our 
soldiers as they fight the global war on terrorism.
    Question. Do you believe that the Army has undertaken the necessary 
coordination with the Joint Staff and the other services to ensure that 
the Future Combat System network is interoperable with other services 
communication systems and that the Army will have sufficient bandwidth 
to support the Future Combat Systems network?
    Answer. Yes. The FCS Operational Requirements Document provides 
specific Joint interoperability requirements. The Army also recently 
updated our requirements to include the Network Ready Key Performance 
Parameter. The Army is also working closely with OSD and the Joint 
Staff to perform a Network Centric review of the FCS program.
    Question. What are your views on the current role and 
responsibilities of the lead systems integrator?
    Answer. The Lead Systems Integrator provides direct support to the 
Army in requirements development and analysis, and assists in the 
identification, selection and procurement of components, subsystems, 
and systems. The Army maintains oversight and final approval of the 
Lead Systems Integrator's subcontracting and competition plans. In this 
innovative relationship, the Army always has the right of refusal, and 
maintains control of the work product. This process works well for the 
Army and for industry.
    Question. Do you have any funding- or schedule-related concerns 
regarding the Future Combat System restructure?
    Answer. FCS is fully funded and will use evolutionary acquisition 
to develop, field, and upgrade the program throughout its lifecycle. 
FCS will achieve the primary goal of Army transformation which is to 
develop a strategically responsive, precision maneuver force that is 
dominant across the range of military operations. This transformation 
will not be quick or inexpensive, but the Army has demonstrated its 
commitment to resourcing this cornerstone of modernization.
                      stryker brigade combat teams
    Question. When General Shinseki announced Army Transformation in 
October 1999, he established a goal to deploy a combat-capable brigade, 
now called the Stryker Brigade Combat Team, anywhere in the world in 96 
hours. In June 2003, the GAO stated that ``the Army has made 
significant progress in creating brigades that can be more rapidly 
deployed than heavy brigades, but it cannot deploy a Stryker brigade 
anywhere in the world within 4 days.'' Both the department of the 
Defense and Department of the Army stated that they believe that the 
96-hour deployment goal should be retained.
    What are your views on the 96-hour deployability goal for the 
Stryker Brigades?
    Answer. The Army is currently relooking its 96-hour deployablity. 
Specifically the Army wants to best support the combatant commander in 
expeditionary operations.
                            joint operations
    Question. Joint operations of military forces is a key element of 
the transformational goals articulated by Secretary Rumsfeld in facing 
future security threats. If confirmed as Secretary of the Army, what 
would your commitment be to engaging in strategic planning with the 
other Services for plans and programs in support of the joint 
integration of U.S. forces to face future security threats?
    Answer. I enthusiastically support the emphasis on joint 
integration that is so evident in the Army Transformation plan. I 
intend to continue along the path toward even more jointness in 
planning for the future. The Army depends heavily on its partners in 
other services and the Army provides critical security, protection and 
support to elements of other services throughout a typical campaign. We 
must understand and even embrace those interdependencies. I would be in 
favor of any initiatives that bring the services together in the 
strategic planning stage, just like they are always teamed when 
deployed and in harms way. The nature of the challenges to national 
security today are such that no single service is likely to have all 
that it takes to prevail in a campaign or contingency. For reasons of 
collective effectiveness, efficiency, and budgetary discipline, we must 
go about the task of shaping the future force jointly.
                  science and technology (s&t) program
    Question. The defense science and technology program is recovering 
after years of declining budgets. However, the budget request for 
defense S&T still falls short of the Secretary of Defense's goal of 
dedicating 3 percent of the total defense budget to science and 
technology.
    If confirmed, how do you plan to increase the Army science and 
technology program to meet the Secretary's goal?
    Answer. We are a Nation at war. The Army continues to balance the 
needs of the Current Force with those of Army Transformation.
                                 space
    Question. The Army has restructured its program executive office 
for air and missile defense to include Army space efforts, and issued a 
new Army space policy. Are you satisfied that current Department of 
Defense management structures adequately support and protect Army 
equities in space?
    Answer. Current DOD management structures provide adequate support 
for Army space equities. The process of developing joint concept and 
doctrine provides an opportunity and a forum for the Army to actively 
participate in the development of space architectures, programs and 
systems to ensure that they will meet Army required capabilities.
    Question. Are you satisfied with the current level of effort in the 
Army related to space programs? Do you believe these efforts have the 
right focus?
    Answer. The Army has gained an increased appreciation for space-
based capabilities from OIF and OEF. The Army is actively working to 
improve and integrate its space capabilities. Army efforts include new 
material development and synchronization, soldier training initiatives, 
force structure and organizational changes, as well as doctrinal 
updates. The Army's focus has been to push space capabilities forward 
and down to the tactical level, providing the warfighter with increased 
capabilities. Focusing to support the warfighter is a good thing.
    Question. The Army currently defines its space career field as a 
subset of the information technology career field.
    Answer. Space operations are centered on the use of and 
exploitation of information. Space capabilities are currently centered 
on gathering, providing, denying and transmitting information.
    Question. Do you believe the information technology career field 
structure is adequate to support Army space interests?
    Answer. The Army's space capabilities are expanding and becoming 
more diverse. The Army is currently involved in a year-long study to 
determine its future space career field requirements and structure.
    Question. Do you believe that the space career fields of the Army, 
Navy, and Air Force should be integrated?
    Answer. Jointness is always good. However, each Service has its own 
unique operational requirements. The Army needs space personnel who 
understand ground maneuver warfare and are trained and equipped to 
operate in this medium.
                            missile defense
    Management for procurement of the Patriot Advanced Capability-3 
(PAC-3) system has transitioned to the Army, but proper alignment of 
continuing ballistic missile defense research and development efforts 
remains an open question.
    Do you believe that PAC-3 should remain thoroughly integrated in 
the ballistic missile defense system being developed by the Missile 
Defense Agency?
    Answer. Certainly. The Army systems are planned to be fully 
integrated into the Ballistic Missile Defense System (BMDS). The Army 
and MDA remain committed to ensure the integration of the Patriot PAC-3 
program in the BMDS. Additionally, the Patriot retains the mission of 
providing air and missile defense independently of the BMDS. As the 
BMDS evolves its functions of detection, tracking, engagement, and 
interception of threat missiles in all regimes of flight, the Army will 
work with MDA as a team member of the robust BMDS architecture.
    Question. What is your view of the best organizational and 
management structure to support the spiral evolution of PAC-3 air and 
missile defense capabilities?
    Answer. The current structure is probably the best structure in 
today's environment. The current management structure of the Combined 
Aggregate Program, combines the Patriot and MEADS programs. By the 
current International Memorandum of Understanding (MOU), the Program 
Manager, Lower Tier, is the General Manager of the NATO MEADS 
Management and Logistics Agency (NAMEADSMA). NAMEADSMA has issued the 
contract to the international consortium of U.S., Italian, and German 
concerns to develop the MEADS system. The General Manager, a U.S. Army 
officer provides the responsiveness and insight needed by the U.S. 
membership. The incremental acquisition approach balances the needs of 
evolving the Patriot system in the near term and development of the 
objective MEADS system in what we believe will be the most cost 
effective manner to meet the strategic, tactical, and operational needs 
to provide the operational forces the AMD protection needed today and 
in the future as the threat continues to change. Our ongoing 
relationship with MDA ensures the integration and interoperabilty 
continue and provides benefits to a challenging mission area.
                     low density/high demand forces
    Question. If confirmed, how would you address the Army's challenge 
in manning low density/high demand units such as military police, civil 
affairs, and other units?
    Answer. The Army is already undergoing its largest restructuring 
effort in over 50 years to divest of Cold War capabilities and meet the 
demands of the 21st century. This restructuring includes increases in 
military police, civil affairs, intelligence, and other highly stressed 
career fields. Our challenge centers on recruiting and retaining the 
right volunteer force given current and anticipated force levels 
required to support the global war on terrorism.
    Question. Do you believe that the Army needs to field additional 
such units?
    Answer. We continue to assess current and evolving missions and 
will invest in additional capabilities based on Combatant Commander 
requirements.
               prevention and response to sexual assault
    Question. The Senate Armed Services Committee has aggressively 
pursued reports of sexual assault in the military and demanded improved 
efforts by leadership at all levels in the Military Departments to 
prevent and respond to instances of sexual assault against members of 
the Armed Forces. Legislative proposals are now pending which call for 
the development of comprehensive policies and programs to prevent and 
respond to sexual assault and violence against military members, to 
include detailed reporting on an annual basis of instances of sexual 
assault and actions taken in response to substantiated cases. If 
confirmed as Secretary of the Army, you will be responsible for 
carrying out the mandate of Congress to effectively deal with and 
ultimately eliminate, through prevention and training, the crime of 
sexual assault against military members in the Army. You would also be 
responsible for accurate annual reporting of the incidence of sexual 
assault and disposition of substantiated cases, including care for the 
survivors of sexual assault.
    Are you prepared to accept this responsibility, if confirmed, and 
to assign the highest priority to this mandate?
    Answer. I concur with the Secretary of Defense that sexual assault 
will not be tolerated in the Department of Defense. Sexual assault is a 
societal problem based on the criminal misconduct of individual actors. 
In light of the individual criminal responsibility, the ability to 
wholly eradicate the problem is limited. However, I intend to do 
everything within my power to improve on prevention and response to 
sexual assault in the Army. I am aware that the Army has taken 
significant steps in the last year to improve on this issue.
    Question. What is your understanding of the problem as it exists 
today, including the steps taken by the Army in the last 7 months to 
address the problem of sexual assault.
    Answer. In the last 7 months, the Army created a Department of the 
Army Sexual Assault Task Force which studied the problems of sexual 
assault within the Army in the deployed and garrison environment. The 
task force developed an action plan which is currently in the process 
of being implemented addressing a wide range of issues including, but 
not limited to, improved services to victims, improved reporting 
procedures, and Army-wide training on sexual assault prevention and 
response. I will insure the complete implementation of the action plan 
and will remain continuously sensitive and vigilant to the issue of 
sexual assault within the Army.
    Question. What is your estimate of the types and amount of 
resources required to adequately address this problem in the future?
    Answer. I do not have the specifics of either Task Force Report. I 
would not be surprised at a need for additional counselors, 
investigators, and reporting mechanisms, but I cannot guess at the 
requirements. But if confirmed, I would find out quickly.
                             human capital
    Question. The Army has a very large civilian workforce which is 
increasingly integral to support every aspect of the Army's worldwide 
mission. In fiscal year 2004, Congress authorized the Department of 
Defense to design and implement a National Security Personnel System, 
to modernize the civilian workforce and provide needed flexibility for 
management of the civilian workforce.
    What is your vision for an effective human capital strategy for the 
Army's civilian work force?
    Answer. The Army civilian workforce has been and will continue to 
be a major contributor to military readiness, providing continuity, 
expertise, and commitment. The Army's Transformation strategy involves 
developing an objective force that is more responsive, deployable, and 
sustainable than the present force. Civilians must continue to perform 
critical roles, from keeping warfighting organizations ready for 
worldwide deployment today to building the sophisticated tools 
necessary to maintain readiness tomorrow. Civilian workforce readiness 
is critical to the Army's success and must be continuously addressed to 
ensure its viability. NSPS provides an opportunity to develop 
streamlined and flexible processes for recruiting, hiring, pay 
administration, and performance management, within the framework of 
merit principles, accommodation of veterans' preference, and respect 
for employees' right to bargain. I agree with the NSPS Guiding 
Principles of:

        a. Putting mission first
        b. Respecting the individual and protecting rights guaranteed 
        by law
        c. Valuing talent, performance, leadership and commitment to 
        public service
        d. Being flexible, understandable, credible, responsive and 
        executable
        e. Ensuring accountability at all levels
        f. Balancing human resource system interoperability with unique 
        mission requirements
        g. Being competitive and cost effective

    Question. What is your understanding of the National Security 
Personnel System (NSPS) and the status of its implementation in the 
Department of Defense today?
    Answer. The National Defense Authorization Act for Fiscal Year 
2004, signed by President Bush on November 24, 2003, allows DOD to 
establish new personnel rules for the civilian workforce, within the 
framework of merit principles, accommodation of veterans' preference, 
and respect for employees' right to bargain. The law authorizing NSPS 
provides a framework but does not prescribe the specific elements of 
the new system. Secretary of the Navy Gordon England is the DOD Senior 
Executive for NSPS. He is working with the components and OPM to 
design, develop, establish, and implement NSPS. Proposed regulations 
implementing NSPS will be jointly prescribed with the Director of the 
Office of Personnel Management.
                governance of the tricare health benefit
    Question. In October 2003, the Under Secretary of Defense for 
Personnel and Readiness, issued a policy on governance of the DOD 
health care benefit designed to greatly improve the administration of 
TRICARE through the establishment of three geographical regional 
commands, and supported by a health delivery system that ``focuses on 
joint decisionmaking and effective resource allocation.'' Each of the 
Service Secretaries was asked to provide a military flag officer or 
Senior Executive Service civilian to lead one of three regions. To 
date, the Army has declined to support this critical leadership 
requirement. The committee believes that the role of the TRICARE 
Regional Director is key to the effective administration of the uniform 
health care benefit for all uniformed services members, retirees, and 
family members and requires the sustained commitment of each of the 
military departments. The committee further believes that service as 
Director of a TRICARE region is a key qualification for future Army 
medical leaders.
    If confirmed, do you pledge to support the requirement for senior 
flag officer engagement and accountability as a Regional Director for 
the TRICARE program?
    Answer. Managing health benefits is a significant challenge for any 
organization. I am certain this is equally challenging for the Army. 
The Army must provide a competitive health benefit for recruitment and 
retention and meet the title 10 responsibilities to ensure a medically 
ready and deployable force. Finally, the Army must provide the highest 
quality care possible to that force wherever it is deployed. I 
certainly would support the assignment of SES members to these jobs, 
but I believe the decision to assign General Officers as TRICARE 
Regional Office Directors requires much more detailed consideration. We 
need to make sure we have the right people with requisite skills, 
training, and professional development to successfully serve in these 
important positions.
                              devolvement
    Question. This year the Office of the Secretary of Defense (OSD) 
devolved (transferred) several programs to the Services. Many of these 
programs reside in OSD because of the inherent jointness of the 
program.
    If confirmed, how would you plan to maintain the integrity of those 
programs devolved to the Army?
    Answer. The Army will maintain the integrity of those programs by 
enforcing the processes that establish joint program requirements and 
ensuring appropriate funding levels are maintained. Any programs that 
involve international partners, like PAC3/MEADs, will abide by the 
international agreements guiding those programs. The Army will work 
closely with OSD, its sister Services, and international partners to 
ensure requirements are prioritized, resourced, and executed.
                           acquisition reform
    Question. Secretary Rumsfeld testified that the cycle time for 
major acquisition programs conducted over the past several decades 
averages between 8 and 9 years. Others have stated that the cycle time 
may be as long as 15 to 20 years. The Secretary stated that this cycle 
time is not sufficiently responsive to urgent new challenges and 
rapidly emerging technological developments.
    What are your thoughts on specific steps that can be taken to 
reduce the cycle time for major acquisition programs?
    Answer. I understand that the cycle time for major acquisition 
programs can take longer than desired. I will make it a top priority to 
review the steps in the process to see if any reduction in time can be 
achieved.
    Question. Do you see a need for any changes to the existing 
acquisition structure and/or acquisition chain of command?
    Answer. The current structure is fine until my review is complete.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has remained essentially constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on program management, and if so, how do you 
plan to address this problem?
    Answer. The Army is not asking for an increase. Programs are 
managing the increased work load by shifting current personnel. By 
applying risk management to the manufacturing and inspection process, 
personnel have been moved to needed position. There is an Army 
initiative to develop more scientists and interns.
    Question. As the DOD continues to emphasize contracting out and 
competitive sourcing, the skills, training and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts. In addition, the Department's Acquisition Workforce 2005 
Task Force has reported that DOD will be faced with a significant 
demographic challenge as 50 percent of the remaining acquisition 
workforce will be eligible to retire in the next 5 years.
    Do you believe the current acquisition workforce has the quality 
and training to not only adapt to new acquisition reforms, but also 
respond successfully to the increased workload and responsibility from 
managing privatization efforts?
    Answer. There are several programs in place to attract high quality 
personnel. The Director of Acquisition Career Management has 
implemented several initiatives to ensure the workforce continues to 
evolve as a professional workforce. These include complying with 
projected changes in DAWIA II, enforcing higher certification standards 
and supporting advanced training for workforce members. One of my 
priorities will be to evaluate the effectiveness of these initiatives.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Dr. Francis J. Harvey 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Francis J. Harvey, of California, to be Secretary of the Army, vice 
Thomas E. White, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Francis J. Harvey, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Francis J. Harvey
    Dr. Fran Harvey is a successful business executive who has 
extensive experience in leading and managing large organizations, 
particularly program based organizations involved in the development 
and deployment of technology and systems. As part of his results 
oriented management approach, Dr. Harvey places major emphasis on 
business transformation especially through process improvement in 
combination with the application of information technology.
    His broad base of experience has been multi-dimensional in terms of 
industries, functions, and markets. His industrial experience is very 
diverse and includes aerospace and defense, environmental and 
infrastructure, energy, government facilities management, 
communications and information systems and electronics. In the defense 
sector, Dr. Harvey has been involved in over 20 major systems 
development and production programs across a spectrum of platforms 
including submarines, surface ships, aircraft, tanks, missiles, and 
satellites.
    Over the course of his 28-year career with Westinghouse (1969-
1997), Dr. Harvey had direct responsibility for the research and 
development, engineering, manufacturing planning and project management 
functions with major emphasis in the defense and energy areas. In 
addition, he has extensive experience in acquisitions, divestitures and 
joint ventures as well as international experience, particularly in 
Western Europe, Japan, and China. Dr. Harvey also served in the 
Pentagon for 1 year as a White House Fellow, working in the immediate 
office of Secretary of Defense Harold Brown.
    In his last position with Westinghouse, Dr. Harvey was the Chief 
Operating Officer of the Corporation's $6 Billion Industries and 
Technology Group, which consisted of six global businesses (Power 
Generation, Energy Systems, Government & Environmental Services, 
Process Control, Communications and Information Systems and Thermo 
King) operating in 67 countries with 40,000 people. Under his 
leadership, a comprehensive change and improvement program to transform 
the organization was initiated and resulted in significant operational 
improvements.
    Prior to becoming Chief Operating Officer, he served as President 
of the Corporation's $3 billion Defense and Electronics business, which 
was acquired by Northrop Grumman. This business consisted of six 
segments: Combat Systems; Battle Space Management; Command, Control and 
Communications; Information Systems; Naval and Security Systems. He 
also served as President of the Corporation's Government and 
Environmental Services Co. which consisted of three business units--
Department of Energy Facilities Management, U.S. Navy Nuclear Reactor 
Development and Procurement, and Environmental Services. As the Vice 
President of Science and Technology, he directed a 1,000 person center 
which developed and applied technology in 8 major areas: advanced 
materials, microelectronics, advanced energy systems, power 
electronics, materials engineering, information and decisionmaking, 
advanced electromechanical systems and environmental.
    Since leaving Westinghouse in 1997, Dr. Harvey has served on twelve 
different corporate and nonprofit boards, three of which are portfolio 
companies of the Carlyle Group. In 2000 and 2001, he was the interim 
COO of two high-tech start-ups. Most recently, he was Vice Chairman and 
served as acting CEO of the IT Group, Inc., and currently is the Vice 
Chairman of Duratek
    Dr. Harvey began his career in 1969 as a senior engineer at the 
Westinghouse Science and Technology Center, where he published over 50 
scientific papers and reports and was awarded 12 patents.
    Dr. Harvey obtained his BS degree from Notre Dame and his PhD from 
the University of Pennsylvania in Metallurgy and Materials Science.


                            CAREER CHRONOLOGY
DURA TEK, INC--Vice Chairman............................    2002-Present
IT GROUP, INC--Vice Chairman and Acting CEO.............       2001-2002
CORPORATE DIRECTOR--Ten Companies.......................    1997-Present
WESTINGHOUSE ELECTRIC CORPORATION:......................  Chief Operating Officer, Industries and Technology           1996-1997
   Group, Pittsburgh, PA................................
  President, Electronic Systems, Baltimore, MD..........       1995-1996
  President, Government and Environmental Services Co.,        1994-1995
   Pittsburgh, PA.......................................
  Vice President, Science and Technology Center,               1993-1994
   Pittsburgh, PA.......................................
  General Manager, Marine Division, Sunnyvale, CA.......       1986-1993
  General Manager, Electrical Systems Division, Hunt           1984-1986
   Valley, MD...........................................
  Engineering Manager, Marine Division, Sunnyvale, CA...       1982-1984
  New Plant Planning Manager, Marine Division,                 1981-1982
   Sunnyvale, CA........................................
  Deputy Program Manager, Marine Division, Sunnyvale, CA       1979-1981
  White House Fellow, Department of Defense, Washington,       1978-1979
   DC...................................................
  Senior Engineer and Fellow Engineer, Science and             1969-1975
   Technology Center, Pittsburgh, PA....................
                           general background
Education
    Ph.D. University of Pennsylvania (1969), Metallurgy and Material 
Science.
    BS University of Notre Dame (1965), Metallurgical Engineering and 
Material Science.
Honors and Awards
    Tau Beta Pi
    Outstanding Young Men of America
    Alpha Sigma Mu
    Westinghouse Patent Awards
    NSF Fellowship
    White House Fellowship
Publications and Patents
    Author/co-author of 18 Scientific Papers
    Author/co-author of 39 Westinghouse Research Reports
    Inventor/co-inventor of 12 patents
Boards
    Duratek, Inc. (Executive, Audit, Comp. Comm.)
    ViaCLIX, Inc. (2000-2002)
    IT Group, Inc. (Executive, Comp. Comm.)
    Akula Software, Inc. (2000-2002)
    Kuhlman Electric Corp (Comp. Comm.)
    ArtMet.com (2000-2001)
    Bridge Bank (Audit, Comp. Comm.)
    Army Science Board (1998-2000)
    Gardner Technologies
    Powerize.com (1998-2000)
    Santa Clara University (Board of Regents)
Professional and Civic Activities
    Professional Societies

        <bullet> TMS (1965-Present)
        <bullet> ACS (1972-1990)
        <bullet> ASNE (1986-1995)
        <bullet> ASP (1988-Present)
        <bullet> SNAME (1989-1996)
        <bullet> AIA (1995-1996)

    Special Olympics--Westmoreland, County, PA (1974-1978, Exec. 
Committee)
    Santa Clara County Manufacturers Association (1986-1993)
    San Jose Museum of Art (1988-1992; Board of Trustees)
    Jaycees-Franklin Reg. Chapter, PA, (1972-1977; VP, President, 
Chairman)
    San Jose Symphony (1992-1993; Board of Directors)
    Boy Scouts of America--Westmoreland Fayette Council, PA (1974-1976)
    United Way of Santa Clara County 1988-1992; Campaign Cabinet, Vice 
Chairman)
Personal
    Married with two adult children
    Wine
    Golf
    European History
    Skiing
    Astronomy
    Classical Music and Opera
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Francis J. 
Harvey in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Francis Joseph Harvey II.

    2. Position to which nominated:
    Secretary of the Army.

    3. Date of nomination:
    September 15, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 8, 1943; La Trobe, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Louise Dziak Harvey.

    7. Names and ages of children:
    Francis Joseph Harvey III (36 years old).
    Jonathan Charles Harvey (33 years old).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Latrobe High School (1957-1961) Diploma.
    University of Notre Dame (1961-1965) BS, 1965.
    University of Pennsylvania (1965-1969) PhD, 1969.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Self Employed, Los Gatos, CA 1997-Present

        <bullet> DURA TEK, Inc., Vice Chairman.
        <bullet> IT Group, Inc., Vice Chairman & Acting CEO.
        <bullet> Corporate Director, Ten Companies.

    Westinghouse Electric Corporation

        <bullet> Chief Operating Officer, Industries and Technology 
        Group, Pittsburgh, PA, 1996-1997
        <bullet> President, Electronic Systems, Linthicum, MD, 1995-
        1996
        <bullet> President, Government and Environmental Services Co., 
        Pittsburgh, PA, 1994-1995
        <bullet> Vice President, Science and Technology Center, 
        Pittsburgh, PA, 1993-1994
        <bullet> General Manager, Marine Division, Sunnyvale, CA, 1986-
        1993

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    White House Fellow (1978-1979)
    Army Science Board (1998-2000)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Duratek, Inc., (1999 to Present), Director, Vice Chairman
    Santa Clara University (1999 to Present), Regent
    Kuhlman Electric Corp. (2000 to Present), Director
    Bridge Bank (2001 to Present), Director
    Gardner Technologies, Inc. (2002 to Present), Director

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Duquesne Club
    The Metallurgy Society
    Astronomical Society of the Pacific
    Laurel Valley Golf Club
    La Rinconanda Country Club

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Lifetime member of the Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2004 Republican National Committee, $1,000
    2004 Republican National Committee, $2,740
    2003 Republican National Committee, $360
    2002 Republican National Committee, $475
    2001 Republican National Committee, $975
    2000 Republican National Committee, $150
         Tom Campbell Campaign, $1,000
         Campbell Victory Committee, $2,500
         Jim Cuneen Campaign, $450
         Victory 2000 California, $1,000
    1999 Republican National Committee, $150
         George W. Bush Campaign, $1,000

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Tau Beta Pi
    Alpha Sigma Mu
    NSF Fellowship
    Outstanding Young Men of America
    Westinghouse Patent Awards
    White House Fellowship

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``A Steady-State electrochemical Study of the Kinetics of the 
Reaction of Water Vapor with Liquid Pb-Te Alloys'' with G.R. Belton, 
Heterogeneous Kinetics at Elevated Temperatures, Plenum Press, 1970.
    ``The Rate of Vaporization of Tungsten in Argon'', Met. Trans., 
3:1972 (1972).
    ``The High Temperature Oxidation of Tungsten in O<INF>2</INF>-Argon 
Mixtures'' Met. Trans.4:1513 (1973).
    ``The High Temperature Oxidation of Tungsten in CO<INF>2</INF>-
Argon Mixtures'' Met.Trans. 5:35 (1974).
    ``Gas Transport Controlled Oxidation of Tungsten,'' Gordon Research 
Conference, 1973.
    ``The Co-Ti-C System at 1100 C, with R. Kossowsky, Met. Trans., 
5:790 (1974).
    ``Failure of Incandescent Tungsten Filaments by hot Spot Growth,'' 
J. Illuminating Eng. Soc., 3:295 (1974).
    ``The High Temperature Oxidation of Tungsten in H<INF>2</INF>O-
Argon Mixtures,'' Met. Trans., 5:1189 (1974).
    ``The Kinetics of Texture Development and Sulfur Removal in 
Oriented Silicon Iron, with W.M. Swift and K. Foster, Met. Trans. B, 
6B:377 (1975).
    ``The Role of Plasma Heating Devices in the Electric Energy 
Economy'' with M.G. Fey, Met. Eng, Quarterly, 16(2):27 (1976).
    ``A Model of Particle Heat Transfer in Arc Heated Gas Streams'' 
with T .N. Meyer, R.E. Kothmann and M.G. Fey, Proceeding of Int'I Round 
Table on the Study and Application of Transport Phenomena in Thermal 
Plasmas, Odeillo, France, September 1975.
    ``Mass Transfer Model of Halogen Doped Incandescent with 
Application to the W-O-Br Systems, Met. Trans. A, 7A:1167 (1976).
    ``A Model of Heat and Mass Transfer from Liquid Metal Droplets in 
Arc Heated Gas Streams,'' with T.N. Meyer, Gordon Conference on Plasma 
Chemistry (1976).
    ``Magnetite Spheriodization Using an AC Arc Heater, with M.G. Fey 
and C.W. Wolfe, I&EC Process Design and Development. 16:108 (1977).
    ``The Use of Complex Equilibria Calculations in the Design of High 
Temperature Processes,'' presented at the 1977 Fall Meeting of the 
Metallurgical Society, Chicago, October 1977.
    ``A Model of Liquid Metal Droplet Vaporization in Arc Heater Gas 
Streams'' with T.N. Meyer, Met. Trans. B 9B:615 (1978).
    ``Development of a Process for High Capacity Arc Heater Production 
of Silicon for Solar Arrays,'' with M.G Fey, TV.N. Meyer, R.H. Read and 
F.G. Arcella, presented at the 13th Photo Voltaic Specialists 
Conference of the IEEE, June 1978.
    ``Thermodynamic Aspects of Gas-Metal Heat Treating Reactions,'' 
Met. Trans. A, 9A:1507 (1978).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    ???.

    18. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Francis J. Harvey.
    This 29th day of September, 2004.

    [The nomination of Francis J. Harvey was reported to the 
Senate by Chairman Warner on October 7, 2004, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 16, 2004.]
                              ----------                              

    [Prepared questions submitted to Richard Greco, Jr. by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes I do. The establishment of the combatant commands, the 
definition of responsibilities, and most importantly, the focus on 
``jointness'' have enhanced the readiness and warfighting capabilities 
of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The performance of our joint forces in the conflicts that 
have ensued after enactment of Goldwater-Nichols would indicated that 
implementation of these reforms appears to be effective.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the most significant value of these reforms to 
be an improvement in joint warfighting capabilities. Our military is 
now stronger, faster, and more lethal because our Services can work 
better together employing joint systems and resources.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Question. Do you agree with these goals?
    Answer. Yes.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. Periodic review is always appropriate. If confirmed, I am 
committed to working with the Secretary of the Navy relative to any 
desired changes to financial management and provide appropriate 
recommendations.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. If confirmed, I will be responsible for advising the 
Secretary of the Navy on financial management matters and for directing 
and managing all financial activities and operations of the Department 
of the Navy.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect that the Secretary of the Navy will prescribe for 
you?
    Answer. I am not aware of any additional duties at this time but 
the Secretary is involved in several defense-wide taskings from the 
Secretary of Defense, such as implementation of the National Security 
Personnel System. I would expect to support these activities as part of 
his leadership team.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Assistant Secretary 
of the Navy (Financial Management and Comptroller)?
    Answer. My education and professional experience from graduate 
school onward have been in the area of finance, particularly corporate 
finance. After being graduated from the University of Chicago Graduate 
School of Business with an MBA in finance, I worked at The Scowcroft 
Group, advising hedge funds on the risks of international investing. 
After joining Stern Stewart I began to work as a financial advisor to 
Fortune 500 corporations in the areas of corporate finance, performance 
measurement and management, and incentive compensation. I began Stern 
Stewart's Italian operations, bringing modern American principles of 
corporate finance to many major companies and banks in Italy, with 
significant success. We became known as the ``outside CFOs.'' After 
September 11, 2001 I sought to enter government to help in the global 
war on terrorism and applied for the White House Fellowship, which I 
received and subsequently assigned to the Office of the Secretary of 
Defense, where I helped the Secretary and his staff with numerous 
diverse issues. During my year as a White House Fellow I was assigned 
to Baghdad where I served as an advisor in the area of private sector 
development, and upon my return was appointed Acting Director of 
Private Sector Development for the Coalition Provisional Authority 
Representative Office, a position which I held until the dissolution of 
the CPA in June 2004.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. Since I can remember, I have been dedicated to education, 
self-study, and professional training, and the value that they bring 
for self-enhancement and performance improvement. Realizing my lack of 
experience within the Department of the Navy, I intend to avail myself 
of all resources--especially the wealth of experience held by my 
colleagues--to improve my expertise and preparedness for this position.
                             relationships
    Question. If confirmed, what would your relationship as Assistant 
Secretary of the Navy (Financial Management and Comptroller) be with 
each of the following?
    The Secretary of the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is the principal assistant and advisor to the 
Secretary and Under Secretary of the Navy on fiscal and budgetary 
matters. The Assistant Secretary (Financial Management and Comptroller) 
also performs such other duties as the Secretary or Under Secretary may 
prescribe.
    Question. The Under Secretary of the Navy.
    Answer. Please see the answer to A above.
    Question. The other Assistant Secretaries of the Navy.
    Answer. If confirmed, I would ensure that their interests are 
represented in recommending financial alternatives to the Secretary of 
the Navy. I would work to ensure that financial management activities 
of the Department support their respective portfolios.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I am committed to providing the support that 
the CNO requires in order to execute best his duties and 
responsibilities and achieve the mission of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I am committed to providing the support that 
the CMC requires in order to execute best his duties and 
responsibilities and achieve the mission of the Marine Corps.
    Question. Elements of the Navy responsible for financial management 
and comptroller.
    Answer. If confirmed, I would direct and manage immediate staff 
elements of my office and provide policy and oversight for all elements 
of the Navy and Marine Corps performing financial management functions.
    Question. The Assistant Secretaries of the Army and the Air Force 
for Financial Management.
    Answer. If confirmed, I am committed to working closely with the 
Assistant Secretaries of the Army and Air Force in the area of 
financial management to support the efforts of the Secretary of Defense 
and the Under Secretary of Defense (Comptroller) in order to facilitate 
decisionmaking at all levels and achieve the strongest cooperation 
between the services possible. I am committed to working to foster a 
cordial and productive working relationship with these colleagues.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. In the role of Assistant Secretary of the Navy (Financial 
Management and Comptroller), I will, if confirmed, work closely with 
the Under Secretary of Defense (Comptroller) in the development and 
execution of the budgetary and fiscal policies and initiatives of the 
President, the Secretary of Defense, and the Secretary of the Navy.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. One major challenge is advising the Secretary, the CNO and 
the Commandant on resource decisions to provide the capability to fight 
the global war on terrorism in the most effective and efficient manner 
necessary. The other major challenge is improving our business systems 
to ensure that leadership of the Department of the Navy has ready 
access to accurate information in a timely manner. In addition, 
consistent with the efforts already underway at the Department of the 
Navy, I would, if confirmed, continue to look at ways to improve 
performance measurement and management.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller), the Secretary of the Navy, the Chief of Naval 
Operations and the Commandant of the Marine Corps to implement the 
budgetary proposals and systems improvement plans of this 
administration.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
(Financial Management and Comptroller)?
    Answer. The Department under Assistant Secretary Avilles has made 
great progress in providing accurate and timely information. If 
confirmed, I am committed to continuous improvement in this area.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I am committed to studying the present 
situation and developing a strategic plan of action including a 
timeline.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy (Financial Management and Comptroller)?
    Answer. I understand that the Department already has a financial 
management improvement program that is being implemented and a plan to 
begin deployment of a Navy Enterprise Resource Program. If confirmed, 
my intent would be to lead actively and support these efforts.
         civilian and military roles in the navy budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Navy (Financial 
Management and Comptroller) and the senior military officer responsible 
for budget matters in the Navy's Financial Management and Comptroller 
office in making program and budget decisions including the preparation 
of the Navy Program Objective Memorandum, the annual budget submission, 
and the Future Years Defense Program?
    Answer. If confirmed, I will have the responsibility and the 
authority for all budget matters within the Department of the Navy. The 
officer who serves as the Director of the Office of Budget will serve 
under my direct supervision and will be responsible to me for the 
formulation, justification, and execution of the Department's budget. 
The Navy and Marine Corps officers responsible for programming will 
also serve as my principal military advisors in my capacity to oversee 
development of the Department of the Navy program objectives memoranda.
               business management modernization program
    Question. For the past 3 years, the administration has pursued a 
Business Management Modernization Program (BMMP) aimed, in part, at 
correcting deficiencies in the Department's financial management and 
ability to receive an unqualified ``clean'' audit. Two years ago, 
Secretary Zakheim testified before the Senate Armed Service Committee's 
Readiness and Management Support Subcommittee that DOD's financial 
management modernization would be complete by 2007. At that time, he 
stated, DOD would be able to provide a full, repeatable accounting of 
resources and funding.
    Do you expect the Navy to meet that 2007 time line for financial 
modernization?
    Answer. I would defer to OSD on the specific timeline and current 
status. I understand that OSD's Business Management Modernization 
effort has established a timeline for an initial phase that supports 
DOD's 2007 goal of achieving a ``clean financial opinion.'' Modernizing 
financial management in the Department of the Navy will be an ongoing, 
long term effort with interim milestones. If confirmed, I would support 
this effort.
    Question. If that time line cannot be met, would you support 
continuing the BMMP?
    Answer. Establishing an architecture or framework to support our 
business processes and improve system integrity and interoperability 
makes good business sense. As I learn more about the program, it may 
become evident that interim course corrections may be required in which 
case I am committed to making appropriate recommendations.
    Question. The BMMP advocates top-down leadership in establishing an 
enterprise architecture for business systems modernization. The 
Services, however, appear to be pursuing independent pilot programs for 
modernizing business systems, despite the risk that a Service-led 
approach could produce numerous incompatible systems.
    Do you support an OSD-led approach to business modernization?
    Answer. I support OSD leadership in this area.
    Question. If so, what would you do to ensure such an approach takes 
place?
    Answer. As I have indicated, I am committed to working with my OSD 
colleagues to foster a professional and productive relationship. 
However, I am not familiar enough with the details of the program to 
make a recommendation that would ensure OSD leadership.
    Question. A critical requirement of the BMMP is an ``enterprise 
architecture'' that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    In your view, why is establishing an effective enterprise 
architecture so important?
    Answer. An enterprise architecture, as I understand it, provides 
the blueprint or framework within which business processes and 
supporting systems can be integrated and standardized.
    Question. When can Congress expect to see a fully developed 
enterprise architecture?
    Answer. I would defer to the appropriate leadership at OSD to 
respond to the specific timelines associated with the delivery of a 
fully developed architecture.
    Question. One of the key facets of the BMMP is the establishment of 
functional domains.
    Are you supportive of the current construct, or, if confirmed, 
would you plan to advocate revising these functional domains?
    Answer. Again, I am not familiar enough with the details of this 
program. If confirmed, I would work with OSD leadership to make any 
appropriate changes.
                     gao recommendations for reform
    Question. In testimony before the Senate Armed Service Committee's 
Readiness and Management Support Subcommittee this year, the 
Comptroller General of the United States, David M. Walker, offered two 
suggestions for legislative consideration which, in his words, are 
intended ``to improve the likelihood of meaningful, broad-based 
financial management and related business reform at DOD.'' These 
included establishing a senior management position in the Department to 
spearhead DOD-wide business transformation efforts, and giving the 
leaders of DOD's functional areas, or ``domains,'' control of systems 
investments.
    What is your view of these suggestions? Do you agree with this 
statement?
    Answer. I have only recently received a copy of Mr. Walker's 
testimony, and I have not had a chance to review it.
    Question. Mr. Walker testified that the Department of Defense 
should fix its financial management systems before it tries to develop 
auditable financial statements. He explained that: ``Given the size, 
complexity, and deeply ingrained nature of the financial management 
problems facing DOD, heroic end-of-the-year efforts relied on by some 
agencies to develop auditable financial statement balances are not 
feasible at DOD. Instead, a sustained focus on the underlying problems 
impeding the development of reliable financial data throughout the 
Department will be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. I understand that the Department of Defense's financial 
systems date back many decades. As with any system of such age, legacy 
problems are inevitable. However, this does not mean that one does not 
try to achieve optimal improvement or have a vision to work towards.
             government performance and results act (gpra)
    Question. If confirmed as the Assistant Secretary of the Navy 
(Financial Management and Comptroller), what would your 
responsibilities be with respect to the requirements of the GPRA to set 
specific performance goals and measure progress toward meeting those 
goals?
    Answer. If confirmed, I will support the ongoing efforts of both 
the Department of Defense and the Department of the Navy to meet the 
requirements of GPRA, and I will work to ensure that performance 
measures are integrated into the budgetary and financial systems.
    Question. What additional steps can the Navy take to fulfill the 
goals of GPRA to link budget inputs to measurable performance outputs?
    Answer. The Department of the Navy can further expand and develop 
meaningful performance metrics and integrate them into the budgeting 
and decision making process. If confirmed, I am committed to studying 
what has been achieved already and to making appropriate 
recommendations for areas of improvement.
                      leasing major weapon systems
    Question. What is your opinion of leasing versus buying major 
capital equipment?
    Do you believe that leasing is/would be a viable and cost-effective 
option for procuring Department of the Navy equipment?
    Answer. I understand that the Department of the Navy currently 
leases certain equipment, such as computer servers. If confirmed, I 
would need to look at each case individually and conduct a detailed 
business case analysis before being able to determine if buying or 
leasing is the better choice.
                          military pay systems
    Question. The GAO recently completed a report that identified 
extensive problems with the military pay system. Modernizing the 
military pay system is part of the longer term Business Management 
Modernization Program, however, it is essential that corrections be 
made immediately in this system to minimize personal hardships on 
service men and women and their families.
    What will you do to address these pay problems in both the short 
and long term?
    Answer. I recognize that accurate and reliable pay is critical to 
morale and retention of our sailors and marines. If confirmed, I am 
committed to addressing both the short and long term problems 
identified in the report, and will work to ensure our personnel have 
the best possible military pay system.
                         working capital funds
    Question. Are there any changes you would recommend in the policies 
governing working capital funds in the Department of the Navy?
    Answer. If confirmed, it would be my intention to review carefully 
the policies associated with the working capital fund and determine 
what, if any, changes would be desirable.
    Question. Do you believe the scope of activities funded through 
working capital funds should be increased or decreased?
    Answer. Periodic review of alternative financing mechanisms is 
always beneficial. If confirmed, I will review the scope of activities 
funded through the working capital fund.
                  travel and government purchase cards
    Question. The increased usage of government travel and purchase 
cards were significant financial and acquisition reform initiatives of 
the past decade. Concerns, however, have been raised in the past 
several years about the controls put in place for both the travel and 
purchase cards.
    What is the status of Department of the Navy's efforts to ensure 
proper controls are in place that will not jeopardize the benefits 
accrued from the proper use of these cards?
    Answer. It is my understanding that the Department of the Navy, 
under the direction of Assistant Secretary Aviles, has made significant 
progress in improving the processes and controls for use of these 
cards. A combined effort involving senior leadership engagement, 
effective communications and training have resulted in reduced number 
of cases of misuse and record low delinquencies. If confirmed, I would 
support a continuation of these efforts.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S. Code, is necessary before funds for operation and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense?
    Answer. It is my understanding that for certain areas including 
military construction, new starts, and multiyear procurements, funds 
cannot be released until specific authorization is received. I believe 
it to be a key part of the overall budget process and as such it is 
important to have an authorization act before releasing funds.
                      incremental funding of ships
    Question. Recently, the Department of the Navy has begun relying on 
incremental funding for the procurement of ships.
    In your view, what are the likely benefits or advantages of 
incremental funding?
    Answer. I have not yet had an opportunity to study an objective 
analysis of alternative funding mechanisms for shipbuilding but, if 
confirmed, I will give careful consideration to innovative methods of 
meeting future requirements and I look forward to working with this 
committee on these matters.
    Question. What are the likely costs or disadvantages of such 
funding?
    Answer. See above.
    Question. How do you weigh these competing costs and benefits, and 
what approach do you believe the Navy should take toward incremental 
funding of ships?
    Answer. See above.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Financial Management and Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Richard Greco, Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 13, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Richard Greco, Jr., of New York, to be an Assistant Secretary of 
the Navy, vice Dionel M. Aviles.
                                 ______
                                 
    [The biographical sketch of Richard Greco, Jr., which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Richard Greco, Jr.

    Richard Greco, Jr. was appointed a White House Fellow on 
June 28, 2002. He was assigned to the Immediate Office of the 
Secretary of Defense, where he served as a special assistant to 
Secretary Rumsfeld. His activities comprised budgeting and 
finance, public affairs, litigation settlement, international 
aid negotiation, and economic planning for post-conflict Iraq. 
In May 2003, he was assigned to Baghdad where he served for 6 
weeks as a special advisor to Presidential Envoy and 
Administrator of Iraq L. Paul Bremer in the areas of private 
sector development and financial sector modernization. When his 
White House Fellowship ended, Mr. Greco was appointed Acting 
Director of Private Sector Development for the Coalition 
Provisional Authority Representative's Office, where his role 
was to serve as a liaison between the international private 
sector and the Coalition Provisional Authority in Baghdad. 
After the dissolution of the Coalition Provisional Authority in 
June 2004, he was, asked to serve as a consultant to the Office 
of the Secretary of Defense in the area of public affairs.
    Mr. Greco came to government service from the corporate 
finance advisory firm of Stern Stewart & Co., where he was a 
vice president and managing director. He founded and led 
Ambrosetti Stern Stewart Italia, a joint venture in Italy that 
specialized in corporate valuation, fundamental analysis, 
financial market research, and incentive compensation design. 
He was a principal advisor to companies in Italy's automotive, 
retail, and commercial and investment banking sectors and was a 
principal advisor on two corporate finance transactions for his 
Italian clients. In addition, Mr. Greco was a regular lecturer 
at the Luigi Bocconi School of Business in Milan, the LUISS 
University School of Management in Rome, and the Italian 
Association of Financial Analysts. He also served on the board 
of the Italian-language journal of Analytical Finance, AF. 
While at Stern Stewart, Mr. Greco also founded and managed the 
Government Services Division where he specialized in assisting 
government agencies and State-owned enterprises with the 
implementation of modem corporate finance practices.
    Before joining Stern Stewart in 1997, Mr. Greco was an 
associate at The Scowcroft Group, an international investment 
advisory firm founded and directed by General Brent Scowcroft, 
National Security Adviser to Presidents George H.W. Bush and 
Gerald Ford. At The Scowcroft Group, Mr. Greco advised hedge 
fund managers and American corporate executives on managing the 
risks of investing in foreign markets. Also while at The 
Scowcroft Group, Mr. Greco assisted former President Bush and 
General Scowcroft in reviewing and editing their book on the 
foreign policy of the first Bush administration, A World 
Transformed.
    Mr. Greco is the Founder, President, and Chairman of the 
Board of The Montfort Academy, a classical high school for boys 
in Katonah, New York. In 2001, Mr. Greco was elected to the 
Council on Foreign Relations term member program. He is widely 
published and is a frequent lecturer in the areas of post-
conflict reconstruction, corporate finance, American foreign, 
policy, and education. In 2004, he was awarded the Ellis Island 
Medal of Honor. Also in 2004, the National Federation of 
Italian-American Societies named Mr. Greco Man of the Year.
    Mr. Greco holds an MBA in finance from The University of 
Chicago Graduate School of Business, an MA from The Johns 
Hopkins University Paul H. Nitze School of Advanced 
International Studies, and a BS in Chemistry Summa Cion Laude, 
In Cursa Honorion from Fordham University. He lives with his 
wife Marla and their four children in Yonkers, New York. 
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Richard Greco 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Richard Greco, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Financial Management).

    3. Date of nomination:
    September 13, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Bronx, NY; March 5, 1969.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Marla DeGaetano.

    7. Names and ages of children:
    Mary, 4; Richard III, 3; Cecilia, 2; and Claudia, 8 months.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Pelham Memorial High School, June 1987.
    Fordham University, BS, May 1991.
    Columbia University College of Physicians and Surgeons, no degree 
granted.
    University of Chicago, MBA, December 1996.
    The Johns Hopkins University Paul H. Nitze School of Advanced 
International Studies, MA, May 1997.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    The Scowcroft Group, Associate, May 1996-May 1997, Washington, DC.
    Stern Stewart & Co., Vice President and Managing Director, July 
1997-August 2002. Also co-Managing Director of Ambrosettie Stern 
Stewart Italia, a joint venture in Italy between Stern Stewart and an 
Italian consulting firm 1998-2000, New York, NY, and Milan, Italy.
    Office of the Secretary of Defense, White House Fellow, September 
2002-October 2003.
    Coalition Provisional Authority, Acting Director of Private Sector 
Development, November 2003-June 2004, Washington, DC, and New York, NY.
    Office of the Secretary of Defense, Consultant, July 2004-Present, 
New York, NY.
    The Montfort Academy, Consultant, July 2004-Present, Katonah, NY.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    The Board of Governors of the United States Postal Service retained 
Stern Stewart & Co. in 1998 to conduct an audit of the value-based 
financial management system that Stern Stewart had implemented at USPS 
4 years earlier. As an associate at Stern Stewart & Co. in 1998, I 
conducted this audit.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    The Montfort Academy, Trustee and President (will resign if 
confirmed).
    The Children First Foundation, Trustee (will resign if confirmed).
    Cancer Support Network, Director (will resign if confirmed).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations, Term Member.
    Columbus Citizens Foundation (Membership pending).
    American Turkish Council, member of Defense subcommittee.
    Army Navy Club of Washington, DC.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Member of the Advisory Board, New York Young Republican Club, Inc., 
2002-Present.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush-Cheney 2000, $1,000 contribution.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Ellis Island Medal of Honor, 2004.
    Man of the Year Award, National Federation of Italian American 
Societies, 2004.
    White House Fellowship, 2002-2003.
    Johns Hopkins SAIS Bologna Center Half-tuition Fellowship, 1994.
    Fordham University, Full Presidential Scholarship, 1987-1991.
    Membership in Phi Beta Kappa, Kappa Gamma Alpha, Alpha Mu Gamma.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Italy-U.S.: the Strength of Their Relationship. America Oggi. 
October 12, 2003.
    Military Compensation--The Case for a More Flexible System. Stern 
Stewart Evaluation Report. April 2001.
    National Performance Review--A Step in the Right Direction. Stern 
Stewart Evaluation Report. July 2000.
    The Creation of Value in the Italian Banking System. Financial 
Analysis. June 2000. (In Italian).
    Best Practices in Valuation Methodology and Estimation of Cost of 
Capital among Italian Financial Analysts. Journal of the Association of 
Italian Financial Analysts. October 1999. (In Italian).
    Estimation of the Market Risk Premium: Evidence from the United 
States Market. Financial Analysis. October 1999. (In Italian).
    The Strength of EVA for the Public Sector. Il Sole 24 Ore. October 
6, 1998. (In Italian) (with Fabio Fedel).
    The Operationalization of Economic Value Added in the Firm. (In 
Italian). Journal of the Association of Italian Financial Analysts. 
October 1998.
    Turkey at the Crossroads. White House Weekly. Vol. 17(27) 1996. 
(with Arnold Kanter).
    The Markets Bet on Italy: So Do We. International Political 
Economy. Vol. 3(9) 1996. (with Marvin Zonis).
    The Markets are Making a Smart Bet on Italy. Economic Times (The 
Conference Board). Vol. 7(6) 1996.
    Proceedings of the 1991 International Meeting of the 
Electrophoresis Society. Isolation of Metallothionein from Cadmium-
contaminated Isopods. Richard Greco, Donald Clarke, Grace Vernon, and 
Ruth Witkus. 1991.
    Proceedings of the American Association for the Advancement of 
Science. Bioaccumulation of Heavy Metals in Primary Consumers. Vernon 
G., Greco R., Heisey R., Gonazalez G. & Witkus R. 1990.
    Proceedings of the 47th Annual Meeting of the Electron Microscopy 
Society of America. Localization of Heavy Metals in the Hepatopancreas 
of the Terrestrial Isopod Oniscus asellus. Vernon G., Greco R., & 
Witkus R. 1989.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    American Turkish Council (April 5, 2004)--Washington, DC, Business 
Opportunities in Iraq.
    Coalition of Italian American Organizations--New York, NY (February 
26, 2004), Perspectives on Iraqi Reconstruction.
    Council for the United States and Italy at the Brookings 
Institution (February 12, 2004)--Washington, DC, Reflections on 
Rebuilding the Iraqi Economy.
    Young Presidents Organization (YPO) (October 20-26, 2003)--
Florence, Italy Economic Development Strategies for Emerging Countries 
with a Focus on Iraq.
    The Forum Club (September 9, 2003)--New York, NY, The 
Reconstruction of Iraq--Historical Perspectives.
    Ministry of Commerce, Government of Singapore (July 15, 2003), 
Seminar on Iraq: An Overview of Developments and Business 
Opportunities.
    Equity International, The Iraqi Reconstruction Conference (July 2, 
2003), Doing Business in Iraq. Official Coalition Provisional Authority 
Address to Conference.
    The Jordanian-American Business Association (JABA) and the American 
Embassy in Amman (June 5, 2003) Keynote Speaker at a co-sponsored 
conference entitled, ``Doing Business in Iraq.''
    The Jewish Institute for National Security Affairs (JINSA) (April 
10, 2003), Perspectives on Operation Iraqi Freedom and on the Business 
of Defense.
    The Council for the United States and Italy, 19th Annual Young 
Leaders Conference, Atlanta GA (March 30, 2003) After dinner 
presentation, The Bush Administration's Policy in Iraq.
    National Public Radio (NPR), All Things Considered--Houston TX 
(March 21, 2003) The atrocities of the Saddam Hussein's regime--an 
interview.
    Katonah, New York Public Library (March 19, 2003) The Army Corps of 
Engineers--the Face of America Abroad.
    The Council on Foreign Relations, Washington, DC, (October 2002) 
Debate: Resolved, The United States Should Remove Saddam Hussein by 
Force Regardless of International Support.
    The Montfort Academy, Katonah, NY, (October 2001, March 2002) On 
Being a Renaissance Man.
    Excellence in Government Conference, Washington, DC--(August 2001). 
Introduction to the Balanced Scorecard in the Public Sector. (Corporate 
Sponsor of Balanced Scorecard Session at conference.)
    The Italian Association of Financial Analysts--Milan, Italy 
(October 2000) Internet Stocks are Still Overvalued.
    The Italian Association of Financial Analysts--Milan, Italy (April 
2000, October 1999, May 6, 1999, February 24, 1999) Corporate Valuation 
in Italy--What does the market tell us about future expectations of 
Italian firms?
    The Johns Hopkins School of Advanced International Studies--The 
Bologna Center (February 11, 1999) From Government Collapse in Italy to 
Revolution in Turkey--How do Companies deal with Country Risk.
    Bocconi University--Milan, Italy (October 1998), Case studies in 
Economic Value Added.
    Luiss Management University--Rome, Italy (July 16, 1998), Selected 
Methodologies of Security Analysis.
    Infonex Conference--Ottawa, Canada (May 13, 1998), Measuring and 
Optimizing Public Sector Service Delivery.
    Bocconi University--Milan, Italy (April 29, 1998), Implementing 
Economic Value Added in a Firm.
    Fordham University--New York (November 15, 1997), The Future of the 
United States--Italian Relationship.
    CUNY Calandra Italian-American Institute Columbus Lecture Series--
New York (October 28, 1997) U.S. Foreign Policy Initiatives and their 
Impact on the U.S.-Italian Relationship.
    Radio appearance as Special Guest on Issues that Matter, a public-
interest program broadcast on 15 stations in Texas. Topic: Threats to 
United States National Security in the First Decade of the 21st Century 
(April 2, 1997).
    The Young Republican National Leadership Conference--Washington DC 
(March 1997) United States Leadership in Foreign Policy in the 21st 
Century.

    17. Commitment to Testify before Senate Committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Richard Grego, Jr.
    This 28th day of September, 2004.

    [The nomination of Richard Greco was reported to the Senate 
by Chairman Warner on October 7, 2004, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on October 10, 2004.]
                              ----------                              

    [Prepared questions submitted to Gen. Gregory S. Martin, 
USAF, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments as Vice Director, Force Structure and Resources, on the 
Joint Staff from May 1995 through July 1996 and as Commander, U.S. Air 
Forces, Europe from January through August 2003.
    Do you support full implementation of these defense reforms?
    Answer. I fully support the implementation of the Goldwater-Nichols 
Act. These reforms have clearly strengthened the warfighting readiness 
and operational performance of our Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe the Department has embraced these reforms in both 
spirit and intent. As is always the case whenever a major change is 
implemented, the cultural transformation associated with that change 
requires a certain amount of educational and process evolution. As I 
review the conditions, as I remember them, in 1985 and compare them to 
the partnership and teamwork I observe between the Services today, I 
think we all can be proud of the progress that has been made in 
implementing these defense reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my perspective as a nominee to serve as a combatant 
commander, I believe the clear message to all officers that their 
opportunity to progress to positions of higher responsibility depended 
on their knowledge, training and performance in the joint environment 
cannot be overstated and has been a major impetus for bringing about 
the changes envisioned by the Goldwater-Nichols Legislation. Further, 
in addition to strengthening civilian control and clarifying chain of 
command relationships, these reforms have provided a clear and 
unambiguous delineation of the combatant commanders' responsibilities 
and authorities as they relate to the planning and execution of their 
missions. Last, I believe we have made significant progress in building 
joint training, exercises and experiments in a way that brings our 
forces together to create tremendous synergy and quantum increases in 
combat power. As the Commander of United States Air Force in Europe, a 
component of the U.S. European Command, I saw firsthand the positive 
effects and synergy between the Services and the combatant commanders 
in the strategic and operational planning processes, in the development 
of requirements, and in the execution of our operations during a number 
of contingencies including Operations Joint Forge, Joint Guardian, 
Atlas Response, Enduring Freedom, and Iraqi Freedom. Goldwater-Nichols 
strengthened our ability to train, prepare, plan, and execute as an 
integrated force in a joint operational construct. I believe strongly 
in that model.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes. These goals have been central to the development of a 
more integrated, joint capability which in my mind is critical to the 
Services, to DOD, and most importantly, to our country as we move 
forward in an environment where we must be able to predict, respond and 
prevail against conventional, unconventional and asymmetric threats.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. The Goldwater-Nichols Act was implemented to build a more 
joint military capability. It is important to constantly assess how 
well we have progressed since implementing the defense reforms nearly 
20 years ago with regard to their intended purpose. At this point, I do 
not have any proposals; however, if I am confirmed, I will probably see 
issues from a different perspective, and at that point, I will work 
closely with the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff to review options and alternatives for presentation to 
Congress.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command?
    Answer. The duties and functions of the Commander, U.S. Pacific 
Command include exercising command authority over all commands and 
forces assigned to the Pacific Command and prescribing, organizing, and 
employing the subordinate commands and forces to carry out the Pacific 
Command's assigned mission. Fundamentally, that mission is to deter 
attacks against the United States and its territories, possessions, and 
bases, and to protect Americans and American interests and, in the 
event that deterrence fails, fight and win.
    As a combatant commander, the Commander of U.S. Pacific Command is 
responsible to the President and the Secretary of Defense for the 
performance of these duties, the preparedness of its assigned forces, 
and the execution of its missions.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have had operational and command responsibilities for 
nearly 23 of my 34 years of service. In addition to many overseas 
deployments, I have been stationed overseas for nearly 9 years 
including more than 4 years in the Pacific. In addition to flying a 
tour of combat during the Vietnam conflict, I served in various 
positions culminating as Commander, 67th Tactical Fighter Squadron at 
Kadena AB, Okinawa between 1981 and 1985. Since that period, I was 
fortunate enough to have commanded three fighter wings, two of which 
had global deployment responsibilities. As my career transitioned from 
tactical orientation to operational and strategic duties, I served on 
the Joint Staff and then just before my current position, I was the 
Commander of U.S. Air Forces in Europe with a second hat as the 
Commander of NATO's AIRNORTH Headquarters. While in Europe, I was 
responsible to the Commander of the U.S. European Command, for the 
planning and execution of all U.S. and combined air and space 
operations in support of European contingencies, such as Operations 
Joint Forge, Joint Guardian and Northern Watch. Additionally, I was 
responsible for planning and executing, the air operations required 
through Europe to support the U.S. Central Command in conducting 
Operations Enduring Freedom and Iraqi Freedom. While in Europe, I 
worked with Air Chiefs, Chiefs of Defense and, in many cases, Ministers 
of Defense or Heads of State to cement relations, improve 
interoperability and achieve valuable access for basing and overflight 
rights. I believe the opportunities I have had in planning and 
conducting operational activities, coupled with the senior level 
responsibilities I have been assigned in joint and combined 
contingencies have prepared me for combatant commander duties.
    If confirmed as the Commander of the U.S. Pacific Command, I will 
work to continue the strong relationships and partnerships that have 
been established by Admiral Fargo and his predecessors across the 
Pacific region. Further I will ensure the preparedness of the forces 
assigned to the U.S. Pacific Command to execute contingency and 
operational plans in support of that command's assigned mission. 
Lastly, I will ensure PACOM continues to capitalize on the broad 
regional expertise and continuity afforded by component commanders and 
subunified commanders to make certain our National and theater security 
interests are met.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Pacific Command?
    Answer. If confirmed and before taking command, I will have met 
with each of the Service Chiefs, the Chairman of the Joint Chiefs of 
Staff, the Secretary of Defense, many of the Defense Agency heads as 
well as the OSD and State Department Pacific and East Asia Policy heads 
to ensure my understanding of U.S. positions and relationships with the 
Pacific Theater nations. Next I will complete a thorough orientation 
with each of the PACOM staff divisions, subordinate organizations and 
component commanders to ensure I am fully conversant with the issues 
and challenges they face on a daily basis. Importantly, I will master 
theater operational and contingency plans needed to fight and win any 
conflict that may arise. Last, I will develop a carefully constructed 
trip schedule to meet with appropriate military and civilian leadership 
of the nations throughout the Pacific region to better understand their 
concerns while continuing to present a consistent message of U.S. 
policy. I expect this transition to take several months as I pursue 
every opportunity to expand my knowledge and understanding.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, U.S. Pacific Command, to the following officials:
    The Secretary of Defense.
    Answer. The chain of command flows from the President to the 
Secretary of Defense to the combatant commanders. The Secretary is my 
immediate supervisor and I will report directly to him and provide the 
best possible military advice to execute my duties and responsibilities 
in the Pacific. As is custom and traditional practice, I will 
communicate with the Secretary through the Chairman of the Joint Chiefs 
of Staff.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, on occasion, serves as the 
acting Secretary in the absence of the Secretary. During these periods 
my relationship with the Deputy Secretary will essentially mirror my 
relationship with the Secretary. I will endeavor to provide him with 
the best possible military advice and the same level of support as I 
would the Secretary. Otherwise, I will support, consult with, and 
coordinate with him in those areas and issues that the Secretary has 
assigned him to lead for the Department.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy, USD(P), is the 
principal staff assistant and advisor to the SECDEF and DEPSECDEF for 
all matters concerning the formation of national security and defense 
policy and the integration and oversight of DOD policy and plans to 
achieve national security objectives. CDR PACOM works for SECDEF, but 
within these key areas of USD(P) responsibility, CDR PACOM ensures that 
his staff works closely with OSD/P and Joint Staff counterparts in 
responding to SECDEF initiatives and queries, as well as in advancing 
PACOM initiatives. An example of such close coordination is the ongoing 
initiative to improve global force posture.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence is the 
principal advisor to the Secretary of Defense on DOD intelligence 
issues. The Under Secretary is my initial point of entry into OSD for 
intelligence policy, organizational, and functional issues. The Under 
Secretary also transmits the Secretary's instructions to DOD 
intelligence activities.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Title 
10, sec. 163, allows communications between the President or the 
Secretary of Defense and the combatant commanders to flow through the 
Chairman in accordance with the Unified Command Plan. If confirmed, I 
intend to keep the Chairman fully involved and informed by providing 
appropriate recommendations regarding requirements, strategy, doctrine, 
tactics, techniques, and procedures for the joint employment of Pacific 
Command forces.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, sec. 165 provides that, subject to the authority, 
direction, and control of the Secretary of Defense, and subject to the 
authority of combatant commanders, the Secretaries of Military 
Departments are responsible for the administration and support of the 
forces assigned to combatant commands. This responsibility is routinely 
exercised within Service lines via the subordinate Service component 
commander. On occasion it is important to exchange views personally and 
directly with a Service Secretary on issues involving the preparedness 
of forces and their administration and support.
    Question. The Chiefs of Staff of the Services.
    Answer. The Service Chiefs are responsible, in accordance with 
Goldwater-Nichols, to organize, train, equip, and provide trained and 
ready forces for combatant commanders to employ in their area of 
responsibility. The full support and cooperation of the Service Chiefs 
is important to the preparedness of assigned combat forces and the 
missions directed by the Secretary of Defense. Also, as members of the 
Joint Chiefs of Staff, the Service Chiefs have a lawful obligation to 
provide military advice to the Secretary of Defense and President. 
Individually and collectively, the Joint Chiefs are a source of 
experience and judgment that can and should be called upon. If 
confirmed, I intend to conduct a full dialogue with the Chiefs of all 
Services.
    Question. The other combatant commanders.
    Answer. If confirmed, my relationship with the other combatant 
commanders will be one of mutual support, continued dialogue, and 
frequent face-to-face interaction. In today's security environment, 
with special regard to the global campaign against terrorism, an 
atmosphere of teamwork, cooperation, and sharing is critical to 
executing U.S. national policy. As a supporting commander, I will do my 
utmost to assist other commanders in the execution of their assigned 
missions. As a supported commander, I would expect the same from fellow 
combatant commanders.
                     major challenges and problems
    Answer. I have reviewed and agree with Admiral Fargo's five top 
command priorities for PACOM. They are:

        <bullet> Sustaining and Supporting the War on Terrorism
        <bullet> Improving Readiness and Joint Warfighting Capability
        <bullet> Improving Quality of Service for our Men and Women
        <bullet> Reinforcing the Constants in Asia-Pacific Security
        <bullet> Promoting Change and Improving our Asia-Pacific 
        Defense Posture

    These goals positively address challenges that continue to impact 
peace and stability in Asia and the Pacific. Challenges include:

        <bullet> Stability on the Korean Peninsula. Although the 
        likelihood of war is low, the stakes would be high if war 
        occurred, even higher if North Korea continues to pursue 
        nuclear weapons capabilities. Additionally, North Korea raises 
        the risk of WMD proliferation, and for that reason brings a 
        global dimension to this challenge.
        <bullet> Terrorism. Militant extremists are at work in South 
        East Asia, seeking to disrupt peaceful, law-abiding communities 
        striving for freedom and economic prosperity. U.S. Pacific 
        Command must continue to coordinate with other combatant 
        commanders and employ the entire spectrum of American strength 
        and resources, in cooperation with our regional friends and 
        allies to defeat this threat.
        <bullet> Potential for miscalculation, particularly across the 
        Taiwan Straits or in Kashmir. Rapid military modernization or 
        breakdown in regional relationships could build momentum and 
        add to a risk of hostilities.
        <bullet> Transnational threats--such as proliferation, 
        trafficking in humans or drugs, or piracy--recognize no 
        borders. We require a changed approach to meet these complex 
        security challenges.

    Global Force transformation is key to meeting the challenges above. 
I anticipate a broad and continuing effort to implement proposed 
changes for an enduring, enhanced U.S. force posture that can respond 
to the new threat context of the 21st century.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. As is evident, the problems and challenges facing the U.S. 
Pacific Command reflect a new security environment, substantially 
different than that of the 20th century Cold War. This new environment 
is complex, necessitating transformation of our posture and processes. 
Our alliances and friendships with regional neighbors remain eminently 
important, and a joint approach to solving problems remains key.
    Working closely with the Secretary and Chairman, I will continue 
force posture transformation to best meet the challenges of this 21st 
century security environment. Specifically, I intend to:

        <bullet> Continue posturing forces in a manner that ensures 
        agility, flexibility, and readiness. These forces must be 
        rapidly deployable bringing concentrated combat power in light, 
        transportable packages.
        <bullet> While consulting closely with friends and allies, seek 
        a U.S. military presence that is not only enduring but also 
        capable. This presence will reflect the strength and capacity 
        of our friends who share our common views and welcome a U.S. 
        presence.
        <bullet> Posture military force so it is relevant both within 
        and across the region, and able to support national needs 
        anywhere around the globe.
        <bullet> Continue to build on already strong regional 
        relationships through meaningful and substantive dialogue 
        within the Pacific Command area of responsibility. Principle to 
        these efforts is a cogent and effective theater security 
        cooperation plan.
        <bullet> Continue to assess and improve our plans, focusing on 
        capability and places, not bases.
        <bullet> Work closely with the interagency process to solve 
        complex, transnational problems. These issues require long 
        term, multi-faceted solutions that involve concerted efforts 
        across a wide variety of government and international entities.
                            homeland defense
    Question. What is your understanding of the role and responsibility 
of PACOM in homeland defense?
    Answer. PACOM's role in homeland defense is defined in the Office 
of the Secretary of Defense Strategic Guidance Statement for Homeland 
Defense Planning. This guidance tasks development of plans and options 
to detect, deter, prevent and defeat conventional and asymmetric 
attacks against the homeland. Our aim is early detection and defeat of 
our enemies far from U.S. shores. PACOM's plan is fully integrated with 
the ongoing global war on terrorism, combating weapons of mass 
destruction, homeland security, and relevant combatant commander 
contingency plans and activities. In performing its homeland defense 
task, PACOM works closely with and conducts training with State and 
local authorities.
    Question. How do PACOM and NORTHCOM ensure that their overlapping 
missions in this area do not inadvertently create ``seams'' that might 
be exploited by our adversaries?
    Answer. PACOM is coordinating with NORTHCOM to ensure a seamless 
strategy for defense in depth of the U.S. In October 2003, a Command 
Arrangement Agreement was signed which established procedures and 
delineated responsibilities. It prescribes the arrangements necessary 
to support the employment of PACOM forces in support of NORTHCOM 
missions and the control of forces operating in NORTHCOM's Area Of 
Responsibility and Joint Operations Area. Further it establishes the 
methodology under which the transfer of forces between PACOM and 
NORTHCOM will be executed for homeland defense and civil support.
    Question. What are your thoughts on the proposal to create a 
``maritime NORAD?''
    Answer. I am aware of a maritime NORAD concept, but do not believe 
a concrete proposal has been developed. If confirmed I will ensure my 
staff coordinates closely with NORTHCOM and others during development 
of the concept. Maritime domain awareness is a significant issue for 
PACOM. I support the previous commander's Regional Maritime Security 
Initiative (RMSI) to combat transnational threats and enhance maritime 
security awareness and capacity. Secure waterways are vital to peace 
and prosperity in the Asia-Pacific region. RMSI will improve our view 
of the sea space and is gaining momentum in the Asia-Pacific theater.
    Question. How could PACOM forces and expertise contribute to such 
an organization?
    Answer. Though the concept is still under development, a PACOM 
Maritime Intelligence Fusion Center Pacific and the Pacific Shipping 
Coordination Center, will likely contribute to such an organization 
once the concept has matured. Additionally, PACOM Joint Interagency 
Task Force-West and the U.S. Coast Guard may also support the concept. 
PACOM does have forces, expertise and experience to contribute to such 
an organization.
                     global defense posture review
    Question. What are the implications of the proposed global force 
structure changes in the U.S. Pacific Command's area of responsibility?
    Answer. As Admiral Fargo recently noted, the new threat context 
demands profound and enduring improvements in the way we command, 
equip, employ, and station our forces. My understanding of the concept 
is that we will be able to capitalize on the value of our major 
improvements to warfighting capabilities brought about by such things 
as: precision weapons, increased lethality from range, rapid mobility, 
enhanced presentation of the battlespace picture and more responsive 
command and control. These joint capability enhancements will allow us 
to array our forces in a way that places less emphasis on ``near-
location'' before hostilities start, and more emphasis on responsive 
movement of lethal force to the point of greatest effect when required. 
This concept also recognizes the growth and improvement in the 
capabilities of our allies' ability to perform essential warfighting 
tasks. This shift does require, however, strong partnerships with our 
friends and allies to assure access when needed. But in general, this 
concept allows us to rely on speed, mobility, precision, and lethality 
in a way that allows us to pursue a ``places versus bases'' strategy.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula and the diplomatic efforts to persuade North 
Korea to verifiably dismantle its nuclear weapons program?
    Answer. North Korea's nuclear weapons and missile programs along 
with the potential for proliferation is a serious global concern. 
Further, North Korea has continued to pursue nuclear technology and 
nuclear weapons development in a way that can only be destabilizing to 
the region if not checked. While the Six-Party talks continue, I 
believe the forces of the Pacific Command, in consonance with the 
Republic of Korea (ROK) forces, and other Asian partners must provide a 
credible deterrence and be prepared to respond as directed by our 
national leadership. I believe the job of PACOM is to ensure diplomacy 
is backed by viable military capabilities.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile capabilities 
and the export of those capabilities?
    Answer. The Korean peninsula is a place where the likelihood of war 
may be low, but the stakes of such a war are extremely high. I believe 
North Korea's continuing development and proliferation of ballistic 
missile capabilities poses a serious threat to U.S. allies now and to 
the U.S. in the near future.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean peninsula?
    Answer. I believe that having other regional partners' support for 
the U.S.-ROK alliance will contribute to both deterrence and regional 
stability. I also support continuance of global force posture 
transformation in full consultation with the ROK Government while 
strengthening this alliance.
                              south korea
    Question. What is your understanding of the U.S. security 
relationship with South Korea?
    Answer. The ROK-U.S. security relationship as it has evolved over 
the past 50 years has helped to create one of the world's most 
successful nations. As a result, the Republic of Korea has become one 
of the United States' strongest and most helpful allies. The Republic 
of Korea has become the third largest contributor of forces in Iraq, 
while also sending support forces to Afghanistan, the Western Sahara 
and East Timor. The ROK has continued an aggressive effort to modernize 
its military forces in a way that allows the U.S. to relocate some of 
our forward based forces without sacrificing stability or weakening 
deterrence.
    Question. If confirmed, what measures, if any, would you take, in 
conjunction with the Commander of U.S. Forces Korea, to improve the 
U.S.-South Korean security relationship?
    Answer. The relationship between the Commander U.S. Pacific 
Command, and Commander of U.S. Forces Korea is unique and vital. The 
Pacific Command commander's responsibilities are regional in nature and 
include the security situation on the Korean peninsula. The Commander 
in Chief, U.N. Command/Combined Forces Command primary focus is on 
deterrence of a North Korean attack specifically on the Korean 
peninsula, and should that deterrence fail, the ability to fight and 
win against that threat. He is also a subordinate unified commander to 
Pacific Command in his role as the Commander of U.S. Forces Korea.
    Our strong alliance with the Republic of Korea has assured 50 years 
of peace and prosperity for the South Korean people. I will remain 
fully committed to this important alliance and defense transformation 
to include weapons systems enhancements and consolidation of our 
footprint south of the Han River. Such transformation will enhance 
power projection, readiness, and deterrence.
                                 china
    Question. How would you characterize the U.S. security relationship 
with China?
    Answer. We have a constructive relationship with China and we are 
working to promote shared interests with this growing regional and 
economic power. Although the economic relationship between the U.S. and 
China is expanding, there are still hurdles to overcome with regard to 
China's massive growth in military spending, its intentions towards 
Taiwan, and its strategy of increasing regional influence in Asia and 
the Pacific.
    Question. What is the current state of U.S.-China military-to-
military relations?
    Answer. From my discussions with Admiral Fargo, I would 
characterize our military-to-military relations as modest and limited 
to non-warfighting venues, such as high-level exchanges and 
humanitarian assistance/disaster relief cooperation. In the past year, 
I am aware of several U.S.-China reciprocal ship visits to Zhanjiang, 
Shanghai and Guam, along with several other senior military officer 
exchange visits.
    Question. Do you favor increased military-to-military contacts with 
China?
    Answer. Normal military-to-military contact with the Chinese 
military is dependent upon our laws and the interests of the United 
States. In general, such contact should be both transparent and 
reciprocal in nature. Under these guidelines, I am supportive of a 
modest military-to-military relationship. It is clear to me that frank 
discourse clearly aimed at preserving peace and stability throughout 
the region should be the way ahead.
    Question. How do you assess the current cross-Strait relationship, 
and how can we help to prevent miscalculation by either side?
    Answer. Cross-strait relations continue to be an area of concern 
and a sticking point in our efforts to improve relations with China. I 
believe we prevent miscalculation by continuing frank, open 
communication with both parties and by maintaining a constant signal of 
deterrence with ready, credible forces. The foundation of our discourse 
is and will continue to be the Taiwan Relations Act and the three U.S./
China communiques. As President Bush clearly stated, the United States 
opposes any attempt by either side to unilaterally change the status 
quo in the Taiwan Strait.
    Question. What is the proper balance, in your view, between helping 
Taiwan defend itself and preventing miscalculation by the Taiwanese 
government?
    Answer. We should continue to focus our assistance on modernizing 
Taiwan's defensive capabilities, in view of the very rapid pace of 
China's military modernization during these past 5 years. However, we 
need to continue to make it clear that the U.S. will come to the 
assistance of Taiwan only if an unprovoked attack occurs.
    Question. China's economy is growing by as much as 10 percent per 
year, and China it is using that economic growth to fund a substantial 
military modernization.
    In your view, what is China's intent in pursuing such a rapid 
military modernization?
    Answer. In my view, China's rapid military modernization is 
motivated by their desire to determine its own destiny without undue 
influence from outside nations. With that in mind, I believe they want 
to have greater influence over the course of events within the Asia-
Pacific region and they want to insure their own defense as they 
observe other nations in the region grow and gain access to 
sophisticated weaponry such as the nuclear weapons possessed by India 
and Pakistan. That said, we can not be complacent with regard to 
China's modernization.
    Question. On April 1, 2001, a Chinese jet collided in mid-air with 
a U.S. Navy EP-3 aircraft endangering the U.S. personnel and resulting 
in the death of the Chinese pilot.
    What steps have been taken to prevent incidents of this nature from 
occurring in the future?
    Answer. The Military Maritime Consultative Agreement (MMCA), in 
existence since 1996, was established expressly for the purpose of 
reviewing tactics and procedures to ensure safety of Chinese and U.S. 
ships and aircraft operating in proximity of each other. After the 
tragedy, a special session was convened utilizing the MMCA to 
specifically address the issues of surveillance aircraft and 
interceptors. New agreed-upon separation distances and rules of 
engagement resulted. In subsequent months and years, adherence to these 
new rules has been very closely monitored and both sides have acted 
with a reinforced sense of responsibility.
    Question. What steps, if any, still need to be taken?
    Answer. Each nation must be vigilant with regard to violations, 
determined in their demarches and held accountable for those 
violations. This is a safety-of-life issue. For the moment, the MMCA 
remains the venue for bilateral dialogue focused on operational safety.
                                 taiwan
    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. I believe we should continue to focus our assistance on 
modernizing Taiwan's air defense system, their command, control, 
communications, computer, intelligence, surveillance and reconnaissance 
(C\4\ISR) capability, improving their missile defense capability, and 
assisting them in the improvement of their anti-submarine (ASW) 
capabilities.
                      republic of the philippines
    Question. What is the current state of U.S.-Philippine military-to-
military relations and activities?
    Answer. The U.S. and the Philippines have a solid military-to-
military relationship centered on the Philippine Defense Reform (PDR) 
initiative. U.S. support of this initiative is important as the Armed 
Forces of the Philippines (AFP) work to improve their equipment, 
training, logistics and command and control capabilities in an effort 
to create a long term capacity to deal with insurgents and while 
maintaining stability. U.S. military support through Security 
Assistance training, Humanitarian Civilian Assistance projects and 
Special Operations Forces operations and intelligence fusion teams are 
having a positive impact on the Philippines' ability to counter 
terrorist and insurgent activities within their nation.
    Question. Do you believe that the U.S. military should support 
Philippine efforts to fight the Abu Sayaff Group and other terrorists 
in the Philippines? If so, how?
    Answer. Yes, I believe we should support the Philippine effort to 
fight terrorist activities in the Philippines. As outlined above, 
however, that support should be limited to providing training, 
intelligence fusion and logistics support to the Armed Forces of the 
Philippines as they pursue counter terrorist activities.
                               indonesia
    Question. Is the Indonesian government fully cooperating with the 
United States in the global war on terrorism?
    Answer. I believe the Indonesian government's position and support 
for the global war on terrorism has been helpful since the 2002 Bali 
terrorist attack and their response to the most recent attacks on the 
Marriott Hotel and the Australian embassy demonstrates their resolve. 
The recent elections bode well for strengthening their support on the 
global war on terrorism.
    Question. If confirmed, what would you do to encourage respect for 
human rights in the Indonesian military?
    Answer. I believe it is important to continue security cooperation 
activities with the Indonesian military (TNI) that demonstrate the 
importance of civilian control of the military, respect for the rule of 
law and human rights. The PACOM 2-year plan for Security Cooperation 
with Indonesia lays out a carefully designed approach to improving 
senior level exchange opportunities while encouraging a coherent series 
of educational conferences, seminars and workshops, all oriented 
towards instituting civilian control of military and adhering to the 
rule of law in conducting military activities. One of my early 
objectives, if confirmed, would be to better understand how well we 
have been able to proceed with the objectives of the 2-year plan and 
determine in conjunction with the Joint Staff, OSD and the Ambassador 
if alterations should be considered. We should continue to serve as a 
role model for the TNI, shaping their reform through positive 
engagement in accordance with Department of Defense, Department of 
State regulatory procedures and the Leahy Amendment.
    Question. If confirmed, would you recommend more or less military-
to-military contacts with Indonesia? What would you want to achieve 
with any recommended change?
    Answer. In general, I believe that increased military-to-military 
contacts serve to benefit TNI reform, bi-lateral relationships, and 
regional stability. But those contacts should be tempered by clear 
objectives and progress towards the basic principles we hold dear. We 
should be supportive of Indonesia's efforts to strengthen its 
democratic institutions, and reinforce the concept of a military force 
subservient to the civilian government with an abiding respect for the 
rule of law. Given the strategic location of Indonesia and the 
opportunity to establish an important democratic model in the world's 
most populous Muslim nation, I believe we should be proactive within 
the dictates of congressional and Title 10 authorities in building our 
military-to-military relationships.
                   global strike and missile defense
    Question. Unified Command Plan 2002 Change-2 assigns to Strategic 
Command overarching responsibility for planning, integration, and 
coordination of global ballistic missile defense as well as planning, 
command and control, and conduct of prompt global strike. However, many 
of the details of Strategic Command's relationships with other 
combatant commands with respect to these new responsibilities remain to 
be worked out.
    What is your understanding of the current relationship between the 
commander of PACOM and the commander of STRATCOM with respect to 
ballistic missile defense deployment and operations?
    Answer. The current command arrangements provide the flexibility to 
respond to diverse challenges using the full power of the United 
States. PACOM is responsible for the defense of U.S. territory and 
interests within its AOR including the missile defense of Hawaii. In 
those responsibilities, PACOM is supported by STRATCOM, as is NORTHCOM, 
in the planning, integration, and coordination of global ballistic 
missile defense operations and support (sea, land, air and space based) 
for missile defense and for developing desired characteristics and 
capabilities for global missile defense and support for missile 
defense.
    Question. What is your understanding of the current relationship 
between the commander of PACOM and the commander of STRATCOM with 
respect to global strike operations and mission planning?
    Answer. STRATCOM will be the supported commander for Global Strike 
course of action development in full partnership with the affected 
Geographic Combatant Commander (GCC). PACOM, in coordination with other 
GCCs, functional COCOMs, and government agencies, will participate in 
Global Strike collaborative planning in order to provide appropriate 
close, timely coordination during course of action development. The 
Secretary of Defense will designate supported and supporting 
relationships for execution upon course of action selection. The 
affected GCC will normally execute subsequent Global Strike operations 
as the supported commander in his Area of Responsibility. If directed, 
CDRSTRATCOM shall exercise command and control of selected Global 
Strike missions, as directed by the Secretary of Defense, in close 
coordination with the affected GCC.
    Question. Would you recommend any changes in these relationships?
    Answer. Not at this time. For both Ballistic Missile Defense and 
Global strike, the current command arrangements provide the flexibility 
to respond to diverse challenges using the full power of the U.S.
                                 space
    Question. The U.S. military is dependent on space assets for 
communications; intelligence, surveillance and reconnaissance; 
navigation; and weather data.
    Geographical distances in the Pacific theater make this reliance 
even more pronounced in Pacific Command.
    What are the strengths and weaknesses, in your view, of the support 
Pacific Command receives from U.S. military and intelligence space 
assets?
    Answer. Clearly, the advantage of having space assets is our 
ability to have access to information, communications, and intelligence 
without violating the sovereignty of or depending on other nations. In 
the PACOM area of responsibility, where they face the ``tyranny of 
distance'' in all they do, the use of space systems is crucial in their 
ability to plan, coordinate and properly command and control the full 
spectrum of their responsibilities. With that in mind, it must also be 
said that with the worldwide explosion in information technology, along 
with the shadowy activities associated with transnational threats and 
global terrorists, our current space communications and intelligence 
assets are seriously constrained in their ability to deliver the 
quantum increases of information available and necessary to conduct all 
missions required of the PACOM. Further, our intelligence satellites 
are limited in number, capacity and exploitation capability to be able 
to cover all of the areas of interest necessary for our national 
leadership and combatant commanders to be as prepared as desired to 
counter emerging threats.
    Question. What actions would you recommend to correct any weakness 
you have identified?
    Answer. As the Department of Defense proceeds with the Future 
Imagery Architecture, MILSATCOM upgrades, Transformational Satellite 
communications, space based radar, operationally responsive space, the 
joint warfighting space initiative and the horizontal integration of 
those capabilities with airborne assets, we will begin to reduce the 
shortages we face in sensor, bandwidth and exploitation availability 
and capability, and I support these efforts.
    Question. The Air Force and Congress have taken a recent interest 
in ``operationally responsive space.''
    Do you believe that operationally responsive space launch and 
payloads could contribute to Pacific Command's military capabilities?
    Answer. Yes, an operationally responsive space concept would 
provide PACOM with a way to mitigate our communications and 
intelligence, surveillance and reconnaissance shortfalls. Having a 
readily available supply of mission-specific satellites and the ability 
to place them in orbit when required, instead of using the current, and 
rather inflexible, launch schedule, would give the theater a much 
needed ability to fill in gaps in space-based support
                                 socom
    Question. What is your understanding of the relationship between 
Special Operations Command teams working to fulfill the global 
terrorism mission, U.S. Pacific Command, and the Ambassadors in the 
relevant countries?
    Answer. The relationship between Special Operations Command teams, 
U.S. Pacific Command and Ambassadors in relevant countries has been 
well received and productive. U.S. Pacific Command works efficiently 
and effectively to ensure all SOF operations are fully coordinated and 
supported by Joint Staff, SOCOM, and U.S. Ambassadors in relevant 
countries. If confirmed, I intend to maintain a close relationship with 
Ambassadors in theater.
    Question. Under what circumstances in executing the global war on 
terrorism would the Pacific Command support SOCOM?
    Answer. PACOM fully supports SOCOM in their role as lead for GWOT 
planning. In some cases, where a counterterrorism action occurs across 
an AOR boundary or if control of forces is more easily exercised from 
SOCOM Headquarters at MacDill AFB, SECDEF may direct PACOM forces to 
support SOCOM operations.
    Question. Do you foresee circumstances in the global war on 
terrorism where PACOM would be the supported command? If so, under what 
circumstances?
    Answer. Yes. In situations where a theater or regional operation 
requires unique capabilities beyond PACOM's Special Operations Forces, 
I would anticipate the SECDEF directing SOCOM to support PACOM 
operations. In cases where SOCOM is supported, PACOM's security 
cooperation arrangements will play an important role in supporting 
SOCOM and in ensuring the long-term goal of peace and stability in the 
Pacific theater.
     prisoner of war/missing in action (pow/mia) accounting efforts
    Question. If confirmed, what plans do you have to enhance POW/MIA 
efforts in the area of responsibility (AOR) of the Pacific Command?
    Answer. I am aware that since the creation of the Joint POW/MIA 
Accounting Command in October 2003, the Commander of the U.S. Pacific 
Command now has worldwide responsibilities with regard to the proper 
accounting for our POW/MIAs. Although I have a great deal to learn 
regarding the details of JPAC's operations, I fully understand the 
priority our Nation places on this issue. It is my solemn belief that 
the noble mission of JPAC and the U.S. Governments' commitment to 
accounting for our missing from past conflicts is a powerful signal to 
our Nation's military and their families that we believe strongly in 
the full accounting for each and every person who serves this Nation.
    Question. What steps need to be taken to further accomplish the 
objective of finding or accounting for all POW and MIAs in the PACOM 
AOR ?
    Answer. As I learn more about the agreements and relationships we 
have made with other nations and organizations which allow the JPAC to 
accomplish its mission, I will work to improve the security cooperation 
arrangements and to support technological enhancements that might offer 
the JPAC greater access and opportunity to discover our missing 
warriors.
    In the context of maintaining and improving PACOM's engagement 
strategy, and fully recognizing the POW/MIA effort as humanitarian, I 
will establish an environment to encourage full cooperation by the host 
nations where we conduct POW/MIA activities and continue to reinforce 
the U.S. Government priorities as I meet and talk with the leaders of 
these countries.
    I will ensure that JPAC is fully resourced to accomplish its 
mission and pledge that we will not compromise the integrity of the 
mission or the ability of the U.S. Government to provide the fullest 
possible accounting to the families of our Nation's unaccounted for.
                   policies regarding sexual assault
    Question. The previous Commander of the U.S. Air Forces, Pacific, 
conducted a comprehensive survey on the incidence of sexual assault in 
the U.S. Pacific Command AOR in 2003. The Air Force recently completed 
a Report Concerning the Assessment of USAF Sexual Assault Prevention 
and Response which concluded, among other findings, that the Air Force 
must develop a sexual assault prevention and response policy, integrate 
databases to report and track rapes, and develop victim treatment and 
assistance capabilities.
    How do you assess the progress of the Air Force in responding to 
the problem of sexual assaults in the ranks?
    Answer. First, let me say that the U.S. Air Forces Pacific effort 
served as a model for what we did across the Air Force. While we have 
made progress in the Air Force on responding to the problem of sexual 
assaults in our ranks, I and other senior leaders have attempted to 
accelerate our efforts. Our Secretary and Chief of Staff have taken 
aggressive steps to address the problem and established a 3-star level 
working group with all Major Air Command Vice Commanders to look at the 
problem in-depth. The USAF approach is founded on our Air Force core 
values: Integrity, Service, and Excellence--which are used more 
explicitly to develop, train, and reinforce expected behaviors. At the 
next level down we are focused on a concept we call the ``Culture of 
Airmen'' which means, essentially, that airmen take care of airmen, and 
one airman should never hurt another airman. Our first priority has to 
be to take care of one another--in all situations. That effort is long-
term. Finally, the Air Force is determined to offer sensitive care to 
those victims of assault from notification until no longer needed, 
however long that may take. The United States Air Force has always had 
a policy of zero-tolerance for any type of harassment, including sexual 
harassment, and of course sexual assault is a criminal violation of the 
Uniformed Code of Military Justice, and we aggressively pursue and 
prosecute members who commit this crime.
    Question. If confirmed as Commander, U.S. Pacific Command, what 
steps would you take to ensure the Army, Navy, Air Force, and Marine 
Corps forces under your command are appropriately implementing policies 
aimed at preventing sexual assaults and appropriately responding to 
victims of sexual assault?
    Answer. As one of my very first actions, if confirmed, I would 
reissue under my signature the memo Admiral Fargo sent to all 
commanders across Pacific Command directing a zero-tolerance policy for 
sexual harassment and requiring swift justice and harsh punishment for 
those who fail to comply or who commit sexual assault. I would also 
direct that we take all actions to protect our people from assault and, 
if necessary, consistently and appropriately respond to victims of 
sexual assault. Let me be clear. Sexual assault is a crime and will not 
be tolerated. I will ensure appropriate measures are taken when a 
sexual assault is reported to include ensuring that allegations are 
fully investigated and all available services for sexual assault 
victims are made available. I am strongly committed to ensure that 
comprehensive measures are implemented to prevent sexual assault, 
provide responsive care and treatment for victims of sexual assault, 
and hold accountable those who commit the crime of sexual assault.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Pacific 
Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Gen. Gregory S. Martin, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 7, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, United States Code, 
section 601:

                             To be General.

    Gen. Gregory S. Martin, 0000.
                                 ______
                                 
                       Department of the Air Force,
                     Headquarters, United States Air Force,
                                    Washington, DC, 20 August 2004.
The Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: The President, under the provisions of section 
601, title 10 of the United States Code, has submitted to the Senate 
the nomination of General Gregory S. Martin from Commander, Air Force 
Materiel Command, Wright-Patterson Air Force Base, Ohio, to Commander, 
United States Pacific Command, Camp H.M. Smith, Hawaii.
    General Martin is replacing Admiral Thomas B. Fargo, United States 
Navy, upon his departure. Confirmation action during September 2004 
will help ensure a smooth transition for General Martin. This action 
will not result in the Air Force exceeding the number of generals 
authorized by law.
    For the information of the committee, I am enclosing a military 
history on General Martin.
            Sincerely, 
                                    Roger A. Brady,
                                  Lieutenant General, USAF,
                                  Deputy Chief of Staff, Personnel.
Attachment:
Military History.
                                 ______
                                 
    [The biographical sketch of Gen. Gregory S. Martin, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                Resume of Gen. Gregory S. Martin, USAF,
Date and place of birth: 24 April 1948; Fort Myer, VA.

Years of active service: Over 34 years as of 3 June 2004.

Schools attended and degrees: USAF Academy CO, BA, 1970; Central Mich 
        Univ, MAS, 1977; Squadron Officer School, 1974 National War 
        College, 1986.

Joint specialty officer: Yes.

Aeronautical rating: Command Pilot.

Major permanent duty assignments:  

------------------------------------------------------------------------
                                                        From       To
------------------------------------------------------------------------
Stu UPT, 3641 STUS, ATC, Laredo AFB TX..............   Jun. 70   Sep. 71
Stu Plt, Tac Fight, 4546 TTS, TAC, George AFB CA....   Sep. 71   Oct. 71
Stu Plt, Tac Fight, 35 TFS, TAC, George AFB CA......   Oct. 71    May 72
Acft Cmdr, F-4E, 469 TFS, PACAF, Korat RTAFB TH.....    May 72   Oct. 72
Acft Cmdr, F-4D, 555 TFS, PACAF, Udorn RTAFB TH.....   Oct. 72   Oct. 72
Acft Cmdr, F-4D/E, 421 TFS, PACAF, Udorn RTAFB TH...   Oct. 72   Jun. 73
Acft Cmdr, F-4D, 417 TFS, TAC, Holloman AFB NM......   Jun. 73   Jun. 75
Inst Plt, F-4D, TAC, Holloman AFB NM................   Jun. 75   Nov. 75
Asst Flt Cmdr, Inst Plt F-4D, TAC, Holloman AFB NM..   Nov. 75   Jul. 76
Air Ops Off, Tac Div, ASTRA, HAF, Pentagon DC.......   Jul. 76   Jan. 77
ASTRA Spl Asst DCS P&O, HAF, Pentagon DC............   Jan. 77   Aug. 77
Aide to Chief of Staff, HAF, Pentagon DC............   Aug. 77   Sep. 78
Exec Off, 461 TFW, TAC, Luke AFB AZ.................   Sep. 78    May 79
F-15 Flt Cmdr, Inst Plt, 461 TFW, TAC, Luke AFB AZ..    May 79    May 80
F-15 Inst Plt, Asst Ops Off, 461 TFW, TAC, Luke AFB     May 80   Dec. 81
 AZ.................................................
Asst Ops Off, 67 TFS, PACAF, Kadena AB JA...........   Dec. 81   Apr. 82
Asst Ops Off, Inst Plt F-15C, 67 TFS, PACAF, Kadena    Apr. 82   Sep. 82
 AB JA..............................................
Chief Ops Tng Div, 18 TFS, PACAF, Kadena AB JA......   Sep. 82   Jun. 83
F-15 Ops Off, 12 TFS, PACAF, Kadena AB JA...........   Jun. 83   Jan. 84
Cmdr 67 TFS, PACAF, Kadena AB JA....................   Jan. 84    May 85
Asst Dep Cmdr for Ops, 67 TFS, PACAF, Kadena AB JA..    May 85   Jul. 85
Student, National War College, Ft McNair DC.........   Jul. 85   Jul. 86
Ch, CONUS Bases Div, HQ USAF, Pentagon DC...........   Jul. 86   Apr. 87
Ch, Tac Forces Div, HQ USAF, Pentagon DC............   Apr. 87   Jul. 88
Vice Cmdr, 49 TFW, TAC, Holloman AFB NM.............   Jul. 88   Jul. 89
Exec to Comdr, TAC, Langley AFB VA..................   Jul. 89   Apr. 90
Asst DCS, Plans, TAC, Langley AFB VA................   Apr. 90   Aug. 90
Cmdr, 479 TTW, TAC, Holloman AFB NM.................   Aug. 90   Aug. 91
Cmdr, 33 TFW, TAC, Eglin AFB FL.....................   Aug. 91   Oct. 91
Cmdr, 33 FW, TAC, Eglin AFB FL......................   Oct. 91   Jun. 92
Cmdr 33 FW, ACC, Eglin AFB FL.......................   Jun. 92   Jun. 93
Cmdr, 1 FW, ACC, Langley AFB VA.....................   Jun. 93    May 95
Dep Dir (Force Struc & Resrcs), J8, Jt Staff,           May 95    Jul 96
 Pentagon DC........................................
Dir, Oper Rqmts, AF/XOR, HQ USAF, Pentagon DC.......   Jul. 96   Jul. 98
Prin Dep Asst SAF for Acquisition, SAF/AQ, HQ USAF,    Jul. 98   Jan. 00
 Pentagon DC........................................
Cmdr, United States Air Forces in Europe, Cmdr,        Jan. 00   Aug. 03
 Allied Air Forces Northern Europe, NATO, AF
 Component Cmdr, USEUCOM, Ramstein AFB, GE..........
Comdr, Air Force Materiel Command, Wright Patterson    Aug. 03   Present
 AFB, OH............................................
------------------------------------------------------------------------

Promotions:

------------------------------------------------------------------------
                                                               Effective
                                                                 date
------------------------------------------------------------------------
Second Lieutenant...........................................    3 Jun 70
First Lieutenant............................................    3 Dec 71
Captain.....................................................    3 Dec 73
Major.......................................................    4 Dec 78
Lieutenant Colonel..........................................    1 Dec 82
Colonel.....................................................    1 Dec 86
Brigadier General...........................................    1 Jul 93
Major General...............................................    1 Jul 96
Lieutenant General..........................................   27 Jul 98
General.....................................................    1 Jun 00
------------------------------------------------------------------------


Decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with two Bronze Oak Leaf Clusters
    Distinguished Flying Cross
    Meritorious Service Medal with three Bronze Oak Leaf Clusters
    Air Medal with two silver and one Bronze Oak Leaf Cluster
    Air Force Commendation Medal

Summary of joint assignments:

------------------------------------------------------------------------
           Assignments                  Dates               Grade
------------------------------------------------------------------------
Aide to the CSAF, HQ USAF,          Jul. 77-Jul. 78  Captain
 Pentagon DC \1\.
Vice Dir (Force Structure &          May 95-Jul. 96  Brig. Gen
 Resources), J-8, Joint Staff,
 Pentagon DC.
Commander, United States Air        Jan. 00-Aug. 03  Gen
 Forces in Europe, Commander,
 Allied Air Forces Northern
 Europe, North Atlantic Treaty
 Organization and Air Force
 Component Commander, United
 States European Command,
 Ramstein AB, Germany.
------------------------------------------------------------------------
\1\ Joint Equivalent

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent to the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Gregory 
S. Martin, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gregory S. Martin.

    2. Position to which nominated:
    Commander, United States Pacific Command, Camp H.M. Smith, Hawaii.

    3. Date of nomination:
    September 7, 2004.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 24, 1948; Fort Myer, Virginia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Wendy Bliss Martin (maiden name is Bliss).

    7. Names and ages of children:
    Daughter: 1Lt Tracie Lyn Martin, 28 years old.
    Son: Aaron Todd Martin, 25 years old.
    Son: Tyler Webster Martin, 18 years old.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Military Liaison to the Dayton Business Committee.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    USAF Academy Association of Graduates
    Order of the Daedalians
    Air Force Association
    Veterans of Foreign Wars
    National Geographic Society
    Military Officers Association of America
    Air Force Sergeants Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements other than those 
listed on the service record extract provided to the committee by the 
executive branch.
    Honorary Doctorate, University of Maryland, University College.
    Medal of Commander of Order and Valor (Cameroon).
    Medal of Merit, Gold (Netherlands).
    Legion of Honor (France).
    Cross of Merit (First Class) of the Minister of Defense of the 
Czech Republic.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                             Gregory Stuart Martin.
    This 12th day of July, 2004.

    [The nomination of Gen. Gregory S. Martin, USAF, was 
withdrawn by the President on October 7, 2004.]


TO CONSIDER THE NOMINATIONS OF JOSEPH F. BADER AND R. BRUCE MATTHEWS TO 
  BE MEMBERS OF THE DEFENSE NUCLEAR FACILITIES SAFETY BOARD; OTIS W. 
 BRAWLEY AND VINICIO E. MADRIGAL TO BE MEMBERS OF THE BOARD OF REGENTS 
  OF THE UNIFORMED SERVICES UNIVERSITY OF THE HEALTH SCIENCES; AND TO 
                  VOTE ON CERTAIN MILITARY NOMINATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to recess, at 3:18 p.m. in 
executive session in Room SR-222, Russell Senate Office 
Building, Senator John Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Ensign, Talent, Chambliss, Cornyn, Levin, 
Akaka, E. Benjamin Nelson, Dayton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Stanley R. O'Connor, Jr., professional staff 
member; Paula J. Philbin, professional staff member; Lynn F. 
Rusten, professional staff member; Joseph T. Sixeas, 
professional staff member; Robert M. Soofer, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Evelyn N. 
Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Maren R. Leed, professional staff member; Peter K. 
Levine, minority counsel; and William G.P. Monahan, minority 
counsel.
    Staff assistant present: Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Richard H. Fontaine, Jr., 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren M. Dick, assistant to Senator Roberts; 
Jayson Roehl, assistant to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; James P. Dohoney, Jr., assistant 
to Senator Collins; D'Arcy Grisier, assistant to Senator 
Ensign; Lindsey R. Neas, assistant to Senator Talent; Clyde E. 
Taylor IV, assistant to Senator Chambliss; Christine O. Hill, 
assistant to Senator Dole; Mieke Y. Eoyang, assistant to 
Senator Kennedy; Christina Evans and Erik Raven, assistants to 
Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi and Richard Kessler, assistants to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator E. Benjamin Nelson; and Todd 
Rosenblum, assistant to Senator Bayh.
    Chairman Warner. Mr. Secretary, we have a quorum present so 
I am going to ask the committee to consider the nominations of 
Joseph F. Bader and Bruce Matthews to be members of the Defense 
Nuclear Facilities Safety Board. Their nominations have been 
before the committee the required length of time and no 
objection has been raised.
    Is there a motion to favorably report the nominations of 
Mr. Bader and Mr. Matthews?
    Senator Levin. So moved.
    Chairman Warner. Is there a second?
    Senator Allard. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Opposed? [No response.]
    Further, we have before the committee the nominations of 
Otis W. Brawley, Jr., and Vinicio E. Madrigal to be members of 
the Board of Regents of the Uniformed Services University of 
the Health Services. Their nominations being before the 
committee the required period of time and no objections have 
been raised. Is there a motion to favorably report them out?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator Allard. Second.
    Chairman Warner. All in favor? [A chorus of ayes.]
    Opposed? [No response.]
    Now we proceed to a list of 459 pending military 
nominations. The nominations being before the committee the 
required length of time and no objections being raised in 
regards to them, is there a motion?
    Senator Levin. So moved.
    Senator Allard. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Thank you very much, gentlemen. Thank you, the witnesses, 
for deferring to us.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which Are Proposed for the Committee's Consideration on November 17, 
                                 2004.
    1. In the Air Force there is one appointment to the grade of major 
general (list begins with BGEN John H. Folkerts, USAF) (Reference No. 
1331-2).
    2. Lieutenant General Bruce A. Wright, USAF to be lieutenant 
general and Commander, U.S. Forces Japan and Commander, Fifth Air 
Force, Pacific Air Forces (Reference No. 2012).
    3. In the Navy there are 457 appointments to the grade of 
lieutenant (list begins with Armand P. Abad) (Reference No. 2021).
    Total: 459.
                                 ______
                                 
    [The nomination reference of Joseph F. Bader follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                   January 7, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Joseph F. Bader, of the District of Columbia, to be a Member of the 
Defense Nuclear Facilities Safety Board for a term expiring October 18, 
2007, vice Jessie M. Roberson, term expired.
                                 ______
                                 
    [The nomination reference of R. Bruce Matthews follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                      May 14, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    R. Bruce Matthews, of New Mexico, to be a Member of the Defense 
Nuclear Facilities Safety Board for a term expiring October 18, 2005, 
vice Joseph DiNunno, resigned, to which position he was appointed 
during the last recess of the Senate.
                                 ______
                                 
    [The nomination reference of Otis W. Brawley follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     April 1, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Otis Webb Brawley, Jr., of Georgia, to be a Member of the Board of 
Regents of the Uniformed Services University of the Health Sciences for 
a term expiring June 20, 2009. (Reappointment)
                                 ______
                                 
    [The nomination reference of Vinicio E. Madrigal follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     April 1, 2004.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Vinicio E. Madrigal, of Louisiana, to be a Member of the Board of 
Regents of the Uniformed Services University of the Health Sciences for 
a term expiring June 20, 2009. (Reappointment)

    [Whereupon, at 3:20 p.m., the executive session was 
adjourned and the committee proceeded to other business.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the Committee by the Executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the Committee by the Executive Branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre></body></html>
